<html>
<title> - THE NEW STRATEGIC ARMS REDUCTION TREATY AND IMPLICATIONS FOR NATIONAL SECURITY</title>
<body><pre>[Senate Hearing 111-897]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-897

        THE NEW START AND THE IMPLICATIONS FOR NATIONAL SECURITY

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                   JUNE 17; JULY 15, 20, 27, 29, 2010





         Printed for the use of the Committee on Armed Services









                                                        S. Hrg. 111-897

        THE NEW START AND THE IMPLICATIONS FOR NATIONAL SECURITY

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                   JUNE 17; JULY 15, 20, 27, 29, 2010

                               __________

         Printed for the use of the Committee on Armed Services


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
 65-071 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON ARMED SERVICES

                         (Before July 22, 2010)

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                                 ______

                      COMMITTEE ON ARMED SERVICES

                         (After July 22, 2010)

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           GEORGE S. LeMIEUX, Florida
MARK UDALL, Colorado                 SCOTT P. BROWN, Massachusetts
KAY R. HAGAN, North Carolina         RICHARD BURR, North Carolina
MARK BEGICH, Alaska                  DAVID VITTER, Louisiana
ROLAND W. BURRIS, Illinois           SUSAN M. COLLINS, Maine
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware
CARTE P. GOODWIN, West Virginia

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)








                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
 The New Strategic Arms Reduction Treaty and Implications for National 
                                Security
                             june 17, 2010

                                                                   Page

Clinton, Hon. Hillary Rodham, Secretary of State.................     5
Gates, Hon. Robert M., Secretary of Defense......................    10
Chu, Hon. Steven, Secretary of Energy............................    14
Mullen, ADM Michael G., USN, Chairman of the Joint Chiefs of 
  Staff..........................................................    18

   Sustaining Nuclear Weapons Under the New Strategic Arms Reduction 
                                 Treaty
                             july 15, 2010

Schwitters, Hon. Roy F., Ph.D., Chairman, Jason Defense Advisory 
  Group, and S.W. Richardson Foundation Regental Professor of 
  Physics, University of Texas at Austin.........................    96
Anastasio, Hon. Michael R., Ph.D., Director, Los Alamos National 
  Laboratory.....................................................   101
Miller, Hon. George H. Ph.D., Director, Lawrence Livermore 
  National Laboratory............................................   110
Hommert, Hon. Paul J., Ph.D., Director, Sandia National 
  Laboratories...................................................   119

       Implementation of the New Strategic Arms Reduction Treaty
                             july 20, 2010

Miller, Hon. James N. Ph.D., Principal Deputy Under Secretary of 
  Defense for Policy.............................................   192
D'Agostino, Hon. Thomas P. Administrator, National Nuclear 
  Security Administration, Department of Energy..................   199
Chilton, Gen. Kevin P., USAF, Commander, U.S. Strategic Command..   203

    Independent Analyses of the New Strategic Arms Reduction Treaty
                             july 27, 2010

Foster, Dr. John S., Jr., Independent Consultant.................   280
Miller, Franklin C., Independent Consultant......................   284
Payne, Dr. Keith B., Professor and Head, Graduate Department of 
  Defense and Strategic Studies, Missouri State University 
  (Washington Campus)............................................   285
Pifer, Ambassador Steven, Senior Fellow, Foreign Policy Center on 
  the United States and Europe, and Director, Arms Control 
  Initiative, the Brookings Institution..........................   292

                                 (iii)


   Continue to Receive Testimony on the New Strategic Arms Reduction 
                                 Treaty
                             july 29, 2010

Gottemoeller, Hon. Rose E., Assistant Secretary, Bureau of 
  Verification, Compliance, and Implementation, Department of 
  State..........................................................   344
Warner, Hon. Edward L., III, Ph.D., Secretary of Defense 
  Representative to Post-START Negotiations, Department of 
  Defense........................................................   349

 
 THE NEW STRATEGIC ARMS REDUCTION TREATY AND IMPLICATIONS FOR NATIONAL 
                                SECURITY

                              ----------                              


                        THURSDAY, JUNE 17, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, E. Benjamin Nelson, Bayh, McCaskill, Udall, Hagan, 
Begich, Burris, McCain, Inhofe, Chambliss, Thune, Brown, Burr, 
and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Jessica L. Kingston, research assistant.
    Minority staff members present: Christian D. Brose, 
professional staff member; Michael V. Kostiw, professional 
staff member; and Daniel A. Lerner, professional staff member.
    Staff assistants present: Paul J. Hubbard, Hannah I. Lloyd, 
Brian F. Sebold, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin and Vance 
Serchuk, assistants to Senator Lieberman; Nick Ikeda, assistant 
to Senator Akaka; Greta Lundeberg, assistant to Senator Bill 
Nelson; Ann Premer, assistant to Senator Ben Nelson; Patrick 
Hayes, assistant to Senator Bayh; Tressa Guenov, assistant to 
Senator McCaskill; Jennifer Barrett, assistant to Senator 
Udall; Roger Pena, assistant to Senator Hagan; Lindsay 
Kavanaugh, assistant to Senator Begich; Amanda Fox, assistant 
to Senator Burris; Jonathan Epstein, assistant to Senator 
Bingaman; Halie Soifer, assistant to Senator Kaufman; Anthony 
Lazarski and Rob Soofer, assistants to Senator Inhofe; Sandra 
Luff, assistant to Senator Sessions; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Andy Olson, assistant to 
Senator Graham; Jason Van Beek, assistant to Senator Thune; 
Erskine Wells III, assistant to Senator Wicker; Brian Walsh, 
assistant to Senator LeMieux; Scott Clendaniel, Scott Schrage, 
and William Wright, assistants to Senator Brown; Kevin Kane, 
assistant to Senator Burr; and Ryan Kaldahl, assistant to 
Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today the Armed 
Services Committee begins hearings on the New Strategic Arms 
Reduction Treaty (START). I would like to welcome our 
witnesses: Secretary of State Hillary Rodham Clinton, Secretary 
of Defense Robert Gates, Secretary of Energy Steven Chu, and 
Admiral Michael Mullen, the Chairman of the Joint Chiefs of 
Staff. It's a real pleasure to have all of you with us this 
morning.
    This, I think, is Secretary Chu's first appearance before 
the committee. I believe it is. In any event, you get a special 
welcome for that.
    The New START that is before us today is an important 
treaty that will, as Admiral Mullen said earlier this month, 
make our Nation more secure and advance our core national 
security interests. This treaty is in keeping with a long 
tradition of bilateral, verifiable arms control agreements with 
Russia and its predecessor, the Soviet Union, and it 
strengthens the United States' commitment to nonproliferation.
    The U.S. Senate has previously approved 10 bilateral arms 
control agreements with Russia, and before that the Soviet 
Union with overwhelming bipartisan majorities. Only 1 was 
opposed by more than 6 votes and, in that case, there were 19 
votes opposed to it, and that was in 1993.
    Three of these treaties were considered during some of the 
most difficult days of the Cold War and yet they were all 
approved with overwhelming support.
    This New START supports a credible nuclear deterrent and 
maintains the nuclear triad, while allowing both the United 
States and Russia to reduce the total number of nuclear 
weapons. Between them, the United States and Russia have more 
than 90 percent of the world's nuclear weapons. While each 
nation clearly has more weapons than needed, reductions will 
happen only through treaties, as neither side wants to be 
unilaterally disarming.
    This new treaty will help ensure that needed reductions 
continue one measured step at a time. Reductions of both 
nations' nuclear inventories are also required by the Nuclear 
Nonproliferation Treaty (NPT), and that is a treaty that we 
strive to have non-nuclear nations adhere to.
    This treaty continues the reductions started in the Moscow 
Treaty, which President George W. Bush negotiated. Unlike the 
Moscow Treaty, however, this treaty is a verifiable treaty with 
inspections and other mechanisms that will ensure transparency 
in the nuclear arsenals of each side. This treaty will 
continue, although with different mechanisms than the START I, 
the means to allow both the United States and Russia to monitor 
each other's nuclear systems.
    This new treaty and the attention that President Obama has 
brought to the threat from the proliferation of nuclear weapons 
and nuclear materials are critically important. The 
proliferation threat is real and includes the possibility that 
nuclear weapons and materials could fall into the hands of 
terrorists or others who wish to threaten the use of or use 
nuclear materials. Through this treaty and the related efforts 
to secure weapons-grade fissile materials, these dangers will 
be reduced.
    Fundamentally, this treaty is a treaty that limits 
strategic offensive nuclear arms. It does not limit anything 
else. Some might want it to limit more. Some might fear that it 
does limit more. But it does not. For instance, there have been 
statements made suggesting that the treaty imposes constraints 
on our missile defense plans and programs. That is simply 
incorrect. From the very beginning of the negotiations, this 
administration has been very clear this treaty limits strategic 
offensive nuclear arms, not missile defenses.
    A unilateral statement made by Russia concerning missile 
defense does not limit or constrain our missile defense 
efforts. Indeed, a U.S. unilateral statement makes it clear 
that ``Our missile defense systems are not intended to affect 
the strategic balance with Russia,'' and the United States 
missile defense systems would be employed to defend the United 
States against limited missile launches and to defend its 
deployed forces, allies, and partners against regional threats. 
The unilateral statement that we made also states that the 
United States intends to continue improving and deploying its 
missile defense systems in order to defend itself against 
limited attack and as part of our collaborative approach to 
strengthening stability in key regions.
    The unilateral statement of the United States will be made 
part of the record at this point.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. While the United States must maintain the 
stockpile with or without this treaty, this treaty does bring 
renewed attention to that nuclear stockpile. This new focus on 
maintaining the nuclear stockpile through increased scientific 
and technical rigor ensures a credible nuclear deterrent and 
paves the way to future reductions.
    In the early days of the stockpile stewardship program, 
significant strides were made in the ability of the nuclear 
weapons complex to maintain nuclear weapons without testing. It 
has been almost 18 years since the last explosive nuclear 
weapons test was conducted and still the stockpile remains 
safe, secure, and reliable. In many ways, the scientists and 
engineers know more today about nuclear weapons and how they 
function than they did in the days of testing.
    President Obama, Secretary Gates, Secretary Clinton, and 
Secretary Chu have laid out a plan to increase funding for the 
nuclear weapons complex and ensure a robust capability for the 
foreseeable future. Linton Brooks, the former Administrator of 
the National Nuclear Security Administration (NNSA), has said 
that he would have truly welcomed the budget as robust as this 
budget plan of the Obama administration.
    We look forward to a good discussion of all these issues 
with our distinguished witnesses, and I call upon Senator 
McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and I thank our 
distinguished witnesses for their service to our country and 
for joining us today to discuss the New START and its 
implications for our national security. In my years in the 
Senate I have supported previous bipartisan efforts to reduce 
our nuclear weapons in step with the Russian Government, and I 
have been proud to do so. As we evaluate the New START and 
consider how to vote on it, I think there are three areas of 
concern that need to be resolved.
    First, we need to be confident that the treaty is 
verifiable, and we will have a better sense of that once 
Congress receives the new national intelligence estimate.
    Second, we need to be confident that the treaty in no way 
limits the administration's ability and willingness to deploy 
missile defense capabilities, regardless of the statements made 
by the Russian government.
    Finally, we need to be confident that any future reductions 
in our nuclear stockpile will be accompanied by a serious long-
term commitment to modernizing our nuclear stockpile so we can 
have confidence in its safety, security, and reliability.
    On missile defense, as we are all aware, the concern that 
the New START could constrain our capabilities is an issue of 
significant importance. Secretary Gates, you have been quite 
clear ``that the treaty will not constrain the United States 
from deploying the most effective missile defenses possible, 
nor impose additional costs or barriers on those defenses.''
    While such assurances are welcome, they don't change the 
fact that the treaty text, not just the preamble but Article 5 
of the treaty itself, includes a clear legally-binding 
limitation on our missile defense options. Now, this might not 
be a meaningful limitation, but it's impossible to deny that it 
is a limitation, as the administration has said.
    I continue to have serious concerns about why the 
administration agreed to this language in the treaty text, 
after telling Congress repeatedly during the negotiations that 
they would do no such thing, and I fear it could fuel Russia's 
clear desire to establish unfounded linkages between offensive 
and defensive weapons.
    I look forward to discussing the rationale behind the 
treaty's references to missile defense, and, as we do, I would 
reiterate my long-held view that any notion of a Russian veto 
power over decisions on our missile defense architecture is 
unacceptable, and we should oppose any attempts by any 
administration to do so.
    As part of the administration's submittal of the New START 
to the Senate, the National Defense Authorization Bill for 
Fiscal Year 2010 required a report on the plan for modernizing 
the nuclear weapons complex and delivery vehicles. With respect 
to the nuclear weapons complex, I am skeptical that the 10-year 
funding plan for NNSA adequately addresses the recapitalization 
needs of the weapons complex. The double counting of funds, 
combining those already planned for sustainment with the 
modernization effort, paints a misleading picture. $80 billion 
over the next 10 years is certainly a substantial sum. However, 
only a fraction of that amount is actually above what would be 
allocated simply to sustain the current stockpile.
    Given the long-term neglect of the past decade, it is 
imperative that our investment fulfills our immediate and 
future national security needs. The administration's funding 
proposals establish an adequate baseline and, while more 
funding is likely needed, affordability must be closely 
scrutinized. A blank check is not the appropriate way to 
recapitalize our strategic deterrent. Modernizing our nuclear 
delivery vehicles, enhancing missile defense, and developing 
conventional weapons to augment our nuclear force far exceeds 
the necessary cost for the weapons complex alone.
    This future financial commitment is daunting, so we need to 
allocate each and every dollar wisely and to the greatest 
benefit of our national security, careful not to simply pass 
the funding burden on to future administrations and Congresses. 
We must have a clear understanding of these priorities from 
this administration, as well as a commitment that such 
investments will be represented in forthcoming budget requests.
    Let me conclude by saying this treaty will have 
implications on our nuclear force structure, and I look forward 
to hearing additional details on the composition of our 
strategic forces from our witnesses this morning.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Now let me start with Secretary Clinton.

  STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE

    Secretary Clinton. Thank you very much, Chairman Levin, 
Senator McCain, members of the committee. It's a great pleasure 
for me to return to testify before a committee that I was very 
honored to serve on.
    We are here today, Secretary Gates, Secretary Chu, Admiral 
Mullen, and myself, because we share a strong belief that the 
New START will make our country more secure, and we urge the 
Senate to ratify it expeditiously. Now, I know that some argue 
we don't need a New START, but let's be clear about the choice 
before us. It is between this treaty and no obligation for 
Russia to keep its strategic nuclear forces below an agreed 
level, and between this treaty and no on-the-ground 
verification of Russia's strategic forces.
    As Secretary Gates and then, as you, Chairman Levin, have 
pointed out, every previous President of both parties who faced 
this choice has concluded that the United States is better off 
with a treaty than without one, and the U.S. Senate has always 
agreed.
    More than 2 years ago, President Bush began this process 
that led to this treaty that we are discussing today. The New 
START has already received broad bipartisan endorsement. As 
James Schlesinger, the Secretary of Defense for Presidents 
Nixon and Ford, and the Secretary of Energy for President 
Carter, declared recently in his congressional testimony, ``It 
is obligatory for the United States to ratify.''
    Now, why do so many people who have studied this issue over 
so many years, coming from opposite ends of the political 
spectrum, agree so strongly? Well, today I'd like to discuss 
briefly what the New START is and also what it is not. This is 
a treaty that, if ratified, will provide stability, 
transparency, and predictability for the two countries with 
more than 90 percent of the world's nuclear weapons. It is a 
treaty that will reduce the permissible number of Russian and 
U.S. deployed strategic warheads to 1,550, a level not seen 
since the 1950s.
    In addition, each country will be limited to 700 deployed 
strategic delivery vehicles and 800 deployed and nondeployed 
strategic missile launchers and heavy bombers. These limits 
will help the United States and Russia bring our deployed 
strategic arsenals, which were sized for the Cold War, to 
levels that are more appropriate for today's threats.
    This is a treaty that will help us track remaining weapons 
with an extensive verification regime. Now, this regime draws 
upon our experience over the last 15 years in implementing the 
original START. The verification provisions reflect today's 
realities, including the much smaller number of facilities in 
Russia compared with the former Soviet Union. For the first 
time, we will be monitoring the actual numbers of warheads on 
deployed strategic missiles.
    By bringing the New START into force, we will strengthen 
our national security more broadly, including by creating 
greater leverage to tackle a core national security challenge: 
nuclear proliferation. This will also demonstrate our 
leadership and strengthen our hand as we work with others to 
hold irresponsible governments accountable, whether in further 
isolating Iran and enforcing the rules against violators, or in 
persuading other countries to implement better controls on 
their own nuclear materials.
    It makes clear that we are committed to real reductions, to 
upholding our end of the bargain under the NPT, which has 
already brought about important benefits in my discussions with 
foreign leaders about strengthening the nonproliferation regime 
and a range of other topics.
    I want to be also very clear that there are numerous things 
this treaty will not do. As Secretary Gates and Admiral Mullen 
will discuss more fully, the New START does not compromise the 
nuclear force levels we need to protect ourselves and our 
allies. It does not infringe upon the flexibility we need to 
maintain our forces, including bombers, submarines, and 
missiles, in the way that best serves our own national security 
interests.
    This treaty does not constrain our missile defense efforts. 
I want to underscore this because I know there have been a lot 
of concerns about it, and I anticipate a lot of questions. This 
is something this committee recently reiterated in the National 
Defense Authorization Bill for Fiscal Year 2011. Section 231 
reads: ``It is the sense of Congress that there are no 
constraints contained in the New START treaty on the 
development or deployment by the United States of effective 
missile defenses, including all phases of the Phased Adaptive 
Approach to missile defense in Europe and further enhancements 
to the ground-based midcourse defense system, as well as future 
missile defenses.''
    Now, I worked with some of you on this committee when I had 
the honor of serving in the Senate on behalf of a very strong 
missile defense system, so I want to make this point very 
clearly. Russia has, as the chairman said, issued a unilateral 
statement expressing its view, but that is not an agreed upon 
view, that is not in the treaty. It's the equivalent of a press 
release, and we are not in any way bound by it. In fact, we've 
issued our own statement, which is now part of the record, 
making clear that the United States intends and, in fact, is 
continuing to improve and deploy effective missile defense 
systems.
    The treaty's preamble does include language acknowledging 
the relationship between strategic offensive and defensive 
forces, but that's simply a statement of fact. It, too, does 
not in any way constrain our missile defense programs.
    The treaty also includes language--and I think this is 
Senator McCain's reference to Article 5--prohibiting the 
conversion or use of offensive missile launchers for missile 
defense interceptors, and vice versa. In fact, we had no 
intention of doing that anyway. As General O'Reilly, our 
missile defense director, has made clear in testimony, we 
reached the conclusion it is actually cheaper to build smaller, 
tailor-made missile defense silos than to convert offensive 
launchers. I mean, we could have had a long list stating we're 
not going to launch from any moving vehicle like a car or a 
truck or a cow. We could have said a lot of things that we're 
not going to do. The fact is, we weren't going to do them, and 
we weren't going to do this either.
    The treaty does not restrict us in any way from building 
new missile defense launchers, 14 of which are currently being 
constructed in Alaska. I think the very facts on the ground 
undermine and refute any argument to the contrary.
    The Obama administration has requested $9.9 billion for 
missile defense in fiscal year 2011. That is almost $700 
million more than Congress provided in fiscal year 2010.
    Finally, the New START does not restrict our ability to 
modernize our nuclear weapons complex to maintain a safe, 
secure, and effective deterrent. As Secretary Chu will discuss, 
this administration has called for a 10 percent increase in 
fiscal year 2011 for overall weapons and infrastructure 
activities, in a time of very serious budget constraints. We've 
called for a 25 percent increase in direct stockpile work. 
During the next 10 years, this administration proposes 
investing $80 billion in our nuclear weapons complex.
    Let me just conclude by taking a step back and putting the 
New START into a larger context. This treaty is one part of a 
broader effort to reduce the threat posed by the deadliest 
weapons the world has ever known, especially the potential 
intersection of violent extremism and nuclear proliferation. We 
have several coordinated efforts that have been briefed to this 
committee, including the Nuclear Posture Review (NPR), the 
recently concluded Nuclear Security Summit, and the NPT review 
conference, as well as extensive bilateral engagements.
    While a ratified New START stands on its own terms and, 
when you look at the very real benefits it provides to our 
national security, it is part of a broader strategy.
    Mr. Chairman, Senator McCain, members of the committee, we 
stand ready to work with you as you undertake your 
constitutional responsibilities with respect to this treaty, 
and we are ready to answer any and all questions. We hope that 
at the end of your deliberations you will come to the same 
conclusion that we and many others have reached, including many 
others who have sat in these chairs and voted in the Senate 
chamber, that this treaty makes our country more secure and 
merits the Senate's consent to ratification.
    Thank you.
    [The prepared statement of Secretary Clinton follows:]
           Prepared Statement by Hon. Hillary Rodham Clinton
    Chairman Levin, Senator McCain, and members of the committee, thank 
you for the opportunity to appear before you. It is a pleasure to be 
back here, and a pleasure to testify with Secretary Gates, Secretary 
Chu, and Admiral Mullen. We share a strong belief that the New 
Strategic Arms Reduction Treaty (START) will make our country more 
secure, and we urge the Senate to ratify it.
    I know that some argue we don't need the New START. But let's be 
clear about the choice before us. It is between this treaty and no 
legal obligation for Russia to keep its strategic nuclear forces below 
an agreed level, and between this treaty and no on-the-ground 
verification of Russia's strategic forces.
    As Secretary Gates has pointed out, every previous President who 
faced this choice has found that the United States is better off with a 
treaty than without one. The U.S. Senate has always agreed. The 2002 
Moscow Treaty was approved by a vote of 95 to 0. The vote on the 1991 
START treaty was 93 to 6.
    More than 2 years ago, President Bush began the process that led to 
the treaty we are discussing today. The New START treaty has already 
received broad bipartisan endorsement. As James Schlesinger, the 
Secretary of Defense for Presidents Nixon and Ford and Secretary of 
Energy for President Carter, declared recently in congressional 
testimony, ``It is obligatory for the United States to ratify.''
    Today, I'd like to discuss what the New START treaty is, and what 
it isn't.
    This is a treaty that, if ratified, will provide stability, 
transparency, and predictability for the two countries with more than 
90 percent of the world's nuclear weapons.
    It is a treaty that will reduce the permissible number of Russian 
and U.S. deployed strategic warheads to 1,550--a level not seen since 
the 1950s. In addition, each country will be limited to 700 deployed 
strategic delivery vehicles and 800 deployed and nondeployed strategic 
missile launchers and heavy bombers. These limits will help the United 
States and Russia bring our deployed strategic arsenals, which were 
sized for the Cold War, to levels that are more appropriate to today's 
threats.
    It is a treaty that will help us track remaining weapons with an 
extensive verification regime. This regime draws upon our experience 
over the last 15 years in implementing the original START treaty. The 
verification provisions reflect today's realities, including the 
smaller number of facilities in Russia compared with former Soviet 
Union. For the first time, we will be monitoring the actual numbers of 
warheads on deployed strategic missiles.
    By bringing the New START treaty into force, we will strengthen our 
national security more broadly, including by creating greater leverage 
to tackle a core national security challenge: nuclear proliferation.
    It will demonstrate our leadership and strengthen our hand as we 
work with our partners to hold irresponsible governments accountable--
whether in further isolating Iran and enforcing the rules against 
violators or in persuading other countries to implement better controls 
on their own nuclear materials. It makes clear that we are committed to 
real reductions, and to upholding our end of the bargain under the 
Nonproliferation Treaty--which has already brought important benefits 
in my discussions with foreign leaders, about strengthening the 
nonproliferation regime and a range of other topics. In my recent 
meetings with other NATO officials, they expressed an overwhelmingly 
positive and supportive view of the New START treaty.
    There are also things that this treaty will not do.
    As Secretary Gates and Admiral Mullen will discuss more fully, the 
New START treaty does not compromise the nuclear force levels we need 
to protect ourselves and our allies.
    It does not infringe upon the flexibility we need to maintain our 
forces, including bombers, submarines, and missiles, in the way that 
best serves our national security interests.
    The treaty does not constrain our missile defense efforts. Those of 
you who worked with me on this committee know my strong support of 
missile defense, so I want to make this point very clearly.
    Russia has issued a unilateral statement expressing its view. But 
we have not agreed to this view, and we are not bound by it. In fact, 
we've issued our own statement making clear that the United States 
intends to continue improving and deploying effective missile defense 
systems.
    The treaty's preamble does include language acknowledging the 
relationship between strategic offensive and defensive forces. But this 
is simply a statement of fact. It does not constrain our missile 
defense programs in any way.
    The treaty also includes language prohibiting the conversion or use 
of offensive missile launchers for missile defense interceptors, and 
vice versa. But as General O'Reilly, our Missile Defense Director, has 
said, it is actually cheaper to build smaller, tailor-made missile 
defense silos than to convert offensive launchers. The treaty does not 
restrict us from building new missile defense launchers, 14 of which 
are currently being constructed in Alaska.
    The Obama administration has requested $9.9 billion for missile 
defense in fiscal year 2011, almost $700 million more than Congress 
provided in fiscal year 2010.
    Finally, the New START treaty does not restrict our ability to 
modernize our nuclear weapons complex to maintain a safe, secure, and 
effective deterrent. As Secretary Chu will discuss, this administration 
has called for a 10-percent increase in fiscal year 2011 for overall 
weapons and infrastructure activities, and a 25-percent increase in 
direct stockpile work. During the next 10 years, this administration 
proposes investing $80 billion in our nuclear weapons complex.
    I want to conclude by taking a step back and putting the New START 
treaty into a larger context. This treaty is one part of a broader 
effort to reduce the threat posed by the deadliest weapons the world 
has ever known--especially the potential intersection of violent 
extremism and nuclear proliferation.
    We have several coordinated efforts--including our new Nuclear 
Posture Review, the recently concluded Nuclear Security Summit and 
Nonproliferation Treaty Review Conference, and extensive bilateral 
engagements. While a ratified New START treaty stands on its own in 
terms of the national security benefits it brings to our country, it is 
also part of this broader strategy.
    Mr. Chairman, Senator McCain, and members of the committee, thank 
you again for having us here today. We stand ready to work with you as 
you undertake your constitutional responsibilities, and to answer all 
your questions today and in the coming weeks.
    We are confident that at the end of this process, you will come to 
the same conclusion that we and many others have reached--that the New 
START treaty makes our country more secure and merits the Senate's 
consent to ratification.
    Thank you.

    Chairman Levin. Thank you very much, Secretary Clinton.
    Secretary Gates.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Mr. Chairman, Senator McCain, and members 
of the committee, thank you for the opportunity to speak today 
regarding the New START between the United States and Russia, 
an agreement that reduces the strategic nuclear forces of our 
two nations in a manner that strengthens the stability of our 
relationship and protects the security of the American people.
    America's nuclear arsenal remains a vital pillar of our 
national security, deterring potential adversaries and 
reassuring allies and partners. As such, the first step of the 
year-long NPR was an extensive analysis which, among other 
things, determined how many nuclear delivery vehicles and 
deployed warheads were needed. This in turn provided the basis 
for our negotiation of New START. The results of those studies 
give me confidence that the Department of Defense (DOD) will be 
able to maintain a strong and effective nuclear deterrent while 
modernizing our weapons to ensure that they are safe, secure, 
and reliable, all within the limits of the new treaty.
    The U.S. strategic nuclear deterrent will continue to be 
based on the triad of delivery systems, intercontinental 
ballistic missiles (ICBMs), submarine-launched ballistic 
missiles (SLBMs), and nuclear-capable heavy bombers, within the 
boundaries negotiated in the New START treaty. These are an 
upper boundary of 1,550 deployed warheads, up to 700 deployed 
ICBMs, deployed SLBMs, and nuclear-capable heavy bombers, and 
up to 800 deployed and nondeployed ICBM launchers, SLBM 
launchers, and heavy bombers equipped for nuclear armaments.
    Under this treaty, we retain the power and the freedom to 
determine the composition of our force structure, allowing the 
United States complete flexibility to deploy, maintain, and 
modernize our strategic nuclear forces in a manner that best 
protects our national security interests. DOD has established a 
baseline force structure to guide our planning, one that does 
not require changes to current or planned basing arrangements. 
DOD will retain 240 deployed SLBMs, distributed among 14 
submarines, each of which will have 20 launch tubes. This is 
the most survivable leg of the triad.
    Recognizing the need for flexibility in the bomber leg, we 
will retain up to 60 deployed heavy bombers, including all 18 
operational B-2s. Finally, the United States will retain up to 
420 deployed single-warhead Minuteman III ICBMs at our current 
3 missile bases.
    Let me also address some of the things the treaty will not 
affect. First, as Secretary Clinton has said, the treaty will 
not constrain the United States from deploying the most 
effective missile defenses possible, nor impose additional 
costs or barriers on those defenses. I remain confident in the 
U.S. missile defense program, which has made considerable 
advancements, including the testing and development of the SM-3 
missile, which we will deploy in Europe.
    As the administration's ballistic missile defense review 
and budget plans make clear, the United States will continue to 
improve our capability to defend ourselves, our deployed 
forces, and our allies and partners against ballistic missile 
threats. As Secretary Clinton has pointed out, our request for 
missile defense in the 2011 budget is $700 million over the 
enacted fiscal year 2010 number, and we are looking at an 
increase beyond that of potentially up to another billion 
dollars for fiscal year 2012. We have made all of this clear to 
the Russians in a unilateral statement made in connection with 
the treaty.
    It is not surprising that Russia continues to object to our 
missile defense program, as they have objected to all U.S. 
missile defense efforts for decades. The Russians know that our 
missile defenses are designed to intercept a limited number of 
ballistic missiles launched by a country such as Iran or North 
Korea. Our missile defenses do not have the capability to 
defend against the Russian Federation's large advanced arsenal. 
Consequently, U.S. missile defenses do not and will not affect 
Russia's strategic deterrent. To build such a capability, a 
missile shield of the kind envisioned in the 1980s, is 
technologically unfeasible, cost prohibitive, and 
destabilizing. Therefore, we have no plans to do so.
    Separately from the treaty, we are discussing missile 
defense cooperation with Russia, which we believe is in the 
interests of both nations. But such talks have nothing to do 
with imposing any limitations on our programs or deployment 
plans.
    Furthermore, the New START does not restrict our ability to 
develop and deploy conventional prompt global strike 
capabilities that could attack targets anywhere on the globe in 
an hour or less. The treaty's limit of 700 deployed delivery 
vehicles combined with the ceiling of 1,550 deployed warheads 
accommodates the limited number of conventional warheads we may 
need for this capability. We are also concurrently examining 
potential future prompt global strike systems that would not be 
limited by this treaty.
    In my view, a key contribution of this treaty is its 
provision for a strong verification regime. While the 
Intelligence Community will provide a detailed classified 
assessment, I would like to emphasize some of the key elements 
of this regime, which will monitor Russia's compliance with the 
treaty while also providing important insights into the size 
and composition of Russian strategic forces.
    The treaty allows each party to conduct up to 18 on-site 
inspections each year at operating bases for ICBMs, ballistic 
missile submarines (SSBNs), and nuclear-capable heavy bombers, 
as well as storage facilities, test ranges, and conversion and 
elimination facilities. The agreement establishes a database, 
updated every 6 months, which will help provide the United 
States with a rolling overall picture of Russia's strategic 
offensive forces. Unique identifiers for the first time will be 
assigned to each ICBM, SLBM, and nuclear-capable heavy bomber, 
allowing us to track accountable systems throughout their life 
cycle. The treaty provides for non-interference with national 
technical means of verification, such as reconnaissance 
satellites, ground stations, and ships. While telemetry is not 
needed to verify the provisions of this treaty, the terms 
nonetheless call for exchange of telemetry on up to five 
launches per year from each side.
    I'm confident that the New START will in no way compromise 
America's nuclear deterrent. Maintaining a credible deterrent 
requires an adequate stockpile of safe, secure, and reliable 
nuclear warheads. This calls for a reinvigoration of our 
nuclear weapons complex, that is our infrastructure and our 
science, technology, and engineering base. I might just add, 
I've been up here for the last four springs trying to get money 
for this, and this is the first time I think I have a fair shot 
of actually getting money for our nuclear arsenal.
    To this end, DOD is transferring $4.6 billion to the 
Department of Energy's (DOE) NNSA through fiscal year 2015. 
This transfer will assist in funding critical nuclear weapons 
life extension programs (LEPs) and efforts to modernize the 
nuclear weapons infrastructure.
    The initial applications of this funding, along with an 
additional $1.1 billion being transferred for naval nuclear 
reactors, are reflected in the President's 2011 budget request, 
which I urge Congress to approve.
    These investments in the NPR for warhead life extension 
represent a credible modernization plan to sustain the nuclear 
infrastructure and support our Nation's deterrent.
    Let me close with a final personal observation. I first 
began working on strategic arms control with the Russians in 
1970, 40 years ago, on a U.S. effort that led to the first 
Strategic Arms Limitation Agreement with Moscow 2 years later. 
The key question then and in the decades since has always been 
the same: Is the United States better off with a strategic arms 
agreement with the Russians or without it? The answer for 
successive presidents, as Secretary Clinton has said, of both 
parties has always been with an agreement. The U.S. Senate has 
always agreed. The same answer holds true for New START. The 
United States is better off with this treaty than without it, 
and I'm confident that it is the right agreement for today and 
for the future. It increases stability and predictability, 
allows us to sustain a strong nuclear triad, preserves our 
flexibility to deploy the nuclear and non-nuclear capabilities 
needed for effective deterrence and defense.
    In light of all these factors, I urge the Senate to give 
its advice and consent to ratification of the new treaty.
    [The prepared statement of Secretary Gates follows:]
               Prepared Statement by Hon. Robert M. Gates
    Mr. Chairman, Senator McCain, members of the committee:
    Thank you for the opportunity to speak today regarding the new 
Strategic Arms Reduction Treaty between the United States and Russia--
an agreement that reduces the strategic nuclear forces of our two 
nations in a manner that strengthens the stability of our relationship 
and protects the security of the American people.
    America's nuclear arsenal remains a vital pillar of our national 
security, deterring potential adversaries and reassuring allies and 
partners. As such, the first step of the year-long Nuclear Posture 
Review was an extensive analysis which, among other things, determined 
how many nuclear delivery vehicles and deployed warheads were needed. 
This in turn provided the basis for our negotiations of New START. The 
results of those studies give me confidence that the Department of 
Defense will be able to maintain a strong and effective nuclear 
deterrent while modernizing our weapons to ensure that they are safe, 
secure and reliable, all within the limits of the new treaty.
    The U.S. strategic nuclear deterrent will continue to be based on 
the triad of delivery systems--intercontinental ballistic missiles, 
submarine-launched ballistic missiles, and nuclear-capable heavy 
bombers--within the boundaries negotiated in the New START treaty.
    Those are:

        <bullet> An upper boundary of 1,550 deployed warheads;
        <bullet> Up to 700 deployed ICBMs, deployed SLBMs and nuclear-
        capable heavy bombers; and
        <bullet> Up to 800 deployed and nondeployed ICBM launchers, 
        SLBM launchers, and heavy bombers equipped for nuclear 
        armaments.

    Under this treaty, we retain the power to determine the composition 
of our force structure, allowing the United States complete flexibility 
to deploy, maintain and modernize our strategic nuclear forces in a 
manner that best protects our national security interests. The Defense 
Department has established a baseline force structure to guide our 
planning, one that does not require changes to current or planned 
basing arrangements.

        <bullet> The department will retain 240 deployed submarine-
        launched ballistic missiles, distributed among 14 submarines, 
        each of which will have 20 launch tubes. This is the most 
        survivable leg of the triad.
        <bullet> Recognizing the need for flexibility in the bomber 
        leg, we will retain up to 60 deployed heavy bombers, including 
        all 18 operational B-2s.
        <bullet> Finally, the United States will retain up to 420 
        deployed single-warhead Minuteman III ICBMs at our current 3 
        missiles bases.

    Let me also address some of the things that the New START treaty 
will not affect.
    First, the treaty will not constrain the United States from 
deploying the most effective missile defenses possible, nor impose 
additional costs or barriers on those defenses. I remain confident in 
the U.S. missile defense program, which has made considerable 
advancements, including the testing and development of the SM-3 
missile, which we will deploy in Europe.
    As the administration's Ballistic Missile Defense Review and budget 
plans make clear, the United States will continue to improve our 
capability to defend ourselves, our deployed forces and our allies and 
partners against ballistic missile threats. We made this clear to the 
Russians in a unilateral statement made in connection with the treaty.
    It is not surprising that Russia continues to object to our missile 
defense program as they have objected to all U.S. missile defense 
efforts for several decades. The Russians know that our missile 
defenses are designed to intercept a limited number of ballistic 
missiles launched by a country such as Iran or North Korea. Our missile 
defenses do not have the capability to defend against the Russian 
Federation's large, advanced arsenal. Consequentially, U.S. missile 
defenses do not, and will not, affect Russia's strategic deterrent. To 
build such a capability--a missile shield of the kind envisioned in the 
1980s--is technologically unfeasible, cost prohibitive, and 
destabilizing. Therefore we have no plans to do so. Separately from the 
treaty, we are discussing missile defense cooperation with Russia, 
which we believe is in the interest of both nations.
    Furthermore, the New START treaty does not restrict our ability to 
develop and deploy conventional prompt global strike capabilities that 
could attack targets anywhere on the globe in an hour or less. The 
treaty's limit of 700 deployed delivery vehicles, combined with the 
ceiling of 1,550 deployed warheads, accommodates the limited number of 
conventional warheads we may need for this capability. We are also 
currently examining potential future prompt global strike systems that 
would not be limited by this treaty.
    In my view, a key contribution of this treaty is its provision for 
a strong verification regime. While the Intelligence Community will 
provide a detailed classified assessment, I would like to emphasize 
some of the key elements of this regime, which will monitor Russia's 
compliance with the treaty while also providing important insights into 
the size and composition of Russian strategic forces.

        <bullet> The treaty allows each party to conduct up to 18 on-
        site inspections each year at operating bases for ICBMs, SSBNs 
        and nuclear-capable heavy bombers, as well as storage 
        facilities, test ranges and conversion and elimination 
        facilities.
        <bullet> The agreement establishes a database, updated every 6 
        months, which will help provide the United States with a 
        rolling overall picture of Russia's strategic offensive forces.
        <bullet> Unique identifiers for the first time will be assigned 
        to each ICBM, SLBM and nuclear-capable heavy bomber, allowing 
        us to track accountable systems throughout their life cycles.
        <bullet> The treaty provides for noninterference with national 
        technical means of verification such as reconnaissance 
        satellites, ground stations and ships.
        <bullet> While telemetry is not needed to verify the provisions 
        of this treaty, the terms nonetheless call for the exchange of 
        telemetry on up to five launches per year, for each side.

    I am confident that the New START treaty will in no way compromise 
America's nuclear deterrent. Maintaining a credible deterrent requires 
an adequate stockpile of safe, secure and reliable nuclear warheads. 
This calls for a reinvigoration of our nuclear weapons complex--that 
is, our infrastructure and our science, technology and engineering 
base.
    To this end, the Department of Defense is transferring $4.6 billion 
to the Department of Energy's National Nuclear Security Administration 
through fiscal year 2015. This transfer will assist in funding critical 
nuclear weapons life-extension programs and efforts to modernize the 
nuclear weapons infrastructure. The initial applications of this 
funding along with an additional $1.1 billion being transferred for 
naval nuclear reactors are reflected in the President's fiscal year 
2011 budget request, which I urge Congress to approve. These 
investments and the Nuclear Posture Review strategy for warhead life 
extension represent a credible modernization plan to sustain the 
nuclear infrastructure and support our Nation's deterrent.
    I would close with a final observation. I first began working on 
strategic arms control with the Russians in 1970, 40 years ago, a U.S. 
effort that led to the first strategic arms limitation agreement with 
Moscow 2 years later. The key question then and in the decades since 
has always been the same: is the United States better off with a 
strategic arms agreement with the Russians, or without it? The answer 
for successive presidents of both parties has always been, with an 
agreement. The U.S. Senate has always agreed, approving each treaty by 
lopsided bipartisan margins.
    The same answer holds true for New START. The United States is 
better off with this treaty than without it, and I am confident that it 
is the right agreement for today and for the future. It increases 
stability and predictability, allows us to sustain a strong nuclear 
triad, and preserves our flexibility to deploy the nuclear and non-
nuclear capabilities needed for effective deterrence and defense.
    In light of all these factors, I urge the Senate to give its advice 
and consent to ratification on the new treaty.

    Chairman Levin. Thank you very much, Secretary Gates.
    Secretary Chu.

       STATEMENT OF HON. STEVEN CHU, SECRETARY OF ENERGY

    Secretary Chu. Chairman Levin, Ranking Member McCain, and 
members of the committee, thank you for the opportunity to 
testify on the New START. New START is an important part of 
President Obama's nuclear security agenda. If ratified and 
entered into force, the treaty will commit the United States 
and the Russian Federation to lower levels of deployed 
strategic nuclear weapons in a transparent and verifiable way. 
This will increase stability between our countries while 
demonstrating our joint commitment to the NPT.
    Secretary Clinton, Secretary Gates, and Admiral Mullen are 
testifying to the diplomatic and security advantages of this 
treaty. I want to focus on how it will allow us to continue to 
modernize our nuclear security enterprise and to maintain 
scientific capabilities that ensure the safety, security, and 
effectiveness of our nuclear deterrent.
    The successes of our nuclear programs depend on the 
incredible technical capabilities at DOE's national 
laboratories. Our capabilities enable us to assess the 
stockpile annually, to extend nuclear weapon lifetimes, to 
assess other nations' nuclear capabilities, and to dismantle 
retired weapons. As the stockpile decreases in size, the role 
of science, technology, and engineering in deterrence will 
increase in importance.
    The New START will enhance, not harm, our ability to 
maintain the safety, security, and effectiveness of our nuclear 
weapons stockpile. This conclusion is based on three important 
considerations. First, the treaty supports our modernization 
agenda. Yesterday, I delivered a detailed stockpile stewardship 
and management plan that provides a multi-decade investment 
strategy needed to extend the life of key nuclear weapons 
systems, rebuild and modernize our facilities, and provide for 
the necessary physical and intellectual infrastructure. These 
modernization efforts provide a strong foundation for the 
limits on deployed nuclear weapons under the New START, and 
nothing in the treaty will constrain these efforts. None of 
DOE's sites will be subject to inspection under the New START 
and none of our operations will be subject to limitation. We 
will be able to maintain and improve the scientific base of our 
nuclear weapons activities.
    Second, the United States will remain free to determine the 
size of its inactive stockpile. The weapons in the inactive 
stockpile will continue to be retired and dismantled consistent 
with DOD's requirements and presidential direction, and we 
remain on track to meet our program's requirement to dismantle 
all the retired warheads currently in the dismantlement queue 
by 2022. Nothing in this treaty imposes any restrictions on 
this work.
    Third, the treaty provides the explicit right of both 
parties to determine the composition and structure of their 
nuclear forces within the treaty's overall limits. Further, the 
New START contains no limitations that could constrain our 
warhead LEP options or work to assess and correct any future 
warhead issue. As was made clear in the NPR, this 
administration is committed to studying all options available 
for future LEPs, including reuse, refurbishment, and 
replacement on a case by case basis.
    We are committed to fully funding the ongoing LEP for the 
W76 submarine-based warhead for completion in 2017 and for the 
full scope LEP study and follow-on activities for the B61 bomb 
to ensure first production begins in 2017. We will also 
participate in the Nuclear Weapons Council on a study of the 
LEP options for the W78 ICBM warhead. The New START does not 
place any limits on any of these programs.
    I believe these factors point to a treaty that enhances 
U.S. national security without jeopardizing the nuclear 
deterrent that helps underwrite it. As you consider this 
treaty, you can be certain that the Nation's nuclear stockpile 
will remain safe, secure, and effective. To modernize our 
enterprise, we are investing in science, technology, and 
engineering. The President's fiscal year 2011 budget request 
would increase science funding in the NNSA by more than 10 
percent. We are investing in the infrastructure we need. The 
highest infrastructure priorities are the construction of major 
new nuclear facilities for plutonium and uranium. We are 
investing in human capital and creating an environment that can 
attract highly trained and motivated personnel.
    I should also depart and say that these personnel, over 150 
of them, for over 40 days and in large part 40 nights have been 
turning their attention to the Gulf spill, and it's been 
remarkable to see that work.
    We have begun this work already, but it will take sustained 
leadership from this Congress to see it through. The 
President's fiscal year 2011 budget request reflects a 13 
percent increase over fiscal year 2010 and includes more than 
$7 billion for weapons activities and infrastructure. Over the 
course of the next decade, our plans call for an investment of 
$80 billion. With Congress' support, we will transform from a 
Cold War capacity-based infrastructure to a modern 
capabilities-based nuclear security enterprise. This will 
provide the confidence and the tools that allow the United 
States to consider further nuclear reductions as we work toward 
a world without nuclear weapons.
    Thank you and I look forward to your questions.
    [The prepared statement of Secretary Chu follows:]
                 Prepared Statement by Hon. Steven Chu
    Chairman Levin, Ranking Member McCain, and members of the 
committee, thank you for the opportunity to testify on the treaty 
between the United States of America and the Russian Federation on 
Measures for the Further Reduction and Limitation of Strategic 
Offensive Arms, known as ``New START.''
    In Prague last April, President Obama outlined a comprehensive 
agenda for addressing nuclear dangers in the 21st century. He pledged 
to take concrete steps toward a world without nuclear weapons, while 
maintaining the safety, security, and effectiveness of our arsenal as 
long as nuclear weapons exist. The President has called for reducing 
the role of nuclear weapons in our national security strategy and for 
building a new international framework for civil nuclear cooperation, 
and he has promised to lead an international effort to secure all 
vulnerable nuclear material around the world within 4 years.
    Building on that commitment, the President's Nuclear Posture Review 
put preventing the spread of nuclear weapons to terrorists and to 
states that don't already possess them at the very top of our national 
security agenda. The danger of a nuclear weapon falling into the wrong 
hands is the greatest threat facing the American people. The President 
has laid out an unprecedented commitment to taking real, practical and 
clear-eyed steps to keep the American people safe.
    The New START treaty is an important part of this nuclear security 
agenda. If ratified and entered into force, the treaty will commit the 
United States and Russian Federation to lower levels of deployed 
strategic nuclear weapons in a transparent and verifiable manner. This 
will increase stability between our countries while demonstrating our 
joint commitment to the Nuclear Nonproliferation Treaty.
    Secretary Clinton, Secretary Gates, and Admiral Mullen are 
testifying to the diplomatic and security advantages of this treaty. I 
want to focus on how this treaty will allow the United States to 
continue to modernize our nuclear security enterprise and to maintain 
the scientific capabilities that ensure the safety, security, and 
effectiveness of our nuclear deterrent.
    The success of our nuclear programs depends upon the incredible 
technical capabilities at the Department of Energy's national 
laboratories. We are proud to employ some of our Nation's brightest 
minds and to be home to some of the world's most sophisticated 
scientific equipment. This equipment includes the world's fastest 
supercomputers and the ability to conduct the most advanced 
investigations of self-sustained nuclear reactions at the National 
Ignition Facility.
    Our capabilities enable us to assess the stockpile annually, to 
extend nuclear weapon lifetimes, to assess other nations' nuclear 
capabilities, and to dismantle retired weapons. As the stockpile 
decreases in size, the role of science, technology and engineering in 
deterrence will increase in importance.
    The New START will enhance, not harm, our ability to maintain the 
safety, security, and effectiveness of our nuclear weapons stockpile. 
This conclusion is based on three important considerations:
    First, the treaty supports our modernization agenda. The Nuclear 
Posture Review recognizes the importance of supporting ``a modern 
physical infrastructure--comprised of the national security 
laboratories and a complex of supporting facilities--and a highly 
capable workforce with the specialized skills needed to sustain the 
deterrent.'' This month, I am delivering a detailed plan to Congress 
for transforming today's nuclear weapons complex into a modern, 
efficient and responsive 21st century Nuclear Security Enterprise. This 
Stockpile Stewardship and Management Plan provides the multi-decade 
investment strategy needed to extend the life of key nuclear weapon 
systems, rebuild and modernize our facilities, and provide for 
necessary physical and intellectual infrastructure.
    These modernization efforts provide a strong foundation for the 
limits on deployed nuclear weapons under the New START treaty, and 
nothing in the treaty will constrain these efforts. None of the 
Department of Energy's NNSA sites--including our production and 
national laboratory facilities--will be subject to inspection under the 
New START treaty, and none of our operations will be subject to 
limitation. We will be able to maintain and improve the scientific base 
of our nuclear weapons activities.
    Second, the United States will remain free to determine the size of 
the inactive stockpile. This inactive stockpile supports stockpile 
maintenance, surveillance and life extension activities, including 
component reuse. It is an important technical and geopolitical hedge.
    The weapons in the inactive stockpile will continue to be retired 
and dismantled consistent with Department of Defense requirements and 
Presidential direction, and we remain on track to meet our program 
requirement to dismantle all the retired warheads currently in the 
dismantlement queue by 2022. Nothing in this treaty imposes any 
restrictions on this work.
    Third, the treaty provides the explicit right of both parties to 
determine the composition and structure of their nuclear forces within 
the treaty's overall limits. This means that, should a problem arise 
with a particular warhead type, we will have complete flexibility to 
restructure our deployments and upload weapons to other systems if 
necessary to compensate and ensure the sustainment of an effective 
deterrent.
    Further, the New START treaty contains no limitations that would 
constrain our warhead life extension program (LEP) options, or the work 
to assess and correct any potential future warhead issue. The New START 
treaty will have no impact on any decisions regarding warhead life 
extension.
    As was made clear in the Nuclear Posture Review (NPR), this 
administration is committed to studying all of the options available 
for future LEPs--including reuse, refurbishment, and replacement--on a 
case-by-case basis. This approach has been endorsed by the Directors of 
our three National Nuclear Security Administration (NNSA) laboratories, 
who said, ``The approach outlined in the NPR, which excludes further 
nuclear testing and includes the consideration of the full range of 
life extension options . . . provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''
    These decisions will be based on U.S. national security and 
stockpile requirements, informed by our best scientific judgment and 
consistent with the guidance contained in the Nuclear Posture Review 
and the plans outlined in the Stockpile Stewardship and Management 
Plan. Nothing in the New START treaty would limit those options in any 
way.
    We are committed to fully funding the ongoing LEP for the W76 
submarine-based warhead for completion in 2017, and the full scope LEP 
study and follow-on activities for the B61 bomb to ensure first 
production begins in 2017. We will also participate with the Nuclear 
Weapons Council on a study of LEP options for the W78 ICBM warhead. The 
New START treaty does not place any limits on any of those programs.
    I believe these factors point to a treaty that enhances U.S. 
national security without jeopardizing the nuclear deterrent that helps 
underwrite it.
    As you consider this treaty, you can be certain that the Nation's 
nuclear stockpile will remain safe, secure, and effective. I want to 
take a few minutes to elaborate on some of the steps the Department of 
Energy and the NNSA are taking to modernize our enterprise.

        <bullet> We are investing in science, technology, and 
        engineering. The Nuclear Posture Review concluded that we need 
        increased investments to strengthen an aging physical 
        infrastructure and to sustain scientific and technical talent 
        at our Nation's national security laboratories. This will allow 
        us to continue to assess and certify the stockpile without 
        underground nuclear testing utilizing advanced scientific 
        capabilities. The President's fiscal year 2011 budget request 
        would increase science funding at NNSA by more than 10 percent.
        <bullet> We are investing in the infrastructure we need. A 
        successful stockpile stewardship and management program 
        requires a modernized infrastructure, including major long-term 
        construction projects. The highest infrastructure priorities 
        are the construction of major new nuclear facilities for 
        plutonium and uranium. As Administrator Tom D'Agostino and I 
        have stated, we must replace outdated 1950s-era facilities with 
        modern, efficient, cost-effective, and properly-sized 
        facilities.
        <bullet> We are investing in human capital. World-class 
        laboratories and production plants are sustained by the best 
        and brightest minds. Through the renewed sense of urgency 
        reflected in the President's April 2009 Prague speech and 
        through the very challenging technical program that includes 
        LEPs and with national security challenges beyond directed 
        stockpile work, we are creating an environment that can attract 
        highly-trained and motivated personnel. We must bring new 
        scientists and engineers into this field.

    We have begun this work already, but it will take sustained 
leadership from this Congress to see it through. The President's fiscal 
year 2011 budget request reflects a 13 percent increase over fiscal 
year 2010 and includes more than $7 billion for weapons activities and 
infrastructure. The National Nuclear Security Administration's Future 
Years Nuclear Security Program budget includes more than $36 billion 
for these activities over the next 5 years. Over the course of the next 
decade, our plans call for the investment of $80 billion.
    With Congress' support, we will transform from a Cold War capacity-
based infrastructure to a modern, capabilities-based Nuclear Security 
Enterprise. This will provide the confidence and the tools to allow the 
United States to consider further nuclear weapons reductions as we work 
toward a world without nuclear weapons.
    In conclusion, the New START treaty will serve the interests of the 
United States without jeopardizing our ability to sustain the safety, 
security and effectiveness of the U.S. nuclear weapons stockpile. 
Irrespective of the treaty, we need to invest in modernizing our 
enterprise and extending the life of the nuclear weapons stockpile, but 
we are up to this task. Together, we will ensure our ability to retain 
a safe, secure, and effective nuclear deterrent for as long as nuclear 
weapons exist.
    Thank you, and I look forward to answering your questions.

    Chairman Levin. Thank you very much, Secretary Chu.
    Admiral Mullen.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Chairman Levin, Senator McCain, and 
distinguished members of the committee, I am pleased to add my 
voice in support of ratification of the New START and to do so 
as soon as possible. We are in our 7th month without a treaty 
with Russia.
    This treaty has the full support of your uniformed 
military. Throughout its negotiations, Secretaries Clinton and 
Gates ensured that professional military perspectives were 
thoroughly considered. During the development of the New START, 
I was personally involved, to include two face-to-face 
negotiating sessions and several conversations, other 
conversations with my counterpart, the chief of the Russian 
general staff, General Makarov, regarding key aspects of the 
treaty.
    The Joint Chiefs and I also had time to review the analytic 
work done in the NPR regarding the shape of future U.S. 
strategic nuclear forces. Its recommendations were transmitted 
as guidance to the negotiating team in Geneva regarding the 
three central limits on strategic systems and the warheads 
associated with them that are contained in the treaty.
    In short, the conclusion and implementation of the New 
START is the right thing for us to do, and we took the time to 
do it right. The chiefs and I believe the New START achieves 
important and necessary balance between three critical aims. It 
allows us to retain a strong and flexible American nuclear 
deterrent. It helps strengthen openness and transparency in our 
relationship with Russia. It also demonstrates our national 
commitment to reducing the worldwide risk of a nuclear incident 
resulting from the continuing proliferation of nuclear weapons.
    I firmly believe that the central limits established in 
this treaty and the provision that allows each side the freedom 
to determine its own force mix provides us with the necessary 
flexibility to field the right future force to meet the 
Nation's needs. We plan to retain our triad of bombers, SSBNs, 
and land-based ICBMs in sufficient diversity and numbers to 
assure strategic stability between ourselves and the Russian 
Federation. We will also maintain sufficient capability to 
deter other nuclear states.
    In addition, the agreement provides for an array of 
important verification measures that are critical to both sides 
in monitoring compliance with the new treaty, and those have 
been spoken to in earlier statements.
    This treaty is also a critical element in the President's 
agenda for reducing nuclear risks to the United States, our 
allies, and partners and the wider international community. Our 
recently concluded NPR acknowledges the continuing role for 
nuclear weapons in the defense of America, while placing 
additional emphasis on positive steps to prevent nuclear 
terrorism and the risks from nuclear proliferation.
    In summary, this New START agreement is important in itself 
and should also be viewed in a wider context. It makes 
meaningful reductions in the U.S. and Russian strategic nuclear 
arsenals while strengthening strategic stability and the United 
States' national security. Coupled with the administration's 
clear commitment to prudently invest in our aging nuclear 
infrastructure and in warhead life extension programs, this 
treaty is a very meaningful step forward. I encourage the 
Senate to fully study the treaty. I believe you will see the 
wisdom of ratifying it, and I sit before you today recommending 
that you do so.
    Thank you, sir.
    [The prepared statement of Admiral Mullen follows:]
            Prepared Statement by ADM Michael G. Mullen, USN
    Chairman Levin, Senator McCain, distinguished members of the 
committee; I am pleased to add my voice in support for ratification of 
the New Strategic Arms Reduction Treaty (START) treaty.
    This treaty has the full support of your uniformed military. 
Throughout its negotiation, Secretaries Clinton and Gates ensured that 
professional military perspectives were thoroughly considered. During 
the development of the New START treaty I was personally involved, to 
include two face-to-face negotiating sessions and three telephone 
conversations with my counterpart, the Chief of the Russian General 
Staff, General Makarov, regarding key aspects of the treaty.
    The Joint Chiefs and I also had time to review the analytic work 
done in the Nuclear Posture Review (NPR) regarding the shape of future 
U.S. strategic nuclear forces. Its recommendations were transmitted as 
guidance to the negotiating team in Geneva regarding the three central 
limits on strategic systems and the warheads associated with them that 
are contained in the treaty. In short, the conclusion and 
implementation of the New START treaty is the right thing for us to 
do--and we took the time to do it right.
    The Chiefs and I believe the New START treaty achieves important 
and necessary balance between three critical aims. It allows us to 
retain a strong and flexible American nuclear deterrent. It helps 
strengthen openness and transparency in our relationship with Russia. 
It also demonstrates our national commitment to reducing the worldwide 
risk of nuclear incident resulting from the continuing proliferation of 
nuclear weapons.
    You should know that I firmly believe that the central limits 
established in this treaty and the provision that allows each side the 
freedom to determine its own force mix provides us with the necessary 
flexibility to field the right future force to meet the Nation's needs. 
We plan to retain our Triad of bombers, ballistic missile submarines 
and land-based intercontinental ballistic missiles in sufficient 
diversity and numbers to assure strategic stability between ourselves 
and the Russian Federation. We will also maintain sufficient capability 
to deter other nuclear states. In addition, the agreement provides for 
an array of important verification measures that are critical to both 
sides in monitoring compliance with the new treaty.
    This treaty is also a critical element in the President's agenda 
for reducing nuclear risks to the United States, our allies and 
partners, and the wider international community. Our recently concluded 
NPR acknowledges the continuing role for nuclear weapons in the defense 
of America, while placing additional emphasis on positive steps to 
prevent nuclear terrorism and the risks from nuclear proliferation.
    In summary, this New START agreement is important in itself, and 
should also be viewed in wider context. It makes meaningful reductions 
in the U.S. and Russian strategic nuclear arsenals while strengthening 
strategic stability and U.S. national security. Coupled with the 
administration's clear commitment to prudently invest in our aging 
nuclear infrastructure and in nuclear warhead life extension programs, 
this treaty is a very meaningful step forward. I encourage the Senate 
to fully study the treaty. I believe you will see the wisdom of 
ratifying it, and I sit before you today recommending that you do so.

    Chairman Levin. Thank you very much, Admiral Mullen.
    Because of the large number of Senators that are here this 
morning and because Secretary Gates must leave a few minutes 
after 11:30 a.m., we're going to having a first round of 
questioning that's going to be limited to 5 minutes, and then 
if there are additional questions and there's time after that 
first round, we will try to have a second round, which might be 
a few minutes each.
    Secretary Clinton, let me start with you. During the course 
of the negotiations on the New START, were there any side 
agreements, any informal agreements, any secret agreements with 
Russia that are not included in the treaty relative to any 
limitations on U.S. missile defenses or any other subject?
    Secretary Clinton. No.
    Chairman Levin. Let me ask this of Secretary Gates. Article 
5, paragraph 3, of the treaty would prohibit the future 
conversion of ICBM silos or SLBM launchers to be used for 
missile defense interceptors, and vice versa. Now, you've 
testified, I believe, that--I think Secretary Clinton testified 
perhaps, maybe you did too--we have no plans to do such 
conversions and that it would not make any sense to do so 
because the cost is greater than a new silo for the purpose of 
missile defense.
    But there's also a larger issue of the potential 
misunderstanding or miscalculation, it seems to me, if either 
side could use silos of one type for the other purpose. Would 
you agree, Mr. Secretary, that it could be potentially 
destabilizing and dangerous if either side were to launch 
missile defense interceptors from ICBM silos or from SSBNs 
because such launches could appear to the other side to be 
launches of ICBMs or SLBMs?
    Secretary Gates. First, I would like to just reinforce 
Secretary Clinton's testimony to the effect that not only did 
we not have any plans currently to transform or convert ICBM 
silos into missile defense silos; as you said, it doesn't make 
any sense from a financial standpoint. It's a lot cheaper to 
build missile defense silos on their own, as we are doing at 
Fort Greeley, AK.
    Yes, I think it would be destabilizing if you didn't know 
what was coming out of a missile silo. I think this is one of 
the challenges, frankly, that we face as we go forward with 
conventional prompt global strike. Any of these things that are 
confusing to a party on the other side, I think, needs to be 
dealt with very carefully.
    Chairman Levin. You made a very brief reference in that 
comment to what we're planning to build at Fort Greeley in 
Alaska. I believe that reference is to the plans to build eight 
spare silos there. Does that not make it clear, even more clear 
than I think it already is, that there is no constraint on our 
ability to build those missile defense silos or even more if 
needed?
    Secretary Gates. Yes. We are not only building out the 
second site at Fort Greeley, but then there will be eight spare 
silos once that work is complete.
    Chairman Levin. Admiral, let me ask you a question about 
the verification issues. We don't yet have a national 
intelligence estimate on verification under New START, but is 
it your judgment that this treaty is verifiable? Was the 
Intelligence Community involved during these negotiations?
    Admiral Mullen. Yes, sir, the Intelligence Community was 
involved throughout, both obviously internally in our 
discussions, as well as in our negotiations with the Russians. 
It is my judgment that this treaty provides the necessary means 
to adequately verify, consistent with previous treaties, even 
though some of the verification means are different. Secretary 
Gates pointed out the numbers of inspections. Something that is 
very specifically different is the agreement in the treaty to 
put unique identifiers on every single weapon. Clearly, it 
continues to support the national technical means and an 
ability to verify.
    Speaking specifically of telemetry, while not required, the 
agreement also included the exchange of telemetry on up to five 
launch missile tests or launches every year. In totality, I'm 
very comfortable with the verification regime that exists in 
the treaty right now.
    Chairman Levin. As a matter of fact, is there not a concern 
from an intelligence perspective as to the status quo; that 
there are no verification provisions that currently exist, and 
there are no inspections that currently exist without this 
treaty?
    Admiral Mullen. Absolutely, absolutely. As I said, we're in 
our 7th month right now with no treaty with the Russians. I 
will just reemphasize what Secretary Gates said, that we are 
much better, in my view, with it than without it.
    Chairman Levin. Including from a verification perspective?
    Admiral Mullen. Yes, sir.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses. Secretary Clinton, I understand 
we've yet to receive requested data on Russian compliance and 
verification since 2005. When do we expect that data to be 
available to the Senate?
    Secretary Clinton. Senator McCain, that will be available 
shortly. We are moving as quickly as possible. I know how 
important that is for your consideration, and we will get it to 
you very shortly.
    Senator McCain. Thank you.
    Both you and Secretary Gates have talked about Article 5, 
that it would never be considered, that it would not be 
something that we would ever plan on. Why is it in the treaty 
then?
    Secretary Clinton. Well, it's in the treaty in effect, I 
would argue, Senator, because there have been longstanding 
discussions between the Russians and the United States that 
arose during the implementation of START I. Specifically, there 
were questions asked about whether or not these silos that 
cover the countryside in many of our States, that are no longer 
operative, were going to be converted. We said no; we had no 
intention of continuing with the conversion, and this would now 
be no longer a subject of continuing contention or discussion.
    It seemed to us to be a smart negotiating decision to put 
something in that frankly we never intended to pursue. There 
were a number of issues that were very, very difficult to 
resolve in this treaty. Just mentioning two of them, the kind 
of verification, along with the numbers of visits and 
telemetry. In the course of the negotiation, to state that 
we're not going to do something we're not going to do seemed to 
be an appropriate position for us to take.
    Senator McCain. If we were going to state in a treaty 
everything we were not going to do, it could be a very heavy 
document.
    Here's my fundamental dilemma that I think many of us face. 
At the time of the signing of the treaty, the statement was 
made by the Russians, ``This treaty between the Russian 
Federation and the United States of America signed at Prague on 
April 8, 2010, may be effective and viable only in condition 
where there is no qualititative or quantitative buildup in the 
missile defense system capabilities of the United States of 
America.''
    That is a strong statement at the time of the signing of 
the treaty.
    Then President Medvedev made the statement on April 12, in 
an interview with George Stephanopoulos, where he said the two 
countries negotiated a formula in the preamble of the New START 
that states there is ``an interconnection between the strategic 
offensive arms and missile defense. So if these circumstances 
will change, then we will consider it is a reason to jeopardize 
the whole agreement.'' That's what President Medvedev said.
    Foreign Minister Sergei Lavrov said on March 30 in a press 
conference after the G-8 foreign ministers meeting in Canada 
that there are obligations regarding missile defense in the 
treaty text and the accompanying interpretive text that 
constitute ``a legally binding package,'' et cetera.
    Now, I, for one, am going to have to get some kind of 
statement from the Russians as to exactly what this treaty 
means in their view. If the statement, the signing statement at 
the time that states there's an interconnection between this 
treaty and missile defense systems, that clearly states that 
``only in condition that there is no qualitative or 
quantitative buildup in the missile defense capabilities of the 
United States of America,'' that's a pretty clear statement.
    President Medvedev has made the same statement. Foreign 
Minister Lavrov has made the same statement. So Russian 
leadership have all made the statement that this treaty is 
contingent upon the United States not changing or undertaking 
qualitative or quantitative buildup in missile defense systems. 
That's bound to be worrisome to anyone, particularly in light 
of the decision that was made concerning the Polish and Czech 
missile defense systems' cancellation or replacement with 
another system that was done earlier in this administration.
    It's clear from many statements that Russian leadership has 
made that there is a very different interpretation of this 
treaty from what has been stated here concerning the connection 
to missile defense systems and that of the Russians. I'd be 
more than happy to hear your response.
    Thank you, Mr. Chairman.
    Secretary Clinton. Well, Senator, thank you for giving us 
the opportunity to respond. Let me start by saying that 
historically there have been these kinds of unilateral 
statements made by the Russians. In fact, in connection with 
the signing of the original START, the Russians made similar 
statements that it would consider U.S. withdrawal from the 
Antiballistic Missile (ABM) Treaty as sufficient grounds for 
its withdrawal from START. However, when the United States 
withdrew from the ABM Treaty in 2001, the Russia Federation, as 
the successor to the Soviet Union, did not withdraw.
    Second, these unilateral statements have no binding effect, 
no legal effect. The agreement that Presidents Obama and 
Medvedev signed is the treaty.
    Third, as with many other arms control treaties, it 
provides that either party, including obviously us, may 
withdraw from the treaty if that party decides that 
extraordinary events have jeopardized its security interests. 
Now, the Russian unilateral statement merely reflects its 
current view that they disagree, as we've heard for years, with 
our commitment to building up missile defense system 
capabilities.
    It is not in any way affecting us by undermining that 
commitment. We remain committed, as you heard, in word and 
deed, most particularly in financial ways.
    Finally, what we read from President Medvedev in an April 
statement--I'm not sure it's exactly the same one that you 
quoted from--when asked about the unilateral statements, said, 
``That doesn't mean that because of this, if the American side 
starts to build up the missile defense, statement that the 
treaty would automatically lose its power.''
    Then he went on to say, ``I would like to make sure that 
there is no impression that any change in the U.S. missile 
defense system would be a reason to abandon a signed 
agreement.''
    I view the unilateral statement--and we have one of our 
own, which is now in the record--as really a kind of press 
release, if you will. Here's our position, but we just signed a 
treaty which, as even the President of the Russian Federation 
says, is truly the agreement that we're going to be following.
    I understand the question, but I think that both 
historically and substantively and then even in the words of 
President Medvedev, this is not an issue that in any way 
constrains or limits our commitment to missile defense.
    Secretary Gates. I would just make two very quick comments. 
First, to reinforce the point, the Russians can say what they 
want. If it's not in the treaty, it's not binding on the United 
States.
    Second, what's interesting is, even in their own unilateral 
statement, they hedged because, at the end of the statement, 
they say about the buildup in missile defense capabilities, 
``such that it would give rise to a threat to the strategic 
nuclear force potential of the Russian Federation.'' I said in 
my opening statement that we have no intention of creating such 
a capability that would threaten the strategic deterrent 
capability of the Russia rocket forces, so even they basically 
gave themselves an out.
    Senator McCain. Of course, that's in the eye of the 
beholder. We obviously have a situation here where the official 
statement of the Russian Government states unequivocally, and 
follow-up statements by members of the Russian Government, that 
this treaty would be directly affected ``only in conditions 
where there is no qualitative or quantitative buildup in the 
missile defense system capabilities of the United States of 
America.''
    It is at best an ambiguous situation.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman, and thanks to all 
of you for being here.
    Let me begin with this statement. My own feeling is that if 
this New START is ratified, it will be a small step forward for 
mankind, but a long way, I'm sure you'd agree, from the dream 
that people harbor of having a nuclear-free world. The sad fact 
is that the current state of international relations, as well 
as human history, suggests that we're not on the verge of 
seeing a transformation of human behavior to lead us to a point 
where we will have a nuclear-free world.
    As we take this small step forward in reducing the number 
of deployed strategic warheads, it of course makes the status 
of our nuclear stockpile, somewhat smaller as a result of this 
treaty if it's ratified, even more important. I want to just 
state the observation that there will be a lot of issues, some 
already raised here today, about this treaty, but ultimately I 
think that whether or not the New START is ratified will depend 
on Members of the Senate of both parties having the confidence 
that the administration is committed to modernizing our current 
nuclear stockpile.
    As you suggested, Secretary Gates, in an interesting way, 
in kind of a twist of fate, the ratification of this arms 
control treaty may actually enable you and the administration 
and the last administration to receive the funding from 
Congress that you have been asking for to modernize our current 
nuclear stockpile.
    Let me begin with a baseline question. I assume that you've 
been asking for this money because you feel that our current 
nuclear stockpile is aging and in various ways is in need of 
modernization. Secretary Gates?
    Secretary Gates. Let me start and then ask Dr. Chu to chime 
in. The short answer is yes. This has been an evident need for 
the United States for some time. We are essentially the only 
nuclear power in the world that is not carrying out these kinds 
of modernization programs. We have never claimed to want any 
new capabilities, but simply to be able to make our weapons 
safer, more secure, and more reliable.
    The Perry-Schlesinger study that was conducted and reported 
here to Congress really laid out in considerable detail, I 
think, a lot of the worries that we have, not about our 
stockpile today, but about where we may be in 5 or 10 years, as 
both the human capital and the components themselves age, both 
having to do with these weapons systems. This is a long-term 
need on the part of the Nation. We've needed it for quite some 
time.
    Congress voted down the Reliable Replacement Warhead 
program. There has been no progress toward providing any 
additional funding for our nuclear weapons modernization 
programs since that time. I think you've put your finger on it, 
frankly, and just realistically, I see this treaty as a vehicle 
to finally be able to get what we need in the way of 
modernization that we have been unable to get otherwise.
    Dr. Chu.
    Secretary Chu. I would also add that, although we're not 
seeking any new military capability, we are seeking to make the 
weapons safer, more secure, and more reliable. That means we 
are replacing old electronics that we can't even buy any more: 
tubes with integrated circuits. We are going to insensitive 
high explosives, so it's much less likely that an accident, a 
fire, something of that nature, could set these weapons off. 
We're increasing the surety, so that, should any terrorists or 
anybody get hold of these, it would be impossible for them to 
set them off.
    Modernization includes all these factors. We're actually 
improving the safety, security, and reliability of these 
weapons. No new military capability, but that's the program 
we're engaged in.
    Senator Lieberman. I appreciate the answer from both of 
you.
    A while ago, when the NPR came out, there was some language 
in it that indicated there are three means to keep the 
stockpile secure, reliable, and effective, which were reuse, 
refurbishment, and replacement. The language in the NPR seemed 
to make it harder even to replace parts, it sounded like, and I 
think, in the section 1251 report, which you provided to 
Congress, you clarified that. I just wanted to ask you two 
questions.
    One is the obvious one, which you've said, Dr. Chu, that 
there are some parts that can't be reused or refurbished, and 
you have to replace those parts. While no one is asking for a 
replacement warhead now, there's nothing in the language in the 
treaty or in any administration documents that essentially says 
to the scientists who we rely on here: Don't even think about 
it. In other words, that the scientists 4 years from now, 6 
years from now, if they believe to protect our security we need 
to build a replacement warhead, that they're going to be free 
to make that recommendation.
    Secretary Chu. That's correct. If you look at the language 
both in the treaty and in the NPR, the scientists at the 
national labs are asked to look at all the scientific 
possibilities within the menu of refurbish, replacement, and 
new designs. There is something that says, okay, before you go 
to detailed engineering design, that there's a pause button. 
But, certainly to look at the scientific capabilities; it would 
be very prudent to not hold them back on any of those options, 
and that's the position we're taking.
    Senator Lieberman. Thank you. My time is up.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Clinton, you were very clear in answering the 
chairman's first question about whether there was any secret 
agreement or side deal associated with the negotiations of the 
New START that would affect missile defense. You were very 
clear in saying that, no, there was not.
    There's a press report that came out last night that claims 
that the administration is secretly working with the Russians 
to conclude an agreement that would limit U.S. missile 
defenses. It goes on to say that the administration last month 
presented a draft agreement to the Russians. Is this report 
accurate?
    Secretary Clinton. No. I'm not aware of the report, Senator 
Collins, but, as Secretary Gates said, we have consistently 
told the Russians that, if they wish to work with us on missile 
defense, we are open to working with them. Maybe there is 
something lost in the translation here because we have 
consistently reached out to them. We would like them to be part 
of a broad missile defense system that protects against 
countries like Iran, North Korea, both of which they border, by 
the way, so it is in their interest.
    But Secretary Gates mentioned that in his opening remarks, 
so if I could ask him to just perhaps add onto what I said.
    Senator Collins. Yes.
    Secretary Gates. Well, I have just seen a reference to the 
newspaper story that you described, and what I emphasized, what 
I added, frankly, in my opening statement was that whatever 
talks are going on are simply about trying to elicit their 
willingness to partner with us along with the Europeans in 
terms of a regional missile defense.
    There is nothing in the approaches that have been made to 
the Russians that in any way, shape, or form would impose any 
limits whatsoever on our plans.
    Senator Collins. Thank you.
    Secretary Clinton, and perhaps Secretary Gates on this 
issue as well, one of my chief concerns is that tactical 
nuclear weapons are not addressed by this treaty. The Perry-
Schlesinger commission noted that Russia has some 3,800 
tactical nuclear weapons. That's about 10 times what is in our 
inventory. My concern is not just about the numbers, but study 
after study has pointed out that tactical nuclear weapons are 
particularly vulnerable for theft and diversion. The 
administration's own NPR has noted the fear of nuclear 
terrorism.
    If the administration believes that today's most immediate 
and extreme danger is nuclear terrorism--and I would agree with 
that assessment--why doesn't the New START address tactical 
nuclear weapons at all, since they are by far more vulnerable 
to theft and diversion?
    Secretary Clinton. Senator, we share your concern. The New 
START was always intended to replace START I, and that was the 
decision made by the Bush administration, which we then decided 
to pursue in order to deal with strategic offensive nuclear 
forces. But, we share your concern about tactical nuclear 
weapons, and we have raised with the Russians our desire to 
begin to talk with them, now that the New START has been 
negotiated, about tactical nuclear weapons.
    We have to do this in conjunction with our NATO allies 
because, of course, our principal use of tactical nuclear 
weapons historically has been in Europe, and that's also where 
most of the Russian tactical nukes are located, close to their 
border with Europe.
    I raised this issue at the last NATO ministerial in Talinn, 
Estonia, and received a very positive response from our NATO 
allies, that we will work on our posture toward tactical nukes, 
because there are some in NATO who wanted NATO unilaterally to 
begin to withdraw our own tactical nuclear weapons from Europe, 
and it's the Obama administration's position that we will not 
do that, that we will only pursue reductions in our tactical 
nuclear weapons in concert with cuts in Russia's tactical 
nuclear weapons. That was well received by the majority of NATO 
allies.
    Secretary Gates. I would just add the personal opinion that 
I think any negotiation on tactical nuclear weapons with the 
Russians is going to be a very difficult one, and principally 
because they have such a disproportionately larger number 
deployed than we do in Europe, and a lot of them are forward 
deployed.
    I think for the Russians, getting the Russians to agree to 
anything that ends up providing an equitable status on both 
sides, if you will, will be a very steep hill to climb. I would 
just add further that, in terms of our own capabilities, that 
the F-35, including the aircraft that we're selling to some of 
our allies, will be dual capable.
    Secretary Clinton. If I could just add one more point, Mr. 
Chairman. I agree with Secretary Gates that negotiating with 
the Russians on tactical nuclear weapons will be difficult. 
But, I would underscore the importance of ratifying the New 
START to have any chance of us beginning to have a serious 
negotiation over tactical nuclear weapons. I would add, it's a 
point that Secretary Gates made earlier: If you look at what we 
have done in reaching out to our NATO allies, it is to prepare 
us to be able to have that discussion within the context of our 
strategic concept review within NATO, so that we can work 
toward a unified NATO position when we begin having serious 
discussions with the Russians.
    I would underscore the importance of ratifying this treaty 
in order to have any chance of building the level of exchange 
with the Russians that could lead to any kind of verifiable 
limits or reductions.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you 
to all of you for your service and for being here today.
    I wanted to follow up a little bit on Senator Collins' 
comment and your response about working cooperatively with the 
Russians in missile defense. In April, I hosted the U.S.-
Russian Inter-Parliamentary Group, which is a combination of 
our U.S. Senate and the Russian Federation Council. Our 
discussions, like those held in many other meetings both in 
Moscow as well as here, have involved the discussions about the 
prospects of missile defense cooperation.
    It seemed to be a very strong thought with the Federation 
Council that they are interested from the parliamentary side, 
from the legislative side, they're clearly interested in 
working cooperatively with us on missile defense. Now, I 
understand they come from their own perspective and we come 
from ours, but at least they're talking, not only at their 
executive level with President Medvedev, but now at the 
legislative side as well. I just thought I would mention that.
    I appreciate Senator Collins raising the question, because 
there are going to be all kinds of rumors and discussions going 
on and characterizations of those discussions that are not 
always as accurate as we would hope that they might be.
    Secretary Gates and Secretary Clinton, the question was 
raised by Senator McCain that relates to an agreement as to 
whether or not there's a meeting of the minds on this treaty 
between the Russians and the United States, President Medvedev 
and President Obama, on the question of what's in the contract. 
It appears that there's a meeting of the minds within the 
contract, but some posturing going on outside the contract.
    Perhaps it would be helpful for us if you could, if not 
just today, afterwards, submit something to show that this is 
nothing new, that there is always posturing around the 
agreements and there have been instances of posturing in the 
past, but we entered into agreements and, as you say, even in 
spite of some of the comments about whether or not we did 
certain things or didn't do certain things, they might do 
certain things.
    Examples of that might be helpful in putting this to rest 
because the question seems to be, is there a meeting of the 
minds? Let me ask you just the question bluntly: Is there a 
meeting of the minds in your opinion? Senator Clinton or 
Secretary Gates first?
    Secretary Gates. Well, I would just make two comments. 
First of all, I think that there is a meeting of the minds on 
the value of New START between the two Presidents. Second 
point: There is no meeting of the minds on missile defense. The 
Russians hate it. They've hated it since the late 1960s. They 
will always hate it, mostly because we'll build it, and they 
won't.
    On the issue before the Senate, if you will, there is a 
meeting of the minds. On the peripheral issue that is not part 
of the contract, there is no meeting of the minds.
    Senator Ben Nelson. Senator Clinton, can you be quite as 
candid as that?
    Secretary Clinton. Of course I can.
    Senator Ben Nelson. Of course. [Laughter.]
    Secretary Clinton. I think Secretary Gates said it very 
well. We have an agreement. We have a signed agreement. 
Somebody can have a signed, enforceable agreement to buy and 
sell a car or buy and sell a house, and then they can go out 
and make all sorts of statements, but it has nothing to do with 
their obligations under the agreement.
    The only point I would add to what Secretary Gates has said 
is that, historically in these agreements, the Russians have 
said things like that. In my opening testimony, I talked about 
the original START, where before it was signed the same kind of 
sequence. The Russians said if the United States pulls out of 
the ABM Treaty, we're pulling out of START. Well, the United 
States pulled out of the ABM Treaty in 2001, and Russia didn't 
pull out of START.
    There is a history. We'll be happy to, for the record, give 
you some additional information.
    [The information referred to follows:]

    On April 7, 2010, the Russian Federation made a unilateral 
statement on missile defense, in which the Russian Federation recorded 
its view that the treaty may be effective and viable only in conditions 
where there is no qualitative and quantitative build-up in the missile 
defense system capabilities of the United States. The Russian 
Federation further noted its position that the ``extraordinary events'' 
that could justify withdrawal from the treaty, pursuant to Article XIV, 
include a build-up in the missile defense system capabilities of the 
United States that would give rise to a threat to the strategic nuclear 
forces potential of the Russian Federation.
    The withdrawal standard in Article XIV contains language identical 
to the withdrawal provisions in many arms control agreements, including 
the START treaty, the INF Treaty, and the NPT. The withdrawal provision 
is self-judging in that each party may decide when its supreme 
interests have been jeopardized by extraordinary events related to the 
subject matter of the treaty. Accordingly the Russian statement merely 
records that the circumstances described in its statement would, in its 
view, justify such a decision on its part. The Russian statement does 
not change the legal rights or obligations of the Parties under the 
treaty.
    As a historical matter, the Soviet Union made a similar unilateral 
statement regarding withdrawal from the START treaty. In that 
statement, the Soviet Union noted its position that the ``extraordinary 
events'' in the withdrawal provision included U.S. withdrawal from the 
ABM Treaty. When the United States withdrew from the ABM Treaty in 
2002, however, the Russian Federation (as a successor state to the 
Soviet Union) did not withdraw from the START treaty.
    In sum, the Russian unilateral statement is not an integral part of 
the treaty and it is not legally binding. The United States did not 
agree to the Russian statement. It has the same legal status as the 
unilateral statement made by the Soviet Union in connection with the 
signing of the original START treaty in 1991.

    Secretary Clinton. But we are very comfortable. I don't 
think the four of us would be here--and I think you know all of 
us--telling you how comfortable we are with where we believe 
the meeting of the minds occurred and what this treaty means, 
and the fact that, as Admiral Mullen now has said twice in this 
hearing, we have no treaty, we have no verification going on at 
this moment. Is it the perfect treaty? I don't know that such a 
thing exists, but in our very considered opinion, it is so much 
in America's interest to get on with entering into this treaty.
    Senator Ben Nelson. Sort of a reminder of Contracts 101.
    Secretary Clinton. Yes. Well, as an old law professor, I 
couldn't resist.
    The other thing I would say, Senator Nelson, is thank you 
for participating in these inter-parliamentary activities. I 
have to confess, when I sat behind the table I was not as aware 
of the importance to our counterparts that these parliamentary 
meetings hold. I don't know that we, in our Congress, 
appreciate the significance of these and the potential 
opportunities that they offer to us. Thank you.
    Senator Ben Nelson. Thank you.
    Admiral Mullen. Senator Nelson, if I can, just briefly back 
to the meeting of the minds. As I both participated but also 
watched these negotiations, the number of times that the two 
countries' leaders personally engaged each other and in the 
details of this, I thought was extraordinary. To the points 
that have been made in terms of, within the bounds of the 
treaty, the meeting of the minds was very evident to me right 
up to the end, through very difficult negotiations.
    Again, the commitment was extraordinary from my perspective 
in terms of their both understanding, participation, and the 
negotiations.
    Senator Ben Nelson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Clinton, welcome back to the committee. Secretary 
Gates, nice to have you. Admiral, thank you for your service. 
Secretary Chu, welcome to the Armed Services Committee.
    Secretary Gates, the administration's factsheet on the 
section 1251, the report, explains that the U.S. nuclear force 
structure under the treaty could comprise up to 420 ICBMs, 240 
SLBMs, and 60 bombers. Since deployment at the maximum level of 
all 3 legs of the triad under that explanation add up to about 
720 delivery vehicles, it is, of course, mathematically 
impossible for the United States to make such a deployment and 
to be in compliance with the treaty's limit of 700 deployed 
strategic nuclear delivery vehicles.
    Clearly, significant additional decisions are going to have 
to be made with respect to U.S. force structure under the 
treaty. I would be reluctant to cast a vote in favor of the 
treaty without being fully briefed in more precise detail about 
the plans for our nuclear delivery force structure.
    My question is, when can this committee expect to receive a 
more precise outline of how the U.S. nuclear force posture will 
be made to comply with this treaty's limits of 700 deployed 
nuclear delivery vehicles, and will the administration provide 
a classified briefing to those of us who are concerned on the 
specific planned force structure for these deployed nuclear 
delivery vehicles?
    Secretary Gates. Certainly we would be happy to provide a 
classified briefing in terms of the options that we have under 
consideration. Let me say just from the outset that we do not 
anticipate any changes in the force structure under this treaty 
that would affect current basing either of aircraft or our 
missiles here in the United States.
    The reductions in the treaty do not need to be made until 
the 7th year, and I'm going to ask Admiral Mullen to chime in 
here, but I think our interests are best served as we watch the 
developments of the next decade. My opening statement, as the 
factsheet did, said here are the categories and the numbers 
that we are working with, and frankly I see no reason for us to 
make final decisions within those narrow frameworks until we 
have a better sense of strategic developments with Russia and 
with other countries as well, especially since we have all this 
time under the treaty.
    I think that one key point of reassurance again is, of all 
of the options that we're looking at, the ones that we think 
we're likely to implement, that it would not involve closing 
any of our missile bases or changing our basing of our bombers 
at this point.
    Admiral?
    Admiral Mullen. Sir, I would just add that the uniformed 
leadership feels very strongly about not making those decisions 
before they are due. That's really 7 years out. The strength of 
the treaty, as represented in the 1251 report and the numbers 
that you described, gives us some flexibility. Clearly, as we 
evolve, we're at the beginning of looking at what the next 
submarine looks like in that part of the triad. What we wanted 
was as much flexibility for as long as we could have to make 
that decision, and we saw no need to do that now.
    I understand the math. I understand exactly where you are. 
But it just was not needed. We felt very strongly we wanted to 
wait as long as we could to continue to assure the certainty of 
each leg of the triad as it's laid out in this treaty.
    Senator Thune. The press has reported that the 
administration is going to spend about $100 billion over the 
next 10 years in nuclear delivery systems. About $30 billion of 
that would go toward development and acquisition of a new 
strategic submarine and, according to estimates by U.S. 
Strategic Command, the cost of maintaining our current 
dedicated nuclear force is approximately $5.6 billion per year 
or about $56 billion over the decade.
    That leaves roundly $14 billion of the $100 billion the 
administration intends to invest, even less if you factor in 
inflation. That $14 billion is not nearly sufficient to develop 
and acquire a next generation bomber, a follow-on ICBM, a 
follow-on air-launched cruise missile, and develop a 
conventional prompt global strike capability. So the question 
is, in light of those figures I just mentioned and the fact 
that you've yet to make additional modernization decisions, why 
do you believe that $100 billion is sufficient investment in 
our delivery systems over the next decade?
    Admiral Mullen. From my perspective, Senator, the current 
investment is a projection of what we understand right now. We 
are undertaking in DOD a very thorough look of what the future 
with respect to the long range of the next generation bomber 
is, recognizing that all the systems are going to go through 
some modernization over the next couple of decades.
    From what I've seen inside DOD over time is, obviously, 
when those decisions get made resources get made available to 
support them. One of the big challenges and concerns right now 
is the next generation missile submarine and, quite frankly, 
replacing it, containing it, containing its costs, and making 
sure that we can, in the long run, sustain that part of the leg 
as we look at how we're going to move ahead in the next 
generation bomber, as well as the next generation ICBM.
    I'm comfortable right now that the investment there 
certainly supports us moving ahead, and we'll have to make 
adjustments over time based on where the triad goes 
specifically.
    Secretary Gates. Senator, I would just say that with that 
figure that you mentioned, there are placeholders for each of 
the modernization programs because no decisions have been made. 
They're basically to be decided, and along the lines that 
Admiral Mullen is just describing, those are decisions we're 
going to have to make over the next few years, in terms of 
we're going to have to modernize these systems, and we're going 
to have to figure out what we can afford.
    Senator Thune. At this point, we don't know whether or not 
the administration is going to pursue some of these programs? 
Is that what you're saying?
    Secretary Gates. I am saying that we have not yet made 
decisions on how we are going to modernize long-range strike, 
how we are going to modernize the ICBM force. We are in the 
process. We have money in the budget for a new nuclear reactor 
for the Navy for the next generation nuclear submarine, so we 
are on track in that particular area of modernization.
    Senator Thune. I see my time has expired, Mr. Chairman. 
There may be some questions I'd like to submit for the record.
    Senator Udall [presiding]. So ordered. Thank you, Senator 
Thune, for your thoughtful comments.
    Chairman Levin has taken a much more dangerous step than 
his support for ratifying this treaty. He's deputized me to 
serve as the chairman of the committee until he can return. I 
will recognize myself for 5 minutes.
    I noted that Dr. Kissinger testified in front of the 
Foreign Relations Committee last month about this treaty, and 
he said that it's an evolution of treaties that have been 
negotiated in previous administrations of both parties, and its 
principal provisions are an elaboration or a continuation of 
existing agreements. Therefore, a rejection of them would 
indicate that a new period of American policy had started that 
might rely largely on the unilateral reliance on its nuclear 
weapons and would therefore create an element of uncertainty in 
the calculations of both adversaries and allies.
    Would any of you like to comment on his statement? Maybe 
I'll start with the Secretary of State.
    Secretary Clinton. Well, Senator, we very much agree with 
that assessment. Our Department has been briefing along with 
our colleagues from DOD, from the Joint Chiefs, and from DOE, a 
series of former diplomats and DOD officials and DOE officials, 
including Dr. Kissinger.
    I think the overwhelming sentiment is that this treaty is 
in our national security interests and that a failure to ratify 
this treaty would have both foreseen and unforeseen 
consequences. One of the foreseen consequences is a return to a 
period of instability and unpredictability between the United 
States and Russia, which would not be in our security interests 
because, given what we view as the major threats we face today, 
nuclear war with Russia is not one of them, thank goodness. 
That is an evolution, as Dr. Kissinger has said, of political, 
strategic, and economic changes over the last years since the 
Cold War.
    Human nature being what it is, as Senator Lieberman said, 
if you introduce instability and unpredictability, there is no 
way that we wouldn't have to be responsive. I think you'll hear 
from all of us that we think this treaty continues the 
tradition that other treaties have exemplified of making it 
possible for us to have an understanding with, and legally 
binding agreements with, the Russians that are very much to our 
interest as well as to theirs.
    We are working with the Russians on a range of matters. I 
think it would have been very unlikely a year ago that we would 
have seen Russia supporting our sanctions in the United Nations 
against Iran. We have been building confidence with Russia 
around a range of important issues, and this negotiation over 
the New START, especially as Admiral Mullen said, bringing in 
both of our Presidents at a very high level probably a dozen 
times to hammer out some of the particulars in the treaty, has 
really been to our national security interest.
    So that is, I think, very much in support of what Dr. 
Kissinger testified to.
    Secretary Gates. I would just add one point. Secretary 
Clinton in her opening statement talked about the contribution 
the treaty provides in terms of transparency, predictability, 
and stability. One of the strategic developments that we see 
going on that hasn't been mentioned in this hearing is that the 
Russians are, over a period of time, reducing their reliance on 
and reducing the size of their conventional forces, for a 
variety of economic, demographic, and other reasons.
    As they reduce their size of their conventional forces, 
they are particularly focused on the modernization of their 
strategic forces, and particularly their nuclear capabilities. 
I think that, from our national security standpoint, having 
this treaty that provides the transparency, predictability, and 
stability in that kind of an evolving environment is very much 
in the interests of the United States.
    Senator Udall. Admiral Mullen, would you care to comment if 
there's any ramifications here for military-to-military 
relationships?
    Admiral Mullen. Actually, I've worked this multiple times 
with my counterpart and our staffs. I guess I'd characterize it 
the same way as I did between the two countries' leaders: very 
difficult, very challenging, strong positions. Many of the 
issues that have been raised here, the one of tactical nuclear 
weapons, the issues of missile defense, the issues of 
telemetry.
    But, I was actually in the end very encouraged, though the 
negotiations were difficult, with the willingness to move to a 
position to get to this treaty from the Russian military 
perspective, obviously the two countries, but in particular the 
Russian military perspective. I am encouraged by that.
    Part of that, I think, is also represented in the increased 
military-to-military relationships across the board, this being 
a big piece of it. For myself and my counterpart to say when we 
get through with this, which we have, that this is indicative 
of the kinds of things we can do in many other areas. 
Counterterrorism is something that immediately comes to mind, 
counter-piracy. From where we were to where we are over even 
the last couple of years, it's improved dramatically. This is a 
big piece of it.
    Senator Udall. My time has expired, and I'm going to 
recognize Senator Brown next. Let me make two short final 
comments. It's a very powerful picture to have the four of you 
sitting here representing a broad set of viewpoints supporting 
the treaty. Thank you for taking your time to be here.
    Second, I read with great interest and Secretary Clinton, 
Secretary Gates, Admiral Mullen, and I think Secretary Chu as 
well, you are aware of the Hagel-Hart commission work on our 
policy towards Russia. They talk about a realpolitik that Dr. 
Kissinger, in effect, is the leading practitioner of, and there 
are ways in which they point out we can work with Russia, there 
are ways in which we can't, there are cultural and historical 
differences.
    The points you make about expanding our relationship 
through the approval of this treaty are really powerful ones. 
Thank you again for being here.
    Senator Brown, you're recognized.
    Senator Brown. Thank you, Mr. Chairman.
    Thank you to our panel. Secretary Clinton, thank you for 
your leadership on this treaty and everything you've been 
doing, keeping us informed, which is very helpful to me as the 
kind of new kid on the block.
    I have a great concern about Iran, and I find that their 
nuclear ambitions are more destabilizing than actually us 
getting a handle on the U.S.-Russian relationship. I'm 
wondering, in your negotiations with Russia, have you been able 
to broach that subject with Russia? I can't imagine that they 
would like a nuclear Iran to help destabilize that region and 
potentially export their brand of terrorism in many instances 
around the world and the region.
    Any comment on that?
    Secretary Clinton. Thank you very much, Senator, and 
welcome to this committee.
    Senator Brown. Thank you.
    Secretary Clinton. I think your concerns are very well 
placed. Obviously, the four of us and many, many others in the 
government spend a great deal of our time thinking about Iran 
and how to prevent it from obtaining nuclear weapons. I believe 
that our close cooperation with Russia on negotiating this New 
START added significantly to our ability to work with them 
regarding Iran.
    Three quick examples. Because we developed very good 
working relationships, despite our disagreements on the New 
START, between our militaries and our civilian leadership, I 
think it gave us just a better base on which to raise the 
concerns about Iran. It took a while to make the case to the 
Russians that Iran indeed was pursuing not just a peaceful 
civil nuclear capacity, but, in our view, poised to pursue 
nuclear weapons.
    Once they became convinced that there was some concern 
there, they began working with us. In the fall, we reached an 
agreement with Russia and France to try to get Iran to 
demonstrate some good faith by shipping out its low enriched 
uranium to outside of Iran to be enriched and then returned, 
and the Russians stood with us. They stood with us through all 
the ups and downs of that negotiation.
    Finally, the Russians have consistently made it clear that 
they share our concerns now about a nuclear-armed Iran. It's 
hard to draw a straight line from the many ways we've been 
cooperating with them, but I think in human relations, Senator, 
you do have to build the relationship, and we've been doing 
that at the highest levels between our presidents and then 
between our counterparts. You saw the results with the United 
Nations Security Council vote.
    You'll see President Medvedev coming here next week for a 
summit with President Obama, where we now have a very 
comprehensive set of issues that we engage on very openly, 
candidly, not always in agreement, but nevertheless we feel 
like we've made a very strong basis for further work on what we 
see as some of our major threats, namely a country like Iran 
getting nuclear weapons, terrorists getting access to nuclear 
materials, and Russia is now very much working with us.
    Senator Brown. Well, thank you. I would encourage you to 
continue that relationship because I find it disturbing that, 
with all the efforts we're trying to do, Russia and France are 
still contributing greatly financially to the regime and 
allowing them to circumvent some of those sanctions. I would 
appreciate your continued leadership on that.
    Secretary Gates. Senator, I might just point out, because 
you've just put your finger on a kind of schizophrenic Russian 
approach to this.
    Senator Brown. I'm glad you said that. Thank you.
    Secretary Gates. When I was in Moscow 3 years ago, then-
President Putin told me that he considered Iran Russia's 
greatest national security threat. Within the same timeframe, 
one of their deputy prime ministers told me, he said, ``You 
know, they don't need a missile to deliver a nuclear weapon to 
Russia.''
    At the same time, the Russians are seeing this growth of 
terrorism in the Caucasus that is a deep concern to them. Yet, 
they have these commercial interests in Iran that go back more 
than 20 years. In 1992, I raised, when I visited Moscow as the 
first head of CIA, this with my counterpart about their support 
for the nuclear reactor in Iran. We went back and forth, and 
finally he said, ``It's all about the money.''
    I think that it is this balancing act in Russia. They 
recognize the security threat that Iran presents, but then 
there are these commercial opportunities which, frankly, are 
not unique to them in Europe.
    Senator Brown. Thank you for that add-on, Mr. Secretary.
    I have one final question, and that is, I'm always 
wrestling with our reduction in the strategic nuclear warheads 
to 1,550 while the Russians will continue to deploy at least 
3,800 tactical nuclear warheads in addition to their strategic 
nuclear warheads. As a result, the Russians maintain a 10 to 1 
superiority in tactical nuclear weapons and their tactical 
nuclear weapons will outnumber our strategic nuclear weapons by 
2 to 1.
    I'm just trying to wrestle with that. How does that work in 
terms of the numbers? Because you can deploy some of these 
weapons on submarines, move close to our coast. I'm trying to 
get a handle on how that's creating nuclear stability--and I 
direct this to the Secretary--and a favorable manner for us and 
our allies.
    Secretary Gates. Well, it is a concern, obviously. The 
strategic arms talks have always focused strictly on the 
strategic weapons, ICBMs, SLBMs, and long-range heavy bombers. 
I would just say the Europeans are clearly concerned about 
this. There is a huge disparity in the number of those deployed 
weapons in Europe, as you suggest.
    I think that there is a general feeling on our part, and 
certainly on the part of our European allies, that the next 
step needs to involve--in our discussions on arms control with 
the Russians--and needs to address this issue. I would just 
echo something Secretary Clinton said earlier in the hearing. 
We will never get to that step with the Russians on tactical 
nukes if this treaty on strategic nuclear weapons is not 
ratified.
    Senator Brown. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Levin [presiding]. Thank you, Senator Brown.
    Just a quick comment if I can on something which was 
raised, I think, and I came back in the middle of the answer, 
on the commercial relationship between Russia and Iran. I 
understand--and, Secretary Clinton, perhaps you can confirm 
this--that following the U.N. resolution adoption of sanctions 
that Russia finally has actually cancelled the sale of the S-
300 to Iran. Now, there are different reports we get on that, 
the Russian sale to Iran of those anti-air systems.
    Do you know if that's accurate?
    Secretary Clinton. I will check on this, Mr. Chairman. My 
recollection is that they announced once again a postponement, 
an indefinite suspension. I think we have to sort of separate 
it out. We can get more information for both Senator Brown and 
the committee. Iran is entitled to civil peaceful nuclear 
energy.
    Chairman Levin. We understand that.
    Secretary Clinton. The Russians have consistently been 
working on the reactor at Bushehr, Iran, and providing such 
support. Until the recent U.N. Security Council resolution, you 
could make an argument that Iran was also entitled to defensive 
weapons, which the S-300 are claimed to be. The Russians over 
the past 15 months, in part I would argue because of our 
relationship-building, have never delivered those and have 
consistently postponed it.
    I will doublecheck. If they've cancelled the sale, I'm not 
aware of it. But I am very much aware and supportive of their 
continuing suspension.
    Chairman Levin. It's a very significant development if they 
not only have postponed it, which they have regularly, and 
we're very happy they've done so because of the statement that 
that makes to Iran. I think there was a report that they 
actually went beyond that following the U.N. resolution.
    Secretary Clinton. Well, I think that what they said is 
they would not deliver the system. So is that a cancellation or 
is that an indefinite suspension? Either way it's good news 
because they will not deliver the security.
    Chairman Levin. Thank you.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Once again, thank you to all of you testifying today and 
certainly for the work that you're doing for our country. I 
think we all appreciate that very, very much.
    I wanted to talk just a minute about the recruitment and 
retention of nuclear scientists and engineers. Responsible 
stockpile stewardship management requires modernized 
infrastructure and a highly capable workforce to sustain the 
nuclear deterrent. Our labs cannot anticipate potential 
problems and reduce their impact on our nuclear arsenal without 
being appropriately resourced.
    I'm concerned that our ability to recruit and retain 
nuclear scientists and engineers is threatened by a lack of 
financial stability in the stockpile stewardship and LEP, as 
well as the perceived lack of importance. This has affected 
NNSA's ability to recruit and retain the best and the 
brightest.
    Secretary Chu, could you describe, please, what the heads 
of Los Alamos, Lawrence Livermore, and Sandia have said 
regarding the negative impact budgetary pressures are having on 
their ability to manage our nuclear arsenal without testing?
    Secretary Chu. Certainly. Well, Senator, this is a very big 
concern. When I became Secretary of Energy and looked at the 
fraction of the NNSA budget that was devoted to the scientific 
and technology programs that goes directly to what you speak 
of, the intellectual capabilities, that fraction of budget was 
declining and was on a 10-year path to going in half.
    I said we have to stop this, we have to reverse this. In 
the last year, and in this budget for 2011, we're on a path to 
rebuild that. It's vital because there is a population bulge 
that is nearing retirement and we need the very best people in 
order to carry this stockpile stewardship program, the 
nonproliferation program, our obligations to provide safe, 
secure, and reliable weapons going forward.
    We believe we can do this in the proposed budget of 2011 
and in the out years. That's the path we're taking. There is 
also an issue of the fact that, in order to recruit the best 
and brightest, they have to be convinced that the Country cares 
about this. They have to be convinced because essentially these 
people go black in a certain sense. They disappear, and they 
can't publish; a lot of their best work cannot be published in 
the open literature.
    If they are convinced that the United States does deeply 
care about this, and it is such a vital part of our national 
security, we can get those people. It also depends on the 
facilities. You have to continue to maintain and modernize 
those facilities.
    The plans in this budget go to all and speak to all those 
things.
    Senator Hagan. It's also interesting, I was talking to some 
individuals with an energy company just recently and, due to 
the fact that we haven't been building nuclear power plants, 
there has been a vacuum of nuclear engineers. This company is 
actually helping to fund nuclear engineering programs at 
several universities because of the need for nuclear engineers 
and scientists.
    Secretary Chu. That doesn't directly impact the NNSA 
mission, but certainly within the nuclear engineering side in 
another part of DOE, the nuclear energy side, we have been 
consistently giving out on the scale of $5 million to students 
for advanced degrees--this is master's and Ph.Ds mostly--and 
we're looking to improve that.
    There's certainly been--we anticipate there is now--a 
shortage, and there will be an increasing shortage, as the 
world looks to nuclear energy as part of the solution to 
decreasing carbon emissions.
    Senator Hagan. Some experts indicate that if the Senate 
does not ratify the New START it can potentially send 
conflicting messages about the administration's emphasis and 
commitment to nonproliferation and the NPT. Some experts add 
that ratifying the New START will send a positive message in 
achieving consensus with other countries on nuclear issues. In 
other words, if the two nations that possess the most nuclear 
weapons, us and Russia, agree on verification and compliance 
with nuclear weapons and are committed to nonproliferation, it 
is possible to achieve consensus with other countries.
    It is important to encourage non-nuclear states to sign and 
abide by the NPT. Ratifying this treaty will demonstrate our 
commitment to nonproliferation, sending a message and isolating 
Iran. In April 2009 during a Senate Foreign Relations Committee 
hearing on the New START, Dr. James Schlesinger indicated that 
at this juncture for the United States to not ratify the treaty 
it would have a detrimental effect on our ability to influence 
other nations with regard to nonproliferation.
    Secretary Clinton and Secretary Gates, if the Senate does 
not ratify the New START, what implications will that have on 
gaining international consensus on the NPT?
    Secretary Clinton. Well, Senator, I think your question 
really summarized our concerns. We have seen positive response 
because of our commitment to this treaty, because of President 
Obama's speech in Prague, because of our active involvement in 
the NPT review conference, because we have been willing to work 
toward further disarmament goals with Russia, that all has 
given a boost to nonproliferation efforts globally.
    Just speaking personally from my exchanges with my 
counterparts in NATO and elsewhere, it was a great boost to our 
leadership in moving the nonproliferation agenda. I think we 
saw that in getting an agreement out of the NPT Review 
Conference, which the United States was not able to do in 2005, 
in the very positive response from our NATO allies, many of 
whom still very clearly have doubts about Russia, those in 
Eastern and Central Europe, and in our conversations coming out 
of our NPR and the national security statement that has 
recently been put out.
    I think the premise of your question is absolutely the 
case, that we have been able to obtain concessions and move 
this greater agenda forward because of our work with Russia on 
this treaty.
    Secretary Gates. I have nothing to add to that.
    Senator Hagan. Thank you.
    My time is up. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    To the panel, thanks for what you do, not only on this 
particular issue, but your service to our country. We 
appreciate you very much.
    It's pretty obvious that, based on the questions that have 
been asked, there's a real issue regarding not just missile 
defense, but the comments that have been made by the Russians 
and, as Senator McCain said, that they've been so strong and so 
direct. I don't know whether there's been any challenge to that 
on the part of the administration to President Medvedev, but 
certainly he's going to be here, as you say, next week. He's 
going to be meeting with the President. He'll also be meeting 
with some members on the Hill. There will be an opportunity to 
clarify this. I hope the President challenges him on it, 
because it is a key issue with respect to where we go.
    With that in mind, to Secretary Clinton and Secretary 
Gates, I want to focus on what I see as relevant decision 
points with respect to missile defense and what factors the 
United States will consider when making these decisions. First 
of all, some of my colleagues have stated that in the overall 
context of U.S. national security, the issue of missile defense 
may be more important than any agreement that the United States 
and Russia enter into regarding nuclear weapons. That's because 
we're much less likely, as both Secretary Clinton and Secretary 
Gates have alluded to today, to face a nuclear conflict with 
the Russians than we are to be attacked or threatened by a 
rogue nation or a terrorist group that possesses nuclear 
weapons.
    I agree with that perspective, and that's why we need a 
robust missile defense system, not to protect us from the 
Russians, but to protect us from primarily rogue nations. 
Secretary Gates, I think you even spoke to this issue directly 
in previous testimony.
    Now to my question. In the 2020 timeframe, the United 
States is currently planning to deploy the SM-3 Block 2B 
missile in Europe and, although it is intended to defend 
against launches from the Middle East, the missile will have an 
ICBM intercept capability and could represent under this treaty 
from the Russian perspective a qualitative or quantitative 
improvement in U.S. missile defenses that could provoke a 
Russian withdrawal from the treaty.
    Assuming the threat to the United States and our European 
allies still warrants deploying the SM-3 Block 2B missile 
around the 2020 timeframe, and assuming that you were in your 
current position when that decision needed to be made, would 
you recommend the United States deploy this system regardless 
of the Russian response?
    Secretary Gates. Yes, sir, I would. I think that the kind 
of missile threat that we face from rogue states such as Iran 
and North Korea is such a problem, and I think by 2020 we may 
well see it from other states, especially if we're unsuccessful 
in stopping Iran from building nuclear weapons. I think you'll 
see proliferation in the Middle East of nuclear weapons and 
probably missiles. I think that the need will be even greater 
perhaps by that time.
    Fast forwarding 10 years, it seems to me that the plan that 
we have laid out and the developments that we've laid out as 
part of the Phased Adaptive Approach, plus keeping the ground-
based interceptors in Alaska and Vandenberg, and continuing to 
upgrade those for the longer range missiles, would be 
absolutely essential.
    I would say, there's one other reason why I think we would 
need to do this, and that is because one of the elements of the 
intelligence that contributed to the decision on the Phased 
Adaptive Approach was the realization that if Iran were 
actually to launch a missile attack on Europe it wouldn't be 
just one or two missiles or a handful; it would more likely be 
a salvo kind of attack, where you would be dealing potentially 
with scores or even hundreds of missiles. The kind of 
capability that we're talking about with the SM-3 Block 2B 
would give us the ability to protect our troops, our bases, our 
facilities, and our allies in Europe.
    For all those reasons, that would be my recommendation if, 
God forbid, I were still in this job 10 years from now.
    Senator Chambliss. Mr. Secretary, you didn't think you 
would be there now, so who knows.
    Secretary Clinton, I assume you concur with that?
    Secretary Clinton. Yes, I do, Senator, completely.
    Senator Chambliss. Thank you.
    Chairman Levin. What, with the ``God forbid'' part?
    Secretary Clinton. The whole thing, Mr. Chairman. 
[Laughter.]
    Senator Chambliss. Well, frankly, that makes it much more 
comforting. I assumed that that was the case, Mr. Secretary, 
but it is much more comforting to us.
    My time is up, so I don't have time to get into the issue 
of rail mobile launched weapons, which this treaty is silent 
on. We know the Russians have a history of that. As I read the 
treaty, those would be exempt, would not be counted, and that 
could be a serious issue for a number of us. I will submit a 
question for the record to you relative to rail as well as sea- 
and air-launched ICBMs.
    Lastly, just to comment, with the complexity of this issue 
and the obvious determination on the part of the 
administration, as has been expressed by each of you today, I 
don't know whether you've given any thought to doing a red team 
on this. With all the complexities and the difficulties on this 
side, I would hope maybe you'd give some thought to having a 
red team look at this, so that we can be better prepared to 
move as quickly as what you folks obviously want us to move.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I would like to add my thanks to these four distinguished 
Americans for your service to the country. Admiral Mullen, I 
would just like to ask you, was any of the wargaming done to 
determine whether we still will be able to respond effectively 
to a provocation if our nuclear arsenal is reduced to the level 
that's indicated in the treaty?
    Admiral Mullen. Actually, the analysis that was done prior 
to and in support of the negotiations with respect to that from 
a military capabilities standpoint was extensive. The uniformed 
leadership, one, is aware of that; and two, certainly took that 
into consideration as we arrived at our positions and comfort 
level with the provisions that are in the treaty.
    Senator Burris. Senator Chu, you just heard Senator Hagan 
raise a question about the training and the talent pool of our 
scientists and engineers. Are we really training enough at our 
universities, and do we have a role in--that is, DOE--in 
assisting in their training process so that we can have the 
brain power to deal with this new technology?
    Secretary Chu. Well, I think the American research 
universities that train the type of people that we seek in the 
NNSA and the national labs are doing an excellent job. It's 
really a matter of recruiting the best of those, or some of the 
best of those people, into service.
    Senator Burris. Is money a problem, salaries?
    Secretary Chu. No. I think the intellectual challenge, the 
importance of the work, the facilities you will have access to 
are the real issues. If you were in it to look for money, you 
would not go into science.
    Senator Burris. Secretary Clinton, you said that the treaty 
will reduce the number of nuclear weapons. I'm not one to 
really depend on newspaper articles, but let me just see what 
your and Secretary Gates' thoughts are on this article that 
just came out yesterday. It was an op-ed piece published in the 
Washington Times on June 16, and Keith Payne comments that 
Russian strategic analysts have noted that the New START does 
not require any real reduction in the Russian nuclear arsenal. 
To quote him, he says: ``The new treaty is an agreement to 
reducing the American and not the Russian strategic nuclear 
force. In fact, the latter will be reduced in any case because 
of the massive removal from the order of battle of obsolete 
arms and a one-at-a-time introduction of a new system.''
    Russian defense journalist Alexander Gaut also noted in the 
Washington Times that Russia will ``fulfill its pledge without 
eliminating a single actual weapon.'' The same is true 
regarding warheads.
    Is there any truth to this article?
    Secretary Gates. Well, let me start. It looks like three of 
us are ready. I would just comment in very simplistic terms: 
The Russians, the number of their strategic nuclear delivery 
vehicles is in fact below the treaty limits, but the number of 
warheads is above the treaty limits. They will have to take 
down warheads.
    Secretary Clinton. That's correct, Senator. We can give you 
additional material to respond. You will find there are, 
unfortunately, a number of commentators or analysts who just 
don't believe in arms control treaties at all and, from my 
perspective, are very unfortunately slanting a lot of what they 
say. This is a perfect example of that, because, as Secretary 
Gates just pointed out, there would be reductions on the 
Russian side.
    Senator Burris. That's very interesting, how they can have 
these conflicting analyses of what really is there.
    Secretary Gates, Secretary Clinton, you answered the 
question on Iran. I'd like to raise one here. Iran and North 
Korea have been pursuing the technology for nuclear weapons. 
Will the treaty change if they manage to develop these nuclear 
weapons? Will there be any changes in our treaty, New START, 
with Russia if these two countries come up with nuclear 
weapons?
    Secretary Gates. No. We think that the North Koreans 
already have them. As we've talked earlier in the hearing, we 
clearly are committed to preventing Iran from getting them, but 
it would have no impact on this treaty.
    Senator Burris. Thank you very much.
    Thank you, Mr. Chairman. My time has expired.
    Chairman Levin. Thank you very much, Senator Burris.
    It's now 11:30 a.m., and we're going to have just maybe a 
couple minutes each during a second round, Mr. Secretary, if 
you're able to stay. If not, we understand that. Do you want to 
stay on for a few more minutes?
    Secretary Gates, is there any military need for a new 
nuclear weapon at this time?
    Secretary Gates. To the best of my knowledge, no.
    Chairman Levin. Admiral?
    Admiral Mullen. Same answer.
    Chairman Levin. I want to go back to this language in these 
unilateral statements, because I went back and looked at the 
statements in START I and they are incredibly similar, so much 
that the opening words to the statement are exactly the same. 
On the U.S.-Soviet negotiations, they said that ``This 
treaty''--the Soviets--``may be effective and viable only under 
the conditions of compliance with the ABM Treaty.''
    They said: ``The extraordinary events referred to in'' such 
and such an article, which is the supreme national interests 
allowing withdrawal--``include events relating to withdrawal by 
one of the parties.''
    We then issued our statement saying no, it doesn't, 
basically. But their statement has the same format, with the 
same opening words, as a matter of fact, for each.
    START I was negotiated by the first President Bush, is that 
correct, with the same kind of statements, unilateral 
statements, that were made after the treaty was agreed to? I 
think you've all indicated that either side has a right under 
that treaty to withdraw if its supreme national interests 
indicate it, and under this pending treaty; is that correct?
    If the Russians, for whatever reason, decided their supreme 
national interest required them to withdraw, they can withdraw. 
If they withdraw--and even if they don't withdraw--we could 
withdraw if our supreme national interests so indicated to us. 
Is that correct, Secretary Clinton, Secretary Gates?
    Secretary Clinton. Yes.
    Chairman Levin. Can we take your nodding of the head?
    Secretary Gates. Yes.
    Chairman Levin. I would hope that we would treat these kind 
of unilateral declarations the same with the current 
administration, as was the case with the first President Bush. 
The analogies are so close, they're almost perfect. Nothing is 
quite perfect in this life, but that's about as close as you 
can come.
    Finally, on the statement of Russia, cooperating with 
Russia in terms of missile defense. The cooperation which 
you're talking about to the Russians is the possible addition 
of information from their radar to a missile defense system. 
They're essentially joining up to make more capable what we are 
going to proceed with in the area of missile defense; is that 
correct?
    Secretary Gates. Yes.
    Chairman Levin. It's not a limitation on us; it's a 
possible addition to the capability of our anti-ballistic 
missile system.
    Secretary Gates. It would be an expansion.
    Chairman Levin. An expansion or additional capability, 
which would be a very powerful statement to Iran, just like the 
recent sanction vote in the U.N. was a powerful statement to 
Iran. They are more and more isolated, not just from people who 
have traditionally been very outspoken about the threat, but 
now even from the Russians and the Chinese.
    If we could negotiate something with the Russians for them 
to expand and add capability to a missile defense system that 
was essentially a defense against an Iranian threat, would you 
agree, Secretary Gates, that collaboration would be an 
extraordinarily powerful statement to Iran about their 
tightening and tightening isolation?
    Secretary Gates. Yes, I do.
    Chairman Levin. Do you agree with that, Secretary Clinton?
    Secretary Clinton. Yes, I do, Mr. Chairman.
    Mr. Chairman, if I could, just on a follow-up to your last 
questions, which I very much appreciate. I want to ensure that 
the record is clear on one additional point. Senator Collins 
raised a certain press report about a U.S.-Russia deal to limit 
U.S. missile defenses, and I want to be as clear as I possibly 
can. Number one, there is no secret deal.
    Number two, there is no plan to limit U.S. missile 
defenses, either in this treaty or in any other way.
    Number three, on that score, the story is dead wrong. I 
want to be very clear about that because I don't want anyone 
using what is yet again another inaccurate story to argue 
against this treaty. As Secretary Gates and I have both said, 
we will continue to explore missile defense cooperation with 
Russia, but the talks are not secret and there is nothing on 
the table or even in the wildest contemplation that would 
involve any limits on our missile defense. Instead, we're 
trying to see whether they can be expanded with additional 
capabilities for our security.
    Chairman Levin. Which would then be an additional powerful 
weapon against the great threat that is out there, which is 
Iran.
    Secretary Clinton. That's correct.
    Chairman Levin. Thank you.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    I merely wanted to continue listening and learning. First 
of all, I know the Secretary is under time restraints, and I 
know we're going to have additional hearings. But I do want to 
just throw this out there. For me, it's also a trust and 
verification issue. In the back of my mind I'm saying, yes, 
we're going to do all these wonderful things, but how can we 
actually verify and ensure that we're not being misled.
    I don't have a question. I just want you to know that's 
where my head's at. If you can reach out off line to let me 
know, that would be wonderful.
    Mr. Chairman, thank you for your leadership in holding 
these hearings.
    Chairman Levin. Thank you very much, Senator Brown.
    Now, Senator McCaskill has questions, but not of you, 
apparently, Secretary Gates.
    Senator McCaskill. Well, I do.
    Chairman Levin. Oh, you have to go, too, yes. I wasn't 
going to say it, but they are for you, Admiral.
    So again, Secretary Gates, thank you so much. I know you 
stayed beyond what you thought you would be able to.
    Senator McCaskill, your timing, as always, is perfect.
    Senator McCaskill. Thank you.
    Thank you all for being here. I appreciate it. I have been 
following most of the hearing, even though I have not been here 
physically.
    I know Secretary Gates said earlier that all 18 B-2s will 
be retained, Admiral Mullen. Obviously this is of great concern 
because we are proud to house all of the B-2 fleet in the 509th 
Bomb Wing at Whiteman Air Force Base in Missouri. Talk a little 
bit about a practical perspective. What should Whiteman expect 
in terms of inspections and verification visits from Russia, 
and how can I reassure all the great folks at Whiteman that the 
technology and the secrets that we have with the B-2 fleet will 
not be in any way compromised?
    Admiral Mullen. With respect to the future capability, the 
capability which you describe, is absolutely critical. One of 
the areas that we looked very carefully at throughout the 
analysis and negotiation was the preservation of the three 
legs, and then in the future what does that mean for the future 
force structure.
    We don't have to make any significant decisions with 
respect to that until 7 years into the treaty. In terms of 
preserving the capability that we have, the technical 
capability that we have, there is nothing, from my perspective, 
in this treaty in terms of verification which would threaten 
that understanding. The treaty has a provision for 18 
inspections a year, 10 of which are what I would call 
operational kinds of inspections and 8 of which are 
administrative kinds of inspections in support of the 
verification regime.
    There are more in terms of verifying the number of 
warheads, if you will. That's a provision literally for each 
system. That's, I think, an important strength of this 
verification treaty on both sides.
    In terms of protecting our capability and the investment 
that we've made in technology, systems, and people, this treaty 
will more than do that. We do have a great, great group of 
people at Whiteman, as we do in this enterprise, the nuclear 
enterprise, throughout the military, and I don't think they 
need to worry about that at all.
    Senator McCaskill. First, Secretary Clinton, let me 
reiterate again for the record how proud you make our Country, 
the job you do around the world. I think you reflect so well on 
our Nation, and I think you're doing masterful work under very 
difficult circumstances. We have so many places to worry about 
right now.
    I would be curious to hear from you what you see as the 
consequences of not ratifying the treaty, particularly as it 
relates to the deterrence of the rogue extremists that we are 
dealing with around the world. If you would speak to what 
happens if we can't get this done?
    Secretary Clinton. Well, Senator, I think you've really put 
into words what our greatest fear is, because we believe that 
the consequences of not ratifying this treaty would have very 
serious impacts on our relationship with Russia and would 
frankly give aid and comfort to a lot of the adversaries we 
face around the world.
    With respect to the first, it would not only disadvantage 
us because we wouldn't have the transparency, the verification 
regime, to know what is going on inside Russia, but it would 
very much undermine the relationship that President Obama has 
been leading us to establish to provide more confidence between 
the United States and Russia so that together we can tackle the 
threats posed by Iran, North Korea, and networks of terrorists.
    Second, it would, unfortunately, turn back our efforts to 
try to unify the international community against those threats. 
We've made progress with Russia, and Russia has influence with 
a number of other countries, to begin to recognize that the 
Cold War is over, the standoff between the United States and 
the former Soviet Union is a thing of the past. Thankfully, we 
can look for other ways to build confidence and trust between 
us, which is imperative given the very real threats of nuclear-
armed rogue states and networks of terrorists.
    At the nuclear security summit, which the President called 
and led, for the first time we got more than 45 nations to come 
together to acknowledge the obvious, that we all face the 
threat of these nuclear materials falling into the wrong hands, 
and therefore we have to come to some new understandings, work 
more closely together. I think Russia is an absolutely critical 
partner in our efforts to do that.
    Senator McCaskill. What is the confidence level that we 
have in terms of the Russian military, their ability to 
implement, especially if you look at the current economic state 
of Russia? Do we have the kind of confidence we need to have in 
their ability to implement within the Russian military?
    Admiral Mullen. Overall, yes, ma'am. I have watched from my 
perspective since 2004, the evolution of the Russian military, 
both when I was stationed in Europe and dealing with them more 
directly, literally from an operational force perspective, up 
to now. They have, from my perspective, made a significant 
decision and a shift to invest in their strategic forces. I've 
watched them modernize them, put the money in, conduct the 
training, where they have certainly been challenged 
economically and fiscally in their own defense budget.
    This is an area that they continue to focus on and invest 
in. I've seen it, and I've also had that reaffirmed by the head 
of their navy when I was the head of our Navy, as well as when 
I was in Europe in my Navy job and, certainly from the current 
and the last two heads of the Russian general staff, in my 
current job.
    They're very committed to getting this done.
    Secretary Clinton. Senator, if I could just add something 
to what Admiral Mullen said, because I think this is another 
very key point. Secretary Gates referred to it. This treaty may 
seem modest in scope, but given the changes in Russian military 
posture where they are moving away from reliance on a large 
land-based army and conventional weapons to focus what may be 
scarcer resources on their strategic capacity, I think this 
treaty actually is more significant, because as the Russian 
military makes these changes, our relationship with them in 
this going on strategic nuclear offensive weapons gives us 
actually more insight into what their future plans are. It's a 
look forward as opposed to a static look or a look backwards.
    Senator McCaskill. Well, I think this treaty represents yet 
another opportunity where we have to talk about proving a 
negative. That is, what happens if we don't? What are we 
preventing by doing it? That's always tough, but I'm firmly 
convinced that this treaty is so much preferable to the 
alternative, and I appreciate all of you being here today and 
enduring. Secretary Chu, thank you for all your good work. 
Maybe more so than the others on the panel, you are wearing 
lots of different hats right now. So maybe it's a relief to not 
spend all morning talking about oil. We welcome you, Hillary, 
and thank you all for your service to our country.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Brown had a question or a request.
    Senator Brown. Thank you, Mr. Chairman. I'm hopeful I could 
submit some questions for the record a little later.
    Chairman Levin. Absolutely. Those questions will be 
welcome, and the witnesses are alerted that we would hope for 
prompt answers.
    We're very grateful to all of you for again your service. 
We do want to mention that, not just for being here today, but 
really for your extraordinary service. I'm not going to go 
through that service because we all want to probably get to 
lunch. But if you can delay for a couple moments before you 
leave, Secretary Clinton, I have something that I would like to 
talk to you about if we could.
    Our hearing is adjourned. It was a very, very useful 
hearing. We thank all our witnesses.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                   no constraints on missile defense
    1. Senator Levin. Secretary Gates and Admiral Mullen, will the New 
Strategic Arms Reduction Treaty (START) constrain the development or 
deployment of any planned or programmed U.S. missile defense 
capabilities, including the phased adaptive approach to missile defense 
in Europe, the Ground-based Midcourse Defense (GMD) system, or future 
missile defenses, or would the treaty allow the United States to 
develop and deploy the most effective missile defenses to implement our 
missile defense policies and objectives without constraint?
    Secretary Gates and Admiral Mullen. The New START treaty (NST) will 
not constrain the United States from developing and deploying the most 
effective missile defenses possible, nor does the NST add any 
additional cost or obstacles to our missile defense plans. This 
includes the Phased Adaptive Approach in Europe, the GMD system, and 
any future missile defenses.

  preamble statement on relationship between offensive and defensive 
                                 forces
    2. Senator Levin. Secretary Clinton, the New START contains a 
preamble that, among other things, recognizes the interrelationship 
between strategic offensive forces and strategic defensive forces. This 
is consistent with the July 2009 agreement between President Obama and 
President Medvedev to include such an acknowledgment of this factual 
relationship. Is this preambular statement in the treaty a binding 
provision, or does it contain any binding obligations, relative to our 
missile defenses?
    Secretary Clinton. The Preamble of the treaty contains a statement 
acknowledging the interrelationship of strategic offensive and 
strategic defensive arms. This statement does not establish any legally 
binding obligations.

    3. Senator Levin. Secretary Clinton, did the START include a 
similar statement in its preamble recognizing the relationship between 
strategic offensive and strategic defensive forces?
    Secretary Clinton. No. The Preamble to the START treaty refers to 
the Nuclear Nonproliferation Treaty (NPT), the ABM Treaty, and the 
Washington Summit Joint Statement of June 1, 1990.

                      russian unilateral statement
    4. Senator Levin. Secretary Clinton, Russia made a unilateral 
statement concerning missile defense to accompany the New START. Is 
that unilateral statement part of the treaty?
    Secretary Clinton. No. The unilateral statements are not integral 
parts of the treaty, and they are not legally binding. The unilateral 
statement made by the Russian Federation reflects its current position 
that the ``extraordinary events'' that could justify Russia's 
withdrawal from the treaty include a build-up in the missile defense 
system capabilities by the United States that would give rise to a 
threat to the Russian strategic nuclear force potential. The United 
States did not agree to Russia's unilateral statement, and the 
statement does not change the legal rights or obligations of the 
Parties under the treaty.

    5. Senator Levin. Secretary Clinton, does the Russian unilateral 
statement have any binding effect on the United States?
    Secretary Clinton. No. The Russian unilateral statement does not 
change the legal rights or obligations of the parties under the treaty 
and is not legally binding.
    With regard to these types of unilateral statements, it is 
noteworthy that in 1991 in connection with the START treaty, the Soviet 
Union released a unilateral statement on ``the interrelationship 
between reductions in strategic offensive arms and compliance with the 
treaty between the United States and the U.S.S.R. on the Limitation of 
Anti-Ballistic Missile Systems,'' which stated that the START treaty 
may be effective and viable only under conditions of compliance with 
the ABM Treaty, and further that the extraordinary events referred to 
in the relevant provision in the START treaty also include events 
related to withdrawal by one of the Parties from the ABM Treaty or 
related to its material breach. When the United States withdrew from 
the ABM Treaty in 2002, however, the Russian Federation (as a successor 
state to the Soviet Union) did not withdraw from the START treaty.
    In both U.S. unilateral statements--made in connection with the New 
START treaty and with the START treaty--the United States provided 
reasons why its activities related to missile defense should not raise 
concerns for Russia (or, in the case of START, the Soviet Union).

    6. Senator Levin. Secretary Gates, does the Russian unilateral 
statement accompanying the treaty limit our missile defenses or change 
our missile defense policy, plans, or programs?
    Secretary Gates. No.

                       u.s. unilateral statement
    7. Senator Levin. Secretary Gates, the United States issued a 
unilateral statement concerning missile defense in connection with the 
New START, noting the Russian unilateral statement. The United States 
statement says, ``United States missile defense systems would be 
employed to defend the United States against limited missile launches, 
and to defend its deployed forces, allies, and partners against 
regional threats. The United States intends to continue improving and 
deploying its missile defense systems in order to defend itself against 
limited attack and as part of our collaborative approach to 
strengthening stability in key regions.'' Does the U.S. unilateral 
statement still reflect U.S. policy, and is it an accurate indication 
of what the United States plans to do with respect to missile defense?
    Secretary Gates. Yes.

         prohibition on conversion of silos for missile defense
    8. Senator Levin. Admiral Mullen, Article V, Paragraph 3, of the 
New START would prohibit the future conversion of intercontinental 
ballistic missile (ICBM) silos or submarine-launched ballistic missile 
(SLBM) launchers to be used for missile defense interceptors, and vice 
versa. Beyond the fact that we have no plans to do such conversions, 
and that it would not make sense to do so, there is the larger issue of 
potential misunderstanding or miscalculation if either side could use 
silos of one type for the other purpose.
    At the hearing, Secretary Gates agreed that it would be 
destabilizing if either side were to launch missile defense 
interceptors from ICBM silos or from ballistic missile submarines 
(SSBN), and that such launches could appear to the other side to be 
launches of ICBMs or SLBMs. Do you agree?
    Admiral Mullen. Yes, I agree with Secretary Gates testimony, ``I 
think it would be destabilizing if you didn't know what was coming out 
of a missile silo.'' This was one of the primary considerations when 
the decision was made not to modify or convert ICBM silos into missile 
defense silos. As Secretary Gates stated, ``Any of these things that 
are confusing to a party on the other side I think needs to be dealt 
with very carefully.''

    9. Senator Levin. Secretary Gates and Admiral Mullen, do you agree 
that the silo conversion prohibition in Article V, Paragraph 3 of the 
treaty would avoid such destabilizing miscalculation and risk, and thus 
serves our national security interests?
    Secretary Gates and Admiral Mullen. Keeping our ground-based 
interceptor (GBI) silos geographically separated from our ICBM silos 
could reduce the risk of miscalculation by Russia. The potential 
miscalculation would be an erroneous Russian assessment that a GBI for 
missile defense launched from within a known U.S. ICBM field was a U.S. 
ICBM. It is difficult to assess the magnitude of this risk, but 
mitigating the risk of any miscalculation related to missile launches 
serves our national security interests.

                impact on military policy and operations
    10. Senator Levin. Admiral Mullen, what impact would not ratifying 
the New START have on how you think about military policy and 
operations?
    Admiral Mullen. The New START treaty achieves important and 
necessary balance between three critical aims. It allows us to retain a 
strong and flexible American nuclear deterrent. It helps strengthen 
openness and transparency in our relationship with Russia. It also 
demonstrates our national commitment to reducing the worldwide risk of 
nuclear incident resulting from the continuing proliferation of nuclear 
weapons.
    Without this treaty or other similar agreement, the uncertainly of 
Russian actions with respect to their nuclear forces would result in 
U.S. planners having to conduct worse case analyses thus forcing the 
United States to maintain higher numbers of nuclear forces than would 
be necessary. Therefore, the purpose of the New START treaty is to 
provide predictability and stability at lower force levels. Without 
such this treaty there would still be stability but at much higher 
costs driven by the perceived need for higher force structures.
    Without a successor agreement to the START treaty, transparency and 
strategic stability in the U.S.-Russian nuclear relationship would 
erode over time. The lack of such an agreement would increase the 
probability of suspicion and misunderstanding which would adversely 
affect the U.S.-Russian relationship.
    As the NPR stipulates, the United States can--reduce the role of 
U.S. nuclear weapons in our national security strategy, maintain 
strategic deterrence and stability at reduced nuclear force levels, 
strengthen regional deterrence and reassure U.S. allies and partners, 
and sustain a safe, secure, and effective nuclear arsenal.
    Finally, fundamental changes in the international security 
environment in recent years--including the continuing improvement of 
U.S. conventional military capabilities, major improvements in missile 
defenses, and the easing of the Cold War rivalry--enable us to fulfill 
our national security objectives at significantly lower nuclear force 
levels and with reduced reliance on nuclear weapons. Therefore, without 
jeopardizing our traditional deterrence and reassurance goals, we are 
now able to shape our nuclear weapons policies and force structure in 
ways that will better enable us to meet our most pressing security 
challenges.

                       maintaining the stockpile
    11. Senator Levin. Secretary Chu, from a technical perspective, do 
you and the laboratory directors believe that the nuclear stockpile can 
be maintained safely, securely, and reliably?
    Secretary Chu. Yes. By pursuing sound stockpile stewardship and 
management programs for extending the life of existing U.S. nuclear 
weapons, ensuring our scientific and engineering capabilities, and 
making necessary infrastructure and modernization investments in the 
Nuclear Security Enterprise, we will be able to maintain the safety, 
security, and reliability of the nuclear weapons stockpile.
    The Nuclear Posture Review (NPR) describes the policies, and the 
Stockpile Stewardship and Management Plan details the approach the 
United States will pursue to extend the life of the U.S. nuclear 
weapons stockpile. The directors of the Los Alamos, Lawrence Livermore, 
and Sandia National Laboratories determined that the plan ``provides 
the necessary technical flexibility to manage the nuclear stockpile 
into the future with an acceptable level of risk.''

    12. Senator Levin. Secretary Chu, what are the impacts on your 
ability to maintain the stockpile safely, securely, and reliably if 
there are substantial reductions to the Department of Energy (DOE) 
National Nuclear Security Administration (NNSA) budget request for 
fiscal year 2011?
    Secretary Chu. Substantial reductions to the President's request 
would have significant, immediate and long-term implications for the 
ability of DOE/NNSA to maintain the stockpile safely, securely, and 
effectively. Specific implications would depend on the amount and 
target of any reductions, and determining how the reduced resources 
would affect the stockpile; science, technology, and engineering 
(ST&E); and modernization milestones. The President's fiscal year 2011 
budget proposal initiates a multi-year investment plan with substantial 
budget increases to extend the life of the stockpile, redress 
shortfalls for stockpile surveillance activities and stockpile 
certification through investments in the ST&E base, and maintain and 
modernize the supporting infrastructure. The fiscal year 2011 budget 
request is necessary and executable based on the requirements and the 
ability of the Nuclear Security Enterprise to ``ramp up'' efficiently 
within the constraints of time, capacity, and capability to spend 
increased funds. However, we are still in the process of developing a 
baseline budget for four significant budget drivers: the Uranium 
Processing Facility (UPF), the Chemistry and Metallurgy Replacement 
Facility (CMRR), and the B61 and W78 life extension programs (LEPs). 
Thus, there is an expectation for some of these numbers to change as we 
achieve more fidelity in the budget.

    13. Senator Levin. Secretary Gates, from a Department of Defense 
(DOD) perspective, what is the impact on DOD if there are substantial 
reductions in the NNSA budget request for fiscal year 2011?
    Secretary Gates. Substantial reductions would be a serious setback 
to efforts to modernize the nuclear weapons complex and address the 
requirements of stockpile sustainment, both of which are key priorities 
of the NPR and essential to underwriting the national interest as New 
START is implemented. To be more specific: Substantial reductions in 
the NNSA budget would affect delivery of the W76-1 LEP, which is 
currently in production and being delivered to the fleet. There will be 
more W76-1 deployed weapons than any others in our strategic arsenal, 
replacing the W76-0, which has already exceeded its original design 
life by at least a decade. It would also affect completion of the Phase 
6.2/2A study for the B61 LEP and threaten the needed delivery of the 
First Production Unit (FPU) in 2017, which could result in a gap in 
coverage for the extended deterrence mission. Substantial budget 
reductions could also affect recent ongoing studies for replacing the 
W-78 ICBM warhead. In addition, the Joint NNSA/DOD Surveillance 
Program, which has been underfunded for the past several years, could 
also be threatened by substantial reductions. We rely on the 
Surveillance Program to provide much of the data for annual assessment 
of safety and reliability of all of the systems in the stockpile as 
well as the determination of any need for an underground test. Finally, 
portions of the NNSA fiscal year 2011 budget will be committed to the 
early design and development of critical infrastructure projects, 
specifically the Chemical and Metallurgical Research Facility 
Replacement (CMRR) at Los Alamos, which is critical to future plutonium 
operations, and the Uranium Processing Facility (UPF) at Oak Ridge, 
which replaces Manhattan Project-era facilities that are increasingly 
expensive to operate, secure, and update. Both of these facilities, as 
well as other NNSA infrastructure, will be critical to upgrading the 
safety, security and effectiveness of the stockpile for the 21st 
century.

                 nuclear posture review and the treaty
    14. Senator Levin. Secretary Chu, the NPR says that the full range 
of life extension options should be studied, but that in deciding which 
life extension option should move to the engineering phase, the Nuclear 
Weapons Council (NWC) should give ``strong preference for refurbishment 
or reuse,'' that is, refurbishing the nuclear component or reusing 
existing nuclear components. Replacement of nuclear components would be 
``undertaken only if critical Stockpile Management Program goals could 
not be met, and if specifically authorized by the President.'' Do the 
laboratory directors feel constrained in their discretion to study 
options for life extensions by the direction to the NWC?
    Secretary Chu. No. While the NPR is clear that the United States 
will give preference to nuclear component refurbishment or reuse, it is 
equally clear that the full range of options will be considered for 
each warhead LEP, including replacement of nuclear components. The 
report entitled: ``The New START Treaty Framework and Nuclear Force 
Structure Plans,'' submitted to Congress pursuant to section 1251 of 
the National Defense Authorization Act for Fiscal Year 2010, further 
explains that ``[w]hile the NPR expresses a policy preference for 
refurbishment and reuse in decisions to proceed from study to 
engineering development, the Laboratory Directors will be expected to 
provide findings associated with the full range of LEP approaches, and 
to make a set of recommendations based solely on their best technical 
assessments of the ability of each LEP approach to meet critical 
stockpile management goals (weapon system safety, security, and 
effectiveness).'' Moreover, as noted in their April 9, 2010, statement 
on the NPR, the Laboratory Directors affirmed that this approach 
``provides the necessary technical flexibility to manage the nuclear 
stockpile into the future with an acceptable level of risk.''

    15. Senator Levin. Secretary Gates and Secretary Chu, have you 
provided any guidance to the laboratory directors that would limit the 
life extension options that they study only to refurbishment or reuse?
    Secretary Gates. No.
    Secretary Chu. No; I have placed no such limitations on the 
laboratory directors. To the contrary, as made clear in the report 
entitled: ``The New START Treaty Framework and Nuclear Force Structure 
Plans,'' submitted to Congress pursuant to section 1251 of the National 
Defense Authorization Act for Fiscal Year 2010, ``the Laboratory 
Directors will be expected to provide findings associated with the full 
range of LEP approaches, and to make a set of recommendations based 
solely on their best technical assessments of the ability of each LEP 
approach to meet critical stockpile management goals (weapon system 
safety, security, and effectiveness).''
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                            homeland defense
    16. Senator Begich. Secretary Clinton and Secretary Gates, does the 
New START limit the ability of the United States to defend the Homeland 
against current and future Iranian and North Korean ICBM threats?
    Secretary Clinton and Secretary Gates. No. The New START treaty 
does not constrain the United States from developing and deploying the 
most effective missile defenses possible, nor does the treaty add any 
additional cost or obstacles to our missile defense plans.

    17. Senator Begich. Secretary Clinton and Secretary Gates, does the 
New START limit our hedge strategy against future ballistic missile 
threats by hindering completion of Missile Field 2 at Fort Greely, AK, 
or testing the two-stage ground-based interceptor (GBI)?
    Secretary Clinton and Secretary Gates. No. The New START treaty 
does not constrain any of our missile defense plans, including our 
ability to hedge against future ballistic missile threats by completing 
missile field 2, testing the two-stage GBI, and other steps as 
appropriate.

                          unilateral statement
    18. Senator Begich. Admiral Mullen, what is your assessment of 
Russia's unilateral statement regarding missile defense and the ability 
of the United States to defend itself from threats in the near-, mid-, 
and long-term?
    Admiral Mullen. Russia has issued a unilateral statement on missile 
defense expressing its view. We have not agreed to this view and we are 
not bound by this unilateral statement. In fact, we've issued our own 
unilateral statement making it clear that the United States intends to 
continue improving and deploying our missile defense system and nothing 
in this treaty prevents us from doing so.
    The United States is currently protected against limited ICBM 
attacks as a result of investments made over the past decade in a 
system centered on GMD. Given uncertainty about the future ICBM threat, 
including the rate at which it will mature, it is important that the 
United States maintain an advantageous position. Accordingly, the 
United States will:

        <bullet> Deploy new sensors in Europe to improve cueing for 
        missiles launched at the United States
        <bullet> Invest in further development of the Standard Missile-
        3 (SM-3) for future land-based deployment as the ICBM threat 
        matures
        <bullet> Increase investments in sensors and early-intercept 
        kill systems to help defeat missile defense countermeasures
        <bullet> Pursue a number of new GMD system enhancements, 
        develop next generation missile defense capabilities, and 
        advance other hedging strategies including continued 
        development and assessment of a two-stage ground-based 
        interceptor

    Additionally, Russia has repeatedly expressed concerns that U.S. 
missile defenses adversely affect their own strategic capabilities and 
interests. The United States will continue to engage them on this issue 
to help them better understand the stabilizing benefits of missile 
defense. A strategic dialogue with Russia will allow the United States 
to explain that our missile defenses and any future U.S. 
conventionally-armed long-range ballistic missile systems are designed 
to address newly emerging regional threats, and are not intended to 
affect the strategic balance with Russia.

    19. Senator Begich. Secretary Clinton and Secretary Gates, are 
there any types of ballistic missile defense (BMD) activities or 
policies the United States plans to avoid or delay to diminish the 
chances that the Russians will withdraw from the New START?
    Secretary Clinton. No.
    Secretary Gates. No.

                    joint missile defense assessment
    20. Senator Begich. Secretary Clinton and Secretary Gates, in his 
speech in Prague on April 8, President Obama said the United States and 
Russia would conduct a joint assessment of emerging ballistic missiles. 
Please describe this assessment.
    Secretary Clinton and Secretary Gates. President Obama and 
President Medvedev agreed at their July 2009 Moscow Summit that the 
United States and Russia should undertake a joint assessment of 
ballistic missile challenges and threats. The Joint Threat Assessment 
(JTA) is intended to identify our mutual understandings of the existing 
and emerging challenges and threats posed by ballistic missiles. We 
hope that this exchange of information and assessments will provide 
each other a better understanding of our respective perspectives on 
threats to the security of the United States, Russia, and Europe. It is 
our hope that an improved understanding of missile threats will inform 
how we can work together to address them.

    21. Senator Begich. Secretary Clinton and Secretary Gates, how will 
the joint missile defense assessment with Russia affect U.S. policy 
towards missile defense?
    Secretary Clinton and Secretary Gates. The purpose of the Joint 
Threat Assessment (JTA) is to increase our mutual understanding of the 
ballistic missile threat. The JTA may also provide a potential basis 
for additional cooperative activities between our two nations--
including, but not limited to, missile defense. However, the results of 
the JTA discussions will not affect U.S. BMD policy, as described in 
the 2010 Ballistic Missile Defense Review Report, nor will it determine 
our response to the threat, which will be flexible, adaptable, and 
scalable to counter the evolving ballistic missile threat from the 
Middle East and northeast Asia.

    22. Senator Begich. Secretary Clinton and Secretary Gates, when 
will the joint missile defense assessment be completed and available 
for Congress' review?
    Secretary Clinton and Secretary Gates. Our goal is to complete this 
joint effort this fall. We plan to brief the relevant congressional 
committees on the results of this joint effort after it is completed.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                          verification changes
    23. Senator Burris. Secretary Clinton, the New START addresses 
nuclear stockpile levels and the number of weapons each nation can 
maintain. What verification changes have been made from past agreements 
to ensure both parties meet their obligations?
    Secretary Clinton. The New START treaty's verification regime, 
which includes onsite inspections, a comprehensive database, a wide 
range of notifications, and unique identifiers, as discussed below, is 
designed to permit verification of each party's compliance with the 
treaty's provisions, including the three central numerical limits 
contained in Article II of the treaty, as well as the numbers and 
status of treaty-accountable strategic offensive arms.
    Onsite Inspections - The treaty provides that each party can 
conduct up to 18 onsite inspections each year at operating bases for 
ICBMs, ballistic missile submarines (SSBNs), and nuclear-capable heavy 
bombers, as well as storage facilities, test ranges, and conversion and 
elimination facilities. These inspection activities contribute to the 
verification of compliance with the treaty's central limits by 
confirming the accuracy of declared data on the numbers of deployed and 
nondeployed ICBMs, SLBMs, and nuclear-capable heavy bombers and on the 
warheads located on or counted for them, as well as conversions and 
eliminations of strategic offensive arms.
    Comprehensive Database - A comprehensive database, which will be 
initially populated 45 days after the treaty enters into force, will 
receive new data as notifications of certain changes in treaty data of 
the two parties are conveyed in accordance with Treaty provisions. It 
will also be updated comprehensively every 6 months. Thus, it will help 
provide the United States with a ``rolling'' overall picture of 
Russia's strategic offensive forces.
    Notifications - The treaty mandates numerous notifications which 
will help to track the movement and changes in status of systems 
covered by the treaty.
    Unique Identifiers (UID) - Unique alpha-numeric identifiers 
assigned to each ICBM, SLBM, and heavy bomber, when combined with 
required notifications and the comprehensive database, will contribute 
to our ability to track the disposition of treaty-accountable systems 
throughout their life cycles.

                           russian parliament
    24. Senator Burris. Secretary Clinton, where is Russia in the 
ratification process at this point?
    Secretary Clinton. The Russian Duma has begun to consider the 
treaty, including conducting hearings. According to press reports, the 
Duma's Committee on International Affairs and the Duma's Defense 
Committee have both recommended that the full Duma approve the treaty. 
The upper house of the Russian Parliament, the Federation Council, must 
also approve the treaty. Russian officials from both the executive 
branch and legislative branch have consistently indicated a desire to 
coordinate their ratification process with ours so that both countries 
consider and vote on the treaty around the same time.

    25. Senator Burris. Secretary Clinton, does it appear the Russian 
Parliament will ratify the New START?
    Secretary Clinton. Russian officials from both the executive branch 
and legislative branch have consistently indicated a desire to 
coordinate their ratification process with ours so that both countries 
consider and vote on the treaty around the same time. I am very hopeful 
that the Russian Parliament will approve the treaty, but that, of 
course, will be a decision for the elected representatives of the 
Russian people.

                          after the new start
    26. Senator Burris. Secretary Clinton, President Obama has 
indicated that the New START is only a first step and is meant to set 
the stage for further cuts. What new issues do you see being addressed 
in a follow-on treaty, including levels of nuclear arms and tactical 
nuclear weapons?
    Secretary Clinton. As stated in the NPR, the President has directed 
a review of post-New START arms control objectives to consider further 
reductions in nuclear weapons.
    Specifically, the U.S. goals in post-New START bilateral 
negotiations with Russia will include reducing non-strategic/tactical 
nuclear weapons and nondeployed nuclear weapons, as well as deployed 
strategic nuclear weapons on ICBMs, SLBMs, and nuclear-capable heavy 
bombers. Any specific U.S.-Russian discussions on U.S. non-strategic/
tactical nuclear weapons will take place in the context of continued 
close consultation with U.S. allies and partners.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                    missile defense in negotiations
    27. Senator McCain. Secretary Gates, irrespective of threats from 
the Russians to withdraw from the New START, is this administration 
committed to funding, developing, and deploying all elements of the 
phased adaptive approach for missile defense in Europe as well as 
implementing the strategy as portrayed in the BMD review?
    Secretary Gates. Yes. As outlined during the announcement of the 
Phased Adaptive Approach in Europe last September and in the Report of 
the 2010 BMD Review, while further advances in technology or future 
changes in the threat could modify the details or timing of later 
phases, we plan to deploy all four phases of the PAA in Europe, 
including Phase Four.

    28. Senator McCain. Secretary Clinton, in her prepared remarks 
before the Atlantic Council in April, Under Secretary of State Ellen 
Tauscher stated that ``Our Russian friends needed some assurances as it 
negotiated deeper reductions in the absence of an Anti-Ballistic 
Missile (ABM) Treaty. The United States made a unilateral statement to 
clarify that our missile defense systems are not intended to affect the 
strategic balance with Russia . . . '' Why was it necessary to provide 
such assurances to Russia?
    Secretary Clinton. A number of public statements made by Russian 
leaders about the treaty have shown that they considered such 
assurances necessary in the context of reaching agreement on the 
treaty. Under Secretary Tauscher's statement to the Atlantic Council 
was based on standing U.S. policy as articulated in the 2010 Ballistic 
Missile Defense Review that ``while the GMD system would be employed to 
defend the United States against limited missile launches from any 
source, it does not have the capacity to cope with large scale Russian 
or Chinese missile attacks, and is not intended to affect the strategic 
balance with those countries.''
    The United States has made clear that U.S. missile defense efforts 
are not directed against Russia. As Secretary Gates stated in his May 
18 testimony before the Senate Foreign Relations Committee:

         ``Under the last administration, as well as under this one, it 
        has been U.S. policy not to build a missile defense that would 
        render useless Russia's nuclear capabilities. It has been a 
        missile defense intended to protect against rogue nations such 
        as North Korea and Iran, or countries that have very limited 
        capabilities. The systems that we have, the systems that 
        originated and have been funded in the Bush administration, as 
        well as in this administration, are not focused on trying to 
        render useless Russia's nuclear capability. That, in our view, 
        as in theirs, would be enormously destabilizing, not to mention 
        unbelievably expensive.''

    Russia has expressed concerns that U.S. BMD capabilities could 
eventually be a threat to Russia's nuclear deterrent; the United 
States, therefore, sought to convey to Russia the underlying approach 
outlined by Secretary Gates. To this end, we have provided, and will 
continue to provide, policy and technical explanations regarding why 
U.S. BMD capabilities such as the European-based Phased Adaptive 
Approach do not and cannot pose a threat to Russian strategic deterrent 
forces.

    29. Senator McCain. Secretary Clinton, did our negotiators receive 
assurances from Russia that they will not object to the full deployment 
of all four phases of the phased adaptive approach in Europe?
    Secretary Clinton. No; these negotiations were about strategic 
offensive arms, not missile defense. This past April Russian Foreign 
Minister Lavrov characterized the first two phases of the European-
based Phased Adaptive Approach (EPAA) as ``regional systems'' that pose 
no threat to Russia's strategic nuclear forces. On the latter two 
phases, he noted that Russia would need to evaluate them should they 
contain ``strategic features.'' We have provided, and will continue to 
provide, policy and technical explanations regarding why U.S. ballistic 
missile defense capabilities such as those to be deployed throughout 
all four phases of the EPAA will not pose a threat to Russian strategic 
deterrent forces.

    30. Senator McCain. Secretary Clinton, did our negotiators receive 
assurances from Russia that they will not object to the potential need 
to increase the number of GBIs in California and Alaska if the threat 
from North Korea or Iran materializes sooner than expected?
    Secretary Clinton. This issue was not discussed in the New START 
negotiations. U.S. negotiators did not seek such assurances, but the 
United States made clear in its unilateral statement that it intended 
to continue improving and deploying missile defense systems.

    31. Senator McCain. Secretary Clinton, if we were going to offer 
assurances on missile defense, why didn't we demand similar assurances 
from the Russians on tactical nuclear weapons?
    Secretary Clinton. The U.S. assurances on missile defense have been 
a reiteration of standing U.S. policy as articulated in the 2010 BMD 
Review, and explanations of the capabilities of current and planned 
systems. A more ambitious treaty that addressed tactical nuclear 
weapons would have taken much longer to complete, adding significantly 
to the time before a successor agreement, including verification 
measures, could enter into force following START's expiration in 
December 2009. This approach was consistent with the bipartisan 
Strategic Posture Commission's recommendation to ``pursue a step-by-
step approach,'' and to make the first step ``modest and 
straightforward.'' President Medvedev has expressed interest in future 
discussions on measures to further reduce both nations' nuclear 
arsenals. We intend to raise strategic and tactical weapons, including 
nondeployed nuclear weapons, in those discussions.

                    russian tactical nuclear weapons
    32. Senator McCain. Secretary Clinton, in written testimony before 
the Senate Foreign Relations Committee, Former Secretary of State Henry 
Kissinger stated, ``As strategic arsenals are reduced, the distinction 
between tactical and strategic nuclear weapons is bound to erode. The 
large Russian stockpile of tactical nuclear weapons, unmatched by a 
comparable American deployment, could threaten the ability to undertake 
extended deterrence. This challenge is particularly urgent given the 
possible extension of guarantees in response to Iran's nuclear weapons 
program and other programs that may flow from it.'' Given the 
significant interrelationship between strategic and tactical offensive 
weapons, why does the treaty not address the Russian and U.S. 
disparity?
    Secretary Clinton. From the outset the New START treaty was 
intended to replace the START treaty, which was about strategic 
offensive forces. The desire to conclude the New START treaty quickly 
in light of the pending expiration of the START treaty, combined with 
the need to consult closely with our allies before addressing tactical 
nuclear weapons, did not support broadening the scope of the New START 
treaty to address tactical nuclear weapons. Deferring negotiations on 
tactical nuclear weapons until after a START successor agreement had 
been concluded was also the recommendation of the Perry-Schlesinger 
Congressional Strategic Posture Commission.

    33. Senator McCain. Secretary Clinton, what leverage do we have to 
compel Russia to discuss reductions of its tactical arsenal in the 
future if we were to ratify the New START?
    Secretary Clinton. The New START treaty sets the stage for further 
negotiations with Russia on measures to reduce both our strategic and 
tactical nuclear weapons, including nondeployed nuclear weapons. 
President Medvedev has expressed interest in future discussions on 
measures to reduce both nations' nuclear arsenals. We intend to raise 
strategic and tactical nuclear weapons, including nondeployed nuclear 
weapons, in those discussions.
    Leverage for future negotiations will come from several directions. 
The Russians are concerned with the totality of the U.S. nuclear 
stockpile, particularly the upload capability of our strategic 
ballistic missiles, as well as U.S. tactical nuclear weapons forward-
deployed in NATO countries. Also, Article VI of the Nuclear NPT 
stipulates that nuclear weapons states are to work toward achieving 
nuclear disarmament. The Russians want to be seen favorably as working 
toward this goal.

                            force structure
    34. Senator McCain. Admiral Mullen, the 1251 Report, received by 
Congress in conjunction with the New START documentation, outlined a 
baseline nuclear force structure and specified retaining up to 420 
deployed ICBMs after a cut of at least 30 silos; retaining up to 60 
nuclear-capable bombers after a reduction of 34 bombers from the 
current deployable force; and retaining all of the current 14 SSBNs 
with no more than 240 SLBMs deployed at any time. Given the provided 
ranges in the 1251 Report account for 720 delivery vehicles, 20 above 
the deployed limit under the New START, when does DOD intend to provide 
the Senate with its final force structure?
    Admiral Mullen. The NPR assessed the appropriate force structure 
for each Triad leg, namely the required numbers of strategic nuclear 
submarines (SSBNs) and SLBMs, ICBMs, and nuclear-capable heavy bombers. 
DOD continues to study the final force structure under New START and 
will announce the end state force structure at the appropriate time. 
But the final force structure will allow for:

        <bullet> Supporting strategic stability through an assured 
        second-strike capability
        <bullet> Retaining sufficient force structure in each leg to 
        allow the ability to hedge effectively against technical and 
        geopolitical developments by preserving our capability to 
        upload all three legs of the Triad as well as change our force 
        posture as necessary
        <bullet> Retaining a margin above the minimum required nuclear 
        force structure for the possible addition of non-nuclear 
        prompt-global strike capabilities (conventionally-armed ICBMs 
        or SLBMs) that would be accountable under the treaty.

    Maintaining the needed capabilities over the next several decades 
or more, including retaining a sufficient cadre of trained military and 
civilian personnel and adequate infrastructure.

    35. Senator McCain. Admiral Mullen, have you yet estimated how the 
Russians will configure their strategic forces under the New START?
    Admiral Mullen. The classified National Intelligence Estimate (NIE) 
drafted by the Intelligence Community published on 30 June 2010 
provides an analysis of how the Russian Federation will potentially 
configure their strategic forces under the New START. In formulating 
the U.S. negotiating position and during treaty negotiations, we looked 
at a wide array of how Russia could arrange its nuclear force 
structure. We are confident that the forces we deploy during the life 
of the treaty can address any potential threat to U.S national security 
from Russian nuclear forces.
    Additionally, the U.S. nuclear force structure, as articulated in 
the NPR, was designed to account for possible adjustments in the 
Russian strategic force configuration that may be implemented in 
response to New START. The configuration of U.S. strategic forces in 
the Triad, and the administration's continuing commitment to 
maintaining U.S. forces in the Triad structure under New START, 
maintains strategic deterrence and stability, strengthens regional 
deterrence, reassures U.S. allies and partners, and sustains a safe, 
secure, and effective nuclear arsenal. NPR analysis focused on 
retaining sufficient force structure in each leg of the Triad to allow 
the ability to hedge effectively against technical and geopolitical 
developments by preserving our capability to ``upload'' our nuclear 
forces as well as change our force posture as necessary.

    36. Senator McCain. Admiral Mullen, have you conducted a net 
assessment to determine if the United States can carry out its 
deterrence mission under a likely mixed Russian strategic and tactical 
nuclear weapons force structure? If so, please provide details.
    Admiral Mullen. The base objectives for NPR analysis included 
reducing the role of U.S. nuclear weapons in U.S. national security 
strategy while maintaining strategic deterrence and stability, 
strengthening regional deterrence and reassuring U.S. allies and 
partners, and sustaining a safe, secure, and effective nuclear arsenal. 
The United States achieves deterrence vis-a-vis Russia through DOD's 
Triad force structure. The administration is committed to the Triad, 
namely maintaining the required numbers of strategic nuclear submarines 
and SLBMs, ICBMs, and nuclear-capable heavy bombers. The administration 
firmly believes in retaining sufficient force structure in each leg to 
allow the ability to hedge effectively by shifting weight from one 
Triad leg to another if necessary due to unexpected technological or 
operational problems.
    While Russia maintains a large stockpile of non-strategic (or 
``tactical'') nuclear weapons, the United States has reduced non-
strategic nuclear weapons dramatically since the end of the Cold War 
and keeps only a limited number of forward deployed nuclear weapons in 
Europe, plus a small number of nuclear weapons stored in the United 
States for possible overseas deployment in support of extended 
deterrence to allies and partners worldwide.
    In support of U.S. extended deterrence goals, the NPR called for 
retaining the capability to forward-deploy U.S. nuclear weapons on 
tactical fighter-bombers and heavy bombers, and proceed with full scope 
life extension for the B-61 bomb including enhancing safety, security, 
and use control. Additionally, the United States will continue to 
maintain and develop long-range strike capabilities that supplement 
U.S. forward military presence and strengthen regional deterrence, and 
also continue, where appropriate, to expand consultations with allies 
and partners to address how to ensure the credibility and effectiveness 
of the U.S. extended deterrent.

              russian verification and compliance reports
    37. Senator McCain. Secretary Clinton, I understand that we have 
yet to receive requested data on Russian compliance and verification 
since 2005 under START. Please explain why this delay occurred.
    Secretary Clinton. The 2010 Report on Adherence to and Compliance 
with Arms Control, Nonproliferation, and Disarmament Agreements and 
Commitments, including information on Russia's compliance with START 
through the expiration of the treaty, was submitted to Congress on July 
1, 2010. This administration was committed to ensuring that Congress 
received a comprehensive report.

    38. Senator McCain. Secretary Clinton, when does the administration 
plan to make START compliance and verification data available to the 
Senate?
    Secretary Clinton. Issues related to Russia's compliance with 
verification and inspection procedures associated with the START treaty 
are addressed in the Report on Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments 
that was provided to the Senate on July 1, 2010.

                           negotiating record
    39. Senator McCain. Secretary Clinton, consistent with past 
practice on arms control treaties, including the Intermediate-Range 
Nuclear Forces Treaty and START, when does the administration intend to 
provide the Senate with the negotiating record of the New START, 
including all elements of the record dealing with missile defenses, 
tactical nuclear weapons, and limiting prompt global strike?
    Secretary Clinton. So far as we are aware, Senators were not 
provided full access to the negotiating record during Senate 
consideration of the START treaty. Nor was the negotiating record 
provided to the Senate during its consideration of the ABM Treaty. 
Rather, information from the negotiating record was provided to the 
Senate in relation to a controversial interpretation of the ABM Treaty 
more than a decade after the Senate had provided its approval and the 
treaty had entered into force.
    As the Senate Foreign Relations Committee noted in its report on 
the treaty between the United States and the U.S.S.R. on the 
elimination of their Intermediate-Range and Shorter-Range Missiles, ``a 
systematic expectation of Senate perusal of every key treaty's 
`negotiating record' could be expected to inhibit candor during future 
negotiations and induce posturing on the part of U.S. negotiators and 
their counterparts during sensitive discussions.'' The committee report 
further noted that regularly providing the negotiating record would 
ultimately ``weaken the treaty-making process'' and ``damage American 
diplomacy.''
    Of course, Senators being asked to provide advice and consent to 
ratification of a treaty should have a full understanding of what 
obligations would be undertaken by the United States upon ratification 
of that treaty. Thus, when a treaty is submitted to the Senate by the 
President it is accompanied by a detailed article-by-article analysis 
of the treaty. The analysis of the New START treaty transmitted to the 
Senate by the President on May 13, 2010, is nearly 200 pages and 
provides information on every provision of the treaty, Protocol, and 
Annexes. This analysis includes relevant information drawn from the 
negotiating record. The treaty text and these materials provide a 
comprehensive picture of U.S. obligations under the treaty. Should you 
have any outstanding questions, we are committed to providing answers 
in detailed briefings, in a classified session, if needed.

                   dual-capable joint strike fighter
    40. Senator McCain. Secretary Gates, the development of the dual-
capable nuclear and conventional variant of the F-35 Joint Strike 
Fighter (JSF) to replace aging dual-capable F-16s is a primary driver 
for the B-61 2017 deadline. How critical is the timely delivery of the 
dual-capable F-35 to the extended deterrence mission?
    Secretary Gates. Timely delivery of a dual-capable F-35 is 
important to the extended deterrence mission, because U.S. F-16 dual 
capable aircraft (DCA) currently performing the extended deterrence 
mission are expected to begin to reach service life limits in the 2017 
timeframe, and as such, need to be replaced.
    It is important to note that the development of the F-35 is only 
one of several drivers for the B61 LEP 2017 First Production Unit (FPU) 
requirement. Several components of both the B61-3 and -4 non-strategic 
variants, and the B61-7 strategic variants are reaching end of life and 
need to be replaced to support both the extended and strategic 
deterrence missions.

    41. Senator McCain. Secretary Gates, how confident are you that the 
dual-capable F-35 will be available as scheduled in 2017?
    Secretary Gates. Based on the recent F-35 program restructure and 
Nunn-McCurdy breach, a new program baseline is currently in work and 
those results will help inform the Air Force on any possible effects to 
the Dual Capable Aircraft timeline.

                      infrastructure modernization
    42. Senator McCain. Secretary Chu, with the release of the NPR, 
Secretary Gates announced that DOD would be transferring $5 billion 
over the next 5 years to DOE to address infrastructure modernization 
needs. This increase is welcome, and absolutely necessary, and must 
supplement significant long-term increases in DOE's own budget. How 
will DOD funding be utilized by NNSA?
    Secretary Chu. The Department of Defense transferred almost $4.6 
billion of top line budget authority over the period of fiscal years 
2011-2015 to the NNSA weapon activities for infrastructure 
modernization, LEPs, and enhanced stockpile stewardship. This transfer, 
if appropriated by Congress, would be utilized to support:

        <bullet> Design and initial construction of the Chemistry and 
        Metallurgy Research Replacement Nuclear Facility;
        <bullet> Design and initial construction of the Uranium 
        Processing Facility;
        <bullet> Creation of a sustainable plutonium pit manufacturing 
        capacity at the PF-4 facility;
        <bullet> Completion of the ongoing LEP for the W76 warhead and 
        the B61 bomb;
        <bullet> Beginning LEP studies to explore the path forward for 
        the W78 ICBM warhead;
        <bullet> Revitalizing the warhead surveillance effort and 
        associated science and technology support; and
        <bullet> Protecting the human capital base at U.S. nuclear 
        weapons laboratories--including the ability to design nuclear 
        warheads as well as development and engineering expertise and 
        capabilities--through a stockpile stewardship program that 
        fully exercises these capabilities.

    The Departments of Defense and Energy have agreed that their staffs 
will conduct and participate in the following reviews: semi-annual 
programmatic reviews by the Nuclear Weapons Council and annual NNSA 
programming and budgeting reviews.
    In addition, the Department of Defense transferred another nearly 
$1.1 billion to Naval Reactors over the period of fiscal years 2011-
2015 for reactor design and development.

    43. Senator McCain. Secretary Chu, can you confirm that DOE will 
not reduce its future years spending requests for NNSA as a result of 
DOD contribution?
    Secretary Chu. That is correct. DOE will not reduce its request for 
NNSA's Future Years Nuclear Security Program as a result of the 
transfer of top line budget authority from the Department of Defense. 
The President's fiscal year 2011 budget proposal initiates a multi-year 
investment plan that includes substantial budget increases to address 
shortfalls in stockpile surveillance activities and in the science, 
technology, and engineering base that support stockpile certification, 
and to maintain and modernize the supporting infrastructure.

                   russian resolution on ratification
    44. Senator McCain. Secretary Clinton, as you are aware, the 
Russian law passed pursuant to START II ratification obligated in 
statute that Russia withdraw from START II if the United States 
withdrew from the ABM treaty. Has the Russian Resolution on 
Ratification for the New START been made public yet?
    Secretary Clinton. No.

    45. Senator McCain. Secretary Clinton, what is the projected 
timeline for the Russian Resolution on Ratification to be made public, 
if at all?
    Secretary Clinton. We do not know, although we would anticipate 
that the resolution may be made public when the Duma votes on it.

    46. Senator McCain. Secretary Clinton, while START II never entered 
into force, is there any reason to believe that Russia will not pass a 
similar statute with respect to missile defense this time?
    Secretary Clinton. We have no information regarding what might be 
in the Russian resolution of ratification for the New START treaty.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                        tactical nuclear weapons
    47. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, the 2010 NPR concluded that ``large disparities in nuclear 
capabilities could raise concerns on both sides and among U.S. allies 
and partners, and may not be conducive to maintaining a stable, long-
term relationship, especially as nuclear forces are significantly 
reduced.'' Henry Kissinger stated on May 25, 2010, ``The large Russian 
stockpile of tactical nuclear weapons, unmatched by a comparable 
American deployment, could threaten the ability to undertake extended 
deterrence.'' The Perry-Schlesinger Strategic Posture Commission report 
notes, ``The combination of new warhead designs, the estimated 
production capability for new nuclear warheads, and precision delivery 
systems such as the Iskander short-range tactical ballistic missile, 
open up new possibilities for Russian efforts to threaten to use 
nuclear weapons to influence regional conflicts.'' Senator Biden said 
in March 2003, ``After entry into force of the Moscow Treaty, getting a 
handle on Russian tactical nuclear weapons must be a top arms control 
and nonproliferation objective of the United States Government.'' Why 
was limiting tactical nuclear weapons not an objective for this 
agreement?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. We did not 
make limiting tactical nuclear weapons an objective for this agreement 
because from the outset the New START treaty was intended to replace 
the START treaty, which was about strategic offensive forces. The 
desire to minimize the time before a successor agreement, including 
verification measures, could enter into force following START's 
expiration in December 2009, combined with the need to consult closely 
with our allies before addressing tactical nuclear weapons did not 
support broadening the scope of the New START treaty to address 
tactical nuclear weapons. Deferring negotiations on tactical nuclear 
weapons until after a START successor agreement had been concluded was 
also the recommendation of the Perry-Schlesinger Congressional 
Strategic Posture Commission.

    48. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, wasn't the Senate told when it approved the Strategic Offensive 
Reductions Treaty (SORT) or Moscow Treaty that the next treaty would 
finally make possible reductions in tactical nuclear weapons?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. Then-
Secretaries Powell and Rumsfeld made clear they intended to raise 
issues related to tactical nuclear weapons with their Russian 
counterparts. In 2002, the United States and Russia agreed to establish 
a Consultative Group for Strategic Security (CGSS) to serve as the 
principal mechanism through which the sides could discuss a broad range 
of international security issues. One of the priorities that the United 
States pursued in the CGSS was transparency in tactical nuclear 
weapons. However, no progress was made on developing an arms control 
agreement governing tactical nuclear weapons.
    As stated in the 2010 NPR, the President has directed a review of 
post-New START arms control objectives to consider further reductions 
in nuclear weapons. Specifically, the U.S. goals in post-New START 
bilateral negotiations with Russia will include reducing non-strategic/
tactical nuclear weapons and nondeployed nuclear weapons, as well as 
deployed strategic nuclear weapons on ICBMs, SLBMs, and nuclear-capable 
heavy bombers.
    President Medvedev has expressed interest in future discussions on 
measures to further reduce both nations' nuclear arsenals. We intend to 
raise strategic and tactical nuclear weapons, including nondeployed 
nuclear weapons, in those discussions.
    Of course, any specific U.S.-Russian discussions on U.S. non-
strategic/tactical nuclear weapons will take place in the context of 
continued close consultation with allies and partners.

    49. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, what leverage will the United States have in the future to 
address this disparity when we have only a couple of hundred tactical 
nuclear weapons in Europe while the Russians have thousands?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. The New 
START treaty sets the stage for further negotiations with Russia on 
measures to reduce both our strategic and tactical nuclear weapons, 
including nondeployed nuclear weapons. President Medvedev has expressed 
interest in future discussions on measures to reduce both nations' 
nuclear arsenals. We intend to raise strategic and tactical nuclear 
weapons, including nondeployed nuclear weapons, in those discussions.
    Leverage for future negotiations will come from several directions. 
The Russians are concerned with the totality of the U.S. nuclear 
stockpile, particularly the upload capability of our strategic 
ballistic missiles, as well as U.S. tactical nuclear weapons forward-
deployed in NATO countries. Also, Article VI of the NPT stipulates that 
nuclear weapons states are to work toward achieving nuclear 
disarmament. The Russians want to be seen favorably as working toward 
this goal.

    50. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, would the administration be willing to put missile defense on 
the negotiating table to get reductions in Russian tactical nuclear 
weapons?
    Secretary Clinton. No. While it is certainly desirable to get 
reductions in Russian tactical nuclear weapons, this administration has 
consistently informed Russia that the United States will not agree to 
constrain or limit U.S. BMD capabilities.
    Secretary Gates. No.
    Admiral Mullen. No.

    51. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, would the administration be willing to use our large hedge of 
nondeployed nuclear warheads to get reductions in Russian tactical 
nuclear weapons?
    Secretary Clinton. Presidents Obama and Medvedev have expressed 
their interest in future discussions on measures to further reduce both 
nations' nuclear arsenals. We intend to raise the issue of strategic 
and tactical nuclear weapons, including nondeployed nuclear weapons, in 
those discussions. It is premature at this stage to discuss what our 
negotiating strategy might be.
    Secretary Gates. The Department of Defense will carry out analyses 
to explore the adequacy of various U.S. strategic and tactical nuclear 
capability levels--including both deployed and nondeployed weapons--
within the context of similar nuclear force levels on the Russian side 
in preparation for the next round of nuclear arms reduction 
negotiations.
    Admiral Mullen. In the NPR, the Obama administration stated its 
desire to engage in a strategic dialogue with Russia to discuss steps 
it could take to allay concerns in the West about Russia's non-
strategic nuclear arsenal. I would note that this strategic dialogue is 
unrelated to DOD reasoning for maintaining our stockpile of nondeployed 
warheads.
    The United States maintains nondeployed nuclear warheads in the 
U.S. stockpile to provide logistics spares, support the aging 
surveillance program, and hedge against technical or geopolitical 
surprise. The nondeployed stockpile currently includes more warheads 
than would otherwise be required for these purposes, if not for the 
limited capacity of the NNSA complex to conduct LEPs for deployed 
weapons in a timely manner. Progress in restoring NNSA's production 
infrastructure will allow the U.S. to reduce its reliance on, and thus 
the supply of, reserve warheads. It is only within this broader context 
that the U.S. would consider nondeployed warheads as part of any future 
negotiating strategy.

    52. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, what impact will the disparity in tactical nuclear weapons have 
on the ability of the United States to extend deterrence, or nuclear 
security guarantees, to allies that are within the range of Russian 
tactical nuclear weapons?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. Extended 
nuclear deterrence will remain strong under the New START treaty, 
including for those within range of Russian tactical nuclear weapons. A 
credible U.S. extended nuclear deterrent protecting allies and partners 
is provided by a combination of means--the strategic forces of the U.S. 
strategic Triad, non-strategic nuclear weapons forward deployed in 
Europe, and U.S.-based nuclear weapons that could be deployed forward 
quickly to meet regional contingencies.

    53. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, could the Russians benefit, in terms of the influence they are 
able to exert over specific regions, due to their superiority in 
tactical nuclear weapons?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. U.S. 
extended deterrence and assurance will remain strong under New START. 
NATO retains a nuclear capability and the United States retains a 
variety of capabilities to forward-deploy nuclear weapons into other 
regions if the situation ever demands. The New START limit on deployed 
nuclear warheads was made with consideration of the U.S. ability to 
fulfill our deterrence commitments around the world.

    54. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, what impact will this tactical nuclear weapon disparity have on 
the views of our 30 allies currently protected under the United States 
nuclear umbrella?
    Secretary Clinton. We have discussed our nuclear force reductions 
with our allies and assured them that U.S. nuclear force reductions 
will be implemented in ways that maintain the reliability and 
effectiveness of our extended deterrent for all of our allies and 
partners.
    Secretary Gates and Admiral Mullen. Traditionally, a credible U.S. 
``nuclear umbrella'' has been provided by a combination of means--the 
strategic forces of the U.S. Triad, non-strategic nuclear weapons 
deployed forward in key regions, and U.S.-based nuclear weapons that 
could be deployed forward quickly to meet regional contingencies. The 
mix of deterrence means has varied over time and from region to region.
    Today, there are separate choices to be made in partnership with 
allies in Europe and Asia about what posture best serves our shared 
interests in deterrence and assurance and in moving toward a world of 
reduced nuclear dangers. The U.S. and its NATO allies maintain forward 
deployed tactical nuclear weapons to enhance deterrence. Within the 
regional context, the United States relies on additional capabilities 
to support extended deterrence and power projection, including: 
conventional force capabilities, BMDs, allied capabilities, advanced 
technologies, and modernization and maintenance of existing forces, to 
name a few. Finally, the United States retains the capability to 
rapidly upload additional strategic nuclear weapons if necessary.
    During consultations during the development of the 2010 NPR and 
since the release of the NPR and the signing of New START, Allies have 
told us they are comfortable with our planned nuclear force posture, 
which is consistent with the NPR recommendations and the New START 
treaty. Allied governments have noted that future U.S.-Russian nuclear 
arms reduction negotiations should seek to reduce Russian tactical 
nuclear weapons.
    Lastly, the United States will sustain safe, secure, and effective 
nuclear forces to deter any potential adversary so long as nuclear 
weapons exist. U.S. nuclear force reductions will be implemented in 
ways that maintain the reliability and effectiveness of our extended 
deterrent for all of our allies and partners.

                            nonproliferation
    55. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, Admiral Mullen stated in his written testimony that this treaty 
demonstrates our national commitment to reducing the worldwide risk of 
nuclear incident resulting from the continuing proliferation of nuclear 
weapons. How does this treaty reduce the proliferation of nuclear 
weapons?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. U.S. 
leadership in reducing its nuclear arsenal is essential to our efforts 
to bolster the nonproliferation regime and reduce global nuclear 
dangers. The New START treaty positions the United States to continue 
its international leadership role in advancing the goals of the NPT 
regime. Having concluded this agreement with Russia strengthened the 
U.S. position during the NPT Review Conference in May 2010, and helped 
aid our efforts to conclude a consensus final document, which did not 
occur at the previous Review Conference in 2005. The new treaty set the 
stage for engaging other nuclear powers in fulfilling the goals of the 
NPT, and expanding opportunities for enhancing strategic stability.
    Enhanced cooperation between the United States and Russia in the 
nuclear arena will contribute to the positive international environment 
needed to reinforce programs to secure and safeguard nuclear material 
stockpiles worldwide, and to strengthen the NPT. More generally, 
improved U.S.-Russian relations will help in pursuing critical U.S. 
foreign policy objectives related to U.S. security, including efforts 
to address the nuclear programs of Iran and North Korea.

    56. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, did the Moscow Treaty aid in reducing proliferation when it was 
ratified?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. Yes. Like 
other strategic nuclear arms control agreements, the Moscow Treaty 
demonstrated U.S. leadership in reducing its nuclear arsenal and 
contributed therefore to efforts to bolster the nonproliferation regime 
and reduce global nuclear dangers.

    57. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, how does the New START stop other countries from continuing to 
develop or produce nuclear weapons?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. U.S. 
leadership in reducing its nuclear arsenal is essential to our efforts 
to bolster the nonproliferation regime and reduce global nuclear 
dangers. The New START treaty positions the United States to continue 
its international leadership role in advancing the goals of the NPT 
regime. Having concluded this agreement with Russia strengthened the 
U.S. position during the NPT Review Conference in May 2010, and helped 
aid our efforts to conclude a consensus final document, which did not 
occur at the previous Review Conference in 2005. The new treaty set the 
stage for engaging other nuclear powers in fulfilling the goals of the 
NPT, and expanding opportunities for enhancing strategic stability.
    Enhanced cooperation between the United States and Russia in the 
nuclear arena will contribute to the positive international environment 
needed to reinforce programs to secure and safeguard nuclear material 
stockpiles worldwide, and to strengthen the NPT. More generally, 
improved U.S.-Russian relations will help in pursuing critical U.S. 
foreign policy objectives related to U.S. security, including efforts 
to address the nuclear programs of Iran and North Korea.

    58. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, how does the New START safeguard existing nuclear weapons and 
keep them out of the hands of terrorists?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. New START 
is just one element of a comprehensive strategy to implement the 
President's nuclear security agenda. The New START treaty reduces 
limits on deployed strategic nuclear warheads and delivery vehicles in 
the U.S. and Russian arsenals. For almost 20 years, the Nunn-Lugar 
Cooperative Threat Reduction (CTR) Program has worked to help eliminate 
strategic systems in Russia and other states of the former Soviet 
Union. Past eliminations have been completed in accordance with 
applicable START provisions, including the START Conversion or 
Elimination Protocol. Going forward, CTR will complement New START, 
while continuing to operate under its own authorities.
    Together with Department of Energy nonproliferation programs, CTR 
has contributed to the upgrading of physical security systems at 
Russia's nuclear weapons storage sites, as well as provided training 
facilities for guard forces, equipped an emergency response force, and 
helped the Ministry of Defense to establish a personnel reliability 
program. In tandem with the eliminations under New START, these past 
and continuing efforts will support the objective of keeping nuclear 
weapons and delivery systems out of the hands of terrorists.

                         relations with russia
    59. Senator Inhofe. Secretary Clinton, you said during the hearing, 
``I would underscore the importance of ratifying the New START to have 
any chance of us beginning to have a serious negotiation over tactical 
nuclear weapons.'' As you know, START II never entered into force, but 
that did not stop the United States and Russia from concluding other 
treaties, such as the Moscow Treaty or the New START. The Strategic 
Arms Limitations Talks (SALT) II was not ratified either. Why will we 
not be able to negotiate tactical nuclear weapons reductions if this 
treaty does not enter into force when history disproves that argument?
    Secretary Clinton. Our first order of business is to bring the New 
START treaty into force. If we fail to do so, Russia could question 
whether we would be able to bring a future treaty into force and 
therefore might be less inclined to negotiate one in the near term. 
Regarding the historical examples you cite, it is important to note 
that there was a 15-year gap between the time SALT II was concluded and 
START entered into force; and there was a 9-year gap between the time 
START II was concluded and the Moscow Treaty entered into force. We do 
not want to wait that long to make progress on tactical nuclear 
weapons.

    60. Senator Inhofe. Secretary Clinton, are U.S.-Russia relations so 
fragile after more than a year of a reset policy that they would not 
recover if the Senate or the Duma did not ratify the New START?
    Secretary Clinton. The relationship between the United States and 
Russia continues to improve, and the conclusion of the New START treaty 
reflects our growing cooperation on matters of mutual interest, 
including top priorities like nuclear security and nonproliferation. 
The treaty, by helping improve bilateral relations, has facilitated 
cooperation on other top priorities, including Iran, most recently with 
the passage of UNSC Resolution 1929, which imposes new sanctions on 
Iran.
    Failure to bring the treaty into force would be a setback for the 
relationship and could make it more difficult to cooperate in areas of 
mutual interest, as well as to engage productively on issues where we 
do not see eye to eye with Russia.
    Moreover, without the New START treaty's verification regime, 
including inspections, data exchanges and notifications, the United 
States and Russia would have to rely solely on National Technical Means 
to monitor each other's strategic forces. Over time, this could lead to 
greater uncertainty regarding each other's strategic forces and could 
cause a decline in confidence, with potentially negative consequences 
for strategic stability.

                            missile defense
    61. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, the New START preamble recognizes ``the interrelationship 
between strategic offensive arms and strategic defensive arms, that 
this interrelationship will become more important as strategic nuclear 
arms are reduced and that current strategic defensive arms do not 
undermine the viability and effectiveness of the strategic offensive 
arms of the Parties.'' Article V, Section 3 of the treaty text places 
restrictions on converting ICBM and SLBM launchers for placement of 
missile defense interceptors. The unilateral statement issued by the 
Russian side on missile defense, released the same day as the full 
agreed-upon the New START text in Prague on April 8, states that the 
treaty ``can operate and be viable only if the United States of America 
refrains from developing its missile defense capabilities 
quantitatively or qualitatively.'' Russian Foreign Minister Sergei 
Lavrov stated, ``We have not yet agreed on this [missile defense] issue 
and we are trying to clarify how the agreements reached by the two 
presidents . . . correlate with the actions taken unilaterally by 
Washington,'' and added that the ``Obama administration had not 
coordinated its missile defense plans with Russia.''
    When taken together, the New START preamble, Russian unilateral 
statement, and pronouncements by senior Russian officials suggest the 
Russians believe there is a linkage between certain U.S. missile 
defense activities and their adherence to the treaty. While the Obama 
administration had made it clear that the treaty in no way limits any 
U.S. missile defense activity, what is more important is what the 
Russians think. One way to address this concern is by making it clear 
in the Resolution of Ratification that the United States will not be 
limited, in any fashion, in its missile defense deployments by the New 
START. Are you aware of any agreements reached between the two 
presidents concerning missile defense, whether in the context of the 
New START or otherwise?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. Apart from 
the provisions contained in the New START treaty, in the last year the 
Presidents have issued two documents addressing BMD.
    On July 6, 2009, the Presidents of the United States and the 
Russian Federation issued at a summit in Moscow a Joint Statement on 
Missile Defense Issues. In that joint statement, the Presidents 
instructed their experts ``to work together to analyze the ballistic 
missile challenges of the 21st century and to prepare appropriate 
recommendations, giving priority to the use of political and diplomatic 
methods.'' Accordingly, the United States and Russia are conducting a 
Joint Threat Assessment pursuant to the Joint Statement.
    At that same Presidential summit on July 8, 2009, Presidents Obama 
and Medvedev signed a Joint Understanding on concluding a new legally 
binding agreement to replace the START treaty. They directed that the 
new treaty include a number of elements, including a ``provision on the 
interrelationship of strategic offensive and strategic defensive 
arms,'' which is reflected in the preamble of the New START treaty.
    Additionally, the April 7, 2010, U.S. Unilateral Statement by the 
United States of America Concerning Missile Defense in response to 
Russia's unilateral statement makes it clear that the United States 
intends to continue to improve and deploy the most effective missile 
defense capabilities possible. The administration has consistently 
informed Russia that while we seek to establish a framework for U.S.-
Russia BMD cooperation, the United States cannot agree to constrain or 
limit our development or deployment of the most effective missile 
defenses possible to protect our homeland, deployed forces, and allies 
and partners.

    62. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, are you aware of any push by Russia for a renewed demarcation 
between theater missile defense and national missile defense?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. Russia has 
proposed that we jointly discuss how to differentiate between strategic 
and non-strategic BMDs. However, the administration's view is that the 
evolution of BMD technologies has made such a distinction problematic, 
as some regional BMD systems are capable of enhancing the protection of 
the U.S. homeland and could thereby assume a strategic role. The 
administration's view has been communicated to the Russian Government.

    63. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, would an agreement between the United States and Russia on 
missile defense have to be approved by the Senate?
    Secretary Clinton. The administration has consistently informed 
Russia that while we seek to establish a framework for U.S.-Russian BMD 
cooperation, the United States will not agree to constrain or limit our 
development or deployment of the most effective missile defenses 
possible to protect our homeland, deployed forces, and allies and 
partners. With respect to missile defense cooperation, the precise form 
of any potential agreement would depend on the specific content of such 
an agreement. We would, of course, work closely with the Senate to 
address any concerns in this important area.
    Secretary Gates and Admiral Mullen. We concur.

    64. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, do the United States and Russia have an agreement on what 
constitutes strategic missile defense?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. No. The 
administration's view is that the evolution of BMD technologies has 
made such a distinction problematic, as some regional BMD systems are 
capable of enhancing the protection of the U.S. homeland and could 
thereby assume a strategic role. The administration's view has been 
communicated to the Russian Government.

    65. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, will you pledge to the Senate that under no circumstances will 
the United States agree to any geographic limitation sought by Russia 
as to where we can deploy our missile defenses?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. The 
administration has consistently informed Russia that while we seek to 
establish a framework for U.S.-Russia BMD cooperation, the United 
States will not agree to constrain or limit our development or 
deployment of the most effective missile defenses possible to protect 
our homeland, deployed forces, and allies and partners.

    66. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, will you pledge that the United States will accept no 
limitation pertaining to our ability to deploy national missile 
defenses?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. This 
administration has consistently informed Russia that while we seek to 
establish a framework for U.S.-Russia BMD cooperation, the United 
States will not agree to constrain or limit current or planned U.S. BMD 
capabilities quantitatively, qualitatively, operationally, 
geographically, or in any other way.

    67. Senator Inhofe. Secretary Gates, when and where will the United 
States deploy the early warning radar to support Phase I of the phased 
adaptive approach?
    Secretary Gates. We are still in discussions with potential host 
nations for the AN/TPY-2 radar at this time. We expect the 2011 
deployment goal to be met.

    68. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, will you pledge to brief Senators and staff about any 
agreements related to missile defense that come out of President Obama 
and President Medvedev's discussions?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. Yes. The 
administration would brief relevant Senators and staff regarding any 
U.S.-Russian agreements on missile defense.

    69. Senator Inhofe. Secretary Clinton, will you share with us the 
memorandum of conversations and cables that were produced during Under 
Secretary Tauscher and Deputy Foreign Minister Ryabkov's discussions on 
missile defense for the New START?
    Secretary Clinton. The treaty text, the detailed article-by-article 
analysis, and testimony provided at hearings on the treaty all provide 
a comprehensive picture of U.S. obligations under the treaty, including 
those obligations that relate to missile defense. However, should you 
have any additional questions we are committed to providing answers in 
detailed briefings, in a classified session, if needed.

    70. Senator Inhofe. Secretary Clinton, Secretary Gates, and Admiral 
Mullen, will you share with us any draft proposals for U.S.-Russia 
missile defense cooperation provided by U.S. Government personnel to 
officials of the Russian Federation?
    Secretary Clinton, Secretary Gates, and Admiral Mullen. The 
administration will keep interested Members of Congress and staff 
informed about U.S.-Russian discussions and proposals regarding BMD 
cooperation.

    71.Senator Inhofe. Secretary Clinton, do you agree with Secretary 
Gates that there is not a meeting of the minds between the United 
States and Russia on missile defense?
    Secretary Clinton. Yes. I agree with Secretary Gates that there is 
not a meeting of the minds between the United States and Russia on the 
general issue of missile defense. Secretary Gates and I agree that 
there is a meeting of the minds between the United States and Russia 
regarding all the provisions of the New START treaty.

        national nuclear security administration appropriations
    72. Senator Inhofe. Secretary Gates and Secretary Chu, given the 
criticality of funding to modernize the weapons complex, is the 
President committed to ensuring that NNSA receives the full $624 
million increase as proposed in his fiscal year 2011 budget?
    Secretary Gates. Yes.
    Secretary Chu. Yes, and we are working closely with Congress to 
secure appropriations at the requested level.

    73. Senator Inhofe. Secretary Gates and Secretary Chu, will you 
recommend that the President veto any appropriation that does not meet 
his full request for the nuclear weapons complex?
    Secretary Gates. I concur with Secretary Chu. I strongly support 
the full funding for the nuclear weapons complex including in the 
President's budget request, and would advise the President accordingly.
    Secretary Chu. I would not support an appropriation that did not 
allow the United States to ensure the safety, security, and 
effectiveness of the U.S. nuclear weapons deterrent, and if asked by 
the President for my recommendation on this matter, I would advise him 
accordingly.

    74. Senator Inhofe. Secretary Gates, you said in the hearing, 
``I've been up here for the last four springs trying to get money for 
this, and this is the first time I think I've got a fair shot of 
actually getting money for our nuclear arsenal.'' Why do you think 
Congress, or at least one House subcommittee, has been unwilling to 
provide these needed funds?
    Secretary Gates. The House Energy and Water Development 
Appropriations subcommittee has stated in reports over the past several 
years that the administration had provided ``no clear policy statements 
that articulate the role of nuclear weapons in a post-Cold War and 
post-September 11 world. [and] no convincing rationale for maintaining 
the large number of existing Cold War nuclear weapons.'' While I 
believe the rationale for nuclear weapons complex investments that was 
provided during my tenure to be more than adequate, I am hopeful that 
the combination of the NPR, the section 1251 and section 3113 reports, 
including the 10-year spending plans and 20-year stockpile roadmap--and 
extensive statements by senior leadership of this administration on 
these issues and New START--will help us move forward with these 
critical investments.

    75. Senator Inhofe. Secretary Gates and Secretary Chu, should 
Congress consider changing jurisdiction for nuclear weapons 
appropriations?
    Secretary Gates. No.
    Secretary Chu. No.

    76. Senator Inhofe. Secretary Gates and Secretary Chu, Secretary 
Gates said in the hearing, ``this is a long-term need on the part of 
the Nation . . . and there's been no progress toward providing any 
additional funding for our nuclear weapons modernization programs since 
that time.'' How long is the process of modernization expected to take?
    Secretary Gates. I agree with Secretary Chu that this multi-
dimensional modernization of the U.S. nuclear weapons stockpile, and 
the nuclear weapons complex that supports it, will extend over many 
years.
    Secretary Chu. Modernization of the NNSA Nuclear Security 
Enterprise will be a multi-year process, and different elements will 
mature at different times. Maintaining the stockpile is an enduring 
NNSA commitment, and we will fully support DOD requirements by 
extending the life of the stockpile as long as required. The current 
LEP planning schedule contained in the Stockpile Stewardship and 
Management Plan (SSMP) extends to 2030. Regarding infrastructure 
projects, both the Chemistry and Metallurgy Research Replacement 
Nuclear Facility (CMRR-NF) and the Uranium Processing Facility (UPF) 
are scheduled to complete construction in 2020 and begin full 
operations in 2022. Regarding other aspects of the process, such as 
rebuilding the intellectual infrastructure and ensuring retention of 
critical skills, the requirements in the NPR, and the details in the 
SSMP, provide challenging work of national importance that will allow 
NNSA to attract and retain the skilled workforce necessary to maintain 
a safe, secure, and effective stockpile as long as required. NNSA will 
continue to report modernization progress to Congress in future 
submissions of the SSMP.

    77. Senator Inhofe. Secretary Gates and Secretary Chu, should 
Congress and the administration take a fresh look each year as to how 
the nuclear enterprise modernization program is progressing and to make 
sure there is the appropriate appropriation of resources, especially as 
decisions are made about the warhead LEP and delivery system 
replacement?
    Secretary Gates. Yes, I concur with Secretary Chu.
    Secretary Chu. Yes. Retaining the core nuclear weapons 
capabilities, while transitioning to the more compact and agile 
infrastructure needed to ensure a safe, secure, and effective 
deterrent, will require sustained attention and investment. We would 
welcome Congress's involvement and support.

                    department of energy investment
    78. Senator Inhofe. Secretary Chu, the fiscal year 2011 budget plan 
for weapons activities shows a very flat profile for the next 3 years 
with approximately $7 billion each year. Apart from the $5 billion set 
aside for NNSA by DOD, there appears to be no attempt to grow the 
budget and improve the infrastructure in the near term. How does DOE 
plan to match its commitments with its proposed budgets?
    Secretary Chu. The fiscal year 2011-2015 Future Years Nuclear 
Security Program (FYNSP) was shaped by the NNSA's assessment of the 
ability of the Nuclear Security Enterprise to efficiently ``ramp-up'' 
within the constraints of time, capacity and capability to spend 
increased funds to redress mission shortfalls. It balances requirements 
with executability. Compared to the fiscal year 2010 appropriation, it 
includes a $624 million increase for fiscal year 2011, a $648 million 
increase for fiscal year 2012, and a $698 million increase for fiscal 
year 2013. With the approval of Congress, this increased funding over 
the next 3 years will be used for essential planning, design, and 
development activities to support both life-extension of the stockpile, 
including the W76, B61 and W78 LEPs, and modernization of the NNSA 
infrastructure, including design activities for the Chemistry and 
Metallurgy Research Replacement Nuclear Facility (CMRR-NF) and Uranium 
Processing Facility (UPF) to establish validated baselines for future 
construction. Upon completion of planning, design and development work, 
in the 2012-2013 timeframe, as we achieve more fidelity in the budget, 
there is an expectation for some of these numbers to change. Additional 
funding will be required to ramp up production and construction 
activities, which is reflected in the fiscal year 2014 and fiscal year 
2015 portion of the FYNSP, as well as the out-year funding requirements 
outlined in the report to Congress made pursuant to section 1251 of the 
National Defense Authorization Act for Fiscal Year 2010, entitled: 
``The New START Treaty Framework and Nuclear Force Structure Plans,'' 
and in the recently completed NNSA Stockpile Stewardship and Management 
Plan. Validated baselines for major projects may drive a different out-
year view of requirements. The funding requirements identified to date, 
however, represent the most complete view of needs until these projects 
reach validation.

    79. Senator Inhofe. Secretary Chu, will a flat weapons activities 
budget be able to reverse declines or will it be absorbed by the 
problems at hand?
    Secretary Chu. The fiscal year 2011-2015 FYNSP was shaped by the 
NNSA's assessment of the ability of the Nuclear Security Enterprise to 
efficiently ``ramp-up'' within the constraints of time, capacity and 
capability to spend increased funds to redress mission shortfalls. It 
balances requirements with executability. Compared to the fiscal year 
2010 appropriation, it includes a $624 million increase for fiscal year 
2011, a $648 million increase for fiscal year 2012, and a $698 million 
increase for fiscal year 2013. With the approval of Congress, this 
increased funding over the next 3 years will be used for essential 
planning, design, and development activities to support both life-
extension of the stockpile, including the W76, B61 and W78 LEPs, and 
modernization of the NNSA infrastructure, including design activities 
for the Chemistry and Metallurgy Research Replacement Nuclear Facility 
(CMRR-NF) and Uranium Processing Facility (UPF) to establish validated 
baselines for future construction. Upon completion of planning, design 
and development work, in the 2012-2013 timeframe, as we achieve more 
fidelity in the budget, there is an expectation for some of these 
numbers to change. Additional funding will be required to ramp up 
production and construction activities, which is reflected in the 
fiscal year 2014 and fiscal year 2015 portion of the Future Years 
Nuclear Security Program, as well as the out-year funding requirements 
outlined in recent reports to Congress. Validated baselines for major 
projects may drive a different out-year view of requirements. The 
funding requirements identified to date, however, represent the most 
complete view of needs until these projects reach validation. The 
administration's submittal demonstrates a long-term, executable 
commitment to a safe, secure, and effective nuclear deterrent.

    80. Senator Inhofe. Secretary Chu, have the nuclear weapons 
laboratories or other sites communicated to DOE any unfunded 
requirements from the fiscal year 2011 budget request?
    Secretary Chu. The NNSA receives many field requests on an annual 
basis that are evaluated and prioritized within a constrained budget. 
The priority list is developed using an evaluation process that 
considers mission requirements, regulatory commitments, and risk. 
Management makes a resource allocation determination based on a 
balancing of these priorities.

    81. Senator Inhofe. Secretary Chu, are you confident there is 
sufficient capacity in the complex to undertake the LEPs for the W76 
and the B61 weapon systems, to start the W78 weapon system, and to 
continue dismantlement?
    Secretary Chu. Yes. The NNSA Stockpile Stewardship and Management 
Plan (SSMP) accounts for conducting multiple, phased LEPs at the same 
time. This includes completing by 2017 the ongoing LEP for the W76 
warhead, completing a full scope LEP study for the B61 bomb and 
beginning production in 2017, and completing, with the Nuclear Weapons 
Council, a study of LEP options for maintaining the W78 ICBM warhead. 
While carrying out this work, NNSA will continue its dismantlement 
activities at the Pantex Plant and Y-12 National Security Complex.

    82. Senator Inhofe. Secretary Chu, if the United States decided to 
add an LEP to the W80 weapon system, what would have to change in DOE 
funding to add that requirement?
    Secretary Chu. All warheads in the enduring nuclear stockpile will 
require some level of technical attention in the next three decades to 
ensure their continued safety, security, and effectiveness. The LEP 
process determines the specific extent of this activity appropriate to 
each weapon system. We have not at this time scheduled or embarked upon 
a life extension activity for the W80 warhead, so it is difficult to 
assess the scope of such an endeavor. We are confident that full 
implementation of the SSMP through fiscal year 2030 will maintain our 
country's nuclear weapons safely, securely, and effectively without a 
need to resume underground nuclear tests.

                             modernization
    83. Senator Inhofe. Secretary Gates and Secretary Chu, our nuclear 
weapons average age is over 30 years and most are 15 or more years 
beyond design life. Secretary Gates warned last October, ``there is 
absolutely no way we can maintain a credible deterrent and reduce the 
number of weapons in our stockpile without either resorting to testing 
our stockpile or pursuing a modernization program.'' The Perry-
Schlesinger Commission was unanimously alarmed by serious disrepair and 
neglect of nuclear weapons stockpile and complex. Press reports 
indicate the administration will invest $100 billion over the next 
decade in nuclear delivery systems. About $30 billion of this total 
will go toward development and acquisition of a new SSBN, leaving about 
$70 billion. According to estimates by U.S. Strategic Command 
(STRATCOM), the cost of maintaining our current dedicated nuclear 
forces is approximately $5.6 billion per year or $56 billion over the 
decade. This leaves roughly $14 billion of the $100 billion the 
administration intends to invest, which will be even less if you factor 
in inflation. In light of these figures, and the fact that you have yet 
to make additional modernization decisions, do you believe $100 billion 
over 10 years is truly a sufficient investment in our delivery systems 
over the next decade?
    Secretary Gates. The Section 1251 report, ``New START Framework and 
Nuclear Force Structure Plans,'' to Congress, which is the basis for 
the estimate of $100 billion costs over 10 years for delivery systems, 
included costs for which there are currently programs of record. As 
stated in the one page, unclassified summary of the 1251 report, the 
administration intends to invest well over $100 billion in modernizing 
strategic delivery systems. The Department of Defense is currently 
conducting an Analysis of Alternatives for a possible follow-on air 
launched cruise missile, and is assessing future heavy bomber 
requirements in a study of long-range strike that will be completed in 
fall 2010. In addition, the Air Force is initiating a study of future 
ICBM concepts and requirements. As these studies are completed, and 
subsequent decisions taken, the estimate for costs of strategic 
delivery systems in the next decade will likely change.
    Secretary Chu. With regard to investments to revitalize the nuclear 
weapons complex, the President's fiscal year 2011 budget proposal 
initiates a multi-year investment plan with substantial budget 
increases to extend the life of the stockpile, redress shortfalls for 
stockpile surveillance activities and stockpile certification through 
investments in the science, technology, and engineering (ST&E) base, 
and maintain and modernize the supporting infrastructure. This 
investment plan begins with a significant increase of $624 million for 
fiscal year 2011 as compared with the fiscal year 2010 appropriation. 
As outlined in the Section 1251 report and in the recently completed 
NNSA Stockpile Stewardship and Management Plan, the United States plans 
to invest $80 billion over the next 10 years--a net increase of $10 
billion--to sustain and modernize the NNSA Nuclear Security Enterprise. 
However, we are still in the process of developing a baseline budget 
for four significant budget drivers: the Uranium Processing Facility 
(UPF), the Chemistry and Metallurgy Replacement Facility (CMRR), and 
the B61 and W78 LEPs. Thus, there is an expectation for some of these 
numbers to change as we achieve more fidelity in the budget.

    84. Senator Inhofe. Secretary Gates and Secretary Chu, what details 
can you provide that show the administration's intent to modernize our 
nuclear enterprise with its laboratories, delivery platforms, and 
weapons, as well as maintain its intellectual expertise?
    Secretary Gates and Secretary Chu. The administration's commitment 
to stockpile stewardship, modernization of the Nuclear Security 
Enterprise, and investment in the human capital base is made clear 
through the programs and plans contained in the NPR, the report to 
Congress made pursuant to section 1251 of the National Defense 
Authorization Act for Fiscal Year 2010, entitled: ``The New START 
Treaty Framework and Nuclear Force Structure Plans,'' and in the 
recently completed NNSA Stockpile Stewardship and Management Plan. As 
outlined in those reports, the United States plans to invest $80 
billion over the next 10 years--a net increase of $10 billion--to 
sustain and modernize the NNSA Nuclear Security Enterprise, and over 
$100 billion in nuclear delivery systems to sustain existing 
capabilities and modernize strategic systems.

                        verification procedures
    85. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, given that the verification measures for this treaty 
have been simplified, does this make it harder for our intelligence 
community to monitor Russian nuclear forces?
    Secretary Clinton, Secretary Gates, and Secretary Chu. The 
verification measures for the New START treaty will contribute to our 
understanding of Russian nuclear forces. Please see the classified 
National Intelligence Estimate on Monitoring the New START treaty, 
which was provided to the Senate on June 30, 2010.

    86. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, do you expect the intelligence services in your 
departments or the intelligence community as a whole will require more 
resources to ensure we are adequately monitoring Russian nuclear force 
developments if the New START is ratified?
    Secretary Clinton, Secretary Gates, and Secretary Chu. Please see 
the classified National Intelligence Estimate on Monitoring the New 
START treaty which was provided to the Senate on June 30, 2010.

    87. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, are you confident the intelligence community and your 
respective departments will have sufficient resources and capability to 
monitor Russian nuclear forces over the duration of this treaty, if 
ratified?
    Secretary Clinton, Secretary Gates, and Secretary Chu. Please see 
the classified National Intelligence Estimate on Monitoring the New 
START treaty which was provided to the Senate on June 30, 2010.

    88. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, will you need greater resources to monitor Russian 
nuclear forces because of the simplification of verification and 
confidence building tools in the New START as compared to START?
    Secretary Clinton, Secretary Gates, and Secretary Chu. Please see 
the classified National Intelligence Estimate on Monitoring the New 
START treaty which was provided to the Senate on June 30, 2010.

    89. Senator Inhofe. Secretary Clinton, Secretary Gates, Secretary 
Chu, and Admiral Mullen, what statistical methodology was used to help 
guide U.S. negotiators when they settled with the Russians on the 
number of inspections that would be undertaken each year?
    Secretary Clinton, Secretary Gates, Secretary Chu, and Admiral 
Mullen. The U.S. Government interagency assessed the number of Type One 
and Type Two inspections needed annually to meet U.S. inspection 
objectives as the nature of these inspection types emerged during the 
New START negotiations. These assessments ultimately concluded that an 
annual quota of 18 such inspections would be adequate to meet U.S. 
inspection needs.
    The New START treaty provides for an annual quota of up to 18 short 
notice, on-site inspections to aid in verifying Russian compliance with 
its treaty obligations. These inspections will provide U.S. inspectors 
with periodic access to key strategic weapons facilities to verify the 
accuracy of Russian data declarations and deter cheating. Although the 
new treaty provides for fewer inspections than the annual quota of 28 
permitted under the original START treaty, the number of inspectable 
facilities in Russia under the New START treaty (35) is also 
significantly lower than the declared number of such facilities in 
Russia, Belarus, Kazakhstan, and Ukraine--the former Soviet Union--when 
the START treaty entered into force (70). Furthermore, some 
verification activities covered by two separate inspection types under 
the START treaty have been combined into a single inspection under the 
New START treaty.
    The New START treaty annual inspection quota includes up to 10 Type 
One inspections of deployed and nondeployed strategic offensive arms, 
which will be conducted at operating bases for ICBMs, ballistic missile 
submarines (SSBNs), and nuclear-capable heavy bombers. The quota also 
includes up to 8 Type Two inspections focused on nondeployed strategic 
systems, conversion or elimination of strategic systems, and formerly 
declared facilities. Type Two inspections will be conducted at 
facilities such as storage sites, test ranges, and conversion or 
elimination facilities, as well as formerly declared facilities.

    90. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, are the 18 inspections per year sufficient, with high 
confidence, to detect cheating?
    Secretary Clinton, Secretary Gates, and Secretary Chu, Please see 
the classified National Intelligence Estimate on Monitoring the New 
START treaty which was provided to the Senate on June 30, 2010.

    91. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, what is our confidence that we will know precisely how 
many missiles, including multiple independently targetable reentry 
vehicle (MIRV) road-mobile missiles, Russia will be building under the 
New START?
    Secretary Clinton, Secretary Gates, and Secretary Chu, Please see 
the classified National Intelligence Estimate on Monitoring the New 
START treaty which was provided to the Senate on June 30, 2010.

    92. Senator Inhofe. Secretary Clinton, if the Russians deploy rail-
mobile, air-launched, or ship-launched ballistic missiles during the 
life of this treaty, will they count to the limitations of 700 or 800 
strategic nuclear delivery vehicles?
    Secretary Clinton. Rail-mobile ICBMs would be subject to the treaty 
and would count against the central limit of 700 for deployed ICBMs, 
deployed SLBMs and deployed heavy bombers. Rail-mobile launchers would 
count against the central limit of 800 deployed and nondeployed ICBM 
launchers, SLBM launchers and heavy bombers.
    Existing types of ICBMs or SLBMs that were air-launched or launched 
from a surface ship would also count against the central limit. There 
are no definitions or provisions in the treaty pertaining specifically 
to new types of air-launched ballistic missiles or to ship-launched 
ballistic missiles other than SLBMs. Whether such ballistic missiles, 
if developed, would be subject to the provisions of the New START 
treaty would depend upon whether such missiles are considered to be a 
new kind of strategic offensive arm. The treaty provides that the 
Bilateral Consultative Commission shall resolve questions related to 
the applicability of provisions of the treaty to a new kind of 
strategic offensive arm.

    93. Senator Inhofe. Secretary Clinton, will the United States be 
able to inspect any Russian ballistic missile using the inspections 
provided by the treaty?
    Secretary Clinton. The treaty establishes that both deployed and 
nondeployed Russian ICBMs and SLBMs are subject to inspection. The 
right to conduct inspections to confirm the accuracy of data on 
deployed and nondeployed strategic offensive arms is contained in 
Article XI of the treaty. Inspection procedures for all existing types 
of strategic ballistic missiles covered by this treaty are contained in 
Part Five of the Protocol. The specific procedures for how to conduct 
Type One and Type Two inspections of such ballistic missiles are set 
forth in the Annex on Inspection Activities.

    94. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, did our understanding of Russia's nuclear forces 
increase or diminish under START?
    Secretary Clinton. Without question, our understanding of Russia's 
nuclear forces increased very significantly under the START treaty. The 
extensive exchange of data and inspections conducted under START 
provided significant insights into Russian strategic nuclear forces and 
operational practices. START's comprehensive verification regime 
provided the foundation for confidence, transparency, and 
predictability.
    Building on START's legacy, the New START treaty will provide 
significant transparency and insights regarding each side's strategic 
forces through its comprehensive verification regime.
    Secretary Gates. I concur.
    Secretary Chu. I also concur.

    95. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, will our understanding of Russia's nuclear forces 
diminish over the term of the New START?
    Secretary Clinton, Secretary Gates, and Secretary Chu. The 
verification measures for the New START treaty will contribute to our 
understanding of Russian nuclear forces. Please see the classified 
National Intelligence Estimate on Monitoring the New START treaty, 
which was provided to the Senate on June 30, 2010.

    96. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, is it true that at lower levels of weapons, what might 
otherwise be minor cheating becomes more significant?
    Secretary Clinton. In general, as the number of strategic forces 
diminishes, the military significance of cheating could be more 
significant. The United States would view any deliberate effort by 
Russia to exceed the treaty's limits or circumvent its verification 
regime with great concern, especially if the cheating had military 
significance. For that reason, it is important under any treaty that 
militarily significant cheating can be detected in time to respond 
appropriately. Should there be any signs of Russian cheating or 
preparations to break out from the New START treaty, the Executive 
branch would immediately raise this matter through diplomatic channels, 
and if not resolved, raise it immediately to higher levels. We would 
also keep the Senate informed.
    Secretary Gates. I concur.
    Secretary Chu. I concur.

    97. Senator Inhofe. Secretary Clinton, Secretary Gates, and 
Secretary Chu, under this treaty, and its limits on warheads and 
delivery systems, what specifically will be considered militarily 
significant cheating under the new treaty?
    Secretary Clinton. I concur.
    Secretary Gates. In response to questions from the Senate during 
the ratification deliberations for the START treaty in 1992, the Bush 
administration defined a ``militarily significant violation'' as ``one 
which endangers the security of the United States or its allies.'' This 
remains an appropriate standard. In particular, the primary factor in 
determining whether cheating has military significance is its impact on 
strategic stability, namely whether cheating would allow the Russian 
Federation to eliminate the United States' ability to execute a 
devastating second strike against Russia.
    Admiral Mullen, the Joint Chiefs, and I assess that Russia will not 
be able to achieve militarily significant cheating or breakout under 
New START, due to both the New START verification regime and the 
inherent survivability and flexibility of the planned U.S. strategic 
force structure.
    Secretary Chu. I also concur.

                          section 1251 report
    98. Senator Inhofe. Secretary Gates, the anticipated funding 
directed to nuclear weapons in the 1251 Report accompanying the New 
START is $80 billion for weapons and $100 billion for delivery 
vehicles. How much of the $80 billion over 10 years will come from DOD?
    Secretary Gates. The DOD has transferred $4.6 billion in top line 
budget authority to NNSA for Weapons Activities/Nuclear Security 
Enterprise, and an additional $1.1 billion for Naval Reactors. These 
transfers of budget authority from DOD to NNSA are for fiscal year 2011 
to fiscal year 2015. There are no plans for additional transfers from 
DOD to NNSA beyond fiscal year 2015.

    99. Senator Inhofe. Secretary Gates, what specific programs are 
anticipated to be part of delivery vehicle modernization efforts and in 
what year will these programs commence?
    Secretary Gates. The Navy has initiated research and development 
for the next generation ballistic missile submarine. Funding began for 
the Ohio-class Replacement SSBN in fiscal year 2010 with $495 million 
for research and development to support the 2019 lead ship procurement. 
Continued Research, Development, Test, and Evaluation (RDT&E) 
investment is also included in the President's fiscal year 2011 budget. 
The Navy's annual long-range plan for construction of naval vessels for 
fiscal year 2011 incorporates procurement of the Ohio-class Replacement 
into the overall Navy shipbuilding strategy. Plans call for the design 
of the Ohio-class Replacement to begin in fiscal year 2015.
    The Air Force plans to sustain the Minuteman III through 2030 as 
directed by section 139 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007, and is initiating studies of 
possible ICBM follow-on systems over the next few years. Similarly, the 
Air Force will retain the B-52 for nuclear mission requirements through 
2035 and beyond and the B-2A for such missions over the coming decades. 
The Air Force is currently conducting an Analysis of Alternatives for a 
possible follow-on air-launched cruise missile. The Department of 
Defense is assessing future heavy bomber requirements in the Long-Range 
Strike Study that will be completed in the fall of 2010. As these 
studies are completed and subsequent decisions taken, the estimates for 
costs of strategic delivery systems over the next decade will likely 
change.

                      reliable replacement warhead
    100. Senator Inhofe. Secretary Clinton, when you were a member of 
the Senate, this committee and several other committees supported the 
Reliable Replacement Warhead (RRW) program. Do you still support the 
RRW, which you consistently supported when you served in the Senate? If 
you no longer support RRW, please explain why.
    Secretary Clinton. This administration has made clear that the 
United States will maintain a safe, secure, and effective nuclear 
arsenal, and the President's fiscal year 2011 budget request for the 
NNSA, which contains approximately a 10 percent increase in funding for 
weapons activities with better than 60 percent of this increase focused 
on directed stockpile work, is indicative of this commitment. After 
months of extensive analysis, the NPR, which was led by DOD and 
included the Departments of Energy and State, concluded that we can 
maintain the safety and reliability of our nuclear arsenal through 
LEPs. RRW was a program to replace existing nuclear warheads with 
designs that enhance safety, security, and reliability, beginning with 
sea-based and air-carried systems. In contrast to that approach, the 
NPR recommended a nuclear warhead LEP process under which our experts 
will study options for ensuring the safety, security, and reliability 
of nuclear warheads on a case-by-case basis, consistent with the 
congressionally-mandated Stockpile Management Program. The full range 
of LEP approaches will be considered: refurbishment of existing 
warheads, reuse of nuclear components from different warheads, and 
replacement of nuclear components. In any decision to proceed to 
engineering development for warhead LEPs, the United States will give 
strong preference to options for refurbishment or reuse. Replacement of 
nuclear components would be undertaken only if critical Stockpile 
Management Program goals regarding safety, security, or effectiveness 
could not otherwise be met and if specifically authorized by the 
President and approved by Congress. I wholeheartedly support the 
administration's approach to nuclear warhead life extension.

                             minuteman iii
    101. Senator Inhofe. Secretary Gates and Admiral Mullen, the 
administration has requested approximately $330 million in fiscal year 
2011 to continue modifications to the Minuteman III and conduct 
technology development for a possible follow-on system. What are the 
key considerations to take into account with the Minuteman III and any 
follow-on system when contemplating lower U.S. nuclear forces?
    Secretary Gates and Admiral Mullen. The NPR concluded that the 
United States should retain a nuclear Triad under the New START treaty. 
It examined possible ``dyads'' and determined that there was 
substantial value in retaining a diverse Triad force structure to hedge 
against any technical problem or operational vulnerability in one leg. 
The NPR also concluded that the United States should ``de-MIRV'' all 
Minuteman III ICBMs to a single warhead in order to enhance stability.
    We will continue the Minuteman III LEP with the aim of keeping the 
missile in service to 2030, as required by statute. We will also begin 
an initial study for a follow-on ICBM in fiscal years 2011 and 2012. 
This study will consider a range of possible deployment options, with 
the objective of defining a cost-effective approach that supports 
stable deterrence.

    102. Senator Inhofe. Secretary Gates and Admiral Mullen, are you 
concerned that, at lower nuclear force levels, the military will not be 
able to carry out its deterrence missions?
    Secretary Gates and Admiral Mullen. We are confident that the U.S. 
military will be able to carry out its deterrence missions under the 
New START treaty, with support from Congress for planned investments in 
nuclear delivery systems and the nuclear weapons complex.

    103. Senator Inhofe. Secretary Gates and Admiral Mullen, has 
analysis been performed to support another round of reductions after 
the one required by the New START? If so, please share the analysis.
    Secretary Gates and Admiral Mullen. As stated in the NPR, the 
President has directed a review of post-New START arms control 
objectives to consider further reductions in nuclear weapons. That 
review will begin once New START enters into force. As indicated in the 
NPR, the administration has set some specific goals in post-New START 
bilateral negotiations with Russia, including reductions in non-
strategic/tactical nuclear weapons and nondeployed nuclear weapons as 
well as deployed strategic nuclear weapons. Several factors will 
influence the magnitude and pace of such reductions. First, any future 
nuclear reductions must continue to strengthen deterrence of potential 
regional adversaries, strategic stability vis-a-vis Russia and China, 
and assurance of our allies and partners. Second, the Stockpile 
Stewardship Program and the nuclear infrastructure investments 
requested by the administration are essential to facilitating 
reductions while sustaining deterrence under New START and beyond. 
Third, Russia's nuclear forces will remain a significant factor in 
determining how much and how fast we are prepared to reduce U.S. 
forces.

    104. Senator Inhofe. Secretary Gates and Admiral Mullen, what level 
of disarmament in each leg of the nuclear triad did DOD find 
unacceptable during the New START negotiations?
    Secretary Gates and Admiral Mullen. The NPR considered a wide range 
of possible options for the U.S. strategic nuclear posture, and 
concluded that the United States should retain a Triad of SLBMs, ICBMs, 
and nuclear-capable heavy bombers under the New START treaty. 
Reductions that failed to maintain the viability of each leg of the 
Triad, including the ability to hedge against both technical and 
geopolitical risk, and sustain technical expertise and operational 
excellence, would have been considered unacceptable.

    105. Senator Inhofe. Secretary Gates and Admiral Mullen, at what 
level of reduction would you begin to get concerned about the viability 
of the ICBM force?
    Secretary Gates and Admiral Mullen. We are confident that the New 
START treaty will allow the United States to sustain a viable and 
effective ICBM force. We would be concerned about the viability of the 
U.S. ICBM force if it were too small to support effective hedging 
against technical and political risk as part of a Triad, or if it were 
so small that it was difficult to retain technical expertise and 
operational excellence.

    106. Senator Inhofe. Secretary Gates and Admiral Mullen, when will 
we know whether the Minuteman III can be extended to the 2030 
timeframe?
    Secretary Gates and Admiral Mullen. The Air Force plans to sustain 
the Minuteman III through 2030 in accordance with Section 139 of the 
John Warner National Defense Authorization Act for Fiscal Year 2007. 
The U.S. Air Force is fully committed to achieving that objective and 
has budgeted over $1.3 billion in investments through the FYDP (fiscal 
year 2010-fiscal year 2015) to sustain the Minuteman III weapon system 
through 2030.

    107. Senator Inhofe. Secretary Gates and Admiral Mullen, when do 
you expect to start examining options for a follow-on ICBM after the 
Minuteman III?
    Secretary Gates and Admiral Mullen. Although a decision on any 
follow-on ICBM is not needed for several years, studies to inform that 
decision are needed now. Accordingly, the Department of Defense will 
begin an initial study of alternatives in fiscal years 2011 and 2012. 
This study will consider a range of possible deployment options, with 
the objective of defining a cost-effective approach that supports 
continued reductions in U.S. nuclear weapons while promoting stable 
deterrence.

    108. Senator Inhofe. Secretary Gates and Admiral Mullen, how long 
does it take to design and develop a new ICBM, based on prior 
experience?
    Secretary Gates and Admiral Mullen. Development time for a new ICBM 
is dependent on the scope and complexity of the system, technology 
readiness levels, and the state of the industrial base infrastructure 
required to support a new developmental program. Development of the 
Minuteman began in 1958 with the first version, the Minuteman I, being 
placed on alert in 1962. Subsequent versions, the Minuteman II and 
Minuteman III, took 4 years and 7 years, respectively, to design, 
develop, and deploy, leveraging the knowledge and experience gained 
from the missile's initial design and development. In contrast, the 
larger Peacekeeper ICBM took over 14 years to design and develop prior 
to initial deployment.

    109. Senator Inhofe. Secretary Gates and Admiral Mullen, will we 
maintain the option of placing multiple warheads on our Minuteman 
missiles?
    Secretary Gates and Admiral Mullen. Yes. Although the United States 
will ``de-MIRV'' the Minuteman III ICBM force to a single warhead to 
enhance the stability of the nuclear balance as stated in the NPR 
report, the United States will retain an ability to ``upload'' 
nondeployed nuclear warheads on existing delivery vehicles as a hedge 
against technical or geopolitical surprise.

                        past russian compliance
    110. Senator Inhofe. Secretary Clinton, Congress has not received 
the verification and compliance reports for START from the Department 
of State (DOS) Verification, Compliance, and Implementation Bureau 
since 2005. How many Russian compliance issues were unresolved when 
START expired?
    Secretary Clinton. The 2010 Report on Adherence to and Compliance 
with Arms Control, Nonproliferation, and Disarmament Agreements and 
Commitments, including information on Russia's compliance with START 
through the expiration of the treaty, was submitted to Congress on July 
1, 2010. This administration was committed to ensuring that Congress 
received a comprehensive report.
    Issues related to Russia's compliance with START verification and 
inspection procedures are addressed in the classified version of the 
2010 Compliance Report.

    111. Senator Inhofe. Secretary Clinton, please describe in detail, 
in classified form if necessary, all outstanding Russian compliance 
issues with START.
    Secretary Clinton. The 2010 Compliance Report was submitted to 
Congress on July 1, 2010. The details of the issues related to Russia's 
compliance with START verification and inspection procedures are 
addressed in the classified version of the 2010 Compliance Report.

                        briefing past officials
    112. Senator Inhofe. Secretary Clinton, you said at this hearing 
that the administration has been briefing ``a series of former 
diplomats and Defense officials and Energy officials, including Dr. 
Kissinger.'' Please share the briefings you have been providing them.
    Secretary Clinton. The administration has provided briefings on the 
New START treaty to several witnesses who were called to testify before 
the Senate Foreign Relations Committee. Those briefings drew from the 
various fact sheets that are readily available to the public on the 
DOS's web site (http://www.state.gov/t/vci/trty/126118.htm).

                            russia and iran
    113. Senator Inhofe. Secretary Clinton, is Russia's sale of the S-
300 missile system to Iran prohibited by the new United Nations 
Security Council Resolution 1929 on Iran?
    Secretary Clinton. Russia has confirmed that it will comply with 
the conventional arms transfer provisions of UNSCR 1929 and therefore 
will not deliver the S-300 air defense missile system to Iran. We 
appreciate the restraint that Russia has implemented over the course of 
several years in not transferring the S-300 to Iran. We hope that 
Russia's restraint will serve to encourage other potential arms 
suppliers to adopt a rigorous approach to implementing 1929's 
provisions on conventional arms transfers.

    114. Senator Inhofe. Secretary Clinton, if Russia has agreed to 
freeze the completion of the S-300 missile system sale, has Russia 
communicated to the United States for how long that freeze will last?
    Secretary Clinton. See response to question #113.

    115. Senator Inhofe. Secretary Clinton, did Russia ask for the 123 
Agreement between Russia and the United States to be resubmitted to 
Congress in exchange for its support for Resolution 1929?
    Secretary Clinton. No. The decision to move forward with the 123 
Agreement was made on its own merits, in order to advance 
nonproliferation objectives.

    116. Senator Inhofe. Secretary Clinton, did Russia ask for the 
United States to pledge not to carry out any unilateral sanctions on 
Russian entities in the future in exchange for its support on 
Resolution 1929?
    Secretary Clinton. There has been no quid pro quo with the Russian 
Government on the issue of sanctions.
    We believe that UNSC resolution 1929 will have a significant impact 
on Iran's ability to develop weapons of mass destruction and acquire 
conventional weapons. The UNSC resolution puts international legal 
constraints on potential exports of concern by entities in all U.N. 
member states, including Russia.
    Nonproliferation is a high priority for the United States, and the 
Russian Government is a key partner in this effort. We will continue to 
work cooperatively with the Russian Government to prevent entities from 
contributing to weapons of mass destruction, missile programs, or 
conventional weapons programs of concern. At the same time, we will 
continue to implement U.S. nonproliferation penalties when appropriate. 
We will continue to monitor the activities of Russian entities and will 
make determinations consistent with existing legislation and other 
legal authorities.

    117. Senator Inhofe. Secretary Clinton, does DOS have any evidence 
that Russian entities are selling refined petroleum products to Iran or 
otherwise doing business in Iran? If it does, please provide a detailed 
list.
    Secretary Clinton. Iran is not a major trading partner for Russia, 
according to official Russian statistics. Trade with Iran has never 
reached even one percent of total Russian trade.
    Russia has enjoyed a significant surplus in its trade with Iran 
since 2001 (and before). Russian exports to Iran consist principally of 
consumer goods, oil and gas equipment, and arms. Russian imports from 
Iran are dominated by agricultural goods. Both countries produce oil 
and gas, so trade in those commodities has represented only a very 
small share of total trade, outside of the years 2003 and 2004 when 
Russian exports surged briefly.
    In the first quarter of 2010, trade between Russia and Iran 
continued the downward trend evident during 2009. Total trade of $724.1 
million during that quarter was 6.38 percent less than the $773.5 
million recorded during the first quarter of 2009.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                              Russian         Russian                                       Trade with      Iran's Rank
                                                            Exports to     Imports from     Total Trade     Change from       Iran as     among Russia's
                          Year                             Iran  (U.S.$    Iran  (U.S.$       (U.S.$       Previous Year  percent of All      Trading
                                                             millions)       millions)       millions)       (percent)     Russian Trade     Partners
--------------------------------------------------------------------------------------------------------------------------------------------------------
2009....................................................         2,785.1           202.8         2,987.9          15.92            0.77              27
2008....................................................         3,177.0           376.8         3,553.8            9.69            0.57              30
2007....................................................         2,894.7           345.1         3,239.8           83.42            0.69              27
2006....................................................         1,535.4           230.9         1,766.3          10.34            0.50              35
2005....................................................         1,870.0           100.0         1,970.0            3.24            0.71              29
2004....................................................         1,844.3            63.9         1,908.2           49.17            0.93              26
2003....................................................         1,231.0            48.2         1,279.2           73.65            0.88              29
2002....................................................           702.3            34.3           736.6          13.35            0.63              32
2001....................................................           823.3            26.8           850.1           43.86            0.81             31
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source of Data: Global Trade Atlas

                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
             intercontinental ballistic missile exemptions
    118. Senator Chambliss. Secretary Clinton and Secretary Gates, the 
New START does not define or limit rail-mobile, air-launched, or sea-
borne ICBM launchers as START did. Specifically, the definitions in 
START with respect to rail-mobile ICBMs and rail-mobile launchers are 
completely absent in the New START. This seems to be a significant 
departure from the last treaty, and appears to mean that the Russians 
could build an unlimited number of rail-mobile launchers that would not 
be captured under the New START, as well as build a new ICBM to place 
on a rail-mobile launcher that would not be counted under the treaty. 
In the case of both the rail-mobile launcher and the new ICBM, the 
United States could appeal to the Bilateral Consultative Commission to 
add the launcher and ICBM as new types recognized by the New START, but 
the Russians could refuse to do so. Are you concerned about this issue?
    Secretary Clinton and Secretary Gates. No. Rail-mobile ICBMs are 
not specifically mentioned in the New START treaty because neither 
party currently deploys ICBMs in that mode. Nevertheless, the treaty 
covers all ICBMs and ICBM launchers, and would include any rail-mobile 
system, should either party decide to develop and deploy such a system.

    119. Senator Chambliss. Secretary Clinton and Secretary Gates, if 
the United States intended rail-mobile ICBMs and rail-mobile launchers 
to be limited under the New START, why did the United States not press 
for those systems to be defined in the treaty?
    Secretary Clinton and Secretary Gates. Rail-mobile ICBMs are not 
specifically mentioned in the New START treaty because neither party 
currently deploys ICBMs in that mode. Nevertheless, the treaty covers 
all ICBMs and ICBM launchers, including a rail-mobile system, should 
either party decide to develop and deploy such a system.
    The New START treaty defines an ICBM launcher as a ``device 
intended or used to contain, prepare for launch, and launch an ICBM.'' 
This is a broad definition that would cover all ICBM launchers, 
including potential future rail-mobile launchers.
    Under this definition, a rail-mobile launcher of ICBMs would be 
accountable under the treaty. Although the previous definition of a 
rail-mobile launcher of ICBMs in the START treaty (``an erector-
launcher mechanism for launching ICBMs and the railcar or flatcar on 
which it is mounted'') was not carried forward into the New START 
treaty, the United States would nevertheless regard any launcher 
meeting the START treaty definition of an ICBM launcher as constituting 
an ICBM launcher subject to the New START treaty.
    A rail-mobile launcher containing an ICBM would meet the treaty's 
definition of a ``deployed launcher of ICBMs,'' which is ``an ICBM 
launcher that contains an ICBM'' and, along with any nondeployed rail-
mobile launchers of ICBMs would fall within the limit of 800 on 
deployed and nondeployed launchers of ICBMs and SLBMs and deployed and 
nondeployed heavy bombers. Any ICBMs contained in rail-mobile launchers 
would count as deployed ICBMs and therefore fall within the 700 ceiling 
on deployed ICBMs, SLBMs, and heavy bombers.
    Separate from the status of the rail-mobile ICBM launcher, all 
ICBMs associated with the rail-mobile system would be accountable as 
either existing or new types of ICBMs and therefore be subject to 
initial technical characteristics exhibitions, data exchanges, 
notifications, Type One and Type Two inspections, as appropriate, and 
application of unique identifiers on such ICBMs and, if applicable, on 
their launch canisters.
    If a party chose to develop and deploy rail-mobile ICBMs, such 
missiles and their launchers would be subject to the treaty and its 
limitations. Specific details about the application of the above 
mentioned verification provisions would be worked out in the Bilateral 
Consultative Commission (BCC). Necessary adjustments to the definition 
of ``mobile launchers of ICBMs''--to address the use of the word 
``self-propelled'' in that definition--would also be worked out in the 
BCC.

    120. Senator Chambliss. Secretary Clinton and Secretary Gates, if 
the United States did not intend for the New START to limit rail-
mobile, air-launched, or sea-borne ICBM launchers, please explain why.
    Secretary Clinton and Secretary Gates. Given the treaty's principle 
of flexibility regarding the right of each party to determine its own 
force structure, it was not considered necessary to extend the START 
treaty's ban on deploying air-launched ballistic missiles or ballistic 
missiles on surface ships. Neither party has ever operationally 
deployed such systems. Should either party develop and deploy such a 
system, the United States and Russia would have the right to discuss, 
within the Bilateral Consultative Commission, the emergence of such a 
new kind of strategic offensive arm, including the applicability of 
provisions of the treaty to these new kinds of strategic offensive 
arms.
    Rail-mobile ICBMs are not specifically mentioned in the New START 
treaty because neither party currently deploys ICBMs in that mode. 
Nevertheless, the treaty covers all ICBMs and ICBM launchers, including 
a rail-mobile system, should either party decide to develop and deploy 
such a system.
    The New START treaty defines an ICBM launcher as a ``device 
intended or used to contain, prepare for launch, and launch an ICBM.'' 
This is a broad definition that would cover all ICBM launchers, 
including potential future rail-mobile launchers.
    Under this definition, a rail-mobile launcher of ICBMs would be 
accountable under the treaty. Although the previous definition of a 
rail-mobile launcher of ICBMs in the START treaty (``an erector-
launcher mechanism for launching ICBMs and the railcar or flatcar on 
which it is mounted'') was not carried forward into the New START 
treaty, the United States would nevertheless regard any launcher 
meeting the START treaty definition of an ICBM launcher as constituting 
an ICBM launcher subject to the New START treaty.
    A rail-mobile launcher containing an ICBM would meet the definition 
of a ``deployed launcher of ICBMs,'' which is ``an ICBM launcher that 
contains an ICBM'' and along with any nondeployed rail-mobile launchers 
of ICBMs would fall within the limit of 800 on deployed and nondeployed 
launchers of ICBMs and SLBMs and deployed and nondeployed heavy 
bombers. The ICBMs contained in rail-mobile launchers would count as 
deployed ICBMs and therefore fall within the 700 ceiling on deployed 
ICBMs, SLBMs, and heavy bombers.
    Separate from the status of the rail-mobile ICBM launcher, all 
ICBMs associated with a potential future rail-mobile system would be 
accountable as either existing or new types of ICBMs and therefore be 
subject to initial technical characteristics exhibitions, data 
exchanges, notifications, Type One and Type Two inspections, as 
appropriate, and application of unique identifiers on such ICBMs and, 
if applicable, on their launch canisters.
    Because of these treaty provisions, if a party chose to develop and 
deploy rail-mobile ICBMs, such missiles and their launchers would be 
subject to the treaty and its limitations. Specific details about the 
application of the above mentioned verification provisions would be 
worked out in the BCC.

                              verification
    121. Senator Chambliss. Secretary Clinton, Secretary Gates, and 
Secretary Chu, under START, we were able to confidently count the 
number of mobile missiles, particularly because of our ability to 
monitor at Votkinsk, Russia. Additionally, the telemetry we were able 
to obtain provided good intelligence on warhead, throw weight 
capability, and good insight to ensure missiles did not test more 
warheads than the Russians attributed to a missile. Without similar 
verification provisions in the New START, how will our ability to 
verify Russian mobile missiles or any information about new Russian 
systems capabilities be affected?
    Secretary Clinton, Secretary Gates, and Secretary Chu. This topic 
is included in a classified National Intelligence Estimate on 
Monitoring the New START treaty that was provided to the Senate on June 
30, 2010.

    122. Senator Chambliss. Secretary Clinton, Secretary Gates, and 
Secretary Chu, with the Russian's stated goal of developing new missile 
systems and turning toward more MIRV missiles, how can the United 
States be confident about the number of warheads a new Russian missile 
will be capable of carrying without telemetry in the New START?
    Secretary Clinton, Secretary Gates, and Secretary Chu. This topic 
is included in a classified National Intelligence Estimate on 
Monitoring the New START treaty that was provided to the Senate on June 
30, 2010.

    123. Senator Chambliss. Secretary Clinton, Secretary Gates, and 
Secretary Chu, under START, warhead limits were constrained by the 
number of warheads a missile was actually capable of holding. Under the 
New START, only actual, deployed warheads are counted. For example, the 
Russian SS-18 is capable of holding 10 warheads, but only the actual 
number of deployed warheads counts against the New START limits. With 
the SS-18, there is a possibility that the Russians could only deploy 
one warhead per missile--which would count toward the limit--and then 
have the remaining nine warheads stored nearby waiting to be loaded, if 
they chose to, at a moment's notice. How do the verification procedures 
prevent the Russians from doing this?
    Secretary Clinton. I concur, and would add that the standard for 
the New START treaty verification regime remains, as under the START 
treaty, ``effective verification.'' As explained by Ambassador Paul 
Nitze in the context of the INF Treaty ratification deliberations in 
1988, effective verification means ``we want to be sure that, if the 
other side moves beyond the limits of the treaty in any militarily 
significant way, we would be able to detect such violation in time to 
respond effectively and thereby deny the other side the benefit of the 
violation.'' This standard was reaffirmed in the START treaty context 
by Secretary of State James Baker in 1992.
    Secretary Gates. The treaty permits the Parties to structure their 
forces as they see fit, a flexibility which benefits the United States. 
The treaty's verification regime is not intended to ``prevent'' such a 
scenario but would enable the United States to detect large-scale 
Russian downloading of its SS-18 ICBMs or other ballistic missiles. For 
additional information, please see the classified National Intelligence 
Estimate on Monitoring the New START treaty which was provided to the 
Senate on June 30, 2010.
    Secretary Chu. I concur.

    124. Senator Chambliss. Secretary Clinton, Secretary Gates, and 
Secretary Chu, is there a way to confirm the actual number of warheads 
that the Russians have?
    Secretary Clinton. The New START treaty's procedures for 
inspections of ICBM and SLBM ``reentry vehicles''--which count as 
warheads on deployed missiles--are part of the treaty's Type One 
inspections. These inspections will give U.S. inspectors up to 10 
opportunities each year to spot check the accuracy of declared data on 
the numbers of warheads emplaced on selected deployed ICBMs, SLBMs, and 
heavy bombers. These inspections will help to confirm compliance with 
the Article II central limit of 1,550 warheads on deployed ICBMs, 
deployed SLBMs, and nuclear warheads counted for deployed heavy 
bombers. The treaty does not include any limitations on the number of 
nondeployed warheads a party may have. Nor are tactical (non-strategic) 
nuclear weapons limited by New START. For more discussion of this 
topic, please see the classified National Intelligence Estimate on 
Monitoring the New START treaty, which was provided to the Senate on 
June 30, 2010.
    Secretary Gates. I concur.
    Secretary Chu. I concur.

    125. Senator Chambliss. Secretary Clinton and Secretary Gates, will 
there be an incentive to deploy fewer warheads, so the Russians do not 
have to count all their warheads under the New START limits?
    Secretary Clinton. New START was created with a view to maintain 
flexibility by allowing each party to determine for itself how to 
structure its strategic nuclear forces within the treaty's limits. The 
treaty applies equally to both Parties.
    New START has three central limits: the number of accountable 
deployed warheads (1,550); the number of deployed ICBMs, SLBMs, and 
heavy bombers (700); and the number of deployed and nondeployed ICBM 
launchers, SLBM launchers, and heavy bombers (800).
    These three limits, while separate, are interrelated with respect 
to how they balance the choices each party can make with respect to its 
force structure.
    For example, if the Russian Federation elected to increase the 
number of deployed ICBMs, SLBMs, and heavy bombers within the limit, 
and Russia was already at the treaty limit for deployed warheads, it 
would have to decrease the number of reentry vehicles emplaced on 
deployed ICBMs or SLBMs in order to stay within the limit for deployed 
warheads.
    Secretary Gates. I concur.

    126. Senator Chambliss. Secretary Clinton and Secretary Gates, the 
Russians do not have to tell us where all their warheads are, just the 
number of deployed warheads. Our inspectors will be able to confirm the 
number of warheads that the Russians asserted they had on one missile 
during an inspection. Are we supposed to trust the Russians if they 
assert that they have less warheads deployed than the missile is 
capable of carrying, given the other 1,549 warheads they are permitted?
    Secretary Clinton. The New START treaty's procedures for 
inspections of ICBM and SLBM ``reentry vehicles''--which count as 
warheads--are part of the treaty's Type One inspections. These short 
notice inspections give inspectors up to ten opportunities each year to 
spot check the accuracy of declared data on the numbers of warheads 
emplaced on selected deployed ICBMs and SLBMs. These inspections will 
help to confirm compliance with the Article II central limit of 1,550 
warheads on deployed ICBMs, deployed SLBMs, and nuclear warheads 
counted for deployed heavy bombers.
    For more discussion, see the classified National Intelligence 
Estimate on Monitoring the New START treaty, which was provided to the 
Senate on June 30, 2010, and the State Department's Section 306 report 
which addresses the determinations of the U.S. Government as to the 
degree to which the limits of the New START treaty can be verified. The 
Section 306 report was published on July 12, 2010, and has been 
provided to the Senate.
    Secretary Gates. I concur. In addition, Admiral Mullen, the Joint 
Chiefs, the Commander of U.S. Strategic Command, and I assess that 
Russia will not be able to achieve militarily significant cheating or 
breakout under New START, due to both the treaty's verification regime 
and the inherent survivability and flexibility of the planned U.S. 
strategic force structure. The survivable and flexible U.S. strategic 
posture planned for New START will also help deter any future Russian 
leaders from cheating or breakout from the treaty, should they ever 
have such an inclination.

    127. Senator Chambliss. Secretary Clinton, Secretary Gates, and 
Secretary Chu, given the number of inspection sites, and the fact the 
New START only allows for a maximum of 10 warhead inspections a year, 
how confident are you that the United States will have a good 
accounting of the number of deployed Russian warheads?
    Secretary Clinton, Secretary Gates, and Secretary Chu. This topic 
is included in a classified National Intelligence Estimate on 
Monitoring the New START treaty that was provided to the Senate on June 
30, 2010.

    128. Senator Chambliss. Secretary Clinton, Secretary Gates, and 
Secretary Chu, what will verification of the number of warheads on one 
missile tell us, especially when one missile is permitted to be 
deployed with any number of warheads?
    Secretary Clinton. The New START treaty's procedures for 
inspections of ICBM and SLBM ``reentry vehicles''--which count as 
warheads--are part of the treaty's Type One inspections. During pre-
inspection procedures for a Type One inspection, the Russian Federation 
must declare the number of reentry vehicles emplaced on each deployed 
ICBM or SLBM (which U.S. inspectors can correlate with the missile's 
Unique Identifier) located at the ICBM base or submarine base at the 
time pre-inspection restrictions are initiated. The Type One 
inspections provide ten opportunities annually for inspectors to spot 
check the accuracy of the declared data on the numbers of warheads 
emplaced on designated, deployed ICBMs and SLBMs.
    This topic is also included in a classified National Intelligence 
Estimate on the Intelligence Community's ability to monitor the New 
START treaty that was provided to the Senate on June 30, 2010.
    Secretary Gates. I concur.
    Secretary Chu. I concur.

                       deployed delivery vehicles
    129. Senator Chambliss. Secretary Clinton, Secretary Gates, and 
Admiral Mullen, much has been said about the New START further reducing 
the number of nuclear weapons the United States and Russia have in 
their inventory. However, it is true that, based on the counting 
rules--specifically in relation to bombers--this treaty actually allows 
for a significant increase in deployed warheads over the previous 
START. Also, given the fact that the Russians were already planning to 
reduce their number of deployed systems and would have soon met these 
new limits even without the treaty, only the United States has to make 
real reductions to our nuclear forces to comply with the New START.
    General Cartwright testified last year that he would be very 
concerned if we got below 800 deployed delivery vehicles, and the New 
START would take us down to 700 deployed delivery vehicles. While I can 
agree that limits are good things, perhaps even if they are high, I do 
not think we should be celebrating since the limits in the New START 
really only constrain the United States and, in fact, can be complied 
with in ways that result in many more warheads being deployed. Please 
explain the reasoning behind why we agreed to 700 deployed delivery 
vehicles.
    Secretary Clinton, Secretary Gates, and Admiral Mullen. The New 
START limit of 700 deployed ICBMs, SLBMs, and nuclear-capable heavy 
bombers will allow the United States to retain all 14 current SSBNs, 
while reducing the number of accountable SLBMs by 96 relative to the 
previous START treaty's counting rules (from 336 to 240). The United 
States will be able to do this, taking advantage of the treaty's 
provisions, by converting or eliminating 56 SLBM launchers and not 
deploying SLBMs in an additional 40 launchers. In addition, the United 
States will convert 34 or more a subset of B-52H bombers to a 
conventional-only role, so that they are no longer accountable under 
the treaty. By taking advantage of these treaty provisions, the United 
States will have to eliminate or keep in a nondeployed status only 30 
to 50 ICBM launchers of the 450 Minuteman III active silos today. In 
sum, the decision to agree to a limit of 700 deployed strategic 
delivery vehicles resulted from an updated assessment of U.S. force 
deployment options in the light of different counting rules under New 
START. U.S. force structure plans under New START are supported by 
General Cartwright, as well as by Admiral Mullen and the rest of the 
Joint Chiefs of Staff, Commander, U.S. Strategic Command General 
Chilton, and me.

    130. Senator Chambliss. Secretary Gates, what has changed since 
last year when General Cartwright indicated that 800 deployed delivery 
vehicles should be the bare minimum?
    Secretary Gates. The decision to agree to a limit of 700 deployed 
strategic delivery vehicles resulted from an updated assessment of U.S. 
force deployment options in the light of different counting rules under 
New START. Gen Cartwright's statement was made in the context of the 
previous START treaty's counting rules; subsequently, New START 
provisions were agreed. These include an agreement not to count 
nondeployed ICBMs and SLBMs as part of the central limit on delivery 
vehicles, not to count converted individual SLBM launchers on strategic 
submarines, and not to count bombers that have been converted to 
conventional-only missions. Because of these provisions, under the 700 
limit of the New START treaty, the United States will be able to retain 
all 14 current SSBNs, while reducing the number of accountable SLBMs by 
96 (from 336 to 240). In addition, the United States will convert 34 or 
more B-52H bombers to a conventional-only role, so that they are no 
longer accountable under the treaty.
    In sum, the treaty's limits of 700 deployed strategic delivery 
vehicles will support strategic stability by allowing the United States 
to retain a robust Triad of strategic delivery systems.

    131. Senator Chambliss. Secretary Clinton and Secretary Gates, how 
do you respond to the fact that the New START would permit a 
significantly larger number of deployed nuclear warheads than previous 
treaties?
    Secretary Clinton. We would not characterize the New START treaty 
as permitting a significantly larger number of deployed nuclear 
warheads than previous treaties. The limit of 1,550 for warheads on 
deployed ICBMs, deployed SLBMs, and counted for deployed heavy bombers 
is lower than the Moscow Treaty limit of 1,700-2,200 strategic nuclear 
warheads, and lower than the START limit of 6,000 warheads attributed 
to ICBMs, SLBMs, and heavy bombers.
    It is important to note that under each of these treaties, the 
method of counting warheads differs, which can make attempts at direct 
comparisons somewhat misleading. For example, under the expired START 
treaty, an attribution rule credited each missile type with an agreed 
number of warheads, regardless of how many warheads were actually 
emplaced on that missile. Under the Moscow Treaty, each party could 
determine for itself what counted against the limit on strategic 
nuclear warheads, with the result that the Parties did not use 
identical counting rules with respect to this limit.
    In the New START treaty, the treaty requires the parties to count 
the actual number of reentry vehicles on each deployed ICBM and 
deployed SLBM, and to attribute one warhead to each deployed heavy 
bomber.
    As for the bomber counting rule under New START, this attribution 
rule was adopted because on a day-to-day basis neither the United 
States nor the Russian Federation maintains any nuclear armaments 
loaded on its deployed heavy bombers. If the counting approach adopted 
for deployed ballistic missiles had been applied to deployed heavy 
bombers, each deployed heavy bomber equipped for nuclear armaments 
would have been counted with zero nuclear warheads. The New START 
treaty approach strikes a balance between the fact that neither side 
loads nuclear armaments on its nuclear capable heavy bombers on a day-
to-day basis and the fact that these heavy bombers nonetheless have the 
capability to deliver nuclear armaments that are stored in weapons 
storage bunkers on or near their air bases.
    Secretary Gates. I concur. I would further add that New START 
procedures for the inspection of deployed warheads are part of the 
treaty's Type One inspections. These short notice inspections are 
intended to spot check the accuracy of declared data on the number of 
warheads emplaced on deployed ICBMs, deployed SLBMs and heavy bombers 
designated for inspection.

                             level of risk
    132. Senator Chambliss. Secretary Gates and Admiral Mullen, unlike 
the Russians, the United States has treaty obligations with at least 30 
other nations. Are you convinced that the United States can meet these 
treaty obligations and carry out extended deterrence at the levels 
required by the New START?
    Secretary Gates and Admiral Mullen. Yes. Traditionally, a credible 
U.S. ``nuclear umbrella'' has been provided by a combination of means--
the strategic forces of the U.S. Triad, non-strategic nuclear weapons 
deployed forward in key regions, and U.S.-based nuclear weapons that 
could be deployed forward quickly to meet regional contingencies. The 
mix of deterrence means has varied over time and from region to region.
    Today, there are separate choices to be made in partnership with 
allies in Europe and Asia about what posture best serves our shared 
interests in deterrence and assurance and in moving toward a world of 
reduced nuclear dangers. The United States and its NATO allies maintain 
forward deployed tactical nuclear weapons to enhance deterrence. Within 
the regional context, the United States relies on additional 
capabilities to support extended deterrence and power projection, 
including: conventional force capabilities, BMDs, allied capabilities, 
advanced technologies, and modernization and maintenance of existing 
forces, to name a few. Finally, the United States retains the 
capability to rapidly upload additional strategic nuclear weapons if 
necessary.
    During consultations during the development of the 2010 NPR and 
since the release of the NPR and the signing of New START, Allies have 
told us they are comfortable with our planned nuclear force posture, 
which is consistent with the NPR recommendations and the New START 
treaty. Allied governments have noted that future U.S.-Russian nuclear 
arms reduction negotiations should seek to reduce Russian tactical 
nuclear weapons.
    Lastly, the United States will sustain safe, secure, and effective 
nuclear forces to deter any potential adversary so long as nuclear 
weapons exist. U.S. nuclear force reductions will be implemented in 
ways that maintain the reliability and effectiveness of our extended 
deterrent for all of our allies and partners.

    133. Senator Chambliss. Secretary Gates and Admiral Mullen, what is 
the assumed level of risk to the United States defenses and its 
extended deterrence beneficiaries to reach the New START levels?
    Secretary Gates and Admiral Mullen. The United States, and our 
Allies and partners, will not assume any additional risk due to the 
United States being limited to New START treaty force levels. The 
treaty will allow the United States to retain a strong Triad, and will 
not constrain our conventional capabilities (including prompt global 
strike), our missile defenses, or our ability to modernize our nuclear 
weapons complex. The risk of misunderstanding and worst-case military 
planning will be reduced by application of the treaty's data exchange 
and verification provisions.

                         nuclear modernization
    134. Senator Chambliss. Secretary Chu, the issue of nuclear weapons 
modernization as it relates to the New START is receiving lots of 
attention. First of all, as some of my colleagues have commented, it 
does not appear that the proposed modernization plan represents much, 
if any, increase over what was already going to occur. The plan 
submitted to Congress also discusses modernizing only one leg of the 
strategic triad, the submarine leg, and the bulk of the funding in the 
plan is to maintain current platforms rather than develop new ones.
    I am also very concerned about the bias against the full spectrum 
of modernization for our nuclear warheads. There is clearly a bias 
against replacement, which requires special presidential and 
congressional authorization. From a national security perspective, this 
is clearly unnecessary and works against our safety, security, and 
ability to ensure the security of our allies. It only makes sense from 
a domestic, political perspective. As the leader of the nuclear weapons 
modernization and sustainment complex, how will you instruct those who 
work for you when it comes to considering the ``full range of options'' 
for modernization?
    Secretary Chu. The path forward is articulated in the NPR and is 
further described in the report submitted to Congress pursuant to 
section 1251 of the National Defense Authorization Act for fiscal year 
2010, entitled: ``The New START Treaty Framework and Nuclear Force 
Structure Plans.'' Those documents make clear that the Laboratory 
Directors, and for my purposes, all of those responsible for the 
technical work that lies behind the development and evaluation of life 
extension approaches, ``will be expected to provide findings associated 
with the full range of LEP approaches, and to make a set of 
recommendations based solely on their best technical assessments of the 
ability of each LEP approach to meet critical stockpile management 
goals (weapon system safety, security, and effectiveness).''

    135. Senator Chambliss. Secretary Chu, will you empower the experts 
in DOE to make their best technical and strategic recommendations for 
our nuclear enterprise, regardless of how they may be received 
politically, or are you going to communicate that, indeed, there is a 
bias against weapon replacement and discourage them from recommending 
that option, even if replacement is the best option?
    Secretary Chu. Not only are DOE and NNSA experts empowered to make 
their best technical and strategic recommendations, they are and will 
continue to be expected to do so. As the report entitled: ``The New 
START Treaty Framework and Nuclear Force Structure Plans'' makes clear, 
they ``will be expected to provide findings associated with the full 
range of LEP approaches, and to make a set of recommendations based 
solely on their best technical assessments of the ability of each LEP 
approach to meet critical stockpile management goals (weapon system 
safety, security, and effectiveness).''

    136. Senator Chambliss. Secretary Chu, under what conditions would 
weapon replacement be the best option?
    Secretary Chu. As described in the NPR, replacement of nuclear 
components will be undertaken if critical Stockpile Management Program 
goals--that is, weapon system safety, security, and effectiveness--
cannot otherwise be met, and if specifically authorized by the 
President and approved by Congress.

                               good will
    137. Senator Chambliss. Secretary Chu, in your testimony before 
this committee, you reiterate that President Obama and the NPR ``put 
preventing the spread of nuclear weapons to terrorists and to states 
that don't already possess them at the very top of our national 
security agenda.'' The administration has also highlighted the good 
will that the New START will create with the Russians and the 
international community. Yet, the security of Russia's nuclear 
materials remains a concern, and we have seen criminals attempt to 
smuggle materials thought to have come from Russia. Can you explain how 
the New START, and the good will it will allegedly create, will 
increase cooperation with the Russians on securing their nuclear 
material?
    Secretary Chu. Our renewed focus on improving our relations with 
Russia, including the negotiations on the New START treaty, has led to 
a greater understanding and increased cooperation between the United 
States and Russia in a number of areas, especially toward the 
President's goal of securing all vulnerable nuclear materials 
worldwide. This renewed relationship is a key factor as we work toward 
curbing nuclear threats around the globe. The New START treaty 
demonstrates the continuing commitment of the United States and Russia 
to reduce our respective nuclear arsenals consistent with obligations 
under the Nuclear NPT. Enhanced cooperation between the United States 
and Russia in the nuclear arena will contribute to the positive 
international environment needed to reinforce programs to secure and 
safeguard nuclear material stockpiles worldwide, and to strengthen the 
NPT.
    Clearly, the responsibility for Russia's implementation of the New 
START treaty will belong to the Government of the Russian Federation. 
The U.S. Cooperative Threat Reduction (CTR) program, in concert with 
the nonproliferation programs of the Department of Energy, has 
historically played a very significant role in securing Russian nuclear 
weapons and stocks of fissile materials. The role of these programs 
will be, as it was throughout the implementation of the START treaty, 
to incentivize the Russian Government to continue the excellent 
cooperation it has had with the United States in eliminating Russian 
strategic delivery systems and in enhancing nuclear weapons storage and 
transportation security.

                            legal framework
    138. Senator Chambliss. Secretary Clinton and Admiral Mullen, you 
both stated during the hearing that, without the New START, the United 
States would have no treaty with the Russians that constrains our 
nuclear forces. Secretary Clinton, you specifically stated that the 
choice before the Senate ``is between this treaty and no legal 
obligation for Russia to keep its strategic nuclear forces below an 
agreed level.'' I note that the United States and Russia are currently 
bound by the limits in SORT, which sets a limit of 1,700 to 2,200 
warheads by the end of 2012. In my view, there is, in fact, a legal 
framework to govern the United States-Russia nuclear relationship for 
the next 2.5 years. While it is true that the Moscow Treaty expires 
after 2012, the limits are in force until it does. The Moscow Treaty 
also has no verification provisions, but the United States and Russia 
have agreed to abide by START verification provisions, even though 
START expired. Do you agree that the Moscow Treaty provides a legal 
framework to limit U.S.-Russia nuclear warheads until it expires at the 
end of 2012?
    Secretary Clinton. The Moscow Treaty (or SORT), which will remain 
in force until December 31, 2012, unless superseded earlier by a 
subsequent agreement such as the New START treaty, requires the United 
States and Russia to reduce and limit strategic nuclear warheads to 
1,700-2,200 for each party by December 31, 2012. The Moscow Treaty has 
no other limits, nor does it contain any verification or transparency 
measures. While Presidents Obama and Medvedev issued a Joint Statement 
on the eve of START's expiration expressing ``our commitment, as a 
matter of principle, to continue to work together in the spirit of the 
START treaty following its expiration,'' there are currently no legally 
binding verification measures in place with respect to the Moscow 
Treaty. In the absence of New START's entry into force, we have to rely 
solely on National Technical Means to monitor Russian strategic forces.
    Admiral Mullen. The Moscow Treaty limit will remain legally-binding 
until its expiration on 31 December 2012, unless it is superseded by 
entry into force of the New START treaty. The United States and Russia 
have agreed to the provisional application of select New START treaty 
provisions, in accordance with Part Eight of the Protocol to the 
treaty. However, these provisions do not include verification 
procedures and the United States and Russia did not agree to continue 
implementing START verification procedures after START expired.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                    delivery vehicle force structure
    139. Senator Thune. Secretary Gates, the NPR stated that it 
``conducted extensive analysis of alternative force structures under 
the New START,'' but so far you have only detailed what the United 
States nuclear force structure will look like up to 720 deployed 
strategic nuclear delivery vehicles. Please share the NPR analysis 
concluding that the United States can carry out its national security 
strategy and national military strategy with only 700 deployed 
strategic nuclear delivery vehicles, as would be required to comply 
with the New START central limits.
    Secretary Gates. The NPR identified a priority goal for U.S. 
negotiators to ensure that strategic delivery vehicles accountable 
under the previous START treaty but no longer associated with deployed 
nuclear weapons not be counted under New START. The achievement of this 
goal resulted in U.S. confidence that over 300 so-called ``phantom'' 
strategic delivery vehicles accountable under the previous treaty, 
including for example 96 launchers associated with conventional-only 
SSGNs, would not be included under New START limits.
    In considering acceptable New START limits after ``phantom'' 
delivery vehicles were removed from consideration, the NPR focused on 
four considerations:

        <bullet> Supporting strategic stability through an assured 
        second-strike capability;
        <bullet> Retaining sufficient force structure in each leg to 
        allow the ability to hedge effectively by shifting weight from 
        one Triad leg to another if necessary due to unexpected 
        technological problems or operational vulnerabilities;
        <bullet> Retaining a margin above the minimum required nuclear 
        force structure for the possible addition of non-nuclear 
        prompt-global strike capabilities (conventionally-armed ICBMs 
        or SLBMs) that would be accountable under the treaty; and
        <bullet> Maintaining the needed capabilities over the next 
        several decades or more, including retaining a sufficient cadre 
        of trained military and civilian personnel and adequate 
        infrastructure.

    First, the New START treaty enables us to continue to maintain a 
very effective and survivable force structure that can assure the 
United States the ability to conduct a devastating second strike, even 
after an attempt by an opponent at a disarming first strike, as well as 
to conduct more limited and discrete strikes.
    The second criterion was met because the United States will be able 
to retain sufficient capabilities in each leg of the Triad. As noted in 
the Section 1251 report, ``New START Framework and Nuclear Force 
Structure Plans,'' the United States plans to sustain 14 SSBNs with 240 
deployed SLBMs, up to 420 deployed ICBMs, and up to 60 deployed 
nuclear-capable heavy bombers. One of the specific force structures 
evaluated in the NPR and deemed adequate, included 240 deployed SLBMs, 
400 deployed ICBMs, and 60 deployed nuclear-capable heavy bombers. 
Because the New START treaty allows the freedom to establish the 
desired mix of strategic forces by the end of its 7-year implementation 
period, and change over time, the United States does not need to decide 
the exact mix of strategic forces at this time.
    The third criterion was met because the treaty's ceilings allow for 
a sufficient margin to accommodate the deployment of a limited number 
of conventionally-armed ICBMs and SLBMs, should the United States elect 
to deploy them, while excluding from accountability conventional B-1B 
and B-52H heavy bombers equipped to deliver only non-nuclear armaments 
and SSGN submarines that are incapable of launching SLBMs. The United 
States also stated during the negotiations that it would not consider 
future, strategic range, non-nuclear systems that do not otherwise meet 
the definitions of the treaty to be ``new kinds of strategic offensive 
arms'' for purposes of the treaty.
    Finally, the administration has proposed a robust plan to 
revitalize the nuclear weapons complex in order to meet the fourth 
criterion.

    140. Senator Thune. Secretary Gates, please provide the analysis of 
alternative force structures that would comply with the New START 
central limits.
    Secretary Gates. Please see answers to questions #133 and #139.

                          section 1251 report
    141. Senator Thune. Secretary Gates, press reports indicate the 
administration plans to invest $100 billion over the next decade in 
nuclear delivery systems. About $30 billion of this total will go 
toward development and acquisition of a new strategic submarine. 
According to estimates by STRATCOM, the cost of maintaining our current 
dedicated nuclear forces is approximately $5.6 billion per year. This 
leaves roughly $14 billion of the $100 billion the administration 
intends to invest. This $14 billion is not nearly sufficient to develop 
and acquire a next-generation bomber, a follow-on ICBM, a follow-on 
air-launched cruise missile, and a conventional prompt global strike 
capability. Why did you not make a decision to pursue these programs in 
the 1251 Report accompanying the New START?
    Secretary Gates. As stated in the one page, unclassified summary of 
the 1251 report, the administration intends to invest well over $100 
billion in modernizing strategic delivery systems. Alternatives for a 
follow-on bomber are being developed in the ongoing Long Range Strike 
Study for consideration with the President's fiscal year 2012 budget. 
An Analysis of Alternatives on the follow-on nuclear-armed air-launched 
cruise missiles (ALCM) is currently underway. Although a decision on 
any follow-on ICBM is not needed for several years, studies to inform 
that decision will begin in fiscal year 2011 and fiscal year 2012. The 
studies and development programs for these systems will consider a 
range of possible options, with the objective of defining a cost-
effective approach that supports continued reductions in U.S. nuclear 
weapons while promoting stable deterrence.

    142. Senator Thune. Secretary Gates, is there a chance you could 
decide against a new bomber, air-launched cruise missile, or follow-on 
ICBM?
    Secretary Gates. While I will not speculate regarding future 
decisions, as I have stated numerous times, I support a strong Triad 
under the New START treaty, and I am committed to making necessary 
investments for both delivery systems and the nuclear weapons complex. 
It is worth noting that the investments needed to sustain the U.S. 
nuclear arsenal and nuclear weapons complex under New START and beyond 
will be the work of multiple administrations and Congresses.

    143. Senator Thune. Secretary Gates, how do we know the 
administration will pursue these necessary programs, such as the bomber 
or follow-on ICBM?
    Secretary Gates. The NPR clearly attests to the commitment of the 
executive branch to sustain an effective nuclear deterrent for the long 
term-and New START preserves our ability to do so. Today's Minuteman 
III ICBMs will be sustained until 2030 as directed by Congress, 
nuclear-capable B-52Hs can be sustained to the 2030s, and B-2As to the 
2040s. Analysis of any follow-on ICBM will start in 2011. There is time 
to do this analysis, and given both the resources and military 
capabilities involved, an imperative to make well-informed decisions at 
the appropriate time.

    144. Senator Thune. Secretary Gates, according to the most recent 
briefs I have seen, DOD expects the current nuclear bomber force to 
remain in service through 2040. Thirty more years is a long time for a 
bomber that was built 50 years ago. Proponents of this plan say they 
can last that long with upgrades. However, physically remaining in 
service is significantly different than remaining survivable in a 
future high threat combat scenario. Since the NPR recognizes the need 
for a nuclear triad, what is your plan to replace the aging nuclear 
bomber force so that the nuclear triad stays survivable in the future?
    Secretary Gates. The NPR determined that retaining all three legs 
of the Triad will best maintain strategic stability at reasonable cost, 
while hedging against potential technical problems or vulnerabilities. 
Accordingly, the Air Force will retain the B-52 for nuclear mission 
requirements beyond 2020 and is investing more than $1.2 billion over 
the next 5 years to modernize the B-52. In addition, DOD will invest 
more than $1 billion over the next 5 years to support upgrades to the 
B-2 stealth bomber. These enhancements will help sustain its 
survivability and improve mission effectiveness. The Department of 
Defense is examining alternative follow-on bomber approaches in its 
ongoing Long Range Strike Study, which is to be completed this fall and 
will provide an important basis for the development of plans for moving 
forward in this area.

    145. Senator Thune. Secretary Gates, my understanding is that an 
ICBM-based prompt global strike platform would be counted against the 
700 deployed delivery vehicles. If we decide to develop that system, 
which of the three legs of the nuclear triad would be further reduced 
to accommodate prompt global strike?
    Secretary Gates. No decision regarding prompt global strike system 
has been taken and cannot be taken before other decisions are made 
about what type of conventional long-range strike capabilities are 
useful and available during the period that the New START treaty (NST) 
is in force. A variety of prompt global strike systems are being 
assessed within the Long-Range Strike Study that is to be completed 
this fall. As you know, NST provides flexibility to each party to 
determine its own strategic force structure. As stipulated in the 
report submitted with the New START treaty pursuant to Section 1251 of 
the National Defense Authorization Act for Fiscal Year 2010, the United 
States will pursue a future force structure under the NST that will 
preserve adequate flexibility, including possible accountable 
conventional prompt global strike systems currently under study by DOD. 
In addition, NPR analysis concluded that NST delivery vehicle and 
strategic warhead limits allowed retention of a margin above the 
minimum required nuclear force structure for the possible addition of 
non-nuclear prompt-global strike capabilities (conventionally-armed 
ICBMs or SLBMs) that would be accountable under the treaty.
    If the United States decides to develop a prompt global strike 
system that would be accountable under New START, the Joint Chiefs and 
I agree that it should involve small numbers of strategic delivery 
vehicles. Under the baseline plan summarized in the Section 1251 
report, ``New START Framework and Nuclear Force Structure Plans,'' to 
Congress, the United States will retain 240 deployed SLBMs, up to 60 
heavy bombers, and up to 420 deployed ICBMs under New START. Given the 
7 year implementation period of the treaty, and each side's freedom to 
select its desired force structure and change it over time, decisions 
about changes involving small numbers of the 700 allowed deployed 
strategic delivery vehicles should be made after such a decision to 
deploy these systems.

    146. Senator Thune. Secretary Gates and Admiral Mullen, what is 
your estimate of how the Russians will configure their strategic forces 
under the New START?
    Secretary Gates and Admiral Mullen. This topic is addressed in the 
National Intelligence Estimate on monitoring the New START treaty, 
which was provided to the Senate on June 30, 2010.

    147. Senator Thune. Secretary Gates and Admiral Mullen, what 
impact, if any, would Russian configuration of their strategic forces 
in response to the New START have on the way the President decides to 
configure our strategic forces?
    Secretary Gates and Admiral Mullen. The United States will continue 
to configure and posture its forces to maintain the overall force's 
combined qualities of survivability, responsiveness, flexibility, and 
effectiveness for both large-scale and limited contingencies. We do not 
anticipate significant alterations as being necessary due to any 
Russian changes, because U.S. forces have been developed and deployed 
to minimize their sensitivity to changes in other nations' force 
postures.

                           delivery vehicles
    148. Senator Thune. Secretary Gates and Admiral Mullen, during 
testimony before this committee last July, General Cartwright expressed 
the view that he ``would be very concerned'' about the viability of the 
nuclear triad if we got below 800 deployed delivery vehicles. The New 
START establishes a level of 700 deployed strategic delivery vehicles. 
I note that General Cartwright stated his concern after the NPR team 
had already conducted detailed analysis in spring 2009 to determine 
negotiating positions for the New START on an appropriate limit on 
strategic delivery vehicles. What beneficial geopolitical developments 
have taken place in the interim that compel reductions in the United 
States nuclear arsenal down to 700 deployed strategic nuclear delivery 
vehicles?
    Secretary Gates and Admiral Mullen. The decision to agree to a 
limit of 700 deployed strategic delivery vehicles did not result from a 
change in the security environment, but from an updated assessment of 
U.S. force deployment options in the light of progress achieved in the 
negotiations. The testimony you refer to in your question was delivered 
before the definitional difference between deployed and nondeployed 
ICBM and SLBM launchers had been agreed, and before the sides had 
agreed to the conversion of individual SLBM launchers on strategic 
submarines. Thus, the ``800 deployed delivery vehicles'' figure 
referred to in the testimony would, for example, have included U.S. 
strategic delivery systems that will now count as nondeployed (e.g., 
two SSBNs in overhaul). Once these provisions were agreed, it became 
clear that we could sustain a strong Triad and meet deterrence and 
hedging requirements within a limit of 700 deployed ICBMs, SLBMs, and 
nuclear-capable heavy bombers. The U.S. senior military leadership has 
stated its support for this result.

    149. Senator Thune. Secretary Gates and Admiral Mullen, why are the 
Joint Chiefs not concerned by the New START, given the number of 
allowable deployed delivery vehicles is 100 below General Cartwright's 
comfort level?
    Secretary Gates and Admiral Mullen. General Cartwright, as well as 
the rest of the Joint Chiefs of Staff, Commander, U.S. Strategic 
Command, and both of us support the New START treaty including the 
limit of 700 on deployed strategic delivery vehicles. The New START 
limit will allow the United States to retain all 14 current SSBNs, 
while reducing the number of accountable SLBMs by 96 relative to the 
previous START treaty's counting rules (from 336 to 240). The United 
States will be able to do this by taking advantage of the treaty's 
provisions by converting or eliminating 56 SLBM launchers and not 
deploying SLBMs in an additional 40 launchers. In addition, the United 
States will convert 34 or more a subset of B-52H bombers to a 
conventional-only role, so that they are no longer accountable under 
the treaty. By taking advantage of these treaty provisions, the United 
States will have to eliminate or keep in a nondeployed status only 30 
to 50 ICBM launchers of the 450 Minuteman III active silos today. In 
sum, the decision to agree to a limit of 700 deployed strategic 
delivery vehicles resulted from an updated assessment of U.S. force 
deployment options in the light of different counting rules under New 
START.

    150. Senator Thune. Secretary Gates and Admiral Mullen, what were 
the assumptions going into the New START negotiations that drove our 
level of acceptance to reduced deployed delivery vehicle numbers?
    Secretary Gates and Admiral Mullen. Please see the answer to 
question #149.

            potential conflicting messages to the air force
    151. Senator Thune. Secretary Gates and Admiral Mullen, in an 
effort to build up the nuclear enterprise, the Air Force recently 
accomplished an extensive restructuring, which included, among other 
things, adding a new Global Strike Command, adding an additional B-52 
nuclear capable bomber squadron, and multiple changes to procedures and 
testing. This was all part of a tremendous and ongoing effort to 
reinvigorate the nuclear enterprise. However, by ratifying the New 
START, it would seem we are providing conflicting guidance to our 
nuclear force and telling them we want to draw down and scale back the 
nuclear mission. For example, this treaty would specifically reverse 
the direction the Air Force was just given to build up the B-52 nuclear 
capability by cutting the number of nuclear capable B-52s. Are you at 
all worried about undercutting the Air Force's improved emphasis on the 
nuclear mission after the problems the Air Force had with the nuclear 
mission a few years ago?
    Secretary Gates and Admiral Mullen. No. The conclusion of the New 
START treaty in no way reduces the emphasis the Department of Defense 
will place upon continuing to strengthen the Air Force nuclear 
enterprise. As we reported in the Section 1251 report, the United 
States plans to maintain up to 60 nuclear-capable heavy bombers and up 
420 silo-based Minuteman III ICBMs, each carrying a single re-entry 
vehicle. Consequently, the Air Force will remain responsible for 
maintaining the trained and ready force to man two of the three legs of 
the U.S. strategic triad, an enduring obligation that will continue to 
require very strong emphasis on the nuclear mission. Sustaining the 
U.S. Air Force's nuclear enterprise is critical to U.S. security, and 
we and Air Force Chief of Staff, General Norton Schwartz, are confident 
that this objective can be met under the New START treaty.

                 strategic offensive reductions treaty
    152. Senator Thune. Secretary Clinton, in your prepared remarks you 
asserted that in considering the New START, the choice before the 
Senate ``is between this treaty and no legal obligation for Russia to 
keep its strategic nuclear forces below an agreed level.'' If the New 
START does not enter into force, won't SORT govern the nuclear security 
relationship between the United States and Russia?
    Secretary Clinton. While the Moscow Treaty (or SORT) would remain 
in force until December 31, 2012, that treaty only requires the United 
States and Russia to reduce and limit strategic nuclear warheads to 
1,700-2,200 for each party by December 31, 2012. The Moscow Treaty has 
no other limits, nor does it contain any verification or transparency 
measures.

    153. Senator Thune. Secretary Clinton, if the New START does not 
enter into force, wouldn't extending SORT some time before December 31, 
2012, as provided for in Article IV(2) of SORT, be a choice?
    Secretary Clinton. In accordance with its terms, the Moscow Treaty 
(or SORT) may be extended by agreement of the Parties or superseded 
earlier by a subsequent agreement. However, as noted above, the Moscow 
Treaty contains no verification or transparency measures.

                     reductions of nuclear weapons
    154. Senator Thune. Secretary Clinton, in your prepared remarks you 
asserted that the completion of the New START ``makes clear that we are 
committed to real reductions, and to upholding our end of the bargain 
under the NPT.'' The United States has been reducing its nuclear 
weapons stockpile for 40 years, and that fact is very well known. It 
did not take the declassification of our stockpile numbers at the NPT 
Review Conference to demonstrate it. What benefits to the 
nonproliferation regime can we expect to come from the particular 
reductions embodied in the New START that have not come from the 
previous 40 years of U.S. nuclear reductions?
    Secretary Clinton. U.S.-Russian, and the earlier U.S.-Soviet 
strategic arms control agreements, provide a clear demonstration of our 
commitment to fulfilling our obligations under Article VI of the NPT. 
The commitment of the nuclear weapons states to pursue effective 
measures relating to disarmament is part of the basic bargain inherent 
in the NPT, i.e., that the nuclear weapons states would commit to move 
to nuclear disarmament and the non-nuclear weapons states would commit 
not to pursue nuclear weapons capability. Ratification of New START 
provides demonstrable proof of our continuing commitment to that 
bargain. Failure to ratify New START would call into question our 
commitment to leadership of the nonproliferation regime, and could 
undermine support for the nonproliferation regime.

                       russia's support for iran
    155. Senator Thune. Secretary Clinton, during the hearing you 
explained Russia's continued support to Iran's nuclear reactor program 
at Bushehr by asserting that Iran is ``entitled to civil, peaceful 
nuclear energy.'' Whatever that right to peaceful nuclear energy may 
be, surely it is not an unqualified right. The NPT makes clear that the 
right to peaceful nuclear energy must be exercised ``in conformity 
with'' the nonproliferation obligations of the NPT. Since Iran is in 
violation of these requirements, it is obviously detrimental to 
international security for Russia to continue its nuclear cooperation 
with Iran while Iran remains in non-compliance with United Nations 
Security Council resolutions. Before the Senate gives its consent to 
the New START, please certify that either Russia has ceased nuclear 
cooperation with Iran or Iran has come into compliance with its 
nonproliferation obligations.
    Secretary Clinton. Russia shares U.S. concerns regarding Iran's 
nuclear and missile programs. To that end, Russia has supported all six 
United Nations Security Council resolutions on this subject, four of 
which imposed sanctions on Iran. The United States and Russia stand 
firmly with the rest of the international community in supporting the 
development of peaceful, safe, safeguarded nuclear power, including for 
the benefit of the Iranian people. Both former-President George W. Bush 
and President Obama have confirmed that the United States recognizes 
and supports the exercise of that right, and that responsibilities to 
ensure compliance with NPT obligations are inextricably tied with those 
rights. Russia's arrangement to supply nuclear fuel for the entire 
period of Bushehr's operation under IAEA safeguards continues to be a 
keystone in our statements that Iran does not need to enrich uranium 
indigenously.
    U.N. Security Council Resolution (UNSCR) 1737 (2006) exempted 
assistance and fuel for Iranian light water reactors, such as Bushehr, 
from being included in the list of prohibited actions/items. Following 
lengthy negotiations with Iran, Russia secured very important 
nonproliferation measures in the Russia-Iran agreement, namely just-in-
time fuel delivery and spent fuel take-back. Russia has made clear to 
Iran that IAEA safeguards are a requisite part of reactor operation. 
These measures have gone a long way in satisfying the immediate 
nonproliferation concerns we would have had with the plutonium in spent 
fuel rods from Bushehr's reactor.

                            missile defense
    156. Senator Thune. Secretary Clinton, in your opening statement, 
you were adamant that the limitation on missile defense contained in 
Article V of the New START is not a constraint on the United States 
system because we ``had no intention'' of converting offensive 
launchers for missile defense interceptor use in the future. You went 
so far as to say we could have had a long list of things in the treaty 
we weren't going to do, to include that ``we're not going to launch 
[missile defense interceptors] from . . . a cow.'' If the Article V 
limitation is in the treaty at the insistence of Russia, what did we 
get in return for that concession?
    Secretary Clinton. Paragraph 3 of Article V of the treaty prohibits 
the conversion of ICBM or SLBM launchers to serve as launchers for 
missile defense interceptors and the conversion of missile defense 
interceptor launchers to launch ICBMs or SLBMs. The paragraph also 
``grandfathers'' the five former ICBM silos at Vandenberg Air Force 
Base, California that were converted to house and launch the Ground 
Based Interceptors (GBI) several years ago.
    As stated in the Article-by-Article Analysis of the treaty, this 
statement has the effect of ensuring that the paragraph's prohibition 
does not apply to the five converted former ICBM launchers at 
Vandenberg. It also resolves a long-standing ambiguity that arose 
during implementation of the START treaty. Specifically, it ensures 
that these five previously converted ICBM silo launchers at Vandenberg 
Air Force Base that now are used for missile defense interceptors will 
not be a continuing subject of dispute with Russia and will not count 
against the New START treaty's limit on nondeployed ICBM and SLBM 
launchers and heavy bombers equipped for nuclear armaments.
    This provision will have no operational impact on U.S. missile 
defense efforts. As Lieutenant General O'Reilly has testified, the 
Missile Defense Agency has never had any plans to convert additional 
ICBM silos to missile defense interceptor launchers. Doing so would be 
much more expensive than building smaller GBI silos from scratch. 
Moreover, as Lieutenant General O'Reilly has also stated, newly-built 
GBI silos are easier both to protect and maintain.
    In regard to the conversion of SLBM launchers into missile defense 
interceptor launchers, as Lieutenant General O'Reilly stated in his 
testimony, the Missile Defense Agency had examined earlier the concept 
of launching missile defense interceptors from submarines and found it 
an operationally unattractive and extremely expensive option. He added 
that the United States already has a very good and significantly 
growing capability for sea-based missile defense on Aegis-capable 
ships, which are not constrained by the New START treaty.
    Lieutenant General O'Reilly also noted that the New START treaty 
offers certain advantages for development of the U.S. BMD system: 
``Relative to the recently expired START treaty, the New START treaty 
actually reduces constraints on the development of the missile defense 
program. Unless they have New START accountable first stages (which we 
do not plan to use), our targets will no longer be subject to START 
constraints, which limited our use of air-to-surface and waterborne 
launches of targets which are essential for the cost-effective testing 
of missile defense interceptors against MRBM and IRBM targets in the 
Pacific area. In addition, under New START, we will no longer be 
limited to five space launch facilities for target launches.''

    157. Senator Thune. Secretary Clinton, why didn't we get a 
statement in the treaty text on an issue of equal importance to us, 
such as at least some reference to the myriad of issues raised by 
Russia's massive numerical superiority in tactical nuclear weapons, 
which should be as concerning to us as stopping our missile defense 
deployments is to Russia?
    Secretary Clinton. From the outset, the New START treaty was 
intended to replace the START treaty, which was about strategic 
offensive forces. The desire to conclude the New START treaty quickly 
in light of the START treaty's pending expiration, combined with the 
need to consult closely with our allies before addressing tactical 
nuclear weapons, did not support broadening the scope of the New START 
treaty to address tactical nuclear weapons. Deferring negotiations on 
tactical nuclear weapons until after a START successor agreement had 
been concluded was also the recommendation of the Perry-Schlesinger 
Congressional Strategic Posture Commission.

    158. Senator Thune. Secretary Clinton, at the hearing you compared 
the Russian unilateral statement on missile defense to its previous 
unilateral statement with START, but our unilateral statement in 
response this time was very different. In START, as you know, Russia 
issued a unilateral statement saying U.S. withdrawal from or breach of 
the ABM Treaty would constitute grounds for withdrawal from START. We 
issued a unilateral statement in conjunction saying, ``the full 
exercise of the United States of its legal rights under the ABM Treaty 
. . . would not constitute a basis for such withdrawal.'' This time, on 
the other hand, we issued a feckless unilateral statement saying that 
we plan to continue to develop our missile defense system to defend 
against limited attack. Since we lawfully withdrew from the ABM Treaty, 
why didn't we challenge the Russian unilateral statement, saying there 
are absolutely no circumstances under which the development of our 
missile defense systems constitutes adequate grounds for Russian 
withdrawal from the New START, similar to our START unilateral 
statement?
    Secretary Clinton. The Russian unilateral statement does not change 
the legal rights or obligations of the Parties under the treaty and is 
not legally binding. The United States did not agree to Russia's 
unilateral statement. The United States will continue its missile 
defense programs and policies, as outlined in the BMD Review. Russia's 
unilateral statement has not changed our course, as laid out in the 
Review, nor will it.
    The New START treaty, as with many other arms control treaties, 
allows a party to withdraw from the treaty if that party decides that 
its supreme interests are jeopardized by extraordinary events related 
to the subject matter of the treaty.
    The unilateral statement made by the Russian Federation merely 
reflects its current position that the ``extraordinary events'' that 
could justify Russia's withdrawal from the treaty include a build-up in 
the missile defense system capabilities by the United States that would 
give rise to a threat to the Russian strategic nuclear force potential. 
We have continuously assured Russia, however, that the U.S. BMD System 
is neither designed nor intended to threaten the strategic balance with 
Russia.
    President Medvedev explained the Russian view regarding the 
significance of the Russian unilateral statement during a television 
interview in April 2010 in which he said: ``That does not mean that if 
the USA starts developing missile defense the treaty would 
automatically be invalidated, but it does create an additional argument 
that binds us and that makes it possible for us to raise the question 
of whether quantitative change to missile defense systems would affect 
the fundamental circumstances underlying the treaty. If we see that 
developments do indeed represent a fundamental change in circumstances, 
we would have to raise the issue with our American partners. But I 
would not want to create the impression that any changes would be 
construed as grounds for suspending a treaty that we have only just 
signed.'' (Emphasis added)

                 strategic offensive and defensive arms
    159. Senator Thune. Secretary Clinton, the New START preamble 
recognizes: (1) the existence of the interrelationship between 
strategic offensive arms and strategic defensive arms; (2) that this 
interrelationship will become more important as strategic nuclear arms 
are reduced; and (3) that current strategic defensive arms do not 
undermine the viability and effectiveness of the strategic offensive 
arms of the Parties. Why is the third clause in the preamble?
    Secretary Clinton. The treaty's preamble records the shared view of 
the United States and Russia that ``current strategic defensive arms do 
not undermine the viability and effectiveness of the strategic 
offensive arms of the Parties.'' This preambular statement indicates 
that Russia is not concerned that existing U.S. BMD programs and other 
U.S. strategic defensive programs such as those for the air defense of 
the U.S. homeland pose any threat to the survivability and 
effectiveness of the Russian strategic deterrent. This statement in the 
preamble does not establish any legally binding obligations and creates 
no constraints regarding future U.S. strategic defense programs, 
including those for any form of missile defense.
    Russia has expressed concerns that future U.S. BMD capabilities 
could eventually be a threat to Russia's strategic nuclear deterrent. 
There is no prospect of this occurring within the timeframe of the New 
START treaty. In an effort to make this clear to the Russians, we have 
provided, and will continue to provide, policy and technical 
explanations regarding why U.S. BMD capabilities such as the European-
based Phased Adaptive Approach will not undermine Russia's strategic 
nuclear deterrent. The United States has also offered to provide 
transparency and confidence-building measures to demonstrate that 
existing and planned U.S. BMD programs are not directed against Russia 
and do not threaten Russia's strategic deterrent.

    160. Senator Thune. Secretary Clinton, is the third clause of the 
preamble at our insistence or the Russian's?
    Secretary Clinton. See answer to question #159.

    161. Senator Thune. Secretary Clinton, presuming we acceded to the 
inclusion of the third clause at the insistence of the Russians, what 
did we get in return for that major concession?
    Secretary Clinton. See answer to question #159.

    162. Senator Thune. Secretary Clinton, what does ``current'' mean 
in the third clause of the preamble?
    Secretary Clinton. See answer to question #159.

    163. Senator Thune. Secretary Clinton, does ``current'' in the 
third clause allow for the deployment of any land-, sea-, or space-
based interceptor system the United States may one day choose?
    Secretary Clinton. See answer to question #159.

    164. Senator Thune. Secretary Clinton, as we build up our missile 
defense system through all four phases of President Obama's phased 
adaptive approach, do you know if there is a potential for the Russians 
to consider this build-up grounds for withdrawal from the New START?
    Secretary Clinton. The New START treaty, as with other arms control 
treaties, allows a party to withdraw from the treaty if that party 
decides that its supreme interests are jeopardized by extraordinary 
events related to the subject matter of the treaty.
    Each party must determine, based on its own criteria, when its 
``supreme interests'' have been jeopardized to the point that it 
believes it must withdraw from the treaty.
    With respect to the New START treaty, the Russian Federation has 
provided a unilateral, non-legally binding statement that reflects 
Russia's current position that a buildup in missile defense 
capabilities by the United States that threatens the Russian strategic 
nuclear forces potential could be one such basis for withdrawal from 
the treaty.
    To address Russia's concerns, the United States has provided, and 
will continue to provide, policy and technical explanations regarding 
why U.S. BMD capabilities such as the European-based Phased Adaptive 
Approach will not undermine Russia's strategic nuclear deterrent.
    Historically, the Russian Federation did not withdraw from the 
START treaty when the United States withdrew from the ABM Treaty in 
2002.

                   bilateral presidential commission
    165. Senator Thune. Secretary Clinton, at the July 2009 summit 
between Presidents Obama and Medvedev, the two presidents agreed to 
create a bilateral presidential commission with a working group on arms 
control and international security issues. The working group was to be 
co-chaired by Sergei Ryabkov, Russian Deputy Minister of Foreign 
Affairs, and Ellen Tauscher, U.S. Under Secretary of State for Arms 
Control and International Security Affairs. Please provide details on 
the discussions in this forum involving missile defense.
    Secretary Clinton. Within the Arms Control and International 
Security Working Group, the Obama administration has provided briefings 
to, and discussed U.S. missile defense (BMD) policy, plans, and 
programs with the Russian government. In addition to covering U.S. 
programs, we have used this diplomatic channel to discuss the mutual 
benefits of BMD cooperation, BMD confidence-building and transparency 
measures, and proposals to exchange data on a limited number of 
launches of ballistic missiles and space launch vehicles obtained from 
United States and Russian early warning systems. Such briefings and 
discussions are also part of the administration's efforts to explain 
why U.S. missile defenses do not pose a threat to Russia's strategic 
deterrent.

                          prompt global strike
    166. Senator Thune. Secretary Gates, President Obama asserted in 
his NPR that the United States could deter potential adversaries and 
reassure allies with a ``reduced reliance on nuclear weapons,'' 
partially due to ``unrivaled U.S. conventional military capabilities.'' 
Conventional prompt global strike capabilities are obviously part of 
U.S. conventional military capabilities. DOS points out those long-
range conventional ballistic missiles would count toward the New START 
delivery vehicle limit, and conventional warheads on those missiles 
would count against the warhead limit. The NPR further notes that DOD 
is exploring a range of technologies in developing conventional 
military capability, some of which would not be accountable under the 
New START, such as hypersonics. Please provide an overview of current 
work at DOD on developing and deploying long-range conventional 
ballistic missiles.
    Secretary Gates. Conventional prompt global strike (CPGS) concepts 
funded in the fiscal year 2010 President's Defense Budget request 
($165.6 million) focus on the development and demonstration of 
technologies that could lead to the eventual fielding of a CONUS-based 
operationally deployed CPGS system. Fiscal year 2010 funding supports 
technology application flight experiments by DARPA's Hypersonic 
Technology Vehicle 2, and the Army's Advanced Hypersonic Weapon, and an 
``operationally-relevant'' flight demonstration by the Air Force.
    In addition, a study of long-range strike options, including those 
that would provide CPGS capabilities, is currently underway in the 
Department of Defense, and will be completed in time to inform the 
fiscal year 2012 President's budget. No decisions have been made on 
which, if any, CPGS delivery systems to acquire or when such systems 
would be fielded. However, based on analysis of alternative options, 
the Department of Defense has concluded that any deployment of 
conventional warheads on ICBMs or SLBMs during the 10-year life of this 
treaty would be limited, and could be accommodated within the aggregate 
limits of the treaty while sustaining a robust nuclear Triad.

    167. Senator Thune. Secretary Gates, has DOD assessed whether the 
study of hypersonics is the most efficient use of resources in 
developing conventional military capability or is it merely to avoid 
counting toward the central limits in the New START?
    Secretary Gates. The Conventional Prompt Global Strike (CPGS) 
Defense-Wide Account (DWA), established by Congress for the development 
of promising CPGS technologies, is considering hypersonic technologies. 
This program was directed by Congress to be established in 2008, prior 
to the start of the New START negotiations in 2009.
    Conventional strike concepts leveraging hypersonic technologies may 
offer some advantages over other concepts. For example, such systems 
would have the advantage that they could ``steer around'' other 
countries to avoid over-flight and have flight trajectories 
distinguishable from an ICBM or SLBM.
    A study of long-range strike options, including those that would 
provide CPGS capabilities, is currently underway in the Department of 
Defense, and will be completed in time to inform the fiscal year 2012 
President's budget. The cost effectiveness of various types of systems, 
including hypersonics, will be one of the key criteria for evaluation.

    168. Senator Thune. Secretary Gates, what is DOD's current 
assessment of the viability of these exotic hypersonic technologies, 
given that the signal from the Falcon Hypersonic Technology Vehicle-2 
was lost 9 minutes into the April 22, 2010, Defense Advanced Research 
Projects Agency test?
    Secretary Gates. Preliminary review of technical data indicates the 
Minotaur IV Lite launch vehicle successfully delivered the Falcon 
Hypersonic Technology Vehicle-2 (HTV-2) to the desired separation 
conditions. The launch vehicle executed first of its kind energy 
management maneuvers, clamshell payload fairing release, and HTV-2 
deployment. Three test ranges, six sea-based and two airborne telemetry 
collection assets were employed and operational on the day of launch. 
Approximately 9 minutes into the mission, telemetry assets experienced 
a loss of signal from the HTV-2. An engineering review board is 
reviewing available data to understand this anomaly. Technical data 
collected during the flight will provide insight into the hypersonic 
flight characteristics of the HTV-2, and be applicable to other 
hypersonic glide concepts.
                            land-based icbms
    169. Senator Thune. Admiral Mullen, the President announced in his 
NPR that he would move to de-MIRV all our land-based ICBMs. Are you 
concerned that the New START does not prevent Russia from shifting its 
force structure to large numbers of land-based MIRVs?
    Admiral Mullen. The New START treaty does not include limitations 
on the number of warheads emplaced on ICBMs because the Parties sought 
to maintain flexibility by allowing each party to determine for itself 
how to structure its strategic nuclear forces within the treaty's 
limits. It preserves our ability to hedge against technical and 
geopolitical developments while reducing U.S. and Russian strategic 
forces. Within the New START treaty central limits there are no 
specific obligations, prohibitions, or restrictions on the composition 
of the force structure. For instance, the treaty does not limit the 
development of new types of missiles and there are no constraints upon 
the technical characteristics of new missiles such as their launch 
weight or throw-weight.
    Russian strategic forces configuration in response to New START 
will not impact U.S. strategic configuration. The configuration of U.S. 
strategic forces in the Triad, and the administration's continuing 
commitment to maintaining U.S. forces in the Triad structure under New 
START, maintains strategic deterrence and stability, strengthens 
regional deterrence, reassures U.S. allies and partners, and sustains a 
safe, secure, and effective nuclear arsenal. NPR analysis focused on 
retaining sufficient force structure in each leg of the Triad to allow 
the ability to hedge effectively by shifting weight from one Triad leg 
to another if necessary due to unexpected technological or operational 
problems.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                        tactical nuclear weapons
    170. Senator Vitter. Secretary Clinton, have any of our allies 
expressed any concerns to you or DOS about the New START and its 
failure to address tactical nuclear weapons?
    Secretary Clinton. No. Allies have not expressed concerns with New 
START. To the contrary, the response from our Allies to the conclusion 
of the New START treaty has been overwhelmingly positive, with many 
seeing it as an important step forward in global nonproliferation 
efforts. For example, on behalf of NATO Allies, NATO Secretary General 
Anders Fogh Rasmussen welcomed the agreement as an important 
contribution to arms control and an inspiration for further progress.
    With regard to tactical/non-strategic nuclear weapons, during 
consultations throughout the development of the 2010 NPR and since its 
release and the signing of New START, Allies have told us they are 
comfortable with our planned nuclear force posture, which is consistent 
with NPR recommendations and the New START treaty. More recently, at 
Tallinn in their initial discussions on the role of nuclear weapons in 
NATO, Allied foreign ministers welcomed the principle of including non-
strategic nuclear weapons in any future U.S.-Russian arms control 
talks.

    171. Senator Vitter. Secretary Clinton, why was the issue of 
tactical nuclear weapons not addressed in the New START?
    Secretary Clinton. From the outset, the New START treaty was 
intended to replace the START treaty, which was about strategic 
offensive forces. The desire to conclude the New START treaty quickly 
in light of the pending expiration of the START treaty, combined with 
the need to consult closely with our allies before addressing tactical 
nuclear weapons, did not support broadening the scope of the New START 
treaty to address tactical nuclear weapons. Deferring negotiations on 
tactical nuclear weapons until after a START successor agreement had 
been concluded was also the recommendation of the Perry-Schlesinger 
Congressional Strategic Posture Commission.

                             nuclear parity
    172. Senator Vitter. Secretary Gates, do you believe that the 
reductions in the New START will incite other nuclear nations to 
increase their arsenals to attempt to achieve parity with the United 
States or Russia?
    Secretary Gates. No. The only nation that could potentially compete 
with the United States or Russia in size of its nuclear weapons arsenal 
is the People's Republic of China. The New START limits will permit the 
United States to maintain forces well above China's. Chinese spokesmen 
have stated that China does not seek to attain numerical parity with 
Russia or the United States, and its nuclear arsenal remains much 
smaller than the U.S. and Russian arsenals. As a declared nuclear 
weapon state under the NPT, China's restraint in its nuclear 
modernization is important to nuclear disarmament and global 
nonproliferation efforts. We look to China to be more transparent about 
its strategic programs and to show restraint in them.

    [Whereupon, at 11:50 a.m., the committee adjourned.]


   SUSTAINING NUCLEAR WEAPONS UNDER THE NEW STRATEGIC ARMS REDUCTION 
                                 TREATY

                              ----------                              


                        THURSDAY, JULY 15, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
E. Benjamin Nelson, Udall, Hagan, Burris, Bingaman, McCain, 
Inhofe, Sessions, Chambliss, Thune, Brown, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Peter K. Levine, general counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; and Daniel A. Lerner, professional staff 
member.
    Staff assistants present: Paul J. Hubbard, Jennifer R. 
Knowles, and Hannah I. Lloyd.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Nick Ikeda, assistant to 
Senator Akaka; Ann Premer, assistant to Senator Ben Nelson; 
Jennifer Barrett, assistant to Senator Udall; Roger Pena, 
assistant to Senator Hagan; Nathan Davern, assistant to Senator 
Burris; Jonathan Epstein, assistant to Senator Bingaman; 
Anthony Lazarski, assistant to Senator Inhofe; Lenwood Landrum 
and Sandra Luff, assistants to Senator Sessions; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Jason Van Beek, 
assistant to Senator Thune; Scott Clendaniel, assistant to 
Senator Brown; Brooks Tucker, assistant to Senator Burr; and 
Ryan Kaldahl, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody, and a very warm 
welcome to our witnesses. This morning we are going to explore 
the impact of the New Strategic Arms Reduction Treaty (START) 
on the Nuclear Weapons Life Extension Program (LEP) and the 
ability to maintain a safe, secure, and reliable, albeit 
smaller, stockpile of nuclear weapons.
    We have with us this morning four distinguished witnesses: 
Dr. Roy Schwitters, the S.W. Richardson Professor of Physics at 
the University of Texas-Austin, and the Chairman of the JASON 
Life Extension Study Panel; Dr. Michael Anastasio, the Director 
of the Los Alamos National Laboratory (LANL); Dr. George 
Miller, the Director of the Lawrence Livermore National 
Laboratory (LLNL); and Dr. Paul Hommert, the Director of Sandia 
National Laboratories (SNL).
    JASON is an independent group of renowned technical experts 
who perform studies for the Department of Defense (DOD), the 
National Nuclear Security Administration (NNSA), and the 
Intelligence Community (IC). The three national labs support 
the NNSA in maintaining the nuclear stockpile and working to 
prevent the proliferation of nuclear weapons and technology. 
The labs also conduct a broad range of research and development 
activities for DOD and the Department of Energy (DOE), as well 
as for a variety of other Federal Government agencies.
    The national laboratories are responsible for providing 
technical management of the nuclear weapons stockpile. In order 
to ensure that the stockpile remains safe, secure, and reliable 
in the future, the laboratories must fully understand the 
status of the thousands of parts and components in nuclear 
weapons and recommend how these parts and components should be 
maintained.
    The LEP was established to maintain the nuclear stockpile. 
Under the LEP, there are three options to deal with maintaining 
the weapons. Nuclear components can be replaced with rebuilt 
parts similar to those being replaced; this is called 
refurbishment. Nuclear components can be replaced with parts 
from other weapons; this is called reuse. Or nuclear components 
can be replaced with newly designed nuclear components, and 
this is called replacement.
    We will talk more today about these three Rs: 
refurbishment, reuse, or replacement. Today we'll also explore 
how the labs go about understanding the status and reliability 
of the nuclear weapons and making technical recommendations to 
sustain them.
    Beginning in the early 1990s, DOE has made significant 
investments in experimental tools and facilities and led the 
world in developing computational capability in order to 
sustain nuclear weapons without underground nuclear testing. 
This 18-year experience has provided the laboratories with the 
technical knowledge to be able to have confidence with the 
right support from the administration and Congress to maintain 
the nuclear stockpile in a safe, secure, and reliable status 
for the foreseeable future.
    Under the New START treaty, the number of deployed nuclear 
weapons will be reduced, which will also result in a smaller 
overall stockpile. The ability to confidently maintain a 
smaller stockpile is an important underpinning of the New 
START. With the increased funding in the fiscal year 2011 
budget request and long-term support for the labs, maintaining 
the stockpile should be achievable.
    I look forward to discussing with our witnesses the 
challenges associated with maintaining a nuclear stockpile that 
is safe, secure, and reliable and what is needed, in their 
judgment, to ensure the Nuclear Weapons LEP is a success.
    Now, we're going to begin this hearing in open session and 
then we will move to a closed session in room SVC-217 of the 
Capitol Visitor Center. I understand that there's a vote at 11 
o'clock, so it's perhaps possible that we can complete the open 
session by 11 o'clock or shortly thereafter. If not, we will 
come back here to complete it.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and I thank our 
distinguished witnesses for joining us today and the 
outstanding work that they do.
    The purpose of this hearing, as the chairman mentioned, is 
to discuss the New START treaty and evaluate the current and 
long-term ability of the national nuclear security laboratories 
to sustain the nuclear weapons stockpile. Given the many years 
of neglect, the weapons complex is in dire need of investment 
in both its intellectual and physical infrastructure. This 
investment is critical and long overdue, and without it further 
reductions to the stockpile could significantly undermine the 
effectiveness of our strategic deterrent.
    Our strategic posture, how we design, manufacture, field, 
and evaluate the nuclear arsenal, becomes increasingly 
important as we reduce the size of our stockpile. If 
ratification of the New START treaty is to serve rather than 
undermine our national security, we need adequate resources and 
a consistent long-term commitment to modernize the weapons 
complex, address its crumbling infrastructure, and stem its 
impending brain drain.
    At the request of Congress, the administration provided an 
$80 billion, 10-year plan for modernizing the nuclear weapons 
complex. However, the plan raises questions as to its adequacy 
for meeting our full recapitalization and missile modernization 
needs. Of the administration's commitment to provide $80 
billion over the next 10 years, more than $70 billion of it 
represents funding needed simply to sustain the nuclear weapons 
complex at today's capability.
    Assuming that out-year budgets will continue to support 
full funding of the 10-year modernization plan, about $1 
billion per year is allocated for modernization needs, hardly 
what many would consider a meaningful or robust reinvestment. I 
understand that prior to the release of the fiscal year 2011 
budget the national lab directors reportedly requested a 
significantly greater investment than what the administration 
ultimately proposed.
    I look forward to hearing from our witnesses why they felt 
more was needed, if they perceive potential funding shortfalls, 
and how they believe the forthcoming budget request will 
address, among other issues, our critical physical and 
intellectual infrastructure needs.
    During this committee's hearing on the Nuclear Posture 
Review (NPR), concerns were raised about the administration's 
decision to discourage LEPs involving the replacement of 
warheads. Counter to the recommendations of the bipartisan 
Perry-Schlesinger Strategic Posture Commission, the NPR seems 
to undermine a pragmatic approach to the life extension of our 
weapons, while threatening our ability to recruit the best and 
brightest next generation of talent.
    All modernization options that are achievable without 
testing or the establishment of a new military characteristic--
including replacement, which in some cases may be the best 
option, should be encouraged and pursued. As General Kevin 
Chilton, Commander of U.S. Strategic Command (STRATCOM), told 
the House Armed Services Committee in March: ``We should not 
constrain our engineers and scientists in developing options on 
what it will take to achieve the objectives of the stockpile 
management program, and let them bring forward their best 
recommendations for both the President and Congress to assess 
as to what is the best way forward.''
    I'd be very interested to hear from our lab directors 
whether a policy that encourages refurbishment and reuse over 
replacement could be detrimental to our ability to provide the 
safest, most secure, and most reliable deterrent.
    I've been a supporter of previous bipartisan efforts to 
reduce our nuclear weapons in step with the Russian Government. 
Many of us have concerns about the New START treaty's methods 
of verification, its constraints on ballistic missile defense, 
and the accompanying plan for modernization of our nuclear 
stockpile. It's my hope that over the course of our hearings 
and through further dialogue and negotiation with the 
administration, Congress will receive both the assurances and 
the funding commitment to address these concerns.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Dr. Schwitters, we're going to begin with you.

  STATEMENT OF HON. ROY F. SCHWITTERS, Ph.D., CHAIRMAN, JASON 
DEFENSE ADVISORY GROUP, AND S.W. RICHARDSON FOUNDATION REGENTAL 
      PROFESSOR OF PHYSICS, UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Schwitters. Thank you, Mr. Chairman and Senator McCain. 
I very much appreciate this opportunity to report to you on the 
2009 JASON review of the LEP. I've prepared remarks, which I've 
presented to the committee. I'll try to summarize those briefly 
here.
    The impetus for our study was a request from the House 
Subcommittee on Strategic Forces to the NNSA administrator for 
a technical review of LEP strategies for maintaining the 
nuclear deterrent analogous to the 2007 study on the Reliable 
Replacement Warhead (RRW) program which we performed for NNSA.
    Chairman Levin. Could you tell us what--I think we know 
what your acronyms mean, but--
    Dr. Schwitters. Yes, sir.
    Chairman Levin.--``LEP'' is the Life Extension Program.
    Dr. Schwitters. ``LEP'' is the Life Extension Program, and 
your introductory remarks are a very good summary of the 
detailed work that goes into that program.
    Chairman Levin. That last acronym that you used?
    Dr. Schwitters. The last acronym is ``RRW'' and that 
indicated Reliable Replacement Warhead, which was another 
important concept that was considered for securing the 
stockpile.
    Chairman Levin. Thank you.
    Dr. Schwitters. With respect to RRW, a concern has always 
been, of course, the maintenance of an aging stockpile, no 
question about that. That's where we come in and work with the 
labs to understand the technical details of this.
    An important question that was brought to us immediately in 
last year's study of LEPs was the question of the build-up of 
aging effects and how they affect the security and reliability 
of the stockpile. The first finding in the study was that there 
is no evidence that accumulation of changes incurred from aging 
and life extension activities have increased risk to 
certification of today's deployed nuclear warheads. We can go 
into detail on the meaning of that.
    The second finding is that the lifetimes of today's nuclear 
warheads could be extended for decades with no anticipated loss 
in confidence by using approaches similar to those employed in 
LEPs to date. Now, this is an important point and I want to 
explain the basis for it. The reason that we find confidence in 
the ability to extend the lifetimes of the current stockpile is 
based on the tremendous investment that the country has made in 
science-based stockpile stewardship since the end of the Cold 
War.
    When we say methods similar to what has been done in the 
past, we're talking about the science, the new tools, the new 
computing capabilities, the experimental facilities, and the 
detailed work by the folks in the laboratories that have given 
us the present confidence we have. This is an important 
investment, and I think the message, if you will, the lesson 
that we've seen in the LEP, life extensions, to date is the 
fact that the system--the full power of these people and 
tools--has learned a lot about the current stockpile that we 
didn't know entirely before and are able to apply it in 
excellent ways to provide the stockpile that we need.
    Our study followed on a series of studies for the past 
several years on technical aspects of the nuclear weapons 
program. I want to just point out that JASON, of course, relies 
on the laboratories for information. We probe their people, 
look at the experiments, try to consider the results from a 
technical point of view.
    I want to acknowledge, first of all, that our group finds 
the work to be excellent in quality and we have had total 
cooperation as we explore these details. Their folks come down 
to our briefing sessions and get quite an onslaught of 
questions, and we just assure them that we treat ourselves just 
as tough as we treated them in this process. So it's really, 
for me personally, an exciting and important give-and-take of 
the highest scientific caliber.
    Now, you mentioned, Mr. Chairman, in your opening remarks 
the three Rs. We looked in detail at, again, the technical 
differences and whether special issues come up depending on 
whether you're refurbishing a system, replacing systems, or 
reusing systems in different ways in the stockpile. I think the 
lesson we found is that, while this terminology is useful, that 
in fact the history of LEPs to date is such that good, sensible 
applications of all three Rs go into the LEPs that have already 
successfully been completed.
    For example, the ongoing LEP on a system called the W76 is 
mainly of the refurbishment type. It includes, in my view and 
the view of our group, very sensible cases where some 
components have been rebuilt and replaced with new 
technologies. So we've seen the ability of the enterprise to 
understand issues that come up in an aging stockpile and to 
manage surprises in the system that you inevitably find in 
complex technical systems like these. The LEPs performed to 
date have been excellent, but don't really strictly map onto 
one of three Rs.
    The key in our view for the technical validation of these 
ideas, however, is strongly dependent on the process--which is 
going on--of reviewing any proposed changes, be they 
refurbishment, the reuse, or the replacement, against a very 
strict set of technical guidelines relating: (1) to the 
original nuclear underground test database; (2) and this is so 
important--to our better and new understanding of how these 
systems work; and (3) to a host of non-nuclear experiments 
which can be carried out to greater or lesser degrees depending 
on the particular systems.
    In our study, rather than sticking with the sort of 
generalities of the three Rs, we went in detail, case-by-case, 
of the systems that have been examined and those soon to go 
into LEP to reach our conclusions.
    Let me emphasize one technical point in this that I'd like 
to make, and then I'll tell you a little bit about our 
recommendations. In making stockpile assessments, it's always 
important to compare the estimated value of a performance 
margin with the corresponding uncertainty. In a system as 
complicated as a nuclear weapon there are several margins that 
matter a lot. However, it's important to recognize that margin 
by itself is not all that you need to know. This is the great 
advance of the science-based stockpile stewardship: that we now 
have understanding of the uncertainties in the estimation of 
those performance margins. That's new. That is good news, and 
at least now, as the program goes forward, and certainly as 
JASON examines these systems and their changes, we emphasize 
comparing margin always to uncertainty.
    Suppose you start to design a new system, and go down a 
path quite a ways toward implementation. If the uncertainty in 
performance grows faster than the margin that you gain, one has 
to reevaluate the design. This is a very important detail as 
you get into the nitty-gritty on these systems.
    Let me just close with a brief comment on our first two 
recommendations. The first is: determine the full potential of 
refurbishment, as exemplified by the LEPs executed to date. 
This recommendation is possible largely because of the 
investment and the knowledge we have of those systems.
    The second and related recommendation is to quantify the 
potential benefits and challenges to life extension strategies 
that may require reuse and replacement to prepare for the 
possibility of future requirements, as for example reduced 
yield or enhanced surety systems. Our proposed strategy we 
believe is, first of all, not a refurbishment-only strategy; it 
is a prudent strategy where we try to leverage the knowledge 
gained in these complex systems against the changing needs of 
the stockpile. That was the basis for those recommendations.
    I think with that I should stop and I'd be more than 
pleased to answer your questions. Thank you.
    [The prepared statement of Dr. Schwitters follows:]
                Prepared Statement by Dr. Roy Schwitters
    Mr. Chairman and members of the committee:
    I appreciate this opportunity to discuss with you the findings and 
recommendations of the 2009 JASON report on the NNSA Lifetime Extension 
Program (LEP). The impetus for our study was a request from the House 
Subcommittee on Strategic Forces to the NNSA Administrator for a 
technical review of LEP strategies for maintaining the U.S. nuclear 
deterrent ``analogous to'' the 2007 JASON review of the Reliable 
Replacement Warhead (RRW) program.
    In brief, our study found (and I quote): ``no evidence that 
accumulation of changes incurred from aging and LEPs have increased 
risk to certification of today's deployed nuclear warheads'' and that 
``lifetimes of today's nuclear warheads could be extended for decades, 
with no anticipated loss in confidence, by using approaches similar to 
those employed in LEPs to date.''
    Our main conclusion that the aging U.S. nuclear weapons stockpile 
can be maintained through LEPs without explosive nuclear testing 
fundamentally depends on the knowledge and experience gained from our 
Nation's substantial post-Cold War investment in science-based 
stockpile stewardship, notably through advanced simulation tools, major 
new experimental facilities, the discipline of quantification of 
margins and uncertainties (QMU), and excellent work by scientists and 
engineers in the nuclear weapons program. But the future credibility of 
our nuclear deterrent faces technical risks and challenges, which we 
address in the report.
    As mentioned, the LEP study followed on our review of the RRW, 
which was part of a series of JASON studies going back several years 
sponsored by NNSA that also included assessments of pit lifetimes, 
verification and validation of nuclear weapons simulation codes, and 
the physics of boost. In all of these studies, members of JASON were 
provided excellent cooperation and access to laboratory technical 
expertise on a continuing basis.
    NNSA specified its definitions of ``refurbishment,'' ``warhead 
component reuse,'' and ``warhead replacement'' in the study charge. We 
consider this terminology to be convenient shorthand for the type of 
LEP under consideration, but it is not indicative of the certification 
challenges facing life-extension of any particular weapon type--it 
implicitly assumes a clear distinction exists between the options, 
where, in fact, the reality is more complicated. For example, the 
currently ongoing W76-1 LEP mainly involves component refurbishment, 
but includes significant component reuse and replacement.
    In any specific LEP, it is critical to assess each modification to 
the warhead on the basis of its effect on our confidence to certify the 
modified weapon for deployment without benefit of underground explosive 
tests in accord with U.S. national policy. The benchmarks for assessing 
proposed modifications are:

        <bullet> Existence of data from previous underground tests 
        (UGT) or non-nuclear performance trials, which can be compared 
        to predicted performance characteristics of the modified 
        system. We used these criteria to assess certification 
        challenges of past ongoing and planned LEPs on a case-by-case 
        basis for all current stockpile systems,
        <bullet> Scientific understanding of relevant phenomena, which 
        provides guidance for comparing predictions with experiment and 
        for estimating uncertainties,
        <bullet> Results of non-nuclear experiments, which assist in 
        validating nuclear simulations, improving scientific 
        understanding, and qualifying non-nuclear systems.

    We used these criteria to assess certification challenges of past, 
ongoing, and planned LEPs on a case-by-case basis for all current 
stockpile systems.
    Considerable attention was given to assessing risk that might be 
associated with ``accumulation of changes'' during the lifetime of a 
warhead. We identify four types of changes that can take place 
following the underground tests of a currently stockpiled weapon: (1) 
component aging, (2) differences between tested devices and stockpile 
warheads, including the differences introduced at the time of 
manufacture and differences introduced when LEPs (and ALTs) were 
performed, (3) variations among production units, and (4) changes in 
understanding of actual performance characteristics compared to 
original design expectations. The different categories of changes call 
for different responses.
    In making stockpile assessments, it is important to compare the 
estimated value of the performance margin (M) to its associated 
uncertainty (U) through the ratio M/U; short of a predictive theory of 
weapons performance, a particular value of M without reference to U is 
not meaningful. Indeed, comparing M to U is the essence of what is 
meant by QMU and forms the basis of our (understated) finding: 
Quantification of Margins and Uncertainties (QMU) provides a suitable 
framework for assessment and certification. Producing new weapons 
systems with increased margin is a possible mitigation strategy should 
M/U fall below levels considered adequate as long as the corresponding 
uncertainty doesn't grow in equal or greater proportion. These 
considerations--documented in our report--support our first two 
findings I stated at the outset.
    Our first two recommendations are:

        <bullet> Determine the full potential of refurbishment, as 
        exemplified by LEPs executed to date, for maintaining or 
        improving the legacy stockpile.
        <bullet> Quantify potential benefits and challenges of LEP 
        strategies that may require reuse and replacement, to prepare 
        for the possibility of future requirements such as reduced 
        yield or enhanced surety.

    This proposed LEP strategy seeks to leverage to the extent possible 
the investments already made in the program, especially in the 
knowledge of and experience with certifying weapons already in the 
stockpile.
    There is broad agreement across the nuclear weapons community, 
JASON, and various review bodies that stockpile surveillance and 
retention/renewal of key science, technology, engineering, and 
production facilities and manpower are areas of critical importance to 
stockpile stewardship needing attention now. Secretary Chu testified to 
this committee on June 17 that ``the New START treaty contains no 
limitations that would constrain our warhead life extension program 
options, or the work to assess and correct any potential future warhead 
issue.'' This commitment to future science-based stockpile stewardship 
is critical to maintaining confidence in our nuclear deterrent.
    I would like to comment on reactions to our LEP report and its 
executive summary, which was released publicly by NNSA in November 
2009. The classified report details our assessments of the 
certification challenges associated with LEP strategies for all the 
systems in the enduring stockpile; the executive summary provides 
verbatim the complete list of findings and recommendations contained in 
the classified report. As to comments made by the laboratory directors 
in letters sent to Ranking Member Turner of the House Subcommittee on 
Strategic Forces earlier this year, I hope I have made clear that we do 
not propose a refurbishment-only strategy for future LEPs.
    Regarding Director Anastasio's suggested strategy of ``preemptively 
increasing margins,'' we offer two cautionary observations: (1) many 
past stockpile issues would not be addressed by additional margin, and 
(2) uncertainty is just as important as margin in establishing 
confidence. Director Miller's letter raises the concern over additional 
risk from ``accumulation over time of small changes'' for which JASON 
found no objective evidence, after careful study of the details. We 
note that: (1) changes induced from component aging can be erased by a 
LEP, and (2) changes introduced by LEPs are carefully chosen and 
assessed--they are not random--so that each LEP to date has produced a 
warhead with higher confidence factors than the original. Former 
director Hunter correctly points out that the JASON study focused on 
certification of nuclear components for which full performance testing 
is not possible; we agree that non-nuclear components can be 
substituted with greater flexibility as long as they are thoroughly 
tested.
    We were concerned that some of the commentary on our work implied 
an inconsistency between the classified report and its unclassified 
executive summary. We discussed these concerns with Administrator 
D'Agostino in April. Subsequently, NNSA forwarded to its staff and 
laboratory leadership a statement that concludes:

          ``NNSA has reviewed the JASON LEP report including the 
        question of consistency between the unclassified executive 
        summary of the report and the full classified version of the 
        report JASON submitted to us. The two documents are consistent. 
        Both versions support NNSA's commitment to maintaining the 
        safety, security, and reliability of the Nation's nuclear 
        weapons stockpile under the terms of the (Nuclear Posture 
        Review).''

    JASON considers it a privilege to have the opportunity to examine 
important technical aspects of the Nation's nuclear weapons program. A 
healthy technical give-and-take between knowledgeable people is crucial 
to the future of science-based stockpile stewardship.
    I shall be pleased to answer any questions you have.
                         background information
    I am a professor of physics at The University of Texas at Austin 
and a member of the JASON study group. I have participated in all the 
recent JASON studies related to stockpile stewardship.
    JASON comprises mainly university researchers--scientists and 
engineers--who conduct studies on technical issues related to national 
security for agencies of the U.S. Government. Currently, I chair the 
JASON steering committee and, as such, am the public spokesman for 
JASON. The steering committee is the executive body of JASON; among 
other functions, it is responsible for selecting study leaders and 
approving the terms-and-conditions for all studies.
    Professors Marvin Adams of Texas A&M University and Dan Meiron of 
Caltech led the 2009 LEP study and have briefed the classified report 
to congressional staff, NNSA staff, interagency officials, and weapons 
lab scientists and engineers. Three active nuclear weapons scientists 
from the labs joined us as expert consultants on the LEP study--they 
provided essential knowledge and insight, but JASON's findings and 
recommendations are, of course, solely our responsibility.

    Chairman Levin. Thank you very much, Dr. Schwitters. The 
Nation owes you and your colleagues at JASON a great debt of 
gratitude. You are really independent and distinguished and 
recognized for both of those characteristics. We're grateful to 
you all.
    Dr. Schwitters. Thank you very much.
    Chairman Levin. Let's continue now with Dr. Anastasio.

 STATEMENT OF HON. MICHAEL R. ANASTASIO, Ph.D., DIRECTOR, LOS 
                   ALAMOS NATIONAL LABORATORY

    Dr. Anastasio. Thank you, Chairman Levin and Ranking Member 
McCain and other members of the committee. I appreciate the 
opportunity to appear before you today. I'm Dr. Michael 
Anastasio. I'm the director of LANL, and it's a real honor to 
be here.
    I've devoted the bulk of my career to the nuclear weapons 
enterprise, since 2006 as director at LANL, but originally as a 
weapons designer at LLNL, before becoming director there in 
2002.
    In the President's April 2009 Prague speech and the 
recently released NPR, the administration has directly linked 
reductions in nuclear weapons to the maintenance of the nuclear 
arsenal, both supporting its overall goal to reduce the global 
nuclear danger.
    Secretary of Energy Steven Chu testified recently that as 
the stockpile decreases in size the role of science, 
technology, and engineering in deterrence will increase in 
importance. The reductions proposed in New START highlight the 
importance of the laboratories' mission and the need for a 
healthy and vibrant science, technology, and engineering base.
    There are three points I'd like to emphasize for you today, 
and you do have my written testimony that goes into more 
detail. First, the Stockpile Stewardship and Management Program 
(SSMP) created by Congress in the mid-1990s has had many 
successes that were by no means assured when we started that 
program. We've maintained a safe, secure, and effective 
stockpile for the Nation without resorting to nuclear testing. 
So far, we have retained the knowledge and critical skills of 
an outstanding scientific and engineering workforce. We've 
built many of the tools required for this task in the form of 
the world's fastest supercomputers and new experimental 
capabilities such as the Dual Axis Radiographic Hydro-Test, the 
National Ignition Facility, and the Microsystems and 
Engineering Sciences Application at our three laboratories.
    But we're not finished. Because of the science we have 
developed, and as Dr. Schwitters pointed out, we now know more 
about the nuclear weapons systems than we ever have. In 
particular, we've learned that our systems are aging and almost 
every one will require some form of life extension activity in 
the next 25 years. The available mitigation actions are 
reaching their limits and we have not challenged the full skill 
set of our workforce. Therefore, I think it's important that we 
go beyond the refurbishments that have been considered to date 
as we look to the future.
    The second point I'd like to make is that the Obama 
administration has put in place a new nuclear policy in its NPR 
and brought forward a fiscal year 2011 budget proposal that 
calls for significant increase in weapons activity spending. 
The NPR calls for a case-by-case analysis of the full range of 
life extension approaches, refurbishment, reuse, and 
replacement. It also expresses a strong preference for 
refurbishment or reuse in a decision to proceed to engineering 
development.
    I understand the sensitivity of this issue and we heard 
this in some of the opening comments. But I do not feel overly 
constrained by the language in the NPR. Rather, I believe that 
it provides the necessary flexibility to manage the stockpile 
with acceptable levels of risk. It is always my obligation to 
ensure that the best technical recommendations to meet 
requirements are brought forward for your considerations, 
regardless of the statements in the NPR.
    The fiscal year 2011 budget request, which calls for a $624 
million increase, is essential. This is a positive step and a 
show of commitment that helps stabilize the weapons program. It 
also puts necessary new funds towards starting some of the 
needed hands-on work for the stockpile and repairing the 
decaying infrastructure of the complex.
    My third and final point is that, even with these positive 
actions, I am concerned. This effort will require sustained 
focus by multiple administrations and multiple Congresses for 
several decades. I fear that program expectations may already 
be out of line with the fiscal realities faced by the country.
    The nuclear infrastructure needs and the stockpile needs 
have the potential to unbalance the rest of the program, 
squeezing out the science that is the basis for stockpile 
stewardship. In addition, we must balance the need to hire the 
future national security workforce with looming pension 
shortfalls of nearly $200 million in fiscal year 2012 at LANL.
    So in conclusion, I'm cautiously optimistic about the 
future of the nuclear weapons program, that we can carry out 
our responsibilities under New START with adequate levels of 
risk. But we need help, and I urge Congress to work with the 
administration to form a national consensus on nuclear policy 
and to support the fiscal year 2011 budget request as a 
necessary first step forward. I would welcome a dialogue on how 
to best sustain focus on these issues well into the future.
    Thank you, and of course I'd be happy to answer any 
questions.
    [The prepared statement of Dr. Anastasio follows:]
             Prepared Statement by Dr. Michael R. Anastasio
    Chairman Levin, Ranking Member McCain, and members of the 
committee, thank you for the opportunity to appear before you today to 
respond to the committee's questions on the New START treaty and the 
ability of the national laboratories to maintain the safety, security, 
and effectiveness of the stockpile into the future. I am Dr. Michael R. 
Anastasio, the Director of the Los Alamos National Laboratory (LANL), 
and it is an honor to appear before you today to present my views.
    In President Obama's April 2009 Prague speech and in the recently 
released Nuclear Posture Review (NPR), this administration has 
articulated its goal to reduce the global nuclear danger. In both the 
speech and the policy document, the administration has directly linked 
reductions in nuclear weapons to the maintenance of the nuclear 
arsenal. This then is a propitious time to discuss what is necessary to 
maintain the stockpile into the future as the Senate considers 
ratification of the New START treaty.
    From a Laboratory standpoint, it is important to understand that 
New START will reduce the number of delivery vehicles and warheads, but 
it will not alter the Nuclear Triad. Secretary of Energy Steven Chu 
testified before the Senate Armed Services Committee on June 17, 2010, 
that ``As the stockpile decreases in size, the role of science, 
technology and engineering in deterrence will increase in importance.'' 
This means that the United States will have to devote appropriate 
attention and resources to protecting the physical and intellectual 
science, technology and engineering (ST&E) infrastructure that 
underpins the stockpile.
    Los Alamos and the other National Security Laboratories also have 
historically played an important role in arms control, providing 
technical support to negotiators, to those who implement treaties, and 
to those who monitor the treaties and assess compliance. While I will 
not discuss this further, we continue to bring the innovative technical 
capabilities of the Laboratory to these challenges.
    I do not see New START fundamentally changing the role of the 
Laboratory. What New START does do, however, is emphasize the 
importance of the Laboratories' mission and the need for a healthy and 
vibrant ST&E base to be able to continue to assure the stockpile into 
the future. These issues will be the focus of my remarks.
                         stockpile stewardship
Stockpile Stewardship Successes
    The United States and its allies continue to depend on a nuclear 
deterrent as part of the overall security posture. The manner in which 
the Nation executes this mission has changed dramatically over the last 
several decades. In 1989, the United States ended the production of new 
nuclear weapons; 3 years later, the United States adopted a moratorium 
on nuclear weapons testing that remains in effect to this day. In 
response to these new circumstances, the National Defense Authorization 
Act for Fiscal Year 1994 charged the Secretary of Energy to establish a 
Stockpile Stewardship Program (SSP) ``to ensure the preservation of the 
core intellectual and technical competencies of the United States in 
nuclear weapons.'' To meet this challenge the Nation has invested 
significant resources in the advanced scientific, experimental, 
engineering, and computational capabilities of the national 
laboratories. These capabilities are the basis for the Laboratories to 
assess the overall safety, security, and effectiveness of the stockpile 
as well as to execute the Stockpile Life Extension Program (LEP), which 
I will describe in more detail below.
    It is primarily through the SSP that the Laboratory provides 
technical support for U.S. nuclear forces, posture and policy. Our 
approach involves the continual assessment of the stockpile through 
surveillance enabled by a more fundamental scientific understanding. 
This has required us to build upon past nuclear test experience with 
the development of more advanced experimental and simulation tools and 
the expertise of the scientists, engineers, and technicians at our 
laboratories and production plants.
    Our surveillance results show ever-increasing effects from aging. 
These results are assessed with an extensive range of non-nuclear 
testing and vastly improved simulation capability. Ultimately, expert 
judgment and rigorous inter-laboratory peer review assure that critical 
conclusions are drawn from the best available data, appropriate high-
resolution simulations and a suite of evolving experimental 
capabilities. Sound science is the core of our confidence.
    The SSP at the Laboratories has had many successes to date; these 
successes were by no means assured when the Program began in 1995 as an 
ambitious effort to sustain the nuclear weapons stockpile while 
minimizing the need for nuclear testing. Examples of these successes 
include:
    Annual Assessment
    I am responsible for an assessment, based on a rigorous technical 
process, of all weapons in the stockpile for which the Laboratory is 
responsible. This ``annual assessment'' letter is provided to the 
Secretaries of Defense and Energy, as well as the Chair of the Nuclear 
Weapons Council, and then is forwarded to the President. I have 
personally signed eight assessment letters during my tenure at both 
Lawrence Livermore and now at Los Alamos and have had direct 
involvement in all 15 cycles since the inception of the program in 
1996. In many regards, this letter and its detailed set of backup 
documents is the annual summation of all that we do in Stockpile 
Stewardship.
    Pit manufacturing
    In 1989, the United States halted plutonium pit manufacturing at 
the Rocky Flats plant in Colorado, leaving the United States as the 
only nuclear weapons state without the ability to manufacture the core 
component of nuclear weapons. Using our science and technology to 
qualify the new build processes, Los Alamos restored this essential 
capability in 2007 and has nearly completed the build of pits required 
for the W-88, a central component of the sea-based deterrent.
    Dual Axis Radiographic Hydrodynamic Test
    The Dual Axis Radiographic Hydrodynamic Test (DARHT) facility is 
now fully functional and allows our experimental teams to obtain three-
dimensional, high-resolution, time-sequenced images taken within 
billionths of a second at specifically selected times within an 
implosion of a mock nuclear weapons assembly. Last December, the first 
dual-axis experiment was successfully carried out at DARHT. Data from 
the experiment will allow Los Alamos to close a Significant Finding 
Investigation (SFI) on a stockpile system. DARHT data is also critical 
to the W76 LEP effort.
    Supercomputing
    In partnership with IBM, Los Alamos built and deployed the world's 
first petascale (million-billion calculations per second) 
supercomputer--Road Runner. After an initial series of unclassified 
science runs to assure machine performance, Road Runner is now 
dedicated to classified weapons work. Later this summer, Los Alamos in 
partnership with Sandia, will take delivery of out next supercomputer--
Cielo--another petascale machine. The breadth and quality of 
experimental data being obtained has allowed Los Alamos to validate the 
significant progress on integrated three dimensional software tools 
within the Advanced Simulation and Computing campaign.
    Los Alamos Neutron Science Center
    The Los Alamos Neutron Science Center (LANSCE) facility, an 800 MeV 
proton accelerator, makes a number of important contributions to our 
understanding of weapons performance. Proton radiography (pRad) at 
LANSCE allows us to make time-resolved measurements of dynamic events 
of weapon components, such as high-explosive detonation and burn. Data 
from pRad informs the W76 LEP and B61 work. The LANSCE protons are also 
used to create spallation neutrons that allow the imaging of weapons 
components and are used to understand the basic nuclear physics. The 
Weapons Neutron Research station at LANSCE provides invaluable new 
radiochemical data used to refine the nuclear yield determinations, 
thereby allowing LANL staff to glean additional information from 
archived nuclear test data. LANSCE is the only facility in the country 
where these types of classified experiments that involve special 
nuclear material can currently be conducted.
    Plutonium Aging Physics
    LANL conducted years of detailed experiments that examined the 
physics of how plutonium ages. This assessment, paired with work 
conducted at Lawrence Livermore, enabled the National Nuclear Security 
Administration (NNSA) to better understand the lifetime of plutonium 
components and its impacts upon nuclear weapons performance. This work 
allowed for better estimates of the sizing of production capabilities 
and of needed resources.
Maintaining the Stockpile through Life Extension Programs
    As we learn about our strategic systems through Stockpile 
Stewardship, we then work with the Department of Defense (DOD) and 
Department of Energy (DOE)/NNSA to determine appropriate steps for 
extending the lives of these systems for an additional 20 to 30 years 
beyond their original lifetimes through LEPs. To date, the LEP focus 
has been to effectively refurbish them so they are ``just like'' they 
were originally designed, to meet the requirements of the Cold War 
(high yield to weight ratios). LEP activities include: research, 
development, and production work required to ensure that weapon systems 
continue to meet national security requirements.
    The Nation has successfully completed LEPs for the W87 ICBM warhead 
and the B61-7/11 gravity bomb. The W76 LEP is well underway and is 
contributing significantly to the long-term viability of the Nation's 
sea-based deterrent force. Major components refurbished as part of the 
LEP include: the nuclear explosive package; the arming, firing, and 
fuzing system; and the gas transfer system. This LEP is expected to 
extend the life of the W76 for an additional 30 years without reliance 
on underground nuclear testing. LANL played a major role in this 
effort, which required reconstitution of specialized material 
production after several decades. The First Production Unit (FPU) for 
the W76 LEP was completed in fiscal year 2008.
    With the bulk of the Laboratory's efforts on the W76 LEP complete, 
Los Alamos will shift its focus to the the B61 LEP, consistent with the 
NPR. Major components that will be refurbished as part of the LEP 
include: new detonator cable assembly, main charge, foams and polymers, 
and a new gas transfer system. This LEP also provides the opportunity 
to install enhanced, intrinsic safety and security features by 
modifying components in existing designs to meet today's dynamic 
security environment. Los Alamos expects to support an FPU in 2017 
assuming timely Congressional approval of the funding needed to carry 
out the program.
    LEP requirements derive from the joint DOD-DOE Nuclear Weapons 
Council (NWC). Each nuclear weapon system they identify and Congress 
funds is studied to develop options that meet the requirements 
established by the NWC. Per the guidance in the NPR and in the 
administration's Stockpile Stewardship and Management Report, it is my 
obligation to ensure that the teams at Los Alamos examine all the 
relevant technical options for an LEP, including refurbishment, reuse 
and replacement, and bring them forward to the NWC for a decision.
    These efforts will include modifying Cold War-era weapons for 
enhanced margin against failure, increased safety, and improved 
security and use control. For example, introducing insensitive high 
explosives into systems that currently use conventional high explosives 
can improve safety. Future LEP studies will consider the possibility of 
adapting the resulting warhead to multiple platforms in order to reduce 
the number of warhead types. In all LEP studies, the Laboratories will 
rely on fundamental and applied ST&E to improve its understanding of 
nuclear weapon behavior and to assure the safety, security, and 
effectiveness of our nuclear deterrent supported by a reduced and more 
sustainable, efficient and appropriately-sized nuclear security 
infrastructure.
Leveraging our Science for National Security
    The issues that have arisen in the last 18 years of assuring the 
reliability of nuclear weapons without conducting a nuclear test are 
complex science and engineering problems. Some of these problems were 
anticipated--like the aging of certain components in a warhead--and 
others were totally unexpected. The success of the Stewardship program 
has been the ability to draw on a deep and rich science base at the 
Laboratories. This science base is enriched by engaging on a broad 
range of scientific problems, many of which have a direct relevance to 
broader national security interests. A vibrant science, technology and 
engineering enterprise is essential to supporting the stewardship 
program, and at the same time it provides a powerful resource for 
issues such as nonproliferation, counterproliferation, 
counterterrorism, and intelligence assessment.
    There is a tendency when people hear about the role the NNSA 
Laboratories play in solving other national problems that these are 
simply nice ``spinoffs.'' These provide more than just positive 
benefits for the Nation; rather, this work outside of the weapons 
program is essential to the conduct of the core nuclear weapons 
mission. We have a vibrant scientific workforce at Los Alamos, 
including around 2,500 PhDs that are the core of our science base. The 
weapons program benefits directly when these scientists have the 
opportunity to extend their skills by working on challenging technical 
problems, like climate modeling, which then can validate and improve 
the methods in our 3-D weapons codes and solve challenges in the 
stockpile.
    The following are a handful of recent Laboratory scientific 
successes that leverage our weapons science capabilities for broader 
national security interests, and also feed directly back into the 
nuclear weapons program.
    Intelligence
    Our weapons program capabilities give us the ability to assess 
foreign weapons programs and to assist the intelligence community. 
There is much truth to the statement that ``it takes a nuclear weapons 
lab to find a nuclear weapons lab.''
    Nuclear forensics and attribution
    Los Alamos delivered a suite of models and databases for National 
Technical Nuclear Forensics applications, such as modeling debris 
signatures and other nuclear security applications. LANL's capabilities 
in this area are a direct outgrowth of the former nuclear weapons 
testing program where scientists had to study the detailed chemistry of 
soil samples to determine various characteristics of a detonation. Our 
experts in this area can not only help with current nuclear forensics, 
but they also support the weapons program by helping to re-interpret 
data from previous underground tests. This information is then used to 
validate our weapons codes.
    Plutonium Center of Excellence
    LANL's efforts in non-weapons plutonium work help ensure the 
country maintains a core human capital ability to work with this 
material. The same researchers and technicians who work on plutonium 
238 for use in deep-space missions for NASA also support the 
manufacture of plutonium pits for the stockpile.
    Detection Technology
    Much of the work at Los Alamos in the basic sciences arena has had 
a significant impact on detecting threats from emerging phenomena. For 
example, building x-ray and gamma ray detectors on satellites has 
promoted the discovery of fundamental cosmological phenomena like the 
collapse of black holes. In turn, these detectors have been refined and 
are part of our front line defense in monitoring other nations' weapons 
programs.
    Advanced simulation and energy/climate research
    The ability to simulate complex systems--like a nuclear explosion 
with thousands of parts exploding in a fraction of a second--is 
something that has also driven national security science forward. LANL 
has developed two of the four modules (sea ice and oceans) used in 
international climate models. Many of the lessons learned from 
observing a complex climate system can be applied to our weapons 
models. In particular, we have discovered heretofore unknown 
phenomena--in terms of regional climate impacts and within weapons 
systems--as we have gone to finer and finer levels of resolution in our 
simulations. On the energy front, LANL is also a partner in the 
recently announced DOE Office of Nuclear Energy Hub focused on nuclear 
power. LANL will play a key role in helping to build a ``virtual 
reactor.''
    Gulf Oil Spill
    Scientists from Los Alamos and other laboratories have played a 
significant role in the Federal Government's efforts to assess and stem 
the oil leaking in the Gulf of Mexico. Several efforts are continuing 
as the crisis continues. One particular area of emphasis is in 
diagnostics of the well system. LANL designed and developed the first 
ever two-dimensional radiography system deployed in deep water (below a 
few hundred feet). The radiography leveraged numerous capabilities 
including machining, advanced image analysis, and modeling techniques.
Next Chapter of Stockpile Stewardship
    For the future, we need to build on the core scientific successes 
achieved through Stockpile Stewardship that have maintained the safety 
security and effectiveness of the stockpile for 18 years without 
nuclear testing. However, we are now at a crossroads as a nation. The 
next few years will determine our approach to the stockpile for decades 
to come. There is an opportunity right now for a national consensus to 
develop around nuclear policy that has been needed since the end of the 
Cold War. As I will discuss further below, I am encouraged by the 
significant strides this administration has made in issuing a new 
policy, in the form of the NPR, as well as by its fiscal year 2011 
budget request for the Department of Energy, which I believe is an 
important first step. With this as a basis, I hope that Congress and 
the administration can reach a bi-partisan national consensus.
    Even with such a consensus, my concern is that with all there is to 
be done, the level of interest and budget support that we have seen 
this year will need to be sustained by future administrations and 
future Congresses. As I have seen over my nearly 30-year career at the 
Laboratories, solutions and fixes in this arena cannot be accomplished 
quickly. This will require a sustained effort on the part of the Nation 
for decades to come.
                     new policy for nuclear weapons
    The administration's NPR, issued in April of this year, ``provides 
the roadmap for implementing President Obama's agenda for reducing 
nuclear risks . . . '' It focuses on five key objectives of nuclear 
weapons policies and posture, one of which is ``Sustaining a safe, 
secure, and effective nuclear arsenal''.
    The Directors of Livermore and Sandia joined me in issuing a tri-
lab statement about the NPR in April. We felt it was important to first 
outline the roles and responsibilities of the national laboratories in 
terms of providing the technical underpinnings to ensure the safety, 
security, and effectiveness of the nuclear deterrent. With regard to 
the NPR's overall framework, I repeat here what we said:

          ``We believe that the approach outlined in the NPR, which 
        excludes further nuclear testing and includes the consideration 
        of the full range of life extension options (refurbishment of 
        existing warheads, reuse of nuclear components from different 
        warheads and replacement of nuclear components based on 
        previously tested designs), provides the necessary technical 
        flexibility to manage the nuclear stockpile into the future 
        with an acceptable level of risk.
          We are reassured that a key component of the NPR is the 
        recognition of the importance of supporting a modern physical 
        infrastructure--comprised of the national security laboratories 
        and a complex of supporting facilities--and a highly capable 
        workforce with the specialized skills needed to sustain the 
        nuclear deterrent.''

    While the joint statement reflects the Laboratory Directors' 
collective views, I will elaborate on my own thinking on the NPR. It 
clearly emphasizes the three key elements of Stockpile Stewardship--
hands-on work on the stockpile; the science, technology and engineering 
base; and the infrastructure at the laboratories and plants. I agree 
with the NPR's view that these are the three critical elements of the 
nuclear weapons enterprise. It is essential that all of these elements 
be in balance and adequately funded to maintain a safe, secure, and 
effective stockpile. I will focus my remarks on each of these elements 
in turn.
Stockpile work
    The NPR is explicit about the weapons that need life-extension over 
the next 10 years: completion of the W76, proceeding on the full scope 
life extension of the B61, and study of the W78. I strongly agree with 
the NPR assertion of the need to increase the safety and security of 
our systems. The LEP process provides opportunities to do so, for 
example by switching all conventional high explosive (CHE) primaries 
with insensitive high explosive (IHE) primaries to increase safety 
margins and deploying certain intrinsic surety systems in the stockpile 
to better meet today's security challenges.
    The NPR's statements on needed LEPs align well with the assessments 
that the Laboratories have made in recent years. We have seen that in 
many cases, the uncertainties associated with the current issues 
identified through surveillance threaten to overwhelm the small 
performance margins that characterize many of the weapons in the 
current stockpile. Essentially, this uncertainty dictates that almost 
every weapon system in the current stockpile will require completion of 
some type of life extension activity in the next 25 years.
    The available mitigation actions for the results observed in 
surveillance, such as changes external to the nuclear package or 
relaxation of certain military requirements are reaching their limits. 
Consequently, as the Perry Commission observed, ``The Stockpile 
Stewardship Program and the Life Extension Program have been remarkably 
successful in refurbishing and modernizing the stockpile . . . but 
cannot be counted on for the indefinite future.'' We will need to take 
advantage of the flexibility articulated in the NPR to go beyond just 
refurbishment that has been considered to date and evaluate the full 
range of options (refurbishment, reuse, and replacement) to increase 
nuclear performance margins to mitigate the need for nuclear testing.
    The NPR states that in ``any decision to proceed to engineering 
development for warhead LEPs, the United States will give strong 
preference to options for refurbishment or reuse.'' The NPR also 
strongly endorses, and the NNSA Stockpile Stewardship and Management 
Plan reinforces, the importance that on a case-by-case basis, the full 
range of LEP approaches will be considered: refurbishment, reuse, and 
replacement. I recognize the sensitivity of this topic but am convinced 
that allowing the laboratories the flexibility to present policy makers 
with our best technical recommendations to meet requirements is 
critical to our role in the stockpile management process. This approach 
greatly reduces the possibility of having to conduct nuclear testing, 
while at the same time exercising our nuclear designers and engineers. 
I do not feel overly constrained by the language in the NPR; rather, I 
believe it provides the necessary flexibility to manage the stockpile 
with acceptable levels of risk.
    The starting point for all of this hands-on work, of course, is the 
stockpile surveillance program that pulls actual units from service and 
puts them through rigorous destructive and non-destructive testing. 
Through these efforts we are able to anticipate issues as well as learn 
when issues may require action, but I have been concerned for some time 
that we are not doing as much surveillance as we should be doing. The 
NPR states that investments are required in ``Strengthening the ST&E 
base needed for conducting weapon system LEPs, maturing advanced 
technologies to increase weapons surety, qualification of weapon 
components and certifying weapons without nuclear testing, and 
providing annual stockpile assessments through weapons surveillance 
[emphasis added].'' I agree with this assessment. Since our knowledge 
base begins with surveillance, it is essential that we sustain support 
in this area.
Science, Technology, and Engineering
    I strongly endorse the view of the NPR on strengthening the ST&E 
base; it is this base that provides the underpinning of confidence in 
the stockpile in the absence of nuclear testing. This expertise can 
only be maintained by continued scientific advances; it cannot be 
static. However, it has been allowed to erode in recent years, putting 
at risk our ability to make the necessary future advances in our 
capabilities. It is important to note that often years of technical 
work, for example in actinide sciences, are required ahead of time to 
enable the successful completion of today's requirements. Without 
investment today future confidence is at risk.
    In addition, it is essential that we acquire experimental data from 
non-nuclear experiments to provide the `ground truth' about stockpile 
issues. Today, we are beginning to see many of the investments of 
Stockpile Stewardship come to fruition--notably the Dual-Axis 
Radiographic Hydrodynamic Test at Los Alamos, the NIF at Livermore, and 
the MESA facility at Sandia--yet, we have inadequate resources to carry 
out the all key experiments at these facilities. Just as the Nation is 
positioned to reap the benefits of these investments, funding declines 
make it extremely difficult to maintain, use, or enhance these facility 
capabilities that are necessary to preserve our deterrent and to 
further other national security goals.
    Similar to the world of experiments, today we are faced with an 
equal computational challenge and opportunity. To maintain the 
scientific vitality, international competitiveness, and leadership 
needed to support the administration's nuclear posture, continued 
advancement to exascale class computation is necessary. Such a 
capability will position us to provide better support for the 
stockpile, particularly in the form of surety options, and to provide 
reliable support for intelligence analysis including emerging foreign 
threats in the broad area of nuclear security.
    Compounding that challenge of a healthy, vibrant ST&E base is the 
aging workforce at Los Alamos and elsewhere in the complex. At Los 
Alamos, the average age of career employees is now over 48, and 32 
percent of all career employees are expected to retire within the next 
5 years. Without an infusion of younger talent who can become 
recipients and beneficiaries in the transfer of knowledge from those 
with decades of experience, we will be at risk for loss of that 
knowledge.
Aging Infrastructure
    Much of the nuclear infrastructure needed by the United States 
resides in facilities that date back to the 1950s. While we take great 
efforts to ensure our employees are safe in these aging facilities and 
that the public is not put at risk, the challenges and costs to 
maintain their active status is mounting rapidly.
    The NPR and administration's fiscal year 2011 budget support the 
Uranium Processing Facility (UPF) in Tennessee and the Chemistry and 
Metallurgy Research Replacement (CMRR) Nuclear Facility in New Mexico. 
They represent the critical next step in shrinking the Nation's nuclear 
infrastructure footprint while allowing these vital operations to 
continue in the most safe and secure environments possible. I strongly 
endorse investments in these two facilities and believe without them 
the costs associated with maintaining the existing facilities will 
eventually overwhelm the weapons program budgets.
    The CMRR project at Los Alamos will replace the existing Chemistry 
and Metallurgy Research (CMR) facility, completed in 1952, that is at 
the end of its useful life. This facility houses the analytical 
chemistry, materials characterization, and actinide research and 
development activities that are required to support a wide spectrum of 
work at Los Alamos. The work in CMRR is critical to sustaining the 
Nation's nuclear deterrent, but it also is critical to nonproliferation 
efforts, development of power sources for U.S. space missions, training 
of IAEA inspectors and the work of nuclear forensics. We have been 
working closely with our industry partners to bring strong project 
management to this effort and to deliver this important project on cost 
and schedule. I am proud to report that on the first phase of this 
project, construction of the Radiological Laboratory Utility Office 
Building (RLUOB), we did just that: it was completed on time and budget 
last year. We are in the process of outfitting that facility and expect 
to occupy RLUOB in 2012. We continue to work closely with NNSA on the 
design of the next and final stage of the project, the Nuclear 
Facility. To successfully deliver this project, it will be important to 
have certainty in funding and consistency of requirements throughout 
the project.
    At the same time, there are many other essential facilities across 
the complex and at Los Alamos that cannot be neglected because of our 
necessary focus on the major nuclear facilities. Infrastructure 
considerations must include operation of current facilities and the 
consolidation of old, inefficient ones. For example, we are working to 
identify adequate funding to maintain and operate the LANSCE facility 
for material properties, carry out planned actinide research and renew 
an aging infrastructure where over 50 percent of the buildings are more 
than 40 years old.
    To reduce costs we have already eliminated a million square feet of 
antiquated laboratory and office space. Using funds from the American 
Recovery and Reinvestment Act we are in the process of decontaminating 
and demolishing the earliest plutonium and uranium facilities at the 
Laboratory.
                    fiscal year 2011 budget proposal
    In addition to the NPR, the administration has developed a fiscal 
year 2011 budget that moves us in the right direction. I view the 
NNSA's fiscal year 2011 budget request as a positive first step and I 
urge its approval by Congress. The $624 million increase to Weapons 
activities is primarily focused on addressing the crumbling 
infrastructure of the Complex - most notably the plutonium 
infrastructure at LANL and the uranium infrastructure at Y-12, as well 
as beginning to attend to the needs of an aging stockpile with 
increased funds for Life Extension Programs. These are welcome 
increases and will begin to address some of the concerns that the 
Strategic Posture Commission and the Laboratory Directors have raised 
in recent years.
    Restoring the scientific and physical infrastructure--all while 
managing pension and other challenges--will take time and sustained 
support by Congress. Sustaining strong science funding in the form of 
Science Campaigns and advanced computing, as well as the infrastructure 
account, known as Readiness in Technical Base and Facilities that 
underlies all of the work we do, is essential. This funding enables us 
to carry out the fullest of scientific research and development efforts 
necessary to meet our nuclear weapon mission and broader national 
security needs and to attract and retain the best and brightest 
scientists.
                               challenges
    The NPR provides the necessary policy framework, which I hope leads 
to a national consensus, and the fiscal year 2011 budget request 
provides the first step in the fiscal implementation of the roadmap to 
sustain the long-term safety, security, and effectiveness of the 
stockpile. It is important to recognize that to fully implement this 
roadmap requires investments that carry across multiple administrations 
and multiple Congresses. Today, I fear that there is already a gap 
emerging between expectations and fiscal realities. I fear that some 
may perceive that the fiscal year 2011 budget request meets all of the 
necessary budget commitments for the program; however, there are still 
significant financial uncertainties, for example, the design of the UPF 
and CMRR are not complete and the final costs remain uncertain.
    As I look to the future, I remain concerned that science will be 
squeezed when trying to compete with capital infrastructure investments 
and life extension program funding priorities. Having experienced three 
decades of Federal budgets and their impacts on the weapons program, it 
will be challenging to sustain the increases the administration has 
called for. Just as I am encouraged by the significant increase we see 
in fiscal year 2011, I am concerned that in the administration's 
section 1251 report, much of the planned funding increase for Weapons 
Activities do not come to fruition until the second half of the 10 year 
period.
    Another example of the fiscal challenges that I see on the horizon 
is related to pensions. Like many other organizations across the 
country, we at Los Alamos are facing a pension shortfall during the 
current fiscal year and it is expected to grow over the next 2 years.
    In fiscal year 2010, the Laboratory has worked closely with the 
NNSA to resolve a pension shortfall of $76 million. Part of the 
solution has been to require employees to make contributions; the 
Laboratory is increasing its fringe rates to cover costs and NNSA has 
provided assistance on the order of $46 million. Next year, the pension 
shortfall is expected to be $77 million, and in fiscal year 2012, the 
shortfall is expected to grow to about $200 million. NNSA is aware of 
this issue and we are working closely on possible options to address 
it. My chief concern is that if the Laboratory must shoulder the bulk 
of this increase, this will dramatically reduce the funds available for 
programmatic deliverables and cause significant disruption of the 
Laboratory workforce.
    As I noted earlier, it will be important that as a nation we can 
align expectations with the fiscal realities that we see. At the same 
time, it is essential that we balance investment across all three major 
elements of the program--hands-on stockpile activities, ST&E, and 
infrastructure. For example, without investment in ST&E today we put at 
risk timely execution of the program beyond the very near term. On the 
other hand, focus on near term stockpile LEPs without infrastructure 
investment limits the near term program scope and efficiency and puts 
at risk longer term timely execution. Stability of funding plans is 
also important so that the balance that is struck can actually be 
executed. One approach to maintain focus on these issues across 
multiple administrations and Congresses could be a set of 
``safeguards,'' that have been used in past arms control treaties.
                               conclusion
    Thank you again for the opportunity to appear before you to testify 
on this important subject. As I stated, I am very encouraged by the 
progress this administration has made both on the policy and the budget 
fronts. The NPR provides the policy framework with the technical 
flexibility to manage the stockpile with an acceptable level of risk 
and the fiscal year 2011 budget request is a positive step forward.
    I am cautiously optimistic that with Congress' support we--as a 
Nation--can recapture the bipartisan consensus that once existed about 
the Nation's strategic deterrent and the overall nuclear weapons 
complex. At the same time, I have concerns about sustaining the focus 
and an appropriate budget over the several decades for which it will be 
required. As a Laboratory, we are dedicated to ensuring the innovative 
science and engineering necessary to sustain our strategic deterrent 
and that can be applied to the many challenges the Nation now faces. 
Maintaining the necessary focus and resources of the administration and 
Congress is critical in order to achieve these national goals.
    I look forward to engaging further with the committee on this 
important topic and I welcome your questions.

    Chairman Levin. Thank you very much, Dr. Anastasio.
    Dr. Miller.

 STATEMENT OF HON. GEORGE H. MILLER, Ph.D., DIRECTOR, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Dr. Miller. Thank you, Chairman Levin and Ranking Member 
McCain and distinguished members of the committee, for your 
continuing support of the Nation's stockpile stewardship 
program. Like Dr. Anastasio, I have devoted much of my career 
to the nuclear weapons program. Several of the weapons that are 
currently in the U.S. arsenal I designed personally. So this is 
an issue about which I care deeply.
    There are three points that I'd like to emphasize today. 
Technically, we have an approach that can maintain the safety, 
security, and effectiveness of our arsenal without nuclear 
testing and without introducing new military capabilities. To 
meet those mission requirements and carry out the program of 
work will require sustaining the nuclear security enterprise 
for decades with a balanced investment in the stockpile itself, 
in refurbishing and maintaining the critical physical 
infrastructure, and in supporting the underpinning science, 
technology, and engineering. Above all, we together must 
nurture and sustain the outstanding stewards at our 
laboratories and production facilities.
    From a scientific and technical point of view, I have 
confidence that we can maintain a safe, secure, and effective 
deterrent through the stockpile stewardship program because of 
the successes that we have had to date and our ability to build 
on that success. We have greatly improved our simulation and 
experimental capabilities. These are unique national assets 
that allow us to understand details about the performance of 
weapons that went undiscovered in the era of nuclear testing.
    We have found and corrected issues in the stockpile and are 
continuously improving our abilities to assess weapons 
performance and certify the changes that are necessary in order 
to extend the life of the stockpile. We have successfully 
extended the life of some of the systems in the stockpile. We 
are providing hands-on experience to train the next generation 
of stockpile stewards.
    The President's 2011 budget request seeks increased funding 
to reverse the recent declining budget trends and create a 
sustainable stockpile stewardship enterprise. The Nation's 
deterrent requires this SSMP, which is adequately funded by 
successive administrations and Congress to provide the funding 
to meet the mission requirements.
    Today as we sit here, additional investments are needed in 
all three areas of the SSMP: in the science and technology that 
underpins our understanding, in the LEPs that are necessary to 
keep the systems themselves alive, and in the modernization of 
the facilities and infrastructure. I urge Congress to work with 
the administration to support this vital first step.
    The science and technology which underpins our confidence 
in the stockpile is of vital importance to understand the 
nature of the stockpile itself. We call this surveillance. We 
need, in my opinion, to step up the rate of surveillance and 
become more proficient at detecting issues early through the 
technologies that we have developed. We need to take full 
advantage of the two-laboratory system to provide assessments 
of the stockpile as it moves forward and ages. Much like 
something else that we're very familiar with, when we are 
diagnosed with a serious illness we frequently ask for the 
opinions of more than one doctor.
    We need to continue to pursue remarkable advances in our 
assessment tools and in using the experimental facilities and 
continuing to advance the simulation capability beyond what we 
currently have. We will need to undertake LEPs over the next 2 
decades to extend the life of the systems that are currently in 
the stockpile.
    These options will be based on previously tested nuclear 
designs and it's very important that we have the ability to 
consider all of the technical options, from refurbishment to 
component reuse to replacement, while carefully considering 
through this process the possibilities of improving the safety, 
security, manufacturability, maintainability of the stockpile, 
and carefully considering issues of cost and risk and our 
ability to meet the overall goals of the country.
    These LEPs also offer the opportunity to provide important 
resiliency to the stockpile as the size is reduced by having 
warheads that are easily adaptable from one system to another.
    Finally, we need to modernize our facilities. We need to 
replace the Cold War-era facilities, particularly for 
processing uranium and plutonium, and upgrade the physical 
infrastructure of the complex. This will require major 
increases in funding while sustaining the balance with the 
other parts of the program.
    Above all, we need to nurture and sustain the outstanding 
stewards at our laboratories and production facilities and help 
effectively mentor them so that we can create our future. Long-
term success is ultimately dependent upon the quality of this 
workforce. That workforce needs a program that is stable, 
that's technically engaging, and is of recognized importance to 
the Nation.
    While the President's budget for fiscal year 2011 is a good 
start, the 10-year plan calls for continued significant budget 
increases. These are needed in order to carry out the program 
of work that I outlined before. It is a major undertaking and 
one that requires our collective sustained attention and focus.
    Again, thank you very much for your continued support for 
this important program and for your continued interest in 
discussing these important issues. Thank you.
    [The prepared statement of Dr. Miller follows:]
               Prepared Statement by Dr. George H. Miller
                            opening remarks
    Mr. Chairman and members of the committee, thank you for the 
opportunity to provide a statement on the status and future prospects 
of the Department of Energy/National Nuclear Security Administration's 
(NNSA) Stockpile Stewardship Program to sustain the safety, security, 
and effectiveness of the Nation's nuclear stockpile. My name is George 
Miller and I am the Director of the Lawrence Livermore National 
Laboratory (LLNL).
    LLNL is one of NNSA's two nuclear design laboratories and a 
principal participant in the Stockpile Stewardship Program. National 
security depends greatly on the success of our stockpile stewardship 
efforts. I want to thank the committee for your interest in and 
continued support for these activities and your commitment to the 
program's success.
    In addition to stockpile stewardship, our Laboratory's nuclear 
security responsibilities include engaging in vital national programs 
to reduce the threats posed by nuclear proliferation and terrorism. The 
Laboratory also applies its multidisciplinary science and technology to 
provide solutions to a broader range of pressing national and global 
security challenges.
                              introduction
    From a scientific and technical viewpoint, I am confident that we 
can maintain a safe, secure, and effective nuclear deterrent through a 
science-based Stockpile Stewardship Program that is balanced, 
integrated, and sustained over time; this will require the support of 
successive administrations and Congress and sufficient funding to meet 
mission requirements. Stockpile stewardship is a cornerstone of the 
Nation's strategic deterrent for the future. As demonstrated by the 
program's achievements to date, I believe that the highly capable 
scientists and engineers at the NNSA national laboratories and 
production facilities will be able to address issues that arise in an 
aging, smaller nuclear stockpile by utilizing and further advancing our 
exceptional computational and experimental tools and employing the full 
range of life-extension program (LEP) options.
    My optimism is tempered by recent funding trends in--what to date--
has been a very successful Stockpile Stewardship Program. Continuing 
success in the program's scientific and technically challenging 
activities will require additional new investments in major facilities 
and particular attention to sustaining the skills of our workforce. 
Budget constraints to date have resulted in deferral of LEPs and slower 
warhead surveillance rates than is technically desired. These 
constraints have also delayed production schedules; postponed important 
deliverables in science, technology, and engineering; delayed 
resolution of identified stockpile issues; and hindered efforts to 
develop modern and efficient manufacturing processes. In addition, 
there are fewer highly skilled stockpile stewards supporting the 
program than were present as recently as 5 years ago. Our Laboratory 
now has 2,608 scientists and engineers--609 fewer than in May 2005. 
Concurrently, stewardship is becoming technically more challenging as 
weapons continue to age beyond their intended lifetimes. In my 2009 
Annual Stockpile Assessment letter to the Secretaries of Defense and 
Energy and the Chairman of the Nuclear Weapons Council, I expressed 
concerns about the impact that these trends will have on sustaining 
confidence in the stockpile.
    The fiscal year 2011 budget request seeks to reverse recent funding 
trends and reflects the need for increased investment to maintain 
sufficient capability to ensure the viability of the U.S. stockpile. 
The Nation's nuclear strategy--with or without the planned stockpile 
reductions--requires a Stockpile Stewardship Program that is balanced, 
integrated, and sustained over time. NNSA has provided to Congress its 
Stockpile Stewardship and Management Plan, which is funded in the 
fiscal year 2011 budget request with a 9.8 percent increase ($624 
million) compared to fiscal year 2010. This is a good start, but only a 
start. The increased level of investment must not only be sustained but 
grow over time to provide for construction of new facilities and 
support increased LEP activities.
    My testimony emphasizes several key points about a balanced, 
integrated, and sustained Stockpile Stewardship Program:

        <bullet> Accomplishments. Stockpile stewards have achieved many 
        outstanding successes since the program began. These 
        accomplishments give me confidence that the ``science based'' 
        approach being pursued is a workable path forward for 
        sustaining the safety, security, and effectiveness of the 
        Nation's nuclear deterrent.
        <bullet> A Sustainable Program. Stockpile stewardship is 
        scientifically and technically very demanding. It is a very 
        active, integrated program and to sustain it, its 
        interdependent facets must be adequately funded to progress in 
        a balanced manner.
        <bullet> The Budget. With the President's fiscal year 2011 
        budget, we can begin to reinvigorate the Stockpile Stewardship 
        Program. The requested additional funds will enable greater 
        progress on many fronts--from stockpile life-extension 
        activities, to recapitalizing the infrastructure, improving 
        assessment capabilities, and building the knowledge base 
        required to answer increasingly difficult questions about 
        weapon performance over its full life cycle.
        <bullet> Life-Extension Programs. Options for LEPs will be 
        based on previously tested nuclear designs. We will consider, 
        on a case-by-case basis, the full range of LEP options 
        (refurbishment, reuse, and replacement) to provide findings and 
        technical recommendations for engineering development 
        decisions.
        <bullet> The Workforce. The Stockpile Stewardship Program's 
        most valuable and irreplaceable assets are the unique 
        individuals who sustain it. Confidence in the stockpile 
        ultimately depends on confidence in the stockpile stewards at 
        the NNSA laboratories and production facilities. We must 
        attract top talent to the program and sustain over time 
        specialized technical skills and expertise, which provide the 
        basis for judgments about the stockpile and stewardship actions 
        taken, through mentoring and hands-on experience.
          science-based stockpile stewardship accomplishments
    The science-based Stockpile Stewardship Program was launched on the 
premise that by developing a much more thorough understanding of the 
underlying science and technology that governs nuclear weapons 
performance, the country could maintain confidence in the stockpile 
without requiring nuclear testing. The knowledge gained must be 
sufficiently detailed to assess with confidence the safety, security, 
and effectiveness of the stockpile. We must have the ability to deal 
with whatever issues arise using existing nuclear test data together 
with advanced computational and experimental tools. Very ambitious 
goals were set to expeditiously develop increasingly sophisticated 
tools and apply them to arising issues in an aging stockpile.
    We have made significant progress since the Stockpile Stewardship 
Program began. Use of the many tools and capabilities developed since 
the end of nuclear testing has greatly increased our understanding and 
knowledge of the stockpile. These tools and capabilities, together with 
the existing nuclear test database, have enabled the NNSA laboratories 
to annually assess and, as required, extend the life of the warheads in 
the U.S. stockpile. Some highlights--featuring work at LLNL--include:

High-Performance Computing
    At its onset, the Stockpile Stewardship Program set the extremely 
challenging goal--many thought unachievable--of improving scientific 
computing performance by a factor of a million over a decade. That goal 
was achieved with the delivery of the 100-trillion-operations-per-
second ASC Purple supercomputer to LLNL in 2005. The machine has served 
as a workhorse for all three NNSA laboratories, performing very 
demanding 3D weapons simulations. This highly successful partnership 
between NNSA and the high-performance computing industry continues with 
the 20,000-trillion-operations-per-second Sequoia machine, which is on 
track to become operational at LLNL in 2012.
High-Fidelity Weapons Physics Simulations
    Laboratory physicists and computer scientists stepped up to the 
challenge of developing weapons simulation codes that model the physics 
with far greater fidelity and run efficiently on computers with 
thousands of processors working in parallel. In 2002, LLNL scientists 
performed the first-ever complete 3D simulation of a nuclear weapon 
explosion--with a level of spatial resolution and degree of physics 
realism previously unobtainable. Supercomputers have also been used to 
gain valuable insights into the properties of materials at extreme 
conditions and details about the formation and growth of hydrodynamic 
instabilities. These improved capabilities have made possible 
expeditious development of LEP design options and their certification.
Vastly Improved Experimental Capabilities
    Thoroughly diagnosed non-nuclear tests are used to gather input 
data for weapons physics simulation models and validate their 
performance. Experiments at LLNL's Contained Firing Facility and the 
Dual-Axis Radiographic Hydrodyanamic Test (DARHT) Facility at Los 
Alamos National Laboratory (LANL) have provided key hydrodynamic 
performance information for applications ranging from LEPs to weapon 
safety studies. Data from the Joint Actinide Shock Physics Experimental 
Research (JASPER) gas-gun experiments were instrumental in the very 
successful plutonium aging study, and tests conducted at LLNL's High 
Explosives Applications Facility (HEAF) enable improved modeling of 
aging high explosives. With commissioning of the National Ignition 
Facility (NIF) in 2009, stockpile stewards now have an experimental 
facility capable of creating the temperatures and pressures necessary 
to study the physics of the nuclear phase of weapons performance.
Improved Understanding of Materials Aging and Weapons Performance
    A long-term study by LLNL and LANL concluded that the performance 
of plutonium pits in stockpiled weapons will not sharply decline due to 
aging effects--a result with important implications in planning the 
future of the production complex. Through simulations and experiments, 
we have a much deeper understanding of the behavior and aging 
properties of weapons materials ranging from plutonium and high 
explosives to crystalline metals and polymers. Recently an LLNL 
scientist received an E.O. Lawrence Award for breakthrough work to 
resolve a previously unexplained 40-year-old anomaly that was one of 
the factors that drove the need for continued nuclear testing. Now, in 
simulation codes, a physics-based model can replace the use of an ad 
hoc calibration factor that had to be adjusted depending on weapon 
design specifics and nuclear test data. The effort involved combining 
high-fidelity non-nuclear experiments, the latest simulation tools, and 
re-examination of archival nuclear test data. Experiments at NIF are 
serving to confirm the model.
Successful Life-Extension Program
    In 2004, NNSA successfully completed its first program to extend 
the lifetime of a stockpiled weapon without resorting to nuclear 
testing. Refurbishment of the W87 ICBM warhead--the design in the 
stockpile with the most modern safety features--extends the weapon's 
life by 30 years. LLNL (with Sandia National Laboratories) developed 
and certified the engineering design and worked closely with the 
production facilities to ensure the product quality. The program has 
served as a model of the processes to be followed by subsequent and 
future LEPs. Today, the NNSA, its laboratories, and production 
facilities have continued this success with a major program to extend 
the life of the very important W76 Trident II SLBM warhead.
    The successes to date have also given us insight into the better 
tools that are needed and science and technology areas that require 
continued work. These improvements will put our annual assessment of 
the stockpile on the firmest footing and provide us the insight and 
tools to make wise decisions and ensure the safety, security, and 
effectiveness of the stockpile as we move forward. For instance, from 
simulations performed to date, we have learned that we will need at 
least exascale--1,000,0000 trillion operations per second--to fully 
resolve the phenomena we have discovered.
  a balanced, integrated, and sustained stockpile stewardship program
    Stockpile Stewardship Program accomplishments to date give us 
confidence that the ``science based'' approach being pursued is a 
workable path forward to sustaining the safety, security, and 
effectiveness of the Nation's nuclear deterrent. Stockpile stewardship 
is scientifically and technically very demanding, yet the high-caliber 
experts at the national laboratories have proven themselves worthy of 
this major challenge time and time again.
    Since 2005, the buying power of NNSA's Defense Programs has 
declined approximately $1 billion. Yet, the program will grow even more 
demanding as nuclear weapons continue to age far beyond their intended 
lifetime. As the stockpile continues to be downsized, even more 
pressure will arise to understand the state of each individual weapon. 
More difficult manufacturing issues are arising in LEPs and we have 
largely exhausted available options to improve performance margins 
through changes external to the warhead package.
    There is growing widespread recognition that the Stockpile 
Stewardship Program--its workforce and facilities--must be 
reinvigorated to sustain a safe, secure, and effective nuclear arsenal 
over the long run. Reports commissioned by Congress (e.g., America's 
Strategic Posture and the Stockpile Stewardship and Management Plan 
prepared by NNSA) and reviews pursued by the Executive Branch (e.g., 
the 2010 Nuclear Posture Review (NPR)) have concluded that 
significantly increased investments are needed to support (in the words 
of the NPR) ``a modern physical infrastructure--comprised of the 
national security laboratories and a complex of supporting facilities--
and a highly capable workforce with the specialized skills needed to 
sustain the nuclear deterrent.''
    A balanced and sustainable Stockpile Stewardship Program integrates 
stockpile support activities--which include weapons surveillance, 
assessments, and as necessary, LEPs--with investments to modernize 
facilities and efforts to greatly improve scientific understanding of 
the details of nuclear weapons components and their performance. The 
many facets of the program are tightly interconnected. Even with stable 
overall funding at an adequate level of support, long-term success 
requires judicious balancing of evolving priorities and appropriate 
levels of effort.
    Weapons Surveillance--to predict and detect the effects of aging 
and other stockpile issues. We need to step up the rate of stockpile 
surveillance and continue to become more proficient at detecting and 
predicting potential problems early. The use of embedded sensors, which 
we are developing, would enable persistent surveillance and improve our 
knowledge of the specific state of each stockpiled weapon. Data would 
be indicative, for example, of aging and degradation, mechanical 
integrity, and exposure to harsh environments. In addition, we are 
developing ever more sophisticated tools to study how aging alters the 
physical characteristics of weapon materials and how these changes 
affect weapon effectiveness and safety.
    Assessments--to analyze and evaluate effects of changes on weapon 
safety and performance. The Stockpile Stewardship Program includes a 
comprehensive set of activities to annually assess each weapons system 
and to address issues that arise. It is particularly important, in my 
view, for processes to actively engage both centers of nuclear design 
expertise--LLNL and LANL--to provide independent assessments. This is 
much like having a serious illness: advice from more than one 
independent source is crucial to the decisionmaking process. As we move 
further and further from a workforce that has actually tested a nuclear 
device, the independence of the two design centers is increasingly 
important. Our assessments are also benefiting from the development of 
Quantification of Margins and Uncertainties, a methodology that is 
increasing the rigor of weapon certification and the quality of annual 
assessments. To the extent possible, our assessments require rigorous 
scientific and engineering demonstration and evaluation. As described 
below, we have been acquiring increasingly powerful tools to do so.
    LEPs--to sustain the stockpile through refurbishment, reuse, and/or 
replacement. The laboratories must work closely with production 
facilities to integrate the production of parts with the development of 
new materials and manufacturing processes. Manufacturing is a 
particularly demanding challenge because the plants have to overcome 
extensive infrastructure and operational challenges and production 
technologies need modernization. Options for LEPs must be thoroughly 
analyzed to present decisionmakers with low risk, cost efficient 
alternatives to consider.
    Science and Technology Foundations--to provide stockpile support 
through a thorough understanding of nuclear weapon performance and 
sustain the necessary base of specialized skills. In ``keystone 
question'' areas such as boost physics and energy balance, Predictive 
Capability Framework campaigns utilize our advanced stockpile 
stewardship tools to fill gaps in knowledge about nuclear weapon 
performance relevant to existing or expected issues about stockpiled 
weapons. These activities integrate the use of state-of-the-art high-
performance computers, high-fidelity simulation models, and data 
gathered from exceptional experimental facilities. This cutting-edge 
research both provides data for stockpile stewardship and enables the 
retention of nuclear weapons expertise in a staff that increasingly 
will have no nuclear test experience. We must nurture and exercise the 
scientific judgment of stockpile stewards.
    Modernized Facilities and Infrastructure--to replace major 
facilities for processing plutonium and uranium and upgrade the 
physical infrastructure of the weapons complex.
    NNSA's plans are to pursue the Chemistry and Metallurgy Research 
Replacement-Nuclear Facility (CMRR-NF) project at LANL and build a new 
Uranium Processing Facility (UPF) at the Y-12 Plant in Oak Ridge, 
Tennessee. Currently, these more-than-50-year-old facilities for 
processing plutonium and uranium are oversized, increasingly obsolete, 
and costly to maintain. They are also safety, security, and 
environmental concerns. These two are high priority and the most costly 
of numerous infrastructure modernization projects throughout the 
complex. Because of these projects, substantial increases above the 
fiscal year 2011 budget will be required to sustain a balanced, 
integrated overall program. As the cost baselines are better defined, 
the changes that occur must be accommodated without upsetting overall 
program balance--the balance among science, technology, and 
engineering; life extensions of the stockpile; and recapitalization of 
the infrastructure.
    implications of the president's fiscal year 2011 budget proposal
    NNSA has provided to Congress its 10-year Stockpile Stewardship and 
Management Plan, developed as a complement to the NPR and New START. 
The plan is funded in the fiscal year 2011 budget request with a 9.8 
percent increase ($624 million) compared to fiscal year 2010. This is a 
good start and will address a number of immediate needs for fiscal year 
2011. It is noteworthy that the plan calls for significant increases in 
the out-years, as increasing levels of funding will be required for the 
LEPs and construction of major facilities. The fiscal year 2011 budget 
request will serve to meet most needs in the three overarching areas:
    Science, Technology, and Engineering--for technical assessments and 
certification of the stockpile. Assessments of the condition of weapons 
and certification of the engineering design of implemented LEPs depend 
on the critical judgments of stockpile stewards and their nuclear 
weapons expertise. Both are developed by hands-on experience working 
challenging nuclear weapons science, technology, and engineering 
issues. In addition to supporting stockpile needs and building 
expertise, this work also advances our fundamental understanding of 
nuclear weapons performance so that future stockpile stewards will be 
able to tackle even more difficult issues as they arise. The increased 
funding from fiscal year 2010 levels will provide a critically needed 
boost to activities:

        <bullet> Stockpile Assessments. The funding increase in fiscal 
        year 2011 will support implementation at the NNSA laboratories 
        of a new dual validation process that was established in the 
        National Defense Authorization Act for Fiscal Year 2010. The 
        Independent Nuclear Weapon Assessment Process (INWAP) will 
        strengthen annual assessments. Two sets of challenge teams (one 
        from LLNL and SNL and the other from LANL and SNL) are being 
        formed. Both the challenge team and the ``home team'' will have 
        access to all relevant data and analysis about a weapon 
        system--to be applied to annual assessments and peer reviews of 
        significant finding closures and LEP certifications.
        <bullet> Keystone Science Issues. Science campaigns in the 
        Stockpile Stewardship Program aim at filling major gaps in our 
        knowledge about nuclear weapon performance--for example, in the 
        areas of energy balance and boost physics. The goal is to 
        remove ``adjustable parameters'' in our simulations and replace 
        them with first-principles physics models. Such improvements 
        are critically important to providing high confidence in the 
        difficult decisions that might arise in sustaining an aging 
        stockpile.
        <bullet> This extremely challenging research calls for a 
        concerted effort that combines continuing advances in high-
        performance computing with well-diagnosed experiments at the 
        laboratories' unique experimental facilities. We have a golden 
        opportunity to dramatically advance our knowledge base. 
        Progress, in particular, depends on effective use of NIF 
        (allowing stockpile stewards to experimentally explore the 
        physics of nuclear phases of nuclear weapons performance), 
        DARHT, JASPER, and our other smaller scale experimental 
        facilities. Importantly, efforts to support these keystone 
        science issues are increased in the fiscal year 2011 budget 
        request.
        <bullet> Research and Development on Technology Advances for 
        Stockpile Support. An important responsibility of the NNSA 
        laboratories is to explore what is technically possible in 
        nuclear design. Exploratory studies hone the skills of 
        stockpile stewards and help us to avoid technical surprise from 
        other nations' nuclear weapons activities. In addition, we 
        develop advanced technologies that could be applied to the U.S. 
        stockpile, consistent with the goal of no new weapons or 
        improvements in military capabilities. These include means for 
        substantially improving weapon safety and security that could 
        be implemented as part of an LEP. The proposed budget increases 
        will help accelerate progress in this area to ensure 
        availability of these technologies as LEPs are proposed and 
        carried out over the coming decade.
        <bullet> Advances in High-Performance Computing. We have made 
        remarkable advances in high-performance computing and 
        simulations, yet it is imperative that we continue to make 
        rapid progress. Early success in the Stockpile Stewardship 
        Program brought us ``terascale'' computing (trillions of 
        operations per second); we now reached ``petascale'' (thousands 
        of trillions); and we need ``exascale'' (millions of trillions) 
        for two reasons. Petascale makes 3D high-fidelity simulations 
        of weapons performance practical. However, better models of 
        boost physics and thermonuclear burn processes still need to be 
        developed (in concert with experiments). That will require much 
        greater computing horsepower. Second, as mentioned above, the 
        underpinning of our assessment and certification is uncertainty 
        quantification. Rigorous implementation of the methodology for 
        each weapon system requires the running of many thousands of 
        high fidelity 3D simulations to map out the impact of 
        uncertainties on weapon performance; hence, the need for much 
        greater computing power.
         The proposed fiscal year 2011 budget adequately supports 
        computer center operations at LLNL and acquisition of the 20-
        petaflop Sequoia machine, which will become operational in 
        2012. More than a factor of ten faster than the current best, 
        it is the next major advance in high-performance computing. Now 
        is the time to start planning and preparing for the next step 
        toward exascale, which is a grand challenge requiring 
        additional resources.

    An Active LEP Effort together with Aggressive Surveillance. As 
mentioned below, a number of stockpile systems require LEPs in the next 
one-to-two decades. Over the past two decades, two LEPs have been 
completed. Over the next 10 years, plans call for the the completion of 
one in progress, start of two full-scope LEPs, and preparation 
activities for additional LEPs the following decade. In addition to LEP 
support, funding needs to be increased from fiscal year 2010 levels to 
address current surveillance shortfalls and mature safety and security 
technologies for production readiness for future LEPs. We look forward 
to participating in a study to identify and evaluate LEP options for 
the W78 Minuteman III ICBM warhead, which is planned to begin in fiscal 
year 2011. NNSA has announced its intention to assign the W78 LEP to 
LLNL. The fiscal year 2011 budget request provides adequate support for 
our B61 LEP peer review responsibilities as well as our 
responsibilities to support existing LLNL-designed stockpile systems.
    Recapitalization of Plant and Laboratory Infrastructure. 
Recapitalization is necessary to build a responsive infrastructure able 
to meet program and production needs. This includes fulfilling science, 
technology, and engineering program objectives and production 
requirements. Such an infrastructure is essential to the complex's 
ability to respond in a timely manner to technical issues and/or 
emerging threats. In addition to planning for and construction of new 
facilities (including the very major investments in CMRR-NF and UPF), 
adequate investments are needed for Readiness in Technical Base and 
Facilities (RTBF) for operations in and maintenance of existing 
facilities. My direct concern at LLNL is obtaining sufficient funding 
in fiscal year 2011 to support operations at HEAF, which is a one-of-a-
kind facility for research and development in high explosives and 
energetic materials, and to support Site 300, the Laboratory's remote 
experimental site which is home to the Contained Firing Facility.
                        life-extension programs
    Warhead LEPs are undertaken to address issues discovered through 
surveillance and review processes supporting annual assessments. The 
role of the LEP is to fix issues that impact overall system 
effectiveness and extend stockpile life.
    Effectiveness is influenced by many factors. Nuclear weapons are 
not static devices; their chemical and physical properties or 
characteristics change over time. While plutonium pits have been 
determined to have a very long service life, aging affects the 
performance of a number of important components including metals other 
than plutonium, polymers, neutron generators, and gas transfer systems. 
In addition, there are many other potential causes of decreased 
confidence in effectiveness--ranging from design flaws to material 
compatibility issues. Experience has shown that at least one major new 
and unanticipated issue is discovered approximately every 5 years.
    Thus far, we have been able to retain confidence in warhead safety 
and effectiveness by offsetting identified increased uncertainties with 
corresponding increases in performance margins. They have been obtained 
by changes external to the nuclear explosives package or by relaxing or 
eliminating military requirements (in coordination with the Department 
of Defense (DOD)). Options to further improve these margins have 
largely been exhausted.
    Several LEPs activities are in progress and/or recommended by the 
NPR, and they are supportable with the proposed fiscal year 2011 
budget. The W76 Trident II SLBM warhead LEP is well underway. The 
initial design activities began in fiscal year 2000 and the final 
refurbished weapon is expected to be delivered in fiscal year 2017. In 
fiscal year 2011, concept development is scheduled for completion in 
preparation for a full-scope LEP for the family of B61 nuclear bombs. 
The first production unit is planned for fiscal year 2017. In addition, 
a study to identify and evaluate LEP options for the W78 Minuteman III 
ICBM warhead will begin in fiscal year 2011. The NPR proposes that this 
study consider the possibility of having the resulting warhead be 
adaptable to multiple platforms in order to provide a cost effective 
hedge against future problems in the deployed stockpile. The first 
production unit is projected in fiscal year 2021.
    These plans for future LEPs are based on consideration of weapon 
system age and early indicators of impending issues that will need to 
be addressed. LEP activities formally start with a Phase 6.1 (or Phase 
6.2) study conducted jointly with the DOD, which follows processes and 
procedures that were established for developing weapons during the Cold 
War and have been adapted for LEPs. These joint concept development 
efforts consider military requirements and explore LEP options to meet 
the requirements. They involve extensive supercomputer simulation 
efforts and supportive experimental activities, thorough interactions 
with the NNSA production facilities and DOD contractors, and extensive 
peer review.
    Within the Laboratory, we consider the full range of technical 
options to address military requirements that need to be balanced--for 
example, form fitting and functioning with an existing delivery system 
while providing enhanced safety (e.g., insensitive high explosive). In 
doing so, we consider tradeoffs that emphasize one requirement over 
another. The output of these evaluations is a set of recommended 
options for the U.S. Government to consider in deciding on the specific 
LEP option to proceed to engineering development (Phase 6.3). After a 
decision to proceed to full-scale development is made, we follow a very 
disciplined engineering process that involves the design agencies, 
production agencies, and the responsible military service.
    LEPs provide the opportunity to consider adding new safety and 
security features without degrading overall effectiveness or 
introducing new military capabilities. Some of these safety and 
security improvements are ready for deployment now and would make a 
significant improvement; other even more effective approaches require 
further research. Considered features would be based on previous 
nuclear tests. Intrinsic surety, which incorporates the safety and 
security features inside the nuclear explosives package, provides the 
highest level of safety and protection against terrorist threats. 
Examples range from enhanced fire safety to technologies that make 
acquisition of special nuclear materials from U.S. nuclear weapons of 
little-to-no-value to a terrorist.
    The decision to add surety features is up to the U.S. Government, 
and the technical feasibility of specific safety and security features 
depends on the weapon and approach taken to extend its life. The 
current LEP approach (refurbishment only) limits the range of safety 
and security features that can be incorporated into certain weapons 
systems.
    The options studied for LEPs will be based on previously tested 
nuclear designs. To best manage risk, we will consider, on a case-by-
case basis, the full range of LEP approaches characterized by the three 
discrete options along the spectrum of possibilities:

        <bullet> Warhead Refurbishment--Nuclear explosive package (NEP) 
        composed of existing or newly manufactured components 
        originally designed for that warhead.
        <bullet> Warhead Component Reuse--NEP composed of components 
        previously manufactured for the stockpile (includes new 
        production of previously manufactured components).
        <bullet> Warhead Replacement--NEP component not previously 
        produced for the stockpile (based on tested designs).

    All potential approaches--or, more likely, combinations of 
approaches--need to be examined because the areas of most significant 
risks vary, and often times, have to do with costs, manufacturing 
issues, the importance of improvements in margins, safety and security, 
and long-term maintenance and surveillance. These factors differ from 
system to system, and the various LEP approaches differ in the degree 
to which they provide flexibility to manage identified risks. They also 
differ in the degree to which they exercise the skills and capabilities 
of our people, which is an important consideration in sustaining an 
experienced workforce. Assessment and certification challenges depend 
primarily on design details and associated margins and uncertainties 
rather than the type of LEP approach considered.
    Consideration of the full range of LEP options provides the 
necessary technical flexibility to manage the stockpile with an 
acceptable level of risk. Our findings and recommendations in studies 
of options will be based solely on our best technical assessments of 
cost, risk, and ability to meet stockpile management goals. In 
decisions to proceed to engineering development, the U.S. government 
can consider a number of factors for particular LEP approaches.
                        the importance of people
    Long-term success in stockpile stewardship fundamentally depends on 
the quality of people in the program. If the Nation is not confident in 
the expertise and technical judgments of the stewards, the Nation will 
not have confidence in the safety, security, and effectiveness of our 
nuclear deterrent. Over the years, exceptional scientists and engineers 
have been attracted to LLNL by the opportunity to have access to the 
world-class facilities, to pursue technically challenging careers, and 
to work on projects of national importance. A Stockpile Stewardship 
Program that is stable, technically challenging, and of recognized 
importance to the Nation is critical to the future success of the 
program--and to the Laboratory in carrying out its national security 
responsibilities.
    The specialized technical skills and expertise required for 
stockpile stewardship, which come through mentoring and hands-on 
experience, take a long time to develop. Program stability is 
critically important, and it requires a balanced, integrated Stockpile 
Stewardship Program that has sustained bi-partisan support and is 
sufficiently funded over the long term. We welcome a strong affirmation 
by the administration and Congress of the importance of the NNSA 
laboratories' work in maintaining the U.S. nuclear deterrent through 
stockpile stewardship.
    An important benefit of a strong Stockpile Stewardship Program is 
that this foundational program helps the NNSA laboratories in meeting 
broader national security objectives. Clearly, nuclear weapons 
expertise is directly applicable to the nuclear security challenges of 
proliferation and terrorism. Other areas of national defense, domestic 
and international security, and energy and environment security also 
benefit from LLNL's broad scientific and technical base and 
international leadership in areas such as high-performance computing.
    These activities further strengthen our science and technology 
workforce, add vitality to the Laboratory, spin new ideas and 
additional capabilities into the weapons program, and serve as a 
pipeline to bring top talent to LLNL so that we continue to provide the 
Nation outstanding stockpile stewards. A broader base of national 
security programs at the NNSA laboratories is not a substitute for a 
strong Stockpile Stewardship Program; neither is it a distraction from 
our defining mission and responsibilities to sustain the Nation's 
nuclear deterrent.
                            closing remarks
    My testimony describing the successes and future challenges in 
stockpile stewardship supports and amplifies a joint statement my 
fellow NNSA laboratory directors and I issued when the Nuclear Posture 
Review was released. We made two key points:
    First, that a Stockpile Stewardship Program which `` . . . includes 
the consideration of the full range of life extension options 
(refurbishment of existing warheads, reuse of nuclear components from 
different warheads, and replacement of nuclear components based on 
previously tested designs), provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''
    Second, that ``We are reassured that a key component of the NPR is 
the recognition of the importance of supporting `a modern physical 
infrastructure--comprised of the national security laboratories and a 
complex of supporting facilities--and a highly capable workforce with 
the specialized skills needed to sustain the nuclear deterrent.''
    Finally, I would like to again thank the committee for your 
interest in and continued support for stockpile stewardship and your 
commitment to the program's success.

    Chairman Levin. Thank you, Dr. Miller.
    Dr. Hommert.

  STATEMENT OF HON. PAUL J. HOMMERT, Ph.D., DIRECTOR, SANDIA 
                     NATIONAL LABORATORIES

    Dr. Hommert. Chairman Levin, Ranking Member McCain, and 
distinguished members of the committee: Thank you for the 
opportunity to testify. I am Paul Hommert, Director of SNL, a 
multi-program national security lab. I'm honored to be here 
with my colleagues from LANL, LLNL, and Dr. Schwitters to 
testify on sustaining nuclear weapons under the New START.
    Within the policy outlined in the NPR, the collective DOD 
and NNSA guidance documents, the fiscal year 2011 budget 
request, and the force structure terms of the New START, I am 
confident that SNL can provide the required support for the 
Nation's nuclear deterrent. This confidence comes from our 
assessment of stockpile management requirements against our 
mission, product space, and capabilities.
    Within the nuclear weapons complex, SNL is responsible for 
the design and qualification of non-nuclear components that 
ensure the weapons perform as intended, when authorized, and 
remain safe and secure otherwise. We are responsible for 
hundreds of highly specialized components with extremely high 
reliability requirements and unique, often very harsh 
environmental requirements.
    Today we are facing new challenges. The weapons in the 
stockpile are aging and were designed when long life was not a 
high priority. The radar for the first B61 bomb, for example, 
was designed for a 5-year lifetime. There are B61s in the 
stockpile today with components that date back to the 1960s. It 
is a credit to the stewardship program that we have the 
technical knowledge to support continued confidence in these 
weapons systems as they age.
    What are the keys to managing the stockpile into the 
future? First, a strong and modernized surveillance program 
tailored to the needs of an aging, smaller stockpile, to 
underpin our annual assessment findings and recommendations. 
While this is essential for the future, it is not sufficient. 
Through surveillance activities to date, we have already 
established a number of stockpile concerns that must be 
addressed.
    Thus, the second element is the LEPs, foremost for us being 
the B61. This is an immediate challenge for SNL, with a 
demanding schedule and a technical scope more than twice that 
of the W76 LEP. I support the full scope approach called for by 
the NPR and would be very concerned if we only replaced the 
non-nuclear components with the most immediate aging issues and 
chose to reuse other non-nuclear components, some of which are 
even now over 40 years old.
    In addition to the surveillance programs and the life 
extension efforts, we must give strong attention to sustaining 
capabilities for the future. The highest priority is the 
viability of our design competencies. In recent years, 
uncertainty surrounding requirements for the stockpile resulted 
in the programmatic instability noted by the JASON panel as a 
threat to the stewardship program. Today, nearly half of the 
SNL staff with experience in major weapons system efforts are 
over the age of 55. Their remaining careers will not span the 
upcoming LEPs. This puts a premium going forward on stable, 
multi-year program direction and resources to provide 
opportunities for new technical staff to work with experienced 
designers.
    Also key to sustainment is keeping pace with modern-day 
technologies. As an example, consider microelectronics, where 
since we began our most recent full system development effort, 
the W88, in 1983, there has been a quantum leap in 
miniaturization and microelectronics functionality that offer 
real potential for enhancements to stockpile safety and 
security which we will realize in the B61 LEP.
    Infrastructure sustainment is also critical. We have world-
class facilities where we perform a range of scientific 
research and product qualification. But we also have outdated 
facilities that were commissioned in the 1950s and 1960s. We 
are working with NNSA to complete revitalization of our 
environmental test capabilities required to support the design 
of the B61 and subsequent LEPs, and to recapitalize the tooling 
in our trusted microelectronics facility.
    At SNL our broad national security work is critical to 
sustainment. We are well poised to support the New START regime 
and to continue our contributions to the national security, 
nuclear security, nonproliferation, and counterterrorism 
objectives of the Nation. This work exercises and strengthens 
many of our nuclear weapons capabilities.
    New START would not constrain the upcoming life extension 
imperatives. However, it does reinforce the importance of a 
modern stockpile, a responsive infrastructure, as we move 
towards a smaller nuclear arsenal.
    Let me close by summarizing the keys to success going 
forward: a robust surveillance program, stable LEPs, an 
unyielding attention to sustaining the key aspects of our 
capabilities for the future--people, technologies, 
infrastructure, and our broader national security programs.
    Thank you and I welcome your questions.
    [The prepared statement of Dr. Hommert follows:]
               Prepared Statement bt Dr. Paul J. Hommert
                              introduction
    Chairman Levin, Ranking Member McCain, and distinguished members of 
the Senate Armed Services Committee, thank you for the opportunity to 
testify. I am Paul Hommert, President and Director of Sandia National 
Laboratories. Sandia is a multiprogram national security laboratory 
owned by the United States Government and operated by Sandia 
Corporation \1\ for the National Nuclear Security Administration 
(NNSA).
---------------------------------------------------------------------------
    \1\ Sandia Corporation is a subsidiary of the Lockheed Martin 
Corporation under Department of Energy prime contract no. DE-AC04-
94AL85000.
---------------------------------------------------------------------------
    Sandia is one of the three NNSA laboratories with responsibility 
for stockpile stewardship and annual assessment of the Nation's nuclear 
weapons. Within the U.S. nuclear weapons complex, Sandia is responsible 
for the design, development, and qualification of nonnuclear components 
of nuclear weapons. It is also responsible for the systems engineering 
and integration of the nuclear weapons in the stockpile. While nuclear 
weapons remain Sandia's core mission, the science, technology, and 
engineering capabilities required to support this mission position us 
to support other aspects of national security as well. As a 
multiprogram national security laboratory, Sandia also conducts 
research and development in nuclear nonproliferation, nuclear 
counterterrorism, energy security, defense, and homeland security.
    The policy framework outlined in the 2010 Nuclear Posture Review 
(NPR) Report, the high-level implementation plan established by the 
fiscal year 2011 Stockpile Stewardship and Management Plan and the 
Report in Response to NDAA fiscal year 2010 section 1251, New START 
treaty and Nuclear Force Restructure Plans (to be referred to as 
section 1251 report), and the funding profile described in the 
Department of Energy fiscal year 2011 Congressional Budget Request 
weave the fabric of a compelling strategic future for U.S. nuclear 
weapons policy. In this context and in view of the New START treaty, my 
statement today will address five closely related issues: (1) the U.S. 
nuclear stockpile today and in the future; (2) stockpile surveillance; 
(3) the life extension programs; (4) a retrospective of stockpile 
stewardship; and (5) verification technologies.
           the u.s. nuclear stockpile today and in the future
    As noted in the NPR Report, ``The fundamental role of U.S. nuclear 
weapons, which will continue as long as nuclear weapons exist, is to 
deter nuclear attack on the United States, our allies, and our 
partners'' (p. vii). Since the end of the Cold War, the stockpile has 
become smaller in total numbers and comprises fewer weapon types, and 
its size will continue to decrease. It is natural that nuclear weapons 
policy in the post-Cold War era should be reevaluated in light of 21st 
century threats. The administration's joint objectives of maintaining a 
safe, secure, and effective nuclear arsenal and, at the same time, 
strengthening the global nonproliferation regime and preventing nuclear 
terrorism provide a challenging, significant role for Sandia and, 
indeed, for all those involved in the nuclear weapons program.
    Within the context of the nuclear weapons policy outlined in the 
NPR Report and the collective guidance for implementation provided in 
the fiscal year 2011 Stockpile Stewardship and Management Plan, the 
Section 1251 Report, and the Department of Energy Fiscal Year 2011 
Congressional Budget Request, and under the New START treaty terms, I 
am confident that Sandia can fulfill its responsibilities in support of 
the Nation's nuclear deterrent. That confidence comes from our 
assessment of the stockpile management requirements against our mission 
and product space and our capabilities. In their totality, the 
documents describing the future of the U.S. nuclear deterrent represent 
a well-founded, achievable path forward, which I understand and 
support. However, as we stand on the threshold of the next era of 
stockpile stewardship and management, we must recognize the challenges 
inherent in this framework. A significant body of work is required to 
sustain the deterrent into the next two decades, and we must ensure 
that the resources are commensurate with the requirements and 
expectations. Specifically, I can be confident that the totality of the 
stockpile management and deterrent policy can be supported only if the 
fiscal year 2011 budget is authorized and appropriated at the level of 
the administration's request and the national significance of our 
mission is sustained.
Mission and Product Space
    Sandia is responsible for the systems engineering and integration 
of the nuclear weapons in the U.S. stockpile. As systems integrator, we 
are responsible for numerous unique and challenging assignments, 
including the engineered interfaces from the warheads to the delivery 
platforms and surveillance management at the weapon system level for 
the nuclear weapons complex--both flight testing and system-level 
ground testing.
    Sandia is the nonnuclear component design agency for NNSA. The 
components that we design ensure that the weapons will perform as 
intended when authorized through the U.S. command and control 
structure, and that they remain safe and secure otherwise. These 
critical functions are provided through our core products of arming, 
fuzing, and firing systems (AF&Fs), neutron generators, gas transfer 
systems, and surety systems. We are responsible for literally hundreds 
of major components in the stockpile. Our products are highly 
specialized electrical, microelectronic, electro-mechanical, chemical, 
and explosive components with extremely high reliability specifications 
and unique, very harsh environmental requirements. For example, an 
``intent stronglink'' is a component that prevents a nuclear weapon 
from being armed until a unique string of code is entered indicating 
human intent. Even in the most recent designs, there are more than 200 
parts in a component the size of a cell phone. We are also responsible 
for ``weaklink'' components, which are designed to fail in a manner 
that precludes inadvertent nuclear detonation in accident scenarios 
such as those involving fire or lightning. These safety components must 
meet stringent requirements.
    Sandia designs, engineers, and integrates these specialized 
products into the Nation's nuclear arsenal through the efforts of a 
world-class workforce and highly specialized tools, facilities, and 
equipment. However, to fulfill our responsibilities for the deterrent 
into the future, we are facing new challenges.
    Consider first that most of the weapons in the current stockpile 
were designed at a time when long design life was not typically a high-
priority design requirement. The radar for the first B61 bomb, for 
example, was originally designed for a 5-year lifetime; today there are 
B61s in the stockpile with components manufactured in the late 1960s. 
It is a credit to our Stockpile Stewardship Program that we have the 
technical knowledge base to support continued confidence in these 
weapon systems as they age. Indeed, it is also a credit to those who 
designed the current stockpile that it has lasted well beyond original 
design lifetimes. Now we are working to provide solutions that will 
extend the lifetime of our nuclear arsenal for another 30 years.
    The state of the stockpile is reported to the President through the 
annual assessment process. Through this process, we have been, and 
remain, able to assess the Nation's stockpile as safe, secure, and 
reliable. That said, as we move forward with the challenging business 
of extending the lifetimes of U.S. nuclear weapon systems, we must 
address stockpile aging and degradation, as well as technology 
obsolescence. In addition, long weapon lifetimes will become a specific 
design objective.
    While the options to refurbish, reuse, and replace are applicable 
to the nuclear explosive package, almost all of Sandia's life extension 
work will involve replacements with modern technologies. Nonnuclear 
components, by their very nature, are subject to a whole range of 
potential aging and failure modes. Although we may be able to reuse 
some of the original components, doing so uniformly would be a 
fundamentally unwise option when their service life must be extended by 
another 30 years. In addition, only modern technology will enable 
introduction into the stockpile of the safety and security required by 
the NPR Report.
                         stockpile surveillance
    Stockpile surveillance and assessment play a crucial role in 
assuring the nuclear deterrent. Through these activities, we develop 
knowledge about the safety, security, and reliability of the stockpile. 
This knowledge provides the technical basis for our annual assessment 
findings and recommendations regarding the state of the stockpile. It 
also informs decisions made about the stockpile: from deployment and 
targeting to safe handling operations (routine or otherwise) and from 
there to development of new component and system design options. In 
their 2009 annual assessment letters, all three NNSA laboratory 
directors highlighted concerns about inadequate progress toward 
surveillance transformation. Former Sandia Laboratories Director Tom 
Hunter said, ``I believe that the level of commitment to a tailored and 
balanced stockpile evaluation program for our aging, smaller stockpile 
is inadequate.'' Indeed, the JASON panel reached the same conclusion in 
their 2009 life extension study.
    The Department of Energy fiscal year 2011 Congressional Budget 
Request places high priority on stockpile surveillance, and we 
understand and agree to strengthen our knowledge and confidence in the 
current stockpile. The Surveillance Transformation Plan was established 
to better align our surveillance program with the challenges of an 
aging and smaller stockpile. The plan aims to shift the surveillance 
program's focus from finding defects to acquiring deeper scientific 
understanding of stockpile performance margins, distributions, and 
trends by creating higher fidelity diagnostics and physical and 
computational simulation capabilities. In this new framework, we will 
be better able to anticipate stockpile performance degradation and to 
schedule required actions. Yet, although essential, a strong 
surveillance program is only one component of stockpile management into 
the future. The life extension programs are another component.
                      the life extension programs
The B61 Life Extension Program
    The NPR Report concluded that the United States will ``proceed with 
full scope life extension for the B61 bomb including enhancing safety, 
security, and use control'' (p. xiii). This is the most immediate 
stockpile challenge for Sandia. For this life extension, we are 
deliberately building multidisciplinary teams of both highly 
experienced staff and new talent, sustaining the necessary knowledge in 
the management team, providing an optimal teaming environment, ensuring 
that facilities are ready for the work, and piloting new processes that 
will benefit our life extension work.
    Nevertheless, we find ourselves in a state of urgency, with a 
demanding schedule and expansive product requirements. The primary 
driver for the schedule of the B61 LEP is the fact that critical 
nonnuclear components are exhibiting age-related performance 
degradation. For example, the radar in the B61, which includes the now 
infamous vacuum tubes, must be replaced. In addition, both the neutron 
generator and a battery component are fast approaching obsolescence and 
must be replaced. A secondary driver for the schedule is the deployment 
of the F35 Joint Strike Fighter, which requires a new digital interface 
for the B61. Replacing the three aging components and adding the new 
digital interface represent the absolute minimum approach to this LEP. 
However, it is my judgment that we need to approach this LEP with a 
resolute commitment to replace old nonnuclear components and field a 
nuclear weapon system that employs modern technologies to improve 
safety and security and to extend service life.
    The weapon systems addressed through the LEPs of the coming two 
decades will be in our stockpile well into the second half of this 
century. The ``full'' scope for the B61 LEP called for in the NPR 
Report is a prudent approach to this life extension that addresses 
aging concerns, obsolete technologies, and enhancements in safety, 
security, and use control. Notably, the scale of this LEP will be much 
larger than that of the W76 Trident II SLBM warhead LEP, which is now 
in production. Whereas the W76 LEP involved redesign and replacement of 
18 major Sandia components, the B61 LEP involves 46 such components.
    To extend the lifetime of the B61, the requested fiscal year 2011 
funding is critical. We must complete the design definition in fiscal 
year 2011 to create a firm understanding of system requirements and 
thus fully establish future-year budget needs. Total cost estimates for 
the B61 LEP are subject to change until the design definition and 
requirements are finalized.
    We also have considerable technology maturation work to perform in 
fiscal year 2011. Technology maturation is a rigorous approach we apply 
to developing new technologies, from the earliest conceptual designs 
through full-scale product realization and ultimately insertion into 
the stockpile. We use a construct of technology readiness levels, first 
implemented at the Department of Defense and then NASA, and implement a 
series of technical and programmatic reviews to ensure that new 
technologies reach the appropriate maturity level before they are used 
in a life extension baseline design. For the B61 LEP, we have 13 major 
categories of technology maturation work underway. Our cost estimates 
for fiscal year 2011 in this area depend heavily on the progress we are 
trying to make in fiscal year 2010. I am therefore concerned that, if 
the requested fiscal year 2010 reprogramming is not implemented, 
significant additional risk will be introduced into our fiscal year 
2011 efforts on the B61 LEP. For example, we began fiscal year 2010 by 
staffing up our B61 LEP team to position ourselves for strong 
performance in fiscal year 2011. Specifically, we started fiscal year 
2010 with 139 full-time equivalent employees for the B61 LEP, and that 
number peaked in April at 192. Now the numbers are declining in the 
absence of fiscal year 2010 reprogrammed dollars and concern over 
fiscal year 2011 continuing resolution. Unless this situation changes, 
we will enter fiscal year 2011 with roughly 50 percent of the staffing 
level that was originally intended for this critical program.
    The possibility of a prolonged continuing resolution for fiscal 
year 2011 is a real concern. The funding growth required for the B61 
LEP from fiscal year 2010 to fiscal year 2011 is so essential that a 
continuing resolution funding level referenced back to fiscal year 2010 
will almost surely require removing staff from the program, a slip in 
the fiscal year 2017 target for first production unit, or even a down-
scoping of the program. The LEP schedule and scope are also, of course, 
heavily dependent on the appropriated funding in fiscal year 2012 and 
beyond. Fiscal year 2011 funding is needed to get this program off to a 
good start, but enduring multiyear sustained funding is required to 
bring this program to successful completion. The success of the B61 LEP 
also requires a fully supported production complex with particular 
importance placed on the Kansas City and Pantex Plants.
Other Life Extension Programs
    The B61 bomb is our current focus, but certain reentry systems in 
our stockpile also require near-term life extension activities. The NPR 
Report recommended ``initiating a study of LEP options for the W78 ICBM 
warhead, including the possibility of using the resulting warhead also 
on SLBMs to reduce the number of warhead types'' (p. xiv). The 
Department of Energy fiscal year 2011 Congressional Budget Request 
includes funding for a W78 LEP. Based on the guidance in the NPR 
Report, the planning for this LEP will also examine the opportunities 
and risks associated with the resulting warhead referenced above.
    At the request of the Office of the Secretary of Defense, we 
completed a feasibility study for a common integrated arming, fuzing, 
and firing (AF&F) system. Using an envelope of the requirements for the 
W78 and the W88, and even the W87 and the U.K. system, our study 
concluded that this approach was technically feasible, including 
improvements in safety and security enabled by miniaturization of 
electronics. Savings in weight and volume, at a premium in reentry 
systems, can be used for those additional safety and security features. 
The study results have been briefed to the Nuclear Weapons Council and 
are being used to inform decisions regarding the scope, schedule, and 
interplay between the W78 and W88 life extensions.
                a retrospective of stockpile stewardship
    My confidence in our ability to successfully execute the life 
extension programs is based on the suite of tools and capabilities that 
have resulted from the investments made in stockpile stewardship. For 
the first 15 years of the Science-Based Stockpile Stewardship Program, 
creating the scientific tools and knowledge required in the absence of 
underground nuclear testing was a compelling grand challenge for the 
U.S. nuclear weapons program. While the moratorium on underground 
nuclear testing had a more direct impact on Los Alamos and Lawrence 
Livermore National Laboratories than on Sandia National Laboratories, 
hundreds of experiments have been run on Sandia's Z accelerator, 
providing critical experimental data that are tied directly to the 
milestones of NNSA's Predictive Capability Framework road map. Advances 
in our pulsed power capabilities are supporting the Advanced 
Certification, Dynamic Materials Properties, and Primary and Secondary 
Assessment Technologies programs.
    At Sandia, the primary impact of the moratorium on underground 
nuclear testing was the need to create tools and acquire the knowledge 
necessary to sustain confidence in the radiation hardness of our 
designs. We created advanced stockpile stewardship tools and 
effectively applied them to our annual assessment of the stockpile and 
to the qualification of the W76-1 life extension program. Those tools 
gave us the understanding and knowledge to assess with confidence the 
state of the stockpile. Advances in our computational tools and 
improved experimental capabilities, coupled with high-fidelity 
diagnostics for model validation and improved characterization of test 
results, provided this new understanding.
    Looking back at the Science-Based Stockpile Stewardship Program, it 
is clear that we collectively understood the magnitude of the change 
that needed to occur in the nuclear weapons program to address the 
moratorium on underground nuclear testing. What we at Sandia perhaps 
did not fully appreciate at the time was the impact that the end of the 
Cold War would bring to the vitality of our system and component design 
community. During the Cold War, we were pursuing simultaneously as many 
as 14 full-scale weapon development programs. Since 1992, we have had a 
total of only two programs of similar scale: the W76-1 and the W80-3 
LEPs. The latter was cancelled in 2005. Thus, as we began to implement 
stockpile stewardship in the early 1990s, our weapon systems 
development workload dropped dramatically, and that meant less work for 
systems engineers and component designers. At the same time, 
technological advances were happening that would bear directly on the 
products within Sandia's responsibility.
    As stated earlier, the products Sandia designs and engineers are 
highly specialized for the unique demands of nuclear weapons; however, 
they are related to commercial products because of similarities in 
underlying technologies. To express this idea differently, our 
components have a point of reference in commercial technology. This 
reality bears directly and significantly on Sandia's responsibilities 
as we embark on the next era of stewardship.
    The pace of technological advances in recent decades has been 
staggering. Let me give just one example. In 1983, we were embarking on 
the full-scale design and development for the W88 Trident II submarine-
launched ballistic missile (SLBM) warhead, which is the last newly 
designed warhead to have entered the stockpile, and it took advantage 
of the microelectronics available at the time. That year, the cell 
phone industry, also relying on microelectronics, was proud of the 
first network in the United States: 7,000 phones, each weighing about 2 
pounds. In the time that has passed since, miniaturization and 
functional density of microelectronics have taken a quantum leap. Today 
there are about 285 million cell phones, each weighing about 3 ounces. 
Such technological advances mean simply that some of the technologies 
on which Sandia products are based have become radically more advanced 
than they were the last time we built a large number of nonnuclear 
components for weapons.
    The strong tie between the products developed by Sandia and those 
developed by the private sector is both a challenge and an 
opportunity--a challenge, because we must have the right set of people, 
skills, production equipment, and an up-to-date technology base at a 
time when budgets are not predictable; yet an opportunity, because it 
keeps us agile, adaptable, in tune with the needs of the Nation and 
because modern technologies provide opportunities for improvements in 
stockpile safety and security. This strong tie manifests itself in 
several ways. To reduce cost and whenever the required functionality is 
available from a trusted supplier in the commercial sector, we 
incorporate commercial off-the-shelf parts into our products. 
Furthermore, for the parts we must manufacture (for example, 
specialized microelectronics), only modern production tooling and 
equipment can be readily maintained. Perhaps most important is the fact 
that we can attract the best and brightest new graduates when we can 
offer them challenging innovative projects that use the latest 
technologies, which they understand and on which they have been 
trained.
    Cyber risk is another aspect of technological advances that we must 
consider. Since the 1980s Sandia has pioneered the use of vulnerability 
assessments to determine systematic cyber weaknesses in command and 
control and surety systems. We believe it is vital to the next 
generation of life extension programs that cyber risk be assessed and 
capabilities developed to mitigate the dangers.
Workforce
    The demographics within Sandia's nuclear weapons program clearly 
reflect both the strengths of the Stockpile Stewardship Program and the 
challenges of a period with few full-scale weapon design programs. We 
have attracted the very best scientists, engineers, and technologists 
to the laboratories with large-scale science-based engineering programs 
that bring together computational with experimental test capabilities. 
However, retaining talent in our weapon and component design community 
has been challenging. The uncertainty surrounding the requirements for 
the future stockpile resulted in programmatic instability and lack of 
full-scale engineering development programs. In their recent life 
extension study, the JASON panel noted that a ``lack of program 
stability'' threatened the continued strength of the stewardship 
program.
    While we must rise to meet near-term challenges of the Stockpile 
Stewardship Program, we also must establish the basis for long-term 
stability. For Sandia, stability should be viewed in the context of 
three pillars: people, infrastructure, and broad national security 
work. The NPR Report highlighted the importance of the first two of 
these: ``In order to remain safe, secure, and effective, the U.S. 
nuclear stockpile must be supported by a modern physical infrastructure 
. . . and a highly capable workforce'' (p. xiv).
    Today, 37 percent of the experienced technical staff in Sandia's 
weapon system and component design organizations are over the age of 
55. Their remaining careers will not span the upcoming life extension 
programs. This reality puts a huge premium going forward on stable, 
multiyear, large-scale LEPs that provide opportunities for our new 
technical staff to work closely with our experienced designers on a 
full range of activities--from advanced concept development to 
component design and qualification, and ultimately to the production 
and fielding of nuclear weapon systems. The team we are assembling for 
the B61 LEP is representative of the new multidisciplinary approach we 
will take to ensure that: (1) the powerful stewardship tools developed 
through our Nation's investment and applied effectively to stockpile 
assessment are adapted going forward to meet the needs of the design of 
weapon system architectures and components; and (2) the latest 
technologies and innovative designs are coupled with rigor that comes 
from experience. To give only one example, recently validated thermal 
models developed by the Stockpile Stewardship Program were applied to 
the design of thermal batteries for the B61 LEP. These models allowed 
us to identify a nearly twofold increase in battery run time that could 
be achieved with a simple material substitution.
    New tools and modern technologies, coupled with our management 
vision for the engineering environment required for success, will 
foster innovation; lead to safety and security for the upcoming LEPs; 
and provide foundational technical and scientific strength to support 
the stockpile over the long term.
Essential Capabilities and Infrastructure
    Sandia's capabilities are essential to its full life cycle 
responsibilities for the stockpile: from exploratory concept definition 
to design and qualification, and ultimately through ongoing stockpile 
surveillance and assessment. Let me point out a few examples.
    The NNSA complex transformation plan designated Sandia as the Major 
Environmental Test Center of Excellence for the entire nuclear weapons 
program. The facilities and equipment we have in this area are 
extensive: (1) 20 test facilities at Sandia-New Mexico; (2) the Tonopah 
flight test range in Nevada; (3) the Weapon Evaluation Test Laboratory 
in Amarillo, TX; and (4) the Kauai test facility. We use environmental 
test capabilities to simulate the full range of mechanical, thermal, 
electrical, explosive, and radiation environments that nuclear weapons 
must withstand, including those associated with postulated accident 
scenarios.
    Significantly, capabilities originally developed in Sandia's 
nuclear weapons program also support other national needs. For example, 
the Thermal Test Complex, one of our major environmental test 
capabilities, is a $38 million world-class suite of facilities 
supporting a full spectrum of technical research: from the basic 
studies of fire chemistry and model validation, to full-scale highly 
instrumented simulations of weapon system safety performance in fuel 
fire accident scenarios. The Thermal Test Complex was funded by Test 
Capabilities Revitalization (TCR) Phase 1, came online in 2006, and 
immediately provided necessary capabilities for the W76-1 LEP. 
Interestingly, expertise in flow visualization, plume evaluation, 
thermal sciences, and fire sciences developed at the Thermal Test 
Complex was recently also used in an area unrelated to nuclear weapons: 
the BP oil disaster.
    Today, TCR Phase 2 funding is needed to renovate our suite of 
mechanical environment test facilities, many of which were commissioned 
in the 1950s and 1960s. These facilities will support the design and 
qualification of the B61 life extension and subsequent LEPs.
    Another unique capability that Sandia stewards for the nuclear 
weapons program and also for DOE's nonproliferation payloads is the 
microelectronics research and fabrication facility, where we design and 
fabricate an array of unique microelectronics, as well as specialty 
optical components and microelectromechanical system, or MEMS, devices. 
This capability includes a national ``trusted foundry'' for radiation-
hardened microelectronics. We have been providing microelectronic 
components to the nuclear stockpile at the highest level of trust since 
1978 and to DOE's nonproliferation payloads since 1982. In 2009, Sandia 
received Class 1A Trusted Accreditation (the highest level of 
accreditation) from the Department of Defense for Trusted Design and 
Foundry Services and is the only government entity with this 
accreditation for both design and foundry operations. We must 
recapitalize the tooling and equipment in our silicon fabrication 
facility, much of which dates back about 15 years in an industry where 
technology changes almost every 2 years. Recapitalization will ensure 
production of the radiation-hardened components required by the 
upcoming reentry-system life extension work.
    Expertise in materials science is required to engineer new 
materials for future stockpile applications, create the physics-based 
understanding of material aging in the current stockpile, and project 
potential performance impacts. Our materials science capabilities are 
essential to our national security mission. Yet, past funding 
constraints in Sandia's nuclear weapons program led to significant 
erosion in materials science. That erosion might have been even more 
serious had Sandia not successfully leveraged materials science 
research in support of its broader national security role. We are 
currently working with NNSA on centralizing our nonnuclear materials 
science funding and thereby enabling a more integrated capability.
    We also have a critical but eroding capability in radiation effects 
sciences. It is my belief that the U.S. strategic arsenal should 
continue to maintain its requirements for radiation hardness. By its 
very nature, U.S. nuclear deterrence requires a nuclear arsenal that 
cannot be held at risk or denied by any adversary. Relaxation in the 
strategic hardness of our designs could be interpreted as a weakening 
of our deterrent posture.
    Nuclear survivability is best addressed through intrinsic design 
properties and cannot be added through modifications to the stockpile 
once a threat changes. During the era of underground nuclear testing, 
we exposed Sandia components to nuclear environments as part of the 
qualification process. Today, in order to create a fundamental 
understanding of the phenomena and failure mechanisms of concern, we 
simulate nuclear environments in aboveground test facilities, create 
computational models of the experiments, and then validate the 
computational models with experimental results.
    However, experimental and modeling and simulation capabilities that 
allow us to assess with confidence must be sustained. In the recent 
past, funding in this area has been erratic, resulting in difficulties 
managing the program and sustaining the critical skills of our staff in 
the important area of nuclear effects simulation.
Broad National Security Work
    Today, national security challenges are more diverse than they were 
during the Cold War. The NNSA laboratories are uniquely positioned to 
contribute solutions to these complex national security challenges. In 
the new environment, synergistic work supporting other national 
security missions is crucial. Indeed, as mentioned in the fiscal year 
2011 Stockpile Stewardship Management Plan Summary, ``while NNSA 
nuclear weapons activities are clearly focused on the strategic 
deterrence aspects of the NNSA mission, they also inform and support 
with critical capabilities other aspects of national security'' (p. 7).
    I will refer to only one of many success stories at Sandia (others 
come from materials science, microelectronics, and computer science), 
showing how capabilities for the nuclear weapons program benefit from 
synergy with other national security programs. It is the story of our 
work in radars.
    Competency in specialized radar applications is a required 
capability for the nuclear weapons program. As a result of initial 
investments in radar fuze capability for nuclear weapons, in 1983 we 
began working on miniature radars based on synthetic aperture concepts 
for nuclear weapons and broader national security activities. In 1985 
we became involved in a program for the Department of Defense to 
develop a high-resolution, real-time synthetic aperture radar (SAR) 
suitable for use in unmanned aircraft. Sandia flew the first such SAR 
prototype in 1990. Follow-on work sponsored by the Department of 
Defense reduced the size and cost of SAR systems, improved resolution, 
and significantly expanded the applications and military benefits of 
radar. Partnerships with industry have transitioned each generation of 
the technology into field-deployable systems. Sandia-designed airborne 
SAR systems are now widely used for real-time surveillance by the U.S. 
military.
    In this example, the original radar competency of the nuclear 
weapons program was improved by this work for the Department of 
Defense. The resulting advanced radar competency made it possible to 
apply new technology to the updated fuzing system for the W76-1 life 
extension. This updated fuzing system would not have been possible 
without the competency that was maintained and advanced by work for the 
Department of Defense.
                      verification and monitoring
    Sandia has had a long tradition of ingenuity and engineering 
excellence in developing technologies for verification and monitoring 
to support efforts in nonproliferation and nuclear security as 
demonstrated, for example, by our successful record of involvement with 
international treaties: from the VELA Satellite Programs (1960s) to the 
Intermediate-Range Forces Treaty (INF, 1987) and from there to the 
Strategic Arms Reduction Treaty (START, 1994). The New START treaty 
signed in Prague in April 2010 aims to enhance predictability and 
stability and thus security, and verification activities will monitor 
compliance with limits and other obligations set forth in the treaty.
    While details of Sandia's activities in verification can best be 
presented in a classified environment, I will state here that we have 
carefully reviewed the New START treaty and understand the limits and 
obligations as well as the changes to the inspection protocols. Sandia 
will continue to support the government by providing the best technical 
solutions and expertise required. The current language of the New START 
treaty mentions the radiation detection equipment, which was developed 
and manufactured at Sandia and used in the previous START, as a key 
piece of equipment for verification purposes under the terms of the new 
treaty. In addition, between September 2009 and April 2010, two Sandia 
experts served as technical advisors on the delegation that negotiated 
the New START treaty.
                              conclusions
    As stated in the NPR, ``as long as nuclear weapons exist, the 
United States will maintain a safe, secure, and effective nuclear 
arsenal'' (p. iii). The upcoming decade will be demanding as we conduct 
a number of life extension programs under compressed schedules, 
modernize our aging facilities, and invest in human capital.
    Within the context of the nuclear weapons policy presented in the 
NPR Report and the collective guidance for implementation provided in 
the fiscal year 2011 Stockpile Stewardship and Management Plan, Section 
1251 Report, and the Department of Energy fiscal year 2011 
Congressional Budget Request, and under the New START treaty terms, I 
am confident that Sandia can provide the required support for the 
Nation's nuclear deterrent. That confidence is based on our assessment 
of the stockpile management requirements against our mission and 
product space and our capabilities.
    The New START treaty, if ratified and entered into force, would not 
constrain or interfere with the upcoming stockpile life extension 
imperatives. It would not change our planned approach or the tools we 
will apply. It would not limit the required introduction of modern 
technologies into existing warhead designs and the realization of the 
attendant benefits. However, it would reinforce the imperative to 
ensure a modern stockpile and a strong, responsive infrastructure as we 
move toward a smaller nuclear arsenal.
    As a whole package, the documents describing the future of U.S. 
nuclear policy represent a well-founded, achievable path forward, which 
I understand and support. However, as we stand on the threshold of the 
new era of stockpile stewardship and management, we must recognize the 
challenges inherent in this framework. A significant body of work will 
be required to sustain the deterrent into the next two decades, and we 
must ensure that resources are commensurate with the requirements and 
expectations. The administration's fiscal year 2011 budget request 
reflects a strong alignment among the White House, the Department of 
Defense, and the NNSA, and it recognizes the magnitude of our future 
work scope. The fact that the three national security laboratory 
directors were invited to speak before you today is a clear indication 
of the leadership role of Congress in authorizing a path forward for 
U.S. nuclear deterrence. Our success in sustaining the stockpile rests 
on program stability, multiyear sustained funding, a clear national 
commitment to the U.S. nuclear deterrent, and the opportunity to 
perform innovative technical work in the service of the Nation.

    Chairman Levin. Thank you very much, Dr. Hommert. We thank 
all of our lab directors and their staffs for the great work 
that you do.
    Let's see if we could finish--I'm not sure we can--by 11 
o'clock, but let's try, and we'll try with a first round of 6 
minutes towards that goal. If we don't finish, we'll just come 
back after the vote.
    The NPR states a preference for refurbishment or reuse as I 
understand it. Is that correct?
    Dr. Anastasio. Yes, sir.
    Chairman Levin. Of the three Rs.
    Now, does that preference constrain the labs in any way in 
your review of life extension options? Dr. Anastasio?
    Dr. Anastasio. I don't believe that overly constrains us, 
Senator. We still have the directive to look at the full range 
of options as we consider the requirements and the best 
technical path forward. As I said in my opening comments, I 
feel it's my obligation, not just the request but my 
obligation, to bring forward the best technical ideas in every 
case. So it's not a perfect solution, but I think it's one that 
gives us the flexibility we need, that we can have adequate 
levels of confidence in, to stimulate the workforce to do the 
creative and innovative things they always do to support such a 
national important issue.
    Chairman Levin. Dr. Miller, do you basically agree with 
that?
    Dr. Miller. Yes, sir, I agree with Dr. Anastasio's 
statement.
    Chairman Levin. Dr. Hommert, would you agree with that?
    Dr. Hommert. Yes, I agree. I want to point out that for our 
components, the non-nuclear components, we are typically in a 
replacement mode by the very nature of it, and reuse where 
appropriate and refurbishment as well.
    Chairman Levin. It's been alleged by some that the NPR is 
going to stifle creative and imaginative thinking. Do you agree 
with that, Dr. Anastasio?
    Dr. Anastasio. No, sir. I think that by looking at the full 
spectrum of options on a case-by-case basis, that's just the 
opportunity we need to stimulate the creativity of our 
workforce.
    Chairman Levin. Dr. Miller?
    Dr. Miller. I very much agree with Dr. Anastasio. As he 
said, I really do believe very strongly that it is my 
responsibility to make sure that the workforce at the 
laboratory considers the full range of options. They will 
naturally want to do that on their own.
    Chairman Levin. That you feel that that is what you have 
the authority to do?
    Dr. Miller. Yes, sir. I believe we have not only the 
authority, but I believe we also have the direction to do that.
    Chairman Levin. Dr. Hommert?
    Dr. Hommert. Yes, I agree.
    Chairman Levin. Dr. Schwitters, the JASON Life Extension 
Study Panel found that the lifetime of today's nuclear weapons 
could be extended for decades with no anticipated loss in 
confidence by using approaches similar to those employed in 
life extensions to date, and that's a critically important 
conclusion that appears to confirm that the current weapons in 
the stockpile will be able to continue to meet military 
requirements and maintain safe, secure, and reliable using one 
of the three R approaches that you've all mentioned now.
    Did the JASON study find that the replacement option would 
introduce the most significant degree of change in the 
stockpile?
    Dr. Schwitters. I'd like to take a narrower answer on that.
    Chairman Levin. Sure.
    Dr. Schwitters. Again, some of the systems are being 
replaced successfully, and they stand the scrutiny that the 
labs give them and that we've seen in coming back. So I would 
like to say I think it's very important that the labs explore 
these replacement strategies and they may be needed in some 
future requirements. But I think it's our feeling that basing 
further work on the knowledge base that exists through the 
other two strategies is the path of least risk at this point.
    Chairman Levin. Thank you.
    Now, our lab directors have all mentioned shortfalls in 
previous years' budgets. As I understand it, there were 
significant layoffs in the fiscal year 2008 budget year, that 
the budgets in fiscal year 2009 and fiscal year 2010 provided 
some small financial improvement, although I understand that 
some layoffs continued in fiscal year 2009.
    First of all, you can comment on that when answering the 
question. The budget in fiscal year 2011 as I understand it 
will allow you to begin to recover from the shortfalls in 
previous years' budgets; is that correct, Dr. Anastasio?
    Dr. Anastasio. Mr. Chairman, since 2006 at LANL we've 
reduced the workforce by over 2,200 people. That's a 
significant fraction of the workforce. Yes, with the proposed 
2011 budget by the administration that will in fact stabilize 
the workforce and I think put us back on a track that starts to 
improve the situation that we've been seeing in recent years.
    Chairman Levin. Dr. Miller?
    Dr. Miller. Yes, sir. At LLNL we have reduced the workforce 
since 2007 by about 2,000 people. About a third of those were 
highly-trained scientists and engineers, so that has been a 
significant concern. The fiscal year 2011 budget starts us back 
in the right direction. It allows us to grow a little bit with 
inflation, and puts us back on the right course. It does not 
include all of the things that we will need over the long term, 
but it is an extraordinarily good first step.
    Chairman Levin. Thank you.
    Dr. Hommert?
    Dr. Hommert. Yes, since the period from 2006 through 2008 
at Sandia we've reduced by about 800 the staff associated with 
the core nuclear weapons activities at the laboratories. The 
majority of those staff moved to other national security 
imperatives that we are working on.
    When I look at the fiscal year 2011 budget, for us the 
change is dominated by the commitment we have to execute the 
B61 LEP, which needs to begin immediately, and that budget is 
adequate for us to begin that effort.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    A letter, which I'd like to submit for the record, dated 
May 19, 2010, to Secretaries Gates and Chu from 10 former and 
well-respected lab directors, cited significant concern with 
the guidance set forth in the administration's NPR to give 
strong preference to options for refurbishment or reuse. The 
former directors state that such guidance imposes unnecessary 
constraints on our engineers and scientists and that, based on 
their experience as former lab directors, they believe that 
this higher bar for certain life extension options will stifle 
the creative and imaginative thinking that typifies the 
excellent history of progress and development at the national 
laboratories, and indeed will inhibit the NPR's goal of honing 
the specialized skills needed to sustain the nuclear deterrent.
    [The information referred to follows:]
      
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. I take it from the witnesses' statements 
today you disagree. Are these 10 former lab directors 
misinformed, wrong, or why does there seem to be some 
difference of opinion here? Beginning with you, Dr. Anastasio.
    Dr. Anastasio. Thank you, Senator. It's certainly true that 
there are restrictions in the NPR on how to proceed forward 
with engineering development. But I still believe that it's 
very clear that we have both the authority and the 
responsibility to explore on a case-by-case basis what's the 
best technical approach for each weapons system to extend its 
life well into the future, to include the full range of options 
that will spark and stimulate the innovation and creativity of 
our workforce.
    Recall, where we've been is that we have not pursued even 
reuse as a strategy in recent years. So I think opening these 
options up will be very important to the workforce for us to be 
able to train and transfer knowledge to a newly, highly capable 
workforce that we will need for the future.
    Senator McCain. I understand all that and I appreciate it. 
But the 10 directors are misinformed or you just have a simple 
disagreement?
    Dr. Anastasio. It's a matter of emphasis, that certainly 
having no restrictions would be the more perfect solution, but 
I believe with the way the NPR is written that we have an 
adequate level of technical flexibility to carry out our 
mission.
    Senator McCain. Dr. Miller.
    Dr. Miller. Yes, sir. Thank you, Senator. I believe that 
the concern expressed by the former lab directors is obviously 
a legitimate concern. It's a concern that I have. However, I 
agreed with Dr. Anastasio; I believe that the situation we have 
is a workable one. As I said, it is my responsibility to make 
sure that the full range of options and creativity are 
exercised by our workforce, by our designers, in bringing forth 
for consideration by Congress and the administration for all of 
the potential options for improving the stockpile in the 
future. So I believe it's a workable situation.
    Senator McCain. So you agree, but you think it's workable? 
Is that sort of your answer?
    Dr. Miller. Again, as I said, it is a concern. It's 
something I pay a lot of attention to. I believe we can work 
with the situation as it's currently described.
    Dr. Anastasio. I would agree with that.
    Senator McCain. Thank you.
    Dr. Hommert.
    Dr. Hommert. I think this issue sits largely in the space 
of my colleagues because it mostly focuses on the nuclear 
components. From our standpoint, the most dominant issue is 
that when we look at the next decade and the B61 LEP, the W78 
LEP, that we commit to a full-scope effort on those, first in 
largely a refurbishment space, using the language applying to 
the nuclear package, and in the reuse space on the W78 LEP, and 
that we commit to full-scope replacement of non-nuclear 
components.
    Senator McCain. I understand your position. Now I'd like 
the answer to the question.
    Dr. Hommert. I believe that, from my perspective, there is 
sufficient intellectual challenge and opportunity for 
innovation that our staff can--in the context of work over the 
next decade, that affords the strength of our deterrent and the 
intellectual capability of the staff; that language is not 
restrictive in that regard.
    Senator McCain. Thank you.
    Dr. Schwitters.
    Dr. Schwitters. Sir, I disagree with the statement in the 
former directors' letter. I think it fails to properly account 
for the knowledge that has been a result of ongoing stockpile 
stewardship and into the future. In working with the labs and 
knowing the people as we know them at the labs, there are tough 
technical scientific challenges that are well within the scope 
of the NPR, that need to be met, and, I think, under this 
question of stability in the workforce that came up before, 
offers opportunities for people to really grow professionally 
and to explore the full range of physically sensible solutions.
    So I don't agree with them, and I've spoken with some of 
the directors on that list about it.
    Senator McCain. Thank you, Dr. Schwitters. I wasn't asking 
about knowledge or challenges. I was asking about whether this 
policy would constrain our ability to replace as well as to 
refurbish.
    But you've also addressed my next question, and it's a very 
delicate question as to whether you are pleased at the 
increased commitment of funding and whether that is sufficient 
in order to get the job done to comply with our Nation's 
national security needs?
    I am pleased with the commitment to increased funding, as I 
know you are. But there is, I think, a large question that 
looms out there, Mr. Chairman, of whether that is just a 
welcome increase, which we all welcome, but whether it is also 
sufficient to meet the needs, the increased needs we have in 
compliance with the New START treaty.
    I thank you, Mr. Chairman. I thank the witnesses.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    First let me thank the four witnesses for the service that 
you do to our country. I think it is largely unknown, 
unappreciated, but extremely critical to the security of the 
American people and the security of a lot of people elsewhere 
in the world.
    Look, we all wish that we lived in a world without nuclear 
weapons, but wishing does not make it so. As you look around 
the world, it seems that the conflicts between people and 
nations grow and that, once again, the nuclear weapons capacity 
seems to be growing. That is, after the reduction after the 
collapse of the Soviet Union.
    So while I for one am in the process of reviewing the New 
START treaty and hope that I can be in a position to vote to 
ratify it, it seems to me that, based on what we know about the 
reality of the world today, that as we reduce the number of 
deployed nuclear weapons in our stockpile, we have to make sure 
that, to put it in simplistic terms, they work. That's what 
this really is all about.
    Incidentally, as you well know, just to state for the 
record, there are a lot of people in the world who depend on 
the safety, security, and effectiveness of America's nuclear 
stockpile for their own security. In fact, the safety, 
security, and effectiveness of our nuclear stockpile is one of 
the major inhibitions or blocks to more nuclear proliferation, 
because there are nations in Asia and the Middle East 
particularly that have not developed their own capacity because 
they rely on our protection. So what we're talking about here 
is really important.
    Dr. Hommert, you said something that I thought was really 
important, which is that most of the weapons--because a lot of 
this is education or re-education for Members of Congress--most 
of the weapons in the current stockpile--I'm quoting from you--
``were designed at a time when long design life was not 
typically a high priority design requirement.''
    I heard from someone who is an expert in this field that 
today the average age of the nuclear weapons in our stockpile 
is older than it's ever been before. Is that right?
    Dr. Hommert. Yes, sir, that's correct.
    Senator Lieberman. So that's part of the pressure on us to 
make the kinds of investments that we're talking about and that 
the four of you have asked for, correct?
    Dr. Hommert. Yes, Senator.
    Senator Lieberman. Other nations have gone in other 
directions in the development of their nuclear weapons 
stockpiles, correct?
    Dr. Hommert. Yes.
    Senator Lieberman. Okay. Now let me go to Dr. Miller. You 
point out in your prepared statement that the NNSA's budget 
crunch that we've imposed on you in recent years has--and I'm 
going to mention two parts of what you said--``postponed 
important deliverables in science, technology, and 
engineering.'' To the extent that you can in open session, Dr. 
Miller, give us a little more detail on what you meant.
    Dr. Miller. Yes. Part of the science, technology, and 
engineering program, what we call the science-based stockpile 
stewardship program, is intended to understand in a more 
fundamental way the workings of a nuclear weapon. It is in many 
respects the key intellectual challenge. The delivery of that 
understanding has been delayed from what was originally 
anticipated because of the slower pace of work.
    An example of what I'm talking about, again in an 
unclassified form, a scientist from LLNL whose name is Omar 
Hurricane this year received the E.O. Lawrence Award from 
Secretary Chu. The details are classified, but he received that 
award for proposing a theoretical solution to one of these 
weapons physics challenges. That theory has yet to be validated 
because the experiments that would validate that theory have 
not yet been done. So that's an example of the delays that I 
was talking about.
    Senator Lieberman. The next phrase in your statement is 
that the budget crunch you've been under ``has delayed 
resolution of identifiable stockpile issues.'' Did you cover 
that in your answer to the first one?
    Dr. Miller. It's similar. The more detailed answer is we 
look at the stockpile every year, all three labs, the plants. 
We find what we would call politely ``anomalies,'' things that 
are different than we expect them. We have to answer the 
question of does that matter? Again, it's like a piece of rust 
on your car. It matters where it is and how big it is. The time 
for resolving those issues has been longer than I think is 
justified.
    Senator Lieberman. One of the bottom line questions for me, 
anyway, in this matter is that, since we're discussing the 
sustainability of our nuclear deterrent under New START, I want 
to ask the three directors the most objective question based on 
budget that I can, which is about fiscal year 2011. Implicitly, 
I'm asking about the kinds of goals that are set for longer-
range funding.
    If Congress fails to provide the increased funding 
requested in the fiscal year 2011 budget and described in the 
section 1251 report, are you certain that our national 
laboratories will be able to continue to certify the safety, 
security, and effectiveness of the smaller stockpile envisioned 
in New START without testing?
    Dr. Anastasio?
    Dr. Anastasio. Senator, if that were the case I would be 
very concerned about the future. One of the things that has 
been happening in recent years with the budget scenarios that 
we've faced is that, with the focus on the stockpile, the 
urgency of the near term, the concerns about the state of our 
facilities, we've been squeezing more and more on the science, 
technology, and engineering part of the budget. That is the 
investment in the long term. The activities that we're able to 
carry out today are based on the investments we made 5 and 10 
years ago.
    Senator Lieberman. My time is actually up, so let me ask a 
quick question. Are you concerned that if we don't meet the 
funding increase goals that we're talking about for fiscal year 
2011 and beyond that you may reach a point where you won't be 
able to certify the safety, security, and effectiveness of our 
nuclear stockpile without testing?
    Dr. Anastasio. I'll be very concerned about my ability to 
do that. We will be in a position where we're not looking at 
the issues, and so if you don't look you don't know what the 
issues are. The tools that we have available for us may well 
not be adequate to answer the questions that are before us.
    It's both important what the near-term budget looks like, 
but it's important that we understand the funding over the full 
life of the program, which in this case is several decades 
long.
    Senator Lieberman. Right.
    Dr. Miller, Dr. Hommert, can you give a quick answer? I 
apologize because I know it's a big question.
    Dr. Miller. I would point you to some testimony that I gave 
a couple of years ago to the Senate, in which I said that if 
the funding trends continue it is my judgment that the 
fundamental premise of stockpile stewardship is at risk.
    Senator Lieberman. Thank you.
    Dr. Miller. I believe that's true.
    Senator Lieberman. Thank you.
    Dr. Hommert?
    Dr. Hommert. Without the fiscal year 2011 request, we will 
see immediate impact on the strength of our surveillance 
program and very much on our ability to sustain the B61 as a 
viable weapons system through the decade.
    Senator Lieberman. Thank you all.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Chairman, we have sent a letter to you requesting a 
hearing on the New START. I just want to get this in the 
record. I also serve on the Senate Foreign Relations Committee. 
We've had, I think, about 12 hearings. We've had 25 witnesses. 
Although two of the witnesses were kind of open; they had some 
objections--that was Robert Joseph and Eric Edelman; we all 
know them--the other ones, there was not one witness who was 
opposed to the New START treaty.
    So the request I have--and that has been signed by some 11 
members--is that we hold a hearing where we will have some of 
the witnesses, and we even made some suggestions. So I'm hoping 
we'll be able to do that.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. We're hoping also to be able to do that.
    Senator Inhofe. Yes.
    Chairman Levin. We've been working with the minority on the 
witnesses. The dates which----
    Senator Inhofe. I appreciate that and I know you will. We 
went through this----
    Chairman Levin. Well, if I could just complete my sentence.
    Senator Inhofe. I'm sorry.
    Chairman Levin. The dates which we proposed, they were not 
able to make it. So we are working closely with minority and 
minority staff to make it possible, because we also want to 
make that happen. So we'll continue to try to work with those 
witnesses.
    Senator Inhofe. Mr. Chairman, this is not any way a 
partisan suggestion, because we went through this same thing on 
the Law of the Sea Treaty and that was actually proposed during 
the Bush administration, and we had from the Senate Foreign 
Relations Committee no one opposed to it. But we did then hold 
very productive hearings on that. So I appreciate that very 
much.
    Chairman Levin. We are trying very hard to make that 
happen. I agree with you, it's not a partisan issue.
    Senator Inhofe. Yes, sir.
    Getting back to the budget, because we've all talked about 
that and we talked about the adequacy and the fact that 
previous budgets were not adequate. Yet it appears to me that 
most of the increases that I see here are really in the out-
years. The National Security Enterprise Integration Committee 
in its recommendation had recommended, I believe, in fiscal 
years 2011, 2012, and 2013 $7.3 billion, $7.8 billion, $8.3 
billion, and yet it was reduced substantially in the 
President's budget for those particular years.
    So when you talk about the adequacy--I'd like to have each 
one of you respond to this--are you talking about it would be 
in the out-years? The administration has proposed a budget 
increase of $10 billion over 10 years, a total of $80 billion. 
Yet under the administration's projections 70 percent of the 
$10 billion increase will not show up until fiscal year 2016. 
Is that a concern to you, or are you perhaps looking at these 
future years in terms of the adequacy of the budget?
    Dr. Anastasio. Senator, I'm very concerned about that 
budget profile, that there needs to be adequate funding to 
align the expectations of the program with the fiscal realities 
that we have. That profile delays many of the issues that are 
of concern to us, especially in the science and engineering 
arena.
    The key for any program any particular year is an 
interesting question, but the question is really what does the 
profile look like over the full extent of the multi-decade 
program.
    Senator Inhofe. Keeping in mind that there's no assurance 
that that will be there in out-years.
    Dr. Anastasio. Correct, I understand that, especially with 
the fiscal environment the country faces. So that is a concern 
and we understand that.
    I think it's important that in the near term as we go 
through this period, that if those budgets are the reality that 
we have a balanced program during that time and that we don't 
sacrifice one part of the program to accomplish another.
    Senator Inhofe. I understand that.
    Dr. Hommert, you probably talked about the B61 more. I 
always feel a little inadequate when we have experts like you, 
that there is probably an assumption that you think we know 
more than we do know. On this B61 program, in talking with my 
military legislative assistant earlier today, he was dropping 
those out of F-111s 25 years ago.
    Now, I assume that we've had a lot of technological 
improvements, but it's more of a complete overhaul that you've 
been referring to. Is that accurate?
    Dr. Hommert. Yes, Senator, that's accurate. In my view, we 
need to execute the full-scope refurbishment and replacement of 
non-nuclear componentry.
    Senator Inhofe. Are you confident you're going to have the 
resources to do that?
    Dr. Hommert. Let me answer that in two steps. The fiscal 
year 2011 budget does have the resources for us to very 
critically complete, in our vernacular, what we call a Phase 6-
2A, or a costing study, which firms the requirements and sets 
the cost basis. Then through the rest of what we call full-
scale engineering development out through fiscal year 2017, we 
then will have a firm picture. We'll have to have sustained 
commitment from here to there to execute this program.
    Senator Inhofe. Okay. I would agree with that.
    You mentioned, Dr. Hommert and also Dr. Anastasio, a 
problem that I really wasn't aware of until we started 
preparing for this hearing, and that is what's happening to our 
technological base, the people, the scientists, and that we're 
not replacing them. I think you said that some 38 percent will 
be over 55 years old. Is there an adequate base, or what are we 
going to draw from? Do we have a recruitment-like program going 
on to resolve that problem?
    Dr. Anastasio. Yes. Certainly we have a very outstanding 
workforce and we're still able to attract very good people. But 
the question is, with the budgets that we've had--and we 
mentioned the reductions that we've had at the laboratory--
right now we're doing very little to renew and replace turnover 
with new people in the workforce.
    Senator Inhofe. So you don't think we're really competitive 
then, are we?
    Dr. Anastasio. We are competitive at the moment, but I'm 
worried about the future. That's my concern.
    Senator Inhofe. Do you all agree with that?
    Dr. Miller. Yes, sir. At LLNL we live in a very dynamic 
area, the Bay Area of San Francisco. However, we have 
historically been able to recruit and retain people in the 
nuclear weapons program. Our decline is principally financially 
driven. So if the commitment on the part of the country is 
there, we as a laboratory can deliver what is expected of us in 
terms of bringing in the highest quality science and 
technology.
    I would just comment, and to the earlier question on the 
issue of the long-term sustainability, I am also very concerned 
about the out-years. An additional reason that I am concerned 
is because most of these major projects that are taking up 
funding in the out-years do not yet have very good cost 
baselines.
    Dr. Hommert talked about the B61. The same thing is true 
for the major facilities. Those projects generate a tremendous 
amount of uncertainty in our minds about not only what the 
costs are, but equally important, what are the resources that 
are going to be required.
    Senator Inhofe. That's good.
    Dr. Anastasio, just one thing that you mentioned twice in 
your oral testimony. You used the term ``acceptable level of 
risk'' and ``adequate level of risk.'' Could you just make a 
short comment on how you define the risk and what is adequate 
or acceptable?
    Dr. Anastasio. Sir, of course there are very many different 
types of risk and we face that every day, as you do in your job 
as well. There are the technical risks, there are the 
programmatic risks of funding, and there are the risks of 
surprises that you don't anticipate. How do you manage your way 
through all of those issues?
    Acceptable levels of risk. It's certainly true as a 
scientist that we are taking technical risks in what we do. 
We're not doing a nuclear test. We're not testing the full 
system. We already talked about what the path forward will take 
for refurbishments, life extensions. But I believe when I say 
``adequate levels of risk,'' I believe that the risks are 
there. There is not a no-risk version. The risks that are there 
are manageable, and we can deliver on our responsibilities.
    Senator Inhofe. That's fine. My time has expired, but for 
the record, Mr. Chairman, I'm going to ask each one to take the 
letter from these previous directors and respond in writing as 
to how you agree or disagree with these assertions that were 
made, if you would please do that.
    Thank you very much.
    [The information referred to follows:]
      
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
    Dr. Miller's additional response.

    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
    Dr. Schwitters. I disagree with the assertion made in the letter by 
former laboratory directors that language in the Nuclear Posture Review 
(NPR) imposes ``unnecessary constraints on our engineers'' that will 
``inhibit the NPR's goal of honing the specialized skills needed to 
sustain the nuclear deterrent.'' The NPR states: ``The United States 
will study options for ensuring the safety, security, and reliability 
of nuclear warheads on a case-by-case basis, consistent with the 
congressionally mandated Stockpile Management Program. The full range 
of Life Extension Program approaches will be considered: refurbishment 
of existing warheads, reuse of nuclear components from different 
warheads, and replacement of nuclear components.'' This is as clear a 
statement of policy as one can imagine and it explicitly encourages 
weapons scientists and engineers to examine the full range of technical 
possibilities for extending and modernizing the Nation's stockpile.

    Chairman Levin. Thank you.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today and for the 
opportunity yesterday to preview the conversations we're having 
today.
    The question of funding is always going to be an issue 
because of the way in which budgeting is accomplished at this 
level, because we don't have multi-year budgets. You are 
concerned about the future, as we all are, because the next 
year and the following year we'll have to sustain the level of 
funding that we've started in order for you to fulfill your 
obligations.
    Do you have any reason other than concern about the way in 
which budgeting works that there won't be this commitment in 
the future to fund the program so that you can deal with 
compliance and the requirements that are there? In other words, 
apart from the uncertainty of the budgeting process, is there 
anything else out there that would cause you to believe that we 
won't fund at that level? Dr. Anastasio?
    Dr. Anastasio. I think that there are several things that 
could help contribute to sustainability of these programs for 
the future. One would be the national consensus on the policy. 
The administration has brought forward a nuclear policy view 
with the NPR. If that can serve the basis of a national 
bipartisan consensus on the path forward, then there's a 
baseline understanding of what we're all trying to accomplish, 
and that will help guide all future Congresses and 
administrations about what we're trying to do.
    I also believe that it will be important to keep our focus 
on these issues. How do we do that? I'm not sure I know the 
answer, but one suggestion would be to have a hearing like this 
over the years.
    Senator Ben Nelson. There is something about things getting 
on the record that provides some degree of certainty.
    Dr. Anastasio. A third suggestion is that some treaties in 
the past have had safeguard approaches that are built into 
them. Those could be another kind of approach that we could 
take to allow the administration and Congress and the American 
people to keep a focus on these issues to make sure we're on 
track for what we're trying to accomplish.
    Senator Ben Nelson. It won't do us any good to go 100 miles 
north one year and 100 miles south the next year on funding or 
on the structure of what your work would be with keeping the 
stockpile current.
    Dr. Anastasio. I would agree with that completely, and that 
would be a very challenging environment to be in to maintain an 
outstanding workforce as well.
    Senator Ben Nelson. Does anybody have anything different to 
say or are you generally in agreement?
    Dr. Miller. I would say I'm very much in agreement with 
what Dr. Anastasio talked about. I think, as he indicated, 
there are a number of mechanisms that seem to me to be 
available to Congress to maintain sustainability.
    Another example is in the context of the national decision 
to stop doing nuclear testing. There is an annual assessment 
that each of us do of the stockpile each year. It's classified. 
It is made available to all levels of government, again a 
status report on how are we doing, what are the issues. So 
again, I believe there are multiple mechanisms available to 
create the kind of consensus and stability and understanding 
and focus.
    Senator Ben Nelson. Dr. Hommert?
    Dr. Hommert. I agree with my colleagues. I would just add 
that if we get 2011 right and begin the LEP, it creates a 
momentum very visibly for moving down that path, which 
hopefully will again create a basis for greater sustained 
support, in addition to what my colleagues have added.
    Senator Ben Nelson. At the very least, I think it's 
accurate to say that the fiscal year 2011 budget is reversing 
the negative trend that you've experienced with budgeting in 
the past. Is that fair to say, too?
    Dr. Hommert. Yes.
    Dr. Miller. Yes, sir, it is.
    Dr. Anastasio. Yes, sir.
    Senator Ben Nelson. In monitoring through the New START 
treaty, can you give us your efforts of how we would monitor if 
we didn't have the New START treaty? Do we have any capability 
of monitoring that would be exclusive of, let's say, the New 
START treaty?
    Dr. Miller. Yes, sir. The New START treaty has some very 
specific provisions. We do gather intelligence through national 
technical means, satellites, and other mechanisms. All three 
laboratories work with the IC to analyze that. I think it is 
fair to say that the treaty does add to the ability to inspect 
sites, so it is a significant addition. But there is capability 
to understand what's going on independent of the treaty.
    Senator Ben Nelson. But the New START treaty would enhance 
your ability to monitor, is that fair to say?
    Dr. Miller. Yes. It's not ours, but, yes, the country's 
ability to monitor.
    Senator Ben Nelson. Dr. Anastasio?
    Dr. Anastasio. I would agree with that, yes, sir. We don't 
have the lead role for the country in that. That's done by 
other agencies. But we are very much supportive of that, and I 
would agree that with New START we will have further extended 
opportunities to understand.
    Senator Ben Nelson. A final question here. My time is up. 
Do each of you support the New START treaty?
    Dr. Anastasio. As a lab director, it's not really my 
position to support a treaty. That's not our role. But I 
believe that with the treaty outlined and the program that the 
administration has put together that we can carry out all our 
responsibilities that are underneath the treaty if we can deal 
with these long-term sustainment issues. So in that context, 
I'm very comfortable with the treaty.
    Senator Ben Nelson. Dr. Miller?
    Dr. Miller. Yes, sir. My view is very similar. My job as a 
laboratory director is to provide the government, Congress, and 
the administration my best technical advice. Under the treaty, 
I can do the job that has been outlined for me. Similarly, we 
were part of the concurrence in the National Intelligence 
Estimate (NIE) about the monitoring of the treaty and we 
concurred in those key judgments.
    Senator Ben Nelson. At the risk of getting you into 
politics, too, Dr. Hommert, what are your thoughts?
    Dr. Hommert. Very consistent with my colleagues. As I said 
in my oral testimony, the treaty highlights the imperative of 
what we're talking about here today in terms of moving forward 
on strengthening the basis of the deterrent.
    Senator Ben Nelson. Thank you all.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Sessions.
    Senator Sessions. Dr. Miller, I missed, I think, your 
response to Senator Nelson's question, that you agreed that it 
would enhance our ability to monitor. Are you saying the New 
START treaty would enhance the United States' ability to 
monitor the actions of the Russians?
    Dr. Miller. Yes. Our ability to monitor the actions of the 
Russians is enhanced over not having the treaty. That was my 
view.
    Senator Sessions. Are you saying it's enhanced it over 
current monitoring abilities?
    Dr. Miller. Yes. Currently, of course, the original START 
treaty is no longer in effect, we have no onsite inspection 
rights, and the New START treaty would put those back into 
place.
    Senator Sessions. Some of them. Former Secretary of State 
James Baker has raised questions and experts have, and it's 
pretty clear that we will not have as good an ability under New 
START as under the previous START to monitor the Russians. Do 
you disagree with that?
    Dr. Miller. That's a different question.
    Senator Sessions. Right. Let's get this straight. The 
impression here is being left that that's not very accurate, I 
think.
    Dr. Miller. Again, the question that I answered earlier was 
over current, in which case we have no inspection rights. Is 
this better? My answer to that was yes. There are differences 
between the previous START treaty and the proposal under the 
New START treaty. As I said in my testimony in answer to the 
question, we did engage in the coordination of the NIE and did 
concur in their key judgments.
    Senator Sessions. I would just share my colleague, Senator 
Inhofe's, concern about the out-years. When you talk about 
something in this body dealing with years 6, 7, 8, that is like 
fantasyland. That's through the looking glass. We have no 
ability to count on what will happen in those years.
    This committee voted, Dr. Anastasio, I think close to 
sufficient funding on a RRW and other matters, but other 
committees took it out and we eventually lost that. I do think 
you've taken too many hits, all of you, in the last several 
years, and it's not a very smart way to do it.
    I was troubled particularly, Dr. Anastasio, in your 
comments that you've been having to squeeze more on the science 
and technology part of the budget. To me that's particularly 
concerning. Indeed, the new spending that's projected in this 
budget seemed to me to be on the construction of facilities and 
buildings and not much earmarked for the science and 
technology.
    Do you think we've struck the right balance there, assuming 
all this money actually were to be appropriated in the distant 
future?
    Dr. Anastasio. I certainly think that I agree with you, 
sir, about the uncertainty of budgets 6 or 7 years from now. Of 
course, you have much more experience in that than I. But that 
is a concern to me. I have testified in the past, in 2008, that 
I've been very concerned about the sustainability of the 
program over the long term if we didn't fix this.
    I think the budget in the fiscal year 2011 proposal is a 
start to that fix, but as a good program manager you know it's 
what's the lifetime of the program and the funding over that. 
The money that's allocated to the new facilities and to the 
stockpile is important because those are issues that need to be 
addressed, but I do fear that there has been a history of 
having an imbalance in the program. We've sacrificed the 
science to the near-term deliverables, and we need to align our 
expectations of what's really possible in a fiscal sense with 
what needs to get done and make sure we do that in a balanced 
way. Our appetite should be aligned with what's achievable.
    But I'm very concerned that the out-year funds will be 
there and then, as Dr. Miller said, we don't even have 
baselines yet for the significant costs of these major efforts 
about the life extensions or about the nuclear facilities. So 
you would want to be able to expect that as those baselines are 
adjusted to the realities that you have, then you'd like to be 
able to adjust the budget to that as well.
    Senator Sessions. Dr. Schwitters indicated that we may be 
good for a decade or so with this maintenance of the current 
stockpile. But if it were good for 15, 20 years more, don't we 
today need to be thinking about when and how we're going to 
need to replace what at some point appears to me would become 
outmoded or at risk?
    Dr. Anastasio. We certainly need to be able to today start 
taking actions to refurbish the stockpile for the future.
    Senator Sessions. The Nation needs to be very mature about 
this and to develop a long-term, 20, 30, 40-year plan to go 
forward, would you not agree, that is rational and makes sense?
    Dr. Anastasio. Absolutely.
    Senator Sessions. The only problem is that if the President 
had his way, the three of you wouldn't have jobs because he 
wants no nuclear weapons. It's his stated goal, and this makes 
us all a bit nervous about what our future is.
    I think it's clear with regard to the New START treaty that 
this treaty will not be ratified unless we have confidence that 
we have a plan in place to maintain and modernize and replace, 
if needed, our nuclear weapons.
    My time is up, but thank you, Mr. Chairman. That's my 
concern.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Dr. Anastasio, my understanding is that the goal of the 
Nuclear Nonproliferation Treaty, which has been in effect for 
many years, is the elimination of nuclear weapons. Is that 
accurate?
    Dr. Anastasio. I'm not an expert on the Nonproliferation 
Treaty, sir, but I think it sets out a goal of a world that's 
free of nuclear weapons, that's for sure.
    Senator Reed. So this is not some current trendy, chic 
thing that the President's talking about.
    Dr. Anastasio. I will say that the administration has made 
clear as well that on our path to a world without nuclear 
weapons, if we could ever achieve that, that we must maintain a 
safe, secure, and effective stockpile on that path. I must say 
personally, I have a hard time imagining what the world--it 
would be a very special world that's a world that's free of 
nuclear weapons, now that we have figured out how to do that.
    Senator Reed. Let me ask you. We've been talking a lot 
about the out-years, but the Secretary of Defense just on June 
17th announced a transfer of $4.6 billion to NNSA. The 2011 
budget represents a 13.5 percent increase. Is this the first 
significant increase in funding you've had in many years to the 
NNSA enterprise?
    Dr. Anastasio. Yes, sir.
    Senator Reed. So interesting to talk about the out-years, 
but in fact this is the first administration that has made a 
significant commitment of resources--the first in a long time--
to actually begin to address the issues with real dollars of 
the nuclear enterprise; is that correct?
    Dr. Anastasio. I believe that this NPR and the budget for 
2011 proposal is a strong commitment on the part of the 
administration.
    Senator Reed. Dr. Miller?
    Dr. Miller. Yes, sir. It is clearly a major step in the 
right direction. The budget has been declining since about 
2005. At the time the original stockpile stewardship program 
was put in place in the early to mid-1990s, there of course was 
a substantial increase at that time. However, as you have 
noted, since 2005 there has been a steady decline, and this 
represents a very important and very significant turnaround.
    Senator Reed. Dr. Hommert?
    Dr. Hommert. Yes, I agree that the budget represents a 
significant change that we haven't seen recently. It also comes 
accompanied with a commitment to managing the stockpile 
forward, which is equally as important.
    Senator Reed. Dr. Schwitters, your comment?
    Dr. Schwitters. I really have nothing to add.
    Senator Reed. Thank you.
    Let me ask each director and Dr. Schwitters if the New 
START treaty is ratified, will it have any significant impact 
on your proposed plans?
    Dr. Anastasio. What it does is emphasize the importance of 
the role that we play and the significance of the underpinning 
of the stockpile and our confidence in it. I hope Congress 
takes the actions that the administration has suggested.
    Senator Reed. Dr. Miller?
    Dr. Miller. It certainly does not inhibit the work that we 
have to do and, because it is a package that emphasizes the 
importance of maintaining the safety, security, and reliability 
of the stockpile, it enhances that part which is our technical 
responsibility.
    Senator Reed. Dr. Hommert?
    Dr. Hommert. I agree with my colleagues.
    Senator Reed. Any comments, Dr. Schwitters?
    Dr. Schwitters. No, sir.
    Senator Reed. Let me just ask the opposite question. If 
it's not ratified, what impact will it have on the enterprise?
    Dr. Anastasio. For me then, that will put in question 
whether we have the consensus strategy to go forward. If that's 
not the path that the country's taking, what will be the path? 
So I think it will lead to some uncertainty.
    Senator Reed. Dr. Miller?
    Dr. Miller. Yes, sir. I think the uncertainty is really the 
issue. Again, I can't emphasize enough that having an agreed-
upon long-term vision for the future of the nuclear weapons 
stockpile is very important to the stability, to engage the 
workforce.
    Senator Reed. Dr. Hommert?
    Dr. Hommert. Clearly it doesn't change the technical 
realities we're staring at in the stockpile. But there is the 
question of the importance of a consistent national policy 
going forward, and that I think would be what would come into 
question.
    Senator Reed. Dr. Schwitters?
    Dr. Schwitters. If I could just say a little bit on this. 
Of course, JASON studied the technical aspects of this. This is 
not my responsibility, but we did identify, outside of our 
narrow charge, these issues of the scientific and technical 
manpower, their sustainability, and we also identified real 
concerns about surveillance. So under any scenario, those are 
high on our priority list that have to be maintained.
    We were, of course, pleased with Secretary Chu's commitment 
to this body on his views on this. That's all I care to say.
    Senator Reed. Thank you.
    Let me ask a final question. Sometimes we dwell, which we 
should, on the problems that we have, particularly since we 
have not tested a device, thankfully, for many, many years. If 
you put yourself in the place of your counterparts in Russia or 
in China, do they have the same problems in terms of 
deteriorating skills, deteriorating systems, particularly 
Russia since that's the focal point of the New START treaty?
    Is their nuclear enterprise in the same sort of situation 
as ours technically?
    Dr. Anastasio. Sir, I believe that the Russians went 
through a period of time some years ago of very strong 
challenges on their budgets. They have recovered from that, is 
my best insight. They are modernizing their stockpile and they 
have a very active program and have hired many new people.
    Senator Reed. Dr. Miller?
    Dr. Miller. I would just add that from a technical point of 
view they have the same kind of issues that we have. The nature 
of the issues, the materials, are all very similar. They handle 
it in a very different way than we do. Whereas we are looking 
for major reinvestment in the production facilities, they have 
a very excellent production capability that has been 
functioning throughout this period. So their approach is 
different than ours, but the technical issues that have to be 
resolved are very similar.
    Senator Reed. Dr. Hommert. The chairman has been very 
gracious with my time, so if you could respond in writing, 
that's fine.
    Dr. Hommert. I agree with my colleagues.
    Chairman Levin. Thank you.
    The vote has started. I think we probably have something 
like 10 minutes left in the vote, plus the additional 5. So I'm 
going to call next on Senator Thune. Senator Chambliss, I think 
there will be enough time for your round if Senator Thune will 
stick to the 6-minute rule. Then, if no one else shows up, 
we'll be able to finish the open session and move to the closed 
session.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much for your service and for being here 
today and for the insights that you provide on what is a very 
important subject and something that many of us want to make 
sure that we get right.
    Dr. Anastasio, in your testimony, you stated that at LANL 
the average age of career employees is now over 48 and that 32 
percent of all career employees are expected to retire within 
the next 5 years. In fact, General Kevin Chilton, the current 
head of STRATCOM, said 2 years ago that the last nuclear design 
engineer to participate in the development and testing of a new 
nuclear weapon is scheduled to retire in the next 5 years.
    Does this cause you some concern?
    Dr. Anastasio. Yes, sir. It's very much in the issue of how 
do we renew the really outstanding workforce that we have and 
how do we give them the challenges that they need to develop 
their full skill set.
    Senator Thune. What are you doing under the current 
limitations of experimenting and testing in order to preserve 
the nuclear design expertise?
    Dr. Anastasio. Part of what we do is to analyze the state 
of the existing stockpile. That has been a large focus of our 
program for the last 15 years. Unfortunately, that does not 
challenge their creativity for design, and that's an element 
that's been missing from the program.
    Senator Thune. Can you describe the relationship between 
the limitations placed on continuing to pursue scientific 
advances and your ability to recruit younger individuals to 
pursue this type of career?
    Dr. Anastasio. I think one good example for us at LANL, of 
course, is you need a window. LANL, appropriately, from its 
history is a very isolated place in the country and we need a 
way to attract people to want to come visit and engage with us. 
We've had a major experimental facility there called the Los 
Alamos Neutron Science Center (LANSCE). It's a proton 
accelerator to study material properties. We're challenged to 
keep that facility in the same state that it needs to be; and 
the facilities that we have running, we have trouble doing all 
the experiments, having adequate funding to maintain the 
facility and to do all the experiments we'd like to do.
    That's the mechanism to attract people there, and then to 
sometimes induce them into coming into some of our classified 
programs.
    Senator Thune. What impact are some of these near-term 
retirements going to have on the knowledge level required to 
certify the reliability of nuclear weapons?
    Dr. Miller. Senator, I think that retirements are obviously 
something of concern. We have programs in place to transfer 
that knowledge. Frequently, people who retire are willing to 
continue to come back and mentor young people. So from my point 
of view, the most important issue in responding to your 
question is, do we have the financial ability to hire the young 
people to accept the transfer of the new knowledge? We know how 
to do that if we have active programs. Again the ability, as 
specified in the NPR, as we do life extensions to examine the 
full range of possibilities and engage the workforce, is a very 
important subject. One of the very important side benefits of 
having gone through the study phase of the RRW that we did is 
it really engaged the creativity of the design community to 
say, what could we do, what is possible.
    So that full range of capability as expressed in the need 
to bring forward options for the LEPs is very, very important 
to me.
    Dr. Hommert. Can I just add that this issue of sustaining 
intellectual capability is a paramount concern for me. I think 
we're at a critical juncture here where in order to attract 
young engineering and science talent--these are individuals 
that want to do real work--the stockpile demands that we do 
real work, and we need to proceed, and that will bring the 
talent we need to bridge this experienced to inexperienced 
relationship.
    Dr. Anastasio. Senator, could I add one more point which I 
think is very important? For our scientists especially that get 
involved, and engineers, at the lab, they get involved in these 
classified programs, they're giving up their visibility into 
the broad technical community because they're working on 
classified issues. That's a big step for someone to make, that 
we all made in our careers. The feeling at the laboratory that 
we're working on something that's really important for the 
country is a really important issue to be able to attract good 
people. If there's not the feeling of commitment, a thing 
that's been lacking in the last 15 years, that this is an 
important activity for the national interest--and I think with 
the policies that are being brought forward, if they can be 
implemented, that would be a way to reassure the workforce that 
this could be a significant career move for them to make and 
help us attract the good people.
    Senator Thune. Very quickly, Dr. Miller and Dr. Hommert, 
the status with respect to age and retirement of your 
workforce? Is it similar to what Dr. Anastasio described in his 
testimony?
    Dr. Miller. Yes, it's very similar.
    Dr. Hommert. Yes, we have similar statistics as well.
    Senator Thune. Thank you.
    I will let Senator Chambliss go.
    Chairman Levin. We appreciate that, and questions for the 
record would be welcome.
    Doctor--``Doctor Chambliss.'' Senator Chambliss. 
[Laughter.]
    Senator Chambliss. I can't even spell ``nuclear physics,'' 
Mr. Chairman. [Laughter.]
    Gentlemen, I want to pick up on this issue of your 
personnel, because I know that, Dr. Anastasio and Dr. Miller, 
you have said that you've lost approximately 2,000 personnel 
each since fiscal year 2006. Dr. Hommert, I assume you're down 
somewhat. Is it comparable to that?
    Dr. Hommert. About 800 out of the weapons program directly.
    Senator Chambliss. Looking at you, you're like me; you're 
grey-headed, what hair we have left. Dr. Hommert, I'm with you 
there. But when you gentlemen came into this program it was on 
the upswing you were challenged to develop systems based on 
ideas that you could come up with. I'm sure it was an exciting 
time for you and the colleagues that you had the opportunity to 
work with.
    Now, nuclear physicists coming out of Georgia Tech in my 
State, if they go to work in a lab it's going to be working on 
maintaining a system. It's not the excitement from the 
standpoint of the day-to-day work, it appears to me. I think 
you have a real challenge there. Not that you can't meet it, 
but it looks to me like that's going to be very difficult to be 
able to continue to draw folks into the field of science and 
physics and challenge them in the work that they're going to be 
doing in your labs.
    Do the numbers in the budget that have been proposed allow 
you to begin hiring folks back that you've had to let go?
    Dr. Hommert. Let me take a crack here. Certainly for us the 
fiscal year 2011 budget would demand that, for example, in the 
main LEP line, we'll have to double the staffing where we are 
today. That will attract individuals into the weapons program. 
The nature of the work itself, where we have the opportunity to 
bring new technology, is exciting and challenging to staff.
    The last point I'd make is that at SNL we have a range of 
other national security activities that we do which in a 
technology space are very similar to what we have to pull on 
for the weapons program. That all combined, even though we 
still have to have that imperative of moving forward on the 
LEP, does provide a basis of a strong intellectual capability. 
So I'm confident that if all the pieces come together we can do 
that.
    Dr. Miller. Yes, sir, my answer is very similar. The 
increase in the fiscal year 2011 budget is small for us, but it 
is real. In addition, the prospect of working on the life 
extension of the system after the B61, the W78, is very 
important to us. It does exercise not quite all aspects of 
weapons work, but it does exercise the creativity, the 
intellectual curiosity, as well as, importantly, the 
engineering discipline of actually turning your ideas into 
something real.
    So the program of work and the budget, I think, gives me 
the capability to carry out the function as you described it.
    Dr. Anastasio. I agree.
    Senator Chambliss. We haven't had a test on any of our 
systems since 1992. How much longer are we going to be able to 
go without testing? Dr. Anastasio?
    Dr. Anastasio. With the way this program is defined, with 
the flexibility that we have, and if we're adequately funded 
and appropriately funded through the life of this program, I 
think we can continue down this path for quite an extended 
period.
    Senator Chambliss. Does anybody disagree with that?
    Dr. Miller. No. What I would say is that as long as we have 
the ability to continue to make progress on understanding the 
underlying science and technology and the flexibility to manage 
the stockpile appropriately, that gives us the ability to 
continue with the program as it's currently laid out, that we 
can do our job without having to resort to additional nuclear 
tests.
    Dr. Anastasio. Sir, be sure that we feel very strongly that 
it's our obligation, if we ever doubt that that's the case, 
that we will bring that forward to decisionmakers.
    Senator Chambliss. When is the last time we manufactured a 
nuclear warhead?
    Dr. Miller. Let's see. The most recently completely from 
scratch manufactured nuclear weapon would have been the W88, 
which occurred in the late 1980s and early 1990s. We have 
manufactured components through the LEPs for the W87, the B61, 
and the W76. So we've remanufactured components, but not from 
scratch, since the W88.
    Senator Chambliss. Do we have the capability today to 
manufacture one from scratch?
    Dr. Miller. We do, but in limited numbers.
    Senator Chambliss. We have two facilities: one at LANL and 
one at Oak Ridge, that are planned for construction. What 
additional capabilities will those two facilities give us?
    Dr. Anastasio. For the one at LANL, the CMR replacement 
facility, that will not give us new capability, but it will be 
a smaller version of the capability that currently exists that 
was opened in 1952. That's a very old building that does not 
meet current safety and security standards, and this would be a 
replacement for that facility that is right-sized for the 
capability we need today. The capability it represents is to 
give us the scientific understanding of the chemistry and 
metallurgy of very complex materials like plutonium. So it 
makes us understand the plutonium and assure the country that 
the material in our weapons is behaving the way we can expect 
and that we understand how that goes forward. Plutonium is 
material that has only existed to our knowledge for 60-plus 
years, so there's still plenty to learn about that material, 
and this is the facility in which we do that.
    Senator Chambliss. I appreciate your statement about the 
fact that you don't yet have all the cost estimates on these 
facilities, because frankly it's going to take about 10 years 
to construct both those. I've seen the numbers, $4.5 to $5 
billion each. That makes this budget issue critical. Your being 
able to hire or continue to hire the right kind of people makes 
this budget critical. We have to get some level of confidence 
that you're going to have those funds, because obviously you 
haven't had them. They have to be there in order for this 
treaty to work.
    I'll just close, Mr. Chairman, by saying that one of the 
other things I'm concerned about in this treaty is the 
inspections under New START. I assume it was not uncommon for 
the Russians to be in your facilities on a fairly regular basis 
under the previous treaty, as we were, at least on the outside 
and occasionally on the inside, at places like Votkinsk. Now 
we're going to depend on the Russians to tell us what they're 
doing, just as you're going to be telling the Russians what 
you're doing. I have all the confidence in the world you're 
going to tell them the truth. I think there are still some 
issues relative to the Russians.
    When you have a total of 18 inspections a year under this 
treaty or a total of 180 over 10 years, versus the over 600 
that we did under the previous treaty, I think there are some 
real inspections and trust issues that are going to have to be 
resolved before we can get this treaty completed.
    But gentlemen, thank you for the work you do. I have not 
been to any of your labs, but I intend to, and I look forward 
to visiting with you on site. Thank you.
    Chairman Levin. Thank you very much, Senator Chambliss.
    We are now going to close our open session. We very much 
appreciate the testimony of all of our witnesses. There will be 
additional questions for the record. We will now move. Perhaps 
15 minutes from now, if you could all get to room SVC-217, the 
Capitol Visitor Center, we will have our closed session in room 
SVC-217.
    We will stand adjourned, with thanks.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Bingaman
                 replacement, reuse, and refurbishment
    1. Senator Bingaman. Dr. Hommert, there seems to be a lot of debate 
about refurbishment versus component replacement. Can you talk about 
the differences in replacing a non-nuclear component outside the sealed 
warhead versus a nuclear component inside the warhead?
    Dr. Hommert. Non-nuclear components are periodically inspected, and 
there are multiple reasons for replacement including issues identified 
via the surveillance program, components with known limited lifetimes, 
necessary modifications for interface with delivery systems and, in the 
case of major life extension programs (LEP), to improve surety and to 
replace obsolete technologies. The vast majority of non-nuclear 
components are significantly more accessible than the nuclear 
components.

    2. Senator Bingaman. Dr. Schwitters, you mention three options for 
the stockpile: refurbishment, reuse, and replacement. The refurbishment 
option seems a little odd in proposing to use another warhead assembly 
inside another nuclear weapon. Can you explain the issues in certifying 
such an option compared to refurbishment or even replacement?
    Dr. Schwitters. From its context, the question seems to be 
concerned with the reuse option, which refers specifically to the use 
of existing surplus pit and secondary components from other warhead 
types. Because the key nuclear components have their pedigrees from 
underground nuclear tests, the certification challenges for reuse hinge 
on ensuring the physical conditions expected in the new configuration 
of nuclear components are sufficiently close to those represented in 
the underground tests of the component parts to maintain confidence in 
the new weapon configuration without further underground tests.
    In the refurbishment option, warhead components are replaced before 
they degrade with components of nearly identical design or that meet 
the same form, fit, and function. This option forms the basis of the 
successful LEPs performed to date.

    3. Senator Bingaman. Dr. Anastasio, on page 4 of your testimony you 
state that your obligation is to ``examine all the relevant technical 
options for a LEP, including refurbishment, reuse, and replacement and 
bring them forward to the Nuclear Weapons Council (NWC) for a 
decision.'' I take it then that you feel no constraint in looking at 
any of these options?
    Dr. Anastasio. I believe the Nuclear Posture Review (NPR) strongly 
endorses and the National Nuclear Security Administration (NNSA) 
Stockpile Stewardship and Management Plan (SSMP) reinforces that, on a 
case-by-case basis, the full range of life extension options will be 
considered. As I stated in my testimony, ``I recognize the sensitivity 
of this topic but am convinced that . . . the laboratories [have 
sufficient] flexibility to present policymakers with best technical 
recommendations . . . [and] . . . do not feel overly constrained.''
    This perspective reflects the view that the three national security 
laboratory directors jointly presented earlier this year: ``the 
consideration of the full range of life extension options 
(refurbishment of existing warheads, reuse of nuclear components from 
different warheads, and replacement of nuclear components based on 
previously tested designs), provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''

    4. Senator Bingaman. Dr. Miller, do you support reusing the W-84 
warhead, which is currently being stored and out of service, and if so, 
in what way?
    Dr. Miller. I support consideration of the W84 for an LEP utilizing 
the reuse option. The laboratory directors have been tasked to ensure 
that the full range of LEP approaches--including refurbishment, reuse, 
and replacement of nuclear components--is studied on a case-by-case 
basis for each system scheduled for an LEP. The W84 warhead has a 
number of key attributes that make it a candidate for reuse for a 
future air-carried system life extension. It is a well-tested design 
with many modern safety and security features. A decision to reuse the 
W84 or its components would be made based on technical assessments of 
the ability of the W84 to meet critical stockpile goals (weapon system 
safety, security, and effectiveness) and the results of surveillance of 
the W84.

                              b61 program
    5. Senator Bingaman. Dr. Hommert, on page 3 of your testimony under 
Stockpile Surveillance you note a Surveillance Transformation Plan in 
the fiscal year 2010 budget submission. Will this plan be implemented 
in the B61 LEP?
    Dr. Hommert. The basic tenets of surveillance transformation are an 
approach that is tailored over the lifecycle of a warhead, and the 
creation of a more anticipatory, predictive program based on 
performance distributions, margins, trends, and uncertainties. We are 
implementing this approach for the B61 LEP.

    6. Senator Bingaman. Dr. Hommert, on page 4 of your testimony you 
mention the timing and integrating the B61 to the F-35, which is an 
entirely new design. It seems to me that the whole F-35 program is 
still being worked out through developmental testing. Do you have 
certainty in the requirements for integrating this nuclear weapon to 
the F-35 at the present time?
    Dr. Hommert. The Air Force requirements for the B61 LEP are still 
under development and there is some technical risk associated with the 
preliminary nature of our knowledge of the F-35 flight environments. We 
have an initial set of requirements that we are using today, and we 
have a schedule for finalizing the requirements going forward. We often 
experience changes to some elements of the requirements, and we have a 
rigorous requirements management process in place to deal with these 
changes.

    7. Senator Bingaman. Dr. Hommert, on page 4 of your testimony for 
the B61 you mention that ``total cost estimates are subject to change 
until the design definitions and requirements are finalized.'' How 
close are you to getting a total cost and time estimate for Sandia's 
portion of the B61?
    Dr. Hommert. The 6.216.2A design definition and cost estimation 
study will be completed at the end of fiscal year 2011.

    8. Senator Bingaman. Dr. Hommert, on page 5 of your testimony you 
mention the large staffing changes that are underway to support the B61 
program. Where are the staff coming from and could they affect other 
areas of work for Department of Defense (DOD) customers?
    Dr. Hommert. We are committed to a smooth and orderly transition as 
we ramp up for the B61 LEP, which is arguably the largest nuclear 
weapons development program we have had in over 2 decades. Through a 
strategic management decision earlier this year, we began staffing up 
for this program, and the recently approved reprogramming for fiscal 
year 2010 will align our fiscal year 2010 funding with our current 
staffing levels. The additional growth required in the program next 
year is large, and we will add the new staff in three ways: shifts 
within our nuclear weapons program, selective conversion of staff from 
our Work for Others (WFO) projects, and new hiring. We have an 
aggressive and successful hiring program underway. Overall at SNL we 
have hired over 600 people this fiscal year. We are devoting a 
significant amount of executive leadership and management attention to 
this, and we are confident that we can take on the B61 LEP without 
putting our DOD and other WFO programs at risk.

    9. Senator Bingaman. Dr. Schwitters, will JASON be involved in the 
work scope of the B61 and the study on the possible merger to a single 
warhead for both the Minuteman and Trident missiles, and do you see 
merit in an external review by your group of these two programs?
    Dr. Schwitters. JASON has not been asked to examine the scope of 
the B61 LEP nor the possible merger to a single warhead for both the 
Minuteman and Trident missiles. Requests to do so would normally come 
from NNSA or DOD. This summer (2010), we were asked by DOD to examine 
questions regarding those programs as part of a classified study on DOD 
surety matters. I believe there would be merit in having JASON look 
into the technical aspects and peer review approaches of both the B61 
LEP and the possible development of a single warhead for both Minuteman 
and Trident missiles.

                          commercial suppliers
    10. Senator Bingaman. Dr. Hommert, on page 6 of your testimony you 
mention the benefit of commercial off-the-shelf products. How do you 
maintain an adequate long-term supplier base for them, especially when 
they must be certified for nuclear weapons?
    Dr. Hommert. It is a challenge to ensure that the Nation has a 
sufficient, reliable long-term supplier base for all the components of 
the nuclear weapons stockpile. While some of the components and devices 
for nuclear weapons are based on the same underlying technologies of 
commercial products, we often have unique performance requirements and 
have to survive very harsh environments. Working closely with the non-
nuclear component production agencies within the NNSA complex, SNL uses 
rigorous processes to continuously evaluate which components to acquire 
commercially, and to certify these external suppliers. Some components 
must be manufactured within the complex for both effectiveness and 
surety purposes. The W76-1 arming, fuzing, and firing, for example, 
includes a large number of commercially available microelectronic 
devices, but 98 percent of the core functionality resides in the custom 
application specific integrated circuit that were designed at SNL and 
manufactured in the trusted foundry of our Microsystems and Engineering 
Sciences Applications (MESA) Complex.

                            sandia workforce
    11. Senator Bingaman. Dr. Hommert, on page 7 of your testimony you 
discuss your workforce, its age and qualifications. It seems to me that 
one of the distinctive features of Sandia is its ability to maintain a 
diverse set of missions other than nuclear weapons, such as research 
with industry or the Office of Science. Will that be endangered with 
the large nuclear weapons workload that you expect?
    Dr. Hommert. Please see the answer to question #8.

      quantification of margins and uncertainties recommendations
    12. Senator Bingaman. Dr. Schwitters, the National Academy of 
Sciences (NAS) did a study on Quantification of Margins and 
Uncertainties (QMU) and found that many of the tools used for nuclear 
reactor design could be used effectively for our stockpile. Are you 
aware of whether the labs have embraced the recommendations of this 
report?
    Dr. Schwitters. The weapons laboratories led the way in the 
original establishment of QMU as a method for assessing confidence in 
the nuclear weapons stockpile. The 2008 NAS study found that QMU is a 
``sound and valuable framework'' that helps the national security 
laboratories perform their responsibilities within the nuclear weapons 
program. Among its many recommendations, the report suggested that some 
concepts and capabilities previously developed in the area of 
probabilistic risk assessment could be applied to QMU applications. The 
laboratories appear to be following many of the recommendations of the 
QMU report, with Sandia perhaps embracing them most fully. Some of the 
report's recommendations have received less attention than others, 
although it is important to note that some of the recommendations 
basically ask the laboratories to address technical problems for which 
the solutions are as yet unknown.

                         warhead consolidation
    13. Senator Bingaman. Dr. Anastasio, Los Alamos designed the W78 
Minuteman III warhead and the W88 Trident warhead, but I understand 
from page 9 of Dr. Miller's testimony that Lawrence Livermore National 
Laboratory (LLNL) is in the lead in the study to look at consolidating 
these two warheads. Do you feel comfortable moving the technical 
details of these warheads to another laboratory?
    Dr. Anastasio. In April 2010, NNSA announced that it had assigned 
the W78 LEP to LLNL. I am confident that Los Alamos National Laboratory 
(LANL)-SNL can transfer the necessary technical information to support 
a W78 life extension activity by LLNL-SNL. This transfer will be 
further enabled as the W78 is one of the first system to be part of the 
INWAP process of independent assessment by the other laboratories' 
team.
    At this point I am unaware of any decision by NNSA to consolidate 
W78/W88 into a common warhead. Should NNSA move in that direction, both 
laboratories will be asked to provide their best technical options for 
sustaining the stockpile over the long term.

                              surveillance
    14. Senator Bingaman. Dr. Anastasio, on page 2 of your testimony 
you note that ``surveillance shows ever increasing signs of aging.'' 
You often say the sealed warhead is a miniature chemical reaction--how 
well can you model this form of aging?
    Dr. Anastasio. Over the past year we have witnessed improvements in 
model fidelity. I remain concerned about the aging issues we have 
identified and new aging issues that we may uncover in the future. 
Modeling the impacts of aging phenomena is an important activity on 
which many scientists and engineers are focused and many resources are 
directed. The level of success always depends on the availability of 
required data, the maturity of the associated models, the capability of 
high performance computing and simulations, and the degree to which the 
scientist or engineer understands the phenomenon.

                              1251 report
    15. Senator Bingaman. Dr. Anastasio, on page 10 of your testimony 
you state that ``I am concerned that in the administration's section 
1251 report (on funding), much of the planned funding increase for 
weapons activities do not come to fruition until the second half of the 
10-year period.'' Can you please explain what you mean by that and its 
impact?
    Dr. Anastasio. My concern refers to the need for sustained 
investments that carry across multiple administrations and Congresses. 
Many of the science, technology, engineering, and infrastructure 
investments are planned for the second half of the next decade. These 
investments must be implemented within an uncertain and challenging 
financial future facing the Nation.
    Significant budgetary declines in nuclear weapons funding have been 
seen many times when the Nation has faced difficult fiscal realities. 
The President's fiscal year 2011 budget request is a positive first 
step in the fiscal implementation of the roadmap to sustain the long-
term safety, security, and effectiveness of the stockpile. The roadmap 
is a reasonable path to achieving these ends, and it must be fully 
implemented.

               stockpile stewardship and management plan
    16. Senator Bingaman. Dr. Anastasio, do you think the SSMP 
effectively takes care of refurbishing the Los Alamos Neutron Science 
Center (LANSCE) over the next 10 years and if not, what does Congress 
need to do?
    Dr. Anastasio. During my testimony on 15 July 2010, I highlighted 
the important roles that the LANSCE plays technically for the Stockpile 
Stewardship Program (SSP) and in attracting new staff to pursue a 
career at the laboratory, and the challenges LANL faces in identifying 
adequate funding to maintain and operate the facility.
    LANL has recently responded to a request by Under Secretaries 
D'Agostino, Johnson, and Koonin asking for (among other things) a plan 
regarding the full suite of issues that need to be addressed to sustain 
operations of LANSCE through the decade. That plan proposes an increase 
to the operating budget to a level that supports execution of the 
essential maintenance that continues to allow the linear accelerator to 
operate in the short term; invests in long-term capital replacements to 
mitigate the major risks to continued operation of the linear 
accelerator and beam transport systems; and invests in risk mitigation 
for the rest of the facility to provide a more reliable capability.
    The proposed plan has the support of the Department of Energy 
(DOE), and LANL is working with the Under Secretaries to actualize it 
within the SSMP.

                         single warhead merger
    17. Senator Bingaman. Dr. Anastasio, how could the merger to a 
single warhead for the Minuteman III and Trident missiles affect the 
workload of the TA-55 plutonium facility and will the construction of 
the Chemistry and Metallurgy Research Replacement (CMRR) facility 
affect this?
    Dr. Anastasio. In April 2010, NNSA announced that it had assigned 
the W78 LEP to LLNL. At this point I am unaware of any decision by NNSA 
to consolidate W78/W88 into a common warhead. Based on conversations 
with LLNL, LANL is prepared to support the pit options under 
consideration for the LEP.
    If pit production is required for future LEPs, LANL has the 
capability to support that mission with adequate investments to sustain 
the TA-55 infrastructure. The TA-55 reinvestment project is a multi-
year effort that will ensure the continued safe and secure operations 
of the Nation's only pit manufacturing facility for an additional 25 
years. The construction and use of the CMRR facility is unaffected by 
pit type and is essential to execute the entire plutonium mission. The 
samples analyzed in the CMRR are independent of what type of pit is 
being made in the plutonium facility (PF-4).

                       national ignition facility
    18. Senator Bingaman. Dr. Miller, when do you expect the National 
Ignition Facility (NIF) to become fully operational to support the 
stockpile?
    Dr. Miller. The NIF became operational in March 2009. The National 
Ignition Campaign (NIC) is scheduled to be completed at the end of 
2012. The NIC's goals are the development of a reliable and robust 
ignition platform for experiments and transition of NIF to fully 
operational international user facility. In 2009, stockpile stewards 
began to utilize NIF as an experimental facility capable of creating 
the temperatures and pressures necessary to study the physics of the 
nuclear phase of weapons performance. At the present time, the NIC is 
focused on achieving ignition and supporting non-ignition stockpile 
stewardship experiments on NIF that are aligned with the SSP's 
Predictive Capability Framework roadmap. As the NIC continues, 
infrastructure such as diagnostics, cryogenics, and personnel and 
environmental protection systems to support a wide range of types of 
SSP experiments are being integrated into the facility. NIF is 
scheduled to complete its transition from project completion to routine 
facility operations in support of the NNSA's SSP by the end of fiscal 
year 2012.

    19. Senator Bingaman. Dr. Miller, how do you envision NIF and 
Sandia's Z machine working together under the stockpile program?
    Dr. Miller. NNSA laser (NIF and OMEGA) and pulsed power (Z-machine) 
facilities are fundamentally different types of experimental platforms. 
They are complementary and provide unique and important capabilities 
for the SSP. Experiments at these facilities will support stockpile 
assessment via validation of Advanced Simulation and Computing (ASC) 
codes through the direct measurement of:

        <bullet> Material properties under extreme conditions of 
        temperature and pressure,
        <bullet> Radiation transport and complex hydrodynamics, and
        <bullet> Examination of the behavior of weapon components under 
        intense x-ray radiation.

    NIF, and to a lesser extent OMEGA, provide the ability to focus 
energy into a small volume and reach extremely high energy densities in 
matter. The Z-machine can produce a comparable level of x-ray energy to 
NIF, but NIF will be able to produce energy densities approximately 20 
times those available at Z. Also, only NIF can be used to explore 
applications of ignition, where the fusion process can be used to 
create conditions approaching the temperatures and pressures in a 
nuclear weapon. NIF and the Z-machine are viewed as stockpile 
stewardship tools that complement rather than compete with each other, 
and planned SSP experiments are designed to capitalize on strengths of 
each facility.

                                exascale
    20. Senator Bingaman. Dr. Miller, your testimony refers to advances 
in computing to millions of trillions floating point operations per 
second or Exascale--are you working with the DOE's Office of Science 
computing program on this?
    Dr. Miller. LLNL and other DOE laboratories are partnering with the 
DOE Office of Science and the NNSA to advance computing from the 
current PetaFlop platform (as exemplified by the 20 PetaFlop Sequoia 
machine currently on schedule to be installed at LLNL in 2012) to the 
Exascale regime. DOE has chartered a steering committee composed of 
representatives from Argonne, Brookhaven, Lawrence Berkeley, Lawrence 
Livermore, Los Alamos, Oak Ridge, Pacific Northwest, and Sandia 
national laboratories (SNL) to provide advice on a proposed DOE 
Exascale initiative.
    Supercomputing is key to our nuclear weapons assessment and 
certification mission. The majority of existing weapons types will 
undergo life extension over the next two decades or so. Analysis of the 
magnitude and quantity of the highly specialized and complex 
simulations needed to support the full spectrum of LEP approaches 
(refurbishment, reuse, and replacement) shows that Exascale computing 
platforms are not only required but will need to be on-line for use in 
the 2020 time frame if we are to meet programmatic milestones and 
production timelines. Of particular importance is the ability to 
numerically predict changes resulting from the inevitable and 
continuous aging of materials in weapons produced during the Cold War 
and the effects of these material changes on warhead performance. The 
fact that we must perform very large numbers of these complex 
simulations to rigorously quantify uncertainties further drives the 
need for Exascale computing.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                         nuclear posture review
    21. Senator McCain. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, a letter dated May 19, 2010, to Secretary Gates and 
Secretary Chu from 10 former and well-respected lab directors cited 
significant concern with the guidance set forth in the administration's 
Nuclear Poster Review (NPR) to give ``strong preference to options for 
refurbishment or reuse.'' The former lab directors state that such 
guidance ``imposes unnecessary constraints on our engineers and 
scientists'' and that based on their experience as former lab 
directors, they believe this ``higher bar for certain life extension 
options will stifle the creative and imaginative thinking that typifies 
the excellent history of progress and development at the national 
laboratories, and indeed will inhibit the NPR's goal of honing the 
specialized skills needed to sustain the nuclear deterrent.''
    In response to this letter from the former lab directors, 
Secretaries Gates and Chu issued a response stating that supplemental 
NPR guidance has made it clear that all LEP efforts should be pursued.
    Has this message been clearly conveyed to you? If so, what was the 
forum for doing so; was it a Presidential Directive?
    Dr. Anastasio. In addition to the NPR itself, the Secretaries of 
Energy and Defense response to the 10 former laboratory directors 
letter dated May 19, 2010, regarding the ``2010 NPR Report and the 
administration's strategy for stockpile sustainment, stated that: The 
lab directors will . . . make sure that the full range of LEP 
approaches, including refurbishment, reuse, and replacement of nuclear 
components, are studied on a warhead case-by-case basis . . . [and] 
will . . . provide findings associated with the full range of LEP 
approaches and . . . make . . . recommendations based solely on their 
best technical assessments of the ability of each LEP approach to meet 
critical stockpile management goals.''
    Dr. Miller. Yes. Senior administration officials have made it clear 
to me that all LEP options should be studied. DOE Secretary Steven Chu, 
in response to a question during the June 17, 2010, hearing of the 
Senate Armed Services Committee, testified ``As was made clear in the 
NPR, this administration is committed to studying all options available 
for future LEPs, including reuse, refurbishment, and replacement on a 
case-by-case basis.''
    In fact, we have received subsequent reinforcement, through 
meetings and conversations with key administration officials, 
indicating that the NNSA laboratories have the flexibility, 
responsibility, and authority to study the complete spectrum of 
potential options, which includes replacement, for each future LEP in 
order to provide the Nation's decisionmakers with our best technical 
input upon which to base down-select decisions. NNSA's 1251 report 
includes the following statement: The laboratory directors will ensure 
that the full range of LEP approaches, including refurbishment, reuse, 
and replacement of nuclear components, are studied for warheads on a 
case-by-case basis.''
    Dr. Hommert. SNL has had direct communication from the Secretary of 
Energy and the NNSA concerning the response to this letter, but we have 
not received a Presidential Directive. The response from Secretaries 
Chu and Gates clearly states that ``the technical community is not 
constrained in its exploration of technical options for warhead life 
extension.'' It also assigns the laboratory directors with the 
responsibility for making sure that ``the full range of LEP approaches, 
including refurbishment, reuse, and replacement of nuclear components, 
are studied on a warhead case-by-case basis.'' This is consistent with 
the NNSA SSMP which refers to all three options: refurbishment, reuse, 
and replacement; and the DOD 1251 document which specifically states 
``the full range of LEP approaches will be considered.''
    Dr. Schwitters. The message that all options for future LEPs should 
be considered was made clear in the NPR itself, which states: ``The 
United States will study options for ensuring the safety, security, and 
reliability of nuclear warheads on a case-by-case basis, consistent 
with the congressionally-mandated Stockpile Management Program. The 
full range of LEP approaches will be considered: refurbishment of 
existing warheads, reuse of nuclear components from different warheads, 
and replacement of nuclear components.'' We agree that all technical 
options can and should continue to be explored.
    When it comes to implementing a particular LEP, we believe the 
preference assigned in the NPR to refurbishment and reuse is both 
prudent and appropriate. In the absence of underground nuclear testing, 
it is important to maintain strict discipline over any changes made to 
the nuclear explosive packages (NEP) of stockpile systems to avoid 
unintentionally undermining confidence. In the language of QMU, a 
change designed to improve some performance margin M can actually have 
a deleterious effect on confidence if the change increases the 
uncertainty in performance U such that the net value of M/U is 
diminished.

                      nnsa weapons program funding
    22. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, the 
10-year plan for complex modernization attributes only $10 billion to 
modernization efforts and the projected cost of CMRR and Uranium 
Processing Facility (UPF) is roughly $7 billion, if not more. How 
confident are you that the remaining $3 billion will be sufficient to 
conduct three projected warhead life extensions while also bolstering 
overall stewardship, surveillance, and dismantlement efforts?
    Dr. Anastasio. Both the CMRR facility and the UPF are still being 
planned, and cost baselines have not been finalized. We are working 
closely with NNSA on this important project. To deliver CMRR 
successfully we must have certainty in funding and consistency in 
requirements throughout the project. In addition, cost baselines have 
not been established for the projected warhead LEPs. At the same time, 
there are many other essential facilities across the complex and at Los 
Alamos that cannot be neglected because of our necessary focus on the 
major nuclear facilities.
    Many of the science, technology, engineering, and infrastructure 
investments are planned for the second half of the next decade. These 
investments must be implemented within an uncertain and challenging 
financial future facing the Nation. I am also concerned about currently 
unquantified costs associated with pensions and sustaining the rest of 
the nuclear security enterprise, both of which are expected to increase 
during the next 10 years.
    Dr. Miller. In the out-years, the uncertainties associated with 
baselines for the planned LEPs and construction of large facilities are 
my primary source of concern. As discussed during testimony, without 
detailed designs for the CMRR facility and the UPF and the 
corresponding cost analysis, funding requirements will remain 
uncertain. The laboratories and plants are working with the NNSA to 
develop baselines for these projects, but the total costs are not yet 
known. It is critically important to budget for adequate contingency in 
large construction projects to ensure sufficient flexibility to 
accommodate the detailed design issues that typically arise in 
constructing these complex, one-of-a-kind facilities. It is equally 
important to ensure that funding for these construction projects does 
not erode available funding for the science and technology activities 
that underpin the maintenance and assessment of the U.S. nuclear 
deterrent.
    The fiscal year 2011 budget increase proposed by the administration 
is a positive first step toward revitalizing the nuclear weapons 
complex necessary to maintain the U.S. nuclear deterrent. The nation's 
nuclear strategy--with or without the planned force reductions--
requires a SSMP that is balanced, integrated, and sustained over time. 
The level of investment, consistent with planned nuclear warhead 
reductions, must grow over time to capitalize construction of essential 
new facilities, sustain a robust science technology and engineering 
core, manage the aging stockpile, support an increased level of LEP 
work, and maintain a critically skilled workforce. Until the baselines 
are completed, we will not have an accurate and reliable estimation of 
the resources required. It is clear that sustained effort will be 
necessary to ensure the appropriate balance within the program across 
all of its requirements.
    Dr. Hommert. It is true that the overall allocation of the 
requested resources is strongly weighted toward construction of these 
two key facilities. NNSA is strongly committed to the program 
management discipline required to control the costs associated with 
major construction projects. The $3 billion is in addition to the 
baseline funding, and comes with a commensurate set of new 
requirements, as you've noted in your question. While the exact funding 
profiles required for the upcoming LEPs are not yet known precisely, we 
are committed to working with NNSA to fund the highest priority 
activities, to allow us to deliver on the LEPs, strengthen our 
knowledge and confidence in the existing stockpile, and sustain and 
advance our capabilities for the future.

    23. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, do 
you believe a standing requirement, akin to the 1251 report, for DOE to 
provide a 10-year top-line budget figure would be beneficial and 
provide additional fiscal stability within the complex?
    Dr. Anastasio. Yes. A disciplined, comprehensive, and coordinated 
planning process could produce an annual long-term budget for the 
nuclear security enterprise that would benefit DOE, NNSA, the nuclear 
weapons laboratories, and the production plants. This product could be 
one way of informing Congress so that a defensible investment strategy 
could be sustained and stable funding could be established.
    Dr. Miller. Yes. Annual updates that reflect evolving requirements, 
progress on the baselines for the major efforts within the NNSA 
enterprise, and arising issues in the stockpile would be beneficial for 
the purposes of forecasting and planning. It is important to note that 
the nature of NNSA's work requires program flexibility because 
technical issues arise in the stockpile and requirements evolve. The 
scope of work and budgets will need to be correspondingly adjusted. 
Annual updates to the summary of the SSMP could provide a mechanism to 
outline the program's funding requirements and projections. In 
addition, I would recommend consideration of an annual assessment of 
the health of the integrated enterprise be included as part of these 
updates. Both would foster dialog to achieve a national consensus on 
programmatic requirements and expectations for a sustained SSMP.
    Dr. Hommert. The NNSA undertakes an annual budget process that 
results in the President's budget request to Congress. This annual 
process includes multi-year funding requirements. If Congress feels 
that a longer-term funding profile is important as part of the annual 
process, SNL would willingly support NNSA in developing longer future 
budget estimates.

    24. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, I 
understand that prior to the release of the fiscal year 2011 budget you 
originally requested more than a billion dollar increase in the weapons 
program account. Given the President's budget allocated a $624 million 
increase, about two-thirds of your original request, I am interested in 
learning more about what the administration chose not to fund. 
Specifically, what does the difference between your original request 
and the actual budget represent in terms of infrastructure, human 
capital, and scope of work?
    Dr. Anastasio. As I said previously in my testimony, `` . . . the 
administration has developed a fiscal year 2011 budget that moves us in 
the right direction. I view the NNSA's fiscal year 2011 budget request 
as a positive first step and I urge its approval by Congress.'' 
Further, I believe that we need to be focused not on a single year's 
budget, but rather on a long-term sustainable program that is both 
balanced and flexible as new costing information comes available on the 
nuclear facilities and on the planned LEPs.
    Dr. Miller. The fiscal year 2011 budget increase proposed by the 
administration is a positive first step toward revitalizing the nuclear 
weapons complex necessary to maintain the U.S. nuclear deterrent and 
reversing the recent trend of declining budgets. The budget increase 
proposal was informed by a request developed a year ago by the NNSA 
laboratory directors for a 3-year funding ramp increase to the NNSA 
Weapons Activities account to create a balanced and robust program of 
work across the three primary areas in the SSP. These include: (1) the 
science and technology that underpins our understanding of an aging 
stockpile and supports a reinvigorated surveillance program; (2) the 
LEPs that are necessary to keep the systems safe, secure, and 
effective; and (3) the modernization of the facilities and 
infrastructure.
    NNSA recognizes the importance of a balanced program of work 
outlined by the laboratory directors, but chose to stretch the schedule 
for meeting deliverables. While some aspects of the laboratory's 
activities could proceed more rapidly if funding were available, this 
situation is different than an ``unfunded requirement'' or true 
shortfall.
    The original laboratory director request contained additional 
funding in the following areas (compared to the fiscal year 2011 
President's budget request):

        <bullet> Surveillance. The increase in surveillance provided 
        for a robust surveillance program. This program included both 
        augmented data collection for the annual assessment process and 
        development of advanced techniques for monitoring the health of 
        the stockpile. NNSA is applying a risk-informed design process 
        to allocate fiscal year 2011 funding towards the highest 
        priority surveillance concerns. The President's budget request 
        does include a modest increase in funding for surveillance.
        <bullet> Readiness in Technical Base and Facilities (RTBF). The 
        laboratory director proposal recognized the need for a robust 
        facility infrastructure. The fiscal year 2011 budget request is 
        a positive first step, but continues to fall short in RTBF at 
        many sites across the complex. At LLNL, due to a $6 million 
        fiscal year 2011 RTBF shortfall, funding for high hazard and 
        nuclear facility compliance is marginal.
        <bullet> Science, technology, and engineering. The laboratory 
        directors requested additional funding in Science Campaigns, 
        ASC, and the Engineering Surety Campaign. This funding was 
        intended to underpin the long-term health of the deterrent and 
        provide a more rapid maturation of technologies that could be 
        used in future LEPs. As a specific example, the laboratory 
        director proposal recommended initiating a vigorous Exascale 
        Initiative in fiscal year 2011. Fiscal year 2011 funding 
        shortfalls are delaying work in these areas.

    Finally, it should be noted that the proposed fiscal year 2011 
increase provides for workforce stabilization, which is an encouraging 
step toward workforce augmentation. At LLNL, the President's budget 
request would allow us to fill key vacancies, reinvigorating the 
critically skilled workforce underpinning the SSP.
    Dr. Hommert. The Nuclear Security Enterprise Integration Council 
(NSEIC) developed a number of ``uplift'' scenarios, ranging from a $400 
million increase to a $1.8 billion increase. At each scenario level 
there were different impacts to scope and schedule. The increase 
allocated in the President's budget fell within our planning scenarios. 
Specifically for the programs where there is a major effort at SNL, the 
fiscal year 2011 budget adequately supports those programs. It will be 
important to annually reassess budget requirements as technical 
requirements and timelines become firm.

    25. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, as 
a result of earmark pressures on coveted water projects, there is 
concern that the appropriators are not going to be able to fully fund 
the President's fiscal year 2011 budget request for the NNSA. Without a 
bipartisan commitment to provide adequate and sustained resources, do 
you believe we will be able to maintain the level of confidence 
necessary to certify the stockpile without underground testing?
    Dr. Anastasio. The NPR provides the necessary policy framework, 
which can lead to a long overdue national consensus on nuclear policy 
for the United States. The fiscal year 2011 request provides a positive 
first step in providing the needed fiscal resources needed by the 
nuclear enterprise to sustain the nuclear deterrent into the future.
    Today, I judge that the stockpile is safe, secure, and effective. I 
can make the judgment with confidence based on the investments made in 
the SSP since the cessation of nuclear testing in 1992. As the 
stockpile continues to age, we as a Nation must continue to invest in 
the required experimental, computational, simulation, and modeling 
tools needed by scientists and engineers to understand, diagnose, and 
correct stockpile issues as they arise. I am cautiously optimistic that 
we can address the challenges faced by the program with sustained 
commitment from multiple administrations and Congresses with acceptable 
levels of risk. As we go forward it will be critical that the program 
is balanced, and that it maintains flexibility to meet changing 
requirements.
    Dr. Miller. Increased investment is required to revitalize the 
complex, support the necessary planned LEPs, and sustain the science 
and technology capabilities that underpin the annual assessment and 
maintenance of the U.S. stockpile. Without sustained funding beginning 
with the President's fiscal year 2011 budget request, I would be very 
concerned about the future. The program cannot be sustained if the 
declining funding trajectory of the past several years for the NNSA 
continues. The laboratories' capabilities related to the assessment and 
certification of the stockpile has been eroding; the rate of acquiring 
key experimental data has been slowing and key capabilities in high 
performance computing have not been advancing as rapidly as we prefer. 
The Nation's deterrent requires annual support of a sustainable SSP by 
successive administrations and Congresses in order to maintain an 
effective national strategic deterrent.
    Dr. Hommert. Throughout its history the nuclear weapons program has 
had the support of Congress as a fundamental component of our national 
security. Over the past 15 years, the stewardship program, which 
provides the opportunity for all three laboratories to develop tools 
that are essential to sustaining the stockpile in the absence of 
nuclear testing, has received strong bipartisan support. It will be 
essential to continue this as we now commit to an extensive and 
necessary set of LEP activities. I cannot speak directly to the impact 
of the congressional committee structure, only to the importance of 
sustained bipartisan support for the deterrent.

    26. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, in 
Dr. Anastasio's prepared remarks he stated that he fears ``that there 
is already a gap emerging between expectations and fiscal realities'' 
and that he is ``concerned that in the administration's section 1251 
report, much of the planned funding increase for weapons activities do 
not come to fruition until the second half of the 10-year period.'' Can 
you please elaborate and do you feel that some of that funding should 
be shifted to the first half of the 10-year period?
    Dr. Anastasio. My concern refers to the need for sustainable 
investments that carry across multiple administrations and Congresses. 
Many of the science, technology, engineering, and infrastructure 
investments are planned for the second half of the next decade. These 
investments must be implemented within an uncertain and challenging 
financial future facing the Nation.
    Significant budgetary declines in nuclear weapons funding have been 
seen many times when the Nation has faced difficult fiscal realities. 
The President's fiscal year 2011 budget request is a positive first 
step in the fiscal implementation of the roadmap to sustain the long-
term safety, security, and effectiveness of the stockpile. While 
shifting some funds to the first half would provide some near-term 
relief it would reduce the out-year funding when the financial risks 
are even greater. The roadmap is a reasonable path to achieving these 
ends, and it must be fully implemented.
    Dr. Miller. I do share Dr. Anastasio's concerns. Funding must be 
appropriately allocated and sustained for several decades across the 
various SSMP accounts in order to maintain a balanced program. The 
three primary areas within the program are: (1) the science and 
technology base that underpins our understanding of an aging stockpile, 
which includes a reinvigorated surveillance program; (2) the LEPs to 
keep the systems safe, secure, and effective; and (3) the modernization 
of the enterprise's facilities and infrastructure. The baselines for 
the LEPs and several large construction projects, namely the CMRR 
facility and the Uranium Production Facility (UPF) are still maturing 
and their total costs are not yet known.
    NNSA's funding profile should reflect the workload of the complex 
in any given year consistent with the stage and anticipated pace of the 
various projects within the SSMP. Until these baselines are finalized, 
it is difficult to assess the funding requirements of any given year.
    Dr. Hommert. In some areas it would be preferable to have more of 
the funding available earlier. However, the exact funding profile is 
much less important than the imperative of a sustained national 
commitment to fully fund the program over the coming two decades, 
starting in fiscal year 2011. The immediate imperative of the B61 LEP 
has received substantial near-term funding.

    27. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, in 
Dr. Hommert's prepared remarks he stated that the future of SSMP 
presents a number of challenges and that we must ``ensure that 
resources are commensurate with the requirements and expectations.'' 
How well do you feel the fiscal year 2011 budget and projected out-
years funding address the challenges ahead?
    Dr. Anastasio. The President's fiscal year 2011 budget request 
represents a positive first step in the fiscal implementation of the 
roadmap to sustain the long-term safety, security and effectiveness of 
the stockpile. The budget plan for the out-years also moves in the 
right direction to achieving the roadmap.
    I want to emphasize the entire roadmap must be fully implemented, 
including the science, technology, engineering, and infrastructure 
investments planned in the second half of the decade. I am cautiously 
optimistic that with sustained commitment from multiple administrations 
and multiple Congresses that we can address the challenges faced by the 
program with acceptable levels of risk. As we go forward it will be 
critical that the program is balanced, and that it maintains 
flexibility to meet changing requirements.
    Dr. Miller. The budget increase for the NNSA in the President's 
fiscal year 2011 proposed budget is a positive first step toward 
revitalizing the nuclear weapons complex. The budget request seeks to 
reverse recent downward funding trends and reflects the need for 
increased investment to maintain sufficient capability to ensure the 
viability of the U.S. stockpile. The proposed budget outlined in the 
1251 report, which includes balanced investments in stockpile 
maintenance, science and technology, and infrastructure 
recapitalization, is required to sustain the nuclear deterrent.
    There are two large facilities that must be built (the CMRR 
facility and the UPF) and two LEPs that must be conducted over the 
course of the next decade. The nature of NNSA's work is quite 
challenging, particularly the construction of very complex, one-of-a-
kind facilities, which makes out-year budgeting challenging. Working 
with NNSA, the complex has begun to develop baselines for the major 
construction projects and the next two proposed LEPs. Out-year funding 
requirements could present a significant challenge depending on the 
full costs of the LEPs and major construction projects. For these types 
of projects, it is very important to provide flexibility and 
appropriate contingency that reflects the existence of many and 
differing sources of uncertainty within each project. At this point in 
time, it is difficult to say exactly what the right amount will be in 
any given year or over the 10-year horizon because the baselines for 
these complex facilities are still maturing. Certainly, fiscal year 
2011 increase provides welcome relief from the constrained budgets and 
eroding purchasing power of the last several years.
    Dr. Hommert. We have confidence that the fiscal year 2011 budget, 
if appropriated at the level of the President's budget request, is 
sufficient to support the highest priority SNL activities for the 
nuclear weapons program. Completion of the 6.216.2A study for the B61 
LEP will allow us to better establish the required funding profile 
beyond fiscal year 2011.

    28. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
does the budget's allocation of resources provide much, if any, room 
for error?
    Dr. Anastasio. I view the NNSA's fiscal year 2011 budget request as 
a positive first step and I urge its approval by Congress. I am 
cautiously optimistic that with sustained commitment from multiple 
administrations and multiple Congresses that we can address the 
challenges faced by the program with acceptable levels of risk. 
Further, I believe that we need to be focused not on a single year's 
budget, but rather on a long-term sustainable program that is both 
balanced and flexible as new costing information comes available on the 
nuclear facilities and on the planned LEPs.
    Dr. Miller. In my opinion, there is no fat in the program of work 
that has been planned and, in fact, significant risks exist; therefore, 
there is no room for error. Indeed, even successful execution of the 
proposed program of work within the budget requested is dependent on 
achieving significant improvement in the overall efficiency of the 
governance process. Over the last several years, we have eliminated 
redundancies and implemented efficiency improvements in our efforts to 
minimize, to the extent possible, the impact of the recent budget 
declines we have experienced. We are as lean as a prudent level of risk 
will allow. The fiscal year 2011 budget proposed by the administration 
is a positive first step toward revitalizing the NNSA's national 
security enterprise. The fiscal year 2011 budget request seeks to 
reverse past funding trends and reflects the need for increased 
investment to maintain sufficient capability to ensure the viability of 
the U.S. stockpile. Working with the NNSA, the complex has begun to 
develop baselines for the major construction projects and the next two 
proposed LEPs. It is difficult to say exactly what the right amount 
will be in any given year or over a 10-year horizon until the baselines 
for these facilities and LEPs are firmly established. Out-year budgets 
may have to be adjusted to support both the full costs of the LEPs and 
major construction projects and costs of sustainable core science, 
technology, and engineering capabilities. It will be very important to 
provide the flexibility and contingency appropriate for these complex 
large-scale, often one-of-a-kind, projects.
    Dr. Hommert. The magnitude of the required work scope over the 
coming decade is challenging, as we extend the lifetimes of key 
warheads in the stockpile and invest in our infrastructure and 
scientific capabilities. We must manage our resources very carefully, 
and recognize that periodic reevaluation will be necessary.

    29. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, are 
there any requirements currently unfunded within your facilities?
    Dr. Anastasio. Although I am pleased with the proposed fiscal year 
2011 budget, I remain concerned about the longer-term sustainability, 
in particular on the accounts that fund facility operations, like RTBF. 
The current fiscal year 2011 LANL RTBF budget target increases by 3 
percent over the fiscal year 2010 budget authority, but is followed by 
3 years of steady decline in the current Future Year Nuclear Security 
Plan (FYNSP) targets. Increased demands on the RTBF budgets at LANL 
have already begun to rise with a peak requirements case expected in 
fiscal year 2012 during the current FYNSP and the next significant 
increase expected in fiscal years 2016/2017 with the potential start-up 
of the replacement Radiological Liquid Waste Treatment Facility. LANL 
will work within the budget targets to develop a plan that meets all 
nuclear safety, security, and compliance requirements first; all non-
nuclear safety, security, and compliance requirements second; and all 
remaining warm standby activities within remaining budgets--which may 
require halting programmatic work in facilities that cannot remain 
appropriately operational within the funding constraints.
    As I have stated in previous testimony, it is still important to 
improve the balance within the program and I also remained concerned 
about the issues between scope and fiscal realities. Much of the 
existing physical infrastructure at LANL is old, 50 percent of the 
buildings are greater than 40 years old. In addition, the scientific 
equipment at the laboratory must continue to be refreshed as new 
technology becomes available and we must be able to effectively use our 
key scientific capabilities, such as Dual-Axis Radiographic 
Hydrodynamic Test (DARHT), LANSCE, and NIF; and continue to advance 
toward the ability to perform computing at the Exascale.
    Dr. Miller. The President's fiscal year 2011 budget request is a 
good start, helping to alleviate the downward pressure on the top line. 
However within the President's fiscal year 2011 budget request, the 
near-term budget pressure at LLNL continues to be most significant in 
operations of facilities within the Readiness in Technical Base 
Facilities (RTBF) account. RTBF is intended to provide required core 
infrastructure support to the weapons laboratories and plants. The 
President's fiscal year 2011 budget request included $80 million for 
LLNL's RTBF operations; this is $6 million below the amount needed to 
maintain stable funding necessary to meet our requirements.
    At LLNL, the RTBF account essentially funds three major facilities 
that support for NNSA programs (and some work for other U.S. Government 
agencies): (1) Decontamination and Hazardous Waste Treatment Facility; 
(2) Superblock plutonium facility; and (3) our high explosives 
facilities at Site 300 which is interconnected with our High Explosives 
Applications Facility. Adequate RTBF funding is necessary to comply 
with safety standards for the operations of these facilities. LLNL is 
in continual discussions with NNSA to address the $6 million shortfall 
in RTBF. However, we remain concerned that we will be increasing the 
risk of compliance issues with regard to these facilities without full 
funding for LLNL's RTBF account and that our ability to respond to 
emerging safety issues in nuclear and high hazard facilities will 
erode.
    LLNL's infrastructure will continue to underpin annual assessment 
and stockpile certification for the foreseeable future.
    Dr. Hommert. While the recently approved fiscal year 2010 
reprogramming will alleviate much of the B61 LEP technology maturation 
shortfall, further work is required with NNSA to address key facility 
and infrastructure requirements. For SNL these include the second phase 
of our Test Capabilities Revitalization project (TCR Phase 2) and 
upgrades to Tonopah Test Range (TTR). TCR Phase 2 is urgently required 
to ensure full support of the design and development activities for the 
B61 LEP. We are working with NNSA to pursue funding for this project in 
fiscal year 2011. Upgrades at TTR are required to support B61 LEP 
development flight testing.

    30. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, do 
you foresee any instances where resources above the administration's 
request may be needed in fiscal year 2012 or beyond?
    Dr. Anastasio. The laboratories will work closely with NNSA to 
develop realistic financial plans that meet stockpile responsibilities, 
sustain the necessary science, technology and engineering, and 
construct, and maintain needed physical infrastructure. In particular, 
restoring the required scientific and physical infrastructure is 
essential. When coupled with pension challenges, this will take time 
and sustained support from multiple administrations and Congresses. I 
recognize the Nation faces fiscal challenges, and I will ensure 
efficiency and accountability in executing the laboratory's 
responsibilities.
    Dr. Miller. There are several areas where additional resources may 
be required. There are two large facilities that must be built, the UPF 
and the CMRR facility, two LEPs that must be conducted over the next 
decade; and the Nation must sustain the science and engineering 
capabilities to support these LEPs and the annual assessment process. 
Each area has its own unique challenges. The construction of very 
complex, one-of-a-kind facilities makes out-year budgeting quite 
uncertain. The NNSA and the complex have begun to develop baselines for 
the major construction projects and the next two proposed LEPs. Future 
budget requirements could present a significant challenge depending on 
the full costs of the LEPs and major construction projects. For these 
types of projects, it is very important to provide flexibility and 
appropriate contingency that reflects the existence of many and 
differing sources of uncertainty within each project. It is difficult 
to say exactly what the right amount will be in any given year or over 
a 10-year horizon until the baselines for these facilities and LEPs are 
firmly established. The budget estimates will need to be evaluated 
annually based on the evolving baselines of these projects. The science 
and technology base upon which the program relies must also be nurtured 
and sustained. In this regard, funding for an Exascale simulation 
capability has yet to be identified.
    Dr. Hommert. Over the next several years, SNL has a number of 
funding issues that need to be addressed. These are small in comparison 
with the overall nuclear weapons program budget, but still critically 
important to our success. One of the larger funding requirements is the 
recapitalization of obsolete tooling and equipment in our trusted 
microelectronics fabrication facility. This will require an investment 
of approximately $100 million over the next few years. Another example 
is the need to strengthen our materials science capability, which has 
degraded in recent years due to resource constraints. Materials science 
is a critical capability over the entire nuclear weapons life cycle. 
The adequacy of the budgets in fiscal year 2012 and beyond to support 
LEPs other than the B61 will not be well-understood until the scopes 
and schedules of these LEPs are better defined.

                          new start safeguards
    31. Senator McCain. Dr. Anastasio, in your prepared remarks you 
asserted that one way to assure the long-term stability of funding and 
maintain focus across multiple administrations and Congresses would be 
to establish safeguards similar to some used in past arms control 
treaties. Could you specify more directly on what sort of safeguards 
you believe should be included as conditions for START ratification?
    Dr. Anastasio. Safeguards such as increased research and 
development, improved monitoring and verification capabilities, 
preparations to respond to noncompliance or the collapse of a treaty, 
et cetera, have long been a feature of arms control agreements (e.g., 
SALT I and II, TTBT, and PNET) and, in my view, would be one mechanism 
to consider for New START. Such safeguards would help ensure the long-
term sustainability of stockpile stewardship, infrastructure 
modernization, and monitoring and verification programs on which the 
laboratory's missions and U.S. security depend today and, even more so, 
as numbers are reduced further.
    With these considerations in mind, I believe it would be useful for 
the administration and Congress to consider safeguards for the New 
START treaty. Such safeguards would be designed to ensure a long-term 
commitment to and continued funding of the broad range of activities 
needed to sustain the stockpile; and to maintain and modernize 
facilities and programs to ensure the continued application of human 
scientific resources to those programs on which continued progress in 
sustaining the nuclear deterrent depends.
    Today, the assessment of the stockpile is reported in annual 
assessment letters from the three laboratory directors and the 
Commander of Strategic Command (STRATCOM). I would recommend that these 
procedures be modified such that these reports and letters be sent 
concurrently to both the President and relevant committees of Congress. 
In addition, an annual unclassified letter from the three laboratory 
directors and commander of STRATCOM to the President and Congress could 
be required on the health and status of the stockpile, the NNSA 
complex, and the program. Alternatively, Congress could hold an annual 
open/closed hearing on these same subjects.

                      intellectual infrastructure
    32. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, the 
impending intellectual brain-drain is a significant concern and 
heightens the importance of recruiting the next generation of weapons 
designers. Do you foresee any difficulty in recruiting new weapons 
engineers in an environment driven by the recent NPR that discourages 
work on new designs?
    Dr. Anastasio. I remain concerned about developing the workforce 
for the future and believe that this is one of my most important jobs 
as the LANL Director. I am confident that the scope of work outlined in 
the NPR is sufficiently challenging to help us attract and retain the 
``best and brightest''. LANL has been successful in recruiting by 
utilizing our strong post-doctoral fellowship programs and internal 
graduate and undergraduate student programs. Our student programs at 
the laboratory continue to bring excellent students into the laboratory 
and provide a strong recruiting mechanism. Currently, the laboratory 
has over 400 post-doctoral fellows and hosted over 1,300 students 
during this summer. Additionally, the national laboratories are 
utilizing DOE- and NNSA-funded programs like the Stockpile Stewardship 
Graduate Fellowship Program and the Computational Science Graduate 
Fellowship Programs to find and recruit the best and brightest.
    The key to recruitment is sustaining the strong science funding 
that is essential to carry out the full set of scientific research and 
development. As I have argued before, many of the investments of 
stewardship are coming to fruition, notably the DARHT Facility at LANL, 
the NIF at LLNL, and the MESA facility at SNL. However, just as the 
Nation needs to reap the benefits of these investments, the need to 
recapitalize the infrastructure and the growing operational costs from 
the ever-increasing safety, security, and environmental standards, make 
it extremely difficult to maintain, use or enhance these stockpile 
stewardship tools so necessary to preserve the deterrent, to further 
other national security goals, and to ensure recruitment and retention 
of the best scientists.
    Dr. Miller. Maintaining intellectual capabilities and technical 
competencies is a priority for the national laboratories. Success in 
sustaining workforce excellence depends on the laboratories engaging in 
a compelling national program with sufficient funding over the long 
term. The program must provide opportunities for stimulating scientific 
research and engineering advancements to attract, retain, and continue 
to train the talent necessary to fulfill the challenging mission of 
maintaining our nuclear deterrent. In addition, the laboratories must 
be able to provide a competitive set of benefits and work-life 
programs. I believe that if the funding increase is provided, we have a 
compelling national program with opportunities for stimulating research 
to exercise the talents of the laboratories, which will enable us to 
maintain a skilled workforce.
    A balanced program that promotes a compelling SSP with a sustained 
science, technology, and engineering (ST&E) effort is needed to provide 
the pipeline of skilled personnel to meet program demands and ensure 
that our deterrent remains second to none in the future. The program 
vision and objectives outlined in the NPR require vigorous ST&E. ST&E 
activities must provide adequate opportunity to exercise skills in the 
complete design-through-production cycle, which is essential training 
for laboratory and production plant personnel. Senior administration 
officials have made it clear that the NNSA laboratories have the 
flexibility, responsibility, and authority to study the complete 
spectrum of potential options, which includes replacement, for each 
future LEP in order to provide the Nation's decisionmakers with our 
best technical input upon which to base down-select decisions. 
Consistent with this guidance, NNSA's 1251 report includes the 
following statement:
    ``The laboratory directors will ensure that the full range of LEP 
approaches, including refurbishment, reuse, and replacement of nuclear 
components are studied for warheads on a case-by-case basis.''
    LLNL welcomes NNSA's assignment responsibility of the W78 LEP to 
this laboratory. This program of work is a vital element in maintaining 
the competency and capability of LLNL's design and engineering cadre 
through an integrated system design/engineering/manufacturing process. 
The work will serve to attract highly trained and motivated workforce 
needed to sustain nuclear deterrence.
    Finally, I add that we are all aware of the challenges caused by 
rising health-care costs and pension liabilities. As we move forward to 
resolve these issues, it is important to keep in mind that they have a 
significant influence on our ability to recruit and retain world-class 
scientific, engineering, technical, and operational talent.
    Dr. Hommert. NPR guidance on new designs applies primarily to the 
NEP components. SNL's primary responsibilities are for non-nuclear 
components whose underlying technologies evolve and change at a rapid 
pace, mostly driven by commercial applications. As technologies change, 
we are forced to new designs to avoid sunset technology issues. This 
new design work offers challenges not seen in the commercial sector, 
namely design for operation over long periods in extremely harsh 
environments with near perfect reliability. Our data show that we 
continue to successfully recruit the best and brightest technical 
talent to the nuclear weapons program. The challenge going forward is 
to motivate, train, and retain them. Key to success in this area is 
clear evidence of an enduring national commitment to the U.S. nuclear 
deterrent, and the concomitant programmatic stability. Also important 
is challenging technical work and a work environment that includes 
state-of-the-art facilities, design tools, and technologies.

                           b61 reprogramming
    33. Senator McCain. Dr. Hommert, in your prepared remarks you 
stated that the B61 LEP is a primary driver for the current state of 
urgency across the weapons complex. DOE recently submitted a request to 
reprogram $53 million of the NNSA's fiscal year 2010 appropriated 
budget to support urgent funding for the B61 LEP study. How critical is 
the timely approval of this reprogramming request?
    Dr. Hommert. The reprogramming request was approved by the four 
relevant congressional committees in August. The funds are essential to 
complete the B61 LEP 6.2/6.2A and the technology maturation required 
for the program.

    34. Senator McCain. Dr. Hommert, what would the consequences of 
denying such a request have on meeting the critical 2017 deadline?
    Dr. Hommert. Please see the answer to question #33.

    35. Senator McCain. Dr. Hommert, is the fiscal year 2011 and the 
future years budget plan sufficient to support the fiscal year 2017 
delivery of the B61 and to maintain the W76 schedule?
    Dr. Hommert. The B61 LEP 6.2/6.2A study is underway and proceeding 
thanks to fiscal year 2010 reprogramming granted by Congress. The 
completion of this study in fiscal year 2011 will provide the 
information needed to assess the adequacy of outyear funding levels. 
The W76-1 is now in production, and so the funding needs are largest at 
the plants going forward. My understanding is that the plants have 
adequate resources to maintain the current schedule.

    36. Senator McCain. Dr. Hommert, is there any likelihood of the B61 
production slipping as a result of budget issues in fiscal years 2010-
2012?
    Dr. Hommert. We are currently viewing the fiscal year 2017 first 
production unit (FPU) date as a constraint on the program. Therefore, 
any budget shortfalls would impact the scope of the LEP. We strongly 
advocate the full scope program, and believe it would be ill-advised to 
miss the opportunity to incorporate 21st century safety and security 
features into the U.S. nuclear weapons stockpile through this LEP.
                              jason study
    37. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, the 
JASON Defense Advisory Panel study of the LEP released last November 
has been interpreted to mean that there are no long-term reliability or 
aging concerns that can't be fixed by relying on a simple refurbishment 
approach. The NPR clearly concludes that refurbishment is only one of 
three options that must be considered, including reuse and replacement. 
Do you agree with that interpretation of the JASON study? If not, 
please articulate your views in an unclassified response.
    Dr. Anastasio. As I have stated in a letter to Representative 
Michael Turner on January 25, 2010:
    ``The JASON report states that the lifetimes of today's nuclear 
weapons could be extended for decades, with no anticipated loss of 
confidence, by using approaches similar to those employed in LEPs to 
date. I do not agree with this assertion.''
    There are some materials and components in the current stockpile 
that cannot be replicated in a refurbishment, and there may not be 
suitable replacements that would allow sustained confidence in current 
systems. Moreover, there are several technical issues that cannot be 
addressed using a refurbishment-only approach, including the need to 
improve the safety and security of warheads. More specifically, as I 
stated in the letter to Representative Turner:
    ``There are several technical issues that cannot be addressed using 
a refurbishment-only approach:

        <bullet> It is not possible to replace high explosive primaries 
        with insensitives high explosives primaries or implement 
        certain intrinsic surety features in today's stockpile using 
        refurbishment because of current system constraints.
        <bullet> Weapon aging, which can manifest itself in the form of 
        corrosion, microscopic and macroscopic defects, et cetera, can 
        lead to off-normal or feature-driven disruption to nuclear 
        performance and diminish the available performance margin in 
        low-margin weapons more rapidly than the weapons could be 
        cycled through a refurbishment. This risk can be managed by 
        preemptively increasing margins--but by amounts larger than 
        those available through refurbishment.
        <bullet> The JASON correctly recognizes that `Substantial 
        reductions in yield for various stockpile warheads, which may 
        be called for in the forthcoming NPR, also could not be 
        accomplished using refurbishment.' ''

    Further, the JASON report states that some reuse and replacement 
options require a more advanced understanding of weapons physics. While 
this is an accurate statement, it also applies to refurbishment. It 
does not mean that reuse and replacement options are precluded 
technically. In fact, the classified JASON report supports reuse and 
replacement options.
    Dr. Miller. The JASON report says ``lifetimes of today's nuclear 
warheads could be extended for decades. by using approaches similar to 
those employed in LEPs to date.'' As was made clear in the NPR and DOE 
Secretary Chu's recent testimony, this administration is committed to 
studying all of the options available for future LEPs--including reuse, 
refurbishment, and replacement--on a case-by-case basis. I agree with 
the administration that we need to be able to study the full suite of 
LEP options.
    Studying the full suite of LEP options provides the additional 
benefit of opening up the possibility of improving the safety, 
security, manufacturability, maintainability, and performance margin of 
the stockpile. Based on current and anticipated production capacity, it 
will take more than a decade to complete any LEP for the stockpile--
independent of whether or not they include intrinsic safety and 
security improvements. Recognizing this, we are investigating a variety 
of options to improve safety and security of the stockpile warheads 
that grows over time with technology advances. As opportunities present 
themselves through planned LEPs, incorporation of advanced safety and 
security features should be considered and put forward as one of the 
case-by-case options developed in studying the full suite of options--
reuse, replacement, and refurbishment.
    Dr. Hommert. In the JASON's study, the terms refurbish, reuse, and 
replace were applied primarily to the nuclear explosive package (NEP), 
and I defer to Dr. Anastasio and Dr. Miller in this regard. I would 
like to point out, though, that even if NEP refurbishments can address 
reliability and aging concerns, the refurbishment approach does limit 
the options we have for improving the safety and security of the 
stockpile. I therefore support the NPR guidance to consider all 
options. For SNL, most of the non-nuclear components in the stockpile 
today are based on obsolete technologies. Indeed, the most recently 
developed nuclear warhead, the W88, was designed in the early 1980s 
when cell phones weighed four pounds each. Massive investments by the 
private sector have led to staggering improvements in the 
miniaturization and functionality of microelectronics. These advances 
offer real opportunities for safety and security improvements to our 
nuclear weapons.

    38. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, an 
area of significant concern involves the low rate at which we are 
actually surveilling systems in the current stockpile. Is the 
surveillance of weapons systems receiving the resources necessary to 
proactively predict potential aging issues?
    Dr. Anastasio. My congressional testimony highlights my concern 
that we are not doing as much surveillance as we should be doing. I 
have also documented my concerns in my annual assessment letters and 
their supporting documentation. The fiscal year 2011 budget request 
begins to address this concern. Sustained management focus and 
additional funding will be required to redress this shortfall.
    Surveillance involves two elements. The first is to understand the 
current condition of the warheads/bombs with respect to the original 
design intent. The second is to invest in the technical capabilities to 
enable predictions of future conditions. The need to invest in 
predictive technologies is driven by aging of the stockpile. Funding 
for these elements comes from different sources, each of which competes 
with other priorities.
    Both elements grow in importance as the stockpile ages. Actual 
surveillance work and the analysis of the data produced reveal the 
condition of the stockpile and provide the inputs for evaluating future 
conditions.
    Dr. Miller. In recent years, the laboratory directors have 
expressed increasing concern about their knowledge of the actual state 
of the stockpile weapons in their annual assessment letters to the 
Secretaries of Energy and Defense. The fiscal year 2011 budget request 
is sufficient to prevent further atrophy of stockpile surveillance and 
provides the surveillance enterprise a modest boost. The surveillance 
enterprise is being scrutinized and the NNSA--together with the 
laboratories and production facilities--is working hard to define a 
right-sized forward-leaning surveillance program and the appropriate 
level of funding for it.
    Such a forward-looking surveillance enterprise would be designed to 
meet the stockpile assessment requirements for small stockpile size. It 
would build upon the two components of the NNSA surveillance 
enterprise: Core Surveillance and Enhanced Surveillance. The primary 
function of Core Surveillance is to gather data on the state of the 
components and the materials in the stockpile. This is achieved through 
destructive testing, where nuclear explosives packages are broken down 
to their individual components and these are subsequently subjected to 
a number of laboratory tests to determine their condition and ability 
to fulfill their prescribed functions. Data derived from these tests 
are examined for trends that might suggest changes that could limit the 
lifetime of the component.
    The primary function of Enhanced Surveillance is to develop 
advanced surveillance techniques and aging models that will allow the 
laboratories to project the future performance of the components and 
materials in the NEP and, most importantly, to anticipate failures with 
sufficient time to correct them given the accelerated aging 
experiments, accumulated data from Core Surveillance, and knowledge 
gained from long-term observation of similar materials in other NEPs in 
the stockpile.
    Dr. Hommert. Surveillance Transformation is fundamentally about 
aligning our surveillance approach with the realities of a smaller, 
older stockpile. While we have made progress in creating fundamental 
predictive knowledge of important aging mechanisms, there is much more 
to do and the pace of our progress toward the ultimate goal of 
comprehensive understanding of the performance impacts has been less 
than satisfying. We consistently raise this concern in our Annual 
Assessment Reports (AAR). I am encouraged that the fiscal year 2011 
budget identifies more resources for surveillance, however, I believe 
it will be important that surveillance receive increasing priority 
within the program going forward.

    39. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, do 
such shortfalls raise concerns that you are not finding all the 
problems?
    Dr. Anastasio. Yes. Anomalous conditions in the stockpile and 
discovered through surveillance generally can be grouped into three 
categories: birth defects, deviations from design intent, and aging.
    Recent modifications to the surveillance program of record and 
investment strategy reflect the change in emphasis from detecting birth 
defects to identification and assessment of aging phenomena. These 
adjustments include a modest reduction in the number of units actually 
surveilled combined with an increased number of new non-destructive 
diagnostic capabilities. Even with these changes, however, it is 
important to surveil the prescribed number of warheads/bombs with the 
complete set of necessary diagnostics to develop confidence that the 
actual condition of the stockpile is known and that the data are 
adequate to predict future behavior.
    Dr. Miller. Based on the results of our laboratory's most recent, 
comprehensive annual assessment process, I have concluded that the U.S. 
stockpile is safe, secure, and effective today. However, I continue to 
be concerned about the longer term and the sufficiency of our 
surveillance activities. The fiscal year 2011 uplift proposed by the 
administration is a positive first step toward revitalizing the 
national security enterprise, including surveillance. The fiscal year 
2011 budget request seeks to reverse past funding trends and reflects 
the need for increased investment to maintain sufficient capability to 
ensure the viability of the U.S. stockpile. Within constrained budgets, 
the NNSA is working hard to define a right-sized forward-leaning 
surveillance program, encompassing both components of the surveillance 
enterprise that can meet the stockpile assessment requirements for a 
smaller stockpile size.
    Additionally, I am encouraged by recent successes in developing and 
deploying improved technology for surveillance. An example of a recent 
success is the activation of the CoLOSSIS pit computed tomography 
facility at Pantex, jointly developed by LLNL and Pantex. This facility 
allows us to non-destructively examine weapon components in much more 
detail than we have been able to achieve with previous radiographic 
techniques. This facility has already returned interesting and 
unexpected data on a stockpile weapons system. Additional funding, 
however, is required to make full use of this and other tools.
    Dr. Hommert. Our experience is that the more we look the more we 
find, both current and potential future issues. In that regard, any 
shortfalls are of concern. However, we have a strong cumulative 
technical basis for our current assessments of the stockpile state of 
health, and we will remain vigilant in our ongoing evaluations of the 
stockpile.

    40. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, as 
a result is it becoming more difficult to certify the weapons?
    Dr. Anastasio. My annual assessment letters have repeatedly raised 
concerns about surveillance shortcomings. As my testimony before the 
committee points out ``we are not doing as much surveillance as we 
should be doing.''
    Up to now, certification has been maintained by increasing our 
understanding of how the stockpile operates, examining impacts of 
aging, performing life extensions of the W87 and W76, and by 
determining that anomalies discovered in the stockpile do not affect 
safety, reliability, or performance of the warhead/bomb with respect to 
its military requirements. In some cases, certain stockpile management 
activities or adjustments in requirements against capabilities were 
required. In the future, these options may result in erosion of the 
specified military characteristics, perhaps to values unacceptable to 
DOD. Avoiding this will require increased scientific analysis and 
insight, which drives the need to sustain a robust science, 
engineering, and technology base in the nuclear security enterprise. 
Maintaining this base requires national consensus for adequate and 
sustained resources over the long term.
    Dr. Miller. Based on the results of our laboratory's most recent, 
comprehensive annual assessment process, I have concluded that the U.S. 
stockpile is safe, secure, and effective today. However, the laboratory 
directors have expressed increasing concern about their knowledge of 
the actual state of the stockpile weapons in their annual assessment 
letters to the Secretaries of Energy and Defense. Examples of the 
sources of concern are the declining rate of acquiring key surveillance 
data and the slow rate of developing enhanced surveillance 
capabilities. As I said in my most recent assessment letter, 
``reliability assessments should be withheld for systems without valid 
flight/environmental tests or surveillance data within the previous 2 
years.''
    Prior to the fiscal year 2011 budget request, the overall funding 
trajectory for nuclear weapons complex would have put the deterrent at 
risk in the long term. The administration's fiscal year 2011 budget 
proposal is a positive first step toward revitalizing the national 
security enterprise, including surveillance. The budget request seeks 
to reverse past funding trends and reflects the need for increased 
investment to maintain sufficient capability to ensure the viability of 
the U.S. stockpile. Within constrained budgets, the NNSA is working to 
define a right-sized forward-leaning surveillance program, encompassing 
both components of the surveillance enterprise that can meet the 
stockpile assessment requirements for a smaller stockpile size.
    Dr. Hommert. Certification is the approach we use during the 
original fielding of a new warhead. Annual assessment is an ongoing 
process of strengthening our knowledge and confidence in the state of 
health of the stockpile over time. We have a robust, cumulative 
technical basis for each of our warheads, and we continue to assess 
them as being safe, secure, and reliable. From time to time we report a 
temporary increase in the uncertainty associated with our assessments 
due to testing shortfalls or other concerns.

    41. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, I 
understand that the laboratories and plants have identified a shortfall 
of approximately $400 million above the requested fiscal year 2011 
budget request. What are these unfunded requirements?
    Dr. Anastasio. The current fiscal year 2011 LANL RTBF budget target 
increases by 3 percent over the fiscal year 2010 budget authority, but 
is followed by 3 years of steady decline in the current FYNSP targets. 
Increased demands on the RTBF budgets at LANL have already begun to 
rise with a peak requirements case expected in fiscal year 2012 during 
the current FYNSP and the next significant increase expected in fiscal 
year 2016/2017 with the potential start-up of the replacement 
Radiological Liquid Waste Treatment Facility. LANL will work within the 
budget targets to develop a plan that meets all nuclear safety, 
security, and compliance requirements first; all non-nuclear safety, 
security, and compliance requirements second; and all remaining warm 
standby activities within remaining budgets--which may require halting 
programmatic work in facilities that cannot remain appropriately 
operational within the funding constraints.
    As I have stated in previous testimony, it is still important to 
improve the balance within the program and I also remained concerned 
about the issues between scope and fiscal realities. Much of the 
existing physical infrastructure at LANL is old, 50 percent of the 
buildings are greater than 40 years old. In addition, the scientific 
equipment at the laboratory must continue to be refreshed as new 
technology becomes available and we must be able to effectively use our 
key scientific capabilities, such as DARHT, LANSCE, and NIF; and 
continue to advance toward the ability to perform computing at the 
Exascale.
    Dr. Miller. The fiscal year 2011 budget increase proposed by the 
administration is a positive first step toward reversing the recent 
declining budget trends and revitalizing the nuclear weapons complex 
necessary to maintain the U.S. nuclear deterrent. The budget increase 
proposal was informed by a request developed a year ago by the NNSA 
laboratory directors for a 3-year funding ramp increase to the NNSA 
Weapons Activities account to create a balanced and robust program of 
work across the three primary areas in the SSP. These include: (1) the 
science and technology that underpins our understanding of an aging 
stockpile and supports a reinvigorated surveillance program; (2) the 
LEPs that are necessary to keep the systems safe, secure, and 
effective; and (3) the modernization of the facilities and 
infrastructure.
    NNSA recognized the importance of a balanced program of work 
outlined by the laboratory directors, but chose to stretch the schedule 
for meeting deliverables. While some aspects of the laboratory's 
activities could proceed more rapidly if funding were available, this 
situation is different than an ``unfunded requirement'' or true 
shortfall.
    The original laboratory director request contained additional 
funding in the following areas (compared to the fiscal year 2011 
President's budget request):

        <bullet> Surveillance. The increase in surveillance provided 
        for a robust surveillance program. This program included both 
        augmented data collection for the annual assessment process and 
        development of advanced techniques for monitoring the health of 
        the stockpile. NNSA is applying a risk-informed design process 
        to allocate fiscal year 2011 funding the highest priority 
        surveillance concerns. The President's budget request does 
        include a modest increase in funding for surveillance.
        <bullet> RTBF. The laboratory director proposal recognized the 
        need for a robust facility infrastructure. The fiscal year 2011 
        budget request is a positive first step, but continues to fall 
        short in RTBF at many sites across the complex. At LLNL, due to 
        a $6 million fiscal year 2011 RTBF shortfall, funding for high 
        hazard and nuclear facility compliance is marginal.
        <bullet> Science, technology, and engineering. The laboratory 
        directors requested additional funding in Science Campaigns, 
        ASC, and the Engineering Surety Campaign. This funding was 
        intended to underpin the long-term health of the deterrent and 
        provide a more rapid maturation of technologies that could be 
        used in future LEPs. As a specific example, the laboratory 
        director proposal recommended initiating a vigorous Exascale 
        Initiative in fiscal year 2011. Fiscal year 2011 funding 
        shortfalls are delaying work in these areas.

    Finally, it should be noted that the proposed fiscal year 2011 
increase provides for workforce stabilization, which is an encouraging 
step toward workforce augmentation. At LLNL, the President's budget 
request would allow us to fill key vacancies, reinvigorating the 
critically skilled workforce underpinning the SSP.
    Dr. Hommert. The NSEIC developed a number of uplift scenarios, 
ranging from a $400 million increase to a $1.8 billion increase. At 
each scenario level there were different impacts to scope and schedule. 
The increase allocated in the President's budget fell within our 
planning scenarios. Specifically for the programs where there is a 
major effort at SNL, the fiscal year 2011 budget adequately supports 
those programs. It will be important to annually reassess budget 
requirements as technical requirements and timelines become firm.

    42. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, why 
are these unfunded requirements important?
    Dr. Anastasio. The current fiscal year 2011 LANL RTBF budget target 
increases by 3 percent over the fiscal year 2010 budget authority, but 
is followed by 3 years of steady decline in the current FYNSP targets. 
Increased demands on the RTBF budgets at LANL have already begun to 
rise with a peak requirements case expected in fiscal year 2012 during 
the current FYNSP and the next significant increase expected in fiscal 
year 2016/2017 with the potential start-up of the replacement 
Radiological Liquid Waste Treatment Facility. LANL will work within the 
budget targets to develop a plan that meets all nuclear safety, 
security, and compliance requirements first; all non-nuclear safety, 
security, and compliance requirements second; and all remaining warm 
standby activities within remaining budgets--which may require halting 
programmatic work in facilities that cannot remain appropriately 
operational within the funding constraints.
    As I have stated in previous testimony, it is still important to 
improve the balance within the program and I also remained concerned 
about the issues between scope and fiscal realities. Much of the 
existing physical infrastructure at LANL is old, 50 percent of the 
buildings are greater than 40 years old. In addition, the scientific 
equipment at the laboratory must continue to be refreshed as new 
technology becomes available and we must be able to effectively use our 
key scientific capabilities, such as DARHT, LANSCE, and NIF; and 
continue to advance toward the ability to perform computing at the 
Exascale.
    Dr. Miller. Retaining confidence in the deterrent value of the U.S. 
nuclear forces depends on a number of factors, including: confidence in 
the warheads themselves; confidence in the ability of the 
infrastructure to respond to issues that arise; and confidence in the 
underlying ST&E and the talent of the workforce to use the ST&E to 
accurately assess the health of the stockpile and manage arising 
issues. When any of these elements are at risk, so is the deterrent 
itself. The funding trend prior to fiscal year 2010 has put each of 
these elements at risk. The fiscal year 2011 budget increase proposed 
by the administration is a positive first step towards revitalizing the 
nuclear weapons complex necessary to maintain the U.S. nuclear 
deterrent. Recognizing the importance of a balanced program of work and 
the importance of the originally defined scope of work, the NNSA has 
chosen to stretch the schedule for meeting deliverables rather than 
change balance or the scope of work. To meet the original scope of work 
while relying on constrained budgets, NNSA applies a risk-informed 
decision process to balance annual work scope and schedule. As is 
always the case, while some aspects of the laboratory's activities 
could proceed more rapidly if funding were available, this situation is 
different than an unfunded requirement or true shortfall.
    Dr. Hommert. At the funding level of the President's budget 
request, SNL has at least three outstanding funding concerns; these are 
small in comparison with the overall nuclear weapons program budget, 
and we are working to resolve these items with NNSA. These include 
renovation and modernization of some physical test facilities, 
recapitalization of outdated tooling and equipment in our 
microelectronics fabrication facility, and strengthening the material 
science capabilities at SNL. These are all critically important to our 
success in the upcoming design and development work for the LEPs.

    43. Senator McCain. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
could a decision to defer work, some of which is directly related to 
facility maintenance and repair, affect your ability to fulfill your 
mission?
    Dr. Anastasio. Yes. Deferring work, particularly facility 
maintenance and repair, can affect the laboratory's ability to fulfill 
mission. Every effort is made to understand mission needs and ensure 
facility repair priorities are consistent with planned mission 
activities. However, years of deferred maintenance and limited 
operational dollars have resulted in areas of facility weakness. At Los 
Alamos over 50 percent of the buildings are more than 40 years old.
    Dr. Miller. Yes, deferring certain planned work, scientific 
campaigns and/or facility maintenance and repair, could impact mission 
deliverables. Delays could easily result in a domino effect across the 
integrated complex. Accordingly, the work scope across the complex must 
be carefully balanced.
    For example, the RTBF program provides the infrastructure necessary 
to maintain the deterrent. The fiscal year 2011 budget is a first 
positive step, but continues to fall short in RTBF at many sites across 
the complex. With respect to LLNL's infrastructure, stable funding is 
required to maintain our nuclear facilities and high hazard facilities. 
Their maintenance and safe operations are required to meet mission 
deliverables. At LLNL, due to fiscal year 2011 RTBF constraints, 
funding for high hazard and nuclear facility compliance is on the 
tipping point. These facilities will continue to underpin the annual 
assessment and stockpile certification process for the foreseeable 
future, and they provide unique non-nuclear manufacturing capabilities. 
It is important that out-year funding be provided to meet the critical 
facility infrastructure requirements across the complex.
    Dr. Hommert. There are a small number of essential facility 
upgrades that must be accomplished in order for SNL to successfully 
execute its design mission for the B61 LEP. If fully funded, the second 
phase of our TCR Phase 2 will address the most urgent of these needs. 
Deferral of TCR Phase 2 would result in a significant increase in risk 
to the B61 LEP program. Upgrades at the TTR are required to support the 
development flight test program for the B61 LEP. Replacement of aging 
equipment and tooling in our MESA microelectronics fabrication facility 
is also fundamentally important. Our ability to design and manufacture 
the strategic radiation hardened microelectronics required for upcoming 
reentry system LEPs depends on these upgrades.

    44. Senator McCain. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, according to the JASON Panel's assessment, the ``continued 
success of the stockpile stewardship is threatened by lack of program 
stability, placing any LEP strategy at risk.'' Has NNSA presented a 
plan that alleviates these stability concerns?
    Dr. Anastasio. The elements of the plan are sound but sustained 
funding over 25+ years is necessary for implementation. The current 
plans for the budget show proposed increases to the programs for much 
of the next 10 years. The current proposed amount allows for the 
national security laboratories to start the investments needed for 
infrastructure improvements and sustaining the science necessary as the 
stockpile size is reduced. This is a positive first step.
    As I stated in my testimony, the majority of the budget increases 
occur in the second half of the 10-year budget plan. Achieving an 
enduring commitment is important to sustaining the nuclear stockpile 
and to the ability to continue to certify the stockpile through the 
science of the SSP. If the budget comes under fiscal pressure in the 
out-years, science might again be squeezed out, which would raise 
significant concerns about maintaining the credibility of the 
deterrent. Sustained funding is needed to enable a safe, secure, and 
effective deterrent underpinned by science and the facilities that 
support it. I am concerned that fiscal pressure could create a major 
problem for the national laboratories and the science that is critical 
to the success of the program.
    Dr. Miller. The proposed budget outlined in the 1251 report--
including investments in stockpile maintenance, science and technology, 
and infrastructure--seeks to provide a reliable and stable funding 
profile for the enterprise. The NNSA's SSMP defines the scope of work 
for the out-years. Additionally, the laboratories and plants are 
working with the NNSA to develop baselines for the two main facility 
construction projects and the next LEPs. The required long-term 
investments outlined in the 1251 report support sustaining the 
confidence in our nuclear deterrent while reductions are made in the 
overall U.S. stockpile size. These increased investments are not just 
important, they are essential. NNSA's plans, which couple investments 
with the work scope defined in the SSMP, and the ongoing base-lining 
activity significantly help to alleviate concerns about program 
stability.
    Dr. Hommert. In my opinion, the combination of: (1) the policy 
framework outlined in the NPR; (2) the high-level implementation plans 
established by the NNSA fiscal year 2011 SSMP and DOD 1251 document; 
and (3) the funding profile described in the administration's fiscal 
year 2011 budget request document, forms a strong basis for 
programmatic stability going forward.
    Dr. Schwitters. I am not aware of any NNSA plan that alleviates 
concerns regarding program stability raised in our 2009 LEP report.

    45. Senator McCain. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, are there any institutional issues within NNSA that impede 
or threaten to impede stability?
    Dr. Anastasio. At the national level, significant strides have been 
made by the administration to provide a level of program stability. The 
NPR and the President's fiscal year 2011 budget request form a core 
around which a national consensus can be built. Congressional approval 
of the fiscal year 2011 budget request will also assist. Within the 
NNSA, the confirmations of Dr. Don Cook and Neille Miller provide much-
needed institutional stability. Dr. Cook's scientific background and 
decades of experience in the weapons community provides the leadership 
needed to sustain the program. His recent reorganization of the Defense 
Programs Headquarters organization to focus on the scientific and 
engineering challenges of sustaining the safety, security, and 
effectiveness of the stockpile is a another step for program stability. 
The Secretary and NNSA Administrator have recognized the need for 
structural and organizational changes to ease the regulatory burdens 
and thereby improve productivity at the laboratories, which we strongly 
support.
    Dr. Miller. It is vitally important that DOE revitalize the 
Federally Funded Research and Development Center (FFRDC) model that 
governs the relationship between DOE and the laboratories. The DOE 
Secretary, the Deputy Secretary, and the Under Secretaries have made it 
a high priority to improve the efficiency of the departmental processes 
and mechanisms for governance. The NNSA is working with the 
laboratories to identify institutional issues and address them. NNSA 
Administrator and Under Secretary for Nuclear Security Tom D'Agostino 
has established a trilaboratory advisory council to help map the future 
and is actively pursuing reforms to laboratory governance to ensure 
effective application of the laboratories' capabilities. In fact, the 
DOE recently chartered the National Academy of Sciences to review 
governance of the laboratories and we are looking forward to the 
results of that review.
    Additionally, NNSA is seeking to strengthen partnerships with other 
agencies to better enable the application of NNSA in support of 
critical broader national security missions. I fully support Under 
Secretary D'Agostino's efforts to transform the NNSA Cold War nuclear 
weapons complex to a 21st century national security enterprise.
    Dr. Hommert. The detailed programmatic structure of the nuclear 
weapons program, coupled with the high degree of congressional 
direction to each element of the program, has made it increasingly 
difficult to make even modest adjustments to the distribution of 
funding within the overall program. Greater flexibility for NNSA to 
manage and direct funding within the overall program would add 
efficiency and help us address evolving priorities. We recognize that 
methods of changing the funding distribution exist and are routinely 
exercised particularly the supplemental appropriations and 
reprogramming processes.
    Dr. Schwitters. The question of program stability was raised in the 
2009 JASON report as part of our general concern regarding professional 
development and renewal of the technical manpower who provide the 
expertise and capabilities in science, engineering, and production 
absolutely essential to maintaining our Nation's nuclear deterrent. On 
this issue, JASON is in agreement with the laboratory directors, both 
current and past, that we face substantial challenges in recruiting and 
retaining the key technical people needed today and in the future.
    The question raised is important, but I don't believe the answer to 
the larger issue of retention of technical staff can be found in 
institutional issues within NNSA. Rather, I think a renewed sense of 
purpose and trust between the labs, NNSA, Congress, and the greater 
scientific community is in order.

    46. Senator McCain. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, do your annual assessments continue to find any aging 
problems?
    Dr. Anastasio. Yes. It comes as no surprise that warheads and 
bombs, all of which are older than 20 years (some are 30+ years old) 
continue to exhibit aging phenomena. These conditions are discussed in 
the joint Los Alamos and Sandia AARs and my annual assessment letters.
    Dr. Miller. Based on the results of our laboratory's most recent, 
comprehensive annual assessment process, I concluded that the U.S. 
stockpile is safe, secure, and effective today. Through our annual 
assessments, we do continue to uncover changes in weapons due to aging 
and birth defects, which we then analyze to understand what impact (if 
any) they have on weapon effectiveness, safety, or security.
    Dr. Hommert. As the nuclear weapons in our stockpile remain 
deployed beyond their original design lifetimes, aging is an ongoing 
concern. The specifics of our findings are outlined in the MRS.
    Dr. Schwitters. JASON does not participate in the annual assessment 
process. We were briefed extensively on results coming from annual 
assessments which have shown effects of aging on weapon components as 
described in our classified reports to NNSA.

    47. Senator McCain. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, are you finding any problems you did not predict?
    Dr. Anastasio. Yes. Nuclear warheads and bombs are complex 
assemblies with components that are radioactive, volatile, and 
chemically active. When placed in a sealed volume for decades, some 
unpredicted behaviors reveal themselves. It is essential that we have a 
robust surveillance program to identify new issues and the science and 
engineering to respond when discovered.
    Dr. Miller. Yes, we continue to find changes in weapons that we did 
not predict. The new technologies and tools developed through the SSP 
have yielded tremendous insight into weapon anomalies we find, 
including both birth defects and issues arising from material aging.
    Dr. Hommert. We have not predicted every problem we have found in 
the stockpile. The specifics of our findings are provided in the AARs.
    Dr. Schwitters. JASON does not participate in the annual assessment 
process. We were briefed extensively on results coming from annual 
assessments which have shown unanticipated problems with some weapon 
components usually associated with early design and manufacturing flaws 
revealed during surveillance of sample warheads taken from the 
stockpile.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             modernization
    48. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr, Hommert, and Dr. 
Schwitters, I remain concerned over our modernization efforts in the 
out-years. There is enough testimony and review to indicate a unanimous 
concern over the serious disrepair and neglect of our nuclear weapons 
stockpile and complex. I would like to reemphasize that we are the only 
major nuclear power not modernizing its weapons and our weapons are an 
average of 26 years old and most are 15 or more years beyond design 
life, while other nuclear countries to include Russia continue to 
modernize and replace their nuclear weapons. In general, all panel 
members indicated that sufficient funding is required in the out-years 
to meet delivery demands. Is the budget sufficient to support a fiscal 
year 2017 delivery of the B61 (gravity bombs) and to maintain W76 LEP 
schedules?
    Dr. Anastasio. A B61 Phase 6.2/6.2A (Feasibility Study and Option 
Down-Select/Design Definition and Cost Study) has just begun with the 
very recent congressional approval, and is scheduled for completion at 
the end of fiscal year 2011 after being delayed for over a year. This 
study will produce a baseline design and cost estimate to support a 
fiscal year 2017 FPU. In my judgment, due to the delay in starting, 
accomplishing the correct scope for this life extension activity will 
be difficult by fiscal year 2017.
    The desired number of W76-1 warheads at the completion of the 
production run has not been firmly fixed. Therefore, the adequacy of 
funding for W76-1 production in the out-years cannot be fully assessed.
    Dr. Miller. This is a question best directed to Dr. Anastasio, 
LANL, and Dr. Hommert, SNL. LANL and SNL are the laboratories of record 
responsible for the B61 LEP. I respectfully defer to them.
    Dr. Hommert. The B61 LEP 6.2/6.2A study is underway and proceeding 
thanks to fiscal year 2010 reprogramming granted by Congress. The 
completion of this study in fiscal year 2011 will provide the 
information needed to assess the adequacy of out-year funding levels. 
The W76-1 is now in production, and so the funding needs are largest at 
the plants going forward. My understanding is that the plants have 
adequate resources to maintain the current schedule.
    Dr. Schwitters. To be sure, there are concerns regarding the 
present intellectual and physical infrastructure of the U.S. nuclear 
weapons complex, but, as the series of recent JASON reports document, 
science-based stockpile stewardship is succeeding in maintaining 
confidence in our nuclear stockpile without underground nuclear testing 
and in modernizing it to meet today's strategic requirements.
    JASON examines technical aspects of our nuclear weapons efforts, 
not year-to-year budgets. My impression, however, is that providing 
stable funding and establishing shared priorities are important factors 
for achieving program goals.

    49. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, what is the likelihood of the B61 production slipping due 
to budget problems in fiscal years 2010-2012?
    Dr. Anastasio. If B61 life extension funding for fiscal year 2011 
is provided as requested, the Phase 6.2/6.2A (Feasibility Study and 
Option Down-Select/Design Definition and Cost Study) can proceed. 
Product Realization Teams, which include the laboratories and 
production sites, will develop inputs regarding cost and schedule 
necessary to finalize funding levels for production in fiscal years 
2012-2017. In my judgment, accomplishing the correct scope for this 
life extension activity will be difficult by fiscal year 2017.
    Dr. Miller. This is a question best directed to Dr. Anastasio, 
LANL, and Dr. Hommert, SNL. LANL and SNL are the laboratories of record 
responsible for the B61 LEP. I respectfully defer to them.
    Dr. Hommert. We are currently viewing the fiscal year 2017 FPU date 
as a constraint on the program. Therefore, any budget shortfalls would 
impact the scope of the LEP. We strongly advocate funding for the full 
scope, and believe it would be ill-advised to miss the opportunity to 
incorporate 21st century safety and security features into the U.S. 
nuclear weapons stockpile through this LEP.
    Dr. Schwitters. At present, determining the scope of the B61 LEP is 
more important to establishing a realistic schedule for the B61 than 
are current budget details.

    50. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, what risk is added if the B61 is delayed?
    Dr. Anastasio. A delay to the B61 LEP will result in components 
reaching the end of their design life and no longer meeting operational 
requirements. In addition, this would delay enhancements in surety 
while there is growing concern about nuclear terrorism.
    Dr. Miller. LEPs are multi-year events of carefully sequenced work 
within a balanced SSP. Delays will create ripple/domino effects 
throughout the complex. Some technologies developed for the B61 LEP may 
prove useful for the W78 LEP, which has been assigned to Livermore. 
Delays in the B61 LEP could cause delays in other LEPs or raise the 
cost of other LEPs if significant technology maturation is required.
    As to the other specific programmatic and technical risks, this is 
a question best directed to Dr. Anastasio, LANL, and Dr. Hommert, SNL. 
LANL and SNL are the laboratories of record responsible for the B61 
LEP.
    Dr. Hommert. There are end-of-life issues associated with some SNL 
components, and any delay will increase the risk of performance 
impacts.
    Dr. Schwitters. JASON has not studied this question.

    51. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, is there sufficient funding for the W78 and W80 LEPs?
    Dr. Anastasio. The NWC has established the phase 6.X process to 
provide a framework to conduct and manage refurbishment activities for 
existing weapons. Phase 6.2A (Design Definition and Cost Study) 
develops the cost estimates for the baseline design of the particular 
life extension activity under consideration. A determination that there 
is enough funding for the W78 and W80 life extension activities cannot 
be made until accurate and complete funding profiles are developed from 
the phase 6.2A study.
    Dr. Miller. The fiscal year 2011 President's budget request 
includes funding to initiate the study of life extension options for 
the W78. The baseline has not yet been established for the W78 LEP, as 
the study of the options has just begun. However, the 10-year plan does 
anticipate funding for the W78 LEP.
    There is no funding anticipated for a W80 LEP.
    Dr. Hommert. The President's budget request includes a significant 
funding increase for the W78 LEP over the FYNSP period, but the 
required funding levels are not fully established. Our current 
understanding is that there will be a joint W78 and W88 phase 6.1 study 
starting in September 2010, with a potential phase 6.2/6.2A study 
beginning in the 4th quarter of fiscal year 2011. An integrated 
development approach to the W78 and W88 LEPs will allow us to maximize 
the impact of our resources. The current schedule for the W80 LEP 
places it beyond the FYNSP period. However, we are concerned about the 
resources required to sustain the W80 in the meantime.
    Dr. Schwitters. JASON has not studied this question.

            national nuclear security administration budget
    52. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, section 1251 of the National Defense Authorization Bill for 
Fiscal Year 2010 requires that the submission of a New START agreement 
to the Senate be accompanied by a plan to modernize the U.S. nuclear 
deterrent. All panel members indicated that there is concern over an 
emerging gap between expectations and fiscal realities, due to the 
planned funding increase not coming available until the second half of 
the 10-year period and the decline of the annual buying power. It is 
important to reemphasize that the NSEIC proposal recommended a budget 
of $7.34 billion in fiscal year 2011, $7.83 billion in fiscal year 
2012, and $8.26 billion in fiscal year 2013 for weapons activities. 
Most alarming, the NNSA and the administration did not follow the 
advice of the NSEIC and submitted a request for $7.0 billion, $7.0 
billion, and $7.1 billion over the 3 years ($340 million, $830 million, 
and $1.16 billion less than recommended). Did the laboratories provide 
their best estimates of the cost of requirements to the NSEIC?
    Dr. Anastasio. Yes. The laboratories provided their best estimates 
of the cost requirements to the NSEIC as part of a budget planning 
process exercise. After analyzing the issues associated with the 
President's fiscal year 2011 budget request, I believe the fiscal year 
2011 budget it is a positive first step forward. Further, I believe 
that we need to be focused not on a single year's budget, but rather on 
a long-term sustainable program that is both balanced and flexible as 
new costing information comes available on the nuclear facilities and 
on the planned LEPs.
    Dr. Miller. LLNL provided its best estimates of funding required 
for a balanced SSMP.
    The fiscal year 2011 budget increase proposed by the administration 
is a positive first step toward revitalizing the nuclear weapons 
complex necessary to maintain the U.S. nuclear deterrent. Recognizing 
the importance of a balanced program of work, the NNSA has chosen to 
stretch the schedule for meeting deliverables rather than change 
balance or the scope of work. As is always the case, while some aspects 
of the laboratory's activities could proceed more rapidly if funding 
were available, this situation is different than an unfunded 
requirement or true shortfall.
    The level of investment consistent with planned force reductions 
must grow over time to capitalize construction of new facilities to 
create an efficient production infrastructure, sustain a robust 
science, technology, and engineering core, manage the aging stockpile, 
support an increased level of LEP work, and maintain a critically 
skilled workforce. LLNL continues to work with its partners in the NNSA 
enterprise and NNSA leadership to support a sustainable and balanced 
program.
    Dr. Hommert. The NSEIC developed a number of uplift scenarios, 
ranging from a $400 million increase to a $1.8 billion increase. At 
each scenario level there were different impacts to scope and schedule. 
The increase allocated in the President's budget fell within our 
planning scenarios. Specifically for the programs where there is a 
major effort at SNL, the fiscal year 2011 budget adequately supports 
those programs. It will be important to annually reassess budget 
requirements as technical requirements and timelines become firm.
    Dr. Schwitters. JASON has not studied this question.

    53. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, if the complex received the full amount proposed by the 
NSEIC, would it be able to properly execute that money?
    Dr. Anastasio. Yes. I believe that the proposed budget planning 
scenarios are executable.
    Dr. Miller. Yes, if Congress provided the NNSA with the full 
amount, I believe the complex could properly execute the associated 
work scope.
    Dr. Hommert. The President's budget request, if fully appropriated, 
will result in an increase to SNL's weapons activities funding of 
approximately 20 percent relative to fiscal year 2010 levels. This 
additional funding is commensurate with the large body of work required 
at SNL for the B61 LEP. Through a strategic management decision earlier 
this year, we began staffing up for this program, and the recently 
approved reprogramming for fiscal year 2010 will align our fiscal year 
2010 funding with our current staffing levels, placing us in a good 
position for the additional growth in fiscal year 2011. Further 
increases in funding, as might evolve in discussions between the NNSA 
and the DOD regarding additional requirements for a W88 Alt, and a 
common warhead design program, will be evaluated for resource needs and 
action will be taken to phase the work appropriately.
    Dr. Schwitters. JASON has not studied this question.

    54. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, would increased funding in the first 3 years of the 
proposed budget alleviate some of the risk and concerns about our 
nuclear stockpile and future funding?
    Dr. Anastasio. Yes, it would help alleviate some risks. In my view, 
it is even more important to do everything possible to ensure adequate 
long-term funding. Look first at the existing challenges and recognize 
how difficult overcoming them in the next 10 years will be:

        <bullet> complete production of the W76-1;
        <bullet> complete planning and delivery of the first B61-12;
        <bullet> complete a study for the life extension of the W78;
        <bullet> maintain the science, technology, and engineering 
        base;
        <bullet> utilize existing stockpile stewardship facilities 
        (DARHT, LANSCE, NIF, Z, et cetera) to achieve their true 
        scientific potential;
        <bullet> design, build, and begin operation of two major multi-
        billion dollar nuclear facilities (CMRR and UPF); and
        <bullet> sustain smaller, but still important, aging 
        facilities.

    When I consider this daunting list, I am concerned about the 
magnitude and scope of these activities and the fiscal commitments 
needed to manage them concurrently. Moreover, even modest inflation and 
other issues such as pensions may negatively impact the ability to 
sustain the stockpile for the long-term.
    Dr. Miller. The current uncertainties associated with developing 
baselines for LEPs and construction of large facilities is the largest 
source of concern with respect to future funding needs. Working with 
the NNSA, the complex has begun to develop baselines for the major 
construction projects and for the next two proposed LEPs. Since the 
baselines are still maturing, total costs are not yet known. There is 
work that could be accelerated with increased funding in the first 3 
years of the proposed plan. As an example, the NNSA and DOE have yet to 
identify the funding required for an Exascale simulation initiative. It 
is vital that the program have sustained funding over a long period to 
provide balance and stability, accomplish the scope of work necessary, 
revitalize the complex, provide the scientific understanding and 
assessments needed to execute this mission, and conduct the planned 
LEPs. An immediate short-term infusion of funding will not be 
sufficient.
    Dr. Hommert. The critically important technology maturation 
activities required to support the B61 LEP and future reentry system 
LEPs would benefit from additional funding earlier in the program. It 
would also be an advantage if we could complete some of the more urgent 
facility and infrastructure upgrades in the near term. We are working 
with NNSA to ensure the appropriate risk management approach given the 
current funding profile.
    Dr. Schwitters. JASON has not studied this question.

    55. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, would the labs be able to execute additional funding over 
those years?
    Dr. Anastasio. Yes. I believe that LANL would be able to execute 
additional funding over those years.
    Dr. Miller. Yes, additional resources could be absorbed and 
effectively applied.
    Dr. Hommert. Please see the answer to question 53.
    Dr. Schwitters. JASON has not studied this question.

    56. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, should the 1251 report and budget request be updated each 
year to reflect a current assessment of risks and technical and 
strategic requirements?
    Dr. Anastasio. A disciplined, comprehensive and coordinated 
planning process could produce an annual long-term budget for the 
nuclear security enterprise that would benefit DOE, NNSA, the nuclear 
weapons laboratories, and the production plants. This product could be 
one way of informing Congress so that a defensible investment strategy 
could be sustained and stable funding could be established.
    Dr. Miller. Yes. Annual updates that reflect evolving requirements, 
progress on the baselines for the major efforts within the NNSA 
enterprise, and arising issues in the stockpile would be beneficial for 
the purposes of forecasting and planning. It is important to note that 
the nature of NNSA's work requires program flexibility because issues 
arise in the stockpile and requirements evolve. The scope of work and 
budgets will need to be correspondingly adjusted. Annual updates to the 
summary of the SSMP could provide a mechanism to outline the program's 
funding requirements and projections. In addition, I would recommend 
consideration of an annual assessment of the health of the integrated 
enterprise be included as part of these updates. Both would the foster 
dialog to achieve a national consensus on programmatic requirements and 
expectations for a sustained SSMP.
    Dr. Hommert. The administration's budget needs are updated annually 
as part of preparation for a budget proposal to Congress. This process 
in general looks at shorter timeframe than the 1251 document but still 
more than a single year. If Congress needs a longer-term (say 10-year) 
budget estimate, we would be willing to work within the framework of 
NNSA to support that process.
    Dr. Schwitters. JASON has not studied this question.

                     personnel and critical skills
    57. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, we discussed briefly concerns over the loss of human 
capital. There has been substantial testimony over the last few years 
that indicate our nuclear research and development capability is 
dwindling, with a large amount of our experts due to retire in the next 
few years. What is the impact of losing such a large percentage of 
career employees?
    Dr. Anastasio. It is true that the number of LANL technical staff 
devoted to nuclear weapon research, development, and engineering has 
declined in the past several years and that a significant number of 
retirements are anticipated in the next several years. One of my most 
important jobs as LANL director is to ensure that we, as an 
institution, are developing the workforce of the future. In fiscal year 
2010, I authorized selected divisions at LANL to implement a more 
aggressive but selective hiring program. That process is underway. I 
believe that the technical challenges and work scope outlined in the 
NPR will be very helpful as we continue our recruitment efforts in the 
years ahead. The projected growth in the weapons program funding over 
the next several years will allow hiring to continue, and new staff 
will begin their training before a large number of weapon experts 
retire. Moreover, following retirement from LANL, a number of senior 
staff return on either a part-time basis or as guest scientists to 
mentor early-career staff.
    Dr. Miller. LLNL implemented a strategic workforce reduction plan 
to minimize the risks to the program; staffing reductions were a 
necessary consequence of recent declining budgets and increased costs 
during the past 5 years. While we have been successful in supporting 
the needs of the current stockpile, numerous critical skill areas have 
been reduced to only a handful of individuals, as evidenced in the 
following examples:

        <bullet> LLNL's hydrotest execution capability was reduced from 
        two fully capable teams to one small team, and experimental 
        throughput has declined.
        <bullet> One of the major science initiatives, known as the 
        National Boost Initiative, has been delayed 3 years to date and 
        extended beyond its original planned completion date due to 
        lack of funding and available skilled staff to support this 
        initiative.
        <bullet> Additionally, warhead surveillance rates are lower, 
        there are numerous examples of underutilization of stockpile 
        stewardship facilities that have caused delays in key 
        scientific deliverables for assessing the stockpile, and LEPs 
        have been deferred.

    LLNL is continuing to work very closely with the NNSA to manage 
available resources in a prioritized, structured way to ensure our 
national security mission requirements are met. The President's fiscal 
year 2011 budget request seeks increased funding to reverse the 
declining budget trends and provide stable and reliable funding levels 
to maintain sufficient capability to ensure the viability of the U.S. 
nuclear stockpile and the critically skilled workforce that underpins 
it.
    Dr. Hommert. We are concerned about the fact that many of our 
experienced technical staff are over the age of 55. Their remaining 
careers will not span the upcoming LEPs. This puts a huge premium going 
forward on stable, multiyear, large-scale LEPs that provide 
opportunities for our new technical staff to work closely with our 
experienced designers on a full range of activities--from advanced 
concept development to component design and qualification, and 
ultimately to the production and fielding of nuclear weapon systems. 
Our data show that we continue to successfully recruit the best and 
brightest technical talent to the nuclear weapons program. The 
challenge going forward is to motivate, train, and retain them. Key to 
success in this area is clear evidence of an enduring, bipartisan 
national commitment to the U.S. nuclear deterrent, and the concomitant 
programmatic stability. Also important is challenging technical work 
and a work environment that includes state-of-the-art facilities, 
design tools, and technologies.
    Dr. Schwitters. A major factor in the loss of human capital in the 
nuclear weapons program was the sharp decline--approximately 30 
percent--in science and technology development funding during fiscal 
years 2005 to 2009 while the overall nuclear weapons budget remained 
steady. The impacts are significant: opportunity costs of the weapons 
science research not being performed, loss of mentoring of younger 
scientists and engineers by experienced hands in the challenging 
technical areas crucial to stockpile stewardship, and the strong 
negative message sent to young scientists and engineers that weapons 
science is somehow not important to our country. In today's world 
without underground nuclear testing, confidence in the U.S. deterrent 
ultimately rests on the quality of the science and scientists in our 
weapons laboratories; the impact of losing a large percentage of career 
employees reduces confidence in our nuclear weapons program.

    58. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, what is the incentive for younger engineers and scientists 
to dedicate their lives to this critical field?
    Dr. Anastasio. Many people choose to dedicate their careers to 
nuclear weapons work out of a deep sense of duty to country and which 
has substantial technical challenges. The ability to retain this 
dedicated work force at LANL is based on several factors:

        <bullet> challenging and demanding work;
        <bullet> flexibility to pursue novel approaches to solving 
        those multifaceted security challenges;
        <bullet> state-of-the-art scientific, experimental, and 
        computational tools on which to carry out their 
        responsibilities;
        <bullet> modern infrastructure; and
        <bullet> a strong demonstration of executive and legislative 
        branch support for the work and commitment to the laboratory 
        staff for solving the Nation's security challenges.

    Dr. Miller. The fundamental incentive for young scientists and 
engineers to join this field is the opportunity to make a contribution 
to national security through important, challenging scientific and 
technical assignments. The SSMP provides a compelling opportunity to 
use advanced experimental and computational capabilities in cutting-
edge research that leads to scientific discovery relevant to a number 
of national priorities. The administration's and Congress's commitment 
to a clear and long-term plan for managing the stockpile helps to 
ensure that the scientists and engineers of tomorrow will be able to 
engage in challenging cutting-edge research and development activities 
required for maintaining U.S. security.
    Additionally, the laboratories, with the support of Congress and 
the administration, utilize funding provided through the Laboratory 
Directed Research and Development (LDRD) program to provide young 
scientists and engineers with opportunities to pursue innovative 
research projects that are competitively peer-reviewed. LDRD is a vital 
tool in the laboratories' recruiting and retention efforts.
    One specific set of actions being undertaken by LLNL and SNL in 
California is the creation of the Livermore Valley Open Campus (LVOC). 
The LVOC will allow the two laboratories to enhance their research 
programs in a way that leverages and facilitates ready access to the 
expertise and facility investments already made by the NNSA while 
providing a dynamic, modern, and exciting place to work for young 
scientists and engineers. The LVOC will meet the laboratories' critical 
needs to substantially increase our engagement with the private sector 
and academic community to meet our mission objectives, stay at the 
forefront of science and technology by engaging the broader academic 
and industrial communities, and attract the best and brightest to 
ensure the workforce of the future.
    Dr. Hommert. For the most part, young scientists and engineers that 
join SNL do so to serve the security interests of the Nation. Our 
primary driver from the initiation of the institution is ``service in 
the national interest.'' This is more than a slogan to us, it is in 
fact the premise of all our work for both the nuclear weapons and work 
for others national security programs. However, in order for these 
staff to stay engaged, energized, and capable, we have to exercise 
their expertise. We do that through the combination of work options 
between the stockpile management activities (of which the B61 LEP is a 
significant opportunity) and our other national security work. We also 
energize these individuals through opportunities to work on and solve 
high visibility and high impact problems in areas such as counter-
terrorism, energy security, support of the warfighter, and work to 
address emerging cyber threats.
    Dr. Schwitters. The incentives for young engineers and scientists 
to dedicate their professional lives to our nuclear weapons program 
include: (1) the opportunity to work on technical problems of great 
importance to their country; (2) the opportunity to contribute 
solutions to highly challenging technical problems that trace their 
history to some of the greatest scientists and engineers of the past 
century; (3) access to world-class computational and experimental tools 
such as DAHRT and NIF; (4) participation in an outstanding technical 
community; and (5) opportunities to apply expertise in other areas 
important to our national security.

    59. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, is there a perception among new engineers and scientists 
that joining Sandia is a dead-end job?
    Dr. Anastasio. Many people choose to dedicate their careers to 
nuclear weapons work at Los Alamos out of a deep sense of duty to 
country. The nuclear weapons mission has always been the core mission 
at LANL. For many decades, this core has been a powerful driver and 
magnet for a broader range of related and reinforcing activities. These 
areas naturally align with the laboratory's national security missions 
and include energy research, climatology, bioscience research, 
nanotechnology, and high performance computing. Talented and energetic 
young people will always be attracted to an institution engaged in 
cutting-edge physics, engineering, computational simulation, and 
materials science. Sustaining these types of research and development 
activities will be a key element in hiring the scientists, engineers, 
and technologists needed to populate all of the laboratory's national 
security programs.
    A polling of LANL graduate students, post-doctoral personnel, and 
early career staff has shown that most are impressed by the 
opportunities for meaningful research and development that the 
laboratory provides. However, there is a growing concern about the 
national commitment and about the risk acceptance posture, compared to 
major universities and corporations, that is making it difficult to 
compete for the best and brightest.
    Dr. Miller. SNL is a vital part of the NNSA enterprise and a 
respected scientific institution with an impressive set of 
accomplishments and an exciting future.
    In fact, LLNL is working cooperatively with SNL in California to 
develop the LVOC, which will help both laboratories to attract and 
retain the best and brightest scientific and engineering talent. The 
LVOC will allow the two laboratories to enhance their research programs 
in a way that leverages and facilitates ready access to the expertise 
and facility investments already made by NNSA while providing a 
dynamic, modern, and exciting place to work for young scientists and 
engineers. The LVOC will meet the laboratories' critical needs to 
substantially increase our engagement with the private sector and 
academic community to meet our mission objectives, stay at the 
forefront of science and technology by engaging the broader academic 
and industrial communities, and attract the best and brightest to 
ensure the workforce of the future.
    Dr. Hommert. SNL hiring data show that we continue to attract the 
best and brightest technical talent from the Nation's top science and 
engineering programs.
    Dr. Schwitters. I am not aware of any such perception regarding 
opportunities for new engineers and scientists at Sandia. Indeed, in 
our investigations of work performed there, Sandia seems to have had 
the most success in diversifying its mission to make it attractive to 
younger technical people.

    60. Senator Inhofe. Dr. Anastasio, Dr. Miller, Dr. Hommert, and Dr. 
Schwitters, what is the impact of not having one design engineer on 
staff who participated in the development and testing of a new nuclear 
weapon?
    Dr. Anastasio. In 1989 the United States ended the production of 
new nuclear weapons, 3 years later underground testing was halted. In 
response to these changed circumstances, Congress and the 
administration created the SSP ``to ensure the preservation of the core 
intellectual and technical competencies of the United States in nuclear 
weapons.'' That program has been a remarkable success thanks to the 
significant investments made in experimental, computational, 
simulation, and engineering capabilities and the mentoring by 
development- and test-experienced engineers and scientists. These tools 
have allowed us to gain a better understanding of weapons performance, 
carry out several LEPs, and ultimately assess and certify the health of 
the stockpile to the President of the United States. All this work has 
allowed the laboratories to train and mentor the post-nuclear-testing 
generation of scientists and engineers. Sustained investments and 
challenging work scope at the labs must continue for the future to 
develop the next generations.
    Dr. Miller. The SSP has been extraordinarily successful in 
developing the tool set required to maintain the stockpile in the 
absence of testing and using those tools to train the next generation 
of stockpile stewards. The program was specifically designed to 
maintain the skills necessary in the absence of nuclear testing. The 
SSP's above-ground experimental facilities, such as the NIF and DARHT 
facility, not only provide data required for stewardship, but also 
provide our weapons designers with opportunities to carry out complex, 
integrated physics experiments that stress and hone designer judgment 
as issues are investigated or potentially new phenomena are revealed. 
Additionally judgment is developed through computational simulation. 
Detailed simulations of weapons system performance continue to give new 
insight into weapons physics, often times beyond that available during 
the era of underground nuclear testing.
    Of equal importance is providing adequate opportunity to exercise 
skills in the complete design through production cycle, which is 
essential for training of laboratory and production plant personnel. 
For example, the NNSA's assignment of responsibility for the W78 LEP to 
LLNL provides an essential path for maintaining the competency and 
capability of its design and engineering cadre through the exercise of 
an integrated system design/engineering/manufacturing program. Finally, 
involvement in the annual assessment process provides a basis for 
developing and exercising the judgment of new nuclear weapons staff in 
dealing with difficult issues related to nuclear design and 
engineering, in much the same way that the development of nuclear 
weapons and underground testing did.
    The NNSA and the laboratories have made a concerted effort to 
mentor, train, and validate the skills of the next generation of the 
Nation's stockpile stewards at a time when scientists and engineers are 
available who were trained during the period of extensive weapon 
development programs and nuclear testing. I am confident in the 
capabilities of LLNL's workforce.
    Dr. Hommert. SNL still has design engineers and scientists on roll 
who participated in the development and testing of the most recently 
fielded new warhead, the W88. We also have a large number of technical 
staff who recently worked on the W76-1 LEP. Several Alts and 
modifications, and limited life component exchange actions have 
required non-nuclear component development and testing on an ongoing, 
albeit limited, basis.
    Dr. Schwitters. Nuclear weapons designers play crucial roles in the 
stockpile stewardship program--they are the overall system integrators 
who are responsible for understanding everything that is known about 
the systems under their purview. The span of information includes 
archived data from pertinent underground nuclear tests, data on 
components as they were manufactured, results of non-nuclear 
experiments including hydrodynamic tests and subcritical experiments, 
experience gained from simulation codes describing the system, and data 
obtained through surveillance of stockpile warheads.
    Of course, advice and experience of veterans who originally 
developed nuclear weapons and conducted the underground tests have been 
most valuable in mentoring new generations of designers, but today's 
questions, tools, methods, and knowledge base are quite different than 
those of earlier times. The technical challenges facing today's 
designers are still significant, however. This is good news, in my 
opinion, because it provides strong incentives for good technical 
people to work in our nuclear weapons program.

    61. Senator Inhofe. Dr. Miller, you stated that the current LEP 
approach (refurbishment only) limits the range of safety and security 
features that can be incorporated into certain weapons systems and that 
all potential approaches--or, more likely, combinations of approaches--
need to be examined. Do you believe we should allow our labs to study 
what is possible in nuclear design in order to maintain our current 
expertise?
    Dr. Miller. Yes. As noted in the NPR, the NNSA laboratories should 
have the flexibility, responsibility, and authority to study the 
complete spectrum of potential options, which includes refurbishment, 
reuse, and replacement, for each future LEPs on a case-by-case basis in 
order to provide the Nation's decisionmakers with our best technical 
input upon which to base down-select decisions. NNSA's 1251 report 
reinforces this responsibility and authority:
    ``The laboratory directors will ensure that the full range of LEP 
approaches, including refurbishment, reuse, and replacement of nuclear 
components, are studied for warheads on a case-by-case basis.''
    There are a variety of safety and security features available and/
or proposed for the U.S. stockpile at this time. By exploring all three 
approaches, as opportunities present themselves through planned LEPs, 
incorporation of advanced safety and security features should be 
considered and put forward as part of the case-by-case options 
developed. Ultimately which safety and security options are 
incorporated into the weapon system should be decided based upon a 
number of factors, including military requirements, Service (Navy and/
or Air Force) needs, and consistency with NNSA's operational and 
programmatic criteria, all while ensuring that the warhead is safe, 
secure, and effective in all environments it might encounter. Studying 
reuse, refurbishment, and replacement options for the stockpile and 
applying them on a case-by-case basis coupled with a balanced SSMP with 
sustained funding will preserve the skills required to maintain the 
nuclear stockpile into the future with an acceptable level of risk.

    62. Senator Inhofe. Dr. Miller, when was the last time the United 
States designed a new nuclear weapon?
    Dr. Miller. The last time the United States completed a new nuclear 
weapon design was when Los Alamos and Sandia developed the W88 warhead 
before the cessation of nuclear testing. The W88 began production in 
1988. While the W88 represented new system capabilities, the NEP was a 
straightforward extension of previously developed and tested technical 
capabilities. In that sense it did not represent any significantly new 
technologies. The most recently evaluated truly new technologies were 
associated with the Strategic Defense Initiative and were examined and 
tested in the mid-1980s.

    63. Senator Inhofe. Dr. Miller, do we allow our engineers and 
scientists to design new weapons?
    Dr. Miller. We have not had a requirement to design a new nuclear 
weapons system for several decades. Our efforts are focused on 
extending the lifetimes of existing weapons systems through evaluation 
of a spectrum of options, including refurbishment, reuse, and 
replacement based on previously tested designs.

    64. Senator Inhofe. Dr. Miller, does the United States today have 
the ability to design and produce a new nuclear weapon--people, 
equipment, raw materials, and facilities?
    Dr. Miller. Today, the United States does have the ability to 
design and produce a newly manufactured weapon. Designing a truly new 
weapon, one that represents new technologies in the NEP, today would 
rely on the capabilities (human, tools, and facilities) developed in 
the SSP. Verifying the performance of a truly new weapon--that includes 
technologies never before tested in a nuclear event--would require the 
resumption of underground testing. The capability to return to nuclear 
testing to verify the performance of the truly new or newly 
manufactured system, while not recently exercised, has been carefully 
preserved in the weapons complex. If the new weapon were a simple 
design extrapolation from the present stockpile, the present production 
complex would be able to successfully build it, albeit at a slower pace 
than the manufacturing rate during the Cold War. Producing more radical 
designs could be more challenging for the production complex.

           nuclear weapons research and production facilities
    65. Senator Inhofe. Dr. Anastasio, you have strongly endorsed 
investments in the UPF and CMR Replacement Nuclear Facility but have 
stated there are many other essential facilities across the complex and 
that Los Alamos requires investments. I understand that the 
laboratories and plants have identified $400 million in needs above 
$7.0 billion for fiscal year 2011. What are these unfunded requirements 
and why are they important?
    Dr. Anastasio. The current fiscal year 2011 LANL RTBF budget target 
increases by 3 percent over the fiscal year 2010 budget authority, but 
is followed by 3 years of steady decline in the current FYNSP targets. 
Increased demands on the RTBF budgets at LANL have already begun to 
rise with a peak requirements case expected in fiscal year 2012 during 
the current FYNSP and the next significant increase expected in fiscal 
year 2016/2017 with the potential start-up of the replacement 
Radiological Liquid Waste Treatment Facility. LANL will work within the 
budget targets to develop a plan that meets all nuclear safety, 
security, and compliance requirements first; all non-nuclear safety, 
security, and compliance requirements second; and all remaining warm 
standby activities within remaining budgets--which may require halting 
programmatic work in facilities that cannot remain appropriately 
operational within the funding constraints.
    As I have stated in previous testimony, it is still important to 
improve the balance within the program and I also remained concerned 
about the issues between scope and fiscal realities. At Los Alamos over 
50 percent of the buildings are more than 40 years old.

    66. Senator Inhofe. Dr. Anastasio, could the laboratories have 
addressed these issues with additional fiscal year 2011 funds?
    Dr. Anastasio. As I said previously in my testimony, `` . . . the 
administration has developed a fiscal year 2011 budget that moves us in 
the right direction. I view the NNSA's fiscal year 2011 budget request 
as a positive first step and I urge its approval by Congress.'' 
Further, I believe that we need to be focused not just on a single 
year's budget, but rather on a long-term sustainable program that is 
both balanced and flexible as new costing information comes available 
on the nuclear facilities and on the planned LEPs.

                  jason life extension program report
    67. Senator Inhofe. Dr. Schwitters, the unclassified JASON LEP 
Executive Summary, released September 9, 2009, has been widely 
misconstrued in the press. The New York Times posted a headline of 
``Panel sees no need for A-bomb upgrade''. While on the other hand, the 
NNSA, in its press release on the report, cautioned, ``While we endorse 
the recommendations and consider them well-aligned with NNSA's long-
term stockpile management strategy, certain findings in the 
unclassified Executive Summary convey a different perspective on key 
findings when viewed without the context of the full classified 
report.'' The three national lab directors, in letters to Congress 
received in March of this year, stated ``In the absence of the more 
complete discussion provided in the classified report, the first two 
findings understate . . . the challenges and risks . . . [and] also 
understate the future risks that we must anticipate'' in sustaining the 
U.S. nuclear stockpile. Did JASON identify aging and risks in the 
stockpile that will require stockpile upgrades?
    Dr. Schwitters. In the written remarks prepared for this hearing, I 
describe the 2009 JASON report and its unclassified executive summary 
released publicly by NNSA. The classified report details our 
assessments of the certification challenges associated with LEP 
strategies for all the systems in the enduring stockpile; the executive 
summary provides verbatim the complete list of findings and 
recommendations contained in the classified report. The full report 
includes detailed discussions of aging effects. I hope I have made 
clear in my testimony that JASON did not propose a refurbishment-only 
strategy for future LEPs.
    We were concerned that some of the commentary on our work implied 
an inconsistency between the classified report and its unclassified 
executive summary. We discussed these concerns with Administrator 
D'Agostino in April 2010. Subsequently, NNSA forwarded to its staff and 
laboratory leadership a statement that concludes: ``NNSA has reviewed 
the JASON LEP report including the question of consistency between the 
unclassified executive summary of the report and the full classified 
version of the report JASON submitted to us. The two documents are 
consistent. Both versions support NNSA's commitment to maintaining the 
safety, security, and reliability of the Nation's nuclear weapons 
stockpile under the terms of the NPR.''
    My prepared remarks address the comments concerning the 2009 report 
made by the laboratory directors in letters sent to Ranking Member 
Turner of the House Subcommittee on Strategic Forces earlier this year.

    68. Senator Inhofe. Dr. Schwitters, could issues arise in the 
future due to aging or changes introduced in LEPs?
    Dr. Schwitters. Yes, issues could arise in the future due to aging 
or changes introduced by LEPs. A healthy stockpile surveillance program 
provides a crucial window through which such issues can be observed as 
they develop. JASON found that the current surveillance program is 
inadequate and recommended a revised program to meet present and future 
needs. The other principal tool for anticipating and preparing for 
technical surprise in the stockpile is better understanding of the 
science underlying nuclear weapons performance, including aging effects 
in materials and the realms of validity of performance models and 
simulations. Both surveillance and continuous improvement in 
understanding of weapons science call for attention in the budget 
process and setting of priorities by Congress, NNSA, and the 
laboratories.

    69. Senator Inhofe. Dr. Anastasio, Dr. Miller, and Dr. Hommert, can 
the lab directors explain further how the report understates challenges 
and risks in certifying the stockpile?
    Dr. Anastasio. As I have stated in a letter to Representative 
Michael Turner on January 25, 2010:

         ``The JASON report states that the lifetimes of today's 
        nuclear weapons could be extended for decades, with no 
        anticipated loss of confidence, by using approaches similar to 
        those employed in LEPs to date. I do not agree with this 
        assertion.''

    There are some materials and components in the current stockpile 
that cannot be replicated in a refurbishment, and there may not be 
suitable replacements that would allow sustained confidence in current 
systems. Moreover, there are several technical issues that cannot be 
addressed using a refurbishment-only approach, including the need to 
improve the safety and security of warheads. More specifically, as I 
stated in the letter to Representative Turner:
    ``There are several technical issues that cannot be addressed using 
a refurbishment-only approach:

        <bullet> It is not possible to replace HE primaries with IHE 
        primaries or implement certain intrinsic surety features in 
        today's stockpile using refurbishment because of current system 
        constraints.
        <bullet> Weapon aging, which can manifest itself in the form of 
        corrosion, microscopic and macroscopic defects, et cetera, can 
        lead to off-normal or feature-driven disruption to nuclear 
        performance and diminish the available performance margin in 
        low-margin weapons more rapidly than the weapons could be 
        cycled through a refurbishment. This risk can be managed by 
        preemptively increasing margins--but by amounts larger than 
        those available through refurbishment.
        <bullet> The JASON correctly recognizes that substantial 
        reductions in yield for various stockpile warheads, which may 
        be called for in the forthcoming NPR, also could not be 
        accomplished using refurbishment.

    Further, the JASON report states that some reuse and replacement 
options require a more advanced understanding of weapons physics. While 
this is an accurate statement, it also applies to refurbishment. It 
does not mean that reuse and replacement options are precluded 
technically. In fact, the classified JASON report supports reuse and 
replacement options.''
    Dr. Miller. In the absence of the more complete discussion provided 
in the classified report, the first two findings of the unclassified 
JASON report understate the challenges and risks associated with 
ensuring a safe and reliable nuclear force. These findings also 
understate the future risks in sustaining the high-yield, low-margin 
designs of the Cold War stockpile, in particular, the risks associated 
with manufacturing difficulties, continued erosion of intellectual 
capital, the impact of funding limitations, and the capability to 
address potential future issues are all understated. While the 
executive summary understates the risks and challenges, the full, 
classified report does address some of the risks and therefore, in my 
view, provides a more accurate description of the challenges facing the 
SSP.
    One of the sources of difficulty, in some cases, is the technical 
challenge of recreating Cold War materials and/or production processes 
(Fogbank is a recent noteworthy example). As discussed in the full 
classified report, continuing to use approaches similar to those 
employed in the LEPs to date would result in the need to reestablish 
several other highly complex manufacturing processes that have been out 
of use for decades. While it is theoretically possible to reestablish 
these arcane processes, the time and cost to do so are daunting. This 
challenge is compounded by the stress currently on the system resulting 
from funding reductions over the past 5 years that have impacted our 
science, engineering, and technology development efforts and resulted 
in workforce reductions.
    Another complication to consider is the fact that the accumulation 
over time of small changes that are inherent in component aging, 
material compatibility issues, and refurbishment of aging components, 
take our warheads away from the designs whose safety and reliability 
were certified in the era when nuclear tests were conducted. Recently 
identified warhead problems (that were not identified when certain 
warheads were first introduced into the stockpile) further complicate 
certification. These factors introduce increased uncertainty in the 
performance of existing warheads. Increased investment in the science, 
engineering, and technical capabilities that underpin our ability to 
maintain the U.S. nuclear deterrent is required.
    Dr. Hommert. SNL has expressed concern that important differences 
between nuclear and non-nuclear components were not fully considered in 
the report. Therefore, we believe that certain findings and 
recommendations are not necessarily extensible to the non-nuclear 
components or the warhead system. In particular, the first finding of 
the JASON'S report (JASON finds no evidence that accumulation of 
changes incurred from aging and LEPs have increased risk to 
certification of today's deployed nuclear warheads) is not applicable 
to the non-nuclear components or the warhead system, and understates 
the challenges we face today. Specifically, the accumulation of changes 
in stockpile systems due to aging and changes to original design can be 
a significant factor for non-nuclear components and does indeed affect 
our confidence in these components and ultimately overall warhead 
performance. Concerns about aging and technology obsolescence for non-
nuclear components are most effectively addressed with modern 
technologies. These modern technologies would also enable SNL to 
positively impact warhead safety and security. SNL can confidently 
execute initial qualification and lifetime assessment of modem non-
nuclear components using our suite of engineering tools.

    [Whereupon, at 11:26 a.m., the committee adjourned.]


       IMPLEMENTATION OF THE NEW STRATEGIC ARMS REDUCTION TREATY

                              ----------                              


                         TUESDAY, JULY 20, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Udall, Hagan, McCain, LeMieux, 
Brown, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Thomas K. McConnell, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Christian D. Brose, professional staff member; 
and Daniel A. Lerner, professional staff member.
    Staff assistants present: Christine G. Lang, Hannah I. 
Lloyd, Brian F. Sebold, and Breon N. Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Ben Nelson; Rob Soofer, assistant 
to Senator Inhofe; Brian Walsh, assistant to Senator LeMieux; 
Scott Schrage, assistant to Senator Brown; and Ryan Kaldahl and 
Brandon Milhorn, assistants to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. I'd like to 
welcome each of our witnesses this morning. We have with us 
three very distinguished, dedicated public servants: Dr. James 
Miller, the Principal Deputy Under Secretary of Defense for 
Policy; Tom D'Agostino, the Administrator of the National 
Nuclear Security Administration (NNSA); and General Kevin 
Chilton, Commander of the U.S. Strategic Command (STRATCOM). 
It's good to see you all again.
    With the New Strategic Arms Reduction Treaty (START) which 
was signed this last April, a nuclear verifiable arms control 
treaty would be put back in place. Today we're going to focus 
on how the New START treaty, if ratified, will be implemented 
by the Department of Defense (DOD) and the NNSA.
    There are many questions about how this treaty will be 
implemented. These include the following: Does the reduced 
force structure required by the new treaty meet the military 
requirements to maintain nuclear deterrence for the United 
States and for its allies? How will the force structure be 
shaped? In other words, how will the requirements in the new 
treaty for reductions in delivery systems and launchers be 
implemented? Will implementation of the New START treaty 
constrain DOD's programs and plans for missile defense? Can the 
NNSA carry out its responsibility to maintain a smaller 
stockpile of nuclear weapons under the New START treaty so that 
these weapons can remain safe, secure, and reliable? Will the 
ability of the directors of the national security labs to 
propose any and all options they believe are warranted to 
maintain the safety, security, and reliability of the nuclear 
weapons be preserved?
    Last week, we heard from the lab directors that they feel 
that they are not limited in their ability to explore all 
options. On the contrary, they said that they have the 
flexibility and indeed it is their responsibility to propose 
any option that they recommend.
    The Nuclear Posture Review (NPR) says that the full range 
of life extension options should be studied, but that in 
deciding which life extension options should move to the 
engineering phase, the Nuclear Weapons Council (NWC) should 
give preference for refurbishment or reuse. What does that 
preference mean from an implementation perspective and will 
this have any impact on the long-term ability to maintain 
nuclear weapons safe, secure, and reliably, the reliability?
    We heard from the Intelligence Community (IC) last week 
that the New START and the old START have different approaches 
to verification. Today we will hear from our witnesses as to 
whether this treaty can be verified through the monitoring 
activities of the IC utilizing the verification provisions of 
the new treaty as well as national technical means.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I thank our 
distinguished witnesses for their service and joining us today.
    As I've stated before, I've been a supporter of previous 
bipartisan efforts to reduce our nuclear weapons in step with 
the Russian Government. Many of us have concerns about the New 
START treaty's methods of verification, its constraints on 
ballistic missile defense (BMD), and the accompanying plan for 
modernization of both the nuclear stockpile and our nuclear 
delivery vehicles. It's my hope that over the course of our 
hearings Congress will receive both the assurances and the 
funding commitments necessary to overcome these concerns.
    Given this treaty's significant implications for our 
national security and the multiple committees that have direct 
oversight responsibilities, the Senate needs to move thoroughly 
to consider this treaty and all of its critical components. 
Obviously, we don't want to rush our deliberations to meet an 
arbitrary deadline.
    We have yet to receive critical documents necessary for 
this committee and the full Senate to make an informed judgment 
of this treaty. Specifically, the administration has yet to 
provide the treaty's negotiating record, including the 
negotiating history dealing with the ambiguity of the New START 
treaty's preamble with respect to strategic defensive weapons 
and the contradictory statements issued by the United States 
and Russia on the meaning and legal force of that language.
    This request for the treaty's negotiating history is not 
unprecedented. The Senate has previously sought and received 
access to the negotiating history for major arms control 
treaties between the United States and the former Soviet Union, 
such as the 1972 Anti-Ballistic Missile Treaty and the 1987 
Intermediate-Range Nuclear Forces Treaty. To enable the Senate 
to fully fulfill its constitutional duty to provide advice and 
consent on New START, the Obama administration should give the 
Senate access to the negotiating records.
    Last week the House appropriators chose to fund coveted 
water project earmarks, but not to fully fund the President's 
fiscal year 2011 request for modernization of the nuclear 
weapons complex. There are already concerns about the adequacy 
of the President's plan for meeting our full recapitalization 
and modernization needs, and this lack of commitment by House 
Democrats to at least meet the President's request is 
troubling.
    I look forward to hearing from all of our witnesses if 
they're concerned by this cut and if they intend to recommend 
that the President veto any funding bills that do not meet his 
funding request for modernization of the weapons complex.
    During this committee's hearings last week with the lab 
directors, it was clear that some of these professionals have 
significant concerns regarding the administration's decision to 
discourage the replacement of warheads as an option for 
extending the life of our nuclear stockpile. In fact, General 
Chilton, I'm sure you weren't happy about the fact that I 
quoted you and quote you again today when you said: ``We should 
not constrain our engineers and scientists in developing 
options on what it will take to achieve the objectives of the 
stockpile management program and let them bring forward their 
best recommendations for both the President and for Congress to 
assess as to what is the best way forward.''
    We've been told by the Secretary of Defense and the 
Secretary of Energy that supplemental guidance for the NPR has 
made it clear that all life extension efforts should be 
pursued. However, it's not clear that such guidance has been 
issued. It is essential for the President to state that his 
administration should encourage and pursue all modernization 
options achievable without testing or the establishment of a 
new military characteristic.
    These issues and others need to be resolved and clarified 
before the Senate can in good faith and consistent with its 
responsibilities make a considered judgment on this important 
matter. Today's hearing is an additional opportunity to discuss 
the implications of this new treaty and its supporting 
documents, including the NPR, the 1251 report, the National 
Intelligence Estimate (NIE), and the Stockpile Stewardship and 
Management Plan (SSMP).
    The treaty will also have implications on our nuclear force 
structure. I look forward to hearing additional details on the 
composition of our strategic forces from our witnesses this 
morning.
    I thank all of you again for your service and for appearing 
here today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Dr. Miller.

  STATEMENT OF HON. JAMES N. MILLER, Ph.D., PRINCIPAL DEPUTY 
             UNDER SECRETARY OF DEFENSE FOR POLICY

    Dr. Miller. Mr. Chairman, Senator McCain, distinguished 
members of the committee, thank you for the opportunity to 
testify today. It is a great pleasure to join my colleagues, 
Tom D'Agostino and General Chilton, in discussing the New START 
treaty. I'd like to summarize my prepared statement and ask 
that it be entered into the record in its entirety.
    Chairman Levin. It will be.
    Dr. Miller. I'd like to make just six key points in 
summary. First, the New START treaty will strengthen strategic 
stability with Russia and reduce nuclear force levels. With 
1,550 accountable nuclear warheads, the United States will be 
able to sustain effective nuclear deterrence with an assured 
devastating second strike capability. The administration plans 
a robust triad of 700 deployed intercontinental ballistic 
missiles (ICBM), submarine launched ballistic missiles (SLBM), 
and nuclear-capable heavy bombers. We plan to retain all 14 
Ohio-class SSBNs and deploy no more than 240 Trident II SLBMs 
at any one time. We also plan to retain up to 420 of the 
current 450 Minuteman III ICBMs, each with a single warhead, 
and we plan to retain up to 60 nuclear-capable B-2A and B-52H 
heavy bombers, while converting remaining nuclear-capable B-1B 
bombers and some B-52H bombers as well to a conventional-only 
capability.
    As noted in the section 1251 report to Congress, DOD plans 
to spend well over $100 billion over the next decade to sustain 
existing strategic delivery system capabilities and modernize 
strategic systems for the future.
    Second, on verification, the New START treaty's 
verification provisions will increase our confidence in the 
numbers and status of Russian nuclear forces. In fact, as 
Secretary Gates has noted, one of the great contributions of 
this treaty is its strong verification regime. The 18 annual 
onsite inspections are a linchpin of the treaty's verification 
framework. They will work synergistically with other elements 
of the treaty, including the following: extensive data 
exchanges on the characteristics and locations of ICBMs, SLBMs, 
and nuclear-capable heavy bombers; unique identifiers 
associated with each missile and heavy bomber; a requirement to 
report any changes in the status of strategic systems through 
timely notifications; and provisions for non-interference with 
national technical means of verification.
    Without the treaty and its verification measures, the 
United States would have much less insight into Russian 
strategic forces, thereby requiring our military to plan based 
on worst-case assumptions. This would be an expensive and 
potentially destabilizing approach that this Nation should not 
accept.
    Third point: U.S. force structure plans under the treaty 
will further strengthen deterrence of Russian cheating or 
breakout. Because the United States will retain a robust triad 
of strategic forces, Russian cheating or breakout under the 
treaty would have little effect on the assured second-strike 
capabilities of U.S. nuclear forces. In particular, the 
survivability and responsiveness of strategic submarines at sea 
and alert heavy bombers would be unaffected by even large-scale 
cheating.
    In addition, the United States would be able to respond to 
Russian cheating or breakout with the ability to upload large 
numbers of additional nuclear warheads on both bombers and 
strategic missiles. The United States will therefore be well-
postured under New START to deter any Russian attempt to gain 
advantage by cheating or breakout.
    This, of course, does not mean that Russian cheating or 
breakout is likely or that it would be acceptable. If there 
were any signs of Russian cheating or preparations to break out 
from the treaty, the United States would first raise this 
matter in the Bilateral Consultative Commission established 
under the treaty and, if not resolved there, at higher levels, 
and then would have other courses of action following that, if 
necessary.
    Fourth, the treaty does not constrain our ability to 
develop and deploy non-nuclear prompt global strike 
capabilities. DOD is currently conducting an indepth analysis 
of non-nuclear prompt global strike. However, we have concluded 
at this point that any deployment of conventionally armed ICBMs 
or SLBMs with a traditional ballistic trajectory, which would 
count under the New START treaty's limits, would be limited to 
a niche capability which could easily be accounted for under 
the treaty, while retaining our nuclear triad.
    DOD is also exploring the potential of conventionally-armed 
long-range missile systems that fly a non-ballistic trajectory, 
for example so-called boost-glide systems. Such systems would 
have the advantage that they could steer around other countries 
to avoid overflight issues and they would have flight 
trajectories distinguishable from an ICBM or SLBM. As we made 
clear in the New START treaty negotiations, we would not 
consider such non-nuclear systems, which do not otherwise meet 
the definitions of the New START treaty as ICBMs or SLBMs, to 
be new kinds of arms for purposes of the treaty.
    The fifth point: The treaty does not in any way constrain 
the ability of the United States to sustain our nuclear weapons 
stockpile (NWS) and to rebuild the nuclear security enterprise 
that supports it. This effort is a priority of the Secretary of 
Defense. Both General Chilton and Administrator D'Agostino will 
speak to this critical issue. I strongly endorse our efforts in 
this area.
    Sixth, the treaty does not constrain the ability of the 
United States to develop and deploy effective BMDs, including 
the ability to improve those defenses both qualitatively and 
quantitatively, nor does it add any cost or inconvenience to 
this effort. The treaty's preamble states that current 
strategic defensive forces do not threaten to undermine the 
effectiveness of the parties' strategic offensive arms. Given 
that the United States currently has only 30 ground-based 
interceptors (GBI) and Russia will likely deploy well over 
1,000 ICBM and SLBM warheads under the treaty, U.S. missile 
defenses could increase very significantly and the same will 
remain true.
    It is also important to note that the treaty's preamble is 
not legally binding and therefore does not require or prohibit 
either side from doing anything.
    Article 5 of the treaty prohibits any future conversion of 
ICBM silos or SLBM launchers to house or launch BMD 
interceptors, or vice versa. Such a conversion would neither be 
cost effective nor necessary. For example, converting 10 ICBM 
silos to house GBIs would cost about $550 million, compared to 
$360 million for building 10 new tailor-made GBI silos. The 
placement of missile defense interceptors in converted SLBM 
launchers would be operationally impractical and very 
expensive. Therefore, the Article 5 limitation on launcher 
conversion does not constrain U.S. plans, programs, or options.
    Russia made a unilateral statement about missile defenses 
in connection with the treaty. This statement is not part of 
the treaty and is not legally binding. As I know the Senators 
also know, the United States made a unilateral statement in 
response that we will continue to improve our missile defense 
capabilities to provide for effective defense of our Homeland 
against limited missile attacks. We will also do so for our 
deployed forces and our allies and partners against growing 
regional threats.
    As the 2010 Ballistic Missile Defense Review (BMDR), our 
budgetary plans, the U.S. unilateral statement, and extensive 
testimony by administration officials all make clear, the 
United States will continue to expand and improve our missile 
defenses.
    In summary, the New START treaty promotes stability and 
transparency in our strategic relationship with Russia. It is 
effectively verifiable. It allows us to maintain and to 
modernize a robust triad of strategic nuclear delivery systems 
and, if desired, to deploy non-nuclear prompt global strike 
capabilities. It does not affect our ability or intent to 
revitalize our nuclear security enterprise, nor does it affect 
our ability or intent to improve our ballistic missile defense 
capabilities both qualitatively and quantitatively. In short, 
the New START treaty will make the United States and our allies 
and partners more secure.
    Thank you, I look forward to answering your questions.
    [The prepared statement of Dr. Miller follows:]
               Prepared Statement by Dr. James N. Miller
    Mr. Chairman, Senator McCain, distinguished members of the 
committee, thank you for the opportunity to testify today. It is a 
pleasure to join General Kevin Chilton, Commander of U.S. Strategic 
Command, and Tom D'Agostino, Administrator of the National Nuclear 
Security Administration, in discussing the New Strategic Arms Reduction 
Treaty (START).
    The New START treaty will strengthen strategic stability with 
Russia at reduced nuclear force levels, improve transparency with key 
data exchange and verification provisions, enable the United States to 
retain and modernize a robust Triad of strategic delivery systems, 
allow the freedom to alter our mix of strategic forces, and protect our 
ability to develop and deploy non-nuclear prompt global strike and 
missile defenses. In short, the New START treaty will make the United 
States, and our allies and partners, more secure.
                  nuclear posture review and new start
    An early priority of the year-long 2010 Nuclear Posture Review 
(NPR) was to develop U.S. positions for the New START negotiations, 
including how many strategic delivery vehicles and deployed warheads 
were needed to field an effective, credible, and flexible nuclear 
deterrent for the duration of the treaty. The Secretary of Defense, the 
Joint Chiefs of Staff, and General Chilton were all deeply involved in 
the NPR, and in decisions on New START treaty limits.
    The NPR's early, extensive, and continued attention to New START 
resulted in guidance to negotiators that ensured the key limits agreed 
to in the treaty would allow U.S. strategic nuclear forces to meet all 
key strategic objectives for the United States. In particular:

        <bullet> The treaty's limit of 1,550 accountable warheads will 
        allow the United States to sustain effective nuclear 
        deterrence, including sufficient survivable nuclear forces for 
        an assured devastating second-strike capability.
        <bullet> The treaty's limits of 700 deployed intercontinental 
        ballistic missiles (ICBMs), submarine launched ballistic 
        missiles (SLBMs), and nuclear-capable heavy bombers will 
        support strategic stability by allowing the United States to 
        retain a robust Triad of strategic delivery systems--while 
        downloading all remaining Minuteman III ICBMs to a single 
        warhead.
        <bullet> The treaty's limit of 800 deployed and nondeployed 
        launchers of ICBMs, launchers of SLBMs, and nuclear-capable 
        heavy bombers will allow the retention of up to 100 ICBM and 
        SLBM launchers, and nuclear-capable bombers, in a nondeployed 
        status. When combined with the New START counting rule that a 
        launcher is deployed only when mated with a missile, and the 
        treaty's provisions on conversion of heavy bombers to a 
        conventional-only configuration, this will allow the United 
        States to minimize irreversible changes to nuclear force 
        structure.
        <bullet> By providing the freedom to mix U.S. strategic nuclear 
        forces as we see fit, the treaty will allow the United States 
        to rebalance its strategic forces as necessary to adapt to any 
        future technical and geopolitical challenges that could affect 
        a given leg of the Triad.
        <bullet> The treaty allows us to maintain our stockpile of 
        nondeployed warheads and an ``upload'' capacity for strategic 
        delivery systems, which provide a hedge against adverse 
        technical developments or a serious deterioration in the 
        international security environment. More broadly, the treaty 
        does not in any way constrain the ability of the United States 
        to sustain our nuclear weapons stockpile, and rebuild the 
        nuclear security enterprise that supports it.
        <bullet> The treaty's data exchange and verification provisions 
        will increase transparency and confidence in the numbers and 
        status of Russia's nuclear forces, without imposing significant 
        burdens on our ability to operate U.S. nuclear forces.
        <bullet> As I will discuss in more detail, the treaty does not 
        constrain our ability to develop and deploy non-nuclear prompt 
        global strike capabilities.
        <bullet> As I will also discuss in more detail, the treaty does 
        not constrain the ability of the United States to develop and 
        deploy effective ballistic missile defenses, including the 
        ability to improve these defenses both qualitatively and 
        quantitatively.
              u.s. nuclear force structure under new start
    The Department of Defense has developed a baseline nuclear force 
structure for New START that fully supports U.S. security requirements 
without requiring changes to current or planned basing arrangements. 
Specifically, under baseline plans, the administration plans to field a 
diversified force that meets New START limits by:

        <bullet> Retaining 14 Ohio-class SSBNs and deploying no more 
        than 240 Trident II D5 SLBMs at any time.
        <bullet> Retaining up to 420 deployed Minuteman III ICBMs, each 
        with a single warhead.
        <bullet> Retaining up to 60 nuclear-capable B-2A and B-52H 
        heavy bombers, while converting remaining nuclear-capable B-1B 
        and some B-52H heavy bombers to conventional-only capability.

    This baseline force structure provides a basis for future planning. 
The treaty affords the flexibility to make appropriate adjustments as 
necessary.
    The Department of Defense plans to sustain and modernize U.S. 
strategic delivery capabilities, as outlined in detail in the 
classified report submitted to Congress in response to section 1251 of 
the National Defense Authorization Act of 2010. To this end, over the 
next decade, the United States will invest well over $100 billion to 
sustain existing strategic delivery systems capabilities and modernize 
strategic systems.
    The fiscal year 2011 budget request and future year program plans 
reflect a decision to proceed with the SSBN(X) to replace the current 
Ohio-class strategic submarines starting in the late 2020s, to sustain 
Minuteman III ICBMs until 2030 as directed by Congress, and to sustain 
dual-capable B-52H and B-2 bombers until at least 2035 and 2050 
respectively. The DOD is currently conducting an Analysis of 
Alternatives (AoA) for the next Air-Launched Cruise Missile, and will 
initiate study of options for a follow-on ICBM in 2011-2012.
    Finally, DOD is currently studying the appropriate long-term mix of 
long-range strike capabilities, including heavy bombers as well as non-
nuclear prompt global strike systems, in follow-on analysis to the 2010 
Quadrennial Defense Review and the NPR; the results of this ongoing 
work will be reflected in the Department's fiscal year 2012 budget 
submission.
                    non-nuclear prompt global strike
    The deployment of a non-nuclear prompt global strike system would 
provide the United States with a capability that we currently lack: the 
ability to precisely strike a target anywhere on the earth in less than 
1 hour using a non-nuclear warhead. At the same time, depending on 
technical and operational details, such systems could raise a number of 
challenges, including potential over-flight of other countries, and the 
ability to distinguish the launch of non-nuclear as opposed to nuclear-
armed systems.
    While our analysis of non-nuclear prompt global strike is still 
underway, DOD has concluded that any deployment of conventionally-armed 
ICBMs or SLBMs with a traditional ballistic trajectory, which would 
count under the New START treaty's limits, should be limited to a niche 
capability. For example, if the Conventional Trident Modification 
program were deployed, it would involve 2 missiles for each of 12 to 14 
submarines, and 24 deployed strategic delivery vehicles total and fewer 
than a hundred accountable strategic warheads. This number of SDVs and 
strategic warheads could easily be accounted for under the limit of 700 
deployed SDVs and 1550 strategic warheads under the treaty, while still 
retaining a robust nuclear Triad.
    DOD is also exploring the potential of conventionally-armed, long-
range missile systems that fly a non-ballistic trajectory (e.g., boost-
glide systems). Such systems would have the advantage that they could 
``steer around'' other countries to avoid over-flight and have flight 
trajectories distinguishable from an ICBM or SLBM. As we made clear 
during the New START treaty negotiations, we would not consider such 
non-nuclear systems, which do not otherwise meet the definitions of the 
New START treaty, to be ``new kinds of strategic offense arms'' for the 
purposes of the treaty.
      sustaining the nuclear weapons stockpile and infrastructure
    In addition to sustaining U.S. delivery systems, maintaining an 
adequate stockpile of safe, secure, and reliable nuclear warheads is a 
core U.S. objective identified in the 2010 NPR, and this requires a 
reinvigoration of our nuclear security enterprise. To this end, the 
Department of Defense transferred $4.6 billion of its top-line to the 
Department of Energy's National Nuclear Security Administration (NNSA) 
through fiscal year 2015. This transfer will assist in funding critical 
nuclear weapons life extension programs and efforts to modernize the 
nuclear weapons infrastructure. The initial applications of this 
funding, along with an additional $1.1 billion being transferred for 
naval nuclear reactors, are reflected in the Defense and Energy 
Departments' fiscal year 2011 budget requests. The NNSA budget request 
for weapons activities for fiscal year 2011 represents a 10 percent 
increase over fiscal year 2010, and increased funding levels are 
planned for the future, as reflected in the administration's recent 
section 1251 report. The U.S. nuclear force posture under the New START 
treaty will be strong, properly resourced, and supported by a 
revitalized nuclear infrastructure.
                              verification
    As Secretary Gates has testified, one of the greatest contributions 
of this treaty is its strong verification regime. The treaty's 
verification and data exchange provisions will increase transparency 
and confidence in the numbers and status of Russian nuclear forces, 
without imposing significant burdens on our ability to operate U.S. 
nuclear forces.
    Onsite inspections are a linchpin of the treaty's verification 
framework. The treaty allows each Party to conduct up to 18 short-
notice onsite inspections each year, with up to 10 Type One inspections 
conducted at operating bases for ICBMs, strategic nuclear-powered 
ballistic missile submarines, and nuclear-capable heavy bombers, and up 
to 8 Type Two inspections conducted at places such as storage sites, 
test ranges, and conversion or elimination facilities where nondeployed 
systems are located.
    Onsite inspections work synergistically with other elements of the 
treaty, including:

        <bullet> extensive periodic data exchanges on the 
        characteristics and locations of ICBMs, SLBMs, and nuclear-
        capable heavy bombers;
        <bullet> unique identifiers associated with each ICBM, SLBM, 
        and heavy bomber; and,
        <bullet> a requirement to report any changes in the status of 
        strategic systems through timely notifications.

    By enabling the United States to directly observe Russia's 
strategic nuclear forces and related facilities, onsite inspections 
will help the United States verify that Russia is complying with the 
provisions of the New START treaty.
    Inspections will also provide a deterrent to cheating. Because the 
treaty provides for up to 18 inspections per year at sites selected by 
the inspecting party, each side knows that the other will have a 
significant capability to uncover discrepancies between what is 
reported and what is actually happening. If the United States has 
concerns or encounters ambiguities during onsite inspections, we will 
immediately raise these matters with the Russians in the Bilateral 
Consultative Commission and seek prompt resolution. If necessary, we 
will pursue them at higher political levels.
    Without the treaty's verification measures, the United States would 
have much less insight into Russian strategic forces, thereby requiring 
our military to plan based on worst-case assumptions. This would be an 
expensive and potentially destabilizing approach that this nation 
should not accept.
    The force structure plans of the United States, as outlined in the 
Nuclear Posture Review and the section 1251 report to Congress, 
reinforce the New START treaty's verification regime by minimizing the 
value of any potential Russian cheating or breakout. Moreover, there is 
no breakout scenario in which Russia would be able to employ even a 
substantially expanded number of deployed strategic nuclear warheads to 
undermine the second strike retaliatory deterrent capability of the 
United States. Because the United States will retain a diverse Triad of 
strategic forces, any Russian cheating under the treaty would have 
little effect on the assured second-strike capabilities of U.S. 
strategic forces. In particular, the survivability and response 
capabilities of strategic submarines at sea and alert heavy bombers 
would be unaffected by even large-scale cheating. Nor could Russia 
achieve a sustained numerical advantage in deployed strategic warheads 
through such a breakout because the United States will retain the 
ability to ``upload'' large numbers of additional nuclear warheads on 
both bombers and strategic missiles deployed under New START. Therefore 
any breakout scenario would have, at most, limited military 
significance. Notwithstanding this conclusion, should there be any 
signs of Russian cheating or preparations to breakout from the treaty, 
the United States would certainly raise this matter in the Bilateral 
Consultative Commission, and if not resolved, at higher levels.
    The New START treaty's verification provisions and a diverse and 
survivable U.S. force posture combine to provide strong deterrence of 
Russian cheating or breakout under the New START treaty. As the State 
Department's recent report on the verifiability of the New START treaty 
states, these factors contribute to a New START treaty that is 
effectively verifiable.
                       ballistic missile defenses
    As made clear in the report of the 2010 Ballistic Missile Defense 
Review, the ballistic missile threat to U.S. deployed military forces 
and to our allies and partners is growing rapidly, with potential 
implications for our ability to project power abroad, to prevent and 
deter future conflicts, and to prevail should deterrence fail. One of 
the most significant threats to the U.S. homeland is the continued 
efforts of Iran and North Korea to develop nuclear weapons and long-
range ballistic missiles to deliver them. The protection of the United 
States, our deployed forces, and our allies and partners from the 
threat of ballistic missile attack is a critical national priority.
    A core U.S. aim during the New START negotiations was to protect 
the U.S. ability to deploy the most effective missile defenses 
possible. U.S. negotiators achieved this objective. The New START 
treaty does not constrain the United States from deploying the most 
effective missile defenses possible, nor does it add any additional 
cost or inconvenience. Rather, the treaty enables this President and 
his successors to develop the missile defenses needed to defend the 
Nation, our deployed forces abroad, and our allies and partners from 
the threat of ballistic missile attack.
    The New START treaty addresses missile defenses in two places: the 
Preamble and Article V. First, the Preamble of the treaty states that 
there is an interrelationship between strategic offensive and strategic 
defensive arms, and that current strategic defensive forces do not 
threaten to undermine the effectiveness of the Parties' strategic 
offensive arms. Given that the United States has only 30 Ground Based 
Interceptors and Russia will likely field well over 1,000 ICBM and SLBM 
warheads under the treaty,
    U.S. missile defenses can increase very significantly and the same 
would remain true. It is also important to note that the treaty's 
preambular statement is not legally binding, and therefore does not 
require or prohibit either side from doing anything.
    Second, Article V of the treaty prohibits any future conversion of 
ICBM silos or SLBM launchers to house and launch BMD interceptors--or 
vice versa. Such conversion would be neither cost-effective nor 
necessary. For example, converting ten ICBM silos to house GBIs would 
cost about $550 million, compared to $360 million for building 10 new 
tailor-made GBI silos. The placement of midcourse missile defense 
interceptors in converted SLBM launchers would be operationally 
impractical and very expensive. Consequently, the Article V limitation 
on launcher conversion does not constrain U.S. plans or programs.
    In addition, Russia made a unilateral statement about missile 
defense in connection with the treaty. This statement is not part of 
the treaty and is not legally binding.
    The United States also made a unilateral statement associated with 
the New START treaty, which makes clear that our missile defense 
systems are not intended to affect the strategic balance with Russia, 
and that we will continue to improve our missile defense capabilities 
to provide for effective defense of our homeland against limited 
missile attacks and of our deployed forces, allies, and partners 
against growing regional threats. We have also explained that the 
missile defense capabilities associated with the European Phased 
Adaptive Approach will not affect the U.S.-Russian strategic balance, 
and that we fully intend to proceed with that approach in the context 
of the extensive missile defense program laid out in the 2010 Ballistic 
Missile Defense Review. We continue to seek Russian cooperation on 
missile defenses to improve both countries' ability to cope with the 
growing threat.
    As the 2010 Ballistic Missile Defense Review, our budgetary plans, 
the U.S. unilateral statement, and extensive testimony by 
administration officials all make clear, the United States will 
continue to expand and improve missile defenses as necessary.
        accountability of rail mobile icbms and their launchers
    Before concluding, I would like to address an additional issue that 
has arisen recently regarding the treaty. Some have asked whether a 
Russian rail-mobile ICBM system, should Russia again deploy a system 
such as its former rail-based SS-24, would be accountable under New 
START. The answer is unequivocally yes. Such systems were not 
specifically addressed in the treaty because, unlike the situation when 
the previous START was being negotiated, neither party currently 
deploys rail-mobile ICBMs. Nevertheless, the treaty's terms and 
definitions cover all ICBMs and ICBM launchers, including possible 
future rail-mobile systems. Therefore, in the event that Russia deploys 
rail-mobile ICBMs in the future, the launchers and the ICBMs they carry 
would be accountable under the New START treaty. Specific details about 
the application of the above mentioned verification provisions would be 
worked out in the treaty's Bilateral Consultative Commission.
                               conclusion
    The New START treaty promotes stability and transparency in our 
strategic relationship with the Russian Federation, and is effectively 
verifiable. It allows us to maintain and modernize a robust Triad of 
strategic delivery systems, and if desired, deploy non-nuclear prompt 
global strike capabilities. The New START treaty does not affect our 
ability to revitalize our nuclear security enterprise. Nor does it 
affect our ability or intent to improve our ballistic missile defense 
capabilities both qualitatively and quantitatively. For these reasons, 
the Department of Defense fully supports this treaty.
    Thank you. I look forward to answering your questions.

    Chairman Levin. Thank you, Dr. Miller.
    Mr. D'Agostino.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
     NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. D'Agostino. Chairman Levin, Ranking Member McCain, and 
members of the committee, thank you for the opportunity to 
testify on the New START treaty between the United States of 
America and the Russian Federation. First of all, I'd like to 
make clear that the New START treaty will not affect NNSA's 
ability to maintain the safety, security, and effectiveness of 
the Nation's NWS. No NNSA sites will be subject to inspections 
and none of our operations will be subject to limitation. Our 
plans for investment in and modernization of the nuclear 
strategic enterprise are essential irrespective of whether or 
not the New START treaty is ratified. Treaty implementation 
will not affect our plans.
    Ensuring the safety, security, and effectiveness of the NWS 
is one of NNSA's primary missions. Maintaining the stockpile 
without nuclear testing has been a national policy for nearly 
20 years and we will continue to support that policy in the 
future.
    In addition to our maintenance, surveillance, and warhead 
certification activities, important life extension milestones 
include: completing the ongoing life extension for the W76 
warhead, about the 2017 time frame; completing the full-scope 
life extension study for the B61 bomb, with production 
beginning about the 2017 time frame as the W76 is coming down; 
and completing a study of life extension options for 
maintaining the W78 ICBM warhead.
    With respect to life extension options, the NPR is clear 
that the full range of options will be considered for each 
warhead life extension, to include replacement of nuclear 
components. The report on New START treaty framework and 
nuclear force structure plans, or what's known as the 1251 
report, explains that, while the NPR expresses a preference for 
refurbishment and reuse, the laboratory directors will be 
expected to provide findings associated with the full range of 
life extension approaches and they will make recommendations 
based solely on their best technical assessment of the ability 
of each life extension approach to meet critical stockpile 
management goals. These are goals in weapons system safety, 
weapons system security, and of course the effectiveness and 
reliability.
    The NPR also reinforced the need to maintain the most 
survivable leg of the triad, a sea-based strategic deterrent. 
Naval Reactors began reactor and propulsion plant design this 
year for an Ohio-class replacement submarine. Reactor plant 
components will be procured in 2017 and will support the Navy's 
need for a reactor core that will last for more than a 40-year 
life of submarine. Full funding for this program will be 
required.
    The NPR also concluded that we needed to recapitalize the 
aging infrastructure and renew our human capital base. The SSMP 
is a comprehensive 20-year plan to achieve this goal and to 
modernize NNSA's nuclear security enterprise. Implementation of 
this SSMP will allow us to strengthen our science, technology, 
and engineering base, modernize the infrastructure, and 
recruit, develop, and retain the next generation of nuclear 
security professionals responsible for the stockpile 
stewardship program as well as other nuclear security missions 
that the Nation needs.
    U.S. nuclear warhead reliability has always been held to 
the highest standards. These standards for warhead reliability 
will remain exacting and extremely high regardless of stockpile 
size. But as the size of the stockpile decreases, our deterrent 
will rely even more on the capabilities and the strong 
capabilities-based infrastructure that can respond rapidly to 
technical and geopolitical changes. This is not just 
infrastructure in the form of buildings, but our people, the 
infrastructure in the form of people and capability to be able 
to respond in the future.
    We've requested a substantial increase in funding in the 
2011 to 2015 time period, and the President's budget request 
for NNSA for the fiscal year during this period for what we 
call the future year nuclear security program, is exactly 
right. It reflects both what is necessary and executable. The 
request includes an increase of $624 million next year and 
scales up by an additional billion dollars by fiscal year 2015. 
The plan calls for sustained investments at these higher levels 
such that over the next decade the United States will have 
invested nearly $80 billion in the SSMP and in modernizing the 
infrastructure.
    Sustained national-level commitment and support over the 
next decade is essential for the entire nuclear security 
enterprise. The United States relies on NNSA and the national 
laboratories for the development of technologies, for treaty 
verification, and for nonproliferation initiatives. Under New 
START, U.S. inspectors will use equipment developed by our 
national laboratories that was used for the Intermediate-Range 
Nuclear Forces and the START I treaties. Should new radiation 
detection equipment be required, specialists from the nuclear 
security enterprise will also play an essential role in 
developing and evaluating this equipment.
    The New START treaty, if ratified and entered into force, 
commits the United States and the Russian Federation to further 
reduce our deployed strategic nuclear weapons in a predictable, 
transparent, and verifiable manner, increasing stability with 
other countries and demonstrating in a concrete way the U.S. 
and Russian commitment to our nonproliferation treaty 
obligations. This I believe will provide positive momentum for 
future U.S.-Russian collaboration and will provide further 
credibility for maintaining a strong leadership role for the 
United States in international nonproliferation initiatives.
    Most importantly, the New START treaty accomplishes these 
objectives without jeopardizing U.S. national security and 
specifically will not jeopardize the ability of the United 
States to maintain the safety, security, and effectiveness of 
our NWS.
    For these reasons, I urge this body to favorably consider 
the New START treaty.
    Thank you very much. I look forward to your questions, sir.
    [The prepared statement of Mr. D'Agostino follows:]
            Prepared Statement by Hon. Thomas P. D'Agostino
    Chairman Levin, Ranking Member McCain, and members of the 
committee, thank you for the opportunity to testify on the treaty 
between the United States of America and the Russian Federation on 
Measures for the Further Reduction and Limitation of Strategic 
Offensive Arms, known as ``New START.''
    Last month, Secretary of Energy Chu testified before this committee 
on the New START treaty. He described the treaty's impact on Department 
of Energy (DOE) and National Nuclear Security Administration (NNSA) 
activities, and our ability to ensure the safety, security, and 
effectiveness of the U.S. nuclear weapons stockpile under the treaty. I 
will reiterate the essential points made by Secretary Chu, and provide 
further information on NNSA activities to maintain the stockpile in the 
context of the New START treaty and the policies contained in the 
Nuclear Posture Review (NPR). Our strength rests on ensuring that our 
nuclear weapons stockpile remains safe, secure, and effective for as 
long as it is needed. Modernization and investment in our nuclear 
infrastructure is essential to this objective, while allowing a reduced 
role for nuclear weapons in our national security strategy. I will also 
comment on NNSA's role in the development and evaluation of treaty 
verification technology.
    First and foremost, I want to make clear that the New START treaty 
will not affect NNSA's ability to maintain the safety, security, and 
effectiveness of the Nation's nuclear weapons stockpile. NNSA sites--to 
include our production, testing, and national laboratory facilities--
will not be subject to inspection, and none of our operations will be 
subject to limitation. Our plans for investment in and modernization of 
the Nuclear Security Enterprise--the collection of NNSA laboratories, 
production sites and experimental facilities that support our stockpile 
stewardship program, our nuclear nonproliferation agenda, our naval 
nuclear propulsion programs, and a host of other nuclear security 
missions--are essential irrespective of whether or not New START is 
ratified. Treaty implementation will not affect our plans. Warheads 
removed from deployed delivery vehicles to meet New START limits will 
continue to remain available to support maintenance and surveillance 
activities. They may also be retained as inactive Reserve weapons, 
available to support nuclear component reuse if needed as part of 
future warhead life extension program (LEP) activities.
             warhead life extension activities and the npr
    Ensuring the safety, security and effectiveness of the Nation's 
nuclear weapons stockpile is one of NNSA's primary missions. 
Maintaining the weapons stockpile without nuclear testing has been 
national policy for nearly 20 years, and we will continue to support 
that policy in the future. In addition to our maintenance, surveillance 
and warhead certification activities, important life extension 
milestones include the following:

        <bullet> Completing by 2017 the ongoing LEP for the W76 
        warhead, which will extend its life for an additional 30 years;
        <bullet> Completing a full scope LEP study for the B61 bomb and 
        beginning production in 2017 to extend its service life, 
        enhance its safety and use control features, and ensure its 
        compatibility with modern aircraft; and
        <bullet> Completing, with the Nuclear Weapons Council, a study 
        of LEP options for maintaining the W78 ICBM warhead.

    With respect to life extension options, while the NPR is clear that 
the United States will give preference to nuclear component 
refurbishment or reuse, it is equally clear that the full range of 
options will be considered for each warhead LEP, to include replacement 
of nuclear components. The report on the ``New START treaty Framework 
and Nuclear Force Structure Plans,'' submitted to Congress in response 
to section 1251 of the National Defense Authorization Act for Fiscal 
Year 2010, further explains that ``[w]hile the NPR expresses a policy 
preference for refurbishment and reuse in decisions to proceed from 
study to engineering development, the Laboratory Directors will be 
expected to provide findings associated with the full range of LEP 
approaches, and to make a set of recommendations based solely on their 
best technical assessments of the ability of each LEP approach to meet 
critical stockpile management goals (weapon system safety, security, 
and effectiveness).''
    The directors of Los Alamos, Lawrence Livermore, and Sandia 
National Laboratories made their position on this approach clear in an 
April 9, 2010, joint statement. They assessed that ``the approach 
outlined in the NPR, which excludes further nuclear testing and 
includes the consideration of the full range of life extension options 
(refurbishment of existing warheads, reuse of nuclear components from 
different warheads and replacement of nuclear components based on 
previously tested designs), provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''
    The Nuclear Posture Review also reinforced the necessity to 
maintain the capability of the most survivable leg of the triad with a 
sea-based strategic deterrent. Naval Reactors began reactor and 
propulsion plant design in fiscal year 2010 for the Ohio-class 
replacement submarine to support the Navy's schedule. Reactor plant 
components will be procured in 2017 to allow for the long manufacturing 
spans and need for these components in submarine construction. 
Research, development and design efforts are underway for the 
development of reactor technologies to support the Navy's need for a 
reactor core that will last for the more-than-40-year life of the 
submarine. These efforts directly support recapitalizing the sea-based 
leg of the triad within full compliance of the New START treaty.
           priorities for nnsa's nuclear security enterprise
    The NPR concluded that the NNSA needed to recapitalize the aging 
infrastructure and renew our human capital base. The recently completed 
Stockpile Stewardship and Management Plan (SSMP) is the comprehensive 
resource plan to achieve this and to modernize NNSA's Nuclear Security 
Enterprise to support the objectives detailed in the Nuclear Posture 
Review. Implementation of the SSMP will allow us to accomplish the 
following:

        <bullet> Strengthen the science, technology, and engineering 
        base, including the computational and experimental 
        capabilities, needed for conducting weapon system LEPs, weapons 
        surety, surveillance, and annual certification without nuclear 
        testing.
        <bullet> Modernize the infrastructure necessary to fulfill 
        stockpile stewardship requirements, including replacing 
        outdated facilities with modern, efficient, cost-effective and 
        properly-sized facilities. Key priorities are to:

                <bullet> Complete the design and begin building the 
                Chemistry and Metallurgy Research Facility Replacement 
                Nuclear Facility at the Los Alamos National Laboratory 
                in order to complete construction by 2020, and ramp up 
                to full operations by 2022;
                <bullet> Increase pit manufacturing capacity and 
                capability at the Plutonium Facility at Los Alamos; and
                <bullet> Complete the design and begin building the 
                Uranium Processing Facility at the Y-12 National 
                Security Complex in order to complete construction by 
                2020, and ramp up to full operations by 2022.

        <bullet> Recruit, develop, and retain the next generation of 
        nuclear security professionals responsible for stockpile 
        stewardship. These individuals are today, and will be in the 
        future, our greatest asset. They face critical and persistent 
        scientific challenges as they implement our national policy to 
        consider all life extension options to maintain the nuclear 
        weapons stockpile without nuclear testing. I believe that these 
        challenges, combined with a national-level commitment to 
        transform NNSA from a nuclear weapons complex into a modern, 
        world-class 21st century Nuclear Security Enterprise will 
        provide the environment to attract and retain the best and 
        brightest scientists and engineers available. In addition, 
        defense initiatives beyond stockpile stewardship, such as 
        nuclear forensics and attribution, and treaty verification 
        activities, provide a broadened mission that will push the 
        envelope of nuclear technology and further challenge and 
        develop our nuclear security professionals.
                    maintaining warhead reliability
    U.S. nuclear warhead reliability has always been held to the 
highest standards--and these standards for warhead reliability will 
remain exacting and extremely high, regardless of stockpile size. Over 
the course of the past 20 years, the stockpile has been reduced from 
over 21,000 warheads to approximately 5,100 at the end of fiscal year 
2009 within the context of science-based stockpile stewardship and the 
continuing moratorium on nuclear testing. During this time, the 
national laboratories have assessed our weapon systems on an annual 
basis and the Secretaries of Defense and Energy have annually certified 
to the President the safety, security and reliability of our stockpile. 
However, as the size of the stockpile continues to decrease, our 
deterrent must rely even more on a strong capabilities-based 
infrastructure that can respond rapidly to technical and geopolitical 
challenges--and this is what we will achieve through the programs and 
plans described in the SSMP. To ensure this infrastructure is in place 
when we need it, sustained national-level support over the next decade 
is essential.
    Accordingly, we have included a substantial increase in funding in 
the fiscal year 2011-2015 budget request, shaped by our requirements 
and the ability of the Nuclear Security Enterprise to efficiently 
``ramp up'' within the constraints of time, capacity and capability to 
spend the increased funds. In this regard, the President's budget 
request for the NNSA for the fiscal year 2011-2015 Future Years Nuclear 
Security Program is exactly right--it reflects what is both necessary 
and executable. The request includes an increase of $624 million in 
fiscal year 2011, and scales to $1.64 billion in fiscal year 2015. The 
administration's plan calls for sustained investments at these higher 
levels such that over the next decade the United States will have 
invested over $80 billion in modernizing the NNSA infrastructure. This 
represents a nearly 30 percent increase over the next decade as 
compared with the investments in these programs over the course of the 
past decade. Again, however, sustained commitment and support over the 
next decade is essential.
                  nnsa support to treaty verification
    The United States relies on NNSA and the national laboratories for 
the development, evaluation, and utilization of technologies for a 
number of treaty verification and nonproliferation initiatives. Our 
work in this area includes, for example: advanced safeguards technology 
development to support the International Atomic Energy Agency; 
equipment development for and monitoring of the conversion of highly 
enriched uranium (HEU) to low enriched uranium under the U.S.-Russia 
HEU Purchase Agreement; and monitoring the extraction of spent fuel 
rods at the Yongbyon reactor in North Korea and verifying that the 
removed fuel rods were actually spent fuel. For strategic arms control 
purposes, we leverage the expertise of our physicists and engineers to 
develop advanced radiation detection equipment, as well as analyze the 
impact of the use of this equipment on or near U.S. assets. With regard 
to New START, U.S. inspectors will use equipment developed by the NNSA 
National Laboratories to confirm that objects on deployed delivery 
vehicles that are declared to be non-nuclear are, in fact, non-nuclear. 
This equipment, which was originally developed for verification under 
the Intermediate-Range Nuclear Forces Treaty, was also used by U.S. 
inspectors for verification under the 1991 START treaty. Should new 
radiation detection equipment be required, specialists from throughout 
the Nuclear Security Enterprise will play an essential role in the 
development and evaluation process.
                               conclusion
    The New START treaty, if ratified and entered into force, commits 
the United States and Russian Federation to further reduce our deployed 
strategic nuclear weapons in a transparent and verifiable manner, 
thereby increasing stability between our countries, while demonstrating 
in a concrete manner the U.S. and Russian commitment to our obligations 
under the Nuclear Nonproliferation Treaty. This, I believe, will 
provide positive momentum for future U.S.-Russian collaboration, and 
will provide further credibility for maintaining a strong leadership 
role for the United States in international nonproliferation 
initiatives. Most importantly, the New START treaty accomplishes these 
objectives without jeopardizing U.S. national security, and 
specifically it will not jeopardize the ability of the United States to 
maintain the safety, security and effectiveness of its nuclear weapons 
stockpile. For these reasons, I urge this body to favorably consider 
the New START treaty.
    Thank you. I look forward to answering your questions.

    Chairman Levin. Thank you, Mr. D'Agostino.
    General Chilton.

   STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Chilton. Thank you, Chairman Levin, Senator McCain, 
members of the committee. It's a pleasure to join you again 
today. I'm also pleased to be here with Dr. Miller and Mr. 
D'Agostino again, two great colleagues.
    Mr. Chairman, I was fully consulted during the treaty 
negotiation process and I support ratification of the New 
START. Today I would like to briefly discuss three reasons why 
our Nation will be safer and more secure with this treaty than 
without it, and to highlight current challenges that must be 
addressed to ensure the long-term safety, security, and 
effectiveness of the U.S. strategic deterrent.
    I ask that my entire statement be entered into the record.
    Chairman Levin. It will be.
    General Chilton. Thank you, Chairman.
    Mr. Chairman, throughout the NPR process and New START 
negotiations, STRATCOM's team played important analytical and 
advisory roles. As the combatant command responsible for 
strategic deterrence planning, advocating for related 
capabilities, and executing operations at the President's 
direction, no military organization has a greater interest in 
the treaty's specifics than we do.
    At the outset, our team analyzed the required nuclear 
weapons and delivery vehicle force structure and posture 
necessary to meet the current guidance. STRATCOM involvement 
and support to both the NPR and New START was continuous, 
providing options and engagement with the negotiating team 
throughout the New START process. The breadth and depth of our 
involvement gives me great confidence that the result does not 
constrain America's ability to continue to deter potential 
adversaries, assure our allies, and sustain strategic 
stability.
    I believe that there are three reasons why the New START 
agreement represents a positive step forward. First, New START 
limits the number of Russian ballistic missile warheads that 
can target the United States, missiles that pose the most 
prompt threat to our forces and our Nation.
    Second, New START's flexible limits on deployed and 
nondeployed delivery platforms retain sufficient flexibility in 
managing our triad of deterrent forces to hedge against both 
technical or geopolitical surprise.
    Third, New START will reestablish a strategic nuclear arms 
control verification regime that provides access to Russian 
nuclear forces and a measure of predictability in Russian force 
deployments over the life of the treaty.
    I think it's equally important to remember what New START 
will not do. Secretary Gates noted here last month: ``The 
treaty will not constrain the United States from deploying the 
most effective missile defense possible, nor impose additional 
costs or barriers on those defenses.'' I wholeheartedly agree. 
As the combatant command also responsible for synchronizing 
global missile defense plans, operations, and advocacy, I can 
say with confidence that this treaty does not constrain any 
current or future missile defense plans.
    In closing, let me say a word about the need to sustain a 
safe, secure, and effective nuclear deterrent. As Secretary 
Gates has also noted in his prepared statement last month, 
``America's nuclear arsenal remains a vital pillar of our 
national security, deterring potential adversaries and 
reassuring allies.''
    Today the deterrent is indeed safe, secure, and effective. 
But it is also in need. The NPR and administration plans 
recognize needs in infrastructure, human capital, life 
extensions, and delivery platform developments, and they 
include support for improving our nuclear enterprise, 
sustaining today's nuclear triad of delivery platforms, and 
exploring future triad platforms.
    In order to sustain the deterrent and implement the NPR, we 
must commit to long-term investments that begin with several 
increases outlined in the President's fiscal year 2011 budget. 
They include: increased funding for NNSA for full-rate 
production of the W76-1 warhead for our submarine leg of the 
triad; full-scope nuclear and nonnuclear life extension of the 
B61 bomb to sustain its strategic deterrence and extended 
deterrence roles; and initiating studies to develop life 
extension options for the W78 ICBM warhead. These investments 
are not only important, they are essential independent from the 
ratification of this arms control treaty.
    I appreciate this committee's support for NNSA's investment 
in the National Defense Authorization Act for Fiscal Year 2011. 
This funding is very important and I'm grateful for this year's 
support.
    Thank you again for the opportunity to be here with you 
today and I look forward to your questions.
    [The prepared statement of General Chilton follows:]
           Prepared Statement by Gen. Kevin P. Chilton, USAF
                              introduction
    Chairman Levin, Senator McCain, and members of the committee, thank 
you for the opportunity to meet with you today. U.S. Strategic Command 
was closely consulted before and during negotiations on the New 
Strategic Arms Reduction Treaty (START), and I look forward to 
discussing the treaty with you today. I would like to note at the 
outset how proud I am of the extraordinary work the Command performed 
in support of these negotiations. We have an amazing team, and their 
diligence, expertise, and tireless work continue to ensure our ability 
to deliver global security for America.
                               new start
    New START will enhance the security of the United States of 
America, and I support its ratification. Our nation will be safer and 
more secure with this treaty than without it. Let me briefly explain 
why, from the perspective of the combatant commander responsible for 
planning and executing strategic deterrence and nuclear operations.
    First, New START limits the number of Russian ballistic missile 
warheads that can target the United States, missiles that pose the most 
prompt threat to our forces and our Nation. Regardless of whether 
Russia would have kept its missile force levels within those limits 
without a New START treaty, upon ratification they would now be 
required to do so. The New START bomber counting rules are unlikely to 
result in a reduction in Russian nuclear bomber forces, but these 
platforms have much less potential to be destabilizing, and we will 
retain the option to sustain equivalent capabilities.
    Second, New START retains sufficient flexibility in managing our 
deterrent forces to hedge against technical or geopolitical surprise. 
To support the New START negotiation effort, U.S. Strategic Command 
analyzed the required nuclear weapons and delivery vehicle force 
structure and posture to meet current guidance. The options we provided 
in this process focused on ensuring America's ability to continue to 
deter potential adversaries, assure our allies, and sustain strategic 
stability for as long as nuclear weapons exist. This rigorous approach, 
rooted in deterrence strategy and assessment of potential adversary 
capabilities, supports both the agreed-upon limits in New START and 
recommendations in the Nuclear Posture Review (NPR). We will retain a 
triad of strategic nuclear delivery systems, and if we have a technical 
failure in one of our nuclear systems, we can rearrange our deployed 
force posture and structure within the treaty limits to compensate.
    Third, New START will reestablish a strategic nuclear arms control 
verification regime that provides intrusive access to Russian nuclear 
forces and a measure of predictability in Russian force deployments 
over the life of the treaty. Such access and predictability contribute 
to our ability to plan confidently our own force modernization efforts 
and our hedging strategy. Without New START, we would rapidly lose some 
of our insight into Russian strategic nuclear force developments and 
activities, and our force modernization planning and hedging strategy 
would be more complex and more costly. Without such a regime, we would 
unfortunately be left to use worst-case analyses regarding our own 
force requirements. Further, we would be required increasingly to focus 
low density/high demand intelligence collection and analysis assets on 
Russian nuclear forces.
                        deterrence capabilities
    The nuclear enterprise remains, today and for the foreseeable 
future, the foundation of U.S. deterrence strategy and defense posture. 
The NPR recognizes this and makes a series of recommendations that I 
strongly urge Congress to fully support. Specifically, the NPR 
recommends moving forward with a number of nuclear enterprise 
sustainment projects, including strengthening our nuclear command and 
control structure; continuing development and deployment of our triad 
of delivery systems; maintaining a safe, secure, and effective 
stockpile; and revitalizing the National Nuclear Security 
Administration's aging infrastructure. America's triad of diverse and 
complementary delivery systems provides unique synergies that make our 
deterrent highly credible and resilient in the face of a variety of 
potential technological and geopolitical developments. The NPR endorses 
DOD efforts to explore future triad systems, specifically to extend the 
Minuteman III ICBM through 2030 and conduct studies now to inform 
decisions on a follow-on ICBM; to replace the Ohio-class SSBN at end of 
life for existing ships; and to study future long-range bomber 
capabilities. It also supports moving forward with full-rate 
refurbishment of the W76 warhead for our submarine leg of the triad; 
study of full-scope life extension of the B61 bomb (including enhancing 
safety, security, and use control) to sustain its strategic deterrence 
and extended deterrence roles; and initiating studies to develop life 
extension options for the W78 ICBM warhead, including the possibility 
of also adapting the resulting warhead for sea launched ballistic 
missiles and thereby reducing the number of warhead types.
    Additionally, the NPR and the President's Budget recognize the need 
to improve, sustain, and ensure all necessary elements of a safe, 
secure, and effective deterrence enterprise, including weapons, 
delivery systems, warning and communications capabilities, and their 
supporting human capital and technological infrastructures, and to make 
sustained investments to adequately preserve these capabilities for the 
foreseeable future. These investments are required in order to 
confidently reduce the overall U.S. stockpile while sustaining the 
credibility of our nuclear stockpile, which is fundamental to effective 
deterrence. Investments that revitalize NNSA's aging infrastructure and 
intellectual capital strengthen our security with the facilities and 
people needed to address technological surprises, geopolitical change, 
and a range of cutting-edge national security challenges. In order to 
sustain the deterrent and implement the NPR, we must commit to long-
term investments that begin with several increases outlined in the 
President's fiscal year 2011 budget, most notably a 13 percent increase 
in NNSA funding. These investments are not only important--they are 
essential.
                                closing
    Every day, U.S. Strategic Command remains focused on providing the 
President and future presidents with the options and flexibility needed 
for deterrence. Today, our deterrent is safe, secure, and effective; 
our forces are trained and ready; and the Command is faithfully and 
fully carrying out its mission each and every day. I am confident that 
the combination of New START ratification, implementation of the NPR's 
recommendations, and funding of associated investments will enable the 
men and women of U.S. Strategic Command to continue delivering global 
security for America today and in the future. Thank you again for the 
opportunity to testify before this committee.

    Chairman Levin. Thank you so much, General Chilton.
    Let's try a 7-minute first round.
    I think you've all made reference to the flexibility of the 
lab directors to look at all options in terms of whether it's 
either refurbishment or whether it's reuse or whether it is 
replacement of a warhead. My understanding is that if there's a 
recommendation for replacement which the NWC makes, that that 
would require authorization by Congress by law. Is that 
correct, do you know, Dr. Miller?
    Dr. Miller. Senator, Mr. Chairman, that is correct. 
Approval by Congress would be required, including for the 
funding of that effort.
    Chairman Levin. So that the policy of the administration is 
that there not be a replacement without specific approval of 
the President, but there's also a requirement in law that 
Congress authorize a replacement; is that correct?
    Dr. Miller. Yes, sir.
    Chairman Levin. I think you've all testified that those 
requirements in no way limit the lab directors in terms of the 
options that they can look at and any recommendations that they 
make. As a matter of fact, they're specifically told they're to 
look at all options for the life extension; is that correct?
    Dr. Miller. That is correct.
    Chairman Levin. Mr. D'Agostino, is that your understanding?
    Mr. D'Agostino. Absolutely, sir. That's correct.
    Chairman Levin. Now, on the silo conversion issue, I 
believe that, Dr. Miller, you've indicated that neither side 
can convert an ICBM or SLBM launcher for use as a missile 
defense interceptor. I think, Dr. Miller, you indicated that it 
would not be cost effective or operationally effective to do 
so, that it would cost less to actually build new interceptors 
rather than to convert those interceptors. Did I understand 
your testimony correctly?
    Dr. Miller. Mr. Chairman, we have deployed five GBIs in 
former ICBM silos at Vandenberg Air Force Base. So we have good 
experience with what the costs are, including the additional 
costs of modifying the structure and security associated with 
those silos. We now have extensive experience also in building 
new silos for GBIs at Fort Greeley. So we have a good 
understanding of what the costs would be for additional silos 
for GBIs and, as I said, confidence that it would be about $550 
million for 10.
    Chairman Levin. For the silos?
    Dr. Miller. To convert additional silos.
    Chairman Levin. Okay.
    Dr. Miller. About $360 million for 10 new silos. In 
addition, the operating costs for converted old ICBM silos 
would be higher.
    Chairman Levin. In addition to the cost issue, that it 
would make no sense from a cost perspective, is it also true 
that if you have that kind of conversion that there's greater 
chance for potential misunderstanding, miscalculation? In other 
words, if you use silos of one type for another purpose, does 
that not create a potential for miscalculation?
    Dr. Miller. Mr. Chairman, with the five former ICBM silos 
with GBIs at Vandenberg Air Force Base, we don't see that as a 
problem. By the way, those were grandfathered into the treaty, 
so those will continue to be allowed. Because those 
interceptors are at a different location from the three main 
ICBM fields that we have in the United States, there would be, 
obviously, a concern about locating BMD interceptors at 
locations very nearby our ICBM fields, and the concern would be 
that there might be confusion between the launch of an 
interceptor and the launch of an ICBM. Not confusion on our 
part, but possible confusion by the Russians.
    Chairman Levin. Now, for all those reasons, it is our 
policy not to make those conversions; is that correct?
    Dr. Miller. That is correct.
    Chairman Levin. So the prohibition in the treaty against 
conversion is a reflection of our policy. That's not just a 
concession; that's our policy?
    Dr. Miller. Mr. Chairman, it's a reflection of our policy 
and of the cost assessments completed that we previously 
discussed.
    Chairman Levin. General Chilton, you've indicated in your 
statement that the New START treaty will reestablish a 
strategic nuclear arms control verification regime that 
provides intrusive access to Russian nuclear forces. We don't 
have any verification at the moment, is that correct?
    General Chilton. That's correct, Senator.
    Chairman Levin. Do the verification provisions in the new 
treaty give you confidence to allow STRATCOM to have confidence 
in planning for U.S. forces and modernization?
    General Chilton. Mr. Chairman, it does. Without that, then 
we would have to just go on intelligence estimates and not have 
the insight that will be provided through the verification and 
inspection process to allow us to assess what we need to be 
doing more accurately with our forces.
    Chairman Levin. In other words, the verification provisions 
give you confidence that Russia cannot achieve a militarily 
significant advantage undetected?
    General Chilton. Yes, that's correct, Mr. Chairman.
    Chairman Levin. Now, you also said in your statement that 
we would, without the verification provisions in the new 
treaty, ``unfortunately, be left to use the worst case analysis 
regarding our own force requirements.'' Let me see if I 
understand that. Are you saying that if under the previous 
verification provision with the number of warheads attributed 
to missiles and bombers, instead of actual numbers of warheads 
as in the new treaty, that we would have to retain a larger 
number of deployed systems and warheads than we would otherwise 
need?
    General Chilton. The uncertainty would be in the counting 
of the warheads, as you suggest, Mr. Chairman. With 
uncertainty, without any verification or insight into what the 
Russians were doing with their force structure and warhead 
deployment that is allowed for with the verification protocols 
of the treaty, then as the commander, without any knowledge, I 
would assume worst case.
    Chairman Levin. Which would be a larger number than you 
might otherwise be needing?
    General Chilton. Correct.
    Chairman Levin. There's a cost to that maintenance of the 
larger number?
    General Chilton. That decision would have to be taken, 
exactly what investments we might make for that uncertainty. 
But having the verification would remove even that concern.
    Chairman Levin. Does a larger number than needed result in 
a larger cost?
    General Chilton. Certainly. If we were to determine we 
needed more warheads deployed and more warheads in the 
inventory, that would be more expensive.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Dr. Miller, last month General Chilton stated that it was 
not only important, but essential, that the President committed 
to ensuring NNSA receive the full $624 million increase as 
proposed in his fiscal year 2011 budget. Last week the House 
Appropriations Energy Subcommittee marked up its spending bill 
and didn't fully fund the President's request for the weapons 
complex. Is that of concern to you?
    Dr. Miller. Senator McCain, the administration continues to 
support its request and will continue to do so as the process 
moves forward. We believe that the $624 million increase that 
you referenced is critical to moving forward with our nuclear 
weapons modernization effort and our work on infrastructure.
    Senator McCain. If it's that essential, if the cut remains 
in the final appropriations bill, would you recommend a veto by 
the President?
    Dr. Miller. Senator McCain, at this point I think you've 
asked me a question that, frankly, is perhaps above my pay 
grade. What I would do is provide our best assessment of the 
implications and specific consequences and do everything 
possible to support continuing to get to the administration's 
request on this funding level.
    Senator McCain. General Chilton, do you agree with the 
unclassified statement in the State Department verification 
assessment that ``any cheating by the Russians would have 
`little, if any effect'? ''
    General Chilton. Senator McCain, I do agree with that.
    Senator McCain. You do agree with it?
    General Chilton. What I'm asked to do is preserve an 
effective deterrent, and I believe we can. With our assured 
response capabilities with our submarine force and with our 
ICBM force, I believe that we're in a good position vis-a-vis 
the Russians in this regard.
    Senator McCain. What this brings to the casual observer's 
mind, General, is if it doesn't have any consequences if they 
do any cheating, what's the point in having a treaty?
    General Chilton. There are consequences----
    Senator McCain. If we don't care whether they cheat or not, 
it has very little effect, why have a treaty?
    General Chilton. Senator, I'm sorry. Let me restate that. I 
do care if they cheat or not.
    Senator McCain. If it has little effect? You just agreed it 
has little, if any, effect.
    General Chilton. Senator, let me correct myself then. On 
our ability to deter the Russians with an assured response.
    Senator McCain. So it would have little, if any, effect, 
and we have a crisis and they own two or three times as many 
nuclear weapons as we have. That doesn't have any effect?
    General Chilton. Senator, I believe if they were to proceed 
in a fashion as you described it, tripled or even doubled their 
amount of weapons, I believe that would be detectable under the 
verification regime, and in that case, they would have walked 
away from the treaty. Hopefully, we would have had dialogue 
with them before that to understand what they were doing and 
why.
    Senator McCain. But minor cheating, they wouldn't have 
walked away from the treaty because that would have little 
effect? There's no logic to your statements and to--if cheating 
has very little, if any, effect, why we are--I always believed 
in all the treaties that I've been involved in in the past 28 
years, General, that cheating does matter, that it does have an 
effect, and to say that it has little, if any, effect, then 
we've been wasting a lot of time and money on negotiations.
    General Chilton. Senator, I agree with you. It does have an 
effect.
    Senator McCain. So then you don't agree with the State 
Department's statement?
    General Chilton. In the narrow area of what my 
responsibilities are, to assure the deterrent, an overwhelming 
ability to respond, which is the baseline of the deterrent, in 
that narrow area I think we're in good position with the 
treaty. I also believe that we would be able to detect through 
the verification protocols any cheating, significant cheating, 
by the Russians.
    Senator McCain. I take it that you've read the NIE?
    General Chilton. I have, Senator.
    Senator McCain. Dr. Miller, what continues to trouble a lot 
of us is not the number of details, and they are very complex 
and understandably so, but what bothers a great deal of us is, 
I have two documents in front of me I think both you have seen. 
One of them is the statement of the Russian Federation 
concerning missile defense. The other one is the statement by 
the United States of America concerning missile defense. 
They're obviously at odds with each other, because the Russians 
say that the treaty may be effective and viable only in 
conditions where there is no qualitative or quantitative 
buildup in the United States' missile defense system 
capabilities.
    Yet our statement was: ``The United States missile defense 
system would be employed to defend the United States against 
limited missile launches and defend its deployed forces. The 
United States intends to continue improving and deploying its 
missile defense system in order to defend itself against 
limited attack.''
    Now, the Russian statement doesn't say that the treaty 
would be effective and viable only in conditions there's no 
qualitative or quantitative buildup in the United States' 
limited capability. There's a fundamental disagreement in both 
signing statements to any objective observer.
    So I still don't know how you reconcile those two 
statements at some point that there isn't--if we continue to, 
as is stated by the United States, improve and deploy our 
missile defense systems in order to defend ourselves.
    Maybe you can help us out here, doctor?
    Dr. Miller. Senator McCain, let me first very briefly just 
add on to General Chilton's response. His response focused 
appropriately on the military aspects of any cheating. Because 
we will have a diverse force structure under New START, with 
highly survivable systems, and because we will retain the 
ability to upload, from a military perspective we will be 
postured well to first deter cheating, but then to minimize its 
significance should it occur.
    That said, any cheating by Russia on this treaty we would 
consider to be significant politically because----
    Senator McCain. I'm glad you would, because the State 
Department doesn't seem to. But go ahead. Let's get back to 
the----
    Dr. Miller. So on the--I'll stop there. I'll say perhaps 
more at another point on that issue.
    Senator McCain. By the way, if you'd like to elaborate on 
that response, I don't mean to cut you off. I'd be glad to have 
additional comments for the record.
    Dr. Miller. Thank you, sir.
    Senator McCain. I hope I didn't short-circuit you there.
    Dr. Miller. Thank you.
    With respect to the Russian perspective on missile defense, 
I believe it's been clear since about March 23, 1983, when 
Ronald Reagan provided his so-called Star Wars speech, that the 
Russians would like to constrain the U.S. activities in missile 
defense.
    Senator McCain. I'm sure you remember that that was the 
Russian demand, which the President of the United States turned 
down at Reykjavik. That's a matter of record, of historical 
record, and a turning point in the Cold War.
    He would not have agreed, in my view, to two conflicting 
statements being the result of an agreement.
    Dr. Miller. Senator McCain, our missile defenses are not 
constrained by this treaty, with the exception of Article 5 
that I talked about before and its prohibition on the 
conversion from ICBM silos or SLBM launchers, or vice versa. 
The ability of the United States to provide effective missile 
defense for the Nation, for our forces overseas, and in 
partnership with our allies is unaffected by this treaty. There 
are no additional costs. There are no additional inhibitions on 
our ability to do that.
    I think it's worth just reading very briefly the second 
part of the Russian statement on missile defense, understanding 
that it is nonbinding and it's not a part of the treaty, but a 
unilateral statement. The statement notes that the 
extraordinary events referred to in the treaty that could 
prompt Russian withdrawal would involve a buildup such that it 
would give rise to a threat to the strategic nuclear force 
potential of the Russian Federation.
    That is their perspective. But as I noted before, when we 
have 30 GBIs, we have a long way to go before we have any 
capability that's close to affecting the strategic stability of 
the balance when they will have over 1,000 warheads under the 
New START.
    President Medvedev was interviewed on April 9 on ABC, and 
it's a long quote, but just the last sentence of it says: ``I 
would not want to create the impression that any change would 
be construed as grounds for suspending a treaty that we have 
only just signed.''
    [The information referred to follows:]

    George Stephanopoulos. And we've seen now a landmark agreement 
between the United States and Russia on nuclear weapons signed in 
Prague. And it was a hard fought agreement, and the issue of missile 
defence still seems to divide the United States and Russia. I just have 
a very simple question: if the United States continues to develop 
missile defence in Europe, will Russia withdraw from the START treaty?
    Dmitry Medvedev. I will try to explain how I view the situation 
today.
    We spent quite some time and effort explaining to our American 
partners the link between strategic offensive weapons and missile 
defence. This issue concerns the configuration of nuclear forces, or, 
more precisely, the differences in configuration of nuclear forces in 
Russia and the USA. It also concerns our plans and those of our 
American partners.
    The complex negotiations that took place resulted in the wording 
that has been included in the treaty's preamble. This wording reflects 
a well-known legal principle. As far as the specifics go, this wording 
states the link between strategic offensive weapons and missile defence 
systems.
    It also states that the obligations forming the basis for the 
treaty's signature are deemed to have been formulated and approved by 
the parties to the treaty. If these obligations change this could be 
seen as jeopardising the treaty as a whole. This does not mean that if 
the USA starts developing missile defence the treaty would 
automatically be invalidated, but it does create an additional argument 
that binds us and that makes it possible for us to raise the question 
of whether quantitative change to missile defence systems would affect 
the fundamental circumstances underlying the treaty. If we see that 
developments do indeed represent a fundamental change in the 
circumstances, we would have to raise this issue with our American 
partners.
    But ``I would not want to create the impression that any change 
would be construed as grounds for suspending a treaty that we have only 
just signed.'' [Emphasis added.] Moreover, we agreed--I discussed this 
with President Obama, and our respective administrations discussed it--
that we should cooperate on building a global missile defence system. 
But if events develop in such a way as to ultimately change the 
fundamental situation Russia would be able to raise this issue with the 
USA. This is the sense of the interpretation and the verbal statement 
made yesterday.
    George Stephanopoulos. So, if Russia feels this system, if it's 
built up, is a threat, then you withdraw. That's the qualitative 
change.
    Dmitry Medvedev. Then we could raise the issue of suspending the 
treaty, but I hope that this will not happen and that we will work on 
these matters, work on enhancing our forces and work on missile defence 
in consultation with each other, and in some areas, it would be good to 
work together.

    Dr. Miller. I have the sense that there could be continued 
statements in this regard. We are unsurprised that the Russians 
have desired to constrain our missile defenses. We continue to 
encourage them to cooperate on missile defenses to deal with 
the common threats that we face, and we will continue both to 
qualitatively and quantitatively improve our missile defenses 
and to seek their cooperation to move forward together to deal 
effectively with this threat.
    Senator McCain. My time has expired. I thank you, Mr. 
Chairman. I'm reminded of a Groucho Marx line: ``You can 
believe him or your own eyes.'' I thank you, Mr. Chairman. I 
thank the witnesses.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. I was looking to 
the ceiling to see whether Groucho's duck was going to come 
down.
    I thank Dr. Miller, Mr. D'Agostino, and General Chilton for 
returning. You have become recidivists before this committee, 
to our benefit, and we appreciate your service and your 
testimony.
    I would guess that I'm in the same position as most, if not 
all, members of the Senate, which is that I hope to be able to 
vote to ratify the New START treaty, but for me, and I think 
for a lot of members of the Senate, there are two lines of 
questions that we need to have answered to give us that level 
of comfort.
    The first has to do with the health, if I can put it that 
way, of our nuclear stockpile. That is, that as we reduce the 
number of deployed nuclear warheads, obviously we want to have 
a satisfactory level of confidence, to put it as simplistically 
as I can, that they work. The second is verification. Senator 
McCain has touched on both of these.
    This series of hearings that Chairman Levin and Senator 
McCain have been conducting have been in a sense a refresher 
course, at least for me, on this whole subject area. One of the 
things that I've come to understand again--and I focus this to 
you, Mr. D'Agostino--is that nuclear weapons age, and as they 
age they become less effective; is that correct?
    Mr. D'Agostino. As they age, aging effects can make them 
less effective. Really it depends on the specifics of the 
material itself, and that's why we go through a very in-depth 
annual process of taking apart nuclear weapons, looking inside, 
noting any anomalies, and taking it from there. It's part of 
our stockpile stewardship program.
    Senator Lieberman. Right. Am I right, as someone said 
before the committee, that today the average age of our 
American NWS is greater than it's been, ever been before? Does 
that sound right?
    Mr. D'Agostino. That's correct, Senator.
    Senator Lieberman. So this is why we're focused on making 
sure that--and the fact is, and this is not a partisan fact--
both parties are part of this--that we have put the nuclear 
weapons program of the United States, NNSA which you direct, 
under budgetary pressure over the last years. It's why so many 
of us as part of our consideration of the New START treaty are 
focused on making sure that we increase our investment in our 
nuclear stockpile to make sure that it works.
    Senator McCain talked about the cut that the House Energy 
and Water Subcommittee made. This is significant to me and a 
lot of others, and I hope in the process that Congress will at 
least fund to the level that the administration has requested 
for fiscal year 2011. Obviously, it's very hard to bind a 
future Congress, but we certainly can bind the administration 
and ourselves for this coming year.
    I do have a question to ask, just to try to stretch our 
capacity to bind here a bit. The fiscal year 2012 number in the 
future years nuclear security program is $7 billion, which is 
essentially a no-growth figure. It's exactly what the 
administration has requested for fiscal year 2011. Considering 
inflation, that means that there will be in fact a drop in 
fiscal year 2012 in funding for the nuclear program.
    Why is that, Mr. D'Agostino? Why should we accept that as 
an adequate figure?
    Mr. D'Agostino. I'll talk to the specifics of the question, 
but I'd like to add a little bit with respect to the overall 
budget picture. In essence, we have a very significant increase 
from fiscal year 2010 to fiscal year 2011. That reflects the 
ability to execute the program and shows a commitment on the 
part of ourselves and the United States that this is important 
to maintain.
    The fiscal year 2012 numbers, 2013, 2014, 2015, and 2016, 
and particularly fiscal years 2013, 2014, 2015, and 2016, 
increase dramatically.
    Senator Lieberman. Right.
    Mr. D'Agostino. What we say in our 1251 report and in our 
3113 report, which is the 20-year look ahead, is that there is 
an expectation for some numbers to change as we get the project 
baselines well understood for the large budget drivers in that 
particular program, specifically the B61 life extension, as 
General Chilton referenced earlier, specifically the uranium 
processing facility and the chemistry and metallurgy 
replacement facility.
    The report clearly states that as baselines are 
established--and what we're going to spend is a lot of time in 
the first 2 years getting those baselines down and then locking 
in those numbers into the out years--we do believe--the 
important thing for us and for me particularly as the program 
manager and someone who's been involved with this program for 
over a decade and a half, is the demonstrated ability to 
execute those funds well and in the areas they need to go. It 
was my assessment that this approach, the layout that we have 
in our 5-year plan, is the right approach that we have put 
together. It's not just mine. The Secretary was involved.
    Senator Lieberman. I hear you, and I'd say that there are a 
group of us in both parties who probably would like to continue 
this discussion with you in the hope that--fiscal year 2012 is 
the next year, obviously. We can't quite control it 
legislatively, but we can reach toward it, and to see if we can 
bring some of that money that you have in your future plan 
forward to fiscal year 2012. But we'll talk more about that.
    I want to get to one question on verification. The New 
START treaty does cut back in some significant ways, I think, 
from the verification mechanisms in START I. The one that 
concerns me most is with regard to telemetry. Parties are 
obligated under START I to exchange telemetry tapes, 
interpretive data, and acceleration profiles for every missile 
test flight, with the emphasis on ``every.'' Under the New 
START treaty, the international exchange required--is required 
on at most five tests per year, and each country can determine 
which five they'll agree to exchange telemetry.
    Russia is expected to test between 10 and 12 ICBMs per year 
and will likely therefore, we assume, because of its general 
concern about transparency in its strategic program, share with 
us data only on its older systems. So I think we make the--I 
understand the difference. We make it harder for our 
Intelligence Community to gauge exactly what the Russians are 
developing. I understand that may be different from exact 
verification here, but my bottom line here is that we're losing 
a capacity in the proposed New START treaty, verification 
capacity, that we had in START I, and I wanted to ask Dr. 
Miller or General Chilton both why we agreed to this and 
whether you're concerned about it.
    Dr. Miller. Senator Lieberman, the START treaty had a 
couple of provisions for which telemetry was important for 
verifying. The first was that it limited throw weight, and so 
when a missile was tested and its warhead was tested the 
telemetry, the information coming out from that test, was 
important to understand the throw weight of that missile, how 
much it could carry.
    Senator Lieberman. So they actually gave us tapes, if you 
will, from inside the missile?
    Dr. Miller. There were provisions for exchange of tapes and 
for open broadcast as well, and typically both of those would 
occur, and for non-encryption of those tapes and broadcasts.
    The second provision in the previous START, for which 
telemetry was relevant, was that it had an attribution rule for 
warheads for each missile. So the SS-18 was counted as 10 
warheads under START. If we then saw the Russians testing with 
11 warheads, that would be a violation of the treaty, and the 
telemetry broadcasts and tapes associated with those tests were 
therefore directly relevant to the verification of START.
    The New START treaty doesn't have limitations on throw 
weight and uses a different rule for accounting for warheads. 
It actually counts the warheads on each missile and delivery 
system--I'm sorry, on each missile, ICBM and SLBM--so that we 
don't have that attribution rule. Therefore telemetry does not 
play a role in verifying the provisions of the New START treaty 
as it did in the previous START.
    Now, we were able to negotiate an exchange of telemetry, as 
you noted, for up to five exchanges per year, irrespective of 
the fact that it was not needed for verification of the treaty.
    Senator Lieberman. My time is up. General Chilton, I'd like 
to hear from you as this goes on. I'm concerned about this. I 
understand what you're saying about verification requirements, 
but it seems like an odd compromise to make. If the telemetry 
is not required for verification of the Russians' compliance 
with the treaty, then why even have five?
    But to me it was quite valuable to us--and this gets into 
your area, General Chilton--in terms of assessing the capacity 
of the Russian missiles, which is important for our national 
security. So I'm puzzled why we didn't either fight for the 
same unlimited access to telemetry that was in START I or, if 
it didn't matter, then why even have five, because they'll give 
us data on their oldest missiles and it won't help us very 
much.
    Dr. Miller. Could I answer very briefly?
    Senator Lieberman. Yes.
    Dr. Miller. Senator, we think telemetry is a useful 
provision for improving transparency and for helping us 
understand each other's systems, and that we would intend to 
work to build on the provisions in the New START treaty to try 
to get the most useful exchanges possible.
    Senator Lieberman. My time's up. Thank you.
    Chairman Levin. Senator LeMieux. Thank you, Senator 
Lieberman.
    Senator LeMieux. Thank you, Mr. Chairman.
    Thank you, Dr. Miller, Mr. D'Agostino, and General Chilton, 
for your service and for being here today. I want to speak with 
you first about tactical nuclear weapons and why they're not 
addressed in the treaty, as I understand it. In May, Henry 
Kissinger testified in front of the Senate Foreign Relations 
Committee that the large Russian stockpile of tactical nuclear 
weapons, unmatched by a comparable American deployment, could 
threaten the ability to undertake extended deterrence. 
According to the Congressional Strategic Posture Commission 
(CSPC), Russia has 3,800 tactical nuclear weapons, with a 10 to 
1 advantage over us, and some are concerned that if you factor 
in those tactical weapons, this New START treaty will put us in 
a position where they have more total nuclear weapons.
    So the question I have to start off with is, why were 
tacticals not contemplated and addressed in the treaty?
    Dr. Miller. Senator, when this administration came in there 
was a recognition that START was going to expire on December 5 
of last year and that therefore we would be without any 
verification provisions or limitations at that time. Consistent 
with the recommendations of the CSPC, the Perry-Schlesinger 
Commission, the administration therefore made a decision to 
work with Russia to try to achieve a New START treaty as soon 
as reasonably possible. Didn't make it, obviously, by December 
5, but came in several months later, so that we would have 
those verification provisions and data exchanges and other 
elements of the treaty in place, again consistent with the 
recommendations of the CSPC.
    We also noted in the NPR that this was intended to be the 
next step, not the last step, and that we have suggested 
follow-on negotiations after ratification and entry into force, 
if that is provided by the Senate and the Duma, that would look 
at both tactical and strategic and both deployed and 
nondeployed nuclear weapons.
    We continue to intend to pursue that path today.
    Senator LeMieux. General Chilton, do you want to address 
this?
    General Chilton. Sir, there's not much I can add with 
regard to why we went, negotiated, and sat down and talked 
about this. It was a strategic arms reduction treaty, so it was 
focused on strategic weapons. I think maybe the only thing I 
would add is that the imbalance in the tactical area puts an 
exclamation point on why we have to continue to pay attention 
to the assurance aspect of our force structure, because our 
allies look at the tactical nuclear weapons through a different 
set of lenses than we would with regard to how they may 
threaten their nations.
    Senator LeMieux. It occurs to me that the tactical in a lot 
of ways is more disconcerting than the strategic, just because 
it's harder to monitor where they are, they're portable, and 
they can be employed in ways that would be very disconcerting 
to our allies, as well as to us. Strategic, we think about the 
ICBM, and that's obviously something we have to keep track of. 
But in a world where we're concerned about nuclear 
proliferation, about rogue terrorist countries getting nuclear 
weapons, the fact that they're moveable seems to be something--
I know the President has articulated that he's concerned about 
that.
    Do you anticipate that we're going to be entering into 
another round of treaty negotiations soon? Is there anything 
planned to discuss tactical?
    Dr. Miller. Senator, first, we have encouraged and continue 
to encourage Russia to move its tactical nuclear weapons back 
into the interior of the country and to further improve the 
security of the storage of those weapons. They've made 
significant progress since the end of the Cold War, but we 
believe there's important progress yet to be made.
    The President has asked us to consider what the next round 
of negotiations should address and, as I said, has given 
direction that it should include tactical as well as strategic 
and deployed and nondeployed.
    In terms of aggregate numbers, just to give only the 
unclassified, obviously, in this setting, we have 5,113 nuclear 
weapons in the stockpile--that was declassified just a couple 
of months ago--and in addition to that have several thousand 
nuclear weapons awaiting dismantlement. I can't, in this open 
setting, speak to the number of Russian weapons.
    But when people think about the U.S. nuclear arsenal, I 
think it's important to understand that there's more than the 
1,550 that are referenced in the limits of the New START 
treaty.
    Senator LeMieux. Do we believe that in entering into this 
agreement that Russia is already at the levels that the treaty 
requires, or are they going to have to make reductions?
    Dr. Miller. I'd defer the details to a classified setting. 
Our estimate is that, in terms of warheads and delivery 
systems, they are moving or have moved into the range of the 
treaty.
    Senator LeMieux. I'm a newcomer to this process, but in 
trying to evaluate whether I would support this it's a big 
concern to me that we're not dealing with tacticals. It's a big 
concern to me that they probably are already at the levels that 
we were asking for, so we're not gaining a concession. It 
really comes down to verification, and that's obviously 
important, and being able to have an open process with them to 
know what they're doing with their weapons.
    But then we get to the point that was very articulately 
made by Senator Lieberman, is that the verification component 
seems to be weaker than in the previous START treaty. So you 
wonder what we're gaining in this agreement. Then there's the 
issues that Senator McCain raised about the missile defense 
system.
    Let me pose this question to you. Are you aware that the 
Russians are developing new weapon delivery systems to overcome 
any missile defense system that we would employ?
    Dr. Miller. Senator, I would prefer to answer that question 
in a classified setting.
    Senator LeMieux. In terms of our triad, the comment was 
made earlier by Mr. D'Agostino that we are working on a follow-
on to the submarine system and a new class of submarines. What 
about the rest of the triad, the ICBMs, the B-52s, the nuclear-
launched cruise missiles? Are there plans in place to update 
our triad? I understand that there are expiration dates on the 
longevity of those aspects of the triad. They're not right on 
our doorstep, but they're coming quick. Do we have plans in 
place for the next phase of those weapons systems?
    General Chilton. Senator, I'll take that one. The work is 
underway on the studies required for the Ohio-class Trident 
submarine replacement. With regard to the Minuteman III, 
Congress has directed that we sustain that until 2030, and I 
believe adequate investments are in place for the issues that 
we're aware of today, and as they continue their studies, the 
Air Force will be able to do that and, in fact, will extend the 
Minuteman III.
    Along those lines, though, in a couple of years we'll be 
lead time away from thinking about what would be the follow-on 
to the land-based deterrent. So they'll begin an analyses of 
alternatives (AOA) here and begin the initial studies for 
follow-on to the land-based deterrent appropriately here in the 
near-term.
    Then of course, as you are aware, the long-range strike 
question as to what would be the follow-on to the bomber is 
being discussed in the Department right now and is an issue 
that the Air Force is taking on in this cycle.
    Lastly, with regard to the air-launched cruise missile, we 
believe with modest investments in both the platform and the 
weapon that can be easily extended until 2030, which I think is 
appropriate to do, and then allow us to begin studies in about 
the 2015 time period to see what would be the follow-on 
replacement to that.
    So all of these are in play now and they're absolutely 
important.
    Senator LeMieux. Thank you, General.
    My time is up. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen. Mr. D'Agostino, the inspection 
schedule and the verification are essential to the treaty, as 
it was with START I. But I think it's important to note that, 
as I understand it, in START I there were 70 sites in 4 
different countries that had to be monitored, versus 35 sites 
and just Russia. So from the degree of the simplicity of 
streamlining, the challenge is not as--I'll let you 
characterize it. How does that change, the inspection schedule?
    Dr. Miller. Senator Reed, you're exactly correct. Under 
START I there were 70 sites in 4 different countries, including 
Ukraine, Belarus, and Kazakhstan, in addition to Russia. The 
Russians have declared 35 sites under the New START treaty. We 
have 18 inspections, 18 onsite inspections, allowed under the 
New START per year. There were 28 allowed under START I, so 
proportionately, in fact, we're doing somewhat better.
    In addition, some of the so-called Type One inspections 
that we have under the New START treaty, of which there are 10 
of the 18 Type Ones, those have an additional element that you 
can debate how to score it, but it provides something more than 
just a 1.0 in terms of when you conduct that inspection being 
able to do an additional look for nondeployed items as well.
    Senator Reed. So in effect, at first blush when you see 28 
and then you see 10 plus 18, there might be the impression that 
we're missing something. But you do have to factor in the fact 
that we're looking at half the sites we did in START I.
    Dr. Miller. That's correct, sir.
    Senator Reed. One of the issues, General Chilton, here is 
that if we fail to ratify the New START treaty, what will it do 
to the whole issue of predictability, stability, transparency, 
things that at least we have with START I, which is not legally 
in effect, but out there as a format? Can you comment on that?
    General Chilton. Senator, today we have no verification or 
inspection rights with Russia because START I has expired. So 
what we're balancing is zero inspections in the future or the 
promises of the treaty before you for consideration.
    But I would also add, it's just not the insights you would 
no longer have, but the constraints of the treaty actually do 
constrain Russia with regard to deployed launchers and deployed 
strategic weapons, and that's an important element as well. 
Without that, they are unconstrained.
    Senator Reed. So your judgment from your perspective is 
that relationship of the treaty would enhance stability and 
transparency into their operations?
    General Chilton. The term ``stability'' I always hesitate 
on because I think of strategic stability with regard to the 
force structure. But I think it would certainly do both of what 
you describe, Senator, and that is why I support ratification.
    Senator Reed. Thank you, General.
    My colleague, Senator LeMieux, brought up the issue of 
tactical weapons. I thought it was interesting, the comments 
that Senator Lugar made in an op-ed he wrote that--and I'll 
quote them and see if you would associate yourself: ``In fact, 
most of Russia's tactical nuclear weapons either have very 
short ranges, are used for homeland defense, are devoted to the 
Chinese border, or are in storage. An agreement with Russia 
that reduced, accounted for, and improved security around 
tactical nuclear arsenals is in the interest of both nations, 
but these weapons do not compromise our strategic deterrent.''
    Is that accurate, General Chilton?
    General Chilton. Senator, clearly the most proximate threat 
to us are the ICBM and SLBM weapons because they can and are 
able to target U.S. Homeland and deliver a devastating effect 
on this country. So we appropriately focused in those areas in 
this particular treaty for strategic reasons.
    Tactical nuclear weapons, the comments that you just read 
are valid with regard to their ranges, et cetera. But in 
reality, weapons can be put on platforms and moved at 
intercontinental ranges, but they don't provide the proximate 
threat that the ICBMs and SLBMs do. From a broader perspective, 
as we look toward reduction of total weapons you do have to 
take in follow-on negotiations. I strongly support that we look 
at the entire inventory of Russia in future discussions with 
them, because there are nuclear weapons and they do affect our 
allies in the region and that's important to us.
    Senator Reed. My sense--and I'll ask you for your sense, 
General--is that if this treaty is not ratified, the prospects 
of serious follow-on discussions about nuclear reductions are 
probably close to zero. Is that your sense?
    General Chilton. Senator, I couldn't speculate on that. I 
don't have an assessment on that.
    Senator Reed. Dr. Miller, can you speculate on that?
    Dr. Miller. Thank you for that opportunity, Senator Reed. I 
agree with your assessment.
    Senator Reed. Finally, Mr. D'Agostino. We here are looking 
very carefully at our nuclear enterprise, the laboratories and 
everything else. We all understand that there are budget 
issues, modernization issues, attracting the scientific talent 
that we need in a much different environment than 30 or 40 
years ago. But I think we sometimes have a tendency to think 
that the other folks, the Russians, have this superb, highly 
polished and running at max efficiency institutional endeavor.
    Can you comment on, particularly since we both, mercifully, 
abstained from testing for decades now, what their 
establishment looks like?
    Mr. D'Agostino. Yes, I'll do so, and of course keep it 
unclassified.
    Senator Reed. Yes, sir.
    Mr. D'Agostino. The Russian approach is a bit different 
than ours. The Russian approach is focused more on the 
production side, just keep building and keep taking things 
apart. So there's a fair amount of exercising of the 
infrastructure. Our approach has been to focus on deep 
understanding of what's happening inside the warheads 
themselves, using experiments, simulation, and tieing all these 
things together.
    They're just two different approaches. That's not to say 
the Russians are not doing the science base. They are. That's 
not to say we aren't doing some production work. We are. 
They're just two different approaches to address the item.
    With respect to the United States, though, I think what 
I've observed in this program over many years is that the thing 
that is so important to running a program like this, of this 
size and complexity, is some uncertainty about what the future 
is, what the country really wants. What's been great about what 
we've seen particularly over the last 2 years or so is a 
gathering of ideas and a certain consensus that's developing, a 
bipartisan consensus, if you will, that says it's important to 
have certainty in this program and it's important that the 
workforce understand that the Nation really cares about this 
program, because these are smart people that can get jobs 
elsewhere.
    So from my standpoint, and it'll maybe go to answer one of 
the questions you asked General Chilton, the relationship of 
START is another piece of that certainty and predictability. 
It's the view that the workforce sees that there's a general 
consensus on the need to maintain the stockpile, the need to 
support science, and the need to modernize the infrastructure. 
The relationship of this treaty is another nail into that, 
locking in the national consensus on this approach. It provides 
the stability for the workforce, they know the country cares 
about it. It allows the program managers to adequately plan so 
that we'll know what size stockpile we're taking care of. It 
allows us to drive some efficiencies in our program, and that's 
what we've shown in our 1251 report and our 3113 report, sir.
    Senator Reed. Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Dr. Miller, Senator LeMieux and others have commented about 
the tactical nuclear weapons. In START I they were punted to 
the next treaty. In START II, which wasn't ratified, they were 
punted once again. Moscow, the same thing. Now we're in this 
potential treaty signing and it seems that it will be punted 
again.
    Now, I'm having difficulty, and I am, like Senator LeMieux, 
one of the new guys, but I've been in the military for 30 
years. I do understand tactics and a lot of that good training 
I received from the people of the United States. I'm trying to 
get my hands around the trust issue and the strategic versus 
tactical, ICBMs, just seeing how it affects us. Yes, I agree 
the long-range weapons obviously affect us, but we have troops 
throughout the world that can be dramatically affected by our 
failure to address the strategic--the tactical nuclear weapons 
as well.
    I'm just wondering whether we're missing an opportunity, if 
we're just trying to get a victory here, political victory, 
versus actually getting a solid treaty that we can rely on. Any 
thoughts on that?
    Dr. Miller. Senator Brown, the tactical nuclear weapons are 
a concern of this administration. We have, as I think Senator 
Reed noted, emphasized the importance of their security, and 
the President has made it clear that we should look to future 
arms control negotiations where we aim to reduce those along 
with all other types of nuclear weapons.
    The reason for focusing first on strategic nuclear weapons 
was not because of the lack of importance of tactical nuclear 
weapons, but because the START was expiring and with it the 
verification provisions and limits under the treaty that we 
believe are essential to reducing uncertainty associated with 
Russian strategic forces, also provide a basis for follow-on 
negotiations. I think it will be extraordinarily difficult to 
take that next step if we don't first have START ratified and 
enter into force.
    This administration will continue to work on the security 
issues and continue to encourage Russia to move the weapons 
back and to improve their security. But at the same time, those 
follow-on negotiations will be much more likely to proceed if 
we have a basis in a New START treaty.
    Senator Brown. Mr. Chairman, we've had other hearings and 
we've actually had private opportunities to speak to up the 
food chain a little bit. So a lot of my questions have been 
asked and a lot of them are sensitive in nature. But I keep 
going back to why don't we try to go and renegotiate or 
incorporate a lot of these issues.
    That issue for me is one of the more important issues. I 
understand we need to do this before we do that, but it's been 
START I, START II, Moscow. At what point do we stop beating 
around the bush and actually get serious and say, if we don't 
have this we're going to do that. Because there's just 
something gnawing at me that I have to get my hands around. 
I've been trying to do the appropriate research and speak to 
the appropriate people.
    The trust element for me is something that I don't really 
see here, evidenced by your conversation with Senator McCain. 
What if they don't do it? What are the ramifications? What is 
the enforcement? What do we do? Do we say, ``oh, you're bad!''? 
Where are the teeth?
    Am I missing something?
    Dr. Miller. Senator Brown, if your question is about what 
if the Russians agree, that they ratify New START and that we 
ratify, and then they either cheat or break out, at a small 
level, where we're having the debate over whether an activity 
such as the type of reentry vehicle covers that are used in 
inspections is appropriate or not, we first would take it to 
the Bilateral Consultative Commission (BCC) and have that 
conversation, if necessary, then elevate it to more senior 
political levels.
    If you're talking about significant changes in their 
posture that we judge to be cheating or breakout, we would have 
a range of options, starting with the political, but including 
steps to increase the alert levels of our strategic forces, if 
appropriate, and to increase the capabilities by uploading 
additional warheads on our missiles and bombers.
    So we would have that response, and we believe that that 
capacity to respond in that way will contribute to giving them 
disincentives or, put differently, deterring Russia from 
cheating should any future leader have that inclination.
    Senator Brown. That's helpful.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Brown.
    Senator Hagan's next.
    Senator Hagan. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today and discussing 
this very important issue with us.
    Senator Lieberman asked a question concerning the aging of 
the stockpiles of nuclear weapons. My question is one step 
further and talking about the recruitment and the retention of 
the nuclear scientists and engineers that will be overseeing 
that. Last month during our committee's hearing, Secretary of 
Energy Steven Chu indicated that he was concerned about the 
ability to recruit and retain the best and the brightest 
nuclear scientists and engineers for the stockpile stewardship 
and life extension program.
    He emphasized that a primary obstacle is the perceived lack 
of financial stability and importance in this program. He 
underscored that nuclear scientists and engineers need to 
believe that the U.S. Government cares about the nuclear life 
extension.
    Compounding our recruitment problems is the fact that a 
significant portion of our nuclear scientists and engineers in 
our national laboratories will be eligible for retirement in 
the next 5 years, and without an infusion of younger talent 
before those retirement dates we are at risk to lose the 
invaluable institutional knowledge with regards to addressing 
the challenges in maintaining our nuclear stockpile. This is a 
concern to me because stewardship is becoming technically more 
challenging as our weapons continue to age beyond their 
intended lifetimes.
    Two questions, primarily to you, Mr. D'Agostino, are: Do 
the national laboratories have a recruiting strategy and set of 
agreed-upon goals and objectives to recruit new talent? What 
kind of university partnerships do the national laboratories 
have in order to bring in a stream of new talent? Additionally, 
how do the national labs envision sustaining this recruitment 
of personnel with specialized technical skill sets and, more 
importantly, institutionalizing the mentoring with the older 
employees to retain the decades-long institutional memory?
    Mr. D'Agostino. Thank you very much, Senator, for the 
questions. Secretary Chu is exactly right. When he came into 
this position over a year ago, I had an opportunity to describe 
the program to him as I carried forward from my previous role 
in the previous administration. He took a look just at the 
budget and then he ended up talking to the lab directors 
personally. When you look at the science budget, he saw over a 
period of time, a dramatic decrease in that, and that clearly 
was affecting the morale at the laboratories themselves.
    Just as important as the morale, though, was this lack of 
consensus that we as a Nation had an understanding of where we 
were going with these nuclear programs. What we have right now 
is that understanding. Now, that understanding has actually 
motivated the workforce recently. They understand that it's 
important, that the Nation cares about wanting to maintain the 
stockpile.
    So the laboratories as a result of that--in fact, 
previously we did have a recruiting strategy. We've updated 
that strategy because of this infusion and the request for 
additional resources. This strategy is based on a very 
systematic assessment of the critical skills that are needed to 
maintain the stockpile and do all of the other nuclear security 
work that we have.
    Particularly in radio-analytic chemistry, that's a skill 
that we need to maintain to do nuclear forensics work. It's the 
skills associated with being able to design radiation detection 
devices, and not only that, but the skills associated with 
running large experiments, not underground tests but large 
experiments, and using the computers to pull these things 
together.
    We have joint programs with a set of universities, a wide 
set of universities around the country. We have a program 
called the Academic Strategic Alliances program, which has 
strategically aligned our laboratories and universities. This 
provides the laboratories a foot in the door to that 
recruiting, that talent pool that's out there.
    Finally, as our senior scientists retire, we take those in 
many cases and sign them for a mentoring role, to come back and 
to follow through, because they have clearances typically, and 
obviously they're experienced, and they typically are wanting 
to engage in work the country cares about. So we have a 
mentoring role.
    The last critical piece to all of this is what I would call 
real work. It's important for our scientists and engineers and 
production technicians at the nuclear security enterprise to do 
real work, work on the stockpile itself. The three main pieces 
that General Chilton referred to, which are working on 
finishing the W76 life extension; working on the B61 life 
extension, to include the nuclear and the non-nuclear 
components; and starting to think about concepts for the W78 
warhead, which we know is aging, all that is real work. They're 
frankly quite energized about that. That last piece is very 
important, and that's what we've laid out in our 10-year plan 
and in our 1251 report.
    Senator Hagan. Thank you.
    During this committee's June 17th hearing on the New START 
treaty, Secretary Clinton indicated that it appears as though 
the Russians have postponed the sale of the S-300 long-range 
surface-to-air missile system to Iran. During the hearing 
Secretary Clinton and Secretary Gates indicated that Russia did 
not deliver the system because of improved U.S.-Russian 
relationship building.
    Some experts indicate that not ratifying the New START 
treaty would send a negative signal to Russia that may cause 
them to not support U.S. objectives with respect to dealing 
with the Iranian nuclear program or implementing the new round 
of U.N. sanctions against Iran.
    Dr. Miller, what strategic impacts will ratifying the 
treaty have on U.S.-Russian talks with respect to Iran's 
ambiguous nuclear program, and how would not ratifying the 
treaty affect our cooperation with Russia in dealing with the 
Iranian nuclear program or implementing the new round of U.N. 
sanctions?
    Dr. Miller. Senator, you're right that Russia postponed the 
delivery of the S-300 to Iran and we hope that that 
postponement continues indefinitely. The state of the U.S.-
Russian relationship is obviously an important element in 
thinking about what the future is, not just of that issue of 
the S-300, but also, as you suggest, of our ability to convince 
Iran to give up its efforts to move forward with its nuclear 
programs.
    The improvement in U.S.-Russian relations is difficult to 
quantify, but it is real. Our ability to work together on the 
issues associated with Iran, the Russian response also with 
respect to working to denuclearize North Korea and continued 
efforts there in response to the Cheonan sinking, are some of 
the signs that we see that this is having--that we're headed in 
a productive direction. It does not mean we won't have our 
differences. It does not mean we may not even face setbacks. 
But it's clear that the New START treaty has been a very 
important part of moving the relationship forward.
    Senator Hagan. Thank you. My time has expired.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Miller, I want to follow up with you on the discussion 
that you had with Senator Lieberman about telemetry. You stated 
that the second reason telemetry was important under the 
original START was to ensure that ICBMs were not armed with a 
number of warheads in excess of the number of warheads 
attributed to each ICBM under the START counting rules. The 
original START counting rules, as I understand them, attributed 
to each ICBM the maximum number of warheads that it was 
believed to be able to carry. If telemetry can be used to 
verify the actual number of warheads, as you seem to be saying 
in response to Senator Lieberman, why wouldn't that information 
under the counting rules of the New START treaty, which counts 
the number of deployed warheads missile by missile, be even 
more important?
    It's obviously more difficult for us to verify the number 
of warheads if we're trying to count missile by missile than if 
we're assuming the maximum and can use telemetry to verify that 
or to see if there is a way to carry additional warheads. So it 
seems to me that your answer to Senator Lieberman doesn't add 
up, because it seems to me that it's more important that we 
have telemetry in order to verify the number of warheads under 
the new counting rules. So explain this to me?
    Dr. Miller. Senator Collins, under the previous START you 
are correct that for ICBMs and SLBMs there was an attribution 
rule. We wanted it to be as close as possible to the maximum, 
but in fact believe that, for example, the SS-18 could have 
carried more than 10 warheads should Russia have so decided. If 
we had seen them testing with 11 or 12 or 13, that would have 
been an indication of a violation of the treaty under START.
    Now, in the New START treaty each side would have the 
freedom to mix, in other words to have the number of warheads 
on a given delivery system that they decide and they declare. 
That number would be subject to onsite verification. So as an 
example, if we saw the Russians testing an SS-18 missile with 
five or six or seven or eight, we would then expect that they 
declared some with that number. But the real issue would be 
what do they have--not what do they test, but what have they 
deployed. The telemetry doesn't provide any insight into what's 
deployed. For that we need the combination of declarations, 
national technical means, and then reinforced critically by 
onsite inspections where we go and actually look under the hood 
and see what the numbers are.
    Senator Collins. But the number of onsite inspections is 
also limited under New START and is less extensive than under 
the old START. It worries me because it seems that you're 
limiting the number of onsite inspections, you're allowing the 
Russians to choose the site, we're no longer going to be 
monitoring 24 hours a day what's coming out. Instead, there's 
this notice provision. Plus we're limiting telemetry.
    Doesn't the combination of that make verification--and 
we've changed the counting rules. So it worries me that the 
combination of those factors--more limited onsite inspections, 
more limited telemetry, and a change in the counting rules--
makes it more difficult for us to verify compliance.
    Dr. Miller. Senator, let me respond to each of those as 
succinctly as I can. First, with respect to the numbers of 
inspections, the New START treaty has 18, the old START had 28. 
The New START treaty has to deal with 35 facilities, the old 
START had to deal with 70. That means that on a proportional 
basis the New START treaty is by number of facilities, greater 
proportionally.
    Second, with respect to onsite inspections, the inspecting 
side chooses the site and gives advance notice, relatively 
short notice as well. When they get to the site for their 
inspection, they then will have an opportunity to select which 
system to focus on and therefore which, for example, missile to 
pull the cover off and to look at the number of reentry 
vehicles. So that anything that didn't look right with respect 
to previous data declarations, that we gathered from our 
national technical means, or that looked like it wasn't correct 
in the database, which is constantly updated, we would then be 
able to go test with an onsite inspection where the inspecting 
party chooses the timing and which systems are inspected.
    Senator Collins. Let me switch to a different issue that 
has been brought up several times by my colleagues, and that is 
the impact of New START on our ability to pursue advances in 
missile defense. Former Under Secretary of State Ambassador 
John Bolton has written that the President has essentially 
given Russia a de facto veto over U.S. missile defense plans, 
and he says as a result advances in missile defense are now 
effectively impossible if this START is entered into and 
remains in force.
    Do you believe that the Phased Adaptive Approach (PAA) to 
missile defense in Europe represents a qualitative or 
quantitative improvement in our missile defense systems?
    Dr. Miller. Yes, Senator, I do believe the PAA in Europe 
and the application of that approach in other regions will 
constitute a qualitative and a quantitative improvement of our 
missile defenses, and we have briefed the Russians on the PAA. 
I've done so several times, including the first time the day 
that the announcement was made I briefed Ambassador Kislyak, 
the Russian ambassador to the United States.
    We have made it clear that each of the phases will involve 
improved capabilities and that going through phase 4 of the PAA 
for Europe, we will have additional numbers of interceptors 
with increasing capabilities deployed.
    Senator Collins. I agree with your assessment that it 
represents both a quantitative and qualitative improvement, but 
then I have a difficult time reconciling the Russians' 
assertion that they would withdraw from the treaty if we 
increase either the quantity or the quality of our missile 
defense. It seems inconsistent to me.
    Dr. Miller. Senator, they understand both the capabilities 
of the system and the fact that it will not pose a threat to 
the strategic capabilities of the Russian Federation. The 
deployments in Europe are not going to have the ability to 
intercept ICBMs launched from Russia aimed at the United States 
and Russia understands that.
    At the same time, it is very clear that we are committed 
not only to the improvements of our system for the PAA in 
Europe and elsewhere around the globe; we've also made very 
clear that we are committed to improving our capabilities for 
Homeland defense. We currently have 30 GBIs and we will improve 
their capability as necessary to deal with the threat to which 
they're aimed, which is the North Korean and Iranian challenge. 
The Secretary of Defense, as you also know, approved moving 
forward with eight additional silos at Fort Greeley so that in 
the event we see the threat grow faster than expected, we would 
have the ability to add additional capability.
    The Russian statement is nonbinding. It's not a part of the 
treaty. It concludes by noting that the issue is any set of 
capabilities that would give rise to a threat to the strategic 
nuclear force potential of the Russian Federation. We don't 
believe that that is going to occur, but irrespective of that, 
we have made clear in every possible way, through public 
statements, testimony, our budget, our BMDR, and indeed 
discussions, diplomatic discussions with the Russians, that we 
would intend to continue to improve our missile defenses to 
deal with the threats that we face.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    We ought to, if it's all right with Senator Collins, put 
both the unilateral statements in the record at this time.
    Senator Collins. Yes, thank you.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen. General Chilton, at the NPR hearing 
this last April you stated you fully support--and I think you 
did as well today again--the New START treaty and its 
associated reduction to our nuclear force. You stated that you 
were fully involved. Could you describe your role and your 
responsibilities that are involved in maintaining a safe, 
secure, and effective nuclear deterrent?
    General Chilton. Senator, thank you. My role is in a couple 
areas. One, I'm an advocate, so, based on the guidance given to 
me by the President and the Secretary of Defense, we at the 
command assess what is militarily required to meet that 
guidance. It falls into three fundamental areas. One includes 
the weapons themselves. So I come and support Mr. D'Agostino's 
programs and work closely with them to make sure that the 
requirements are understood for our needs for the weapons, but 
also his requirements are understood and advocated for to 
support those.
    Second would be along the line of delivery systems that are 
required to support the strategy and the guidance. We do that 
through DOD in supporting the three legs of the triad.
    There is another element of that as well that probably 
doesn't get as much visibility, and that is the nuclear command 
and control portion, which is also fundamentally essential to 
the deterrent. So you need all three of those parts and our job 
is not only to advocate for them, but as they are fielded to 
ensure their readiness to be able to respond to any direction 
we might get from the President of the United States.
    Senator Ben Nelson. In your opinion, would the new treaty 
adversely impact your ability to carry out your duties?
    General Chilton. No, sir, it would not.
    Senator Ben Nelson. What are the ramifications of not 
putting a treaty into place?
    General Chilton. Senator, two that would give me concern. 
First, we would lose the transparency provided by the 
verification and inspection protocols that are in the treaty, 
which have lapsed since START I ended in December of last year. 
I think that's very important.
    Second, there would be no constraints placed upon the 
Russian Federation as to the number of strategic delivery 
vehicles or warheads they could deploy. I think that's 
important to the United States, that there be limits there, 
limits that we would also be bound by, obviously.
    Senator Ben Nelson. Thank you.
    Dr. Miller, what level of verification do we have at the 
moment? I assume the answer is zero.
    Dr. Miller. Senator Nelson, today we would rely solely on 
national technical means.
    Senator Ben Nelson. That's not justification for entering 
into a treaty that is inadequate. We understand that. But one 
of the questions I would have is, you mentioned the ability to 
look under the hood to see what the other side is doing. Does 
this potentially, this treaty, give us the ability to look 
under at least the same number of hoods that we looked under 
during the initial START?
    Dr. Miller. Senator, proportionally the answer is yes, 
proportionally, because we're allowed 18 inspections per year, 
there were 28 in START, but, as we talked about before, there 
are half as many facilities under New START as there were at 
the entry into force of the START treaty.
    With the combination of onsite inspections, with the other 
verification provisions, including non-interference with 
national technical means, but also data exchange, notification 
requirements, the maintenance of an up-to-date database of the 
disposition of all Russian forces, and unique identifiers, 
which are an important extension from START, all contribute to 
giving us an effective verification regime.
    Senator Ben Nelson. Dr. Miller, I think it would be fair to 
categorize your comments about tactical versus strategic review 
as a two-step process: step one being this New START treaty; 
step two being starting the process of looking at tactical 
warheads. Now, there's a suggestion that somehow, since we 
didn't do steps one and two together in the New START treaty, 
that there's something that's defective about what we've done.
    What were the reasons that you didn't have the two-step 
process in START I? Or is it criticism that is being leveled 
today against the New START treaty a criticism that could have 
been just as easily leveled against the first START?
    Dr. Miller. Senator, in principle that could have been. Let 
me just say that if we don't move forward with the New START 
treaty relationship and entry into force, it will be much more 
challenging to try to move forward to something beyond it. In 
fact, it's difficult to see how we would do so, how we would 
then move forward with an effort to reduce strategic and 
tactical in both deployed and nondeployed.
    This administration and previous administrations have paid 
attention to the potential dangers associated with tactical 
nuclear weapons. The Nunn-Lugar effort for cooperative threat 
reduction has made good progress there in terms of improving 
security. We believe we have a long way to go. We would intend 
to do that, to continue to press on improving security for 
tactical nuclear weapons in parallel with negotiations on 
reducing tactical nuclear weapons. We understand that, given 
the relative numbers at this point, that the New START treaty 
is, while it's essential for establishing the verification 
regime and a basis for further negotiations, that from this 
point forward it will make sense to broaden the aperture and 
deal with all nuclear weapons.
    Senator Ben Nelson. It was a matter of prioritization with 
the first START treaty, just as it is a matter of 
prioritization with this treaty. But second, because they 
weren't both accomplished in the first START treaty, strategic 
and tactical, it has now become a two-step process to 
accomplish it at this point in time.
    Are you satisfied that we've made every effort, that every 
effort that we're making now to enter into new discussions 
about tactical--are those discussions ongoing at the present 
time, recognizing you have to get the first one done before you 
do a second one? But are discussions under way right now?
    Dr. Miller. Senator Nelson, we have made clear this 
administration's interest in those further discussions with the 
Russian Federation, and also understand that the prospect for 
those discussions going forward prior to START ratification and 
entry into force are minimal. It really will need to be, as you 
said, sir, a two-step process. We are engaged in our own 
analysis and planning at this point. We've indicated an 
interest, but we have not gotten at this point a positive 
response from the Russian Federation and, frankly, would not 
expect to until we're on the other side of New START 
ratification discussion.
    Senator Ben Nelson. If the New START treaty is not 
ratified, what are the opportunities to go back and now start 
and try to talk about the tactical weapons in another treaty?
    Dr. Miller. Senator, that scenario----
    Senator Ben Nelson. I know I'm asking you to speculate.
    Dr. Miller. I would speculate that that would make things 
much more difficult.
    Senator Ben Nelson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. More difficult meaning less likely we would 
succeed in negotiating such reductions?
    Dr. Miller. Yes, sir, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    These unilateral statements that we've referred to are 
similar, are they not, to unilateral statements which were made 
for the first START in June 1991, when then the Soviet 
negotiator in his unilateral statement said: ``This treaty may 
be effective and viable only under conditions of compliance 
with the Antiballistic Missile (ABM) Treaty''? Is that correct?
    Dr. Miller. Mr. Chairman, they are analogous in that regard 
and----
    Chairman Levin. Our response to that statement was: 
``Unilateral statements that a future hypothetical U.S. 
withdrawal from the ABM Treaty could create such conditions are 
without legal or military foundation.'' That was our unilateral 
response, is that correct?
    Dr. Miller. Yes, sir.
    Chairman Levin. I'll make these part of the record.
    Why, when answering questions about the unilateral 
statements and saying they're not legally binding, don't you 
refer to the almost perfect example of what happened in 1991 
when the Soviets said something was going to happen if 
something else happened and, by the way, something else did 
happen, we withdrew from the ABM Treaty, and there was no 
effect on the implementation of START I? Why isn't that in your 
answer?
    Dr. Miller. Senator, thank you for that recommendation.
    Chairman Levin. I'm just curious. Am I missing something? 
It seems to me that, hey, we've been there, done that, it's 
proven to have no effect whatsoever.
    Dr. Miller. Senator, I believe we put that on the record at 
some points over the last couple of months. But we also want to 
note that it is, in fact, the case that unilateral statements 
are just that.
    Chairman Levin. No, I know it has been made part of the 
record in other hearings, but it's not always part of the 
answer. It seems to me that's the most effective answer. If 
it's proved its ineffective, nonbinding impact before when we 
pulled out of a treaty and the Russians, the Soviets, then in 
1991 said what would happen if we did, it seems to me that's 
proof positive that this is not binding now. If it wasn't 
binding in 1991, these kind of unilateral statements aren't 
binding now.
    I would think that's the clearest answer to me. But in any 
event, I would urge you to include that in your answers. We 
will make it part of the record at this time these two 
unilateral statements before START I.
    [The information referred to follows:]
   Statements on the Relationship of Strategic Arms Reduction Treaty 
(START) and Antiballistic Missile (ABM) Read at a Meeting Between U.S. 
Ambassador Brooks and Deputy Foreign Minister Obukhov on June 13, 1991.
statement by the soviet side at the u.s.-soviet negotiations on nuclear 
 and space arms concerning the interrelationship between reductions in 
  strategic offensive arms and compliance with the treaty between the 
   united states and the union of soviet socialist republics on the 
              limitation of anti-ballistic missile systems
    In connection with the treaty Between the United States of America 
and the Union of Soviet Socialist Republics on the Reduction and 
Limitation of Strategic Offensive Arms, the Soviet side states the 
following:
    This treaty may be effective and viable only under conditions of 
compliance with the treaty between the United States and the Union of 
Soviet Socialist Republics on the Limitation of Anti-Ballistic Missile 
Systems, as signed on May 26, 1972.
    The extraordinary events referred to in Article XV \1\ of this 
treaty also include events related to withdrawal by one of the Parties 
from the treaty on the Limitation of Anti-Ballistic Missile Systems, or 
related to its material breach.
---------------------------------------------------------------------------
    \1\  As written, understood to mean ``Article XVII''. Two Treaty 
Articles were included after the statement was made, but before the 
treaty was signed.
---------------------------------------------------------------------------
 statement by the u.s. side at the u.s.-soviet negotiations on nuclear 
                             and space arms
    While the United States cannot circumscribe the Soviet right to 
withdraw from the START treaty if the Soviet Union believes its supreme 
interests are jeopardized, the full exercise by the United States of 
its legal rights under the ABM Treaty, as we have discussed with the 
Soviet Union in the past, would not constitute a basis for such 
withdrawal. The United States will be signing the START treaty and 
submitting it to the U.S. Senate for advice and consent to ratification 
with this view. In addition, the provisions for withdrawal from the 
START based on supreme national interests clearly envision that such 
withdrawal could only be justified by extraordinary events that have 
jeopardized a Party's supreme interest. Soviet statements that a 
future, hypothetical U.S. withdrawal from the ABM Treaty could create 
such conditions are without legal or military foundation. The ABM 
Treaty, as signed on May 26, 1972, has already been substantially 
amended and clarified by subsequent agreements between the Parties. 
Moreover, current and future negotiations, to which the Soviet Union 
committed in the June 1990 Summit Joint Statement, could lead to 
significant additional changes in the ABM Treaty, or its replacement. 
Changes in the ABM Treaty agreed to by the Parties would not be a basis 
for questioning the effectiveness or viability of the treaty on the 
Reduction and Limitation of Strategic Offensive Arms.

    Chairman Levin. On the question that you were asked, 
General, about detecting cheating and what the effect would be 
from a military perspective if there were cheating, there's an 
unclassified portion of a classified Department of State 
verification report dated July 12, 2010, and the first one that 
I'm going to make part of the record, the first unclassified 
paragraph relative to this subject--and I want to ask you 
whether you concurred in each of these paragraphs: ``Deterrence 
of cheating is a key part of assessment of verifiability and is 
strongest when the probability of detecting significant 
violations is high, the benefits to cheating are low, and the 
potential costs are high. We assess that this is the case for 
Russian cheating under the New START treaty.''
    Is that familiar to you, that paragraph?
    General Chilton. It is, and I agree with that, Senator.
    Chairman Levin. Now, the next unclassified paragraph on 
that page is the following: ``Given the terms of the New START 
treaty, the potential benefits to be derived by Russia from 
cheating or breakout from the treaty would appear to be 
questionable. Because the United States will retain a diverse 
triad of strategic forces, including single-warhead ICBMs, 
nuclear-capable heavy bombers, and a significant fraction of 
total deployed warheads on strategic submarines, any Russian 
cheating under the treaty would have little, if any, effect on 
the assured second strike capabilities of U.S. strategic 
forces. In particular, the survivability and response 
capabilities of strategic submarines and heavy bombers would be 
unaffected by even large-scale cheating.''
    Are you familiar with that paragraph?
    General Chilton. I am, Senator, and I agree with it.
    Chairman Levin. You agree with that.
    Next unclassified paragraph: ``The costs and risks of 
Russian cheating or breakout, on the other hand, would likely 
be very significant. In addition to the financial and 
international political costs of such an action, any Russian 
leader considering cheating or breakout from the New START 
treaty would have to consider that the United States will 
retain the ability to upload large numbers of additional 
nuclear warheads on both bombers and missiles under the New 
START, which would provide the ability for a timely and very 
significant U.S. response.''
    Are you familiar with that one?
    General Chilton. I am, Senator.
    Chairman Levin. Do you agree with that?
    General Chilton. I do, Mr. Chairman.
    Chairman Levin. Finally on this page: ``The combination of 
improved U.S. understanding of Russian strategic forces 
resulting from the implementation of the START, U.S. National 
Technical Means Capabilities, the New START treaty's 
verification provisions and a favorable posture for deterring 
cheating or breakout results in a New START treaty that is 
effectively verifiable.''
    Do you agree with that? Are you familiar with that?
    General Chilton. I'm not sure I'm familiar with that 
precise quote, Mr. Chairman. But, hearing it, I do agree with 
it.
    Chairman Levin. Now, on the question of the telemetry 
Senator Lieberman asked a question about, if we agreed to 
obtain the telemetry or exchange telemetry on five launches per 
year, as I understand or remember the language, if telemetry is 
not important why did we negotiate for five? I don't think the 
answer was very persuasive on that. I didn't understand it and 
I think in terms of the time, I think if you would, it would be 
better to give us an answer for the record, Dr. Miller.
    There is an apparent inconsistency. We get less telemetry, 
but we don't need it. Then, as Senator Lieberman points out, if 
we don't need it why did we negotiate for five? I think that 
the answer needs to be amplified because it was either not 
particularly clear or wasn't particularly persuasive, or maybe 
there is no persuasive answer. But if there is one, we would 
appreciate your giving it a go on the record if you would. Will 
you do that?
    Dr. Miller. Yes, Mr. Chairman.
    [The information referred to follows:]

    The previous START treaty had more extensive provisions related to 
telemetry than New START because it contained limits, prohibitions, and 
obligations that required the analysis of telemetric information to 
ensure that a Party was complying with the treaty. The New START 
provisions relating to telemetry reflect the fact that there are no 
specific obligations, prohibitions, or limitations in the new treaty 
that require the analysis of telemetric information in order to verify 
a Party's compliance with the treaty. For instance, the treaty does not 
limit the development of new types of missiles, so there is no 
requirement to determine the technical characteristics of new missiles 
such as their launch weight or throw-weight in order to distinguish 
them from existing types.
    Although telemetry is not needed to verify compliance with the 
provisions of New START, to promote transparency and predictability, we 
negotiated for the exchange of telemetric information on an agreed 
equal number of launches of intercontinental ballistic missiles and 
submarine launched ballistic missiles, up to five annually, with the 
testing party deciding the launches on which it will exchange 
information. The specifics of the annual telemetry exchanges will be 
worked out in the treaty's implementation body, the Bilateral 
Consultative Commission.

    Chairman Levin. Now, on the negotiating record, there's 
apparently a history on getting negotiating records, which we 
also are going to need for the record. This is a matter for the 
Senate Foreign Relations Committee, but apparently I think it 
was during the INF Treaty, there was some back and forth 
between the State Department on whether or not in the future 
the negotiating record itself would be made available. I think 
for the record we better get hold of that history, because it 
would seem, just off the top of my head, why not? Why don't we 
get the negotiating record? Apparently there's some history as 
to why not and why there's been refusal before.
    There's apparently been precedent for doing it, for giving 
Congress or the Senate the negotiating record. As Senator 
McCain said, apparently in 1972 we got the record, and I think 
he said in 1987 we got the record. But then there was some 
resistance to getting future negotiating records and some, if 
not an understanding, clear delineation as to the reasons why 
the State Department was not in the future going to do it, 
which applied to subsequent treaties after 1987, I believe.
    Even though you're not the State Department, we would need 
you to get for us either the State Department position on this 
or the administration position on why don't we get this 
negotiating record.
    Dr. Miller. Senator, let me just say that that request is 
pending and the administration will have a response and we will 
provide something for the record on the history. You are 
correct that the chilling effect, the concern about the 
chilling effect, is a key consideration.
    Chairman Levin. On negotiations?
    Dr. Miller. On future negotiations.
    Chairman Levin. I don't think we made that request. I think 
that came from Senate Foreign Relations Committee, is that 
correct? But if you could just make sure that we get a copy of 
that.
    Dr. Miller. Yes, sir.
    [The information referred to follows:]

    When President Obama transmitted the New START treaty to the 
Senate, the transmittal package included a detailed, article-by-article 
analysis of the treaty. This analysis is nearly 200 pages long and 
provides information on every provision of the treaty, protocol, and 
annexes, including information regarding the U.S. interpretation of the 
treaty. These materials were prepared in close coordination with the 
treaty negotiators and provide a detailed explanation ofU.S. rights and 
obligations under the New START treaty.
    Since treaty submission, the negotiation and senior Administration 
officials have been widely available to answer questions on the treaty 
and the negotiations. Administration witnesses have testified at nine 
hearings before three Senate committees--Foreign Relations, Armed 
Services, and Intelligence. A final hearing is scheduled for July 29 
with the two leading members of the negotiating team. Administration 
representatives, including members of the negotiating team, have also 
conducted numerous briefings for Senators and staff.
    The Intelligence Community recently submitted a National 
Intelligence Estimate for the New START treaty; it addresses the 
challenges of monitoring Russian compliance with the Treaty's 
obligations. Additionally, the State Department has submitted a report, 
pursuant to section 306 of the Arms Control and Disarmament Act, on the 
verifiability of the treaty.
    Finally, the executive branch has answered over 500 questions for 
the record regarding the Treaty. Like the other components of the 
ratification process, these questions for the record touch on all 
aspects of the New START treaty.
    In sum, the administration has provided a vast amount of 
information regarding the New START treaty to the committee. We have 
made every effort to provide the committee with a full understanding of 
every right and obligation the United States would undertake as a party 
to the Treaty, were it to enter into force. Indeed, my colleagues from 
the Intelligence Community, the Joint Chiefs of Staff, the Defense 
Department, the negotiating team, and I repeatedly testified about the 
executive branch's consistent understanding of the treaty's terms.
    We are committed to answering all of the Senate's questions. If, 
however, the Administration were to provide the committee with access 
to the negotiating record as requested, the Administration would be 
contributing to a precedent that--as noted by Senator Kerry, Chairman 
of the Senate Foreign Relations Committee, when this issue was raised 
in his committee--would damage the treaty-making process and erode our 
constitutional allocation of responsibility.
    The longstanding practice in consideration of treaties is that the 
Senate does not request, and the executive does not provide, the 
negotiating record. That was the case throughout the 110th Congress, 
when some 90 treaties were approved by the Senate. That was also the 
case in the Senate's consideration of other major arms control and 
security treaties in the past two decades, including the Moscow Treaty 
in 2002 and 2003, the START I and START II Treaties in the 1990s, and 
the three instances in the past 12 years when the North Atlantic Treaty 
Organization was expanded. This practice of reviewing treaties without 
access to the negotiating record has consistently occurred during both 
Democratic and Republican majorities in the Senate, and Democratic and 
Republican administrations.

    Chairman Levin. I'll just ask one additional question 
before I call on Senator Nelson, if he will yield for another 
minute even though his turn has arrived. This has to do with 
that cut in the budget that the House committee, I believe, the 
Appropriations Committee, made in your budget, Mr. D'Agostino, 
the Energy and Water Appropriations Subcommittee.
    They reduced the budget by, I believe, $99 million and they 
offset it in part by using $80 million in prior year balances. 
First of all, does NNSA have $80 million available in prior 
year balances? Second, what is the amount of the budget? Third, 
what is the amount of the increase in the budget over last 
year? Can you get us those three numbers for the record? If you 
have them on the top of your head, or give them for the record?
    Mr. D'Agostino. I'd be glad to do either one, sir. Just 
very quickly, and we'll take it for the record as well. The 
details are important. I haven't yet seen the details of that. 
We do have some prior year balances. The key on prior year 
balances--and this is where resources were authorized and 
appropriated, but because the project wasn't fully ready 
they're being held until the project is ready. There are a few 
projects. I don't know if they add up to $80 million, and 
that's why we need to see the details.
    Chairman Levin. All right.
    Mr. D'Agostino. I'll take the rest of it for the record, 
sir.
    [The information referred to follows:]

    The National Nuclear Security Administration has approximately $40 
million associated with the Radioactive Liquid Waste Treatment Facility 
construction project in prior year funds within its weapons activities 
account, for which plans have been made to redeploy to another high 
priority project. All other prior year balances are for goods and 
services on order, and would have workload impacts if reduced. The 
request for weapons activities in fiscal year 2011 is $7,008,835. 
Weapons activities increased $624 million from the fiscal year 2010 
appropriation to the fiscal year 2011 request.

    Chairman Levin. Do you know the total size of your budget 
request?
    Mr. D'Agostino. Oh, yes, sir. It's over $7 billion, and so 
therefore this $99 million number that keeps floating around at 
this point is a fairly small percentage. But at this point we 
did scrub pretty hard to come up with this number. I support 
the President's budget. We'll need to look at the details on 
that.
    Chairman Levin. I expect that you would and should, as a 
matter of fact. I just want to get the proportion as to what 
that cut is. What was the dollar increase over last year?
    Mr. D'Agostino. $624 million, sir, in this particular 
account.
    Chairman Levin. Thank you.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service. In the NPR, a whole 
bunch of warheads in the queue for dismantlement, and that 
number will increase under the START reductions. What are the 
most significant challenges to managing this drawdown?
    Mr. D'Agostino. I'll take that. The difficult challenge 
associated with dismantling warheads is in many cases we're 
talking about warhead systems--I'll call them systems--that 
have been together for many years, in many cases multiple 
decades. So what we have to deal with is making sure that we 
have the safety rules down, clearly understood, so that these 
warheads can be taken apart safely.
    We've done a lot of work at the laboratories and the Pantex 
plant to get the rules, the procedures, and the tooling and the 
training all together at the same time so that we can take 
apart these warheads. Our current commitment on the size of the 
dismantlement queue that we have right now is to get that work 
done by the year 2022, which is a significant amount of work.
    We recognize that we'll be adding potentially more over the 
next few years to that queue and we're going to try to hold 
that date and look for efficiencies. In fact, there are some 
significant efficiencies because the Pantex plant tends to do 
better than we had originally expected to getting all that 
dismantlement work done.
    Senator Bill Nelson. So you feel reasonably confident that 
you have the facilities and the skills in order to handle this 
reduction?
    Mr. D'Agostino. Yes, sir, I do feel confident. I would be 
remiss if I didn't mention an event that happened not too long 
ago, frankly, that we're working on right now. There was a 
significant amount of rain in the State of Texas. We had some 
fairly significant flooding at our Pantex plant. We're 
currently in the process of assessing what it will take to 
recover from that flooding event, and we'll be notifying the 
appropriate committee staff as we get that information together 
and work with DOD.
    So our goal, of course, is to not have it impact the work 
that DOD needs. But we're in the middle of that assessment, 
sir.
    Senator Bill Nelson. General Chilton, as you de-MIRV the 
launchers where they're carrying only one warhead, how does 
this START enhance the stability of the nuclear balance?
    General Chilton. Senator, first there's an advantage of de-
MIRVing the Minuteman system because we can then disperse those 
warheads, which are limited under the treaty, to other, more 
survivable platforms, for example, yet at the same time a 
potential adversary would, if they were thinking about a 
preemptive strike, have to expend a large number of warheads to 
address the Minuteman threat, which would still stay in large 
single-warhead numbers.
    Strategic stability, when we talk about that, it's having a 
posture on both sides that in the worst crisis case, the 
highest levels of tension, that neither side would be tempted 
to conduct a first strike as their least best option. So de-
MIRVing, if you have 10 warheads in the extreme or even 100 
warheads in the extreme on one missile, then you could envision 
that an opportunity--well, maybe if I strike and eliminate 100 
with just 2, that's to my great advantage for a disarming 
strike.
    At the other extreme, if there's just one there, there's 
more stability. There's less temptation in time of crisis to 
attempt a first strike, a disarming strike of the adversary.
    So this provides, by de-MIRVing, we make it still a very 
difficult target to attack and one that doesn't make sense to 
attack.
    Senator Bill Nelson. You've described the stability. Then 
as you go about doing this, what are the challenges in bringing 
about this change from several warheads down to one?
    Mr. D'Agostino. Senator, we're well-practiced at this in 
our missile fields and I don't see any difficulty in this. It 
would just be a matter of the work that we would need to 
accomplish over a scheduled time period. But our crews are 
trained and able to both conduct uploads and downloads of the 
configuration of our warheads in the fields today.
    Senator Bill Nelson. Mr. Secretary, tell me about how long 
do you think it's going to take to implement this drawdown?
    Dr. Miller. Senator Nelson, the treaty would have a 7-year 
implementation period following entry into force, and our 
intention would be to undertake those reductions spread out 
over that period.
    Senator Bill Nelson. It's a 10-year treaty and in 7 years 
you're going to be doing the drawdown?
    Dr. Miller. Technically, it doesn't require that much time. 
But we would expect to spread the work out over a substantial 
part of that period, and we are currently developing the 
detailed plans associated with each leg of the triad, the 
changes that we would be looking for.
    Senator Bill Nelson. Do you see any problem in implementing 
that?
    Dr. Miller. Sir, there's no expected problem in 
implementing the treaty within the 7 years. If decided, it 
could be done in less time.
    Senator Bill Nelson. Do we think the Russians will do 
likewise over 7 years?
    Dr. Miller. Sir, I don't have an assessment of that. We 
believe they'll be able to reach it within the 7-year period 
certainly. We don't have an assessment of what their plans are 
in terms of timing.
    Senator Bill Nelson. But they have to, under the terms of 
the treaty, accomplish it by year 7?
    Dr. Miller. Within 7 years after entry into force of the 
treaty, they would need to meet their limits.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    I have no further questions. Thank you very, very much for 
your testimony.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                     start verification components
    1. Senator Akaka. Dr. Miller, what steps do you plan to take to 
assure the American people that the parties are in compliance with the 
terms of the Strategic Arms Reduction Treaty (START)?
    Dr. Miller. Throughout the duration of the New START treaty, the 
United States will make full use of the treaty's verification 
provisions--onsite inspections, notifications, and data exchange 
provisions as well as all available U.S. intelligence means--to include 
national technical means--in order to monitor Russian compliance with 
the terms of the treaty. Congress and the American people will be kept 
informed of any potential issues regarding Russian compliance with the 
terms of the treaty through the annual arms control compliance report 
titled ``Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments,'' which 
is prepared and transmitted by the Department of State (DOS) with 
coordination from the Department of Defense (DOD), the Department of 
Energy (DOE), and the Intelligence Community (IC).

    2. Senator Akaka. Dr. Miller, what is your level of confidence in 
the verification process?
    Dr. Miller. As Secretary Gates has testified, one of the greatest 
contributions of this treaty is its strong verification regime. I have 
confidence that the treaty's verification provisions, in particular its 
onsite inspections, notifications, and data exchange provisions, will 
increase transparency and confidence in the numbers and status of 
Russian nuclear forces, without imposing significant burdens on our 
ability to operate U.S. nuclear forces.

    3. Senator Akaka. Dr. Miller, what are some of the details of 
verification that will ensure compliance?
    Dr. Miller. Onsite inspections are a linchpin of the treaty's 
verification framework. The treaty allows each party to conduct up to 
18 short-notice onsite inspections each year, with up to 10 Type One 
inspections conducted at operating bases for intercontinental ballistic 
missiles (ICBM), strategic nuclear-powered ballistic missile 
submarines, and nuclear-capable heavy bombers, and up to 8 Type Two 
inspections conducted at other declared facilities such as storage 
sites, test ranges, and conversion or elimination facilities where 
nondeployed systems are located.
    Onsite inspections work synergistically with existing National 
Technical Means of verification as well as other elements of the 
treaty, including:

        <bullet> Extensive periodic data exchanges on the technical 
        characteristics, locations, and dispositions of ICBMs, 
        submarine launched ballistic missiles (SLBM), and nuclear-
        capable heavy bombers;
        <bullet> Unique identifiers associated with each ballistic 
        missile and heavy bomber; and
        <bullet> A requirement to report any changes in the status of 
        strategic systems through timely notifications.

    By enabling the United States to observe Russia's strategic nuclear 
forces and related facilities directly, onsite inspections will help 
the United States verify that Russia is complying with the provisions 
of the New START treaty. Inspections will also provide a deterrent to 
cheating. Because the treaty provides for up to 18 inspections per year 
at declared sites selected by the inspecting party, each side knows 
that the other will have a significant capability to uncover 
discrepancies between reported data and what is actually fact. If the 
United States has concerns or encounters ambiguities during onsite 
inspections, it will be able to raise these matters with Russia in the 
Bilateral Consultative Commission (BCC), which will meet at least twice 
each year, and pursue these matters at higher levels, if necessary.

                  start and the missile defense agency
    4. Senator Akaka. Dr. Miller, upon ratification, the proposed 
treaty could affect many areas within our national security 
establishment in regards to weapons testing and operations. Would this 
treaty in any way limit the Missile Defense Agency (MDA) from carrying 
out future operations and testing? If so, how?
    Dr. Miller. No. The New START treaty does not contain any 
constraints on the testing, development, or deployment of current or 
planned U.S. missile defense programs. This includes the Phased 
Adaptive Approach (PAA) in Europe, the Ground-based Midcourse Defense 
system, and any planned future missile defenses. The only limits on 
missile defense in the New START treaty are the provisions in Article 
V, Paragraph 3, that prohibit the placement of missile defense 
interceptors in converted ICBM or SLBM launchers and vice versa. 
However, as Lieutenant General O'Reilly, Director of the MDA, has 
testified such conversion would be neither cost-effective nor 
necessary. For example, converting 10 ICBM silos to house ground-based 
interceptors (GBI) would cost about $550 million, compared to $360 
million for building 10 new silos. The placement of midcourse missile 
defense interceptors in converted SLBM launchers would be operationally 
impractical and very expensive. Consequently, the Article V limitation 
on launcher conversion does not constrain U.S. plans or programs.
    Under New START we will have greater flexibility in conducting 
testing with regard to launch locations, telemetry collection and 
processing, and other aspects of test execution. The favorable changes 
to the restrictions on target missiles under the New START treaty will 
allow MDA to use more efficient test architectures and realistic 
intercept geometries.

              conventional prompt global strike capability
    5. Senator Akaka. Dr. Miller, a DOS factsheet dated April 8, 2010, 
asserted that the New START does not contain any constraints on the 
current or planned U.S. conventional prompt global strike (CPGS) 
capability. However, the factsheet also states that ``long-range 
conventional ballistic missiles would count under the treaty's limit of 
700 delivery vehicles, and their conventional warheads would count 
against the limit of 1,550 warheads, because the treaty does not make a 
distinction between missiles that are armed with conventional weapons 
and those that are armed with nuclear weapons.'' From your perspective, 
does the New START limit the current or planned U.S. CPGS capability? 
Please explain.
    Dr. Miller. No. The New START treaty protects the U.S. ability to 
develop and deploy a CPGS capability. Should the United States deploy 
conventional warheads on treaty-accountable ICBMs or SLBMs, they would 
count toward the treaty's aggregate deployed warhead limit of 1,550, 
just as conventional warheads would not have been distinguished from 
nuclear warheads in terms of accountability under the START treaty. 
However, the treaty's limit of 700 deployed delivery vehicles combined 
with the associated ceiling of 1,550 deployed warheads would 
accommodate any plans the United States might pursue during the life of 
this treaty to deploy conventional warheads on ballistic missiles. 
Moreover, the treaty does not prohibit the development, testing, or 
deployment of potential future long-range weapons systems for CPGS that 
are currently under development. We would not consider such non-nuclear 
systems that do not otherwise meet the definitions of the New START 
treaty to be accountable as ``new kinds of strategic offensive arms'' 
for the purposes of the treaty. A study of long-range strike options, 
including those that would provide CPGS capabilities, is currently 
underway in DOD and will be completed in time to inform the fiscal year 
2012 President's budget.

             recruitment of nuclear security professionals
    6. Senator Akaka. Mr. D'Agostino, in your opening statement you 
declared that one of the priorities for the National Nuclear Security 
Administration's (NNSA) Nuclear Security Enterprise is to recruit, 
develop, and retain the next generation of nuclear security 
professionals responsible for stockpile stewardship. The state of 
science, technology, engineering, and math (STEM) education in the 
United States has been subject to some critical assessments in recent 
years. For example, a 2007 Department of Labor report noted that trends 
in K-12 and higher education science and math preparation, coupled with 
demographic and labor supply trends, point to a serious challenge: our 
Nation needs to increase the supply and quality of ``knowledge 
workers'' whose specialized skills enable them to work productively 
within the STEM industries and occupations.
    How does NNSA plan to fulfill its priority of recruiting, 
developing, and retaining the next generation of nuclear security 
professionals given the expected shortages of students and workers with 
technical backgrounds?
    Mr. D'Agostino. Our nuclear security professionals are today, and 
will be in the future, our greatest asset. They face critical and 
persistent scientific challenges as they implement our national policy 
to consider all life extension options to maintain the nuclear weapons 
stockpile without nuclear testing. I believe that these challenges, 
combined with a national-level commitment to transform the NNSA nuclear 
weapons complex into a modern, world-class 21st century Nuclear 
Security Enterprise that affords unique opportunities for postdoctoral 
students and summer interns, will provide the environment to attract 
and retain the best and brightest scientists and engineers available. 
In addition, defense initiatives beyond stockpile stewardship, such as 
nuclear forensics and attribution, nonproliferation, and treaty 
verification activities, provide a broadened mission that will push the 
envelope of nuclear technology and further challenge and develop our 
nuclear security professionals.
    The management and operations (M&O) contractors at our laboratories 
and plants will continue to offer opportunities to exercise unique and 
essential skills in stable programs of national importance to preserve 
their viability. Developing the next generation of nuclear security 
professionals is a high priority at all of our sites. The laboratories 
and plants are making significant human capital investments in order to 
recruit, retain, and exercise critical skills. However, we must 
continue to modernize and operate world-class facilities to attract the 
best students and workers with technical backgrounds to maintain a 
second-to-none nuclear weapon science, technology, and engineering 
capability.
    In addition to our active efforts to provide unique and challenging 
opportunities for the nuclear professionals in our laboratories and 
plants, we are also recruiting, developing, and retaining a Federal 
workforce to complement the M&O contractor workforce. As an example, 
one of the NNSA actions to ensure a technical and competent Federal 
workforce includes the Future Leaders Program. The objective of the 
Future Leaders Program is to develop competent professionals to 
ultimately manage programs and projects within our sites.

                    u.s. deterrence under new start
    7. Senator Akaka. General Chilton, the proposed START between the 
United States and Russia lowers the limits on strategic nuclear 
warheads and the means to deliver them. It effectively reduces the 
level of warheads each nation possesses to its lowest level in more 
than 50 years. Will the United States possess an adequate deterrent in 
light of the proposed reductions contained in the New START?
    General Chilton. Yes. Under the New START treaty, based on U.S. 
Strategic Command (STRATCOM) analysis, I assess that the triad of 
diverse and complementary delivery systems will provide sufficient 
capabilities to make our deterrent credible and effective.
    As the combatant command responsible for executing strategic 
deterrence operations, planning for nuclear operations, and advocating 
for nuclear capabilities, we at STRATCOM are keenly aware of how force 
structure changes can affect deterrence, assurance, and overall 
strategic stability. Under the New START treaty, the United States will 
retain the military flexibility necessary to ensure each of these for 
the period of the treaty.
    In support of the New START treaty negotiation effort, STRATCOM 
analyzed the required nuclear weapons and delivery vehicle force 
structure and posture to meet current guidance and provided options for 
consideration by DOD.
    This rigorous appraisal, rooted in both deterrence strategy and 
assessment of potential adversary capabilities, validated both the 
agreed-upon reductions in the New START treaty and recommendations in 
the Nuclear Posture Review (NPR).

                        telemetry and new start
    8. Senator Akaka. General Chilton, there are some differences 
between the old START which expired in December 2009 and the new START. 
For example, the new START does not contain restrictions on the 
location and number of basing areas of land-mobile ICBM systems of 
various classes. Will the new START change the verification proviqsions 
from the previous START with regard to telemetry and monitoring of 
mobile ICBMs? If so, how will it change and will this be a positive 
change for the United States, the Russian Federation, or both?
    General Chilton. The START treaty had obligations, prohibitions, 
and limitations that required analysis of telemetric information in 
order to verify a party was complying with the provisions of the 
treaty. The START treaty therefore required the exchange of telemetry 
on all ballistic missile launches. However, in New START, there are no 
specific obligations, prohibitions, or limitations that require 
telemetric information to verify compliance. To promote transparency 
and predictability, New START allows for the exchange of telemetry on a 
mutual basis on up to five ballistic missile launches per year, 
selected by the testing party.
    The START treaty, negotiated when both Russia and the United States 
were planning to deploy mobile ICBMs, imposed limits on mobile ICBM 
deployment areas as a way of monitoring their movements. The New START 
treaty contains no limits on the size of the deployment area for mobile 
ICBMs. Provisions of New START--including the information in the 
comprehensive database on the association of all mobile ICBMs and 
mobile ICBM launchers with a particular operating base, storage area, 
or other treaty-accountable facility--require notifications when mobile 
ICBMs and mobile ICBM launchers change deployed/nondeployed status or 
are moved to other facilities. The presence of unique identifiers on 
all ICBMs, in combination with these factors, will further facilitate 
our ability to monitor the status of Russian mobile ICBMs. I believe 
these changes will be of benefit to both parties by preserving 
transparency and predictability.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                           nnsa modernization
    9. Senator McCain. Dr. Miller, Mr. D'Agostino, and General Chilton, 
as I stated in my opening remarks, the House Appropriations Energy and 
Water Subcommittee marked up its fiscal year 2011 spending bill and did 
not fully fund the President's fiscal year 2011 request for the weapons 
complex. Given the criticality of funding to modernize the weapons 
complex--which just last month General Chilton stated was not only 
important but ``essential''--is the President committed to ensuring 
that NNSA receive the full $624 million increase as proposed in his 
fiscal year 2011 budget? If so, will you recommend that the President 
veto any appropriation that does not meet his full request for the 
nuclear weapons complex?
    Dr. Miller. As the 2010 NPR report and the fiscal year 2011 budget 
request make clear, the President is fully committed to the 
modernization of the nuclear weapons complex. The administration 
remains fully committed to full funding for the NNSA in fiscal year 
2011 and future years.
    Mr. D'Agostino. The President is committed to ensuring the NNSA 
receives the full $624 million increase in funding for weapons 
activities as reflected in his budget proposal for fiscal year 2011. 
The President's fiscal year 2011 budget proposal initiates a multi-year 
investment plan with substantial budget increases to extend the life of 
the stockpile, redress shortfalls for stockpile surveillance activities 
and stockpile certification through investments in the science, 
technology, and engineering base, and maintain and modernize the 
supporting infrastructure.
    I would not support an appropriation that did not allow the United 
States to ensure the safety, security, and effectiveness of the U.S. 
nuclear weapons deterrent, and if asked by the President for my 
recommendation on this matter, I would advise him accordingly.
    General Chilton. Funding the modernization of the Nation's weapons 
complex is critical and the President's fiscal year 2011 budget is the 
essential first step for doing so. As a combatant commander, I strongly 
support the full fiscal year 2011 appropriation. The fiscal year 2011 
President's budget request resulted from close coordination between 
DOD, DOE, and the administration and represents an important first step 
in recapitalizing our infrastructure to more effectively sustain our 
stockpile and manage risk. Long-term strategic system sustainment and 
infrastructure improvements will require the administration and 
Congress to work together to fully fund NNSA requirements.

    10. Senator McCain. Mr. D'Agostino, in his prepared remarks for our 
hearing last week, Dr. Michael Anastasio, Director of Los Alamos 
National Laboratory, stated that he ``fear[s] that there is already a 
gap emerging between expectations and fiscal realities'' and that he is 
``concerned that in the administration's section 1251 report, much of 
the planned funding increase for weapons activities do not come to 
fruition until the second half of the 10-year period.'' Why do you 
suspect Dr. Anastasio believes that some of the funding outlined in the 
1251 report should be shifted to the first half of the 10-year period?
    Mr. D'Agostino. I cannot speculate with regard to Dr. Anastasio's 
statement. The funding plan identified in the report titled ``The New 
START treaty Framework and Nuclear Force Structure Plans,'' submitted 
to Congress pursuant to section 1251 of the National Defense 
Authorization Act for Fiscal Year 2010 (the 1251 report), builds from 
analysis completed for the fiscal years 2011-2015 Future Years Nuclear 
Security Program (FYNSP), which was shaped by the NNSA's assessment of 
the ability of the Nuclear Security Enterprise to efficiently ramp-up 
within the constraints of time, capacity, and capability to spend 
increased funds to redress mission shortfalls.
    As part of the budget development process, I invited the 
Integration Council to offer its insights and analysis, unfettered by 
any ceiling or constraint. Program managers were tasked with a 
different assignment that focused on executability. My leadership team 
and I then worked through all the competing priorities to offer a 
budget proposal to Secretary Chu that balanced needs and priorities 
against the ability to execute a spending profile, which the Office of 
Management and Budget and the President supported. The resulting budget 
request is more conservative in the first 2 years of the FYNSP, based 
on this approach. But an equally important consideration is that we 
will not have a validated baseline for four major projects called for 
by the NPR and the President. These are the B61 and W78 life extension 
programs (LEP) and the two material processing facilities: the 
Chemistry and Metallurgy Research Replacement (CMRR) Nuclear Facility 
and the Uranium Processing Facility (UPF). These baselines may drive a 
different out-year view of requirements. The funding requirements 
identified to date represent the most complete view of needs until 
these projects reach validation.

                    force structure under new start
    11. Senator McCain. General Chilton, the 1251 report outlined a 
``baseline nuclear force structure'' which specifies retaining up to 
420 deployed ICBMs, a cut of at least 30 silos; up to 60 nuclear-
capable bombers, a reduction of 34; and all of the current 14 ballistic 
missile submarines (SSBN), with no more than 240 SLBMs deployed at any 
time. Given the provided ranges account for 720 delivery vehicles, 20 
above the deployed limit under the New START, when does DOD intend to 
provide the Senate with its final force structure?
    General Chilton. Let me begin by stating the force structure 
construct as reported in the section 1251 report is sufficient to meet 
the Nation's strategic deterrence mission. Furthermore, the New START 
treaty provides flexibility to manage the force drawdown while 
maintaining an effective and safe strategic deterrent. DOD is working 
to determine force structure concepts of operations and provide 
recommendations that meet national strategic requirements and New START 
treaty central limits, which we do not have to meet until 7 years after 
the treaty's entry into force. STRATCOM is engaged with Office of the 
Secretary of Defense, the military departments, and interagency 
partners to develop implementation plans that will address guidance 
received and sustain operational flexibility.

    12. Senator McCain. General Chilton, have you yet estimated how the 
Russians will configure their strategic forces under the New START?
    General Chilton. This topic is addressed in the National 
Intelligence Estimate (NIE) on monitoring the New START treaty, which 
was provided to the Senate on June 30, 2010.

    13. Senator McCain. General Chilton, have you also conducted a net 
assessment to determine if the United States can carry out its 
deterrence mission under a likely mixed Russian strategic and tactical 
nuclear weapons force structure? If so, please provide details.
    General Chilton. The New START treaty's lower strategic force 
levels are based on force analyses conducted during the NPR. Among 
other things, these analyses considered:

        <bullet> The ability to meet current policy guidance;
        <bullet> Deterrence and extended deterrence;
        <bullet> Assurance of friends and allies;
        <bullet> The need to hedge against possible technical and 
        geopolitical developments through changes in U.S. force posture 
        and structure both within and outside treaty limits; and
        <bullet> The nuclear arsenals of other declared nuclear weapon 
        states, as well as the nuclear programs of proliferant states.

    The conclusion of the NPR analyses was that stable deterrence could 
be maintained at lower strategic force levels, including those 
eventually agreed to in the New START treaty.
    Regarding tactical nuclear weapons, the vast majority of tactical 
nuclear weapons do not directly influence the strategic nuclear balance 
between the United States and Russia because of their limited range and 
different roles. Although numerical asymmetry in tactical nuclear 
weapons exists, when considered within the context of our total 
capability, and given the force levels as structured in the New START 
treaty, we assess that our strategic deterrent will be effective in the 
future.
    Further, within the regional context, in order to support extended 
deterrence and power projection, the United States possesses many 
diverse capabilities, including strategic and tactical nuclear weapons, 
superior conventional forces, ballistic missile defenses, and advanced 
technologies. We also benefit from significant allied nuclear and 
conventional capabilities. As President Obama stated in Prague last 
year, we are committed to maintaining a safe, secure, and effective 
nuclear arsenal to deter any adversary and guarantee that defense to 
our allies.

                       start and missile defense
    14. Senator McCain. Dr. Miller, irrespective of threats from the 
Russians to withdraw from the treaty, is this administration committed 
to funding, developing, and deploying all elements of the PAA for 
missile defense in Europe as well as implementing the strategy as 
portrayed in the Ballistic Missile Defense Review (BMDR)?
    Dr. Miller. Yes. As outlined during the announcement of the PAA to 
missile defense in Europe last September and in the 2010 Report of the 
BMDR, while further advances in technology or future changes in the 
threat could modify the details or timing of later phases, we plan to 
deploy all four phases of the PAA in Europe, including Phase Four.

                           dual-capable f-35
    15. Senator McCain. General Chilton, the development of the dual-
capable, nuclear and conventional, variant of the F-35 to replace aging 
dual-capable F-16s is a primary driver for the B-61's 2017 deadline. 
How critical is the timely delivery of the dual-capable F-35 to the 
extended deterrence mission?
    General Chilton. Let me begin by clarifying that the B-61 LEP is 
not dependent on either F-16 Service Life Extension or F-35 
development. The B-61 LEP is required to replace aging components in 
the strategic and tactical variants of that weapon. Additionally, the 
B-61 LEP will ensure the weapon is compatible with both aircraft. The 
NPR makes a clear commitment to retain the capability to forward-deploy 
U.S. nuclear weapons on tactical fighter-bombers and proceed with a 
full scope life extension for the B-61. Both are key components of a 
broader strategy to accomplish U.S. non-proliferation and deterrence 
goals.

    16. Senator McCain. General Chilton, how confident are you that it 
will be available as scheduled in 2017?
    General Chilton. Based on the recent F-35 program restructure and 
Nunn-McCurdy breach, a new program baseline is currently in work and 
those results will help inform the Air Force regarding any possible 
effects on the Dual Capable Aircraft timeline. Whatever the effects on 
the Dual Capable Aircraft timeline, I support the maintenance of the 
Dual Capable Aircraft mission until the F-35 is fully capable of 
performing it.

                          prompt global strike
    17. Senator McCain. General Chilton, while the treaty does not 
prohibit the development and deployment of long-range conventional 
strike capabilities, it does stipulate that conventional warheads 
placed on ICBMs or SLBMs will be counted under the overall strategic 
nuclear warhead ceiling. How will this tradeoff affect the development 
and the deployment of our future prompt global strike (PGS) capability?
    General Chilton. NPR analysis concluded that New START treaty 
strategic delivery vehicle and strategic warhead limits allowed 
retention of a margin above the minimum required nuclear force 
structure for the possible addition of non-nuclear PGS capabilities 
(conventionally-armed ICBMs or SLBMs) that would be accountable under 
the treaty. Additional decisions will be required to determine the U.S. 
force structure composition under the limit of 700 deployed ICBMs, 
SLBMs, and heavy bombers under the New START treaty. The final 
decisions will be made during the 7 years of implementation before the 
limit takes effect. During that period, DOD will continue 
modernization, sustainment, and operation of U.S. nuclear forces.
    Whether deployment of PGS would require additional adjustment in 
the number of U.S. deployed ICBMs and SLBMs will be a function of the 
type of PGS system developed and deployed, because some PGS systems 
under consideration for deployment would not count against the New 
START limits. Given this uncertainty, it is premature to speculate on 
where possible reductions of other strategic systems may come from, or 
whether further reductions will even be necessary. The number of such 
conventionally-armed delivery vehicles and the warheads they carry 
would be very small when measured against the overall levels of 
strategic delivery systems and strategic warheads. Should we decide to 
deploy them, counting this small number of conventional strategic 
systems and their warheads toward the treaty limits will not prevent 
the United States from maintaining a robust, fully adequate nuclear 
deterrent.

                           b-61 reprogramming
    18. Senator McCain. Mr. D'Agostino, DOE recently submitted a 
request to reprogram $53 million of the NNSA fiscal year 2010 
appropriated budget to support urgent funding for the B-61 LEP study. 
How critical is the timely approval of this reprogramming request?
    Mr. D'Agostino. The reprogramming is essential for the NNSA to 
complete the design definition and cost study in 2011 and meet DOD's 
first production unit requirement of 2017. The funds provide critical 
resources to ramp up design agency and production technical staff and 
continue maturation of technologies, including enhanced surety 
concepts.

    19. Senator McCain. Mr. D'Agostino, what would the consequences of 
denying such a request have on meeting the critical 2017 deadline?
    Mr. D'Agostino. The NNSA was pleased to receive approval for the 
reprogramming. The program is committed to meet the challenging 
schedule of a fiscal year 2017 first production unit.

    20. Senator McCain. Mr. D'Agostino, is the fiscal year 2011 and the 
future years budget plan sufficient to support the fiscal year 2017 
delivery of the B-61 and to maintain the W-76 schedule?
    Mr. D'Agostino. The budget for fiscal year 2011 is sufficient for 
the B61. The fiscal year 2011 budget request of $252 million provides 
the needed funds to complete the design definition and cost study and 
develop technologies in fiscal year 2011 to support the fiscal year 
2017 first production unit. The Phase 6.2A cost study will develop 
budget quality estimates for fiscal year 2012 and beyond. The NNSA will 
document these in the Weapon Data Cost Report. Current estimates in the 
fiscal years 2011-2015 FYNSP are based on analysis of previous LEPs and 
will be updated, as needed, once the B61 study is completed and Phase 
6.3 is authorized.
    The W76 budget is sufficient to meet the planned production rate. 
If implementation of the NPR changes the planned annual production 
requirement, NNSA will rebaseline the program and update the budget 
request.

    21. Senator McCain. Mr. D'Agostino, is there any likelihood of the 
B-61 production slipping as a result of budget issues in fiscal years 
2010-2012?
    Mr. D'Agostino. The risks to the fiscal year 2017 schedule for the 
first production unit (FPU) will be determined as part of the B61 
study. FPU risks are dependent on the detailed schedules associated 
with development and production engineering and will be affected by the 
down-selection of technologies, including decisions to implement 
enhanced surety technologies.

                      verifying the warhead limit
    22. Senator McCain. Dr. Miller and General Chilton, under the 
treaty, any missile can carry any number of warheads, as long as the 
total does not exceed 1,550, but it's unclear as to how we will verify 
this number. Warhead loadings are unobservable with national technical 
means and the treaty's onsite inspection measure simply tells us how 
many warheads a missile has at a particular base. If, for example, we 
learn during one of these inspections that a missile the Russians said 
was loaded with 3 warheads is now loaded with 6, how does that help us 
find out if the Russians exceeded the overall 1,550 limit?
    Dr. Miller. [Deleted.]
    General Chilton. The New START treaty's annual quota of 10 Type One 
inspections will allow the United States to confirm the accuracy of 
declared data on the numbers of warheads emplaced on designated, 
deployed ICBMs and SLBMs. As part of a multi-faceted verification 
regime which includes comprehensive data exchanges, notifications, 
unique identifiers, and non-interference with National Technical Means, 
these onsite inspections will help to confirm compliance with the 
Article II central limit of 1,550 warheads on deployed ICBMs, deployed 
SLBMs, and nuclear warheads counted for deployed heavy bombers.
    A classified answer will be provided separately. Additional 
information on this issue is also contained in the July 30, 2010 letter 
to you from Secretary Gates and the New START NIE on monitoring the New 
START treaty, published on June 30, 2010.

    23. Senator McCain. Dr. Miller and General Chilton, is there any 
scenario that could lead the United States to conclude unequivocally 
from these inspections that the Russians are in violation of the 
treaty's 1,550 limit?
    Dr. Miller and General Chilton. Although monitoring all reentry 
vehicles emplaced on deployed ICBMS and SLBMs will be difficult under 
the New START treaty, most large-scale breakout scenarios would likely 
involve activity that could be observable over time. In assessing 
Russian compliance with the New START treaty, the United States would 
use not only onsite inspections, but also data exchanges, 
notifications, and national technical means of verification.
    Information on this issue at the classified level is contained in 
the July 30, 2010 letter to you from Secretary Gates, and in the New 
START treaty NIE, published on June 30, 2010.

    24. Senator McCain. Dr. Miller and General Chilton, what tactics or 
excuses can the Russians use to keep our inspectors away from missiles 
whose warheads they do not want us to see?
    Dr. Miller and General Chilton. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                     delivery system modernization
    25. Senator Inhofe. General Chilton, press reports indicate that 
the administration will invest $100 billion over the next decade in 
nuclear delivery systems. About $30 billion of this total will go 
toward development and acquisition of a new strategic submarine. Of the 
remaining $70 billion, STRATCOM estimates that the cost of maintaining 
our current nuclear forces is approximately $56 billion over this 
period.
    This leaves roughly $14 billion for:

        <bullet> Next generation bomber
        <bullet> Follow-on ICBM
        <bullet> Follow-on nuclear air-launched cruise missile (ALCM)
        <bullet> Conventional PGS capability

    In fact, the 1251 modernization report does not even make a 
commitment to go forward with these delivery systems. Is $100 billion a 
sufficient investment in our nuclear delivery systems over the next 
decade?
    General Chilton. The section 1251 report, ``New START Framework and 
Nuclear Force Structure Plans,'' provided to Congress, which is the 
basis for the estimate of $100 billion costs over 10 years for delivery 
systems, included costs for which there are currently programs of 
record. As stated in the one-page, unclassified summary of the section 
1251 report, the administration intends to invest well over $100 
billion in modernizing strategic delivery systems. DOD is currently 
conducting an analysis of alternatives (AoA) for a possible follow-on 
ALCM, and is assessing future heavy bomber requirements in a study of 
long-range strike capabilities that will be completed in fall 2010. In 
addition, the Air Force is initiating a study of future ICBM concepts 
and requirements. As these studies are completed, and subsequent 
decisions taken, the estimate for costs of strategic delivery systems 
in the next decade will likely change.

    26. Senator Inhofe. General Chilton, what assurances can you 
provide that the administration is committed to modernizing the above 
programs?
    General Chilton. The President's budget provides funding to address 
our Nation's most critical needs to update and modernize our deterrent 
and global strike capabilities. It represents a 10 percent increase in 
fiscal year 2011 over fiscal year 2010. As for STRATCOM, our intent is 
to continue to advocate for the necessary capabilities to support 
strategic deterrence. It is clear that a long-term commitment, 
reflected in consecutive budget submissions and sustained congressional 
support, will be required.

    27. Senator Inhofe. General Chilton, why aren't they addressed in 
the 1251 report?
    General Chilton. The estimates in the section 1251 report include 
programs planned for fiscal years 2011-2015, and the administration's 
current best estimate of fiscal years 2016-2020 costs. As some programs 
are yet to be fully defined, such as the Minuteman III ICBM follow-on, 
the ALCM follow-on, and the follow-on bomber, their costs across the 
entire period are not included because they are not yet known. As 
specific decisions are made regarding these systems, the necessary 
funding will be requested in future DOD budget requests.

                        tactical nuclear weapons
    28. Senator Inhofe. General Chilton, the Strategic Posture 
Commission Report indicates a disparity of 3,800 Russian tactical 
nuclear weapons versus less than 500 for the United States. What are 
your thoughts on how the United States will engage Russia on its 
overwhelming number of tactical nuclear weapons?
    General Chilton. The vast majority of tactical nuclear weapons do 
not directly influence the strategic nuclear balance between the United 
States and Russia because of their limited range and different roles. 
Although numerical asymmetry in tactical nuclear weapons exists, when 
considered within the context of our total capability, and given the 
force levels as structured in the New START treaty, we assess that our 
strategic deterrent will be effective in the future. The force 
structure we will retain under the New START treaty will preserve our 
capability to upload our strategic nuclear delivery systems if 
necessary. Further, within the regional context, in order to support 
extended deterrence and power projection, the United States possesses 
many diverse capabilities including strategic and tactical nuclear 
weapons, superior conventional forces, ballistic missile defenses and 
other advanced capabilities. We also benefit from significant allied 
nuclear and conventional capabilities.
    The Perry-Schlesinger Congressional Strategic Posture Commission 
recommended deferring negotiations on tactical nuclear weapons until 
after a treaty successor agreement to the START treaty had been 
concluded. Additionally, pursuant to the 2010 NPR, and as the President 
reiterated at the signing of the New START treaty, the United States 
intends to engage Russia regarding broader reductions in strategic and 
tactical nuclear armaments, including nondeployed weapons. The number 
and role of tactical nuclear weapons in the Russian nuclear arsenal 
warrant addressing them in future discussions.

    29. Senator Inhofe. Dr. Miller, what impact will this disparity 
have on allied views of the U.S. nuclear umbrella?
    Dr. Miller. Because of their limited range and different roles, 
tactical nuclear weapons do not directly influence the strategic 
balance between the United States and Russia. Furthermore, within the 
regional context, the United States relies on additional capabilities 
to support extended deterrence and power projection, including 
conventional force capabilities, ballistic missile defenses, allied 
capabilities, advanced technologies, and modernization and maintenance 
of existing forces, to name a few. As President Obama stated in Prague 
last year, we are committed to maintaining a safe, secure, and 
effective nuclear arsenal to deter any adversary and guarantee that 
defense to our allies. During the NPR consultations, our NATO allies 
were engaged on the issue of extended deterrence and were assured of 
our continued commitment to their defense. Allies have welcomed the 
outcome of the NPR, as well as the signing of the New START treaty.

    30. Senator Inhofe. Dr. Miller, what leverage do we have to address 
this disparity in the future, and why didn't we make this an objective 
for this agreement?
    Dr. Miller. A more ambitious treaty--one that addressed tactical 
nuclear weapons or additional nuclear weapons states--would have taken 
much longer to complete, adding significantly to the time before a 
successor agreement, including verification measures, could enter into 
force following START's expiration in December 2009. Following 
ratification and entry into force of the New START treaty, we intend to 
pursue further negotiations with Russia on measures to reduce both 
strategic and tactical nuclear weapons, including nondeployed nuclear 
weapons.
    Leverage for future negotiations will come from several directions. 
The Russians are concerned with the totality of the U.S. nuclear 
stockpile, particularly the upload capability of our strategic 
ballistic missiles, as well as U.S. tactical nuclear weapons forward-
deployed in NATO countries. Also, Article VI of the Nuclear 
Nonproliferation Treaty (NPT) stipulates that nuclear weapons states 
are to work toward achieving nuclear disarmament. The Russians want to 
be seen favorably as working toward this goal. President Medvedev has 
expressed interest in further discussions on measures to further reduce 
both nations' nuclear arsenals. As stated in the April 2010 NPR and by 
the President at the signing of the New START treaty in Prague, we 
intend to raise strategic and tactical nuclear weapons, including 
nondeployed nuclear weapons, in those discussions.

    31. Senator Inhofe. Dr. Miller, what would the United States use to 
negotiate another arms control agreement with Russia to get them to 
agree to reduce their thousands and thousands of tactical nuclear 
weapons?
    Dr. Miller. The New START treaty sets the stage for further 
negotiations with Russia on measures to reduce both strategic and 
tactical nuclear weapons, including nondeployed nuclear weapons. 
President Medvedev has expressed interest in further discussions on 
measures to further reduce both nations' nuclear arsenals. We intend to 
raise strategic and tactical nuclear weapons, including nondeployed 
nuclear weapons, in those discussions.
    While it is premature at this stage to discuss what our negotiating 
strategy might be, leverage for future negotiations will come from 
several directions. The Russians are concerned with the totality of the 
U.S. nuclear stockpile, particularly the upload capability of our 
strategic ballistic missiles, as well as U.S. tactical nuclear weapons 
forward-deployed in NATO countries. Also, Article VI of the NPT 
stipulates that nuclear weapons states are to work toward achieving 
nuclear disarmament. The Russians want to be seen as favorably working 
towards this goal.

                         nuclear warhead levels
    32. Senator Inhofe. General Chilton, during his nomination hearing 
on July 9, 2009, General Cartwright expressed the view that he ``would 
be very concerned'' if we got below 800 deployed delivery vehicles. The 
New START establishes a level of 700 deployed strategic delivery 
vehicles. Are you concerned that this number is 100 below General 
Cartwright's comfort level?
    General Chilton. No, I am not concerned. The decision to agree to a 
limit of 700 deployed strategic delivery vehicles resulted from an 
updated assessment of U.S. force deployment options in the light of 
different counting rules under New START. General Cartwright's 
statement was made in the context of the previous START treaty's 
counting rules; subsequently, New START provisions were agreed. These 
include an agreement not to count nondeployed ICBMs and SLBMs as part 
of the central limit on delivery vehicles, not to count converted 
individual SLBM launchers on strategic submarines, and not to count 
bombers that have been converted to conventional-only missions. Because 
of these provisions, under the 700 limit of the New START treaty, the 
United States will be able to retain all 14 SSBNs, while reducing the 
number of deployed SLBM launchers by 96 (from 336 to 240). In addition, 
the United States will convert a subset of the B-52H bombers to a 
conventional-only role, so that they are no longer accountable under 
the treaty.
    In sum, the treaty's limits of 700 deployed strategic delivery 
vehicles will support strategic stability by allowing the United States 
to retain a robust triad of strategic delivery systems.

    33. Senator Inhofe. General Chilton, are you concerned that at 
lower levels the military will not be able to carry out its deterrence 
missions?
    General Chilton. No. I am confident that the military will maintain 
a reliable and effective deterrent.
    The New START treaty's lower strategic force levels are based on 
force analyses conducted during the NPR. Among other things, these 
analyses considered:

        <bullet> The ability to meet current policy guidance;
        <bullet> Deterrence and extended deterrence;
        <bullet> Assurance of friends and allies;
        <bullet> The need to hedge against both technical and 
        geopolitical developments; and
        <bullet> The nuclear arsenals of other declared nuclear weapon 
        states, as well as the nuclear programs of proliferant states.

    The conclusion of the NPR analyses was that stable deterrence could 
be maintained at lower strategic force levels.
    Throughout the NPR process and during New START treaty 
negotiations, STRATCOM played important analytical and advisory roles. 
As the combatant command responsible for strategic deterrence planning, 
advocating for related capabilities, and executing operations at the 
President's direction, no other military organization has the necessary 
analytical skills and expertise to advise the Secretary of Defense 
fully on these matters. Our team analyzed nuclear weapons and delivery 
vehicle force structure options and postures necessary to meet the 
current guidance. STRATCOM's involvement in and support to the NPR was 
both thorough and continuous.
    The breadth and depth of our analysis, evaluations, and involvement 
in the treaty-making process give me confidence that the result will 
not constrain the ability of the United States to continue to deter 
potential adversaries, assure our allies, and sustain strategic 
stability.

    34. Senator Inhofe. General Chilton, are you concerned about the 
survivability of U.S. forces at lower levels--certainly, the 
implications of cheating become more profound?
    General Chilton. No.
    Russia would not be able to undermine the strategic balance between 
the United States and Russia because a portion of the U.S. ballistic 
missile submarine force is always at sea at any given time, and capable 
of launching Trident II SLBMs. These highly survivable submarines and 
the weapons they carry provide survivable, credible assurance of the 
abilities of the United States to execute a response to an attack on 
the U.S. or our interests.
    Further, when considering the utility of a hypothetical breakout 
and potentially disarming first strike, Russia will be able to have 
significant confidence that the United States has retained a highly 
responsive force of up to 420 single warhead Minuteman III ICBMs 
deployed in hardened silos. Russian consideration of such a strike 
would always have to factor in the ability of the U.S. President to 
decide to launch those ICBMs while under attack, a decision that would 
enable a large portion of the ICBM force to deliver their warheads to 
Russian targets. Our analysis has clearly demonstrated that additional 
Russian warheads, even significantly above the treaty limits, would do 
nothing to threaten the survivability of U.S. ballistic missile 
submarines at sea or bombers when on alert. Nor would they guarantee 
the destruction of all U.S. land-based ICBMs.
    In summary, additional Russian warheads above the New START limits 
would have little to no effect on the U.S. assured and survivable 
second-strike capabilities that underwrite our strategic deterrence 
posture.

    35. Senator Inhofe. General Chilton, are you concerned that other 
countries may view lower U.S. force levels as an opportunity to gain 
parity with the United States in nuclear capability?
    General Chilton. No.
    The only nation that could potentially compete with the United 
States or Russia in nuclear weapons is the People's Republic of China. 
The New START limits will permit the United States to maintain forces 
well above China's. Chinese spokesmen have stated that China does not 
seek to attain numerical parity with Russia or the United States, and 
its nuclear arsenal remains much smaller than U.S. and Russian 
arsenals. As a declared nuclear weapon state under the NPT, China's 
restraint in its nuclear modernization is important to nuclear 
disarmament and global nonproliferation efforts. We look to China to be 
more transparent about its strategic programs and to show restraint in 
them.

    36. Senator Inhofe. General Chilton, are you concerned that at 
lower levels of U.S. forces, our allies may come to doubt the 
credibility of U.S. nuclear security guarantees--especially if the 
Russians maintain large numbers of tactical nuclear weapons?
    General Chilton. The New START treaty's lower strategic force 
levels are based on force analyses conducted during the NPR. Among 
other things, these analyses considered:

        <bullet> The ability to meet current policy guidance;
        <bullet> Deterrence and extended deterrence;
        <bullet> Assurance of friends and allies;
        <bullet> The need to hedge against both technical and 
        geopolitical developments; and
        <bullet> The nuclear arsenals of other declared nuclear weapon 
        states, as well as the nuclear programs of proliferant states.

    The conclusion of the NPR analyses was that stable deterrence could 
be maintained at lower strategic force levels.
    As part of the NPR consultations, our NATO allies were engaged on 
the issue of extended deterrence and were assured of our continued 
commitment to their defense. U.S. allies have welcomed the outcome of 
the NPR, as well as the signing of the New START treaty. In fact, their 
response to the New START treaty has been overwhelmingly positive. NATO 
Secretary General Anders Fogh Rasmussen himself welcomed the agreement 
as an important contribution to arms control and an inspiration for 
further progress.

                         modernization funding
    37. Senator Inhofe. Mr. D'Agostino, in your written testimony you 
state that the President's fiscal year 2011 budget request is ``exactly 
right.'' The administration has requested a $10 billion increase over 
10 years for modernization. Yet the CMRR Nuclear Facility in New Mexico 
and the UPF in Tennessee nuclear material facilities will likely cost 
more than $7 billion by the time they are complete. This leaves $3 
billion to conduct three warhead overhauls and restore stockpile 
stewardship and stockpile surveillance. Is this amount really 
sufficient?
    Mr. D'Agostino. The funding identified in the President's budget 
request for the NNSA fiscal years 2011-2015 FYNSP represents my and the 
administration's assessment of what is required over the next decade. 
This includes significant funding increases, which start at $624 
million in fiscal year 2011 and increase to $1.64 billion in fiscal 
year 2015, and sustained investments at these higher levels such that 
over the next decade the United States will have invested $80 billion 
in the Nuclear Security Enterprise. This will support required 
maintenance and surveillance activities, investments in science, 
technology, and engineering, modernization of physical infrastructure, 
and essential investment in human capital. It will also support 
specific critical activities, including: design and initial 
construction of the CMRR Nuclear Facility; design and initial 
construction of the UPF; creation of a sustainable plutonium pit 
manufacturing capacity at the PF-4 facility; completion of the LEP for 
the W76 warhead and the B61 bomb; and beginning LEP studies to explore 
the path forward for the W78 ICBM and the W88 SLBM systems.
    But an equally important consideration is that we do not have a 
validated baseline for four major projects called for by the NPR and 
the President: the B61 and W78 LEPs, the CMRR Nuclear Facility, and the 
UPF. These baselines may drive a different out-year view of 
requirements. The funding requirements identified to date represent the 
most complete view of needs until these projects reach validation. Out-
year requirements will be adjusted if necessary as baselines for these 
activities are validated.

    38. Senator Inhofe. Mr. D'Agostino, since 70 percent of these funds 
will not show up until 2016, what near-term risk do you foresee in this 
budget plan?
    Mr. D'Agostino. The funding increases identified in the President's 
budget request for the NNSA fiscal years 2011-2015 FYNSP, which start 
at $624 million in fiscal year 2011, ramp up to $1.64 billion in fiscal 
year 2015, and then continue at the higher levels in the out-years, 
will support required maintenance and surveillance activities, 
investments in science, technology, and engineering, modernization of 
physical infrastructure, and essential investment in human capital. The 
progressive funding profile supports all identified programmatic 
requirements and represents a manageable and executable investment in 
NNSA's national security mission.

    39. Senator Inhofe. Mr. D'Agostino, you also state that one of your 
priorities is to ``strengthen the science, technology, and engineering 
base,'' yet most of these funds are clearly for facility improvements. 
Additionally, during the hearing with the lab directors last week, the 
committee heard that 37 percent of the experienced technical staff in 
the weapons system and component design at the Sandia lab are over the 
age of 55. This concerns me. How are we going to retain this expert 
workforce?
    Mr. D'Agostino. This is an important issue that the NNSA will 
continue to monitor. We are adding additional investments into our 
science, technology, and engineering base. The NNSA will ensure the 
right skill mix is maintained for the future within the Federal and 
contractor workforce to accomplish its mission by attracting and 
retaining the top national talent and expertise to provide key nuclear 
weapon scientific understanding. Actions that NNSA is taking include 
promoting cross-training of critical skills and knowledge management/
transfer for mission critical skills. I believe that challenging work, 
combined with a national-level commitment to transform the NNSA nuclear 
weapons complex into a modern, world-class 21st century Nuclear 
Security Enterprise, will provide the environment to attract and retain 
the best and brightest scientists and engineers available. This 
national-level commitment was made evident by the administration's NPR 
and the fiscal year 2011 budget request for the NNSA. In addition, 
defense initiatives beyond stockpile stewardship, such as nuclear 
forensics and attribution, and treaty verification activities, provide 
a broadened mission that will push the envelope of nuclear technology 
and further challenge and develop our nuclear security professionals.

    40. Senator Inhofe. Mr. D'Agostino, can critical nuclear weapons 
design skills, including plutonium pit design and production, be 
preserved solely through reuse or refurbishment as the administration's 
NPR policy suggests?
    Mr. D'Agostino. The United States has made the decision not to 
design and produce new warheads; however, we will preserve our critical 
nuclear weapon design skills. The capabilities needed to design a new 
warhead include knowledgeable designers, along with a responsive, 
capable research and development and manufacturing infrastructure. 
These are the same capabilities and skill sets utilized when completing 
weapon life extensions. Instead of honing and demonstrating these 
skills through an ongoing program to design, develop, and test new 
nuclear weapon designs, such as was done during the Cold War, the NNSA 
is strengthening our science, technology, and engineering capabilities 
to sustain these core skills.

    41. Senator Inhofe. Mr. D'Agostino, do you have confidence that in 
25 years from now, we will understand every skill required to 
manufacture a new nuclear warhead, if the Nation requires one?
    Mr. D'Agostino. Yes. The United States has made the decision not to 
design and produce new warheads; however, we will preserve our critical 
nuclear weapon design skills. The capabilities needed to design a new 
warhead include knowledgeable designers, along with a responsive, 
capable research and development and manufacturing infrastructure. 
These are the same capabilities and skill sets utilized when completing 
weapon life extensions. The investments of this administration provide 
the necessary skill sets and infrastructure that will ensure that 
future technical competencies and capabilities are in place to support 
nuclear deterrence.

                          verification regime
    42. Senator Inhofe. General Chilton, you state in your prepared 
testimony that ``New START will reestablish a strategic nuclear arms 
control verification regime that provides intrusive access to Russian 
nuclear forces and a measure of predictability in Russian force 
deployments over the life of the treaty.'' However, the New START 
verification regime is clearly less stringent than that found in the 
expired START I. For example, there are fewer onsite inspections, a 
weakening of telemetry exchange provisions, and no longer any 
continuous monitoring of missile production facilities. Is the 
verification in the treaty adequate to give us the same understanding 
of new Russian systems as we have of current Russia systems thanks to 
START I?
    General Chilton. The New START treaty verification regime is 
designed to verify each party's compliance with the provisions of the 
treaty just as the START treaty's verification regime was designed to 
verify compliance with that treaty's provisions. Because the New START 
treaty's provisions differ from those of the START treaty, the New 
START treaty requires a different set of verification measures. The 
number of inspections permitted in the START treaty and the New START 
treaty is not a simple ``apples to apples'' comparison. For example, 
although the New START treaty allows fewer inspections, its Type One 
inspections at ICBM and SSBN bases combine the key attributes of the 
START treaty's reentry vehicle onsite inspections and data update 
inspections. Additionally, the number of facilities for which Russia 
provided site diagrams and which will therefore be inspectable under 
the New START treaty (35) is significantly lower than the number 
confiscatable facilities in the former Soviet Union when the START 
treaty entered into force (70). This is due to the fact that Belarus, 
Kazakhstan, and Ukraine no longer have strategic offensive arms and 
therefore are not parties to the New START treaty, as well as that 
Russia now has fewer facilities where strategic offensive arms are 
located than it had when START entered into force.
    According to the document titled ``New START Treaty--The 
Determination Pertaining to Verification,'' dated July 12, 2010, 
prepared in accordance with Section 306 of the Arms Control and 
Disarmament Act, the administration concluded that the combination of 
improved U.S. understanding of Russian strategic forces resulting from 
the implementation of the START treaty, U.S. NTM capabilities, the New 
START treaty's verification provisions, and a favorable posture for 
deterring cheating or breakout, results in a New START treaty that is 
effectively verifiable. Finally, the New START treaty's verification 
regime will provide far more insight into Russian strategic nuclear 
forces than having no onsite inspection access at all, which is 
currently the case.
    With regard to telemetry exchange provisions, the START treaty had 
obligations, prohibitions, and limitations that required analysis of 
telemetric information in order to verify a party was complying with 
the provisions of the treaty. The START treaty therefore required the 
exchange of telemetry on all ballistic missile launches. However in New 
START, there are no specific obligations, prohibitions, or limitations 
that require telemetric information to verify compliance. To promote 
transparency and predictability, New START allows for the exchange of 
telemetry on up to five ballistic missile launches per year.

    43. Senator Inhofe. General Chilton, how important is it that we 
get telemetry of new Russian missile tests in order to understand the 
capabilities of those systems?
    General Chilton. Please see the NIE on Monitoring the New START 
Treaty, which was provided to the Senate on June 30, 2010.

    44. Senator Inhofe. General Chilton, don't we need better 
verification at lower force levels than we needed at higher force 
levels?
    General Chilton. Regardless of the specific force levels, the key 
criterion in evaluating whether the New START treaty is effectively 
verifiable is whether the United States would be able to detect, and 
respond to, any attempt by the Russian Federation to move beyond the 
limits of the treaty in a way that has military significance, before 
such an attempt became a threat to U.S. national security. The military 
significance of a cheating scenario depends upon its impact on the 
military capability of the parties and its impact on strategic 
stability. The key to strategic stability is that each side possesses 
strategic nuclear forces able to execute a devastating second strike 
under any war initiation scenario.
    After conducting a thorough analysis, we have concluded that Russia 
will not be able to achieve militarily significant advantage by 
cheating or breakout under New START, principally because of the 
inherent survivability of the planned U.S. strategic force structure-
specifically, our Ohio-class ballistic missile submarines, a number of 
which are at sea at any given time.
    Further, when considering the utility of a breakout and potentially 
disarming first strike, Russia will know with certainty that the United 
States has retained a highly responsive force of up to 420 single 
warhead Minuteman III ICBMs deployed in hardened silos. Russian 
consideration of such a strike would always have to factor in the 
ability of the U.S. President to decide to launch those ICBMs while 
under Russian attack, a decision that would enable a large portion of 
the ICBM force to deliver their warheads to Russian targets. The 
Russian President would almost certainly understand that no matter how 
many warheads Russia launches in an attempt to destroy the U.S. ICBMs, 
the United States would possess the ability to negate the effectiveness 
of a first strike by launching before the Russian warheads reached the 
ICBMs in their silos.
    Therefore, additional Russian warheads above the New START limits 
would have little to no effect on the U.S. assured second-strike 
capabilities that underwrite our strategic deterrence posture.
    However, if Russia were to attempt to gain political advantage by 
cheating or breakout, the United States would be able to rapidly 
respond by increasing the alert levels of SSBNs and bombers, and by 
uploading warheads on SSBNs and ICBMs. This would offset any 
conceivable political benefits the Russians may believe they would gain 
through temporary numerical advantage.

    45. Senator Inhofe. General Chilton, do you agree with the 
statement that any cheating by the Russians will have little, if any, 
impact on our second-strike capability?
    General Chilton. Yes. Russia will not be able to achieve militarily 
significant advantage by cheating or breakout under New START, due to 
the inherent survivability of the planned U.S. strategic force 
structure.
    To undermine the strategic balance, Russia would need to develop 
the means to prevent U.S. Ohio-class ballistic missile submarines, a 
number of which are at sea at any given time, from being able to 
deliver their Trident II SLBMs. These highly survivable submarines and 
the weapons they carry guarantee the ability of the United States to 
execute a response with hundreds of nuclear warheads. Further, when 
considering the utility of a breakout and potentially disarming first 
strike, Russia will know with certainty that the United States has 
retained a highly responsive force of up to 420 single warhead 
Minuteman III ICBMs deployed in hardened silos. Russian consideration 
of such a strike would always have to factor in the ability of the U.S. 
President to decide to launch those ICBMs while under Russian attack, a 
decision that would enable a large portion of the ICBM force to deliver 
their warheads to Russian targets. The Russian President would almost 
certainly understand that no matter how many warheads Russia launches 
in an attempt to destroy the U.S. ICBMs, the United States would 
possess the ability to negate the effectiveness of such a strike by 
launching before the Russian warheads reached the ICBMs in their silos.
    Therefore, additional Russian warheads above the New START limits 
would have little to no effect on the U.S. assured second-strike 
capabilities that underwrite our strategic deterrence posture.
    However, if Russia were to attempt to gain political advantage by 
cheating or breakout, the United States will be able to rapidly respond 
by increasing the alert levels of both SSBNs and bombers, and by 
uploading warheads on SSBNs and ICBMs. This would offset any 
conceivable political benefits the Russians may believe they would gain 
through temporary numerical advantage.

    46. Senator Inhofe. General Chilton, doesn't detecting cheating, 
i.e. strong verification, become more important at the lower levels 
imposed by the New START?
    General Chilton. Regardless of the specific force levels, the key 
criterion in evaluating whether the New START treaty is effectively 
verifiable is whether the United States would be able to detect, and 
respond to, any attempt by the Russian Federation to move beyond the 
limits of the treaty in a way that has military significance, before 
such an attempt became a threat to U.S. national security. The military 
significance of a cheating scenario depends upon its impact on the 
military capability of the parties and its impact on strategic 
stability. The key to strategic stability is that each side possesses 
strategic nuclear forces able to execute a devastating second strike 
under any war initiation scenario.
    After conducting a thorough analysis, we have concluded that Russia 
will not be able to achieve militarily significant advantage by 
cheating or breakout under New START, primarily because of the inherent 
survivability of the planned U.S. strategic force structure--
specifically, our Ohio-class ballistic missile submarines, a number of 
which are at sea at any given time.
    Further, when considering the utility of a breakout and potentially 
disarming first strike, Russia will know with certainty that the United 
States has retained a highly responsive force of up to 420 single 
warhead Minuteman III ICBMs deployed in hardened silos. Russian 
consideration of such a strike would always have to factor in the 
ability of the U.S. President to decide to launch those ICBMs while 
under Russian attack, a decision that would enable a large portion of 
the ICBM force to deliver their warheads to Russian targets. The 
Russian President would almost certainly understand that no matter how 
many warheads Russia launches in an attempt to destroy the U.S. ICBMs, 
the United States would possess the ability to negate the effectiveness 
of a first strike by launching before the Russian warheads reached the 
ICBMs in their silos.
    Therefore, additional Russian warheads above the New START limits 
would have little to no effect on the U.S. assured second-strike 
capabilities that underwrite our strategic deterrence posture.
    However, if Russia were to attempt to gain political advantage by 
cheating or breakout, the United States will be able to rapidly respond 
by increasing the alert levels of SSBNs and bombers, and by uploading 
warheads on SSBNs and ICBMs. This would offset any conceivable 
political benefits the Russians may believe they would gain through 
temporary numerical advantage.

    47. Senator Inhofe. General Chilton, you state in your prepared 
testimony that ``New START will reestablish a strategic nuclear arms 
control regime that provides intrusive access to Russian nuclear forces 
and a measure of predictability in Russian force deployments over the 
life of the treaty.'' However, the New START verification regime is 
clearly less stringent than that found in the expired START I. For 
example, there are fewer onsite inspections, a weakening of telemetry 
exchange provisions, and no longer any continuous monitoring of missile 
production facilities. The administration says on the one hand that the 
treaty is verifiable, but on the other hand it says that cheating is 
irrelevant. Do you agree cheating is irrelevant?
    General Chilton. I do not think Russian cheating on New START would 
be irrelevant.
    The document titled ``New START Treaty--The Determination 
Pertaining to Verification'' dated 12 July 2010, prepared by the State 
Department in accordance with Section 306 of the Arms Control and 
Disarmament Act, states: ``Russian cheating under the treaty would have 
little, if any, effect on the assured second-strike capabilities of 
U.S. strategic forces. In particular, the survivability and response 
capabilities of strategic submarines and heavy bombers would be 
unaffected by even large-scale cheating.''
    I agree with that statement. Russia will not be able to achieve a 
militarily significant advantage by cheating or breakout under New 
START, due to the inherent survivability of the planned U.S. strategic 
force structure. I would add to the State Department's quote above that 
while our ICBM force is potentially vulnerable to a Russian 
counterforce strike, no Russian leadership could confidently assume 
that the President would not launch ICBMs before attacking Russian 
warheads would arrive.
    If Russia were to attempt to gain political advantage by cheating 
or breakout, the United States will be able to rapidly respond by 
increasing the alert levels of SSBNs and bombers, and by uploading 
warheads on SSBNs and ICBMs. This would offset any conceivable 
political benefits the Russians may believe they would gain through 
temporary numerical advantage.

    48. Senator Inhofe. General Chilton, if it doesn't matter if Russia 
cheats, why do we need the treaty?
    General Chilton. I don't think that it doesn't matter if the 
Russians cheat. Any cheating would be taken very seriously and could 
well become a politically significant issue that could lead to changes 
in U.S. military posture.
    As I articulated in my prepared statement, I believe that there are 
three reasons why the New START agreement represents a positive step 
forward. First, New START limits the number of Russian ballistic 
missile warheads that can target the United States--missiles that pose 
the most prompt threat to our forces and our Nation. Second, New 
START's flexible limits on deployed and nondeployed delivery platforms 
retain sufficient flexibility in managing our triad of deterrent forces 
to hedge against both technical and geopolitical surprise. Third, New 
START will reestablish a strategic nuclear arms control verification 
regime that provides access to Russian nuclear forces and a measure of 
predictability in Russian force deployments over the life of the 
treaty.

    49. Senator Inhofe. General Chilton, did you agree with the 
findings of the NIE?
    General Chilton. The NIE on Monitoring the New START treaty 
presents the IC's assessment of its ability to monitor the treaty based 
on treaty verification measures and available current and projected 
intelligence collection and analytic resources. I have no reason to 
doubt this assessment.

    50. Senator Inhofe. General Chilton, do you believe this new 
verification regime is sufficient to detect large-scale cheating by the 
Russians over the life of the treaty?
    General Chilton. Yes. Please see the classified NIE on Monitoring 
the New START Treaty, published on June 30, 2010.

    51. Senator Inhofe. General Chilton, what do you consider to be 
militarily significant cheating? In other words, how many additional 
ballistic missiles and/or warheads would the Russians have to secretly 
deploy to concern you: 100? 500? 1,000?
    General Chilton. The military significance of a cheating or 
breakout scenario depends upon its effect on the military capability of 
the parties and, in particular, its effect on strategic stability. The 
key to strategic stability is that each side possesses strategic 
nuclear forces capable of executing a devastating second strike under 
any war initiation scenario and the existence of rough parity between 
the parties in strategic offensive arms. Stability in the strategic 
nuclear relationship between the United States and Russian Federation 
depends, therefore, upon the assured capability of each side to deliver 
a sufficient number of nuclear warheads to inflict unacceptable damage 
on the other side, even with an opponent attempting a disarming first 
strike. Consequently, the only Russian breakout or cheating scenario 
that could undermine the basic framework of mutual deterrence that 
exists between the United States and Russia, is a scenario that enabled 
Russia to deny the United States the assured ability to respond against 
a substantial number of highly valued Russian targets following a 
Russian attempt at a disarming first strike.
    Our analysis has clearly demonstrated that additional Russian 
warheads, even significantly above the treaty limits, would do nothing 
to threaten the survivability of U.S. ballistic missile submarines at 
sea or bombers when on alert. Nor would they guarantee the destruction 
of all U.S. land-based ICBMs.
    Therefore, Russia would not be able to achieve a militarily 
significant advantage by cheating or breakout under the New START 
treaty, due to the inherent survivability of the planned U.S. strategic 
force structure--specifically, our SSBNs. Additional Russian warheads 
above the New START treaty limits would have little to no effect on the 
U.S. assured second-strike capabilities that underwrite stable 
deterrence. Moreover, the United States would be capable of uploading 
additional warheads on all three legs of the strategic triad in order 
to restore parity in the strategic nuclear balance.
    Regarding the second question, any secret Russian deployments of 
any ballistic missiles or warheads in violation of New START treaty 
provisions would concern me due to the political significance of 
deliberate Russian cheating.

    52. Senator Inhofe. General Chilton, you note in your prepared 
statement that when STRATCOM analyzed the required nuclear weapons and 
delivery vehicle force structure, it took into account ``an assessment 
of potential adversary capabilities.'' This suggests you support New 
START force levels of 1,550 warheads on 700 delivery vehicles based on 
a current projection of smaller Russian forces. What if the 
geopolitical situation changes and the Russians cheat?
    General Chilton. The New START treaty's central limits preserve the 
ability of the United States to respond to geopolitical changes in a 
timely and effective manner. If Russia were to attempt to gain 
political advantage by cheating or breakout, the United States could 
respond in several ways. Specifically:

        <bullet> The United States could substantially upload the 
        ballistic missile submarine leg of the triad with hundreds of 
        additional warheads, and/or send additional submarines to sea 
        on a routine, day-to-day basis.
        <bullet> The United States could also choose to return a 
        portion of its heavy bomber force to an alert posture. In this 
        posture, such heavy bombers would be capable of launch and safe 
        escape from their airbases within minutes of receiving a 
        tactical warning of an imminent Russian strike, thereby 
        improving their survivability. These bombers could then 
        contribute substantially to any U.S. nuclear response.
        <bullet> The United States could also upload additional ICBM 
        warheads on a portion of its deployed Minuteman III force, and 
        could choose to redeploy a limited number of additional ICBMs 
        and warheads in nondeployed silo launchers.

    53. Senator Inhofe. General Chilton, would your assessment 
concerning the adequacy of U.S. nuclear forces change if the Russians 
increased significantly their nuclear forces?
    General Chilton. No. A number of factors were considered in 
STRATCOM's analysis for the New START treaty and the NPR, including but 
not limited to: employment guidance, deterrence, extended deterrence, 
assurance of friends and allies, and--most pertinent to this question--
the ability to hedge against technical and geopolitical developments 
based on the nuclear infrastructure.
    Russia would not be able to achieve a militarily significant 
advantage by cheating or breakout under the New START treaty, due to 
the inherent survivability of the planned U.S. strategic force 
structure--specifically, our SSBNs. Additional Russian warheads above 
the New START limits would have little to no effect on the U.S. assured 
second-strike capabilities that underwrite stable deterrence.
    If Russia were to attempt to gain a political advantage by cheating 
or breakout, the United States could respond in several ways:

        <bullet> The United States could substantially upload the 
        ballistic missile submarine leg of the triad with hundreds of 
        additional warheads and/or send additional submarines to sea.
        <bullet> The United States could also choose to return a 
        portion of its heavy bomber force to an alert posture. In this 
        posture, such heavy bombers would be capable of launch and safe 
        escape from their airbases within minutes after receiving 
        tactical warning of an imminent Russian strike, thereby 
        improving their survivability. These bombers could then 
        contribute substantially to any U.S. nuclear response.
        <bullet> The United States could also upload additional ICBM 
        warheads on a portion of its deployed Minuteman III force, and 
        could choose to redeploy a limited number of additional ICBMs 
        and warheads in nondeployed silo launchers.

    54. Senator Inhofe. General Chilton, what's the likelihood that we 
would detect this in a timely manner?
    General Chilton. Please see the NIE on Monitoring the New START 
Treaty, published on June 30, 2010.

    55. Senator Inhofe. General Chilton, does the verification regime 
in New START permit early detection?
    General Chilton. Please see the NIE on Monitoring the New START 
Treaty, which was published on June 30, 2010.

                  multiple independent reentry vehicle
    56. Senator Inhofe. Dr. Miller and General Chilton, you suggest it 
is stabilizing for the United States to deploy only single reentry 
vehicle ICBMs. Is Russia similarly deMIRVing their missiles? If not, is 
that not destabilizing too?
    Dr. Miller and General Chilton. Russia will determine the 
composition and structure of its force posture based on its own 
analyses. However, we do not anticipate that Russia will deMIRV its 
ICBM force. It is important to note that MIRVed mobile ICBMs differ 
from fixed, silo-based MIRVed ICBMs, because the former, when deployed 
in the field, are more survivable and thus do not present a stark use 
or lose as ICBMs can.
    Should Russia continue employing MIRVed ICBMs in its force posture, 
it will not be destabilizing because of the inherent capabilities of 
the triad of systems that we deploy, and the posture in which we 
maintain and operate them. The United States maintains a sizable 
portion of its SSBNs at sea and its ICBM forces on alert.
    For more information on Russian strategic forces, please see the 
NIE on Monitoring the New START Treaty, published on June 30, 2010.

    57. Senator Inhofe. Dr. Miller and General Chilton, wasn't START II 
intended to deMIRV all land-based missiles?
    Dr. Miller and General Chilton. Yes. However, the START II treaty 
never entered into force.

                conventionally-armed ballistic missiles
    58. Senator Inhofe. Dr. Miller and General Chilton, if, during the 
duration of the treaty, the United States deploys a conventionally-
armed ballistic missile (whether on submarine, surface ship, or bomber) 
that is capable of boost glide and ballistic flight (in excess of 50 
percent of its trajectory), would that be counted by the treaty limits 
for strategic delivery vehicles?
    Dr. Miller and General Chilton. A submarine-launched ballistic 
missile (SLBM) with a range of more than 600 km that has a ballistic 
trajectory over most of its flight path would meet the definition of an 
SLBM under the treaty, and thus would be subject to the provisions of 
the New START treaty. A submarine-launched boost-glide missile that 
does not have a ballistic trajectory over most of its flight path would 
not meet the definition of an SLBM under the treaty, although it would 
be subject to the treaty if it used a first stage of an SLBM. In 
addition, the treaty does not limit missiles launched from surface 
ships or aircraft, unless such a missile is an existing type of ICBM or 
SLBM. If such systems were developed and deployed by the United States 
as conventional arms, the Russian Federation might seek to characterize 
these missiles as a new kind of strategic offensive arm subject to the 
New START treaty. However, U.S. negotiators made clear during the New 
START treaty negotiations that we would not consider future, strategic-
range non-nuclear systems that do not otherwise meet the definitions of 
this treaty, to be new kinds of strategic offensive arms for purposes 
of the treaty.

    59. Senator Inhofe. Dr. Miller and General Chilton, would there be 
grounds for any discussion of such systems in the BCC?
    Dr. Miller and General Chilton. The New START treaty, as was the 
case in the START treaty, makes no distinction between nuclear or 
conventionally armed missiles that meet the definitions of ICBMs or 
SLBMs, or between nuclear and conventional warheads on such missiles. 
Conventionally armed ICBMs or SLBMs based on existing types of ICBMs 
and SLBMs listed under the New START treaty or new types of ICBMs and 
SLBMs are allowed and will be counted against the limits on strategic 
delivery vehicles and warheads under the treaty.
    Thus, the existence of such systems and their deployment should not 
lead to discussions within the BCC. Nevertheless, as expressed in Part 
Six of the Protocol to the New START treaty, the parties may use the 
BCC to resolve questions relating to compliance with the obligations 
assumed by the parties, and, in that context, discussions related to 
those systems might ensue, as they could for any other kind of 
strategic delivery vehicle.
    If the Russian Federation were to seek to characterize future non-
nuclear boost-glide systems, or ship-based missiles, as a new kind of 
strategic offensive arm, it could raise this issue in the BCC. However, 
the United States made clear during the New START treaty negotiations 
that we would not consider future, strategic range, non-nuclear systems 
that do not otherwise meet the definitions of the treaty to be new 
kinds of strategic offensive arms for purposes of the treaty.

    60. Senator Inhofe. Dr. Miller and General Chilton, would it matter 
if the missile only had a 1,000-mile range?
    Dr. Miller and General Chilton. Ground-launched ballistic missiles 
with a range of 1,000 miles are prohibited by the Intermediate-Range 
Nuclear Forces (INF) Treaty. A 1,000-mile range SLBM would be subject 
to the New START treaty if it met the treaty definition of a ballistic 
missile, meaning that it flew a ballistic trajectory over most of its 
flight path. A 1,000-mile range conventionally-armed surface ship-
launched or air-launched ballistic missile would not meet the 
definition of an ICBM or SLBM and therefore would not be subject to the 
treaty as an existing kind of strategic offensive arm, although either 
party could raise the issue of whether it were a new kind of strategic 
offensive arm. U.S. negotiators made clear during the New START treaty 
negotiations that the United States would not consider future, 
strategic-range non-nuclear systems, which do not otherwise meet the 
definitions of systems limited by the New START treaty, to be new kinds 
of strategic offense arms for the purposes of the treaty.

    61. Senator Inhofe. Dr. Miller and General Chilton, what if it had 
a 21-inch or 36- to 40-inch diameter?
    Dr. Miller and General Chilton. The dimensions of a ballistic 
missile do not determine whether it is subject to the treaty. The only 
issue which could turn on missile dimensions is whether the missile was 
an existing type of ICBM and SLBM. In this case, none of the dimensions 
mentioned in the question would result in a missile being classified as 
an existing type of ICBM or SLBM. The accountability of small ballistic 
missiles under the New START treaty would depend upon their range, 
flight profile, and launch mode.

    62. Senator Inhofe. Dr. Miller and General Chilton, would it make 
any difference if it were launched from a vertical launching system 
tube?
    Dr. Miller and General Chilton. Whether a missile is launched from 
a vertical or horizontal tube is immaterial. A missile is accountable 
under the treaty if it meets the definition of items that are limited 
and, in the context of a deployed launcher, is launched from a type of 
launcher that is constrained by the treaty. The precise configuration 
of the launcher does not matter as long as the launcher meets the 
treaty definition of an ICBM or SLBM launcher.

                        verification provisions
    63. Senator Inhofe. Dr. Miller, is the verification in the treaty 
adequate to give us the same understanding of new Russian systems as we 
have of current Russian systems thanks to START I?
    Dr. Miller. As Secretary Gates has testified, one of the greatest 
contributions of this treaty is its strong verification regime, which 
will increase transparency and confidence in the numbers and status of 
Russian nuclear forces, without imposing significant burdens on our 
ability to operate U.S. nuclear forces. Like START, the New START 
verification regime includes: short notice, onsite inspections to 
confirm data; a comprehensive, updated database; notifications 
pertaining to the movements between facilities and changes in the 
status of strategic offensive arms; use of unique identifiers; 
provisions against interference with national technical means; and the 
establishment of a BCC. Further, building on over 15 years of 
experience with inspections under the previous START treaty, the New 
START inspection procedures were designed to include provisions 
addressing issues which arose during implementation of START's complex 
inspection and verification provisions.
    Please see the NIE on Monitoring the New START Treaty for 
additional information and analysis.

    64. Senator Inhofe. Dr. Miller, how important is it we get 
telemetry of new Russian missile tests in order to understand the 
capabilities of those systems?
    Dr. Miller. There are no obligations, prohibitions, or limitations 
in the New START treaty that require the analysis of telemetric 
information in order to verify a party's compliance with the treaty. 
Nevertheless, the United States and Russia agreed to exchange 
telemetric information on an equal number of launches (up to five) of 
ICBMs and SLBMs each year, with the testing party deciding the launches 
for which it will exchange information, to promote transparency and 
predictability. The value of such exchanges will depend on the specific 
launches for which telemetric information is exchanged.
    For more discussion about the purpose served by telemetry for 
intelligence collection, please see the classified NIE on the IC's 
ability to monitor the New START treaty.

    65. Senator Inhofe. Dr. Miller, how valuable, from an intelligence 
collection perspective, is the telemetry information that we will 
supply to the Russians?
    Dr. Miller. Since there are no specific obligations, prohibitions, 
or limitations in the New START treaty that would require the analysis 
of telemetric information in order to verify a party's compliance with 
the treaty, the role of telemetry under the New START treaty is to 
promote transparency and predictability. The parties have agreed to 
allow for the exchange of telemetric information on an agreed equal 
number (up to five annually) of launches of ICBMs and SLBMs, with the 
testing party deciding the launches on which it will exchange 
information. For the missiles on which telemetry is exchanged, 
telemetry can provide information on technical characteristics of new 
or modified missiles such as their launch weight or throw-weight. 
Consequently, while the telemetry on the launches of existing types of 
ICBMs and SLBMs provided to the Russians under New START may be useful 
to them in assessing the reliability and performance of the Minuteman 
III ICBM and Trident II/D5 SLBM, it is unlikely to provide any 
particularly valuable new information on these systems.

    66. Senator Inhofe. Dr. Miller, would U.S. security be enhanced by 
not transmitting and encrypting that information?
    Dr. Miller. The alternative to broadcasting telemetry would be to 
record the telemetric data within a capsule onboard the front section 
of the missile and then recover the ejected capsule following 
completion of the launch. The United States would prefer not to employ 
this technically difficult and costly encapsulation approach, and sees 
benefits in terms of transparency and predictability in the exchange of 
some telemetric information. Under New START, the parties will agree on 
the number of launches--up to five each year--for which telemetry is 
provided to the other party. With the exception of these launches, the 
United States will have the right to encrypt the telemetry on all other 
launches. Even for launches for which the unencrypted telemetry is 
provided, this openness will not apply to telemetry regarding the 
operation of reentry vehicles or other objects installed on the missile 
for the purpose of being delivered into the upper atmosphere or space, 
which could be encrypted if there were a reason to do so.

    67. Senator Inhofe. Dr. Miller, do the same answers apply for 
potential U.S. follow-on systems?
    Dr. Miller. Yes.

    68. Senator Inhofe. Dr. Miller, if the Russians adopt a policy of 
denying the U.S. telemetry on their new systems deployed during the 
duration of the New START treaty, would we adopt the same policy? If 
not, why not?
    Dr. Miller. The United States does not currently plan to develop a 
new ICBM or SLBM during the coming decade. Hence, no such decision will 
be needed.

    69. Senator Inhofe. Dr. Miller, the DOS verification assessment 
takes a rather narrow approach to determining the potential effects of 
Russian cheating under the treaty when it states that such cheating 
would have ``little or any effect on the assured second-strike 
capabilities of U.S. strategic forces.'' What other potential strategic 
or political consequences could result from various levels of Russian 
cheating?
    Dr. Miller. Russia will not be able to achieve militarily 
significant cheating under the New START treaty due to both the 
treaty's verification regime and the inherent survivability and 
flexibility of planned U.S. force structure. If Russia were to attempt 
to gain political advantage by substantially expanding the number of 
warheads deployed on its strategic nuclear forces above the treaty's 
warhead limit, the United States will be able to respond rapidly by 
increasing the alert levels of SSBNs and bombers, and by uploading 
additional warheads on ICBMs, SLBMs, and bombers. Therefore, the 
survivable and flexible U.S. strategic posture planned under the New 
START treaty will help deter any future Russian leaders from cheating 
or breakout from the treaty, should they ever have such an inclination.
    This does not mean that Russian compliance with the New START 
treaty is unimportant. The United States expects Russia to comply fully 
with the treaty, and the United States will use all elements of the 
verification regime--along with all available intelligence means--to 
ensure that this is the case. Any Russian cheating could affect the 
sustainability of the New START treaty, the viability of future arms 
control agreements, and the ability of the United States and Russia to 
work together on other issues. Should there be any signs of Russian 
cheating or preparations to breakout from the treaty, the executive 
branch would immediately raise this matter through diplomatic channels, 
and if not resolved, raise it immediately to higher levels. The Senate 
would also be kept informed of such actions.

    70. Senator Inhofe. Dr. Miller, did the Russians use shrouds on 
their ballistic missiles that limited our ability to confirm the number 
of warheads on a given missile under START I?
    Dr. Miller. In some cases, oversized Russian reentry vehicle covers 
and their method of emplacement hampered U.S. inspectors from 
ascertaining that the front section of the ICBMs and SLBMs being 
inspected contained no more reentry vehicles than the number of 
warheads attributed to a missile of that type under the START treaty. 
Following discussions and the implementation of new procedures worked 
out at the Joint Compliance and Inspection Commission, many of these 
reentry vehicle cover-related issues were resolved during the life of 
the START treaty.

    71. Senator Inhofe. Dr. Miller, if they continue this practice 
under the new treaty, is that more or less significant given that under 
this treaty we are supposed to actually count warheads?
    Dr. Miller. All potential compliance issues regarding reentry 
vehicle (RV) covers were considered to be significant under the START 
treaty and will continue to be viewed as significant under the New 
START treaty. The New START treaty, like the START treaty, establishes 
the inspected party's right to cover RVs and other equipment with 
individual covers, but with the caveat that such covers must not hamper 
inspectors in accurately confirming that the number of RVs emplaced on 
a front section matches the declaration for that missile (or for START, 
that the number of RVs emplaced does not exceed the attributed number 
for that type of missile). These provisions are intended to ensure that 
covers are not used in such a manner that would obscure the actual 
number of reentry vehicles on a front section. Under the New START 
treaty, the verification task is to determine the actual number of 
reentry vehicles emplaced on a missile selected for inspection, whereas 
under the START treaty the verification task was to confirm that there 
were no more than the attributed number of reentry vehicles for a given 
missile type.
    Please see the NIE, published on June 30, 2010, on Monitoring the 
New START Treaty for additional information on this topic.

    72. Senator Inhofe. Dr. Miller, according to open source reporting, 
the Russians are deploying a new 5,000 km nuclear-capable cruise 
missile on a new class of submarines. Is that a tactical or strategic 
nuclear weapon?
    Dr. Miller. Long-range, nuclear-armed, submarine-launched cruise 
missiles traditionally have been regarded as non-strategic/tactical 
rather than strategic weapons and have not been limited or reduced 
under any of the U.S.-Russia strategic arms reduction and limitation 
treaties.

    73. Senator Inhofe. Dr. Miller, don't we need better verification 
at lower levels than we needed at higher force levels?
    Dr. Miller. Effective verification measures have been and will be 
needed regardless of the level of the limits in the strategic arms 
limitation and reduction treaty. The START treaty's verification regime 
was tailored to the specific obligations of the START treaty, while the 
New START treaty verification provisions are tailored to the specific 
obligations of the new treaty. The New START treaty's verification 
regime was designed to be effective while reducing the implementation 
costs and the disruption to operations at U.S. and Russian military 
facilities subject to the treaty.

    74. Senator Inhofe. Dr. Miller, both sides will have significant 
upload capability under this treaty. Have you considered whether in a 
crisis, the sides might get into a competitive uploading dynamic and 
might that not be destabilizing?
    Dr. Miller. Any Russian uploading that resulted in breaking the 
treaty's limit on warheads on deployed strategic delivery vehicles, 
while not having military significance due to the inherent 
survivability of U.S. forces and particularly at-sea SSBNs, would be of 
significant political concern. If the United States decided to upload 
its missiles in response, we could do so in a manner that minimized the 
vulnerability of U.S. forces, for example by uploading one SSBN at a 
time, and/or by placing bombers on strip alert to increase the number 
of second-strike weapons for the United States. Both the United States 
and Russia could load heavy bombers with nuclear armaments during a 
much shorter period of time than required for uploading ICBMs and 
SLBMs; furthermore, such loading is legal and would not affect the 
number of warheads counted under the New START warhead limit. The 
loading out of heavy bombers on one or both sides and the placement of 
these bombers on strip alert would certainly be noteworthy and a 
powerful signal of increased force readiness during a major crisis. 
Given the fact that relatively slow flying bombers (when compared to 
ballistic missiles) are not well-suited to play a central role in a 
would-be disarming first strike, uploading of these systems would, in 
my view, not be destabilizing.

    75. Senator Inhofe. Dr. Miller, is the United States assured of 
timely and accurate warning if the Russians were to move quickly to 
attempt large scale breakout of the treaty in a crisis?
    Dr. Miller. On the IC's monitoring confidences regarding detection 
and thus the warning of any large-scale Russian breakout from the New 
START treaty, see the NIE.
    However, should there be any signs of Russian cheating or 
preparations to breakout from the treaty, the executive branch would 
immediately raise this matter through diplomatic channels, and if not 
resolved, raise it immediately to higher levels. We would also keep the 
Senate informed.

    76. Senator Inhofe. Dr. Miller, the DOS verification assessment 
suggests that this is a moot question because our nuclear deterrent 
would not be affected even by large scale Russian cheating. Do you 
agree? If so, then does this not raise the fundamental question of 
whether this treaty has any real value?
    Dr. Miller. The assessment of the Secretary of Defense, the 
Chairman of the Joint Chiefs, the Joint Chiefs, and the Commander, 
STRATCOM is that Russia will not be able to achieve militarily 
significant cheating or breakout under New START, due to both the New 
START verification regime and the inherent survivability and 
flexibility of the planned U.S. strategic force structure. This is 
consistent with the DOS verification assessment.
    The United States, however, would take any signs of Russian 
cheating or breakout from the treaty very seriously. Should there be 
any signs of Russian cheating or preparations to breakout, the 
executive branch would immediately raise this matter through diplomatic 
channels, and if not resolved, raise it immediately to higher levels. 
We would also keep the Senate informed.
    None of this lessens the value of this treaty to U.S. security. As 
the Secretary of Defense and many other senior leaders from across the 
administration have said, the United States is better off with this 
treaty than without it. Without the treaty's verification measures, the 
United States would have much less insight into Russian strategic 
forces, thereby requiring our military to plan based on worst-case 
assumptions. This would be an expensive and potentially destabilizing 
approach that this nation should not accept.

    77. Senator Inhofe. Dr. Miller, has NNSA fully committed to support 
full production of the W76-1 life extension warheads to meet all DOD 
requirements? If not, when do you expect that to occur?
    Dr. Miller. NNSA has fully committed to complete the planned W76-1 
LEP in order to meet DOD requirements. However, the recent flood at the 
Pantex production facility may affect the schedule. NNSA's ability to 
meet those commitments will also be directly dependent upon full 
funding of the President's fiscal year 2011 budget request and 
continuing support of this program during the full production period.

    78. Senator Inhofe. Dr. Miller, has there been a negotiation of 
those requirements based upon a perceived inability of NNSA to obtain 
full and adequate funding?
    Dr. Miller. No. DOD requirements for the W76-1 are based on the 
needs to meet the requirements of the commander of STRATCOM. The 
President's fiscal year 2011 NNSA budget request is adequate to support 
W76-1 production requirements.

    79. Senator Inhofe. Dr. Miller, what is the status of the force 
structure and the resultant Nuclear Weapon Stockpile Plan (NWSP)?
    Dr. Miller. DOD outlined the baseline force structure under New 
START in the section 1251 report to Congress ``New START Framework and 
Nuclear Force Structure Plans.'' As stated in that report, the United 
States retains the right to modify our force structure as appropriate 
under the treaty. The NWSP is in development as a part of the Nuclear 
Weapons Stockpile Memorandum to the President and the Requirements 
Planning Document that is due to be voted on by the Nuclear Weapons 
Council (NWC) soon. Once approved by the NWC, the package will be 
forwarded to the President for his approval.

    80. Senator Inhofe. Dr. Miller, if the U.S. deploys conventional 
prompt strike assets that are not accountable per the treaty (e.g. 
boost glide), is the United States prohibited from utilizing that 
technology for nuclear delivery?
    Dr. Miller. No. If a strategic-range hypersonic boost glide system 
were developed for nuclear warhead delivery, it could be viewed as a 
new kind of strategic offensive arm that would be subject to the 
provisions of the New START treaty. As such, it would be subject to 
discussion and possible agreement in the BCC that it be made subject to 
the treaty.

    81. Senator Inhofe. Dr. Miller, if Russia develops a nuclear boost 
glide system, could U.S. conventional forces then be accountable?
    Dr. Miller. A nuclear-armed hypersonic boost glide system, despite 
the fact that it did not meet the definition of an ICBM or SLBM under 
the New START treaty could be subject to the treaty, as a new kind of 
strategic offensive arm, irrespective of which party develops it. This 
matter would be discussed within the BCC. As stated previously and 
during negotiations with Russia, the United States would not consider 
any future, strategic range non-nuclear systems that do not otherwise 
meet the definitions of this treaty to be new kinds of strategic 
offensive arms for purposes of the treaty.

    82. Senator Inhofe. Dr. Miller, you say that one option to respond 
to Russian cheating is that we could quickly upload our own delivery 
systems. How quickly could we do that? Please respond with a minimum 
and maximum possible time period for upload for each nuclear delivery 
system the United States will deploy during the life of the treaty.
    Dr. Miller. At the unclassified level, I can say that upload time 
for various systems would be days, months, or a few years. Upload time 
could be affected by weather, safety, and security considerations and 
the need to sustain a survivable deterrent capability while uploading 
operations were underway. A classified answer will be provided 
separately.
    [Deleted.]

    83. Senator Inhofe. Dr. Miller, will the United States maintain 
enough nondeployed warheads (and ALCMs and associated warheads) during 
the life of the treaty to fully upload (to maximum capacity) each U.S. 
delivery system?
    Dr. Miller. As stated in the Report of the 2010 NPR, the United 
States will retain the ability to upload some nuclear warheads as a 
technical hedge against any future problems or as a result of a 
fundamental deterioration of the security environment. The United 
States does not need to maintain enough nondeployed warheads to fully 
upload every single U.S. delivery system in order to effectively hedge 
against technical or geopolitical surprise, but will retain a 
substantial upload capacity.

    84. Senator Inhofe. Dr. Miller, can the United States upload 
without the Russians realizing we were uploading?
    Dr. Miller. [Deleted.]

    85. Senator Inhofe. Dr. Miller, please specify the minimum and 
maximum possible time periods during which deployments outside of that 
permissible by the treaty could be conclusively determined to be 
cheating at the following cheating levels:

        <bullet> Tens of warheads on submarines
        <bullet> Tens of warheads on bombers
        <bullet> Tens of warheads on ballistic missiles (mobile and 
        stationary)
        <bullet> Hundreds of warheads on submarines
        <bullet> Hundreds of warheads on bombers
        <bullet> Hundreds of warheads on ballistic missiles (mobile and 
        stationary)

    Dr. Miller. Please see the classified NIE on the IC's ability to 
monitor the New START treaty.

                        nnsa budget comparisons
    86. Senator Inhofe. Mr. D'Agostino, why is the fiscal year 2012 
NNSA budget flat when compared to fiscal year 2011 (negative if you 
consider inflation)?
    Mr. D'Agostino. The President's fiscal year 2011 budget request 
includes an increase of more than 10 percent for NNSA's weapons 
activities. This reflects an unprecedented commitment to modernizing 
our nuclear security infrastructure, revitalizing the science and 
technology at its core, and restoring the human capital required to 
accomplish our mission. In addition, the President has offered a plan 
for the next 10 years that includes $80 billion in critical 
investments, up from roughly $60 billion over the previous decade. 
These figures represent our understanding at the time the fiscal year 
2011 budget request was submitted to Congress of what is required to 
implement the NPR and maintain the safety, security, and effectiveness 
of our nuclear stockpile without a resumption of underground nuclear 
testing. As each month passes, our understanding matures as to what is 
required to execute the NPR requirements. Because the NPR was completed 
after the release of the fiscal year 2011 budget request, these 
evolving insights into execution requirements will inform and have an 
impact on the fiscal year 2012 request and the associated FYNSP.

    87. Senator Inhofe. Mr. D'Agostino, why is the fiscal year 2013 
budget essentially flat when compared to fiscal year 2011?
    Mr. D'Agostino. The FYNSP included in the President's fiscal year 
2011 budget request represents our understanding at the time the fiscal 
year 2011 budget request was submitted to Congress of what is required 
to implement the NPR and maintain the safety, security, and 
effectiveness of our nuclear stockpile without a resumption of 
underground nuclear testing. It includes an annual increase of more 
than 10 percent for NNSA's weapons activities. In addition, the 
President has outlined his plan to invest $80 billion over the next 
decade to modernize our nuclear security infrastructure, up from 
roughly $60 billion over the previous decade. This reflects an 
unprecedented commitment to modernizing our nuclear security 
infrastructure, revitalizing the science and technology at its core, 
and restoring the human capital required to accomplish our mission. As 
each month passes, our understanding matures as to what is required to 
execute the NPR requirements. Because the NPR was completed after the 
release of the fiscal year 2011 budget request, these evolving insights 
into execution requirements will inform and have an impact on the 
fiscal year 2012 and fiscal year 2013 request and the associated FYNSP.

    88. Senator Inhofe. Mr. D'Agostino, were these budget estimates 
placeholders that you intend to adjust upwards prior to the next budget 
request (fiscal year 2012), reflecting a continued commitment to 
improving the science and technology research necessary to sustain our 
current stockpile until infrastructure improvements are reached?
    Mr. D'Agostino. The funding requirements identified to date 
represent the most complete view of our needs at the time the fiscal 
year 2011 budget request was submitted to Congress. It includes a 
significant increase in the science, technology, and engineering that 
underpin our nuclear deterrent. As each month passes, our understanding 
matures as to what is required to execute the NPR requirements. Because 
the NPR was completed after the release of the fiscal year 2011 budget 
request, these evolving insights into execution requirements will 
inform and have an impact on the fiscal year 2012 request and the 
associated FYNSP.

                stockpile stewardship management program
    89. Senator Inhofe. Mr. D'Agostino, is the plan outlined in the 
1251 report and the Stockpile Stewardship Management Program (SSMP) 
sufficient to produce the number of W76-1 life extension warheads 
needed to meet DOD requirements?
    Mr. D'Agostino. Yes.

    90. Senator Inhofe. Mr. D'Agostino, what is the status of the NWSP?
    Mr. D'Agostino. The fiscal years 2011-2017 NWSP, due to the 
President by September 30, 2010, is currently in the second stage of 
coordination in the NWC. The final stage requests the signatures of the 
Secretaries of Defense and Energy prior to release of the document to 
the National Security Council. The most current NWSP is one signed by 
the President in 2008 covering stockpile numbers for fiscal years 2009-
2014 and is commonly referred to as National Security Presidential 
Directive 68. The Departments of Defense and Energy collaboratively 
decided to forego sending the NWSP originally due to the President in 
September 2009 in anticipation of changes that would be made as part of 
the NPR and the New START treaty. The draft NWSP now with the NWC will 
be consistent with the stockpile numbers contained in the SSMP and the 
section 1251 report.

    91. Senator Inhofe. Mr. D'Agostino, does that plan align with the 
1251 report and the SSMP?
    Mr. D'Agostino. Yes. The draft NWSP now with the NWC will be 
consistent with the stockpile numbers contained in the SSMP and the 
section 1251 report.

    92. Senator Inhofe. Mr. D'Agostino, will disconnects between the 
NWSP and the SSMP be resolved through an increased budget request 
starting in fiscal year 2012?
    Mr. D'Agostino. The NWSP and the SSMP were informed by the 
requirements that were developed in the NPR and are therefore in 
alignment. The NNSA will continue to provide the President with 
executable resource requirements that will support the President's 
vision as he develops his future budget requests for Congress.

    93. Senator Inhofe. Mr. D'Agostino, would you please provide a 
detailed site-by-site breakdown on Readiness in the Technical Base and 
Facilities (RTBF) (operations and facilities construction and 
maintenance) for the period fiscal year 2008 to fiscal year 2018?
    Mr. D'Agostino. A detailed RTBF operations and maintenance and 
construction breakdown by site is provided in the attached table for 
fiscal years 2008 through 2015. A site-by-site breakdown has not yet 
been determined for fiscal years 2016 through 2018.
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    94. Senator Inhofe. Mr. D'Agostino, the fiscal year 2011 
President's budget was prepared well in advance of the NPR, the 1251 
plan report, and the SSMP. In fact, the budgeting process for fiscal 
year 2011 was initiated long before a national commitment to 
modernizing our nuclear weapons infrastructure was certain. And it is 
apparent, after listening to the testimony of the national laboratory 
directors last week, that there are uncertainties in the budget plan, 
especially beyond fiscal year 2011. Dr. Anastasio expressed concerns 
over pension requirements, for example. Other issues likely exist 
across the complex. Are you aware of these issues, and do you agree 
that there is a risk to execution of infrastructure modernization and 
operations accounts as a result of these issues?
    Mr. D'Agostino. Although the budgeting process did start before the 
NPR was completed, NNSA's fiscal year 2011 budget request was guided by 
analysis undertaken in the early stages of the NPR process. It also 
reflects a then-emerging bipartisan national consensus on the need to 
modernize our nuclear security infrastructure, revitalize the science 
and technology at its core, and restore the critical human capital 
required to support our mission. This emerging consensus was most 
significantly reflected in the final report of the bipartisan 
Congressional Commission on the Strategic Posture of the United States 
(also known as the Perry-Schlesinger Commission), many of whose 
conclusions were both incorporated into the NPR and accounted for in 
the fiscal year 2011 President's budget request. As each month passes, 
our understanding matures as to what is required to execute the NPR 
requirements. These evolving insights into execution requirements will 
inform and have an impact on the fiscal year 2012 request and the 
associated FYNSP.
    Relative to managing risk, I would not support a budget that did 
not ensure the safety, security, and effectiveness of the U.S. nuclear 
weapons deterrent. If the President's request for fiscal year 2011 and 
the FYNSP is approved, the Nation will end a multi-year downward 
funding trajectory and moderate significantly the risks that have had 
to be absorbed as a consequence. In this regard, the President's 
commitments to maintaining a strong deterrent, coupled with a major 
reinvestment strategy, represent a significant turning point for the 
Nuclear Security Enterprise and will put it on a well-defined path.

    95. Senator Inhofe. Mr. D'Agostino, at a minimum, would you agree 
that the near-term budget in the SSMP and the 1251 plan has risks that 
could be addressed through additional funding?
    Mr. D'Agostino. The fiscal years 2011-2015 FYNSP was shaped by the 
NNSA's assessment of the ability of the Nuclear Security Enterprise to 
efficiently ramp-up within the constraints of time, capacity, and 
capability to spend increased funds to redress mission shortfalls. It 
reflects what is required and what is executable. The funding 
requirements identified to date represent the most complete view of our 
needs. When major efforts called for by the NPR and the President 
mature further, and validated baseline cost estimates become available, 
we will revisit our long-term projections.

    96. Senator Inhofe. Mr. D'Agostino, do you believe that the 1251 
plan is flexible? In other words, does NNSA have the latitude to 
prepare an fiscal year 2012 budget that exceeds that shown in the 1251 
plan and the SSMP, to accommodate these future problems we are hearing 
about?
    Mr. D'Agostino. We continuously evaluate our requirements and needs 
for resources. The fiscal year 2011 President's budget represents our 
best current estimate of what funding is required for the next decade 
to accomplish the requirements of the NPR and support the stockpile 
described in the section 1251 report. We have already acknowledged the 
potential for these budget figures to change due to the lack of 
approved baselines for a number of major facilities such as the UPF and 
the CMRR Nuclear Facility, and for several LEPs, such as the B61 and 
W78. As our planning for these and other activities proceeds and our 
estimates for their costs mature, modifications of the numbers found in 
the section 1251 report may be necessary.

                   science vs. near-term deliverables
    97. Senator Inhofe. Mr. D'Agostino, Los Alamos Director Michael 
Anastasio testified last week that, ``there has been a history of 
having an imbalance in the program and that we've sacrificed the 
science to the near-term deliverables.'' Do you concur that this has 
happened in the past?
    Mr. D'Agostino. Certainly, there have been periods of time in the 
past when certain aspects of the Nuclear Security Enterprise have not 
been fully funded as a result of difficult decisions that had to be 
made to balance near-term needs with long-term imperatives. 
Nevertheless, we have been successful to this point in sustaining a 
safe, secure, and effective deterrent. Now, with a new consensus on the 
future of the stockpile and the Nuclear Security Enterprise that 
underpins it, as outlined in the NPR, the fiscal years 2011-2015 FYNSP, 
submitted as part of the President's budget, provides a newly balanced 
approach that sustains the stockpile, preserves the enabling science, 
technology, and engineering foundations, and modernizes the necessary 
infrastructure as envisioned by the President.

    98. Senator Inhofe. Mr. D'Agostino, how is this addressed in future 
budgets?
    Mr. D'Agostino. The President's fiscal year 2011 budget proposal 
initiates a multi-year investment plan with substantial budget 
increases to extend the life of the stockpile, redress shortfalls for 
stockpile surveillance activities and stockpile certification through 
investments in the science, technology, and engineering base, and 
maintain and modernize the supporting infrastructure. The fiscal years 
2011-2015 budget request is necessary and executable based on the 
requirements and the ability of the Nuclear Security Enterprise to ramp 
up efficiently within the constraints of time, capacity, and capability 
to spend increased funds.

    99. Senator Inhofe. Mr. D'Agostino, do you agree with Director 
Anastasio's follow-up statement about the uncertainty of life extension 
and facility construction costs, ``And so you would want to be able to 
expect that, as those baselines are adjusted to the realities that you 
have, then you'd like to be able to adjust the budget to that, as 
well''?
    Mr. D'Agostino. Any long-term plan needs to remain flexible as new 
information and data become available and circumstances change. I 
believe that our fiscal year 2011 SSMP reflects what is required today 
and what is executable. As some of our major endeavors outlined in this 
plan become better defined, and their baseline cost estimates are fully 
validated, we will revisit our projections. Funding requirements 
identified to date represent the most complete view of needs until 
these projects reach validation stages. Future budget requests may need 
to be adjusted from what we envision today.

    100. Senator Inhofe. Mr. D'Agostino, are you prepared to adjust the 
fiscal year 2012 budget to fully reflect the requirements articulated 
in the 1251 plan, the SSMP, and other emerging issues in the complex?
    Mr. D'Agostino. Yes, if needed to address any unanticipated 
requirements. The funding requirements identified to date represent the 
most complete view of needs until we have validated the requirements 
for B61 and W78 LEPs and the two material processing facilities: the 
CMRR Nuclear Facility and the UPF. Validated baselines may drive a 
different out-year view of requirements.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                          section 1251 report
    101. Senator Thune. Dr. Miller, when you were before this committee 
in April testifying about the NPR, you stated to me that the 1251 
report would provide a specific force structure concerning the triad of 
nuclear delivery vehicles. However, as I told Secretary Gates when he 
was here last month, the 1251 report provides a very troubling lack of 
specificity concerning force structure. Specifically, the 
administration's factsheet on the section 1251 report explains that the 
U.S. nuclear force structure under this treaty could comprise up to 420 
ICBMs, 240 SLBMs, and 60 bombers. Since deployments at the maximum 
level of all three legs of the triad under that explanation add up to 
720 delivery vehicles, it is mathematically impossible for the United 
States to make such a deployment and be in compliance with the treaty's 
limit of 700 deployed strategic nuclear delivery vehicles. Clearly, 
significant additional decisions need to be made with respect to U.S. 
force structure under this treaty. Therefore, as I told Secretary Gates 
last month, I would be very reluctant to cast a vote in favor of this 
treaty without being fully briefed in more precise detail to my 
satisfaction about the plans for our nuclear delivery vehicle force 
structure. Where will the reduction of 20 vehicles come from in order 
to get to 700 total deployed delivery vehicles required by this treaty?
    Dr. Miller. The reduction of 20 strategic delivery vehicles that 
you mention will come from ICBMs and/or bombers. The New START treaty 
allows each side 7 years to reach its treaty-compliant force structure, 
and to modify it over the life of the treaty. Additional decisions are 
required to meet the 700 deployed strategic delivery vehicle limit of 
New START. The final decisions will be made during the 7 years of 
implementation as the Services study modernization, sustainment, and 
operation of the nuclear forces.

    102. Senator Thune. Dr. Miller, will the administration provide a 
classified briefing to concerned Members on the specific planned force 
structure for deployed nuclear delivery vehicles?
    Dr. Miller. Yes. This classified briefing to Members on the planned 
U.S. strategic force structure under New START was provided on July 29, 
2010.

    103. Senator Thune. Dr. Miller, my understanding is that an ICBM-
based PGS platform would be counted against the 700 deployed delivery 
vehicles. If we decide to develop that system, which of the three legs 
of the triad would be further reduced to accommodate it?
    Dr. Miller. No decision regarding a PGS system has been taken and 
cannot be taken before other decisions are made about what type of 
conventional long-range strike capabilities are useful and available 
during the period that the New START treaty is in force. A variety of 
PGS systems are being assessed within the Long-Range Strike Study that 
is to be completed this fall. The New START treaty provides flexibility 
to each party to determine its own strategic force structure. As 
stipulated in the report submitted with the New START treaty pursuant 
to section 1251 of the National Defense Authorization Act for Fiscal 
Year 2010, the United States will pursue a future force structure under 
the New START treaty that will preserve adequate flexibility, including 
possible accountable CPGS systems currently under study by DOD. In 
addition, NPR analysis concluded that New START treaty delivery vehicle 
and strategic warhead limits allowed retention of a margin above the 
minimum required nuclear force structure for the possible addition of 
non-nuclear prompt-global strike capabilities (conventionally-armed 
ICBMs or SLBMs) that would be accountable under the treaty.
    If the United States decides to develop a PGS system that would be 
accountable under New START, the Joint Chiefs and the Secretary of 
Defense agree that it should involve small numbers of strategic 
delivery vehicles. Under the baseline plan summarized in the section 
1251 report, ``New START Framework and Nuclear Force Structure Plans,'' 
to Congress, the United States will retain 240 deployed SLBMs, up to 60 
heavy bombers, and up to 420 deployed ICBMs under New START. Given the 
7-year implementation period of the treaty, and each side's freedom to 
select its desired force structure and change it over time, decisions 
about changes involving small numbers of the 700 permitted deployed 
strategic delivery vehicles should be made after such a decision to 
deploy these systems.

    104. Senator Thune. Dr. Miller, what is your estimate of how the 
Russians will configure their strategic forces under New START?
    Dr. Miller. This topic is addressed in the NIE on Monitoring the 
New START Treaty, which was provided to the Senate on June 30, 2010.

    105. Senator Thune. Dr. Miller, what impact, if any, should that 
have on the way the President has decided to configure ours?
    Dr. Miller. The United States will continue to configure and 
posture its forces to maintain the overall force's combined qualities 
of survivability, responsiveness, flexibility, and effectiveness for 
both large-scale and limited contingencies. We do not anticipate 
significant alterations as being necessary due to any Russian changes, 
because U.S. forces have been developed and deployed to minimize their 
sensitivity to changes in other nations' force postures.

           funding for nuclear force structure modernization
    106. Senator Thune. Dr. Miller, your prepared statement indicates 
the administration will invest $100 billion over the next decade in 
nuclear delivery systems. About $30 billion of this total will go 
toward development and acquisition of a new strategic submarine. 
According to estimates by STRATCOM, the cost of maintaining our current 
dedicated nuclear forces is approximately $5.6 billion per year or $56 
billion over the decade. This leaves roughly $14 billion of the $100 
billion the administration intends to invest--even less if you factor 
in inflation. This $14 billion is not nearly sufficient to develop and 
acquire a next generation bomber, a follow-on ICBM, a follow-on ALCM, 
and develop a CPGS capability. In light of these figures, and the fact 
that you have yet to make additional modernization decisions, why do 
you believe $100 billion is a sufficient investment in our delivery 
systems over the next decade?
    Dr. Miller. The estimated investment of well over $100 billion for 
strategic delivery vehicles over the next decade, provided in the 
section 1251 report, represents a best-estimate of costs associated 
with deployed systems and programs underway and planned. This estimate 
does not include all of the costs associated with potential future 
modernization programs. DOD is currently studying long-range strike 
options, including future bomber requirements and PGS systems, and is 
also initiating an AoA for a follow-on, nuclear-capable ALCM. Studies 
regarding a possible follow-on ICBM will be initiated in 2011-2012. 
Therefore, costs associated with any future program decisions on these 
systems would be additive to the estimate of well over $100 billion in 
the section 1251 report.

    107. Senator Thune. Dr. Miller, why didn't you make a decision to 
pursue these programs in the 1251 report?
    Dr. Miller. As stated in the one-page unclassified summary of the 
1251 report, the administration intends to invest well over $100 
billion in modernizing strategic delivery systems. Alternatives for a 
follow-on bomber are being developed in the ongoing Long Range Strike 
Study for consideration with the President's fiscal year 2012 budget. 
An AoA on the follow-on nuclear-armed ALCM is currently underway. 
Although a decision on any follow-on ICBM is not needed for several 
years, studies to inform that decision will begin in fiscal years 2011 
and 2012. The studies and development programs for these systems will 
consider a range of possible options, with the objective of defining a 
cost-effective approach that supports continued reductions in U.S. 
nuclear weapons while promoting stable deterrence.

    108. Senator Thune. Dr. Miller, is there a chance the 
administration could decide against a new bomber, ALCM, or follow-on 
ICBM?
    Dr. Miller. While I will not speculate regarding future decisions, 
the Department and the administration support a strong triad under the 
New START treaty, and we are committed to making necessary investments 
for both delivery systems and the nuclear weapons complex. It is worth 
noting that the investments needed to sustain the U.S. nuclear arsenal 
and nuclear weapons complex under New START and beyond will be the work 
of multiple administrations and congresses.

    109. Senator Thune. Dr. Miller, how do we know the administration 
will pursue these programs?
    Dr. Miller. The NPR, the section 1251 report, ``New START Framework 
and Nuclear Force Structure Plans,'' to Congress, and our budget 
requests clearly outline the commitment of the executive branch to 
sustain an effective nuclear deterrent for the long-term and New START 
preserves our ability to do so. Today's Minuteman III ICBMs will be 
sustained until 2030 as directed by Congress, nuclear-capable B-52Hs 
can be sustained to the 2030s, and B-2As to the 2040s. Analysis of any 
follow-on ICBM will start in fiscal year 2011. There is time to do this 
analysis, and given both the resources and military capabilities 
involved, an imperative to make well-informed decisions at the 
appropriate time.
    DOD plans to invest well over $100 billion over the next decade to 
sustain existing strategic delivery systems capabilities and modernize 
strategic systems. The fiscal year 2011 budget request and future year 
program plans reflect a decision to proceed with the SSBN(X) to replace 
the current Ohio-class strategic submarines starting in the late 2020s, 
to sustain Minuteman III ICBMs until 2030 as directed by Congress, and 
to sustain dual-capable B-52H and B-2 bombers until at least 2035 and 
2040, respectively. The DOD is currently conducting an AoA for the next 
ALCM, and will initiate study of options for a follow-on ICBM in 2011-
2012.
    Finally, DOD is currently studying the appropriate long-term mix of 
long-range strike capabilities, including alternatives for a follow-on 
heavy bomber as well as non-nuclear PGS systems, in follow-on analysis 
to the 2010 Quadrennial Defense Review and the NPR; the results of this 
ongoing work will be reflected in the Department's fiscal year 2012 
budget submission.

                          nuclear bomber force
    110. Senator Thune. Dr. Miller and General Chilton, according to 
the most recent briefs I have seen, DOD expects the current nuclear 
bomber force to remain in service through 2040. Thirty more years is a 
long time for a bomber that was built 50 years ago. Proponents of this 
plan say they can last that long with upgrades. However, physically 
remaining in service is significantly different than remaining 
survivable in a future high threat combat scenario. Since the NPR 
recognizes the need for a triad, what is your plan to replace the aging 
nuclear bomber force so that the nuclear triad stays survivable in the 
future?
    Dr. Miller. As outlined in the NPR, the Department will maintain a 
nuclear triad under New START. Accordingly, the Air Force will retain 
the B-52 in its inventory through 2035 and beyond to continue to meet 
both nuclear and conventional mission requirements and is investing 
approximately $14.3 billion for fiscal year 2010 through fiscal year 
2020 to modernize and sustain the B-52. In addition, DOD will invest 
approximately $12.5 billion for fiscal year 2011 through fiscal year 
2020 to sustain and modernize the B-2 bomber. These enhancements will 
help sustain its survivability and improve mission effectiveness. 
Further, the Air Force is commencing an AoA on the long-range standoff 
cruise missile while DOD completes its study on long-range strike 
systems that includes consideration of alternatives for a future bomber 
in time to inform the fiscal year 2012 President's budget.
    General Chilton. I agree that the capabilities of the triad need to 
be sustained and recapitalized. To that end, STRATCOM is supporting the 
DOD's studies to identify the investments necessary for long range 
strike. The Long Range Strike Front End Assessment will help identify 
the investments necessary to field the family of systems necessary to 
retain effective deterrent and strike capabilities for the future. In 
addition, STRATCOM is actively supporting the Long-Range Stand-Off AoA 
to provide for the replacement of the current ALCM. The current plan to 
develop the next generation cruise missile along with the sustainment 
of the current ALCM, and warhead to the year 2030 will allow for a 
smooth transition in the mid-2020's timeframe. Finally, with the 
expected retirement of the B-52 in the 2040 timeframe, the decision for 
its recapitalization will need to be addressed in the early to mid 
2020s.

                      delivery vehicle thresholds
    111. Senator Thune. Dr. Miller and General Chilton, during 
testimony before this committee last July, General Cartwright expressed 
the view that he would be very concerned about the viability of the 
triad if we got below 800 deployed delivery vehicles. The New START 
establishes a level of 700 deployed strategic delivery vehicles. I note 
that General Cartwright stated this concern after the NPR team had 
already conducted detailed analysis in the Spring of 2009 to determine 
negotiating positions in the New START on an appropriate limit on 
strategic delivery vehicles. Why are you not concerned, given that this 
number is 100 below General Cartwright's comfort level?
    Dr. Miller and General Chilton. The decision to agree to a limit of 
700 deployed strategic delivery vehicles did not result from a change 
in the security environment, but from an updated assessment of U.S. 
force deployment options in the light of progress achieved in the 
negotiations. The testimony you refer to in your question was delivered 
before the definitional difference between deployed and nondeployed 
ICBM and SLBM launchers had been agreed, and before the sides had 
agreed to the conversion of individual SLBM launchers on strategic 
submarines. Thus, the 800 deployed delivery vehicles figure referred to 
in the testimony would, for example, have included U.S. strategic 
delivery systems that will now count as nondeployed (e.g., two SSBNs in 
overhaul). Once these provisions were agreed, it became clear that we 
could sustain a strong triad and meet deterrence and hedging 
requirements within a limit of 700 deployed ICBMs, deployed SLBMs, and 
deployed (nuclear-capable) heavy bombers. The U.S. senior military 
leadership has stated its support for this result.

    112. Senator Thune. Dr. Miller and General Chilton, if the former 
commander of STRATCOM was concerned about reducing our delivery 
vehicles below 800 at a time that was well after the NPR analysis was 
completed, shouldn't we be concerned as well?
    Dr. Miller and General Chilton. No, because the decision to agree 
to a limit of 700 deployed strategic delivery vehicles did not result 
from a change in the security environment, but from an updated 
assessment of U.S. force deployment options in the light of continued 
progress in the negotiations. The testimony you refer to in your 
question was delivered before the definitional difference between 
deployed and nondeployed ICBM and SLBM launchers had been agreed and 
before the sides had agreed to the conversion of individual SLBM 
launchers on strategic submarines. Thus, the 800 deployed delivery 
vehicles figure referred to in the testimony would, for example, have 
included U.S. strategic delivery systems that will now count as 
nondeployed (e.g., two SSBNs in overhaul). Once these provisions were 
agreed, it became clear that we could sustain a strong triad and meet 
deterrence and hedging requirements within a limit of 700 deployed 
ICBMs, deployed SLBMs, and deployed (nuclear-capable) heavy bombers. 
The U.S. senior military leadership has stated its support for this 
result.

    113. Senator Thune. Dr. Miller and General Chilton, what were the 
assumptions going into the negotiations that drove our level of 
acceptance to reduce these numbers?
    Dr. Miller. General Cartwright, as well as the rest of the Joint 
Chiefs of Staff, the Secretary of Defense, and both of us support the 
New START treaty including the limit of 700 on deployed strategic 
delivery vehicles. The New START limit will allow the United States to 
retain all 14 current SSBNs, while reducing the number of accountable 
SLBM launchers by 96 relative to the previous START treaty's counting 
rules (from 336 to 240). The United States will be able to do this by 
taking advantage of the treaty's provisions by converting or 
eliminating 56 SLBM launchers and not deploying SLBMs in an additional 
40 launchers. In addition, the United States will convert a subset of 
the B-52H bombers to a conventional-only role, so that they are no 
longer accountable under the treaty. By taking advantage of these 
treaty provisions, the United States will have to eliminate or keep in 
a nondeployed status only 30 to 50 ICBM launchers of the 450 Minuteman 
III active silos today. In sum, the decision to agree to a limit of 700 
deployed strategic delivery vehicles resulted from an updated 
assessment of U.S. force deployment options in the light of different 
counting rules under New START.
    General Chilton. The NPR conducted a detailed analysis of potential 
reductions in strategic weapons, including delivery vehicles, which 
would allow the U.S. to sustain stable deterrence at lower force 
levels. This analysis assumed negotiated limits with Russia. The 
analyses took into account the nuclear arsenals of other declared 
nuclear weapon states, as well as the nuclear programs of proliferant 
states. The conclusion from the NPR analyses was that stable deterrence 
could be maintained and current planning guidance met at lower 
strategic delivery vehicle levels. These results formed the basis for 
U.S. negotiations with Russia.

                 conflicting messages to the air force
    114. Senator Thune. Dr. Miller and General Chilton, in an effort to 
build up the nuclear enterprise, the Air Force recently accomplished an 
extensive restructuring which included, among other things, adding a 
new Global Strike Command, adding an additional B-52 nuclear capable 
bomber squadron, and multiple changes to procedures and testing. This 
was all part of a tremendous and ongoing effort to reinvigorate the 
nuclear enterprise. However, by ratifying this treaty it would seem we 
are providing conflicting guidance to our nuclear force and telling 
them we want to draw down and scale back the nuclear mission. For 
example, this treaty would specifically reverse the direction the Air 
Force was just given to build up the B-52 nuclear capability by cutting 
the number of nuclear capable B-52s. Are you at all worried about 
undercutting the Air Force's improved emphasis on the nuclear mission 
after the problems the Air Force had with the nuclear mission a few 
years ago?
    Dr. Miller and General Chilton. No. The conclusion of the New START 
treaty in no way reduces the emphasis we will place on the Air Force 
nuclear enterprise. As reported in the section 1251 report, under New 
START we plan to maintain up to 60 deployed nuclear capable heavy 
bombers as well as additional nondeployed heavy bombers. New START will 
not require us to reduce the number of bomber-delivered nuclear weapons 
in the U.S. inventory. The NPR recognized that first, this capability 
provides a rapid and effective hedge against technical challenges with 
another leg of the triad, as well as geopolitical uncertainties; and 
second, nuclear capable bombers are important to extended deterrence of 
potential attacks on U.S. allies and partners. Unlike ICBMs and SLBMs, 
nuclear capable heavy bombers can be visibly forward deployed, thereby 
signaling U.S. resolve and commitment in crisis.
    DOD plans to spend more than $4 billion over the next 5 years to 
support upgrades to the B-2 stealth bomber. These enhancements will 
help sustain survivability and improve mission effectiveness. In regard 
to the B-52 bomber, the Air Force will conduct an assessment of 
alternatives to inform decisions in fiscal year 2012 about whether and 
if so how to replace the current ALCM, which will reach the end of its 
service life later in the next decade. The future of the heavy bomber 
leg will be considered in the ongoing study on long range strike, which 
will be completed in time to inform the fiscal year 2012 President's 
budget.

                            missile defense
    115. Senator Thune. Dr. Miller, the New START is supposed to be 
about strategic offensive nuclear arms. Yet, taken together, the 
treaty's preamble and Russia's unilateral statement on the subject 
strongly suggest Russia will threaten to withdraw from the treaty 
should the United States expand its current missile defense 
capabilities. Moreover, Article V of the treaty places binding 
limitations on U.S. missile defenses, the first since the United States 
lawfully withdrew from the Anti-Ballistic Missile (ABM) treaty. What 
are your views of including language in the Senate Resolution of 
Ratification confirming the administration's characterization of the 
treaty that there are no constraints in the treaty (other than Article 
V) on the development or deployment of U.S. missile defenses?
    Dr. Miller. As I and other administration officials have testified, 
the prohibition on the conversion of missile defense interceptors to 
offensive launchers set forth in Article V will have no operational 
impact on U.S. missile defense efforts. As Lieutenant General O'Reilly 
has testified, the MDA has never had any plans to convert additional 
ICBM silos to missile defense interceptor launchers. Doing so would be 
much more expensive than building smaller GBI silos from scratch. 
Moreover, as Lieutenant General O'Reilly has also stated, newly-built 
GBI silos are easier both to protect and maintain.
    Executive branch officials have also testified that, aside from 
Article V(3), the treaty contains no restraints on the development or 
deployment of U.S. missile defenses.
    The administration is engaged in discussions with the Senate 
Committee on Foreign Relations about the resolution of advice and 
consent that will be presented to the committee for its consideration.

    116. Senator Thune. Dr. Miller, does the New START establish a new 
precedent for limiting missile defenses despite our withdrawal from the 
ABM treaty? Why or why not?
    Dr. Miller. No. The New START treaty does not constrain the United 
States from deploying the most effective missile defenses possible, nor 
does it add any additional cost or inconvenience to the implementation 
of U.S. missile defense plans. In addition, the treaty does not contain 
any constraints on the testing or development of current or planned 
U.S. missile defense programs. The only constraints on missile defense 
in the New START treaty are the prohibitions in Article V on the 
placement of missile defense interceptors in converted ICBM or 
converted SLBM launchers and vice versa. However, this constraint has 
no effect on current or planned U.S. missile defense programs given the 
higher costs of such a conversion option vice simply constructing new 
missile defense interceptor launchers and the operational challenges 
associated with such placements.
    For these reasons, the New START treaty does not establish any new 
precedent for limiting missile defenses.

    [Whereupon, at 11:44 a.m., the committee adjourned.]


    INDEPENDENT ANALYSES OF THE NEW STRATEGIC ARMS REDUCTION TREATY

                              ----------                              


                         TUESDAY, JULY 27, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Hagan, 
Goodwin, McCain, Inhofe, Sessions, Chambliss, Thune, Brown, and 
Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Richard W. Fieldhouse, professional staff member.
    Minority staff members present: Christian D. Brose, 
professional staff member; Daniel A. Lerner, professional staff 
member; and David M. Morriss, minority counsel.
    Staff assistants present: Jennifer R. Knowles, Christine G. 
Lang, and Hannah I. Lloyd.
    Committee members' assistants present: Carolyn A. Chuhta, 
assistant to Senator Reed; Roger Pena, assistant to Senator 
Hagan; Anthony J. Lazarski and Rob Soofer, assistants to 
Senator Inhofe; Lenwood Landrum and Sandra Luff, assistants to 
Senator Sessions; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Jason Van Beek, assistant to Senator Thune; Scott 
Clendaniel, assistant to Senator Brown; and Ryan Kaldahl, 
assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Over the course of the last month or so, the Senate Armed 
Services Committee has held three hearings and one briefing on 
various aspects of the New Strategic Arms Reduction Treaty 
(START), including how it will be implemented by the U.S. 
military, how it will be monitored and verified, and how the 
nuclear weapons complex will be utilized to maintain a smaller 
stockpile. We will have what will probably be our final hearing 
this Thursday, with Assistant Secretary of State Rose 
Gottemoeller, the chief negotiator of the New START treaty, and 
Dr. Edward Warner, the Secretary of Defense's representative to 
the New START treaty talks.
    The previous hearings, as well as the hearing this 
Thursday, have all been held with various representatives of 
the executive branch, to better understand the New START 
treaty, and how the New START treaty will be implemented--tasks 
which the executive branch will be carrying out.
    Today we welcome a panel of nongovernmental witnesses. We 
look forward to hearing their independent views on the New 
START treaty. While none of our witnesses this morning are 
currently serving in the executive branch, each of them has 
extensive previous experience, either with or in the executive 
branch. They represent different views of the New START treaty. 
We welcome that, and we welcome each of our distinguished 
witnesses this morning.
    Dr. John Foster has had a long and distinguished career in 
science and industry. He helped establish the Lawrence 
Livermore National Laboratory in 1952, and was director of the 
laboratory from 1961 to 1965. From 1965 to 1973, he was the 
Director of Defense Research and Engineering at the Department 
of Defense (DOD). He retired as Vice President of Science and 
Technology at TRW, Inc. in 1988, and served on TRW's board of 
directors until 1994. Dr. Foster has served on a variety of DOD 
advisory boards and was the Chairman of the Defense Science 
Board from 1990 to 1993. He was a member of the Strategic 
Posture Commission and is currently a member of the advisory 
board for the Defense Advanced Research Projects Agency.
    Frank Miller retired in 2005 with over 30 years of 
government experience, including 22 of those years at DOD. He 
served on the National Security Council (NSC) staff as a 
Special Assistant to the President and Senior Director for 
Defense Policy and Arms Control under President George W. Bush. 
Mr. Miller was also the Principal Deputy Assistant Secretary 
for Strategy in Threat Reduction, twice served as Acting 
Assistant Secretary of Defense for International Security 
Policy, and worked on both the START I and START II treaties. 
Mr. Miller serves on the advisory group for the U.S. Strategic 
Command (STRATCOM), and is senior associate at the Center for 
Strategic and International Studies.
    Ambassador Steven Pifer spent 26 years with the Department 
of State and has extensive experience in Russia and the states 
of the former Soviet Union. He is a former Ambassador to 
Ukraine, served as the Special Assistant to the President and 
Senior Director for Russia, Ukraine, and Eurasia on the NSC 
staff, under President Clinton, was a Special Assistant to 
Ambassador Paul Nietze, and worked on the Intermediate-Range 
Missile Treaty negotiations. Ambassador Pifer is currently a 
Senior Fellow and Director of the Arms Control Initiative at 
the Brookings Institution.
    Dr. Keith Payne is head of the Graduate Department of 
Defense in Strategic Studies at Missouri State University, 
Washington Campus, and President and CEO of the National 
Institute of Public Policy. From 2002 to 2003, he served as the 
Deputy Assistant Secretary of Defense for Forces Policy. Dr. 
Payne has served on a number of advisory boards, and is 
currently a member of the policy panel of the advisory group 
for the STRATCOM, and was also a member of the Strategic 
Posture Commission. He has written extensively on defense and 
foreign policy issues, including proliferation, arms control, 
and missile defense.
    Before we begin, I'd like to welcome Senator Carte Goodwin. 
He is the newest member of the committee. It's a pleasure to 
have you here, to continue a long tradition--a three-decades-
old tradition of representing the people of the State of West 
Virginia on the Senate Armed Services Committee.
    Senator Byrd sat right here for many, many decades. We miss 
him, but we welcome you and welcome you very warmly. You will 
find that this committee strives to approach these issues on a 
bipartisan basis, and I know that you're going to fit right in 
with that spirit. Welcome.
    Chairman Levin. Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I also welcome our new colleague from the State of West 
Virginia. I want to thank our distinguished witnesses for their 
service to our Nation, and joining us today.
    To date, our hearings on the New START treaty have 
exclusively been the views of administration officials. Today's 
hearing will feature the views of independent expert witnesses 
who can provide a different perspective on the New START 
treaty, and the national security implications of this 
agreement and its supporting documents.
    Many of us have concerns about the New START's methods of 
verification, its constraints on ballistic missile defense 
(BMD), and the accompanying plan for modernization of both the 
nuclear stockpile and our nuclear delivery vehicles. This 
hearing offers a chance to consider these concerns in a 
different light.
    Last year, the Perry-Schlesinger Strategic Posture 
Commission alerted Congress to the dire need for modernizing 
the nuclear weapons complex. At that time, the Commission 
stated that while the National Nuclear Security Administration 
(NNSA) has a reasonable plan, they lack the necessary funding 
to implement it properly. The administration's 10-year 
modernization plan that accompanied the New START treaty, also 
referred to as the 1251 Report, was expected to address these 
funding concerns. However, many are questioning whether the 
President's plan is adequate to meet our full recapitalization 
and modernization needs.
    I was particularly concerned by the testimony this 
committee received from the director of the Los Alamos National 
Laboratory regarding his ``fear that there's already a gap 
emerging between expectations and fiscal realities,'' and his 
concern that ``much of the administration's planned funding 
increase for weapons activities do not come to fruition until 
the second half of the 10-year period.'' I'll be interested in 
hearing from our witnesses today if they feel the 
administration's 10-year plan for modernization commits the 
necessary resources in the appropriate timeframe to 
reconstitute the weapons complex.
    Another significant concern raised in the Strategic Posture 
Review involved the ability to attract and retain a new 
generation of scientists and engineers to sustain the safety, 
security, and reliability of the nuclear weapons stockpile. 
During the committee's hearings on the Nuclear Posture Review 
(NPR), and more recently, during our hearing with the lab 
directors, concerns were raised about the administration's 
decisions to discourage the replacement of warheads as an 
option for life-extension programs.
    Dr. Foster, you, along with nine other former lab 
directors, sent a letter to the Secretary of Defense and the 
Secretary of Energy stating that you believe this more limited 
approach to life extension programs constitutes a, ``higher bar 
that will stifle the creative and imaginative thinking that 
typifies the excellent history of progress and development at 
the national laboratories.'' I look forward to hearing more 
about whether curtailing the replacement of warheads could 
result in an impending brain drain from our nuclear complex, 
while harming the prospects for recruiting new talent and the 
ability to design, manufacture, field, and evaluate nuclear 
weapons in our overall deterrence posture.
    Many of us also remain concerned about the New START 
treaty's references to missile defense. While some have argued 
that New START will not constrain us from developing and 
deploying effective missile defenses, facts are stubborn 
things. In the New START text, not just the preamble, but 
article 5 of the treaty itself, includes a clear, legally 
binding limitation on our missile defense options. While this 
limitation may not be a meaningful one, it is a limitation. 
Such limitations could fuel Russia's clear desire to establish 
unfounded linkages between offensive and defensive weapons, 
while diverting attention away from negotiating reductions to 
the large Russian stockpile of tactical nuclear weapons.
    The significant imbalance in tactical nuclear weapons has a 
far greater strategic destabilizing impact than defensive 
systems, like missile defense. Though the administration 
apparently relented to Russian pressures to acknowledge an 
interrelationship between strategic offensive and defensive 
weapons, it ignored the far more significant 
interrelationship--that between strategic and nonstrategic 
offensive weapons. Russia has a 10-to-1 advantage over the 
United States in tactical nuclear weapons.
    Dr. Payne, you have stated publicly that quote, ``The great 
locus of concern about Russian nuclear weapons lies in its 
large arsenal of tactical nuclear weapons.'' I look forward to 
hearing more about the significant and destabilizing danger 
that this imbalance in tactical weapons could pose, and what 
steps the United States must take, in the near future, to 
address this threat.
    Our consideration of the New START treaty is a serious 
responsibility, and I thank all of you for joining us today to 
help add to our understanding of it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Nunn, who's the former chairman of this committee, 
and well known to all of us who had the opportunity to serve 
with him, has submitted a statement, and we will make that part 
of the record.
    [The information referred to follows:]
             Prepared Statement by Former Senator Sam Nunn
    I want to thank both the distinguished chairman and ranking member 
of the Senate Armed Services Committee, Senator Carl Levin and Senator 
John McCain, for the opportunity to present my views on the New START 
agreement to the committee. I have always believed the national 
security of the United States--in particular as it relates to questions 
surrounding nuclear weapons and arms control--is by definition a 
nonpartisan issue, and should be approached that way by the executive 
and legislative branches of our government. The two of you are setting 
an example in this regard, and I commend your leadership in scheduling 
hearings on the New START agreement with a distinguished group of 
administration officials, former officials, and experts, and for your 
thorough and expeditious review of the New START agreement.
    As this committee knows, the potential use of nuclear weapons is 
one of the gravest dangers the world faces. Working with former 
Secretaries of State George Shultz and Henry Kissinger and former 
Secretary of Defense Bill Perry, the four of us have called for U.S. 
leadership to help build a solid consensus for reversing reliance on 
nuclear weapons globally as a vital contribution to preventing their 
proliferation into potentially dangerous hands, and ultimately ending 
them as a threat to the world. One important step involves the renewal 
of nuclear arms talks and cooperation between the United States and 
Russia and the conclusion of the New START treaty.
    In considering this treaty, the bottom line for me is this: the 
nuclear threat has fundamentally changed since the end of the Cold War. 
The threat of nuclear terrorism is now urgent, fueled by the spread of 
nuclear weapons, materials, and technology around the world. While this 
is a global issue, there are two countries--the United States and 
Russia--whose cooperation is absolutely essential in order to 
successfully deal with a wide range of security issues, including 
current nuclear threats. Specifically, cooperation is essential for:

    1.  Securing nuclear materials and preventing catastrophic 
terrorism
    2.  Energy security
    3.  Euro-Atlantic security
    4.  Stemming the spread of nuclear weapons to North Korea and Iran
    5.  Addressing deep instability in Afghanistan and conflict in the 
Middle East
    6.  Preventing conflict in Central Asia, and
    7.  A more stable and safer non-nuclear Korean peninsula.

    In each of these cases, cooperation between the United States and 
Russia is not just important, it is vital. With New START, our odds of 
establishing a more cooperative relationship with Russia go up, and the 
odds of a nuclear weapon being used go down.
    It is also essential to note that with the expiration of the 1991 
START Treaty last December, there is no longer any agreement in place 
for monitoring strategic nuclear forces on both sides. The New START 
treaty's provisions for data exchange and on-site inspection of 
strategic nuclear forces will provide unique and valuable information 
on Russian nuclear capabilities that we will not have if we do not 
ratify this treaty. This information remains vitally important to the 
security of the United States and will increase transparency and 
confidence on both sides, thus enhancing predictability and stability.
    I know some have expressed concerns that the New START treaty might 
undermine America's missile defense program. They cite the preamble 
recognizing the interrelationship between strategic offensive and 
defensive arms; or the treaty's prohibition on converting or using 
existing strategic launchers for placement of missile defense 
interceptors; or Russian assertions of a right to withdraw from the 
treaty. Informed by my own review of the treaty text and the detailed 
testimony presented on this topic before the Senate, I am reassured 
that New START is not a threat or a barrier to America's missile 
defenses, and I see little value in encouraging the Russians to think 
otherwise.
    Another issue of concern to this committee and the Senate is the 
question of maintaining the safety, security, and reliability of our 
own nuclear weapons. In my view, nothing in the New START agreement 
would in any way inhibit the ability of the United States to make the 
necessary investments in our nuclear weapons infrastructure and the 
three national nuclear weapons laboratories. Indeed, we must proceed on 
both fronts: reducing nuclear dangers by maintaining our deterrence, 
and reducing nuclear dangers through arms control. The New START 
agreement is consistent with this framework.
    New START has been forcefully advocated by Secretary of State 
Hillary Clinton, Secretary of Defense Robert Gates, and the Joint 
Chiefs of Staff. In addition to Secretaries Shultz, Perry, and 
Kissinger, the treaty has been endorsed by former Secretary of State 
James Baker, former Secretary of Defense James Schlesinger, and former 
National Security Advisors Brent Scowcroft and Steve Hadley, who served 
under Presidents George H.W. Bush and George W. Bush, respectively.
    I urge the Senate to give its advice and consent to ratification of 
New START as early as is feasible. I also urge the two governments to 
begin planning now for even more substantial reductions in the future 
involving all nuclear weapons, strategic and tactical, deployed and 
non-deployed.
    Mr. Chairman, Senator McCain, and members of the committee, I know 
how important the Senate's role is in treaty ratification, and I also 
recognize the imperative of strong committee leadership. I am grateful 
for the opportunity to present my views to the committee and the 
Senate.

    Chairman Levin. We will call on our witnesses. I think we 
will call on you in alphabetical order. I don't have any more 
logical way to do it. So we will start with Dr. Foster, then 
Mr. Miller, Dr. Payne, and Ambassador Pifer.
    Dr. Foster.

  STATEMENT OF DR. JOHN S. FOSTER, JR., INDEPENDENT CONSULTANT

    Dr. Foster. Chairman Levin, Senator McCain, distinguished 
members of the Senate. Thank you, Mr. Chairman. I appreciate 
the invitation to appear before the committee to discuss New 
START treaty.
    Since you have been provided a copy of my prepared 
testimony, Mr. Chairman, I propose to take just 4 or 5 minutes 
to highlight my views and suggestions.
    Chairman Levin. That would be fine. All the statements will 
be made part of the record, in full.
    Dr. Foster. President Obama has reenergized U.S. policy to 
work toward a nuclear-free world. Recognizing that the 
achievement of that situation will likely take many decades, 
the President has required the maintenance of our nuclear 
deterrent for the foreseeable future. If we are able to 
accomplish that, it will be a most welcome turning point from 
the general course that we have been on for the last two 
decades.
    The administration has made its case to support 
ratification of New START, and numerous concerns have been 
raised. They range from failure of the Soviet Union and Russia 
to comply with past treaties, to concerns about 
intercontinental ballistic missiles (ICBMs) on trains, ships, 
and aircraft, the omission of tactical nuclear weapons, linkage 
of strategic offense and defensive systems, provisions for 
verification, et cetera. To reach a judgment on ratification of 
New START requires that the Senate examine the pros and cons of 
each concern. That's the purpose of these hearings.
    Of those concerns, I single out just one: verification. I 
find it to be inadequate for the next 10 years, in part, 
because New START's provisions are significantly less demanding 
than START I, and if the Russian economy supports the programs 
they plan to deploy from their new triad, we will not have in 
place the monitoring capability that may be necessary.
    For example, we no longer have the monitoring station at 
the Volkinsk plant that was assembling the missiles, and that 
we don't have the degree of missile telemetry that was 
permitted under START I. Then there's the reduction in site 
visits. These limitations could become serious over the next 10 
years.
    I realize there are now fewer facilities, 24-hour notice on 
a new missile to emerge from the plant, and we can count 
warheads on deployed missiles, and so on. But, there are no 
limitations on new missile characteristics, and more telemetry 
would be very important if, for example, we need to defend our 
ICBMs.
    Next, the limitations on deployed delivery vehicles to 700 
and warheads to 1,550. Secretary Gates and General Chilton have 
testified that nuclear deterrence can still be maintained, 
subject to Russian compliance and no requirements for force 
increases. Things could change a lot over the next 10 years. I 
urge that we not only maintain the current strategic force and 
its infrastructure, but complete current studies of possible 
future systems and initiate hedge programs so that we can be in 
a position to produce a modern triad, as the service lives of 
current systems run out.
    The committee has heard from the three laboratory directors 
regarding the recent decline in congressional support for 
NNSA's nuclear warhead programs and supporting infrastructure, 
particularly in the last 5 years. Stockpile surveillance is 
behind schedule, laboratory experiments, tests, and personnel 
have been reduced. Important new facilities planned for Los 
Alamos in New Mexico and Oak Ridge in Tennessee, but there is 
concern that the costs of the multibillion-dollar facilities 
could increase substantially over the estimates submitted in 
the fiscal year 2011 through 2015 budgets. Should that occur, 
it could again force reductions in warhead surveillance, delays 
in life extension programs, reduction in lab experiments and 
personnel.
    To reduce the likelihood of that happening, I have 
suggested that the nuclear weapons council consider initiating 
a thorough scrub of the necessary capabilities and construction 
costs to ensure that safety, security, programmatic risks and 
costs are effectively managed.
    Certification: Congress has directed that each year the 
laboratory directors, Commander of STRATCOM, and the 
Secretaries of Defense and Energy submit letters to the 
President certifying as to the safety and reliability of the 
nuclear deterrent in the absence of nuclear testing. However, 
in the past few years, the directors have expressed increasing 
concern in their ability to certify the stockpile, in part, 
because the reduced funding of the Stockpile Stewardship 
Program has reduced the information needed to perform that 
certification.
    I have urged the laboratory directors to assess the minimum 
conditions under which they would have the knowledge necessary 
to consider certifiability of the stockpile.
    Safeguards: Congress, in approving and ratifying past 
agreements and treaties have established safeguards which 
helped us to meet our commitments. In considering New START, I 
urge the Senate to again specify safeguards which provide for 
an annual, independent assessment of DOD's nuclear delivery 
programs, NNSA's warhead programs, and the sufficiency of both 
supporting infrastructures.
    Mr. Chairman, thank you very much.
    [The prepared statement of Dr. Foster follows:]
             Prepared Statement by Dr. John S. Foster, Jr.
    Chairman Levin, Ranking Member McCain, and other members of the 
committee, I am honored to be invited to present a very brief summary 
of my views on several aspects of the New Strategic Arms Reduction 
Treaty (START) treaty and then attempt to answer any questions you may 
have.
                           nuclear deterrence
    As the committee knows well, the purpose of our strategic nuclear 
deterrent is to deter the use of nuclear weapons against the United 
States and our allies, and large scale war, and not to fight a nuclear 
war. But, to be effective it needs to insure that no potential nuclear 
adversary could believe that they could gain more than they would lose 
by an attributable attack on the United States or on those supported by 
our extended deterrent. The existence of dynamic military delivery and 
nuclear warhead infrastructures is also an important deterrent.
    The administration has made its' case to support ratification of 
New START and concerns have been raised regarding such issues as MIRV'd 
payloads, missiles on ships, aircraft and trains, the omission of 
Russian tactical nuclear weapons, linkage of Russian offensive missiles 
to our missile defense, also the counting of our possible Conventional 
Prompt Global Strike, visibility of changes negotiated by the Bilateral 
Consultative Commission, provisions for verifications, etc. These 
concerns raise important issues for U.S. security. During the next few 
months the Senate will have an opportunity to carefully examine these 
concerns and the administration's responses prior to providing its 
advice and consent. At this time I'll just make a brief comment on the 
verification provisions.
                              verification
    The importance and value of verification increases as the 
negotiated number of weapons decreases. New START verification, in my 
judgment, is inadequate to give us the depth of knowledge that we will 
need, given Russian military doctrine and modernization programs. I 
assume we all believe in the necessity to ``Trust but Verify''. 
Unfortunately, past compliance by the Soviet Union/Russia and our 
inability or unwillingness to force compliance does not provide a firm 
foundation for this treaty. Second, the provisions in New START are 
significantly less demanding than START I. The provision for visits (up 
to 18 per year) is substantially less than we found necessary under 
START I. Third, a monitoring station at the Russian assembly plant at 
Volkinsk is no longer permitted and missile telemetry, which we have 
found very useful, is greatly reduced. These limitations could become 
serious over the next 10 years if the Russian economy and priority to 
strategic nuclear systems ramp up their modernization program. I 
understand that currently there are fewer facilities, that we can 
expect 24-hour notice of an identified missile leaving the assembly 
plant and that we can count the number of warheads on each deployed 
missile. But there are no limitations on new missile characteristics 
and more telemetry would be very important if we chose, for example, to 
defend our intercontinental ballistic missiles (ICBMs).
    Given this situation, and based on our perception of Russia's 
intentions, I believe that more visibility is needed. We need to be 
alert to the fact that intentions can change much more rapidly than 
capabilities. Hence, I urge that we continue to explore verification 
approaches.
    New START would limit U.S. and Russian deployed delivery vehicles 
to 700 and nuclear warheads to 1,550. For our current situation General 
Chilton and Secretary Gates have testified that with those numbers and 
some specific assumptions regarding our future needs, nuclear 
deterrence can still be maintained. But things do change. In the future 
even smaller numbers could possibly still be effective or larger 
numbers of offensive launchers and or defenses might be needed. Our 
nuclear enterprise must be resilient to such potential changes. For 
example, we should maintain a Triad because we depend on the special 
and different characteristics of each leg to provide retaliatory 
capability that is credible to the attacker. The heavy bombers provide 
for communication of intent and resolve and when generated are 
survivable. ICBMs provide responsive command and control and ballistic 
missile submarines, survivability. It is important to understand that 
the need for a Triad is not dependent on numbers. But if the numbers of 
delivery vehicles were to change, then the strategy and its associated 
targeting would have to change.
                        a nuclear turning point?
    President Obama's commitment to maintain nuclear deterrence for the 
foreseeable future, the Department of Defense's (DOD) NPR, and the 
fiscal year 2011-2015 budgets all mark a possible turning point in 
plans from the 20-year decline of our strategic nuclear deterrent, its 
maintenance, and supporting infrastructure.

        <bullet> The venerable B-52 and aging B-2 heavy bombers are to 
        receive upgraded communications, flight systems, radar and 
        structural improvements. Funds are also included to define a 
        follow-on heavy bomber. The Air Force also plans to study the 
        need to develop an advanced, reliable strategic nuclear cruise 
        missile for heavy bombers to replace the aging ALCM.
        <bullet> The Minuteman III ICBM's are to be upgraded and 
        maintained until 2030. Planning is also underway for a follow-
        on ICBM.
        <bullet> The service life of the Navy's submarine leg of the 
        Triad and its ballistic missiles are planned to be upgraded and 
        extended to 2042. To provide a replacement of the Trident 
        submarine, the Navy is designing a new submarine and follow-on 
        missiles.
         Preliminary estimates of costs for future strategic systems 
        have led Secretary Gates to request the services to find ways 
        to substantially reduce their costs. One attractive opportunity 
        to reduce missile costs would be for the Air Force and Navy to 
        agree on common missile/warhead interfaces, common booster 
        missile production facilities and depot level support 
        capabilities.

    But for the trend in our nuclear deterrent to turn around will 
require that Congress support the DOD strategic program requests. We 
also need to recognize that the nuclear weapons complex is an essential 
component of DOD's capability. History tells us that it will require an 
extraordinary sustained commitment to the long-term needs to maintain 
the strategic deterrent. While we see an encouraging focus now, it will 
take continuing attention on the part of Congress and successive 
administrations to keep it on track. Beyond maintaining our current 
aging deterrent we need to not only complete the current studies but to 
start programs that will position us to deploy modern replacement 
systems when needed. I suggest that the Senate request a policy 
commitment from the administration to replace our aging force structure 
with modern systems.
                   turning point for nuclear warheads
    The fiscal year 2011-2015 budgets would provide increased support 
for warhead life extension programs, warhead surveillance and mandatory 
fixes and also to boost computing, science, engineering and laboratory 
experiments. In implementing the life extension programs it is 
important that the laboratories are free to pursue approaches that, in 
their judgment, best provide for safety and reliability. In addition, 
budgets are estimated for new facilities, in particular CMRR at Los 
Alamos for research on plutonium and UPF, a uranium parts manufacturing 
plant at Oakridge in Tennessee. The committee should understand that at 
present we do not yet have good cost estimates for the new facilities, 
each of which are expected to cost billions of dollars. There is 
general concern that their costs will exceed the preliminary estimates 
and that may force major reductions in other NNSA nuclear weapons 
activities to include warhead surveillance, the life extensions and 
science programs. Such a development would turn us back into the 
situation we have faced for the last 5 years. I have suggested that the 
Nuclear Weapons Council initiate a thorough scrub of the necessary 
capabilities and construction costs for the new facilities to insure 
that safety, security, programmatic risks and costs are effectively 
managed.
                             certification
    Congress has directed that each year the Laboratory Directors, 
Commander STRATCOM, and the Secretaries of Defense and Energy submit 
letters to the President certifying as to the safety, security and 
reliability of the nuclear deterrent in the absence of nuclear testing. 
However, in prior years, the Laboratory Directors have expressed 
increasing concerns because of both the cumulative changes to the 
warheads from their life extensions and reductions in warhead 
surveillance and reduced funding of the Stockpile Stewardship Program 
which has reduced the information they need to perform the annual 
assessments as to certifiability of the safety, security and 
reliability of the stockpile. One can hope the lesson of the last 5 
years will be learned and the necessary surveillance, lab 
experimentation etc., will be increased and sustained for the 
foreseeable future. I have urged the laboratory Directors to assess the 
minimum conditions under which they would have the knowledge necessary 
to consider the certifiability of the stockpile without nuclear 
testing, eg., surveillance, SFI's, hydro-experiments, training on new 
nuclear device designs through to prototypes, etc.
    Whether or not we really are at a turning point regarding the 
maintenance and modernization of our strategic nuclear deterrent, 
extended deterrent and infrastructure depends on whether or not we 
initiate and adequately fund programs recommended by recent studies and 
reports.
                               safeguards
    Prior to approving/ratifying past agreements and treaties; the 
atmospheric and threshold test bans, START I and the Moscow Agreement, 
Congress established, for different objectives, the activities 
necessary to meet the Nation's commitments. The existence of those 
safeguards proved to be an important factor in ensuring that subsequent 
administrations and Congress provided the flexibility and resilience to 
respond to our uncertain future. I urge that in considering New START 
the Senate to again specify appropriate safeguards including an annual 
independent assessment of DOD's nuclear delivery programs and NNSA's 
warhead programs, also including sufficiency of the aerospace 
industrial aircraft, submarine and missile infrastructure and the 
nuclear warhead laboratories and that infrastructure to support our 
nuclear deterrent into the future.
    Thank you, I would welcome any questions the committee members may 
have.

    Chairman Levin. Thank you very much, Dr. Foster.
    Mr. Miller.

    STATEMENT OF FRANKLIN C. MILLER, INDEPENDENT CONSULTANT

    Mr. Miller. Mr. Chairman, Senator McCain, members of the 
committee, it's an honor to appear before you, with my 
colleagues, this morning.
    Since experience has taught me that the principal value of 
a panel such as this is our responses to your questions and our 
interaction with each other, my opening remarks will be quite 
brief.
    Let me say, at the outset, that I support this New START 
treaty. It is, as Harold Brown once said of another treaty, 
``modest but useful.'' Based on my long involvement in U.S. 
nuclear deterrence policy and target planning, I am confident 
that the United States can safely provide for our national 
security, and that of our allies, at the launcher and warhead 
limits that the New START treaty prescribes.
    The New START treaty reopens channels of communication and 
means of inspection and verification which were closed when the 
START treaty expired in December of last year. Transparency 
increases predictability. Predictability enhances stability.
    The New START treaty by itself, however, will not provide 
increased strategic stability. It is vitally important, in this 
regard, that the administration and Congress support a 
modernized and effective U.S. nuclear deterrent. This means 
that adequate funding must be provided, where necessary and 
appropriate, to modernize both delivery systems and warheads, 
including the Department of Energy (DOE) nuclear weapons 
complex, which the committee has discussed in previous 
hearings.
    The New START treaty permits modernization by both sides. 
Each side is equally advantaged or disadvantaged. But we, the 
United States, will only be disadvantaged by what we, 
ourselves, choose not to do with respect to modernization. The 
strategic triad which underwrites our national security is 
aging. It is the product of the Reagan administration's 
recapitalization of the Kennedy administration's Strategic 
Modernization Program. The United States must begin promptly to 
begin work on proceeding with the replacement for the Ohio-
class submarine. The administration needs to provide Congress a 
more concrete plan which sets forth its plans for the 
sustainment of the Minuteman force and for the bomber force.
    We also must pay attention to the defense industrial base 
which supports our strategic deterrent, especially the solid 
rocket motor production facilities. It is also my view that 
additional funds need to be provided to enhance both the 
technical and the human side of that part of our intelligence 
community which will monitor Russia's compliance with the New 
START treaty.
    Finally, let me say that I believe this New START treaty is 
the last nuclear arms treaty which can safely ignore Russia's 
short-range nuclear systems. While properly not a subject for 
this treaty, which stands on its own merits, I believe the 
administration must begin to press the Russian Government to 
reduce, significantly, its vastly oversized arsenal of short-
range nuclear weapons. I believe, and have written elsewhere, 
that I do not think this needs to await the opening of a new 
round of negotiations on strategic arms cuts, whenever that 
might occur. I believe the United States needs to turn 
international attention to the bloated and grossly unnecessary 
size of the Russian short-range nuclear arsenal.
    The administration and the international community should 
press the Russian Government to provide transparency into the 
size and composition of its short-range nuclear stockpile, and 
should call for major near-term reductions in it.
    Mr. Chairman, Senator McCain, this concludes my opening 
remarks, and I look forward to the committee's questions.
    Chairman Levin. Thank you very much, Mr. Miller.
    Dr. Payne.

 STATEMENT OF DR. KEITH B. PAYNE, PROFESSOR AND HEAD, GRADUATE 
  DEPARTMENT OF DEFENSE AND STRATEGIC STUDIES, MISSOURI STATE 
                 UNIVERSITY (WASHINGTON CAMPUS)

    Dr. Payne. Thank you Chairman Levin, Senator McCain, 
distinguished members, it's an honor to appear before the 
committee to discuss the New START treaty this morning.
    I would like to begin by observing that reductions in the 
number and diversity of U.S. forces can matter greatly, because 
the credibility of our forces to deter enemies and assure 
allies is dependent on their flexibility to provide a spectrum 
of deterrent options and their resilience to adjust in a timely 
way to changes in the threat environment.
    The need for flexibility and multiple strategic options is 
particularly important today because the contemporary threat 
environment can shift rapidly and surprisingly. The 2009 report 
by the bipartisan Strategic Posture Commission emphasizes this 
U.S. requirement. Understanding the requirement for flexibility 
and resilience, I believe, is the necessary starting point for 
any review of the New START treaty. Our force numbers may move 
lower, but we must be careful to advance the flexibility and 
resilience that helps make them credible.
    The material question regarding verification, and the New 
START treaty in general, is whether it is compatible with the 
quantity, diversity, flexibility, and resilience essential for 
the credibility of our forces. The New START treaty raises some 
concerns in this regard. For example, a recent Obama 
administration report on verification apparently emphasizes 
that any Russian cheating, and I quote, ``would have little 
effect on the assured second-strike capabilities of U.S. 
strategic forces.'' This claim suggests that an assured 
devastating second-strike capability is adequate for U.S. 
strategic forces, and, therefore, any Russian cheating would 
have no serious effect on our ability to deter or assure.
    Yet, every Republican and Democratic administration since 
the 1960s has concluded that an assured-destruction second-
strike capability alone is an inadequate measure for our 
forces, because it includes little or none of the flexibility 
and resilience so important for credible deterrence and 
assurance.
    Under the New START treaty, would the combination of U.S. 
force reductions and Russian deployments, with or without 
Russian cheating, threaten the necessary flexibility and 
resilience of our forces? The New START treaty would limit U.S. 
strategic flexibility and resilience, to some extent, because 
it requires sizable reductions in the number of U.S. strategic 
nuclear launchers and limits some types of strategic 
conventional forces for Prompt Global Strike.
    Senior U.S. military leaders have noted, in open testimony, 
that the New START treaty would indeed allow sufficient U.S. 
strategic force flexibility. This important conclusion 
reportedly follows from analyses that included these three key 
assumptions: one, that U.S. planning guidance for strategic 
forces would remain the same; two, that there would be no 
requests for an increase in forces; and three, that Russia 
would be compliant with the New START treaty. If one or all of 
these starting optimistic assumptions do not hold, as is 
plausible, would the New START treaty allow sufficient U.S. 
flexibility and resilience to adjust, as necessary, for 
credible deterrence? This is a fundamental question regarding 
the New START treaty.
    The traditional U.S. triad of bombers, ICBMs, and sea-based 
missiles, now buttressed by missile defense and the potential 
for new conventional Prompt Global Strike, can help provide the 
flexibility and resilience to adjust to a multitude of 
different threats and circumstances. At this point, however, 
there is no apparent administration commitment to advance 
conventional Prompt Global Strike deployment, to replacing the 
aging ICBM and bomber legs of our triad, or to a new air-
launched cruise missile. That fosters concern that force 
reductions may come at the expense of the longstanding 
requirements for force diversity and flexibility, and take 
refuge in old assured-destruction thinking.
    If our numbers are to decline further, we must take care to 
ensure sufficient flexibility and resilience, whether through 
traditional means or innovations, and for conditions that are 
less optimistic than those assumed in administration analysis. 
How much confidence can we have that the administration will 
take the necessary strategic modernization steps, given the 
clear statement that its highest nuclear priority now is 
nonproliferation and movement towards a nuclear-free world, its 
commitment to further negotiated reductions, and its 
presumption against any new nuclear warheads? A solid U.S. 
commitment to bomber and cruise missile modernization, 
Minuteman III replacement or life extension with enhanced 
survivability measures, and missile defenses of all ranges 
could help provide this confidence.
    Concern about the New START treaty's reductions of U.S. 
force flexibility and resilience, however modest or 
significant, also might be eased if the treaty's ceilings on 
Russian forces actually would reduce the threats we might face. 
But, according to numerous Russian open sources, the New START 
treaty's ceilings are of little real consequence for Russia. 
Russia's aged cold war strategic launchers already have been 
reduced below the New START treaty's ceilings, and will decline 
further without the treaty. The New START treaty has common 
ceilings, but appears to require unilateral U.S. reductions.
    In addition, the New START treaty's loopholes would allow 
Russia to deploy far beyond the New START treaty's strategic 
nuclear warhead ceiling within the terms of the New START 
treaty, if Russia finds the financial resources to do so. This 
may be significant over time, because Russia's highest defense 
procurement priority is the modernization of its strategic 
nuclear forces.
    The troubling irony is that aging forces, and Russia's 
production and financial problems are now causing reductions in 
Russia's force numbers without the New START treaty, and the 
treaty would not prevent Russia from deploying future forces 
well beyond the New START treaty's specified ceilings.
    In sum, flexibility and resilience are key contributors to 
the credibility of our forces. The most important New START 
treaty question is whether U.S. forces will retain sufficient 
flexibility and resilience to be credible in conditions that 
are less optimistic than those assumed by the administration in 
its analysis. An important consideration in this regard is that 
the New START treaty's ceilings appear not to require real 
Russian launcher reductions in the near term, and its loopholes 
would allow the renewal of Russian strategic capabilities over 
time.
    There are some steps that might help to mitigate the 
potential risks posed by the New START treaty. They involve 
U.S. commitments, demonstrated by policy direction and robust 
program budget for advanced conventional Prompt Global Strike, 
missile defense, and innovative replacements for our aging 
triad.
    Thank you.
    [The prepared statement of Dr. Payne follows:]
                Prepared Statement by Dr. Keith B. Payne
    Chairman Levin, Senator McCain, distinguished members, thank you 
for the invitation to appear before the committee to discuss New START; 
it is an honor to do so.
    I would like to begin by observing that reductions in the number 
and diversity of U.S. forces can matter greatly because the credibility 
of our forces is dependent on their flexibility to provide a spectrum 
of deterrent options and their resilience to adjust in a timely way to 
changes in the threat environment. This flexibility and resilience, in 
turn is determined to a great extent by the number and diversity of our 
strategic forces.
    An ``assured destruction''-type deterrent lacking this flexibility 
and resilience is likely to be incredible against many of the limited, 
yet severe threats we and our allies may face. U.S. officials knew this 
full well during the Cold War; virtually all major nuclear policy 
documents since the 1960s emphasized the need for flexibility and 
multiple strategic force options.\1\ That need is particularly 
important today because the contemporary threat environment can shift 
rapidly and surprisingly. In one crisis we may need one set of 
strategic capabilities to deter credibly, in a different crisis, a 
different set of strategic capabilities may be necessary; assuring 
allies credibly may necessitate still different types of strategic 
forces; and when an attack cannot be deterred, an altogether different 
set of forces may be necessary to defend.
---------------------------------------------------------------------------
    \1\ See Richard Nixon, National Security Council, National Security 
Decision Memorandum-242, Policy for Planning the Employment of Nuclear 
Weapons, January 17, 1974 (Top Secret, declassified February 20, 1998). 
See also, Jimmy Carter, Presidential Directive/NSC-59, The White House, 
July 25, 1980 (Top Secret, Partially declassified August 20, 1996); 
Harold Brown, Department of Defense Annual Report Fiscal Year 1982 
(Washington, DC: USGPO, 1981), p. 40.
---------------------------------------------------------------------------
    If we want a credible deterrent across a spectrum of severe 
threats, including for example, nuclear and biological threats to our 
allies, our forces must have the quantity and diversity necessary to be 
flexible and resilient. The 2009 report by the bipartisan Strategic 
Posture Commission, America's Strategic Posture, emphasizes this 
contemporary U.S. requirement given the fluid threat environment.\2\
---------------------------------------------------------------------------
    \2\ The Final Report of the Congressional Commission on the 
Strategic Posture of the United States, America's Strategic Posture 
(Washington, DC: USIP, 2009), pp. 23, 24-26.
---------------------------------------------------------------------------
    Understanding this requirement is the necessary starting point for 
any review of New START. The material question regarding verification 
and New START in general is whether the treaty is compatible with the 
flexibility and resilience essential to the credibility of U.S. forces 
over the long term--not simply whether we could retain an ``assured 
second-strike'' capability. Under New START, would the combination of 
U.S. force reductions and Russian force deployments (with or without 
Russian cheating) threaten the necessary flexibility and resilience of 
our forces? We must not allow enthusiasm for quantitative nuclear 
reductions to degrade the flexibility and resilience of our forces and 
return U.S. to old discarded standards of ``assured destruction.'' Our 
ability to deter and assure credibly would be undermined. Instead, as 
our force numbers move lower, we must be careful to advance the force 
flexibility and resilience that helps make them credible.
    My conclusion is that New START raises some concerns in this 
regard.
    For example, a recent administration report on verification 
apparently emphasizes that ``any'' Russian cheating ``would have little 
effect on the assured second-strike capabilities of U.S. strategic 
forces . . . '' \3\ This claim suggests that an ``assured devastating 
second-strike capability'' is adequate for U.S. strategic forces, and 
therefore ``any'' Russian cheating could have no serious effect on our 
ability to deter or assure.\4\ Yet, as noted, every Republican and 
Democratic administration since the 1960s has concluded that an 
``assured destruction'' capability alone is inadequate because it 
requires little or none of the flexibility and resilience so important 
for credible deterrence and assurance.
---------------------------------------------------------------------------
    \3\ Unclassified potions of the report quoted by Chairman Carl 
Levin, Senate Armed Services Committee, Hearing on the New Strategic 
Arms Reduction Treaty (START) Implementation, July 20, 2010, CQ 
Congressional Transcript.
    \4\ ``Assured devastating second-strike capability'' is the 
descriptor used by Dr. James Miller in, Senate Armed Services 
Committee, Hearing on the New Strategic Arms Reduction Treaty (START) 
Implementation, July 20, 2010, CQ Congressional Transcript.
---------------------------------------------------------------------------
    The treaty would limit U.S. strategic force flexibility and 
resilience because it requires sizeable reductions in the number of 
U.S. strategic nuclear launchers, and would limit some types of 
strategic conventional forces for prompt global strike (PGS). 
Administration officials have said, ``The treaty does not constrain our 
ability to develop and deploy non-nuclear prompt global strike 
capabilities.'' \5\
---------------------------------------------------------------------------
    \5\ Dr. James Miller, Ibid. See also, Department of State, Bureau 
of Verification, Compliance, and Implementation, Fact Sheet, April 8, 
2010, at http://www.state.gov/t/vci/rls/139899.htm.
---------------------------------------------------------------------------
    In fact, New START would restrict deployment of U.S. conventional 
PGS options based on existing ICBMs or sea-based ballistic missiles. 
These would be limited under New START's ceiling of 700 deployed 
launchers.\6\ We would have to reduce our strategic nuclear force 
launchers below 700 on a 1:1 basis for each of these conventional PGS 
systems deployed. The treaty would thus limit our flexibility and 
resilience in this area. In general, a 1:1 replacement of nuclear 
forces by conventional forces has understandably and specifically been 
rejected for deterrence purposes by senior U.S. military leaders.\7\
---------------------------------------------------------------------------
    \6\ Under New START the number of deployed U.S. strategic launchers 
will have to be reduced from today's reported level of 880 launchers to 
a ceiling of 700 deployed launchers. Amy Woolf, The New START Treaty: 
Central Limits and Key Provisions, Congressional Research Service 7-
5700 (June 18, 2010), p. 19.
    \7\ General Kevin Chilton, Senate Armed Services Committee, Hearing 
to Receive Testimony on the Nuclear Posture Review, April 22, 2010, pp. 
24-25.
---------------------------------------------------------------------------
    Administration officials have said, nevertheless, that so limiting 
these conventional PGS options is acceptable assuming there is a need 
for only a small number of such systems.\8\ Unfortunately, there can be 
no certainty behind that assumption given the many different and now-
unknown threats that will arise in New START's 10-15 year timeframe. 
Perhaps the option of deploying many such conventional PGS systems will 
be critical for deterrence, assurance or defense. Under New START we 
would be mightily constrained from doing so because of the treaty's 
limits and its required 1:1 trade-off with our nuclear forces.
---------------------------------------------------------------------------
    \8\ Woolf, The New START Treaty: Central Limits and Key Provisions, 
pp. 17-18; also, Miller, Senate Armed Services Committee, Hearing to 
Receive Testimony on the Nuclear Posture Review, April 22, 2010, p. 24.
---------------------------------------------------------------------------
    This problem might be mitigated with Senate guidance that there be 
no further negotiated restrictions on advanced U.S. non-nuclear PGS 
systems and a requirement for a firm commitment to the development and 
deployment, as soon as technically and operationally sound, of 
conventional PGS capabilities that are not limited by treaty.
    In addition, New START's force limits do not allow ``more 
[capability] than is needed'' for deterrence under current planning.\9\ 
Leaving little or no such margin may be risky when force flexibility 
and diversity is necessary to deter and assure across a range of 
threats.
---------------------------------------------------------------------------
    \9\ General Kevin Chilton, Senate Foreign Relations Committee, 
Hearing, The New START Treaty: Views From the Pentagon, June 16, 2010, 
Federal News Service.
---------------------------------------------------------------------------
    Senior U.S. military leaders have noted in open testimony that New 
START would indeed allow sufficient U.S. strategic force 
flexibility.\10\ The analysis behind this important conclusion 
reportedly was predicated on three key assumptions: (1) U.S. planning 
guidance for strategic forces would remain the same; (2) there would be 
no requests for an increase in forces; and (3) Russia would be 
compliant with New START.\11\
---------------------------------------------------------------------------
    \10\ General Kevin Chilton, Senate Armed Services Committee, 
Hearing to Receive Testimony on the Nuclear Posture Review, April, 22, 
p. 14.
    \11\ General Kevin Chilton, Ibid, pp. 8, 13; and, House Armed 
Service Committee, Hearing, U.S. Nuclear Weapons Policy and Force 
Structure, April 15, 2010, p. 11.
---------------------------------------------------------------------------
    Would the treaty allow sufficient U.S. flexibility and resilience 
to adjust as necessary for credible deterrence and assurance if one or 
all of those starting optimistic assumptions do not hold, as is 
plausible?
    For example, what if Russia again decides to violate its treaty 
commitments? What if relations with China and Russia return to a crisis 
pitch, and they express more severe nuclear threats to our allies or to 
us? What if Iranian deployment of nuclear weapons and missiles throws 
the entire Middle East into an unprecedented security crisis? What if 
the apparent nuclear nexus of Burma, Iran, North Korea and Syria poses 
unprecedented threats to our allies or our forces abroad? \12\ U.S. 
planning and force requirements might have to change with any and all 
of these unwanted developments that could arise during New START's 
tenure. What new quantitative or qualitative strategic force 
requirements might arise as a result for credible deterrence, assurance 
or defense, and would New START preserve the necessary U.S. force 
flexibility and resilience to meet those requirements? These are 
fundamental questions regarding the treaty and international security.
---------------------------------------------------------------------------
    \12\ See the discussion in, ``Article Sees Serious Implications for 
India From Burma's Purported Nuclear Plans,'' The Tribune Online, 
(Chandigarth), July 17, 2010, SAP20100717534024.
---------------------------------------------------------------------------
    More simply, will the United States, at least, develop and deploy 
the diverse strategic force structure that remains possible under the 
treaty and could help preserve U.S. force flexibility and resilience? 
The traditional U.S. triad of bombers, ICBMs, and sea-based missiles--
now buttressed by missile defenses and the potential for new non-
nuclear PGS capabilities--can be extremely valuable in this regard 
because the diversity of offensive and defensive options helps provide 
the flexibility and resilience to adjust to a multitude of different 
threats and circumstances.
    Fortunately, the Obama administration has expressed its intention 
to support the triad, missile defense deployment, and conventional PGS. 
At this point, however, there is no apparent, concrete administration 
commitment to advanced conventional PGS deployment or to replacing the 
aging ICBM and bomber legs of the triad, including the air-launched 
cruise missile. This fosters concern that enthusiasm for force 
reductions may come at the expense of the longstanding requirements for 
force diversity, flexibility, and resilience, and take refuge in old 
``assured destruction'' thinking. If our numbers are to decline 
further, we must take care to ensure continued flexibility and 
resilience--whether through traditional means or innovations.
    Bombers have great inherent flexibility and resilience, and the 
weapons counting rules for bombers under New START are extremely 
permissive. But these counting rules will be advantageous for U.S. only 
if we modernize our bomber force. While Russia has decided to build a 
new strategic bomber and apparently has a new long-range air-launched 
nuclear cruise missile near deployment,\13\ the Obama administration 
plans to cut U.S. nuclear-capable bombers by more than one-third under 
New START and has made no apparent commitment to replace the venerable 
B-52 or to a new air-launched cruise missile.\14\ Similarly, the 
administration has announced that it will reduce the number of U.S. 
ICBM launchers by at least 30 under New START,\15\ while Russia is 
deploying new MIRVed mobile ICBMs, and has decided for a new heavy 
MIRVED ICBM as is now permitted under New START.
---------------------------------------------------------------------------
    \13\ See ``Moscow Upgrades Strategic Bomber Fleet,'' Air & 
Cosmos,(Paris) January 8, 2010, pp. 34-35, EUP201001081; ``Russian 
Military Pundits Consider Recent Missile Launches, Prospects,'' Mayak 
Radio, (Moscow) August 8, 2001, CEP20070811950032.
    \14\  White House Fact Sheet on the ``1251 report,'' May 13, 2010, 
available at www.whitehouse.gov/sites/default/files/
New%20START%20section%201251%20fact%20sheet.pdf.
    \15\  Ibid.
---------------------------------------------------------------------------
    Over time, this New START-inspired combination of U.S. ICBM 
launcher reductions and permitted Russian MIRVed heavy ICBMs could 
again challenge the survivability of the U.S. ICBM and bomber legs of 
the triad--a situation long-recognized as highly ``destabilizing.'' If 
their survivability is at risk, so will be much of the triad's 
flexibility and the credibility of U.S. forces to deter, assure and 
defend.
    Hard decisions will need to be made during the life of this treaty 
if we are to advance flexible offensive and defensive capabilities and 
a resilient force structure. How much confidence can we have that the 
administration will take the necessary strategic modernization steps 
given its highest nuclear priority of non-proliferation and movement 
toward a nuclear free world, its commitment to further negotiations, 
and its presumption against any new nuclear warheads? \16\ Credible 
assurances and the necessary strategic modernization budgets tied to 
New START would be helpful in this regard. A solid U.S. commitment to 
bomber and cruise missile modernization, Minuteman III replacement or 
life extension with enhanced survivability measures, and missile 
defenses of all ranges could help provide this confidence.
---------------------------------------------------------------------------
    \16\ Department of Defense, Nuclear Posture Review Report, April 
2010, p. vi; and, Testimony of Dr. James Miller, House Armed Service 
Committee, Hearing, U.S. Nuclear Weapons Policy and Force Structure, 
April 15, 2010, pp. 38, 41.
---------------------------------------------------------------------------
    Concern about New START's reduction of U.S. force flexibility and 
resilience--however modest or significant--also might be eased if the 
treaty's ceilings on Russian forces actually would reduce the threats 
we might face. But, according to numerous Russian open sources, New 
START's ceilings are of little real consequence for Russia because 
Russia's aged Cold War strategic launchers already have been reduced 
below New START's ceilings, and will decline further with or without 
the treaty--and Russia's comprehensive post-Cold War nuclear 
modernization programs are moving forward slowly at this point. Aleksey 
Arbatov, the former Deputy Chairman of the Duma Defense Committee, 
notes, ``The new treaty is an agreement on reducing the American and 
not the Russian [strategic nuclear forces]. In fact, the latter will be 
reduced in any case because of the mass removal from the order of 
battle of obsolete arms and the one-at-a-time introduction of new 
systems.''\17\ Prior to the New START negotiations, Russian open 
sources already projected that by 2012 Russian strategic nuclear forces 
could have as few as 406 launchers and fewer than 1,500 warheads--well 
below New START ceilings using its counting rules.\18\ The point was 
made most succinctly by Dr. Sergei Rogov, Director of the USA and 
Canada Institute in Moscow: ``We will not have to reduce anything 
prematurely. In effect, the ceilings established by the new START 
Treaty do not force the United States to reduce currently available 
strategic offensive forces . . . Only the United States will have to 
conduct reductions . . . '' \19\
---------------------------------------------------------------------------
    \17\ ``Russia: Arbatov Critique of Khramchikhin Article on Poor 
State of RF Air Defense,'' Nezavisimoye Obozreniye Online, March 5, 
2010, CEP20100305358011.
    \18\ See, ``Russia: Strategic Missile Troops Chief, Aide Cited on 
25 December RS-24 Test Launch,'' NEWSru.com, December 25, 2007, 
CEP20071227358002.
    \19\ Sergei Rogov, ``Attempt Number 6: the Balance of Achievements 
and Concessions. Only the United States Will Have to Reduce Its 
Strategic Forces,'' Nezavisimoe Voennoe Obozrenie, April 9, 2010, (In 
Russian), available at: http://nvo.ng.ru/concepts/2010-04-09/1--
snv.html.
---------------------------------------------------------------------------
    New START's common ceilings essentially appear to require 
unilateral reductions by the United States. Russian officials and 
analysts have long celebrated this situation, while some U.S. officials 
and treaty proponents have acknowledged it only recently.\20\ In this 
context, it is difficult to take seriously the notion that the treaty's 
supposed reductions for Russia justify its prospective limitations on 
U.S. flexibility and resilience.
---------------------------------------------------------------------------
    \20\ See for example, Woolf, The New START Treaty: Central Limits 
and Key Provisions, p. 20.
---------------------------------------------------------------------------
    Even though Russia's forces are declining dramatically with or 
without New START, does not the treaty provide solid barriers against 
the re-emergence of Russian strategic forces? Unfortunately, no. New 
START neither requires real Russian reductions nor does it provide hard 
limits on a renewed build up of Russian strategic nuclear forces. This 
is a troubling irony.
    How can it be so? New START contains sufficient loopholes and 
permissive counting rules to allow Russia to deploy far beyond the 
treaty's 1,550 strategic nuclear warheads ceiling within the terms of 
the treaty if Russia finds the financial resources to do so. In fact, 
according to a report by the official news agency of the Russian 
Federation, RIA Novosti, Russia could deploy 2,100 strategic nuclear 
weapons under the treaty--well above the putative 1,550 warhead 
ceiling.\21\ There are avenues that would allow Russia to deploy many 
more than 2,100 warheads under the treaty. This may be significant over 
time because Russia's highest defense procurement priority is the 
modernization of its strategic nuclear forces.\22\ According to Russian 
open sources, Russia has a new strategic air-launched nuclear cruise 
missile near deployment, is MIRVing its new mobile ICBMs (the RS-24), 
and has committed to deploy at least one new strategic bomber, a new 
5000 km-range submarine-launched cruise missile, and a new heavy ICBM. 
There also has been interest expressed in the Russian press for a new 
rail-mobile ICBM and a new air-launched ICBM--neither of which, 
according to some open Russian commentary, would necessarily have to be 
counted under the treaty's force ceilings.
---------------------------------------------------------------------------
    \21\ Ilya Kramnuk, ``New START Treaty based on Mutual Russian-U.S. 
Concessions,'' RIA Novosti, April 22, 2010, at http://en.rian.ru/
analysis/20100409/158499862.html.
    \22\ As stated by the First Deputy Defense Minister, Col-Gen. 
Vladimir Popovkin in, Pavel Felgenhauer, ``Russia Seeks to Impose New 
ABM Treaty on the U.S. by Developing BMD,'' July 16, 2010, at 
georgiandaily.com.
---------------------------------------------------------------------------
    The bottom line is that aging forces and Russia's production and 
financial problems are causing reductions in Russia's force numbers 
precipitously--with or without New START. But, if and when Russia has 
the necessary financial and production capacity, New START will not 
prevent Russia from deploying new forces well beyond New START's 
specified ceilings.
    In sum, force numbers and diversity do matter because flexibility 
and resilience are key contributors to the credibility of our forces. 
This was true in the past and is even more so now. New START's limits, 
including on some U.S. conventional PGS options, will require U.S. 
force reductions and constrain U.S. strategic force flexibility and 
diversity. The most important question in this regard is whether U.S. 
forces in the future will retain sufficient flexibility and resilience 
to be credible in conditions that are less optimistic than those 
assumed by the administration in its New START analyses. An important 
consideration in this regard is that the treaty's ceilings appear not 
to require real Russian nuclear force reductions in the near-term, and 
its loopholes and extreme permissiveness would not prevent the renewal 
of Russian strategic capabilities over time. A treaty that could reduce 
U.S. flexibility and resilience but not require real Russian cuts nor 
preclude a future Russian strategic renewal merits close Senate 
scrutiny.
    There are some steps that might help to mitigate these risks posed 
by New START. They involve U.S. commitments, demonstrated by policy 
guidance and robust program budgets for advanced conventional PGS, 
missile defense, and innovative replacements for our aging ICBMs, 
bombers and air-launched missiles--modernization programs permitted 
under the treaty.
                     new start and missile defense
    Many others have commented on New START's connections to missile 
defense. So, I will only summarize my own conclusions here. Senior 
administration officials have said about missile defense that, ``There 
are no constraints of any kind in the New START Treaty,'' \23\ and, 
``The treaty does nothing to constrain missile defenses . . . there is 
no limit or constraint on what the United States can do with its 
missile defense systems.'' \24\ Such administration statements simply 
are false. New START includes limitations on U.S. missile defense 
options. Judgments may differ regarding the significance of these 
limitations, but there should be no further denials that New START 
includes them.
---------------------------------------------------------------------------
    \23\ Secretary Ellen Tauscher, House Armed Service Committee, 
Hearing, U.S. Nuclear Weapons Policy and Force Structure, April 15, 
2010, p. 19.
    \24\ Secretary Ellen Tauscher, Press Briefing, ``New START Treaty 
and the Obama administration's Nonproliferation Agenda,'' March 29, 
2010, available at, www.state.gov/t/us/139205.htm.
---------------------------------------------------------------------------
    U.S. missile defense options may need to be protected, particularly 
given Russia's long-standing goal to veto U.S. missile defense and the 
administration's apparent commitment to further negotiations. Toward 
this end, the Senate could direct the President to make more clear to 
Russia than now is reflected in the pertinent U.S. Unilateral Statement 
that the United States recognizes no treaty limits on missile defense 
beyond those in Article 5, paragraph 3, and that the United States will 
not agree to any further negotiated limits of any kind on U.S. missile 
defense options. In addition, New START establishes the Bilateral 
Consultative Commission (BCC) and gives it broad authority to ``agree 
upon such additional measures as may be necessary to improve the 
viability and effectiveness of the Treaty.'' \25\ Missile defense is 
part of the subject matter of the treaty and its protocol, and the BCC 
is authorized specifically to discuss the unique distinguishing 
features of missile defense launchers and interceptors and make 
``viability and effectiveness'' changes in the treaty. These could be 
done in secret and without Senate advice and consent.\26\ Such 
institutions are not supposed to make substantive changes in the terms 
of treaties. But, START I's Joint Compliance and Inspection Commission 
(JCIC) served with a more limited scope, and appears to have made 
significant changes in START's terms without Senate advice and consent. 
This past precedent is not comforting in this regard.
---------------------------------------------------------------------------
    \25\ New START Treaty, Protocol, Part 6, Section 1, paragraph b.
    \26\ New START Treaty, Article XV, paragraph 2; New START Treaty, 
Protocol, Part 6, Section 5.
---------------------------------------------------------------------------
    The Senate might find it particularly valuable to insist on 
continuous and complete visibility into the ongoing workings of the 
BCC. This could be particularly helpful to ensure that no new limits on 
missile defense emerge, without Senate advice and consent, from the 
BCC's potentially secret proceedings.
    Thank you.

    Chairman Levin. Thank you very much, Dr. Payne.
    Ambassador Pifer.

 STATEMENT OF AMBASSADOR STEVEN PIFER, SENIOR FELLOW, FOREIGN 
 POLICY CENTER ON THE UNITED STATES AND EUROPE, AND DIRECTOR, 
       ARMS CONTROL INITIATIVE, THE BROOKINGS INSTITUTION

    Ambassador Pifer. Thank you. Mr. Chairman, Senator McCain, 
distinguished members of the committee, thank you for the 
opportunity to appear today to discuss the New Strategic Arms 
Reductions Treaty, or the New START treaty.
    With your permission, I'll submit a written statement for 
the record, but I would like to summarize the five ways that I 
believe the New START treaty will strengthen U.S. national 
security.
    First, the New START treaty will limit the number of 
Russian strategic nuclear warheads that could target the United 
States. While political relations between Washington and Moscow 
have changed dramatically since the Cold War, reducing and 
limiting the strategic nuclear potential on the Russian side 
nevertheless will make the United States safer and more secure.
    Some question the need for treaty-based limits, given that 
the Russian strategic missile force has been shrinking. Moscow, 
thus far, has made a policy choice to allow that shrinkage, but 
it should not be assumed that Russia would continue to reduce 
its nuclear forces in the absence of the New START treaty. The 
Russians could decide to build more strategic missiles and 
deploy an arsenal well in excess of the New START treaty 
warhead ceiling of 1,550.
    Second, the New START treaty's verification measures will 
provide significant information regarding Russian strategic 
systems that we will not have without the treaty. Due to the 
expiration of the START I treaty in December of last year, 
there's currently no system of onsite inspections or data 
exchanges to augment our understanding of Russia's strategic 
nuclear forces. Absent the New START treaty's extensive 
verification provisions, the United States will steadily lose 
clarity on the status of Russia's strategic nuclear arsenal. 
The New START treaty's data exchange, for example, would 
require that the Russians provide the number of warheads on 
each deployed ICBM and submarine-launched ballistic missile 
(SLBM). Its inspection regime will allow U.S. inspectors to 
choose individual missiles and check the number of warheads. 
U.S. national technical means of verification cannot, on their 
own, provide this kind of information.
    Third, U.S. strategic nuclear forces, under the New START 
treaty, will provide a strong deterrent to protect the United 
States and extend deterrence to our allies. The planned triad 
will be survivable, robust, and agile. Here I would associate 
myself with remarks by both Mr. Miller and Dr. Foster on the 
importance of the executive branch and Congress working 
together to ensure that we have a modern nuclear weapons 
complex, and the appropriate steps to modernize our strategic 
forces.
    Fourth, the New START treaty will strengthen the U.S. hand 
in pressing to constrain the proliferation of nuclear weapons. 
This will not affect the cases of North Korea or Iran. But U.S. 
implementation of the New START treaty could help raise the 
proliferation bar, including by strengthening our ability to 
secure the help of third countries in pressing future nuclear 
aspirants not to proceed.
    Fifth, the New START treaty contributes to improved U.S.-
Russian relations. The Obama administration is finding, like 
the administrations of President Reagan, President George H.W. 
Bush, and President Clinton before it, that progress on arms 
control has a positive impact on the broader relationship. For 
example, Moscow does not see eye to eye with us on the issue of 
Iran. But, Russian adoption of a tougher stance towards Tehran, 
over the past 10 months, coincided with progress in, and 
conclusion of, the New START treaty. Certainly, difficult 
issues remain between Washington and Moscow, but the 
relationship is, by any measure, better than it was 2 years 
ago.
    A number of concerns have been raised about the New START 
treaty, such as the possible impact on missile defense, the 
bomber-weapon-counting rule, and the verification regime. I 
believe these concerns lack a substantive basis, or have good 
responses. The New START treaty does not, for example, affect 
in a meaningful way our ability to deploy missile defenses to 
protect the United States and our allies. I address these 
points in detail in my prepared statement.
    All this does not mean that the New START treaty is ideal. 
It would have been preferable to have a bomber-weapon-counting 
rule that reflected less of a discount, and to retain the START 
I telemetry provisions. But, an agreement necessarily reflects 
compromises that take into account the position of the other 
side. These points do not outweigh the compelling arguments in 
favor of the New START treaty.
    A failure to ratify the New START treaty, moreover, would 
have substantial costs for the United States. Lack of the New 
START treaty's verification regime would deny us valuable 
insights into Russian strategic forces and unpredictability 
would grow. The U.S. effort to curb nuclear proliferation would 
suffer, and a failure to ratify would deal a major blow to 
U.S.-Russia relations, resulting in less cooperation from 
Moscow on problems such as Iran.
    Mr. Chairman, Senator McCain, members of the committee, I 
believe that a substantive assessment of the New START treaty 
demonstrates that the treaty is in the U.S. national interest. 
It merits the Senate providing consent to ratification.
    Thank you for your attention, and I look forward to 
answering your questions.
    [The prepared statement of Ambassador Pifer follows:]
             Prepared Statement by Ambassador Steven Pifer
                              Introduction
    Mr. Chairman, Senator McCain, distinguished members of the 
committee, thank you for the opportunity to appear today to testify on 
the New Strategic Arms Reduction Treaty (New START) and why I believe 
its ratification and entry-into-force are in the national interest of 
the United States.
    New START will strengthen U.S. national security in several ways. 
The treaty will:

        <bullet> limit Russian strategic nuclear forces in a verifiable 
        manner;
        <bullet> provide greater transparency regarding Russian 
        strategic systems, allowing us to make better-informed 
        decisions regarding our own strategic forces;
        <bullet> permit the United States to maintain a robust nuclear 
        deterrent capable of protecting the United States and our 
        allies;
        <bullet> strengthen the U.S. position in the international 
        community in seeking to curb the proliferation of nuclear 
        weapons; and
        <bullet> contribute to a more positive U.S.-Russia 
        relationship.

    At the same time, the treaty does not affect our ability to develop 
and deploy missile defenses to protect the United States and our 
allies.
    The arguments in favor of ratification of New START are compelling. 
The United States will be better off with the treaty than without it. A 
number of concerns have been raised about the treaty since Presidents 
Obama and Medvedev signed it on April 8. When those issues are 
examined, they do not make a case for withholding consent to 
ratification. Moreover, a failure to ratify the treaty would have 
significant costs for the United States.
             why new start is in the u.s. national interest
    There are five principal reasons why New START strengthens U.S. 
national security.
    First, New START will limit the number of Russian strategic nuclear 
warheads that could strike the United States. New START's limits of 
1,550 warheads and 700 deployed strategic delivery vehicles constitute 
significant reductions compared to the limits in the 1991 START I 
Treaty: 6,000 warheads and 1,600 strategic nuclear delivery 
vehicles.\1\ New START represents a more modest reduction compared to 
the 2002 Strategic Offensive Reductions Treaty (SORT), which limited 
each side to no more than 1,700-2,200 strategic nuclear warheads by 
2012.\2\ New START, however, includes agreed counting rules, while SORT 
had none; it is not clear that the sides shared the same view of how to 
count warheads under SORT.
---------------------------------------------------------------------------
    \1\ Due to differences in counting rules between START I and New 
START, these limits are not exactly comparable.
    \2\ SORT did not limit strategic nuclear delivery vehicles. As SORT 
had no counting rules or verification measures, it provided no way for 
the sides to verify the number of warheads deployed by the other.
---------------------------------------------------------------------------
    Given the changes in political relations between Washington and 
Moscow since the end of the Cold War and the collapse of the Soviet 
Union, it is difficult to conceive of circumstances in which there 
would be a nuclear exchange between the United States and Russia. 
Nevertheless, reducing the strategic nuclear potential on the Russian 
side and reestablishing an effective verification regime will make the 
United States safer and more secure.
    Some question the need for treaty-based limits on strategic nuclear 
forces given that the Russian strategic missile force has been 
shrinking. This results from the aging of their current 
intercontinental ballistic missiles (ICBMs) and ballistic missile 
submarines, and their relatively modest procurement rate of new ICBMs, 
which is reportedly less than 10 per year. Moscow thus far has made a 
policy choice to allow that shrinkage. It should not be assumed that 
Russia would choose to continue to reduce its nuclear forces in the 
absence of New START. The Russians could, if they felt it necessary, 
change their policy and build more strategic ballistic missiles and 
continue to deploy an arsenal of deployed strategic warheads well in 
excess of the New START ceiling of 1,550 warheads. While Russia's 
economic situation is not as strong as it was prior to the global 
financial crisis, recovering energy prices ensure a steady stream of 
revenue to the Russian Government that could be used to fund expanded 
production of new missiles.
    Second, New START's verification and transparency measures will 
provide significant information regarding Russian strategic systems 
that we will not have without the treaty. With the expiration of START 
I and its verification regime on December 5, 2009, there is currently 
no system of on-site inspections or data exchanges to augment our 
understanding of Russia's strategic nuclear forces. Absent the new 
treaty's extensive verification provisions, the United States will have 
to rely solely on national technical means of verification and will 
steadily lose clarity on the status of Russia's strategic nuclear 
arsenal.
    New START's data exchange, for example, will require that the 
Russians provide the location of every one of their deployed and non-
deployed ICBMs and submarine-launched ballistic missiles (SLBMs) as 
well as the number of warheads on each of their deployed missiles. The 
inspection regime will allow U.S. inspectors to choose individual 
Russian ICBMs and SLBMs and check the number of warheads on those 
missiles, to be sure that they conform to the number in the Russian 
data declaration. U.S. national technical means of verification, such 
as imagery satellites, are by all accounts very capable, but they 
cannot on their own provide information such as the number of warheads 
on individual Russian strategic ballistic missiles.
    The aggregate of New START's verification provisions--exchanges, 
data updates, unique identifiers, notifications and inspections--will 
have a synergistic effect. For example, notifications of changes in 
data, of the exit of solid-fueled ICBMs or SLBMs from a production 
facility, or of movement of ICBMs to a test range will allow us to cue 
our national technical means and use them more effectively to monitor 
Russian forces.
    The treaty's verification regime will provide the United States a 
far better picture of the development of Russian strategic forces over 
the next 10 years than we would have with just national technical means 
alone. Greater predictability about Russian strategic forces bolsters 
strategic stability. It will allow the U.S. military to avoid having to 
make worse-case assumptions; it instead will be able to make better-
informed and smarter decisions about how to equip and operate U.S. 
strategic nuclear forces. While not required for monitoring New START's 
limits, the treaty's telemetry provisions will provide transparency 
regarding the performance of Russian strategic ballistic missiles.
    Third, while New START will reduce U.S. strategic nuclear forces, 
they will continue to provide a strong and effective deterrent. The 
Department of Defense has said that, under New START, it will maintain 
the strategic triad. It intends to deploy a force of up to 420 single-
warhead Minuteman III ICBMs, up to 60 B-2 and B-52 heavy bombers 
equipped for nuclear armaments, and 240 Trident D-5 SLBMs.\3\ The force 
will be survivable, robust, and agile--able to deter attack on the 
United States and extend deterrence to U.S. allies.
---------------------------------------------------------------------------
    \3\ As New START limits the United States to no more than 700 
deployed ICBMs, SLBMs, and heavy bombers equipped for nuclear armaments 
and the Department of Defense plans to deploy 240 SLBMs, the United 
States will be able to deploy a total of no more than 460 ICBMs and 
heavy bombers. This could be 400 Minuteman III ICBMs and 60 heavy 
bombers, or 420 Minuteman III ICBMs and 40 heavy bombers, or some 
combination in between.
---------------------------------------------------------------------------
    Compared to the current force structure, U.S. strategic forces 
following implementation of the New START reductions would present a 
potential attacker with the challenge of striking almost the same 
number of targets, less 30-50 ICBM silos. Today and for the foreseeable 
future, only Russia is capable of even contemplating such a strike. 
U.S.-Russian relations have changed dramatically since the Cold War, so 
such a strike is barely conceivable. Nevertheless, were the Russians to 
consider an attack, they would face significant and daunting 
challenges.
    New START will have limited Russian strategic nuclear forces. Since 
each U.S. Minuteman III will carry only one warhead, and conservative 
attack scenarios normally postulate using two warheads against each 
ICBM silo, a Russian first strike attempting to disarm the United 
States would require that the Russians use well over half of their 
permitted weapons to destroy about one-fourth of permitted U.S. 
strategic warheads in fixed ICBM silos. This is hardly a good exchange 
ratio.
    Assuming that the U.S. Navy keeps one-half of its Trident ballistic 
missile submarines not in long-term maintenance at sea--a conservative 
assumption \4\--even if all ICBMs, bombers and submarines in port were 
destroyed, the United States would still retain some 540 nuclear 
warheads at sea under the New START limits.\5\ That force would give 
the president a range of response options. Moreover, this assumes a 
``bolt from the blue,'' a surprise attack in which the United States 
has not generated its forces. In a crisis, the U.S. Navy would have the 
option of deploying more Trident submarines at sea, which would 
increase the number of surviving warheads, while the U.S. Air Force 
could place heavy bombers on alert, thereby increasing their survival 
prospects. The ability of a large portion of U.S. strategic nuclear 
forces to survive an attack would be a significant factor dissuading 
and deterring a potential aggressor from striking in the first place.
---------------------------------------------------------------------------
    \4\ According to the U.S. Navy Fact File, ``The Ohio class design 
allows the submarines to operate for 15 or more years between major 
overhauls. On average, the submarines spend 77 days at sea followed by 
35 days in-port for maintenance. Each SSBN [ballistic missile 
submarine] has two crews, Blue and Gold, which alternate manning the 
submarines while on patrol. This maximizes the SSBN's strategic 
availability while maintaining the crew's training readiness and morale 
at high levels.'' This suggests that closer to two-thirds of the 
submarines are at sea at any particular time. Of the 14 Trident 
ballistic missile submarines, 2 usually are in long-term maintenance, 
leaving 12 for normal operations. A two-thirds deployment rate would 
mean eight at sea.
    \5\ The Department of Defense plans for the strategic triad under 
New START suggest the 240 deployed Trident D-5 SLBMs will carry a total 
of 1,090 warheads. Thus, half of the Trident submarines at sea would 
mean some 540 warheads at sea. If 8 submarines were at sea, that would 
mean some 720 warheads.
---------------------------------------------------------------------------
    Fourth, ratification and entry-into-force of New START will 
strengthen the U.S. hand in pressing to constrain the proliferation of 
nuclear weapons. This will not reverse North Korea's decision to 
acquire a nuclear capability or persuade Iran to halt its nuclear 
efforts; the United States and the international community will have to 
pursue other means to achieve those goals. But U.S. ratification and 
implementation of New START could help raise the bar to prevent other 
countries from proceeding down the path to acquiring nuclear weapons, 
including by strengthening our ability to secure the help of third 
countries in pressing future nuclear aspirants not to proceed.
    The United States and Russia together have some 95 percent of the 
world's nuclear weapons; if we are not reducing those arsenals, what 
does that do to our credibility in asking other countries to forgo 
nuclear programs? If New START is rejected or its entry-into-force 
substantially delayed, U.S. non-proliferation efforts would suffer. The 
ability of the United States to press other states to endorse, 
implement and help to enforce additional counter-proliferation and non-
proliferation initiatives--such as universal adherence to the IAEA 
additional protocol--would, in all likelihood, be severely weakened.
    Fifth, New START contributes to improved U.S.-Russian relations. 
Relations between Washington and Moscow in 2008 fell to their lowest 
point since the collapse of the USSR in 1991. The relationship has 
improved substantially since then, and New START has been a major 
driver of that improvement. While the Russians do not regard the treaty 
as ideal, they recognize that Washington took account of some of their 
key views.
    A primary Russian concern regarding a successor to START I was that 
it contain limits on strategic delivery vehicles. In 2008, the Bush 
administration proposed to replace START I with a follow-on agreement 
that would have limited deployed strategic nuclear warheads but not 
strategic delivery vehicles. This was unacceptable to the Russians. 
They believed that, with no limits on strategic delivery vehicles and 
no limits on non-deployed strategic nuclear warheads, the United States 
would have a major breakout capability, that is, the ability to quickly 
deploy strategic warheads beyond the limits in a follow-on agreement.
    The Russians thus appreciated the readiness of the Obama 
administration to return to the traditional approach to constraining 
strategic offensive forces and limit strategic delivery vehicles as 
well as strategic warheads. That facilitated conclusion of New START 
and also demonstrated Washington's broader willingness to take into 
account Russian concerns. The Obama administration is finding, like the 
administrations of President Reagan, President George H.W. Bush, and 
President Clinton before it, that progress on arms control can have a 
positive impact on the overall relationship.
    The Russians now permit overflights by U.S. military aircraft to 
move personnel and lethal military equipment to support U.S. and NATO 
operations in Afghanistan. This, plus Moscow's allowance of land 
transit of other materiel through Russia, has helped diversify supply 
routes to Afghanistan. On another priority issue for Washington, Moscow 
has over the past 10 months adopted a tougher stance toward Iran's 
nuclear ambitions, delaying delivery of the S-300 surface-to-air 
missile system and supporting a June U.N. Security Council resolution 
imposing new sanctions on Iran, including an embargo on most types of 
arms. The latter point is notable in that Russia has long viewed Iran 
as a market for conventional weapons sales.
    This does not mean that Moscow sees eye-to-eye with us on Iran; 
indeed, the Russians have a different set of interests with Tehran and 
view the prospect of an Iranian nuclear weapon with a lesser sense of 
urgency than does Washington. The Russians have, however, over the past 
10 months adopted a tougher position toward Tehran than in the past. 
That coincided with progress on and conclusion of New START.
    All is not going well in U.S.-Russian relations. There are serious 
grounds for concern over political freedom within Russia. In addition, 
Washington and Moscow continue to differ sharply on questions regarding 
the post-Soviet space, such as Georgia and the breakaway regions of 
South Ossetia and Abkhazia. But the overall relationship is by any 
measure in better shape than it was 2 years ago, and New START has made 
an important contribution to that. Rejection or substantial delay of 
New START entry-into-force would damage the broader relationship and 
make it more difficult to secure Russian support on issues of concern 
to Washington, such as Iran.
                 responding to concerns about new start
    In the time since New START's signature, a number of concerns have 
arisen about the treaty, its terms and its impact on U.S. security. 
When examined, those concerns have no substantive basis or are over-
stated relative to the benefits of the treaty.
    First, some worry that New START will limit missile defense and/or 
weaken the American commitment to missile defense. The New START treaty 
does not constrain the planned U.S. missile defense program and has 
only one limit on missile defense. That limit prevents the United 
States from doing something it would not in any case want to do.
    The treaty's preamble recognizes ``the existence of the 
interrelationship between strategic offensive arms and strategic 
defensive arms.'' This reflects a strategic reality that has been 
acknowledged for more than 40 years: if one side deploys a strategic 
missile defense system, that could have an impact on the other side's 
strategic offensive forces. The preamble also notes ``current strategic 
defensive arms do not undermine the viability and effectiveness of the 
strategic offensive arms of the Parties.'' That statement reflects the 
current strategic reality. This preambular language does not constrain 
missile defense.
    The single limit in the treaty on missile defense appears in 
Article V, paragraph 3. It says ``each Party shall not convert and 
shall not use ICBM launchers and SLBM launchers for placement of 
missile defense interceptors therein.'' This would prevent the United 
States from converting existing ICBM silos to hold ground-based 
interceptor missiles. However, as senior Department of Defense 
officials have testified, the cost of converting one ICBM silo to house 
a ground-based interceptor missile would be $20 million more than 
building a new interceptor silo from scratch. No one has offered a 
plausible reason or scenario for putting missile defense interceptors 
on ballistic missile submarines. A limit that prevents the United 
States from doing something that the United States would not do in any 
event is a limit that the United States should be able to live with.
    Others have expressed concern about the unilateral statement issued 
by the Russians on April 8, which says in part that New START ``may be 
effective and viable only in conditions where there is no qualitative 
or quantitative build-up in the missile defense system capabilities of 
the United States. Consequently, the extraordinary events referred to 
in Article XIV of the Treaty also include a build-up in the missile 
defense capabilities of the United States of America such that it would 
give rise to a threat to the strategic nuclear force potential of the 
Russian Federation.'' This statement merits several observations.
    First, as a unilateral statement rather than as a part of the 
treaty, this statement has no legal bearing. It should be read merely 
as a statement of Russian concern.
    Second, Russia has the right under the treaty--as does the United 
States--to withdraw on 3 months notice for any reason that it 
determines endangers its supreme interests. Such withdrawal clauses 
have been an integral part of every U.S.-Soviet or U.S.-Russian 
strategic nuclear arms agreement. Indeed, the United States invoked the 
withdrawal clause in December 2001 when it notified Russia of its 
intent to withdraw from the 1972 Anti-Ballistic Missile (ABM) Treaty.
    Third, President Medvedev explained the unilateral statement in 
some detail in an April 9 interview. He said ``that formula says there 
is an interconnection between strategic offensive arms and missile 
defense. But it's mentioned there also about circumstances which were 
the basis [for signature] of that treaty agreed upon by both parties. 
So, if those circumstances will change, then you would have, we would 
consider it as the reason to jeopardize the whole agreement. That 
doesn't mean that because of that rule, if the American side starts to 
build up the missile [defense] system, that the treaty would 
automatically lose its power. . . . I would like to make sure there is 
no impression that any change would be a reason to abandon a signed 
agreement.'' \6\ The point is that the Russians would not be concerned 
by any U.S. missile defense developments but by missile developments 
that would endanger their strategic offensive forces. In those 
circumstances, they have the option of withdrawing from the treaty. Why 
is this considered a remarkable point? Were Russian missile defense 
developments to threaten the U.S. strategic deterrent, Washington 
presumably would want the option to withdraw from the treaty.
---------------------------------------------------------------------------
    \6\ ``Transcript: George Stephanopoulos Interviews Russian 
President Dmitry Medvedev,'' April 9, 2009, http//abcnews.go.com/
print?id=10348116.
---------------------------------------------------------------------------
    Fourth, Moscow expressed concern about potential U.S. missile 
defense developments in 1991 and made a similar unilateral statement in 
conjunction with its signature of the START I Treaty. In fact, the 
Russians did not withdraw from START I, even after the United States 
withdrew from the ABM Treaty in 2002 and began deploying ground-based 
interceptors whose deployment would have been barred by the ABM Treaty. 
Moscow may hope to use the threat of withdrawal to persuade the United 
States to scale back its missile defense plans, but that tactic has not 
worked in the past.
    Fifth, the Russians signed New START after President Obama made 
clear that he would not agree to limit the U.S. ability to defend 
against a ballistic missile attack from North Korea or Iran. They did 
so presumably because they concluded that the constraints on strategic 
offensive forces are in their interest and that U.S. missile defense 
plans--particularly the Phased Adaptive Approach based on the Standard 
SM-3 interceptor--will not endanger their strategic offensive forces 
over the 10-year life of the treaty.
    Second, some express concern that conventional warheads on ICBMs 
and SLBMs will count under New START's limit of 1,550 strategic 
warheads. At present, the United States deploys only nuclear warheads 
on its strategic ballistic missiles. The Russians are concerned that, 
given the increased accuracy of U.S. strategic systems, conventional 
warheads could destroy strategic targets that previously would be 
targeted with nuclear weapons. The Russians therefore sought a ban on 
conventional warheads on ICBMs and SLBMs but fell off that when the 
United States agreed to count any conventional warheads on strategic 
ballistic missiles under the warhead limit.
    The United States has considered a program--Prompt Global Strike--
to put conventional warheads on ICBMs or SLBMs. Were that program to go 
forward, those conventional warheads would count under the terms of New 
START. However, the number of conventional warheads on strategic 
ballistic missiles would likely be small. The Obama administration has 
characterized this as a niche capability. The Bush administration 
considered removing the nuclear warheads from two Trident D-5 SLBMs on 
each Trident ballistic missile submarine and replacing those with 
conventional warheads. That plan, which did not go forward, would have 
meant less than 30 conventional warheads on the total SLBM force, a 
tiny fraction of the 1,550 warheads permitted under New START. An ICBM 
or SLBM is an awfully expensive way to deliver a conventional warhead 
to a target. It is difficult to conceive of plausible scenarios where 
other, more cost-effective means--such as bomber-delivered weapons or 
Trident submarines converted to carry conventional sea-launched cruise 
missiles--would not suffice and provide lower-cost strike options.
    Third, some criticize New START for counting heavy bombers as 
carrying only one warhead each, when they can carry many more. New 
START treats warheads on ballistic missiles and heavy bombers 
differently. It counts the actual number of warheads on ICBMs and 
SLBMs; thus, if either side were to choose to deploy only ICBMs and 
SLBMs, it would face a hard limit of 1,550 warheads. The rule 
attributing one weapon to each heavy bomber equipped for nuclear 
armaments is more an accounting mechanism rather than a hard limit. 
Depending on how many weapons the sides plan to place on bombers, the 
total number of ballistic missile warheads and bomber weapons could 
exceed 1,550.
    The negotiators explained this rule by noting that, in contrast to 
ICBMs and SLBMs, neither U.S. nor Russian bombers are normally 
maintained with any nuclear weapons on board. They thus decided to 
attribute one weapon to each deployed heavy bomber.
    Securing preferential treatment for bombers has been a central goal 
of U.S. arms control policy for 40 years. The rationale for 
differentiation between bombers and ballistic missiles is that bombers, 
due to their long flight times (as much as 8-10 hours as opposed to 15-
30 minutes for strategic ballistic missiles), cannot be used in a 
surprise attack. The Reagan administration's original START proposal in 
1982 contained no limits on bombers. When it was concluded in 1991, 
START I had counting rules that discounted the number of weapons 
attributed to bombers under the 6,000 warhead limit.\7\
---------------------------------------------------------------------------
    \7\ Under START I, each U.S. bomber equipped to carry long-range 
air-launched cruise missiles (ALCMs) counted as ten under the 6,000 
warhead limit, even though U.S. bombers could carry more. The B-52H, 
for example, could carry up to 20 ALCMs. Russian bombers equipped to 
carry long-range ALCMs counted as eight under the 6.000 warhead limit; 
they could carry more than eight but not as many as U.S. bombers. U.S. 
and Russian bombers not equipped to carry long-range ALCMs counted as 
one under the 6,000 warhead limit, even though they could carry many 
more. U.S. B-52 bombers, for example, could carry 12-14 nuclear bombs 
and short-range attack missiles and still count as only one warhead 
under START I.
---------------------------------------------------------------------------
    It would have been preferable had New START included a counting 
rule that provided less of a discount for bomber weapons. However, this 
rule benefits Russia and the United States equally. The United States 
historically has given greater weight to the bomber leg of its triad 
than did the Soviet Union or Russia, and deploys twice as many bombers 
as does Russia, though many U.S. bombers have been converted to 
conventional-only roles.
    Fourth, some worry that New START does not define a rail-mobile 
ICBM launcher, thereby creating a loophole for future exploitation by 
the Russians. It is correct that the treaty's definitions do not 
specifically define a ``rail-mobile ICBM launcher.'' U.S. negotiators 
did not pursue this because the Russians retired their rail-mobile 
ICBMs prior to the beginning of the New START negotiations. The plant 
which manufactured those SS-24 ICBMs is located in Dnipropetrovsk, in 
what today is independent Ukraine.
    Part One of the New START Protocol defines an ICBM launcher as ``a 
device intended or used to contain, prepare for launch, and launch an 
ICBM.'' This would capture under New START's limits any rail-mobile 
ICBM that the Russians might choose to deploy in the future. It is 
difficult, moreover, to give credence to the notion that a U.S. 
administration would sit back while the Russians deployed rail-mobile 
ICBMs and claimed that they somehow were exempt from the limits of New 
START.
    Fifth, some express concern that New START has less in the way of 
verification than did START I. As Presidents Obama and Medvedev agreed 
in July 2009, one goal for New START was, where possible, to streamline 
and simplify verification measures. This reflected a desire on the part 
of the militaries on both sides to make verification measures less 
costly and less intrusive on operational practices. It also reflected 
the fact that, over 15 years of implementing the START I verification 
regime, the sides gained considerable expertise, including on how to 
make verification simpler and more efficient.
    In some cases, New START's limits did not require the kinds of 
verification provisions that START I did. This was the case with 
telemetry, the information that a missile broadcasts during a flight 
test to report on its performance. START I required that the sides 
broadcast virtually all telemetry unencrypted and that, following a 
test, the testing side provide the other with a copy of the telemetry 
that it recorded. START I needed access to this telemetry for three 
reasons: (1) to monitor START I's limit on ballistic missile throw-
weight; (2) to monitor START I's limit on new types of strategic 
ballistic missiles; and (3) to monitor the number of warhead releases 
or simulated releases during a ballistic missile test to ensure that 
the total number of releases did not exceed the number of warheads 
attributed to that type of ballistic missile.
    New START does not have limits on throw-weight, on new types of 
ballistic missiles, or on the total number of warheads attributed to a 
particular missile type. As for monitoring the number of warheads, New 
START uses inspections to confirm the actual number of warheads on 
individual ICBMs and SLBMs. New START thus does not need telemetry for 
purposes of verifying its limits. It would have been preferable for 
transparency purposes were New START to retain START I's telemetry 
provisions, so that we would have access to all telemetry from Russian 
ballistic missile tests. The Russians, however, were not prepared to 
agree to this. The result is a more limited transparency provision that 
provides for exchanging telemetry on five missile tests per year.
    More broadly, however, asking whether New START has more or less in 
the way of verification measures than START I is using the wrong metric 
for judging New START's verification regime, just as it would be 
incorrect to compare New START to the SORT Treaty, which had no 
verification measures. The verification system of START I was designed 
to monitor compliance with a different treaty, with a different (and 
more complex) set of limits, in a different political context. For 
example, START I applied inspections to 70 facilities, many never 
previously seen by U.S. personnel on the ground. There are now only 35 
facilities subject to inspection, many quite familiar to U.S. 
inspectors from past visits.
    The verifiability of New START should be judged by whether its 
monitoring and verification measures are appropriate for its limits 
such that the United States will have high confidence that it could 
detect a militarily significant violation in a timely manner, that is, 
in time for the United States to respond before its security is 
jeopardized. The answer to this question is ``yes.'' The treaty is 
effectively verifiable, as General Chilton, Commander of U.S. Strategic 
Command, stated last week.
    Sixth, some criticize New START for not limiting tactical nuclear 
weapons, where Russia has a significant numerical advantage. It is 
correct that New START does not limit tactical nuclear weapons. Had the 
administration tried to limit those weapons in this agreement, it could 
have taken much longer to negotiate, when the urgency was to secure a 
new strategic arms agreement given the looming expiration of START I in 
December 2009. The negotiators would likely still be at it.
    The Obama administration has stated that it will address tactical 
nuclear weapons in the next round of negotiations. This is important. 
With New START's limits, we will be at the point where it is difficult 
to countenance further strategic arms cuts without addressing limits on 
tactical nuclear weapons. A failure to ratify New START, however, would 
damage the broader U.S.-Russian relationship and would not make 
securing Russian agreement to reductions in tactical nuclear weapons 
any easier. Under those circumstances, it is uncertain how quickly the 
Russians would even agree to return to the negotiating table. Once they 
did return, the new negotiation would prove far more difficult as the 
Russians revisited concessions from New START and made new demands.
    Finally, as Senator Lugar noted in a July 8 statement, ``most of 
Russia's tactical nuclear weapons either have very short ranges, are 
used for homeland air defense, are devoted to the Chinese border, or 
are in storage.'' The countries most exposed to Russia's tactical 
nuclear arsenal--NATO allies in Europe--support New START.
    Seventh, some argue that further reductions in the U.S. strategic 
arsenal would be risky without a plan to maintain a robust U.S. nuclear 
deterrent. In fact, the administration requested $7 billion in the 
fiscal year 2011 budget for the National Nuclear Security 
Administration's (NNSA) weapons activities, a 10 percent increase 
compared to the previous year. The administration has stated that it 
intends to spend $80 billion over 10 years for NNSA weapons activities 
and the nuclear weapons complex, as well as $100 billion over 10 years 
to maintain and modernize strategic delivery systems.
    When the concerns about New START are examined, they lack 
substantive basis or are over-stated relative to the benefits of the 
treaty. None of these concerns should offer grounds for the Senate to 
withhold its consent to ratification, particularly when bearing in mind 
the benefits that the treaty offers and the substantial costs to the 
United States of a failure to ratify.
                       possible russian cheating
    There has been some discussion before this committee regarding the 
possibility of Russian cheating. No cheating on an arms control 
agreement should be politically acceptable. However, one can draw a 
distinction between cheating that will have little impact on the 
strategic balance and cheating that is militarily significant. While 
one would want a monitoring and verification regime capable of 
detecting any cheating, the focus should be on a monitoring and 
verification regime that can detect militarily significant treaty 
violations in a timely manner, that is, in time for a U.S. response 
before its security interests are jeopardized. This is the standard of 
``effective verification'' against which arms control treaties have 
historically been evaluated.
    Under the New START treaty, the United States should be able to 
detect militarily significant cheating. That plus possible U.S. 
response options should dissuade the Russians from considering cheating 
in the first place.
    For example, could the Russians cheat by deploying extra warheads 
on ICBMs or SLBMs? Perhaps, but they would run a significantly greater 
risk of being caught than in the past. START I provided for 10 
inspections per year to ensure that the number of warheads on an ICBM 
or SLBM did not exceed the number attributed to that type of ICBM or 
SLBM. The sides concluded that ten inspections created a sufficient 
risk of being caught so that neither would cheat. New START also 
provides for ten warhead inspections per year, but the number of 
inspectable ICBMs and SLBMs will be dramatically reduced compared to 
the number in START I. That raises the likelihood that cheating would 
be discovered.\8\
---------------------------------------------------------------------------
    \8\ The 10 START I warhead inspections were conducted when the 
treaty allowed each side to deploy 1,600 strategic nuclear delivery 
vehicles and the Russians deployed fewer than 100 heavy bombers; thus 
the ``universe'' of inspectable Russian ICBMs and SLBMs could be in the 
neighborhood of 1,500. New START permits 10 inspections per year to 
confirm the number of warheads on individual ICBMs or SLBMs, but the 
``universe'' of inspectable ICBMs and SLBMs will be far less than under 
START I--no more than 700 deployed ICBMs and SLBMs, if one were to make 
the unlikely assumption that the Russians deploy no heavy bombers and 
sustain a force of 700 deployed strategic missiles. One can infer from 
the July 2009 Russian proposal for the limit on strategic delivery 
vehicles--500--that Moscow plans to deploy fewer than 700 ICBMs and 
SLBMs. Some estimates by non-governmental analysts project a Russian 
deployed strategic delivery vehicle force under New START as low as 
400. This would narrow the ``universe'' of inspectable ballistic 
missiles even further, again raising the odds of discovery of cheating.
---------------------------------------------------------------------------
    Given that the Russians will likely have significant headroom under 
the 700 limit on deployed ICBMs, SLBMs and heavy bombers equipped for 
nuclear armaments, it is hard to see that they would perceive an 
advantage to trying to build undeclared ballistic missiles. The United 
States, moreover, would likely detect the production of more than a 
small number of undeclared ballistic missiles.
    Finally, when considering whether to cheat, the Russians would face 
a major disincentive in the form of the possible U.S. response. As 
described by the Department of Defense, the United States will have to 
eliminate or convert about 130 deployed strategic delivery vehicles 
under New START but will reach the warhead limit of 1,550 largely by 
``downloading''--removing warheads from deployed missiles. The Russians 
understand that those missiles could be ``uploaded,'' that is, the 
downloaded warheads could be returned to deployed missiles. New START 
will leave the United States with a significant upload capability. 
Under the plans announced by the Department of Defense, the U.S. Navy 
will have up to 1,090 warheads on its 240 deployed Trident D-5 SLBMs. 
Two hundred and forty Trident D-5s are capable of carrying 1,920 
warheads, so those SLBMs would have an upload capacity of 830 SLBM 
warheads. As for the ICBM force, the planned 400-420 Minuteman III 
ICBMs will each carry single warheads, but each is capable of carrying 
three warheads, meaning an upload capacity of 800-840 ICBM warheads. 
When considering any cheating scenario, the Russians would have to bear 
in mind that the United States could respond in a matter of months by 
uploading more than 1,600 warheads, doubling the number allowed by New 
START. That should provide a significant disincentive to cheating.
                               conclusion
    Mr. Chairman, Senator McCain, members of the committee, there are 
compelling reasons for the Senate to give its consent to ratification 
of the New START treaty. That agreement serves the U.S. national 
interest: it will limit the number of strategic warheads that could 
target the United States, provide greater transparency regarding 
Russian strategic forces, allow the United States to maintain a robust 
deterrent, strengthen the U.S. hand in pressing to constrain 
proliferation, and contribute to a more positive U.S.-Russia 
relationship.
    While one might wish for different provisions in some parts of the 
treaty--for example, a lower discount in the bomber weapon counting 
rule or greater access to telemetry--a treaty inevitably reflects 
compromises that take account of the other side's position. These 
points do not come close to outweighing the gains that will accrue to 
U.S. security from the treaty's entry-into-force. Moreover, a failure 
to ratify would carry substantial costs for the United States. Lack of 
New START's verification regime would deny us valuable insights into 
Russian strategic systems, and unpredictability would grow. The U.S. 
effort to curb nuclear proliferation would suffer. A failure to ratify 
would deal a major blow to U.S.-Russian relations, resulting in less 
cooperation from Moscow on problems such as Iran.
    New START is in the U.S. national interest. The Senate should 
provide its consent to ratification. Finally, I would reiterate that, 
with the expiration of START I in December, the United States no longer 
receives the data on Russian strategic offensive forces provided by 
START I's verification regime. Early ratification and entry-into-force 
of New START will close this gap and restore a situation in which the 
United States has access to important information regarding Russian 
strategic forces.
    Thank you for your attention.

    Chairman Levin. Thank you very much, Ambassador.
    Let's try 8 minutes, for our first round of questioning.
    The New START treaty, in its preamble, recognizes that 
there is an interrelationship between strategic offensive arms 
and strategic defensive arms, and there's also an 
interrelationship that will become more important as strategic 
nuclear arms are reduced. That's not in the text, but it's in 
the preamble.
    First of all, I guess, Dr. Payne, do you agree there are 
such interrelationships?
    Dr. Payne. Yes, sir.
    Chairman Levin. Why?
    Dr. Payne. There are a number of interrelationships between 
offense and defense. For example, it seems to me that defense 
actually facilitates the reduction of offensive forces, because 
it eases the potential verification problems. In other cases, 
the deployment of defense might encourage offensive force 
production by a state that wants to overcome that defense. So, 
there are a number of potential linkages between offense and 
defense, and it seems to me that preamble acknowledges that.
    Chairman Levin. The Congressional Commission on the 
Strategic Posture of the United States on which, I think, both 
you, Dr. Payne and Dr. Foster, served, where Bill Perry and 
James Schlesinger were the chair and the vice chair, recognized 
the relationship between the strategic offensive and defensive 
forces. It also said the following: ``For more than a decade, 
the development of U.S. BMDs has been guided by the principles 
of protecting against limited strikes, while, two, taking into 
account the legitimate concerns of Russia and China about 
strategic stability.'' This Commission said that, ``these 
remain sound guiding principles that defense is sufficient to 
sow doubts in Moscow or Beijing about the viability of their 
deterrence and could lead them to take actions that increase 
the threats to the United States, its allies, and friends.''
    Then, one of the recommendations of the commission was that 
while the missile threats posed by potential regional 
aggressors are countered, the United States should ensure that 
its actions do not lead Russia or China to take actions that 
increase the threat to the United States, its allies, and 
friends. Could you expand on that a bit, Dr. Payne?
    Dr. Payne. I think what the commission was getting at was 
fairly clear in the words. The basic point is that U.S. missile 
defense, at this point, is intended to provide active 
protection against limited threats, such as those posed by 
rogue states. But that there, at least at this point, is not an 
intention to deploy missile defenses that might, for example, 
bring into question Russia's strategic capability.
    Chairman Levin. You've raised article 5's paragraph 3 of 
the treaty, which prohibits converting ICBM or SLBM launchers 
to be launchers of missile defense interceptors and vice versa. 
I believe this is the only provision in the treaty that has a 
constraint related to missile defense options. But, it 
prohibits something the United States does not want to do, does 
not plan to do, does not make economic sense, and which, if it 
were not prohibited, could cause a dangerous and destabilizing 
miscalculation.
    There's not been enough discussion of that last point, 
which is that this provision will avoid confusion and 
miscalculation. Both sides would be bound by the provision; 
it's not binding just on us. It prohibits, as I said, silo 
conversions that would be risky and, in other ways, unneeded 
and not planned. If either side could use silos for either 
nuclear missiles or missile defense interceptors, the other 
side would not know, with certainty, what is in a silo and 
whether a nuclear missile is being launched from a missile 
defense silo or vice versa.
    Let me start with you, Ambassador Pifer. Would you agree 
that it is in our interest to avoid that confusion and 
miscalculation?
    Ambassador Pifer. I agree that would be a risk that if you 
put a missile defense interceptor in a silo in an ICBM field, 
if you had to launch that interceptor, the Russians would see 
the launch and might not understand that it was an interceptor, 
as opposed to an ICBM. Particularly, if that interceptor was 
heading in the direction, for example, of intercepting an 
Iranian missile, where it might be heading towards Russia, that 
could cause additional concerns about miscalculation.
    Chairman Levin. Would you agree that while this is 
technically a limitation, it is a limitation that is binding on 
both sides, and is it a desirable limitation? Do you agree with 
that?
    Ambassador Pifer. Sir, based on the testimony by General 
Riley, when he said it would cost him about $20 million per 
silo to convert an ICBM silo, as opposed to building a new 
silo, it seems to me that, yes, this is a constraint on missile 
defense. But, a constraint that prevents us from doing 
something that we would not do is probably a restraint that we 
could live with.
    Chairman Levin. Okay. Mr. Miller, let me ask you a 
question. You said that tactical nuclear weapons are properly 
not part of the the New START treaty. I think all of you 
commented on the disproportionate number of tactical nuclear 
weapons in the Russian inventory, compared to ours. But, why, 
then, is it not part of the the New START treaty?
    Mr. Miller. Senator Levin, I believe that the New START 
treaty is focused on the strategic forces of both sides. The 
long-range forces that essentially could threaten each other. 
The tactical forces are clearly a political and a military 
threat to our allies. But, we have failed, for decades, to get 
our hands around that threat. My view is that this has to be 
handled in a separate treaty between the North Atlantic Treaty 
Organization (NATO) and Russia, a view subscribed to by former 
Secretary General of NATO, Lord George Robertson and Dr. Kori 
Schake. I believe that has to deal with, but in a different 
fora.
    Chairman Levin. Ambassador, there's a number of critics who 
have pointed to a Russian unilateral statement on missile 
defense as an indication that Russia would withdraw from the 
New START treaty, if the United States pursues additional 
missile defenses. They've also suggested that the threat, or 
implied threat, might dissuade the United States from pursuing 
missile defenses, for fear of Russian withdrawal. However, is 
it not true that in the START I treaty, there was a similar 
unilateral statement by the then-Soviet government that the 
START treaty would only be effective and viable as long as the 
Antiballistic Missile (ABM) Treaty remained in force? Is it not 
also true that the United States eventually withdrew from the 
ABM Treaty, but that the Russian Government did not withdraw 
from the START treaty? So, would you, to put the third question 
all in one, agree that the Russian unilateral statement is not 
part of the treaty, is not binding on either side, it does not 
prevent the United States from pursuing future missile 
defenses?
    Ambassador Pifer. Senator, I would agree with that. The 
Russians did make a similar statement, in the context of the 
1991 START I treaty, and did not withdraw from START I, even 
when the United States, in 2002, withdrew from the ABM Treaty.
    I would also note that the day after the Russians made 
their unilateral statement, President Medvedev made a comment 
on this. He said that the Russians would not withdraw because 
of any American missile defense deployments. He said it would 
be missile defense deployments that would threaten the Russian 
strategic nuclear deterrent. Frankly, I do not find that an 
unremarkable statement, or, I don't find that a remarkable 
statement. I would assume that, if, in 7 years from now, the 
Russians had a missile defense capability that threatened our 
deterrent, we also would want the right to withdraw from the 
treaty. But, this is a unilateral statement. It is not legally 
binding.
    Chairman Levin. Okay. Thank you all.
    Senator McCain.
    Senator McCain. How does a defensive missile system 
threaten deterrence, Ambassador Pifer? You obviously have an 
exact opposite view of what missile defense does. Missile 
defense doesn't harm anybody's deterrence, it harms the ability 
of countries for first strike. I mean, you just made an 
Orwellian statement that, somehow, missile defense harms 
people's first-strike deterrent. It's amazing to me. Do you 
want to clarify your response you just gave to Senator Levin?
    Ambassador Pifer. Yes, Senator. I think when you look at 
the question of missile defense, I look at it in the context of 
strategic stability. I think the Russian concern here is that a 
combination of an American first strike, which I do not think 
is at all likely, but an American first strike, and then the 
surviving Russian forces having to deal with an American 
missile defense, would call into question the ability of their 
nuclear deterrent. I think that's a fairly straightforward 
concern.
    The Russians, when they look at the phased-adapted approach 
that we've adopted for the Standard Missile-3 (SM-3), I don't 
believe are concerned about the first three phases. But, when 
you look at what the Russians say, they say they are concerned 
about phase four, at the point where the SM might begin to have 
the capabilities against an ICBM system.
    Senator McCain. Well, I say, with great respect, you've 
just outlined what's wrong with the left's view of missile 
defense. I view missile defense as a way of inhibiting a first-
strike motivation by the part of the Russians or anybody else, 
because it would prevent them from achieving their objective. 
Somehow, to view missile defense as a destabilizing factor, to 
me, frankly, is just, and I hate to use the word Orwellian, but 
it's in contravention to everything that Ronald Reagan stood 
for, everything that we have believed in. Defensive systems 
would inhibit and make uncertain the threat of a first strike 
against the United States of America, which is, of course, our 
greatest concern.
    Dr. Payne, what do you have to say about this view that, 
somehow, development of missile defense systems is 
destabilizing?
    Dr. Payne. Senator, I believe, on balance, that missile 
defense is much more likely to be stabilizing of the strategic 
relationship. As you pointed out, I think it's absolutely 
correct that missile defense can help ensure that no first-
strike capabilities are going to provide a theory that any 
military planner is going to find useful. So, missile defense, 
by degrading the potential for a first strike being successful, 
should help stabilize the strategic relationship.
    Senator McCain. The whole purpose of a first strike is to 
destroy the enemy, because you know what's going to happen in 
response. So, the more likely that is to succeed, the more 
unlikely it is for our adversaries to try it. So, therefore, it 
seems to me, a robust missile defense system would be, as we 
have found out from Russian behavior in the past, has obviously 
been a deterrence for doing so.
    This is really one of the fundamental differences we have 
in the New START treaty, because where the State Department 
says, ``any Russian cheating under the New START treaty would 
have little effect, if any, on the assured second-strike 
capabilities of U.S. strategic forces.'' Dr. Foster, do you 
have a view on this fundamental argument here?
    Dr. Foster. Senator McCain, it seems to me that missile 
defense provides for survivability of our offensive deterrent. 
It provides for survivability of a retaliatory strike, just as 
preparing the heavy bombers to depart, if there is an 
emergency, so that there will be a surviving second-strike 
capability.
    Senator McCain. Dr. Payne, does cheating matter? Do you 
agree that any Russian cheating would have little, if any, 
effect?
    Dr. Payne. Senator, the standard that one uses to determine 
whether cheating would have any effect or not, seems to me to 
be the most important question. If you care about the 
flexibility and resilience of U.S. strategic forces, so that 
they can provide a credible deterrent, then, it seems to me, 
one has to worry about whether potential cheating can do that. 
I don't know whether Russian cheating under the New START 
treaty could threaten the flexibility and resilience of U.S. 
forces. That's a calculation that I can't make. But, it is 
certainly a question that we should address, not just whether 
cheating would threaten an assured second-strike capability, 
that's not the standard of adequacy for U.S. forces, it's 
whether cheating might threaten the resilience and flexibility 
of our retaliatory options.
    Senator McCain. It also brings into question whether there 
should be a treaty or not, if cheating doesn't matter. If 
cheating doesn't matter, then what's the point of a treaty, Dr. 
Foster?
    Dr. Foster. Senator McCain, I don't understand why we go to 
the trouble of negotiating with a potential adversary with the 
understanding that the adversary is going to cheat.
    Senator McCain. I'd just like to raise this issue of the 
conflicting signing statements. Ambassador Pifer pointed out 
that President Medvedev made a statement and other Russian 
leaders have made statements exactly to the contrary. It seems 
to me that that issue should be resolved, in its entirety, 
before we should move forward with ratification. I didn't hear 
President Medvedev repudiate the signing statement. He didn't 
tell anybody of his negotiators to remove that signing 
statement. His foreign minister and other leading Russian 
officials have made the opposite statement, leaving a period of 
great ambiguity. With great respect, that signing statement, 
and relating it to START I and the ABM Treaty, I'm not sure is 
a parallel that is really operative.
    Dr. Payne.
    Dr. Payne. My concern, Senator, is in particular with the 
known history, as we might understand it, of Russian cheating. 
If we were engaged with a country that didn't have such a 
history, perhaps the concern about verification could be 
lowered. I'm reminded, for example, of the former Assistant 
Secretary of State who worked verification issues. She said 
that the level of Russian cheating has been intentional and 
widespread. She worked on the verification issues from 2005 to 
2009, and she said, ``in that history, you will find continued 
intentional Russian cheating.''
    So, in a sense, the level of verification that is the 
standard of adequacy depends on the party you're engaged with 
and, also, the standard of excellence that you subscribe to. In 
our engagement with Russia, it seems to me that we need to 
recognize that we are engaged with a party that has a history 
of, according to these U.S. officials who've looked at this 
issue, intentional cheating.
    Senator McCain. I thank you, Mr. Chairman. I thank the 
witnesses.
    Chairman Levin. Thank you, Senator McCain.
    Senator Goodwin.
    Senator Goodwin. Thank you, Mr. Chairman. I also would like 
to thank you and Senator McCain for your kind words of welcome 
and introduction. It certainly means a great deal to me to be 
here today, and I want to thank you for your time. It is an 
immense honor to represent the people of West Virginia in the 
Senate, and to have a chance to play a role serving on this 
esteemed committee where Senator Byrd dedicated so much of his 
time and energy. I know Senator Byrd had immense respect for 
this body, for this committee, and for his colleagues. I just 
wanted to take a moment to thank you all.
    Chairman Levin. Thank you.
    Senator Goodwin. With that in mind, obviously I take very 
seriously the responsibility of considering the New START 
treaty, and want to thank the members of today's panel for 
their time. I look forward to ongoing comprehensive debate on 
this very extremely important matter in the days and weeks to 
come.
    First question, I would direct to Mr. Miller. Talk a little 
bit about the provisions in the treaty, setting forth the 
signatory's ability to, in fact, objectively measure and verify 
compliance and be able to track cheating, as we've discussed.
    Mr. Miller. Senator, I believe that the New START treaty 
provides a series of onsite inspections and rules which, in 
combination, and I stress that, in combination with our own 
intelligence capabilities, allows us to have an adequate basis 
of determining whether or not the Russians are abiding by the 
rules in this treaty--not some other treaty, but in this 
treaty.
    Cheating by the Russian Government, in this respect, would 
clearly represent a very significant political decision, and 
would be a great moment internationally. I think that the 
ability of the United States to be flexible and resilient as my 
colleague Dr. Payne has talked about, depends on this 
committee, on the Senate, and on the House, because the 
flexibility and resilience is resident in our forces, in our 
intelligence capabilities, not whether the Russians cheat or 
not.
    If we continue to fund our intelligence capabilities and do 
the treaty's monitoring steps, which we are permitted under the 
treaty, we'll increase our knowledge about what the Russians 
are doing. If we adequately fund our forces, we will continue 
to have the flexibility and resilience which I believe we have 
today, which will provide a secure basis should the Russians 
cheat or not, we have the capability to upload warheads on our 
Minuteman and Trident forces. If we cannot cause them to stop 
their cheating, we should get out of the New START treaty. But, 
that's quite down the road.
    Senator Goodwin. Let me follow up on your last point. If 
you could, talk a little bit about the flexibility embodied in 
the New START treaty that would permit us to withdraw or, in 
any event, act in our own national security interest if 
conditions would arise that would render provisions of the 
treaty in conflict with those interests.
    Mr. Miller. All treaties have a supreme national interest 
clause which allows a country to withdraw, should its supreme 
national interest be threatened by its continued participation 
in the treaty. This is a standard in arms control, as other 
treaties.
    Senator Goodwin. Thank you.
    Ambassador, you referred earlier to how the failure to 
ratify this treaty could perhaps inhibit U.S. efforts to curb 
proliferation around the globe. Talk a little bit more about 
that for me.
    Ambassador Pifer. Yes, Senator. As I said, I don't think it 
would apply in the case of North Korea and Iran, but I'm 
thinking about the next state that wants to go down the nuclear 
path. It seems to me that if the United States and Russia, 
which, between the two of them, control 95 percent of the 
world's nuclear weapons, are not working towards reduction, it 
is going to greatly undermine our diplomatic credibility in 
pressing other countries not to go down the nuclear route, but, 
more importantly, in enlisting the help of third countries to 
press those countries to avoid that. So, it's a matter of, are 
we setting the sort of nonproliferation example that will be 
useful to motivate pressure against countries that might choose 
to follow the examples of Iran and North Korea? I think if the 
United States now backs away from the New START treaty and 
says, we are not prepared to consider these sorts of 
reductions, our credibility on that question will be 
substantially undercut.
    Senator Goodwin. Dr. Foster, do you agree with that?
    Dr. Foster. Yes. Sorry. Senator, yes, I agree. One has to 
look at both sides of this. It seems to me that, on the one 
hand, Russia has suffered economic decline. Their future growth 
in the nuclear weapons business will be paced, in part, by 
their economic recovery. On the other hand, looking at the U.S. 
side, whether or not we can maintain a nuclear deterrent 
depends on our commitment and our willingness to support that 
commitment. It seems to me, they're the two major uncertainties 
that drive the future.
    Senator Goodwin. All right. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Goodwin.
    Senator Inhofe.
    Senator Inhofe. Yes. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    I observed a long time ago when we were talking about the 
Law of the Sea Treaty, this is not a partisan statement, 
because that particular treaty--was pushed hardest by President 
Bush, I remember so well someone coming in from the Bush 
administration. I asked a simple question, that they're going 
to give up jurisdiction of over 70 percent of the surface, does 
that include the air above the surface? They didn't have an 
answer for it.
    I think that we get into these treaties and everyone's for 
them. In the case of the Law of the Sea Treaty, that passed the 
Foreign Relations Committee 17 to 4. If it hadn't been for the 
fact that we just demanded to have hearings in this committee, 
as well as the Environment and Public Works Committee, that 
treaty probably would have sailed through. Of course, it hasn't 
yet.
    Now, even when Thursday's behind us, we will have had some, 
I can't remember the exact number of the hearings but, some 30 
witnesses. Of the 30 witnesses, the only 2 that have been 
opposed to this treaty are Dr. Payne and Dr. Foster, who are 
here at this one. So, it's kind of 28 to 2, I think that's a 
little bit uneven. But, nonetheless, I did make the request 
that we have some of the distinguished witnesses that were 
opposed to the New START treaty here, and I appreciate the fact 
that we did.
    Now, Dr. Payne, let me ask you a question. I'm looking at 
this kind of simplistically. Russia is already down below the 
number of launchers that would be required under the New START 
treaty, as well as the warheads. Now, there is an article in 
the Washington Times, and I would just read one paragraph out 
of it. They're talking about Yuri Savenko the first deputy 
chairman of the Duma Defense Committee. He said, ``Whether the 
Americans want it or not, they, after adopting the New START 
treaty, will give us a breathing space that we can use to 
reform and modernize the country's nuclear missile potential. 
So, if the''--he goes on to say--``So, if the Russian nuclear 
arsenal is getting smaller, anyway, but its leaders believe 
locking us into a reduction gives them time to improve it, why 
would the White House make the New START treaty centerpiece of 
the arms control strategy?'' In other words, what we're 
requiring them to do, they're already doing. That really is 
unilaterally what we would have to do. Am I missing something 
here?
    Dr. Payne. No, Senator Inhofe, I think you've put your 
finger on an important point. That is, one of the ironies of 
the New START treaty is, it appears not to require real 
reductions on the part of the Russians, or I should say, 
reductions that they aren't already making. At the same time, 
it would not prohibit a renewal of Russian capabilities well 
beyond the ceilings. As I said in my opening remarks, there are 
a number of loopholes in the New START treaty that would allow 
either party to go well beyond the numbers that are present in 
the limitations in the ceilings, in other words, 1,550 
warheads, for example--very easy to go well beyond that ceiling 
if the Russian Federation has the financial and the production 
wherewithal to do that.
    So, in short, the irony of the New START treaty is, it 
doesn't require real Russian reductions in the near term. In 
the far term, it's not going to prohibit Russian renewal of its 
strategic capabilities, if Russia decides to do that.
    Senator Inhofe. Yes, and that's essentially what the 
article said, and it seems very obvious to me.
    On verification, Ambassador Pifer, you had talked about how 
you felt it had very strong verification. On the other hand, 
Dr. Foster, your first statement that you made was that you 
questioned the verification capabilities. When I look at it 
just numerically, the New START treaty has only, tell me if I'm 
wrong on this, 18 inspections a year, or that would be 180 over 
a 10-year period. During the START I, we conducted on the order 
of 600 inspections during the 15 years of START I. Tell me, is 
there not a relationship between the number of inspections and 
the verification credentials of a treaty? I'll start with you, 
and then ask Dr. Foster to respond.
    Ambassador Pifer. Thank you, Senator. First, a couple of 
points on the START I verification regime. The 600 inspections, 
of course, included baseline inspections that were allowed when 
you went in and took a look at each site to establish your 
initial database which, since we've had 15 years of inspections 
continuing under START I, are not needed in the New START 
treaty.
    In terms of numbers of inspection, on an annual basis, 
START I allowed the sides to conduct 28 inspections per year, 
whereas the New START treaty allows 18 per year. There are two 
points, though, I think that you need to factor in when 
considering that. First of all, in the case of START I, where 
you had 28 inspections a year, that was conducted against 70 
sites. For the New START treaty, it will be 18 inspections a 
year, conducted against 35 sites. So, the universe is reduced 
by half.
    Senator Inhofe. Okay. I don't want to use too much time 
here, real quickly.
    Ambassador Pifer. The second point, very quickly, is for 
some of your type 1 inspections, 10 of the 18 inspections in 
the New START treaty are type 1, you actually do two things 
that you used to require two separate inspections, under START 
I. So, 18 is actually, maybe, more like 23, 24, in terms of 
START I.
    Senator Inhofe. All right. Dr. Foster, do you agree with 
that?
    Dr. Foster. Senator, yes I agree that there are fewer 
places to look, now that there's no longer a Soviet Union, but 
we just have Russia to be concerned with. So, that's the first 
point.
    The other one has to do, however, with the fact that when 
you do inspections, you somehow have to have the concern that 
you may not find what you're looking for. Recall the situation 
we faced in Iraq. We knew that from the last time we were there 
that there were activities associated with nuclear weapons. 
When we went back the second time, with 1,000 or so folks 
looking, we didn't find any evidence. Where did it go? Look, it 
is so easy, in a large nation, to hide this stuff. It seems to 
me that we really should look skeptically at the matter of 
verification.
    Senator Inhofe. Yes, I appreciate that. I think I was 
probably more upset than most people were when the 
administration took down the ground-based site in Poland, with 
what our intelligence tells us the threat is out there. We've 
talked a lot during this hearing about the missile defense 
requirement. I can only say that I think it was Serge Lavrov 
who made the statement, ``The treaty can operate and be viable 
only if the United States of America refrains from developing 
its missile defense capabilities quantitatively and 
qualitatively.'' To me, that's such a specific statement. Dr. 
Payne, is there any doubt in your mind, in terms of their 
wanting to use this to preclude us from pursuing improving our 
missile defense system?
    Dr. Payne. No, Senator. There's no doubt in my mind that 
that's what they would like to do. The question will be, how 
vulnerable will we be to that kind of pressure. I think, for 
example, back to where the ABM Treaty's restrictions on 
strategic missile defense caused us to have a less robust 
theater missile defense capability than we otherwise would have 
had, for fear of violating the restrictions on strategic 
missile defense. We can look into the past, where there was no 
restriction on theater missile defense in the ABM Treaty, but 
we indeed made our theater defenses less capable than they 
otherwise could be, because we wanted to be very careful not to 
violate the spirit or the letter of the treaty. My concern is 
that the Lavrov statement and the other Russian statements that 
lay this out could have the same effect on U.S. decisionmaking.
    Senator Inhofe. Okay. My time has expired, but I'd like 
just to ask, just for a real quick answer on, why wouldn't the 
tactical weapons be a part of the New START treaty? Dr. Payne, 
it would seem to me that that is something that should have had 
a lot of significance in this negotiation.
    Dr. Payne. I think the real answer to that question, sir, 
is, they could not be part of this treaty because the Russians 
did not want to engage in negotiations on their tactical 
nuclear weapons. I think they'll be very wary about ever 
engaging in serious negotiations on their tactical nuclear 
weapons.
    Senator Inhofe. Since they have a 10-to-1 quantitative 
advantage.
    Dr. Payne. Because they are so valuable in the Russian 
military doctrine.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Mr. Miller, at this point, what are the legal enforceable 
verification restrictions against the Russians?
    Mr. Miller. The legally enforceable verification 
restrictions, Senator, are that the Russians will inform us on 
how many warheads a particular missile is loaded with.
    Senator Reed. At this point. Where are we today?
    Mr. Miller. At this point, none.
    Senator Reed. None?
    Mr. Miller. None.
    Senator Reed. So, we have no verification.
    Mr. Miller. No, sir.
    Senator Reed. No. What are the limits on Russian offensive 
and defensive missile systems, at this point?
    Mr. Miller. At this point, the Treaty of Moscow applies, so 
that the Russians would be in, what is it, 12 years? So, it'd 
be about 2014, the Russians would have to have between 1,700 
and 2,200 strategic nuclear warheads under one set of counting 
rules. A different set of counting rules applies to the New 
START treaty. Essentially, the warhead numbers will be about 
the same. But, at a point in time, 12 years from 2002, when the 
Moscow Treaty was signed, the Russians have to be at 1,700 to 
2,200 and nuclear warheads, full stop. For a brief moment in 
time. There are no limits on defensive systems.
    Senator Reed. I would assume, the Moscow Treaty that we're 
talking about would impose a verification regime which has 
lapsed, would also more effectively and more immediately reduce 
limits on the Russian missile systems. Is that correct?
    Mr. Miller. Yes, sir.
    Senator Reed. That's one reason, I presume, that you 
support the New START treaty?
    Mr. Miller. Yes, sir, it is. It is the verification. It is 
the fact that the Russians may not be building up their systems 
now, but this will set a cap in the future, and it will 
particularly set a cap on their ballistic missile systems, 
which has always been a cause of concern to U.S. national 
security planners.
    Senator Reed. Why would the Russians enter into the New 
START treaty with a verification regime, since none exists 
today, if their intention is to cheat?
    Mr. Miller. That's a more difficult question, Senator. I 
think that the Russians intend, at this point, to comply with 
the New START treaty. Future Russian Governments may play 
around the edges. There is a long history of the Russians doing 
that. That's why President Reagan said ``trust but verify.'' We 
will be verifying.
    Senator Reed. Thank you. With respect to the issue of the 
relationship between defensive systems and offensive systems, 
if the Russians, today, were able to deploy an effective 
national missile defense system, what would be your 
recommendation--with respect to the number of warheads that we 
should have, offensively? Would it go up, or would it remain 
the same?
    Mr. Miller. If the Russians were, today, able to deploy an 
effective defense of Russia, our warhead requirements to 
maintain a deterrent would rise astronomically, as would our 
investment on penetration-aid technologies, and on a huge 
modernization of the bomber force.
    Senator Reed. Would that likely prompt a response by the 
Russians?
    Mr. Miller. Yes, sir. You would be back into the nuclear 
arms race of the 1950s, 1960s, and 1970s.
    Senator Reed. Isn't that the definition of nuclear 
instability?
    Mr. Miller. Yes, sir.
    Senator Reed. Dr. Payne, do you agree?
    Dr. Payne. There are multiple definitions of stability. 
There's what's called ``arms race stability.'' There's also 
``deterrence stability.'' In my comments earlier, where I 
indicated that I don't believe that missile defense is 
destabilizing, I was referring to deterrence stability, which 
is what I thought was the nature of the question.
    Senator Reed. No, I think you were referring to the United 
States deploying a missile system. But, if the Russians 
deployed a missile system, would you recommend that we maintain 
our current number of warheads?
    Dr. Payne. If the Russians were to deploy missile defense, 
it would depend on the capabilities of those systems, as to 
whether the United States would respond with more ICBMs, SLBMs, 
or bombers. It may well make a lot of sense to avoid the 
ballistic missile threat if the Russian missile defense system 
is very effective, and move more towards bombers.
    Senator Reed. That would require new bombers with nuclear 
capabilities, correct? I'm not talking about one specific 
system, you would recommend that we be able to effectively 
deliver many more warheads than we have today.
    Dr. Payne. No, not necessarily, sir. It may well be that if 
the Russians have an effective missile defense system, there 
wouldn't be any point in deploying more ballistic missiles 
because their system would be effective, so we could decide if 
we want to maintain deterrence based on retaliatory threats and 
move into greater emphasis on bombers, or we might decide we 
want to essentially mimic what the Russians are doing, in this 
case, have effective defenses of our own. Both sides would 
decide to have a relationship based on effective defenses.
    Senator Reed. Another way to look at this, if we deploy a 
very effective missile defense, the Russians might decide to 
use bomber forces or increased bomber forces, which effectively 
could negate our defense. Is that your point?
    Dr. Payne. They could do that, sure.
    Senator Reed. Which means in many respects it's very 
difficult to achieve, by defense alone, a stable nuclear 
posture. Would you agree with that?
    Dr. Payne. No, I wouldn't, sir.
    Senator Reed. Okay. I'm just a little bit confused. You 
posit that we can, with an effective missile defense, stabilize 
the system. But the Russians will always have a counter to our 
missile defense, either through conventional hypersonic weapons 
or through increased bombers. Is that correct?
    Dr. Payne. Not necessarily so, sir. For example, Senator 
McCain said earlier that missile defense could help reduce the 
vulnerability of retaliatory forces. It's not clear to me, at 
all, that the Russians could have a response to missile defense 
for our retaliatory forces, that would be effective.
    The issues aren't black and white. They're not clear cut. 
There are all kinds of nuances and permutations. The bottom 
line is, if we choose to maintain our relationship with Russia 
based on a retaliatory nuclear deterrent, obviously if they try 
and defend against that, we'll want to maintain the nuclear 
retaliatory deterrent. Perhaps it will be with bombers, rather 
than ICBMs, if they have an effective missile defense.
    On the other hand, if both sides were able to deploy 
effective defenses, we could move towards what President Reagan 
was looking for in the past, and that is a relationship that is 
not based on mutual retaliatory threats, but on defensive 
capabilities on each side.
    Senator Reed. A purely defensive position.
    Ambassador Pifer, what's your view on these issues?
    Ambassador Pifer. There was a very broad look at missile 
defense back in the 1980s, and I think that we found the 
capabilities, to provide that kind of defense that would 
protect the United States against a large-scale Soviet or 
Russian missile attack, was beyond the technological 
capabilities and beyond the budget realities. Every 
administration, actually, since President Reagan has talked 
more about a more focused missile defense system, looking at 
threats such as North Korea and Iran.
    I guess I would disagree with Dr. Payne on the question of 
crisis stability. It does seem to me that if one side has a 
missile defense system, in a crisis, that will affect the other 
side's calculations as to whether or not to strike first or 
not.
    For an example, and I think this is an extremely low 
probability event today, if you had a situation where there was 
an American missile defense that might blunt some of the 
Russian ballistic missile attack. The Russians have to 
calculate, if they are smarter to go first and launch first, 
against the United States, or run the risk of absorbing an 
American first strike. Then they have to launch their 
retaliatory forces, which would be significantly degraded, 
against an American missile defense. I do worry that missile 
defenses, in some configurations, in terms of the U.S.-Russia 
relationship, can be destabilizing in a crisis.
    Senator Reed. Dr. Foster, my time is expired, but if you 
could answer quickly.
    Dr. Foster. Yes, Senator Reed. Let me just make a point 
that is relevant to the points that have been made before. 
First, what counts here is the offensive capabilities, the 
numbers, and the effectiveness of penetrating capabilities. 
Second, the effectiveness of the defenses, whether they are 
very large or small, compared with the offense. Currently, the 
U.S. has a large offense. The Russians have a small defense. 
The rogue nations have a small offense, and we can have a 
rather advanced, and as large as we want, defense. So, it 
depends a little on asymmetries on both sides.
    Senator Reed. Thank you very much, Dr. Foster.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I appreciate the 
fine discussion and good panel.
    The New START treaty has been promoted as central to our 
nuclear policy and our national security, but I'm uneasy about 
it. I have several fundamental concerns. First, the 
administration has been far too anxious, in my view, to sign 
and get the New START treaty done. There are political 
benefits, I don't mean domestic political, perhaps that's a 
part of it, but that somehow, politically, signing the New 
START treaty is going to make the world more willing to 
eliminate nuclear weapons and put us on that path. I don't 
think that's a sound policy. But it's been part of the 
anxiousness, I believe, that has been affecting these 
negotiations, and has made our negotiating position weaker than 
otherwise would have been the case, and less beneficial to our 
security, in my opinion.
    I think the negotiations were further weakened by the 
clearly stated goal of this administration of moving toward a 
nuclear-free world, which is unrealistic. More than that, it's 
dangerous and confusing to our allies and in some ways, 
destabilizing. This could even, in my view, cause other nations 
to see an opportunity to become a nuclear world power, and 
cause proliferation, rather than restraining nuclear weapons, 
around the world.
    Second, Russia, to my view, is not the most important 
threat to America right now. It is the largest threat, of 
course, by far. I think our security is most directly affected 
by Iran and North Korea, and we're doing very little about 
that. I think more of our focus should be on that, and other 
nations, too, that may have nuclear weapons that do not have 
the history of stability that the Russians and, prior to them, 
Soviets have shown in dealing with nuclear weapons. I think it 
could have the perverse effect of encouraging other nations to 
pursue the dream of being a nuclear competitor to the United 
States, rather than the other ones.
    Finally, on modernization, I'm not confident about the 
plans on modernization. I'll ask some questions about that. I 
do believe there are limitations on missile defense. As Mr. 
Pifer noted, the phased adaptive approach eventually will 
result in phase IV, the SM-3 Block 2B, and they're going to 
object to that. Are they going to walk out of the treaty as a 
result of that? We've already foregone the two-stage missile 
defense system that we had planned for Central Europe. I guess 
it's some sort of good faith sweetener to these negotiations. I 
see no other good reason for it. Now, we've put this process 
off for another 5 years, before we get this SM-3 system up and 
developed. It wasn't even on the drawing board a few months 
ago. I'd say, it makes me nervous about what kind of commitment 
we have to missile defense.
    The Russians are still irritable that we walked out of the 
ABM Treaty for very sound reasons. I don't think they'd 
hesitate to walk out of the New START treaty if they felt that 
we were going to proceed with even a limited missile defense 
system. I do agree, Ambassador Pifer, that we've never, at 
least in recent decades or two, we've not advanced the idea of 
a comprehensive missile defense system. But a limited one that 
could protect us from, perhaps, an accidental launch, or a 
rogue nation attack.
    I do believe that we should have already begun very serious 
negotiations over tactical nuclear weapons which were not part 
of the New START treaty, because the Russians refused to talk 
about it, and we acquiesced.
    This is my concern, I think this administration has a 
progressive, leftist aversion to national missile defense and 
to nuclear deterence. They don't like it, emotionally and 
otherwise. That vision, I think, is affecting policy, and it 
causes me to be uneasy.
    One of the things we are dealing with is delivery systems. 
Dr. Miller's press reports indicate that the administration 
will invest $100 billion over the next 10 years in nuclear 
delivery systems. About $30 billion of this will go toward the 
development of a new strategic submarine. Of the remaining $70 
billion, STRATCOM estimates the cost of just maintaining the 
current nuclear forces is approximately $56 billion. So, that 
would leave, if their estimates are not low, with just $14 
billion for the triad, or what would follow on from that, the 
next-generation bomber, the follow-on ICBM, nuclear air-
launched cruise missile, or Prompt Global Strike capability, 
conventional matter. Do you think that, if these facts are 
accurate, the $14 billion would be sufficient to move us toward 
a modernized delivery system?
    Mr. Miller. Senator Sessions, I can't do the math off the 
top of my head. I would like the administration to provide some 
concrete plans that we could judge whether or not the 
modernization that they intend is, in fact, adequate. I think 
that we basically need to see that for the Minuteman force. We 
need to understand what they intend to do with the bomber force 
and the air-launch cruise missile. I appreciate there's 
planning underway by the Navy for the follow-on to the Ohio-
class submarine. To the best of my knowledge, there is not a 
full program up here in front of Congress to proceed ahead with 
that. I don't think they've gone through milestone A yet. I 
would like to see more progress by the administration in 
defining what they are going to do to modernize our strategic 
forces, which we're going to have to do whether we have the New 
START treaty in place or not. I'd also like to see progress, 
sir, on Prompt Global Strike, I would like to see something 
deployed sooner, rather than later. Research and development is 
terrific, but it doesn't provide an operational capability in 
the field. I'd like to see a program there.
    Senator Sessions. Well, it was a very painful thing to me, 
when we debated the Prompt Global Strike, and President Bush 
proposed that, and Congress did not fund it. I do believe it 
was a mistake. I think it could really help our security and 
not cause the problems some suggested. But, we ask, as part of 
the last defense bill, as supported in, I think, section 1251 
which call on DOD to set forth a 10-year plan on modernization 
of the triad and delivery systems. But we've gotten nothing 
back on anything other, I guess, than the submarine 
advancement. You would agree that we have to be serious about 
what we're going to do, make decisions, and then examine the 
budget to make sure there's sufficient funds to fund that?
    Mr. Miller. Yes, sir.
    Senator Sessions. My time is up, Mr. Chairman. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and I want to thank all of you for your 
testimony today.
    The relations between Russia and the United States have 
evolved beyond what they were during the Cold War. Within this 
strategic context, and in the face of our aging nuclear 
stockpile, strategic arms reduction is in the best interest of 
both nations.
    Ambassador Pifer, are there any specific provisions within 
the New START treaty that you feel make the United States less 
secure than we would be in the absence of this treaty?
    Ambassador Pifer. Senator, there are certain points in the 
New START treaty that, in an ideal treaty, would be different. 
For example, I would prefer not to have seen such a discount on 
the bomber-weapon counting rule. It would have been preferable 
to have START I verification measures with regards to 
telemetry, so that we had full access to telemetry. But, a 
negotiation is a negotiation, and, sometimes, you don't get 
everything that you want. Although there may be things that I 
would like to see in the New START treaty, those points do not 
outweigh what, I think, is the overall compelling interest that 
the United States has in ratification and entry into force of 
the New START treaty.
    Senator Hagan. Some of the critics of the New START treaty 
have based their reservations on the fact that the New START 
treaty does not limit the tactical nuclear weapons. I know 
we've talked about that this morning. However, the Obama 
administration has made it clear that negotiating with the 
Russians on tactical nuclear weapons requires ratification of 
this treaty. Mr. Miller, I was wondering, as someone that's 
played a significant role in previous strategic arms reduction 
negotiations, how important is it, in ratifying the New START 
treaty, to facilitate discussion on tactical nuclear weapons?
    Mr. Miller. Senator, the connection is that if we don't 
ratify the New START treaty, we're back to the drawing boards 
on some sort of approach to strategic arms, and the tacticals 
are still going to get left behind. I do not see the New START 
treaty, in the future, that will lump the large Russian 
tactical stockpile in with the smaller strategic stockpiles on 
both sides.
    I believe that the Russian Government needs to be called to 
account in front of every international forum, because it has a 
bloated, obscenely large tactical nuclear stockpile, which 
makes no military sense. What we have to do, in terms of 
reassuring our allies, is to ensure that, as the administration 
put forward in the NPR, that the Joint Strike Fighter has a 
nuclear role that we can deploy to Europe, and that the B-61 
bomb that is deployed in Europe is modernized. We need to have 
that to reassure our allies. We need to keep embarrassing the 
Russians and pushing the Russians to reduce that stockpile 
which is really of no military significance in deterring us or 
our allies, as long as we modernize. But, it has political 
significance that they use to intimidate their near neighbors. 
It's that which we need to avoid.
    Senator Hagan. Dr. Foster, any comments on the tactical 
nuclear weapons?
    Dr. Foster. Senator Hagan, yes, I think that tactical 
nuclear weapons are an integral part of a strategic security. 
Let me give you my reasoning. The tactical nuclear weapons in 
Russia, along with their nuclear doctrine, their declaratory 
statements, and the tailoring of a nuclear capability to attack 
their neighbors, threaten NATO, threaten U.S. military and 
civilian people there. Also, their tactical nuclear weapons 
aboard attack submarines with cruise missile capability armed 
with nuclear warheads off our coasts threaten both the east 
coast and the west coast. So, those are strategic threats, even 
though we call them tactical.
    I agree with Mr. Miller that upgrading the life extension 
of the B-61 is critical. We may actually have to consider 
increasing the numbers of such deployments. Thank you.
    Senator Hagan. I think it was when Secretary Clinton was 
testifying she made the comment that we need to go ahead and 
ratify the New START treaty in order to continue negotiating 
with Russia on their tactical nuclear weapons.
    Mr. Miller, the New START treaty does not prevent the 
United States or Russia from developing new strategic nuclear 
weapon capabilities. Do you anticipate the Russians developing 
new strategic nuclear weapon capabilities in the near future?
    Mr. Miller. Yes, I do.
    Senator Hagan. Any other comments from the other panel 
members? Dr. Payne.
    Dr. Payne. The Russian Federation, right now, has a 
comprehensive strategic nuclear modernization program. The head 
of their defense acquisition program has said that this is the 
highest priority for Russian defense acquisition. The question 
right now is, how much money can Russia put to that program. 
That, I believe, is the bounding factor for them.
    Ambassador Pifer. Senator, I would agree that for Russia, 
maintaining strategic nuclear parity with the United States, is 
a central factor and they will devote resources to ensure that. 
That's where I see the value in the New START treaty, we would 
then have a limit, in terms of how many Russian warheads could 
be deployed that could strike the United States.
    Senator Hagan. Thank you.
    When START I expired, in December 2009, the respective 
verification and the compliance regimes expired with it. The 
Moscow Treaty, which is scheduled to remain in effect through 
the end of 2012, has no verification regime and relied upon 
those from the expired START I protocols. Ambassador Pifer, in 
absence of the New START treaty being ratified, what strategic 
arms verification procedures would be in existence between 
Russia and the United States? What impact will that have on 
ensuring compliance with the Moscow Treaty?
    Ambassador Pifer. Well, Senator, as you stated, we no 
longer have the START I verification regime. The 2002 Moscow 
Treaty has no counting rules and no verification measures. So, 
right now, the only way that we have to monitor Russian 
strategic nuclear forces are national technical means of 
verification. We don't have the sorts of provisions that were 
in START I and that are in the New START treaty, for data 
exchange, inspections, and notifications.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Thank you all very 
much for providing your insights and responding to some of the 
questions that many of us have on this very important subject.
    If I might, Mr. Miller and Mr. Payne, the 1251 Report 
provides a very troubling lack of specificity concerning force 
structure. Specifically, the administration's factsheet on the 
Section 1251 Report explains that the U.S. nuclear force 
structure, under the New START treaty could comprise up to 420 
ICBMs, 240 SLBMs, and 60 bombers. Since deployment at the 
maximum level of all 3 legs of the triad, under that 
explanation, add up to 720 delivery vehicles, it is 
mathematically impossible for the United States to make such a 
deployment and be in compliance with the New START treaty's 
limit of 700 deployed strategic nuclear delivery vehicles. 
Clearly, additional reduction decisions are going to have to be 
made, with respect to the U.S. force structure under the 
treaty. Therefore, as I told Secretary Gates last month, I 
would be reluctant to cast a vote in favor of this treaty 
without being fully briefed in more precise detail, to my 
satisfaction, at least, about the plans for our nuclear 
delivery vehicle force structure. So far, I've only been told 
that decisions will be made at some point in the distant 
future, and will be based on Russia's force structure. So, I 
guess I would ask, in your opinion, how do you think Russia 
will establish their force structure? Based on that, where do 
you foresee the additional reductions coming from in order to 
get to the 700 total deployed delivery vehicles that are 
limited to by the New START treaty?
    Dr. Payne. Senator Thune, did you mean, how will the 
Russians, we believe, structure their forces under that? Or, 
how will the United States likely do that?
    Senator Thune. Kind of both. Because, what I've been told 
is that our decision will be made somewhat based on the 
Russian's force structure and how might they compose their 
arsenal? Then how might we, I guess, respond to that?
    Dr. Payne. Okay. Yes, sir. The outlines of what the 
Russian's comprehensive modernization program might be there. 
The details, obviously, we don't know at this point. But, it 
appears that the Russians are going to move towards heavily 
MIRVed ICBMs, MIRVed SLBMs, and a new strategic bomber.
    On the ICBM side, the Russians have already committed to 
the deployment of a new heavy ICBM which, presumably, will be 
able to carry a considerable number of MIRVed warheads. They've 
committed to the deployment of at least one new strategic 
bomber, and they have near-deployment, according to open 
sources, of a new air-launched nuclear cruise missile, the KH-
102.
    Since we put that all together, what you see is the 
Russians moving towards a lower number of launchers, probably 
considerably lower than the START I limits. But, of those 
launchers, the ICBMs and SLBMs will be heavily MIRVed. The 
bombers, because the New START treaty bomber-counting rule only 
counts one warhead and one bomber as one unit each, the 
Russians will be able to maximize the number of weapons on 
their new strategic bomber. What that might look like is an 
open question, now. They might go to 16 air-launched cruise 
missiles. Maybe they'd go to 20 air-launched cruise missiles. I 
don't know. But, what you see with that kind of force structure 
are numbers well in excess of the ceiling of 1,550, but within 
the bounds--within the terms of the New START treaty.
    Senator Thune. Right.
    Mr. Miller. Senator, I would say that we are not going to 
base our force structure on what the Russians are going to do. 
For a long time, we have avoided heavily MIRVed systems, and I 
think we have done so wisely. I think the Russians are foolish 
to invest in that, but that's their decision.
    I think we will continue to have the heart of the deterrent 
based in the Trident force and in the Minuteman force, the 
Minuteman force being single-warhead systems. But, the 
administration does owe the Senate, Congress, an answer as to 
how many of each, and in what. The plan, as I understand it, 
for the follow-on to Trident, is to have 12 submarines, which 
is a number that I believe is barely adequate, but adequate.
    But, as you pointed out, with the arithmetic of that 720, 
up to 60 bombers--well, we only have about 19 B-2s, at last 
count. That means a decision needs to be made as to what's 
going to keep the B-52s viable. Otherwise, the other 40 bombers 
fall away without any kind of a viable delivery platform in a 
new air-launched cruise missile, or a modified air-launch 
cruise missile.
    So, as I said in my opening remarks, I really believe that 
the heart of this lies in our own modernization. Those 
decisions are between Congress and the administration. 
Regardless of the New START treaty, we have to do something to 
recapitalize the existing strategic forces.
    Senator Thune. Well, it's a bit of a precarious situation 
for Senators who are being--we're being asked to provide advice 
and consent before obtaining a commitment on some of these 
follow-on delivery systems. What if the systems weren't 
replaced? How would this impact security, under the New START 
treaty?
    I want to come back, just briefly, to the bomber issue 
because, according to the most recent briefs that I've seen, 
DOD expects the nuclear bomber force to remain in service 
through 2040. As you mentioned, 30 more years is a long time 
for a bomber that was built 50 years ago. Now, the proponents 
of the plan say they can last that long with upgrades. But, 
physically remaining in service is significantly different than 
remaining survivable in a future high-threat combat scenario. 
The NPR recognizes the need for a triad. Since the New START 
treaty is only for a 10-year period, how do you think the 
treaty will affect any plans to build a replacement bomber?
    Mr. Miller. I don't think that it will. I think we are free 
to do, under the New START treaty limits, what we choose to do. 
You're right that the B-52 airframe can be kept viable. The 
question is, what is the delivery system that it's carrying? 
The air-launch cruise missile was first deployed in 1980s. It 
is not as stealthy a system any more. We relied, at that time, 
on mass and what we euphemistically called defense suppression 
which meant ballistic warheads taking out key air defense 
sites. We need to have some sense from the administration as to 
what they plan to do, or what they propose to Congress to do to 
keep the B-52 force viable, if that is indeed the 
administration's intention.
    Dr. Payne. Senator Thune, may I add to that? I associate 
myself with my friend Frank Miller's comments. I've only seen 
the unclassified version of the 1251 Report. But, what's most 
disturbing about it is what's not there. What we don't see is a 
modernization program for the ICBM, bomber, or a new air-
launched cruise missile that would make it effective. What we 
don't see is a commitment to the deployment of conventional 
Prompt Global Strike. These are problems. Again, I agree with 
my friend Frank Miller that, if the United States would make a 
commitment to these modernization programs, at least for me, it 
would help mitigate some of the concerns I have about the New 
START treaty.
    Senator Thune. My understanding, too, is that the ICBM-
based Prompt Global Strike platform would be counted against 
the 700 deployed-delivery vehicles. If we decide to develop 
that system, which, in your opinion, of the three legs of the 
triad, would be or should be further reduced to accommodate it?
    Dr. Payne. I'm sorry, Senator, I'd rather not try and 
choose among them. But, what I would note is, because Prompt 
Global Strike is based on an ICBM, or an SLBM, would count, 
under the 700 ceiling. Those numbers that Frank Miller 
mentioned earlier would have to go down below 700. The Prompt 
Global Strike would have to come at the expense of a bomber, 
SLBM, or ICBM.
    Mr. Miller. Could I just say, having been involved in the 
past, as has Dr. Payne, on the Prompt Global Strike, I think 
the numbers that we're talking about, in terms of Prompt Global 
Strike systems are quite small, on the order of tens of 
systems, certainly not hundreds. I do not think that taking 
about 40 nuclear warheads off and replacing them with 
conventional Prompt Global Strike systems will, in any way, 
undercut our deterrent. I don't think that has been talked 
about, as an issue. I don't think it's a treaty issue, as long 
as the administration commits to actually fielding a Prompt 
Global Strike system.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    To all or our witnesses, thanks for your testimony today. 
This issue gets more complex the more we learn about it. 
Certainly all of you help bring forth the type of information 
that we're going to have to have to be able to think through 
this.
    Dr. Payne, Mr. Miller, thank you for your generous time 
that you spent with my staff and me. I appreciate it. We look 
forward to continuing the dialogue with all of you as we move 
forward.
    Let me go back to this tactical issue, again, because I 
have been very disturbed about that from day one. I want to 
make sure that I understand what all four of you have basically 
said here. In your opinion, there is no way that the Russians 
are going to negotiate, as a part of the New START treaty, the 
issue of tactical nuclear weapons. Am I correct? That bothers 
me to no end. Tell me what I'm missing here and why I can take 
comfort in the fact that they don't want to negotiate tactical 
weapons as a part of this? Dr. Payne?
    Dr. Payne. Sir, to be honest, I don't believe you can take 
any comfort in the fact that they don't want to negotiate on 
this issue. It strikes me that one of the enormous challenges 
that will confront us over the next decade, is how to try and 
get a handle on their tactical nuclear weapons when they do not 
want us to get a handle on them.
    Senator Chambliss. Mr. Miller?
    Mr. Miller. Senator, I don't think there's a single magic 
treaty that's going to solve all of our issues with the Russian 
nuclear forces. I think we're going to have to take it, as we 
have in the past, one step at a time. We have not, for three 
administrations back to President Reagan, felt the need to 
match the Russians, in terms of tactical nuclear forces. We 
have felt the need to have a viable deterrent to offset that, 
knowing that if they started to use tactical nuclear weapons, 
the whole conflict would escalate to the strategic level 
quickly.
    I view those weapons as a political threat. I view them as 
a threat because the weapons could be stolen or diverted to 
terrorists. I think we need to continue to press to get our 
arms around them. But, I think throwing the New START treaty 
away because we haven't gotten our hands on the tacticals is 
not the way to approach this. I think we have to go after the 
tacticals separately.
    Senator Chambliss. Okay. Ambassador Pifer?
    Ambassador Pifer. Senator, I would concur with Mr. Miller. 
It seems to me that if we did not ratify the New START treaty, 
we would then be back to square one. It would not make it 
easier to persuade the Russians to put tactical nuclear weapons 
into the negotiation. We would likely face the possibility that 
they would reopen some of the compromises that were reached in 
the New START treaty, and advance new demands of their own. It 
would not make it easier to get our hands around the tactical 
question.
    Dr. Foster. Senator, going back to the earlier part of your 
question a reason that the Russians have taken a strategic 
position with regard to the United States is perhaps to reduce 
our influence and presence in Europe.
    Senator Chambliss. Going back to what Senator Thune was 
talking about, with respect to our nuclear triad and where 
we've been and how we go forward. It looks to me like, with the 
dependence on the B-52, the service life of that aircraft is 
going to be basically reaching an end in the next 2 or 3 
decades, if it lasts that long. That airplane is at least 60 
years old now, or older. We're going to reach a point where the 
B-52s have no mission here. Do you think the 1251 modernization 
plan adequately addresses this issue of where we go, with 
respect to a bomber? How important is that, with respect to the 
underlying strategic plan that the United States has been 
working under for decades now?
    Dr. Payne. The 1251 Plan, as we've seen it publicly, 
indicates no commitment to bomber modernization, to a follow-on 
to the venerable B-52. At least as importantly, it indicates no 
commitment to a new air-launch cruise missile that would allow 
that platform to remain effective. That absence is one of the 
problems with the plan that we've seen.
    Mr. Miller. I agree with Dr. Payne. It's very difficult for 
all of you to fully consider the New START treaty without 
understanding the administration's modernization plans. It's 
seems to me that they go hand in hand.
    Dr. Payne. I might add, Senator, that that's in the context 
of the Russians having made a commitment to the modernization 
of the strategic bomber force and to a new air-launch cruise 
missile.
    Senator Chambliss. Yes. Ambassador Pifer and Dr. Foster----
    Chairman Levin. Senator Chambliss, could I interrupt you 
just for 1 minute, because I think Senator Thune may have to 
leave. I just wanted to give him some information on the 
subject that he was asking. Would you just yield to me for 1 
minute on that?
    Senator Chambliss. Sure.
    Chairman Levin. We have tried to schedule a time for DOD to 
come up and brief us on force structure. They've asked us, 
actually, to do that. We've had a briefing from Secretary 
Gates, in June, on what their baseline force structure is. But, 
in terms of your request, they are happy to come up. We're just 
trying to schedule a time. It may have to be Thursday 
afternoon. But, we'll keep in touch with you, because of your 
special interest in that subject.
    Thanks for the interruption.
    Senator Chambliss. Sure. Ambassador Pifer and Dr. Foster, a 
major concern for me has been this issue of modernization and, 
in particular, the commitment not just of this administration 
but a commitment of Congress to put the dollars in place to 
make sure that we have the capability to modernize. What are 
your thoughts on the administration's budget, with respect to 
the next several years, and our ability to continue down the 
road of an adequate modernization plan? We've already seen that 
the House has taken several hundred million dollars out of that 
proposed budget. What would be the impact of not keeping the 
proposed budget at the level that the administration has set?
    Ambassador Pifer. Well, Senator, in order, this is actually 
regardless of whether we have the New START treaty or not, for 
the foreseeable future, it is going to be important for the 
United States to have a survivable, effective, robust strategic 
nuclear deterrent. That's going to require that this 
administration, and successive administrations working very 
closely with Congress, assure that the resources are there to 
modernize the strategic deterrent.
    Senator Chambliss. Do you think this administration's 
proposed budget does that?
    Ambassador Pifer. The proposed budget, as it's been 
described so far, puts us on a start in that direction. But, 
this is going to have to be continuous work between the 
administration and Congress to make sure that those plans are 
adequately funded, so that we can maintain the strategic 
deterrent.
    Senator Chambliss. Dr. Foster, any additional comment?
    Dr. Foster. Yes, Senator. It seems to me that, regarding 
the first part of your earlier question, the B-52 has indeed 
lasted a long time, and it will be possible for the 
administration to maintain that bomber for a decade or two, no 
question. However, that bomber cannot penetrate. As a matter of 
some urgency, we need to develop an advanced cruise missile 
that can be reliable. Now, it also has to be advanced because 
it must penetrate. That's a technological challenge.
    Next, when it comes to committing to do these things, there 
is the budget deficit issue. In the face of that, President 
Obama has committed to maintain the strategic deterrent for the 
foreseeable future. It may be that, because of the nature of 
our democracy, we really will not do what we should do, and 
face a crisis, and then do it.
    Senator Chambliss. My time is expired. But again, I 
appreciate your testimony this morning. While we all understand 
that we have no treaty now, we have no verification plans in 
place, this is a long-term treaty. It's unbelievable to me that 
we'd be discussing a treaty and, at the same time, discussing 
how likely it is that the other party to it is going to cheat, 
and how much they're going to cheat, and they have a history of 
doing this. There are a lot of reasons why this is going to 
have to take a lot of deliberation. Certainly we need a treaty 
of some sort with the Russians. Hopefully we can get ourselves 
satisfied on this one. But, a bad treaty would be worse, in my 
opinion, than no treaty at all. Again, we're going to be 
counting on you folks to continue to give to us the type of 
information we need to help develop, in our minds, exactly the 
way forward. I thank you very much for being here this morning.
    Chairman Levin. Thank you, Senator Chambliss.
    Dr. Payne, I made reference, in my questions to the report 
of the Congressional Commission on the Strategic Posture of the 
United States, on which you served. One of the statements that 
they made in their report, relative to missile defense, was the 
following ``For more than a decade, the development of U.S. BMD 
has been guided by the principles of protecting against limited 
strikes while,'' this goes to a matter that you were talking to 
Senator Reed about. These are the key words, ``taking into 
account the legitimate concerns of Russia and China about 
strategic stability. These remain sound guiding principles.'' 
Then this sentence, ``Defenses sufficient to sow doubts in 
Moscow or Beijing about the viability of their deterrents could 
lead them to take actions that increase the threats to the 
United States and its allies and friends.''
    Now, when Dr. Perry and Dr. Schlesinger were here, they 
told us that the Commission's report, other than a section on 
Comprehensive Test Ban Treaty, was a consensus document.
    Did you concur on that paragraph that I just read? You did?
    Dr. Payne. Yes, sir.
    Chairman Levin. It's important that, I wish our colleagues 
were all here to hear that, is an important statement. It adds 
an element to the discussion that you had previously.
    The only other question that I have is for you, Dr. Payne, 
I think all the other witnesses were asked whether or not the 
rejection of the New START treaty would make it more likely 
that the Russians would engage in agreed-to limits on tactical 
weapons. I don't know that you were asked that question.
    Dr. Payne. I'm sorry, sir. Could you repeat the question?
    Chairman Levin. Yes. I'm not sure Dr. Foster was asked 
either, as a matter of fact. The other witnesses were asked 
specifically, just a few minutes ago, if the New START treaty 
were rejected, whether that would make it more likely that the 
Russians would negotiate a limit on the tactical weapons? Would 
the rejection of the New START treaty make it more likely?
    Dr. Payne. I think it would likely be inconsequential in 
that regard.
    Chairman Levin. Okay. Dr. Foster, I don't know if you were 
asked.
    Dr. Foster. I agree with that position, Senator.
    Chairman Levin. You agree with the one that----
    Dr. Foster. I would agree that if the United States were to 
reject the New START treaty, it would make it more difficult to 
address, with Russia, the matter of tactical nuclear weapons.
    Chairman Levin. Okay.
    Thank you all. It's been very, very helpful. We greatly 
appreciate your service to our country and to your being here 
this morning. Thanks.
    We'll stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                    russian tactical nuclear weapons
    1. Senator McCain. Dr. Foster and Dr. Payne, in his written 
testimony before the Senate Foreign Relations Committee, Former 
Secretary of State Henry Kissinger stated: ``as strategic arsenals are 
reduced, the distinction between tactical and strategic nuclear weapons 
is bound to erode. The large Russian stockpile of tactical nuclear 
weapons, unmatched by a comparable American deployment, could threaten 
the ability to undertake extended deterrence. This challenge is 
particularly urgent given the possible extension of guarantees in 
response to Iran's nuclear weapons program and other programs that may 
flow from it.'' Do you agree with Dr. Kissinger's assessment?
    Dr. Foster. I agree with Dr. Kissinger's statement. And statements 
by the Russian leadership indicate the importance of tactical nuclear 
weapons in Russian military strategy. The new Russian military 
doctrine, their tailored tactical nuclear capabilities and threats of 
nuclear attack against their neighbors and NATO has already caused some 
allies to express concerns. Urgent attention is required to maintain 
the U.S. extended deterrent.
    Dr. Payne. No. The Russian 10:1 numeric advantage in tactical 
nuclear weapons already threatens the credibility of the U.S. extended 
deterrence. That asymmetry will worsen as the United States withdraws 
TLAM-N weapons. This threat to U.S. extended deterrence credibility is 
not a future concern, it is here and now. Several allies have been 
explicit about their concerns in this regard.

    2. Senator McCain. Dr. Foster and Dr. Payne, do you believe there 
is a significant interrelationship between strategic and tactical 
offensive weapons?
    Dr. Foster. There is a significant interrelationship between 
strategic and tactical offensive weapons. Our so-called tactical 
nuclear weapons in Europe provide a strategic deterrent to Russia's 
tactical nuclear weapons that are a strategic threat to NATO. In the 
same way, Russia's tactical nuclear attack submarines armed with 
nuclear cruise missiles, when off our east and west coasts, pose a 
strategic threat to the United States.
    Dr. Payne. Yes. In fact, the divide between tactical nuclear 
weapons and strategic nuclear weapons is largely artificial and a 
legacy of Cold War arms control practice. Shorter-range nuclear weapons 
(e.g., those that can be deployed on ships or aircraft) certainly 
represent a strategic threat to our allies and even possibly to the 
United States. In the past U.S. officials appear to have believed that 
a large, diverse U.S. strategic nuclear force structure could help 
compensate for deterrence purposes for the Russian numeric advantage in 
tactical weapons. That U.S. deterrence strategy will be undermined if 
we further reduce U.S. strategic forces to sustain strategic parity 
with Russia at considerably lower strategic force numbers while Russia 
maintains or increases its enormous advantage in tactical nuclear 
weapons. Several key allies have expressed concern about this 
development and, to date, the United States appears to have no 
alternative approach to maintaining credible extended deterrence and 
assurance in the context of the great Russian advantage in tactical 
nuclear weapons.

    3. Senator McCain. Dr. Foster and Dr. Payne, do you agree that the 
New Strategic Arms Reduction Treaty (START) should have at the very 
minimum established the framework for addressing tactical nuclear 
weapons?
    Dr. Foster. I agree that New START should have included a framework 
for addressing tactical nuclear weapons. I suspect that our U.S. 
negotiators were aware of the value of establishing a framework for 
future negotiations on tactical nuclear weapons, however it's clear 
from Russian statements that consideration of tactical nuclear weapons 
was not to be a part of the negotiations for New START.
    Dr. Payne. Yes. The United States should have attempted to use the 
considerable negotiating leverage it had in the New START negotiations 
to gain some agreement with Russia on tactical nuclear weapons. If 
agreement with Russia is possible on tactical nuclear weapons, this was 
the time to secure it. The United States is unlikely to have a 
comparable level of leverage in the future and Russia sees 
significantly increasing value in its tactical nuclear weapons; 
negotiating any serious (as opposed to a fig leaf) limits on those 
Russian weapons now will be more difficult, perhaps impossible. The 
administration's argument that the New START agreement was supposed to 
be about strategic nuclear weapons and therefore tactical nuclear 
weapons rightly were excluded is contradicted by the fact that other 
categories of forces were indeed included: the United States accepted 
some limitations on U.S. missile defense and on U.S. conventional 
strategic forces in this agreement. The bottom line in this regard is 
that the United States did not use its negotiating leverage to gain any 
concessions at the tactical nuclear level where Russia holds 
considerable advantage and appears to have gained very little in return 
for U.S. concessions at the strategic level where Russian capabilities 
in the near-to-mid term are declining with or without a treaty.

    4. Senator McCain. Dr. Foster and Dr. Payne, what leverage do we 
have to compel Russia to discuss reductions of its tactical arsenal in 
the future if we were to ratify the New START treaty?
    Dr. Foster. Russia's several thousand tactical nuclear weapons are 
the deterrent to their perceptions of threats of a larger conventional 
military capabilities of the North Atlantic Treaty Organization (NATO) 
and China. So it's not simply a NATO/Russia concern, it's also a 
Russia/China concern, in that case over territory and energy resources. 
Having offered concessions, we have very little leverage left to compel 
or persuade Moscow to significantly reduce its tactical nuclear 
arsenal. Perhaps early U.S./China and Russia/China discussions to limit 
china's nuclear deployments and to reduce Russia's could help.
    Dr. Payne. Little, and much less than before the negotiation of the 
New START treaty. In the Russian open press, Russian writers have 
described at length Russia's main negotiating goals and observe happily 
that Russian negotiators achieved all of those goals in the New START 
treaty with one exception: Russia was able to place considerable 
potential political limits on U.S. missile defense via the language in 
the preamble and Russia's own unilateral statement on missile defense, 
but it was not able to place many strict technical limits on U.S. 
missile defense. With this exception, the Russians appear to have 
gotten what they wanted. The Russian 10:1 numeric advantage in tactical 
nuclear weapons does not provide much or any direct negotiating 
leverage for the United States with regard to future negotiations on 
tactical nuclear weapons. Consequently, under current conditions, there 
appears to be very little potential ``trade space'' for the United 
States with regard to future negotiated reductions in Russian tactical 
nuclear weapons unless, perhaps, if the United States is willing to 
agree to Russia's desired restrictions on U.S. missile defense options, 
U.S. conventional capabilities, and U.S. space-based capabilities. In 
addition, again according to the Russian open press, there is no 
enthusiasm in Russia for another round of negotiations; since the 
signing of the New START treaty, Russian Foreign Minister Lavrov has 
underscored this by placing conditions on future negotiations that make 
any new agreements highly improbable.

                              verification
    5. Senator McCain. Dr. Foster and Dr. Payne, during our hearing 
last week, I asked Jim Miller and General Chilton if they were 
concerned with an unclassified excerpt of a recent State Department 
report stating that ``any Russian cheating under the treaty would have 
little effect, if any, on the assured second-strike capabilities of 
U.S. strategic forces.'' Both General Chilton and Dr. Miller said they 
agreed with the finding. Does cheating matter?
    Dr. Foster. I think cheating can matter. The verification 
provisions in New START were the result of negotiations which limited 
the objectives of each side to guard against cheating. We do not know 
what the Russians might do that would matter and that we would not 
detect in time to react. I am not aware of any formal Red Team effort 
to identify and document Russian evasive actions that could 
significantly affect U.S. nuclear deterrence. So, to say that Russian 
cheating would have little effect is a judgment reached after some 
consideration of evasion, capabilities of U.S intelligence and the 
effectiveness of the verification provisions. Cheating could change the 
situation and then as General Chilton indicated, we would need to 
change force levels and be capable of an adequate response.
    Dr. Payne. Cheating matters greatly whether or not it is deemed 
``militarily significant'' by the State Department. Cheating at any 
level is significant because it reveals the character of Russia's 
commitment to the arms control process and the integrity of any 
agreement. If Russia is willing to cheat, why should we expect Russia 
to cheat only on matters of modest significance? In the past, the 
Soviet Union and Russia have cheated on matters large and small. To 
presume that because Russia has signed a treaty it is therefore 
committed to implementing its terms properly is counter to history 
since at least the 1930s. This is why tight verification provisions are 
essential when dealing with a country like Russia that has a track 
record of cheating. The New START treaty eliminated many such 
provisions that existed in the previous START treaty.
    The apparent State Department conclusion that potential Russian 
cheating would have little effect on U.S. assured second strike 
capabilities and therefore can be viewed with some equanimity should 
itself be viewed with alarm, not as reassuring. The belief that assured 
destruction is the U.S. standard of adequacy for deterrence reflects a 
common but mistaken understanding of U.S. policy from the 1960s. For 
more than five decades the standard of adequacy for U.S. forces for 
deterrence and assurance purposes has mandated more force flexibility, 
survivability and resilience than is required by a simple assured 
second strike capability alone. The inadequacy of that standard alone 
for credible deterrence and assurance has been recognized by Democratic 
and Republican administrations alike. The State Department's apparent 
resurrection of that long-rejected Cold War standard now in connection 
with New START is troubling because it suggests that an inadequate 
standard has been used to judge the verification provisions of New 
START.

    6. Senator McCain. Dr. Foster and Dr. Payne, do you agree that any 
Russian cheating would have little, if any, affect?
    Dr. Foster. Any cheating by Russia could have little, if any 
effect, or cheating could have serious consequences. It depends on what 
they chose to do when we learned of it and how prepared we were to 
minimize the consequences.
    Dr. Payne. No. Russian cheating could have significant political 
and strategic implications if the assumptions about the scope and 
timing of possible Russian cheating used in consideration of this 
question are less than optimistic.

    7. Senator McCain. Dr. Foster and Dr. Payne, what would happen if 
the United States could not detect in a timely manner the Russian 
deployment of 1,000 or 2,000 additional warheads?
    Dr. Foster. It depends on Russia's strategic intent and future 
capabilities. If their intent were to develop a credible first strike 
capability, with an additional 1,000 or 2,000 warheads and other 
offensive and defensive capabilities and, the failure on our part to 
maintain our deterrent, that kind of situation could lead them to 
threaten an attack or at least coerce us to comply with their demands. 
For that reason we must have a dedicated focus on what they and others 
could be and are doing and maintaining capable and responsive U.S. 
forces.
    Dr. Payne. Depending on the types of the warheads and delivery 
systems and the state of U.S. forces, such a level of cheating could 
significantly reduce the survivability of U.S. intercontinental 
ballistic missiles (ICBMs), bombers, and ballistic missile submarine 
(SSBN) not on patrol, and thus degrade the necessary flexibility and 
resilience of U.S. deterrence forces. This could undercut the 
credibility of U.S. deterrence strategies and increase the 
vulnerability of the United States and allies to attack or coercion. 
The modernization of U.S. strategic forces could help to reduce the 
vulnerability of U.S. deterrence strategies to cheating, but to date 
the administration has not committed to any comprehensive modernization 
program.

    8. Senator McCain. Dr. Foster and Dr. Payne, does the fact of no 
consequences undercut the need for and validity of the New START?
    Dr. Foster. Yes. The assertion of no consequences invites evasion 
and weakens our grounds for compliance.
    Dr. Payne. The claim of ``no consequence'' is not a ``fact''. And, 
if it were true, there could be no corresponding claim that the treaty 
and its verification measures are of great importance. If no level of 
cheating can be of consequence, then the verification provisions of the 
treaty and the treaty itself cannot be of great importance.

    9. Senator McCain. Dr. Foster, in your prepared remarks you state 
that you believe the New START verification regime is ``inadequate to 
give us the depth of knowledge that we will need, given Russian 
military doctrine and modernization programs.'' Please elaborate on 
your concerns regarding Russian modernization and why you feel this 
treaty abandons the ``Trust but Verify'' approach?
    Dr. Foster. Given the track record of Soviet/Russian evasions of 
past treaties does justify much ``trust'' in treaty negotiations. The 
verification provisions of New START are inadequate because Russian 
leadership has given highest priority to the development of a 
modernized strategic nuclear deterrent and it's supporting 
infrastructure. They have announced their commitment to a new bomber, 
new mobile and silo based and mirved ICBMs and a new SSBN with new 
mirved missiles. The limited inspections, denial of the previous 
assembly plant's monitoring facility and now more limited telemetry on 
missile firings do not provide the knowledge we need for verification 
of Russian compliance with New START over the next 10 years.

         national nuclear security administration modernization
    10. Senator McCain. Dr. Foster, in his prepared remarks for our 
hearing last week, Dr. Michael Anastasio, Director of Los Alamos 
National Laboratory stated that he ``fear[s] that there is already a 
gap emerging between expectations and fiscal realities'' and that he is 
``concerned that in the administration's section 1251 report, much of 
the planned funding increase for weapons activities do not come to 
fruition until the second half of the 10-year period.'' Do you share 
Dr. Anastasio's concerns? If not, why?
    Dr. Foster. I share Dr. Anastasio's concerns regarding the 
inadequacy of the funding identified in the administrations section 
1251 report. Three aspects cause my concern.

        <bullet> First, the requirements for the facilities were set 
        and the designs laid out before the economic decline and call 
        for procedures, level of risk acceptance and capabilities, 
        while nice to have, may no longer be considered appropriate. A 
        thorough Department of Defense (DOD)/Department of Energy (DOE) 
        scrub of the level of risk acceptance and required, as opposed 
        to desired, capabilities is called for.
        <bullet> Second, the DOE track record of escalating 
        construction costs on some past facilities requires that 
        special attention be given to details of the contract and 
        management of costs, both at NNSA and on-site, with clear 
        descriptions of responsibilities, authorities and 
        accountabilities of the assigned individuals.
        <bullet> Third, if the appropriated budgets for these 
        facilities are inadequate the concern is that funding will come 
        from reductions in the warhead surveillance, and science and 
        technology programs, as has occurred in the last 5 years.

    11. Senator McCain. Dr. Foster, should some of the funding outlined 
in the 1251 report be shifted to the first half of the 10-year period?
    Dr. Foster. That may be important to reduce near-term risk but it 
would make the out-year budget situation even worse. I think that now 
is the time to face up to the realities. More funding will be needed in 
the first few years and even more funds will be needed in the second 
half of the 10-year period.

              weapons complex intellectual infrastructure
    12. Senator McCain. Dr. Foster, as I stated in my opening remarks, 
you along with nine other former lab directors sent a letter to the 
Secretary of Defense and the Secretary of Energy stating that you 
believe the administration's Nuclear Posture Review (NPR) will have a 
negative impact on the ability of the nuclear weapons complex to 
recruit and retain the best and brightest talent. In your letter you 
state that this ``higher bar'' for certain life extension programs 
(LEPs) will ``stifle the creative and imaginative thinking that 
typifies the excellent history of progress and development at the 
national laboratories.'' Please elaborate on the concerns you and the 
other former lab directors raised in your letter.
    Dr. Foster. This elaboration on the concerns expressed in the 
letter reflect my views and may not represent those of other ex-
directors. I think it is important to understand the situation the 
laboratories are facing regarding their ability to attract the best and 
brightest to a career in nuclear weapons.

        <bullet> Weapons work is performed in secure areas requiring 
        security clearances and unclassified research and publication 
        is not easily accommodated.
        <bullet> The constantly increasing controls and procedures 
        imposed to assure safety, security and compliance led the 1999 
        Commission chaired by Adm. Chiles (Ret) to conclude that 
        ``worker feelings range from anger to resigned despair''.\1\
---------------------------------------------------------------------------
    \1\ 1999 Report of the Commission on Maintaining United States 
Nuclear Weapons Expertise. The 2008 DSB Task Force report ``Nuclear 
Deterrence Skills'', also chaired by Adm. Chiles, found ``no change'' 
regarding ``expanded personnel flexibility''.
---------------------------------------------------------------------------
        <bullet> The laboratories have not been permitted to perform 
        underground tests for 18 years, not designed, developed and 
        deployed nuclear warheads for about 20 years. And President 
        Obama has launched a priority initiative to take concrete steps 
        to nuclear zero. And now, in performing refurbishment of the 
        aging warheads, if their preferred nuclear approach were to use 
        a different previously tested but not stockpiled nuclear 
        component, that approach would require review and approval by 
        the Secretary of Energy and the President. Such a review would 
        likely involve still more involvement and reviews by outside 
        scientists and engineers judging the technical risks of the 
        directors' approach compared to other approaches. As a 
        consequence, the laboratories are likely to avoid proposing the 
        approach that would lead to still more reviews.
         In my view the preference of the administration to avoid 
        different nuclear components on technical grounds does further 
        stifle the creative and imaginative thinking of the nuclear 
        design laboratories.

           verification: potential for strategic instability
    13. Senator McCain. Dr. Foster and Dr. Payne, it appears that both 
Russia and the United States will have the capability to upload large 
numbers of warheads in fairly short order. This raises the prospect 
that if a crisis occurred and tensions were running high, each side 
might take measures to prepare to upload warheads. Actually uploading 
the warheads in excess of the treaty's limits would be a violation, but 
making preparations to do so would be legal. If in a crisis, the 
Russians suddenly revealed that they had twice the number of warheads 
that were limited by the treaty, would you view that as a dangerous 
situation?
    Dr. Foster. Yes, if the crisis situation, such as described, were 
to develop that caused the Russians to up-load twice the number of 
deployed warheads allowed under New START, it would indeed be a 
dangerous situation for at least three reasons.

        <bullet> The nature of the crisis apparently compelled Russia 
        to increase its' strategic military posture and capability.
        <bullet> Although each nation has a large number of non-
        deployed warheads, a two-fold increase in deployed capability 
        implies that the Russians may have made available more delivery 
        capability for those warheads than we had assumed.
        <bullet> It would raise questions of intent. Had they been 
        planning to achieve strategic superiority? And we would need to 
        know the status of Russian tactical nuclear units off our 
        coasts and near our allies.

    Yes, it would be a ``dangerous situation''.
    Dr. Payne. The actual situation is somewhat worse than described in 
the question. The treaty itself allows the possibility of Russian 
deployment of several thousand weapons beyond the treaty's ceiling of 
1,550 deployed warheads within the terms of the treaty. Russia would 
not have to violate the treaty to have several thousand deployed 
warheads, possibly including long-range nuclear weapons not covered by 
the treaty such as long-range sea-launched cruise missiles. 
Nevertheless, the uploading scenario described in the question would be 
particularly dangerous given the hostile political context and intent 
assumed in the scenario. In addition, the level of ``breakout'' 
described could undermine the survivability of U.S. ICBMs, bombers and 
SSBN not on patrol, and thus undercut the flexibility and resilience of 
U.S. deterrence forces. This could reduce the credibility of U.S. 
deterrence strategies at precisely the time when their credibility 
would be crucial.

    14. Senator McCain. Dr. Foster and Dr. Payne, how important would 
it be for the United States to have timely and accurate warning that 
the Russians were preparing for, or had actually achieved, a rapid and 
large breakout of the treaty's warhead limits?
    Dr. Foster. Obviously it would be very important. The information 
from Russian civilian and military leadership provides adequate 
evidence to support on the one hand an expectation that Russia will 
seek peaceful compromises with its' neighbors, NATO and the United 
States. On the other hand, it also supports concerns that Russia will 
seek to regain dominant influence over the former states of the Soviet 
Union and that the United States is its enemy. In our efforts to 
maintain the National security of the United States and its allies, it 
is important that we make every effort to have timely and accurate 
information on potential military capabilities, including those 
associated with breakout.
    Dr. Payne. It could be critical to help prevent a Russian 
``breakout'' that could degrade the credibility of U.S. deterrence and 
assurance strategies in a crisis. Accurate warning of such a 
development could be crucial to the survivability, flexibility and 
resilience of U.S. forces necessary for credible U.S. deterrence 
strategies.

    15. Senator McCain. Dr. Foster and Dr. Payne, the Russians are 
known for their secrecy, denial, and deception in operating their 
strategic forces. Is there a potential danger that, again in a crisis, 
the United States could misinterpret some Russian strategic activities 
as breakout? If so, could that result in a series of other escalatory 
moves?
    Dr. Foster. In a crisis there is a concern that both sides can 
misinterpret the information and initiate actions that can lead to a 
series of reinforcing escalatory moves by both sides.
    Dr. Payne. The incentives for escalation in a breakout scenario are 
likely to be greater in the context of relatively low force levels. Any 
actual or seeming Russian breakout as described above could trigger an 
escalation process leading to war, particularly if it took place in the 
context of low force levels and an acute political-military crisis such 
as the 1962 Cuban Missile Crisis or the 1973 Yom Kippur War. The 
outbreak of World War I had some of these characteristics.

                          prompt global strike
    16. Senator McCain. Mr. Miller, Dr. Foster, and Dr. Payne, while 
the New START treaty does not prohibit the development and deployment 
of long-range conventional strike capabilities, it does stipulate that 
conventional warheads placed on ICBMs or submarine-launched ballistic 
missiles (SLBMs) will be counted under the overall strategic nuclear 
warhead ceiling. Do you feel we should be concerned that this treaty 
may impede the development and deployment of our future prompt global 
strike capability?
    Mr. Miller. No. I do not believe the Treaty impedes the development 
and deployment of our future prompt global strike capability. What has 
impeded that development and deployment has been the inability of 
Congress to authorize and appropriate funds for such a program. The 
United States could have a highly affordable and effective prompt 
global strike system based on the Trident II/D-5 missile deployed in 
little over 2 years if only Congress would fund it.
    Dr. Foster. Yes, it may. I think that in the future, the need for a 
prompt global strike capability and the associated number of missiles 
required will increase. But I don't see that our need for such a 
capability to require the United States to reduce the strategic nuclear 
deterrent. For the next 10 years a New START treaty could trump the 
deployment of a Prompt Global Strike capability. We need to also 
consider prompt precision strike capabilities that do not use Triad 
assets and perhaps some are deployed offshore.
    Dr. Payne. New START does limit the deployment of some conventional 
prompt global strike (CPGS) options by requiring the United States to 
reduce its nuclear forces on a 1:1 basis for each ICBM or SLBM-based 
CPGS missile. Senior U.S. military leaders have said that in general 
conventional forces should not be considered substitutes for nuclear 
weapons on a 1:1 basis or even on a 10:1 basis. Nevertheless, New 
START's 700 deployed launcher ceiling would require a 1:1 reduction of 
nuclear force launchers under that ceiling for each such CPGS launcher 
deployed. This is a concern because it constrains the numbers of what 
appears to be the quickest deployable CPGS options and because the 
United States appears not to have gained any Russian concession in 
return for limiting CPGS options in this fashion. Over the course of 
the treaty (10-15 years), the United States may have a requirement for 
many such CPGS systems, but the treaty essentially precludes the United 
States from deploying that capability beyond very small numbers.

    17. Senator McCain. Mr. Miller, Dr. Foster, and Dr. Payne, how 
could this tradeoff affect the development and deployment of our future 
prompt global strike capability?
    Mr. Miller. The projected number of required prompt global strike 
systems is quite small. The trade-off with nuclear systems under the 
treaty should not, therefore, impose any constraints on or delay to the 
fielding of a prompt global strike system. As I indicated in my answer 
to question 16, the United States could field such a system in about 2 
years time if Congress would only fund it.
    Dr. Foster. General Cartwright, Commander STRATCOM, and more 
recently as Vice-Chairman of the JCS, has supported the development of 
a Prompt Global Strike capability. The DOD requested the budgets for 
Navy and Air Force proposed programs in 2006. Congress did not support 
the requests but did authorize funds for research and technology 
development.
    The DOD continues to state the need for a PGS capability. New START 
would require a trade-off of PGS missiles against Nuclear ICBMs and 
SLBMs. Near term, trading off a few tens of the 1,550 nuclear missiles 
for an initial PGS capability may be acceptable numerically. My concern 
is that we fail to emphasize that strategic nuclear deterrence and the 
capability to provide a prompt and very local destruction of a fleeting 
target opportunity are two very different and unrelated national needs. 
The needed numbers in each case will change independent of the other. 
Any consideration of trade-off should not affect the development and 
deployment of PGS.
    Dr. Payne. This trade off denies the United States the option of 
any large number of what may be the most near-term and least costly 
CPGS options. This situation created by New START is likely to reduce 
the potential for sustainable support for the development and 
deployment of these options in favor of more distant and more expensive 
CPGS options not limited by New START.

                  department of defense modernization
    18. Senator McCain. Mr. Miller, Dr. Foster, and Dr. Payne, the NPR 
set forth a broad vision that must not be viewed outside of the realm 
of affordability. The cost alone for modernizing both the nuclear 
weapons complex and the triad are substantial, and as we move to reduce 
the size of our nuclear stockpile, this modernization effort becomes 
all the more important. Factoring in the cost of missile defense and 
prompt global strike--both essential and critical, but also costly, 
programs--the overall budget outlook seems to suggest steady the need 
for increases for the foreseeable future. What is the near-term and 
long-term affordability of implementing the NPR?
    Mr. Miller. I believe the answer to this question must await the 
publication by the Department of Defense of its plan to modernize the 
ICBM and bomber legs of the Triad.
    Dr. Foster. It is important that the administration's near-term 
focus has been on persuading Congress to fund the turn-around of the 
National nuclear enterprise and the maintenance of the nuclear 
strategic deterrent and studies on modernization of the Triad to 
maintain nuclear deterrence for the foreseeable future. A near term 
priority focus is necessary to learn of and understand the possible 
objectives, strategies, plans and programs of China which could require 
major changes in U.S. objectives, strategies, force structures and 
possibly a heavy long term financial burden.
    Dr. Payne. The $10 billion per year over 10 years apparently 
identified by the Obama administration for modernization of the U.S. 
strategic nuclear force structure is likely to be far short of what 
will be necessary for the maintenance of existing systems and even the 
most basic, essential modernization steps.

    19. Senator McCain. Mr. Miller, Dr. Foster, and Dr. Payne, how 
important is it to replace our bomber, ICBM, and air-launched cruise 
missiles?
    Mr. Miller. I believe it is critically important that the United 
States maintain a modern and effective ICBM force. I await with 
interest DoD's plan to do so. The issue of the bomber leg is more 
complicated. There is a critical need to maintain a force of 
penetrating bombers because those systems perform missions which ICBMs 
and SLBMs cannot. The need to maintain the B-52/air-launched cruise 
missile element of the bomber force is more complicated.
    Dr. Foster. There seems to be a consensus on the need to replace 
the venerable B-52 strategic bomber, air launched cruise missiles, 
ICBM, Trident submarine and its missile by 2030-40. Studies are 
currently underway to determine the appropriate characteristics.
    My sense is that we need to think about the possible surprises and 
asymmetric capabilities of adversary strategic offensive and defensive 
systems that could be deployed 20 to 30 years from now. It is important 
to maintain the unique characteristics of the present triad's, 
signaling intent, responsive command control and survivability of a 
credible deterrent, especially with reduced numbers. Future threat 
systems should be expected to provide precision targeting of fixed and 
moving targets, advanced ASW and improved ballistic missile and air 
defenses. It is important that the current studies focus on potential 
future adversary capabilities in determining the kind of capabilities 
we should develop to provide for a viable, survivable future U.S. 
nuclear deterrent. My concern is on the need to move beyond the study 
phase and develop modern replacements. This would also help the urgent 
need to sustain critical skills and technologies and production 
capabilities in our defense industrial base.
    Dr. Payne. If these legs of the triad are not modernized, beginning 
with an ICBM life-extension program and a modern air-launched cruise 
missile program, U.S. strategic forces are likely to lose much of their 
flexibility and resilience which will undermine the credibility of U.S. 
deterrence and assurance strategies. This consequence of delayed or 
aborted modernization must be understood. In addition, delay could have 
a profoundly negative effect on our already fragile industrial base to 
support strategic capabilities.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                   future nuclear weapons reductions
    20. Senator Sessions. Mr. Miller and Dr. Payne, according to the 
2010 NPR, ``The President has directed follow-on analysis to the NPR . 
. . to set goals for future U.S.-Russia reductions in nuclear weapons 
below New START levels.'' Would additional reductions in U.S. ICBMs, 
SLBMs, and heavy bombers, and their associated warheads/bombs, below 
those contained in the New START treaty be desirable?
    Mr. Miller. I have never believed that reducing nuclear weapons to 
meet specific numerical goals makes sense. If arms reduction is to be 
of value, it must strengthen strategic stability. The acid test for any 
reductions proposed below the levels of New START should be examined 
and evaluated only in that light.
    Dr. Payne. Further limits could be reasonable and desirable under 
certain conditions. For example, further nuclear reductions could be 
reasonable if the threats to which U.S. strategies of nuclear 
deterrence and assurance apply (e.g., nuclear, biological and chemical 
threats) manifestly decline, and appear unlikely to arise again. Or, 
further nuclear reductions could be reasonable if an international 
organization is established that can be relied upon to monitor 
globally, enforce international standards (e.g., strict controls on all 
WMD), prevent international conflict, and thereby provide security for 
the United States, allies and other countries. Even under these 
conditions, any further U.S. nuclear reductions should avoid further 
limits on U.S. missile defense and CPGS, and should include deep 
reductions and limitations respectively on Russian tactical nuclear 
forces and Chinese forces. The prospects are highly questionable for 
serious limits or even serious transparency measures (as opposed to fig 
leaves) on Russian tactical nuclear weapons and other possible WMD, and 
on Chinese nuclear forces and other possible WMD.

    21. Senator Sessions. Mr. Miller and Dr. Payne, what are the key 
considerations to take into account when contemplating lower U.S. 
nuclear force levels?
    Mr. Miller. The key considerations in contemplating any additional 
reductions in U.S. strategic nuclear force levels are as follows:

        <bullet> Can we maintain an adequate safe, secure, reliable and 
        credible deterrent at the proposed level?
        <bullet> Can we reassure our allies that we can continue to 
        provide a ``nuclear umbrella'' over them at the proposed level?
        <bullet> Does the proposed reduction increase or decrease 
        strategic stability?

    Dr. Payne. First is the fundamental need to maintain the 
credibility, flexibility, and resilience of U.S. forces for deterrence 
purposes. This becomes increasingly difficult as force numbers decline 
and these characteristics become even more important for U.S. forces at 
lower numbers. Another consideration is the need to assure allies and 
friends regarding the credibility, effectiveness, and reliability of 
the U.S. extended security commitments. Nuclear weapons are a critical 
element to that assurance goal for key allies, including, for example, 
Japan and South Korea.

    22. Senator Sessions. Mr. Miller and Dr. Payne, are you concerned 
that at lower levels the military will not be able to carry out its 
deterrence missions?
    Mr. Miller. This question cannot be answered until the outlines of 
any proposed additional reduction are put forward.
    Dr. Payne. U.S. deterrence missions are larger than military 
missions. Deterrence is a national mission dependent on all elements of 
U.S. power, including nuclear weapons. The military is the steward of 
these weapons that are intended to support national missions such as 
the deterrence of threats and the assurance of allies. Yes, I am 
concerned that at lower force levels U.S. nuclear forces will lack the 
flexibility, resilience, and survivability necessary to support U.S. 
national deterrence and assurance missions. Only comprehensive U.S. 
nuclear modernization programs specifically intended to maximize these 
characteristics at low U.S. force levels, would be likely to address 
this potential problem.

    23. Senator Sessions. Mr. Miller and Dr. Payne, are you concerned 
about the survivability of U.S. forces at lower levels?
    Mr. Miller. The lower the level of U.S. strategic forces, the more 
the issue of survivability comes into play. If U.S. forces are to be 
reduced in the future, the United States must resist the budgetary 
temptation to reduce the number of SSBNs. As I understand it, the 
administration's plan for SSBN-X is that it will have 16 rather than 24 
tubes: this is a step in the right direction. Similarly, the 
administration's plan, as I understand it, is to ``neuter'' in a 
verifiable manner launch tubes on the existing Ohio SSBNs rather than 
cut the number of SSBNs in the force; this, again, is a strategically 
wise move.
    Dr. Payne. Yes. The problem is that New START reduces the number of 
U.S. launchers significantly, but places no limits on Russia's MIRVed 
ICBM payloads and only very porous limits on the number of deployed 
warheads. This combination is ripe for increasing the vulnerability of 
U.S. strategic forces unless the United States simultaneously 
undertakes a modernization program designed to preserve force 
survivability at low launcher numbers. That was not a requirement with 
the existing legacy Cold War-era systems and would be a new design 
requirement.

    24. Senator Sessions. Mr. Miller and Dr. Payne, doesn't detecting 
cheating, i.e. strong verification, become more important at the lower 
levels imposed by New START?
    Mr. Miller. Yes.
    Dr. Payne. Yes. At New START's lower force levels cheating could 
threaten the survivability, flexibility, and resilience of U.S. 
forces--particularly if those forces are not modernized specifically to 
preserve those characteristics at low force levels. The 
administration's apparent claim that Russian cheating could not be of 
strategic significance because it could not threaten a U.S. ``assured 
second strike capability'' is a non-sequitur because the standard of 
adequacy for U.S. forces for deterrence and assurance purposes is not 
simply an assured second strike capability. U.S. force survivability, 
flexibility, and resilience are important force characteristics for 
credible deterrence and assurance, and those characteristics could be 
jeopardized by cheating, by a rapid ``break-out'' from the treaty, or 
simply by the covert exploitation of the treaty's many loopholes.

    25. Senator Sessions. Mr. Miller and Dr. Payne, are you concerned 
that other countries may view lower U.S. force levels as an opportunity 
to gain parity with the United States in nuclear capability?
    Mr. Miller. I do not believe that if the New START treaty is 
ratified, and the United States moves to the 700/1,550 limits that any 
third country would view this is an opportunity to gain parity.
    Dr. Payne. Yes. The potential for U.S. reductions to serve as an 
inducement for greater Chinese nuclear efforts is a reasonable concern 
under two plausible conditions: if the United States does not modernize 
its nuclear forces as is possible under New START, and/or if, as the 
administration emphasizes, New START is only the first step in a 
transition to deeper reductions that could be such an inducement for 
China. Russian open sources express precisely this concern vis-a-vis 
China. It should be noted that China is likely to continue the 
expansion and modernization of its nuclear forces with or without New 
START. In addition, the loopholes in New START's ceilings on launchers 
and warheads give the United States the option of retaining several 
thousand nuclear warheads under the terms of the treaty-a level that 
would be unlikely to induce greater-than-normal Chinese nuclear 
efforts.

    26. Senator Sessions. Mr. Miller and Dr. Payne, are you concerned 
that at lower levels of U.S. forces, our allies may come to doubt the 
credibility of U.S. nuclear security guarantees--especially if the 
Russians maintain large numbers of tactical nuclear weapons?
    Mr. Miller. I do not believe that our allies and friends will have 
any reason to doubt the credibility of U.S. nuclear security guarantees 
at the 700/1,550 New START limits. I do believe, however, that Russia's 
stockpile of short-range nuclear weapons vastly exceeds any reasonable 
political or military requirements and that Russia should be convinced 
to carry out dramatic reductions of those weapons. My views on this are 
captured in the article I co-authored in February 2010 with former NATO 
Secretary General Lord Robertson and Dr. Kori Schake ``Germany Opens 
Pandora's Box.''.
    Dr. Payne. Yes. This is a serious concern as evidenced by numerous 
allied comments along precisely these lines. Allied doubts about the 
credibility of U.S. security commitments could undermine alliance 
relations and encourage nuclear proliferation among some allies and 
friends. Again, dedicated U.S. nuclear force modernization and the 
development and deployment of other strategic force programs, including 
missile defense and advanced conventional strategic forces, could help 
to ameliorate this problem.

                     nuclear weapons complex budget
    27. Senator Sessions. Dr. Foster, the administration's budget plan 
for NNSA stockpile and infrastructure costs is rather flat in fiscal 
years 2012 and 2013. According to the 1251 report, ``the plan to `ramp 
up' investment over time reflects the reality that the complex is 
constrained in its ability to rapidly absorb new funding.'' Do you 
agree with the administration's assessment that the nuclear weapons 
complex cannot absorb funding increases over the next few years?
    Dr. Foster. I do not agree with that assessment. It is my 
understanding that more funds are needed than are in the fiscal year 
2010-2013 budgets for such programs as the backlogged surveillance 
programs, the delayed actions to correct SFI's, the delayed initiation 
of the B-61 Life Extension work, initiation of dual revalidation, 
conduct of more laboratory experiments and tests on DHART, NIF, Z-
Machine NTS, etc. Efforts were made to reduce the funds requested by 
the labs and plants but I do not know details of a process that found 
that the complex cannot absorb funding increases over the fiscal year 
2011-2013 budgets.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                       nuclear delivery vehicles
    28. Senator Thune. Mr. Miller and Dr. Payne, press reports indicate 
the administration will invest $100 billion over the next decade in 
nuclear delivery systems. About $30 billion of this total will go 
toward development and acquisition of a new strategic submarine. 
According to estimates by U.S. Strategic Command (STRATCOM), the cost 
of maintaining our current dedicated nuclear forces is approximately 
$5.6 billion per year or $56 billion over the decade. This leaves 
roughly $14 billion of the $100 billion the administration intends to 
invest--even less if you factor in inflation. This $14 billion is not 
nearly sufficient to develop and acquire a next generation bomber, a 
follow-on ICBM, a follow-on air launched cruise missile, and develop a 
CPGS capability. In light of these figures, do you think that $100 
billion is a sufficient investment in our delivery systems over the 
next decade? If so, why?
    Mr. Miller. I do not have the necessary detailed visibility into 
the DOD budget to provide an answer to this.
    Dr. Payne. Given these numbers, there is no doubt that the amount 
identified is far short of that required to modernize U.S. strategic 
forces as necessary to support credible strategies for deterrence and 
assurance.

    29. Senator Thune. Mr. Miller and Dr. Payne, with the aging of the 
ICBM and with current bombers becoming less and less survivable, how is 
$14 billion enough to replace two thirds of our triad?
    Mr. Miller. I do not have the necessary detailed visibility into 
the DOD budget to provide an answer to this.
    Dr. Payne. $14 billion over a 10-year period would be insufficient 
to modernize each leg of the triad. In the very near-term, 
modernization would require, at a minimum, a life-extension program for 
the Minuteman ICBM and the development and deployment of a new air-
launched cruise missile for the bomber force. It should be noted in 
this regard that the 2009 report of the bipartisan Congressional 
Strategic Posture Commission included unanimous agreement that the 
United States should maintain the strategic triad.

    30. Senator Thune. Mr. Miller and Dr. Payne, during testimony 
before this committee last July, General Cartwright expressed the view 
that he would be very concerned about the viability of the triad if we 
got below 800 deployed delivery vehicles. The New START treaty 
establishes a level of 700 deployed strategic delivery vehicles. I note 
that General Cartwright stated this concern after the NPR team had 
already conducted detailed analysis in the spring of 2009 to determine 
negotiating positions in the New START treaty on an appropriate limit 
on strategic delivery vehicles. Why should we not be concerned, given 
that this number is 100 below General Cartwright's comfort level?
    Mr. Miller. As one who has spent many years directing on U.S. 
nuclear deterrence policy, my own view is that the force structure the 
United States is able to field a credible, survivable, and robust 
deterrent under the 700 deployed strategic delivery vehicles limit. I 
do not believe General Cartwright and I disagree on this. My 
understanding is that General Cartwright believes that the Treaty is in 
the security interests of the United States.
    Dr. Payne. New START's reduction of U.S. deployed strategic 
launchers to 700 launchers is the treaty's most significant force 
limitation. Achieving a strict limitation on U.S. launchers was, 
according to the Russian press, the priority goal for Russian 
negotiators. The number of Russian deployed launchers already is below 
700, and according to numerous open Russian press reports, with or 
without New START the number of accountable deployed Russian launchers 
will continue to decline and will remain below 700 for the foreseeable 
future. Consequently, New START's launcher limit essentially is of 
consequence only for the United States. In addition, to the extent that 
the United States deploys conventional PGS based on ICBMs or SLBMs, the 
number of launchers available for U.S. strategic nuclear forces will be 
reduced on a 1:1 basis. So, in reality, the number of deployed nuclear 
launchers possible under New START will be below 700 with the 
deployment of such conventional PGS.
    We should be concerned about this ceiling on U.S. launchers because 
the number of available launchers is one of the primary factors 
determining the flexibility, survivability, and resilience of U.S. 
strategic forces, and thus their credibility for deterrence and 
assurance. I concur with General Cartwright's apparent initial view 
that the United States should not agree to the reduction of launchers 
available for U.S. deployed strategic nuclear forces below 800. And, 
that number should not be reduced further by the U.S. deployment of 
conventional PGS. A ceiling of 800 actual deployed strategic nuclear 
launchers would allow room for a reasonable level of flexibility and 
resilience in the deployment of the U.S. triad. Why the United States 
accepted an actual number for deployed nuclear launchers well below 800 
(and below 700 if counting possible U.S. PGS deployment) when the 
Russian number of launchers already was headed down far below 800 with 
or without New START appears to be inexplicable. This situation is 
particularly troubling in the absence of any apparent administration 
commitment to comprehensive modernization of the triad.

    31. Senator Thune. Mr. Miller and Dr. Payne, if the former 
Commander of STRATCOM is concerned about reducing our delivery vehicles 
below 800, shouldn't we be concerned as well?
    Mr. Miller. Please see my answer to question 30.
    Dr. Payne. Yes. That concern could be ameliorated to the extent 
that the administration commits to a comprehensive strategic nuclear 
modernization program designed to maximize strategic force flexibility, 
survivability, and resilience at low force numbers. Modernization would 
also help sustain important industrial capabilities in the United 
States.

    32. Senator Thune. Mr. Miller and Dr. Payne, what do you believe 
were the assumptions going into the START negotiations that drove our 
level of acceptance to reduce to these numbers?
    Mr. Miller. Negotiated outcomes are a complex result of many 
factors. I would direct your question to the administration since I did 
not participate in the negotiations of advise the negotiating team.
    Dr. Payne. In open testimony, senior military leaders have 
identified assumptions behind the analysis that apparently allowed the 
acceptance of New START numbers:

    1.  Russia would comply with New START limits;
    2.  there would be no requirement for an increase in U.S. forces; 
and,
    3.  U.S. planning guidance would remain the same.

    These are extremely optimistic assumptions. For example, the 
assumption that Russia will comply with treaty obligations is not 
supported by past Russian or earlier Soviet behavior.

               1251 report and force structure reductions
    33. Senator Thune. Mr. Miller and Dr. Payne, the 1251 report 
provides a very troubling lack of specificity concerning force 
structure. Specifically, the administration's fact sheet on the section 
1251 report explains that the U.S. nuclear force structure under the 
New START could comprise up to 420 ICBMs, 240 SLBMs, and 60 bombers. 
Since deployments at the maximum level of all three legs of the triad 
under that explanation add up to 720 delivery vehicles, it is 
mathematically impossible for the United States to make such a 
deployment and be in compliance with the treaty's limit of 700 deployed 
strategic nuclear delivery vehicles. Clearly, additional reduction 
decisions need to be made with respect to U.S. force structure under 
this treaty.
    In your expert opinion, how do you think Russia will establish 
their force structure and based on that, where do you foresee the 
additional reductions will come from in order to get to the 700 total 
deployed delivery vehicles that we are limited to by this treaty?
    Mr. Miller. I believe that the Russian strategic force under New 
START will be ICBM-heavy, with many of those ICBMs MIRVed. The Russians 
are seeking to produce as much force for as little spending as 
possible. Our own forces, however, need to be structured to meet our 
requirements, not anyone else's. Those requirements include 
survivability, credibility, and robustness. I believe the answer to the 
question as to where the postulated reduction of 20 deployed delivery 
vehicles will occur is that they will be taken from either the ICBM leg 
or the bomber leg. This depends, in turn, on the administration's 
decisions on the future of the B-52/ALCM element of the bomber leg of 
the Triad.
    Dr. Payne. Based on my reading of open Russian analyses of Russian 
forces, I expect that for the next decade Russia will have no more than 
500 accountable deployed strategic launchers--at least 200 below the 
New START ceiling. Russian numbers could improve if energy prices 
increase greatly and provide Russia with windfall resources to boost 
spending on strategic forces (Russian military leaders have stated 
openly that strategic nuclear force modernization is Russia's highest 
defense priority). At relatively low launcher numbers, Russia will take 
advantage of New START's lack of restrictions on MIRVing and MIRVed 
payloads, and will slowly introduce new, heavily MIRVed ICBMs and SLBMs 
into its arsenal. Russia also is likely to take advantage of New 
START's permissive warhead counting rule for bomber weapons. As a 
result, I expect Russia to have 2000 or more actual strategic warheads 
under the Treaty on fewer than 500 accountable launchers. If Russia 
cheats and has the necessary resources, the number of warheads could be 
much higher.

    34. Senator Thune. Mr. Miller and Dr. Payne, with the New START's 
limitations going into effect within 7 years, at what point do we need 
to begin making the changes necessary to comply with this treaty?
    Mr. Miller. I no longer am sufficiently familiar with the specific 
timelines involved and so I cannot provide a useful answer to this 
question.
    Dr. Payne. We probably would need to begin within 3-4 years, 
although the administration could begin the reductions more quickly if 
it chose to do so.

    35. Senator Thune. Mr. Miller and Dr. Payne, will we know what the 
Russia force structure will be by that point, in your judgment?
    Mr. Miller. No.
    Dr. Payne. We can anticipate some features of the Russian force 
structure 7 years out based wholly on open Russian sources-with the 
understanding that some variation is inevitable. The Russian force 
structure will likely be characterized by a relatively low number of 
accountable ICBM, SLBM and strategic bombers (i.e., strategic 
launchers) because during this period Russia will continue deactivating 
its old Cold War strategic launchers more rapidly than it replaces them 
with new systems. Consequently, the number of Russian strategic 
launchers accountable under New START will continue to decline well 
below the New START ceiling with or without the treaty. The number of 
Russian deployed strategic launchers in this timeframe will probably be 
fewer than 500 accountable launchers (again, based on Russian open 
sources), including new ICBMs and SLBMs that are MIRVed. In addition, 
according to open Russian sources, Russian forces are likely to include 
new long-range air-launched cruise missiles (which would be accountable 
under New START as a single weapon per bomber regardless of how many 
might be deployed on each bomber), and also a new long-range sea-
launched cruise missile that probably will not be accountable under New 
START. Given New START's counting rules, the actual number of deployed 
Russian warheads could be well above the treaty's 1,550 ceiling under 
the terms of the treaty.

    36. Senator Thune. Mr. Miller and Dr. Payne, how important is it to 
replace our bomber, ICBM, and air-launched cruise missile force?
    Mr. Miller. As I indicated in my response to question 19: ``I 
believe it is critically important that the United States maintain a 
modern and effective ICBM force. I await with interest DOD's plan to do 
so. The issue of the bomber leg is more complicated. There is a 
critical need to maintain a force of penetrating bombers because those 
systems perform missions which ICBMs and SLBMs cannot. The need to 
maintain the B-52/air-launched cruise missile element of the bomber 
force is more complicated.''
    Dr. Payne. It is critical for credible deterrence and assurance 
purposes. This is true with or without the treaty. With the treaty and 
any further nuclear reductions, however, it will be essential to 
modernize the smaller arsenal to maximize its survivability, 
flexibility, and resilience at low force numbers. The earliest need is 
for a Minuteman LEP and the development of a new air-launched cruise 
missile. The existing cruise missile is approximately 25 years old and 
a modern replacement must be a priority.

    37. Senator Thune. Mr. Miller and Dr. Payne, Senators are in a 
precarious situation, being asked to provide advice and consent before 
obtaining a commitment to follow-on delivery systems. What if these 
systems were not to be replaced? How would this impact U.S. security 
under New START?
    Mr. Miller. I believe it is critically important to our security 
and that of our allies that the United States maintain a deterrent 
based on a modernized Triad of SLBMs/SSBNs, ICBMs, and bombers.
    Dr. Payne. In the absence of a much more benign international 
threat environment, if these systems are not replaced the capacity of 
U.S. forces to support critical national deterrence and assurance goals 
will erode; the continued lack of modernization would eventually create 
a very dangerous context for the United States and allies. It would 
increase the probability of attacks on the United States and allies, 
undermine key U.S. alliances, and lead to greater incentives for 
nuclear proliferation.

                   survivability of the bomber force
    38. Senator Thune. Mr. Miller and Dr. Payne, according to the most 
recent briefs I have seen, DOD expects the current nuclear bomber force 
to remain in service through 2040. Thirty more years is a long time for 
a bomber that was built 50 years ago. Proponents of this plan say they 
can last that long with upgrades. However, physically remaining in 
service is significantly different than remaining survivable in a 
future high threat combat scenario. Since the NPR recognizes the need 
for a triad, and since the treaty is only for a 10-year period, how do 
you think this treaty will affect any plans to build a replacement 
bomber?
    Mr. Miller. The treaty should not--and does not--affect our plans 
to build a replacement bomber. That decision should be made on the 
basis of the contribution of such a replacement bomber to the viability 
and credibility of our deterrent.
    Dr. Payne. This treaty should encourage the development and 
deployment of a new strategic bomber given the inherent flexibility 
offered by bombers and the precedent the treaty sets for extremely 
permissive counting rules for bomber weapons. Whether the 
administration will take advantage of this element of New START remains 
an open question. Russia already has announced its plans to build at 
least one new strategic bomber. The modernization of the U.S. air-
launched cruise missile probably is as important as are modernization 
plans for a new bomber itself. In a heavy air defense environment, a 
new long-range air-launched cruise missile will contribute to the 
continuing credibility of strategic bombers. Consequently, 
modernization of the bomber leg of the triad needs to be seen in terms 
of bomber and cruise missile modernization.

    39. Senator Thune. Mr. Miller and Dr. Payne, my understanding is 
that an ICBM-based prompt global strike platform would be counted 
against the 700 deployed delivery vehicles. If we decide to develop 
that system, which of the three legs of the triad, in your opinion, 
should be or would be further reduced to accommodate it?
    Mr. Miller. My understanding is that the number of prompt global 
strike systems needed to meet U.S. national security requirements is 
fairly small. I favor an SLBM-based system. The administration is also 
looking at an ICBM-like option. In either case, deploying a small 
number of prompt global strike systems should be compensated for under 
the treaty by retiring an equivalent number of ``like'' systems, that 
is, SLBMs in the event of a sea-based deployment or ICBMs in the event 
of a land-based deployment.
    Dr. Payne. Developing and deploying CPGS weapons on ballistic 
missiles (ICBMs and SLBMs) would be the most timely option for fielding 
such a capability. However, given the treaty's limits on CPGS, my 
recommendation would be to pursue a CPGS system that is not accountable 
under New START and to keep the number of treaty-accountable CPGS low, 
i.e., no more than 25-35. Each leg of the triad could be reduced by 
some fraction of that number. The goal of this approach would be to do 
the least damage possible to the integrity of the triad as a whole.

               conflicting messages to the nuclear force
    40. Senator Thune. Mr. Miller, Dr. Foster, and Dr. Payne, in an 
effort to build up the nuclear enterprise, the Air Force recently 
accomplished an extensive restructuring which included, among other 
things, adding a new Global Strike Command, adding an additional B-52 
nuclear capable bomber squadron, and multiple changes to procedures and 
testing. This was all part of a tremendous and ongoing effort to 
reinvigorate the nuclear enterprise. However, by ratifying the New 
START it would seem we are providing conflicting guidance to our 
nuclear forces and telling them we want to draw down and scale back the 
nuclear mission. For example, the New START would specifically reverse 
the directions the Air Force was just given to build up the B-52 
nuclear capability by cutting the number of nuclear capable B-52s.
    Are you at all worried that the reduction in force structure that 
the New START establishes, will undercut the Air Force's improved 
emphasis on the nuclear mission, especially now that the Air Force has 
made great strides toward fixing the problems it had a few years ago?
    Mr. Miller. I am not worried. I believe the question sets up a 
false premise. Air Force nuclear units exist to serve national 
requirements; the reverse is not true.
    As a member of the Secretary of Defense Task Force on DOD Nuclear 
Weapons Management (``the Schlesinger Task Force''), I was in the 
forefront of calling for increased Air Force attention to its nuclear 
role. I strongly believe the Air Force has made great improvements in 
its nuclear force management and that Air Force personnel involved in 
the nuclear mission area understand the critical importance of their 
jobs. Whatever Air Force nuclear force structure emerges from the 
administration's plans and Congress' approval of those plans, airmen 
will continue to serve in nuclear roles in the ICBM force and in the 
bomber force. They will be expected by their leadership to perform to 
the highest professional standards.
    Dr. Foster. The Air Force's refocused effort to maintain a nuclear 
deterrent for the foreseeable future is very important. It will require 
a couple of decades just to rebuild the career paths and capabilities 
in all aspects of nuclear deterrence. The numbers of delivery vehicles 
and warheads must change in response to the needs of national security.
    I am not particularly worried by the changes that would be required 
by New START because I believe the current DOD and Air Force leadership 
are fully committed and will sustain the recovery near term. Longer 
term, it will be important to guard against budget pressures and other 
national priorities that could again degrade nuclear deterrence. The 
Air Force will need, of course, the support of Congress in order to be 
successful.
    Dr. Payne. Yes. The potential negative political effect of New 
START on the needed revitalization and modernization of U.S. strategic 
programs, including missile defense, is a great concern. Arms control 
agreements in the past have had a powerfully negative political effect 
on subsequent U.S. programs not technically limited by treaty. This 
tendency in the U.S. political system may now be stronger because this 
administration has emphasized that New START is a transitional 
agreement toward further reductions and the ultimate goal of nuclear 
zero, and that movement in this direction is this administration's top 
nuclear policy goal. The actual prospects for another strategic force 
agreement and nuclear zero are limited and infinitesimal respectively. 
Nevertheless, given the administration's stated top priority goals in 
this regard, the necessary revitalization and modernization programs 
will be seen by many as inconsistent with the priority direction of 
U.S. policy. It will be difficult to maintain this internal 
inconsistency in the likely context of defense budget austerity.

    41. Senator Thune. Mr. Miller, Dr. Foster, and Dr. Payne, how will 
these reductions affect our long-term recruiting and retention efforts 
at our labs?
    Mr. Miller. The national requirement to maintain safe, secure and 
reliable nuclear weapons will exist irrespective of any arms reduction 
agreement. If Congress fully funds the administration's request to 
modernize the DOE nuclear weapons complex I believe recruiting and 
retention will meet the nation's needs.
    Dr. Foster. The reductions that would be required specifically by 
New START will not directly affect the work scope required at the 
Laboratories; their work scope is principally determined by the need to 
refurbish the currently deployed systems and not by the number of 
warheads. However, the reduction in the numbers of weapons coupled with 
the President's goal of a ``nuclear zero'' could affect the long-term 
recruiting and retention efforts of the laboratories' nuclear warhead 
programs by creating the perception that maintaining the health of the 
nuclear weapons program is not a national priority. The New START 
treaty could stimulate the laboratories ability to attract new 
personnel and enlarge programs to support the monitoring, inspections 
and the provision of associated capabilities.
    Dr. Payne. I would like to defer to Dr. Foster on all questions 
regarding recruitment, careers, retirement and expertise at the 
National laboratories. Dr. Foster has unparalleled experience and 
knowledge regarding these questions.

           recruitment and retirement issues within the labs
    42. Senator Thune. Dr. Foster and Dr. Payne, 2 weeks ago, Dr. 
Anastasio, Director of the Los Alamos Lab, stated in his testimony that 
the average age of career lab employees is now over 48 years old and 
that 32 percent of all career employees are expected to retire within 
the next 5 years. In addition, General Kevin Chilton, the current head 
of STRATCOM, said 2 years ago that ``the last nuclear design engineer 
to participate in the development and testing of a new nuclear weapon 
is scheduled to retire in the next 5 years.'' Does this cause you some 
concern? Why or why not?
    Dr. Foster. Yes. I am concerned about the lack of programs at the 
design laboratories to provide engineering/production design-related 
challenges and experience to the next generation of warhead designers 
and engineers. The nuclear laboratory directors have been increasingly 
concerned over the last 20 years because college graduates have become 
less attracted to a career in nuclear weapons. A more immediate concern 
relates to General Chilton's observation that few scientists and 
engineers remain who have had nuclear warhead design, engineering, 
production and nuclear test experience. To properly train those that 
have not had that experience would require that they, in integrated 
teams, design, engineer, prototype and flight test one or two different 
kinds of warheads in the immediate future. But Congress has rejected 
such activity often because it could lead to a ``new'' warhead, a new 
military capability which some asserted could provide an additional 
reason for non-nuclear nations to proliferate. While the United States 
is the only nuclear nation with such self-imposed restrictions, it has 
prevented the United States from providing the best opportunity to 
train and develop competence and proficiency in the teams responsible 
for maintaining our nuclear warheads.
    Dr. Payne. I would like to defer to Dr. Foster on all questions 
regarding recruitment, careers, retirement and expertise at the 
national laboratories. Dr. Foster has unparalleled experience and 
knowledge regarding these questions.

    43. Senator Thune. Dr. Foster and Dr. Payne, what are we doing 
under the current limitations of experimenting and testing in order to 
preserve nuclear design expertise?
    Dr. Foster. Current design, engineering production and testing and 
experimentation on the newly built facililties has been limited, 
particularly in the last 5 years by congressional restrictions on 
design-related programs and successive reductions in weapons funds 
available to the laboratory and plants. The Future Years Defense 
Program (FYDP) 2011-16 budgets, particularly if appropriations are 
increased would make major changes in the whole nuclear enterprise.
    The best remaining opportunity to train the laboratory and plant 
teams of scientists, engineers and plant personnel is to undertake 
aggressive and competitive revalidations of the warheads that are 
overdue for Life Extensions.
    Dr. Payne. I would like to defer to Dr. Foster on all questions 
regarding recruitment, careers, retirement and expertise at the 
national laboratories. Dr. Foster has unparalleled experience and 
knowledge regarding these questions.

    44. Senator Thune. Dr. Foster and Dr. Payne, can you describe the 
relationship between the limitations placed on continuing to pursue 
scientific advances and our ability to recruit younger individuals to 
pursue this type of career?
    Dr. Foster. The ability to recruit younger individuals to pursue a 
career particularly in nuclear warheads is limited by their perception 
from the following situation:

        <bullet> Nuclear testing has not been permitted for 18 years.
        <bullet> The recent U.S. policy goal to take concrete steps to 
        a global nuclear zero
        <bullet> The nuclear weapons inventory and associated funds 
        have generally been reduced over the last 20 years.
        <bullet> Creative challenges, such as developing new types of 
        nuclear designs have been blocked by Congress.
        <bullet> Funding limitations have restricted the number of 
        experiments that can be performed on the newly constructed and 
        existing facilities.
        <bullet> Currently, there is a priority focus on security 
        safety, procedures and oversight. This is important work, but 
        may not be attractive to the best young talent. Nevertheless 
        younger people would be attracted to work at the Laboratories 
        if the unique facilities in computers, DHART, MESA, the Z-
        Machine and the more creative opportunities in ``Work'' for 
        others are available to them.
    Dr. Payne. I would like to defer to Dr. Foster on all questions 
regarding recruitment, careers, retirement and expertise at the 
National laboratories. Dr. Foster has unparalleled experience and 
knowledge regarding these questions.

    45. Senator Thune. Dr. Foster and Dr. Payne, what impact will these 
near-term retirements have on the knowledge level required to certify 
the reliability of nuclear weapons?
    Dr. Foster. Near term the performing teams will not be receiving 
the training and experience they need before the more experienced 
leaders retire. The backlog of warhead surveillance does not provide 
confidence that we have a thorough current understanding of some of the 
potential failure modes and unacceptable aging of components. Even the 
Significant Findings Investigations mandatory corrections are behind 
schedule. Recent funding restrictions have reduced laboratory 
experiments and tests and delayed the introduction of plant equipment 
to improve inspections and efficiency.
    These are the kinds of things that limit the knowledge that 
laboratory directors need to assess and certify the stockpile.
    Dr. Payne. I would like to defer to Dr. Foster on all questions 
regarding recruitment, careers, retirement and expertise at the 
National laboratories. Dr. Foster has unparalleled experience and 
knowledge regarding these questions.

                         certification process
    46. Senator Thune. Dr. Foster, all nuclear weapons are certified to 
meet a standard of weapon reliability. According to DOE, this is 
defined as ``the probability of achieving the specified yield, at the 
target, across the stockpile-to-target sequence of environments, 
throughout the weapon's lifetime, assuming proper inputs.'' According 
to the Government Accountability Office, this is done at our National 
laboratories using a methodology that combines both the margins and 
uncertainties and statistical data to predict the reliability of our 
weapons. Can you describe the challenges and risks associated with the 
current process to certify the reliability of our nuclear stockpile 
since we aren't testing anymore?
    Dr. Foster. Since we aren't performing nuclear testing, we are 
running risks. Based on our experience and current knowledge we can 
judge that the stockpile is safe and reliable. But we don't know that 
it is because we can't prove it through a full-scale integrated test. 
The best we can do is to follow the methodology referred to by the 
Government Accountability Office. All of the nuclear laboratories are 
now using the quantification of margins and uncertainties and that 
process has led to important research, findings and increased 
confidence. In the absence of nuclear testing--which demonstrated that 
nuclear warheads would or would not function properly--the new 
challenge is to demonstrate the absence of all problems which could 
cause warheads to not operate properly and why. This is a very 
difficult challenge.
    Two areas, in my view, need more focus and priority. The first is a 
major effort to use the few remaining leaders who have experienced the 
design, engineering, production nuclear and flight testing to train 
those who have not had that experience. The best available opportunity 
is to accelerate the overdue LEPs. The planned Stockpile Stewardship 
Program would require, for each LEP, a competitive revalidation process 
to be used in extending stockpile lives. Additional funds will be 
needed to permit acceleration of that process.
    The second area is to provide more statistical data to provide 
information on the condition of each warhead type and components in the 
stockpile as well as those in storage. During the last 5 years 
reductions in available funding has reduced the number of programmed 
warhead surveillance operations, reduced the effort on ``mandatory'' 
fixes, reduced laboratory experiments and tests, etc. As a result, the 
laboratory directors lack the statistical information and knowledge 
they planned to have in order to assess the reliability and safety of 
the stockpile
    The 2011-2016 FYDP will help to reverse recent trends, but there is 
serious concern that more funds are necessary.

    47. Senator Thune. Dr. Foster, how will the risk levels or the 
process change with reduced overall numbers of weapons, the emphasis on 
used or refurbished parts and the increasingly distant amount of time 
since our last test?
    Dr. Foster. We know that without nuclear testing we are already 
running some risks. For more than 50 years the Stockpile Surveillance 
Program has found potential failure modes, more than 90 percent were 
due to non-nuclear components, and mandatory fixes were performed. But 
during the last 5 years of reduced funding the warhead surveillance 
program has been curtailed as have other parts of the Stockpile 
Surveillance Program which has increased the risks. When we had 
thousands of nuclear warheads and tens of different types, such risks 
may have been judged acceptable but as the number of deployed warheads 
and types are reduced, the risks grow. For that reason, it is very 
important to adequately fund warhead inspections and laboratory testing 
of component development and production articles.
    The use of used and refurbished non-nuclear parts is acceptable 
provided we have performed statistically significant tests-to-failure 
determined quantitative margins of uncertainty and have a more rigorous 
inspection process. If we do not have enough used parts for adequate 
tests, the additional risks may not be acceptable.
    The risks associated with increasingly distant time since the last 
warhead test of each type is a complex matter. But, in my view, the 
dominante factor is the dedication and training of the scientists, 
engineers and production personnel to develop competence and 
proficiency in maintaining the nuclear stockpile. Recent studies have 
found that the situation must be improved, and it can be.

    48. Senator Thune. Dr. Foster, does using refurbished or reusable 
parts affect, in any way, your calculations on reliability of the 
warhead and service life estimates?
    Dr. Foster. The use of refurbished or reuseable nuclear parts could 
change estimates of the reliability and service life. The option to use 
nuclear components from other warheads of the same type after careful 
inspection is, to me, acceptable. The option to use a nuclear component 
or assembly based on previously tested designs but not stockpiled has 
not yet been subjected to a competitive review by the nuclear design 
labs. If, after a competitive laboratory review of all options the 
nuclear replacement option were chosen, I feel that on technical 
grounds that option should be accepted.

    49. Senator Thune. Dr. Foster, wouldn't there be increased risk in 
their reliability if using used parts?
    Dr. Foster. Because there could be increased risks in using used 
nuclear parts, the laboratories make every effort to understand and 
minimize those risks. Of course, it is the risks that they don't know 
about, if any, that are not addressed and are always a lingering 
concern. The best we can do is to incentivize competitive teams to 
discover such risks and be given the commitment to support efforts to 
run such discoveries to ground.

    [Whereupon, at 11:33 a.m., the committee adjourned.]


   CONTINUE TO RECEIVE TESTIMONY ON THE NEW STRATEGIC ARMS REDUCTION 
                                 TREATY

                              ----------                              


                        THURSDAY, JULY 29, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Udall, Hagan, Bingaman, McCain, Inhofe, Sessions, Chambliss, 
and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Richard W. Fieldhouse, professional staff member.
    Minority staff members present: Christian D. Brose, 
professional staff member; Daniel A. Lerner, professional staff 
member; and David M. Morriss, minority counsel.
    Staff assistants present: Paul J. Hubbard, Hannah I. Lloyd, 
and Brian F. Sebold.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Roger 
Pena, assistant to Senator Hagan; Jonathan Epstein, assistant 
to Senator Bingaman; Anthony Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Clyde Taylor IV, assistant to Senator Chambliss; and 
Jason Van Beek, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, we are continuing the Armed Services Committee 
hearings on the New Strategic Arms Reduction Treaty (START). 
Our witnesses this morning are Rose Gottemoeller, Assistant 
Secretary of State for Verification, Compliance, and 
Implementation, and the lead negotiator on the New START 
treaty, and Dr. Edward Warner, the Secretary of Defense's 
representative to the New START treaty talks.
    We will also, as I mentioned at our hearing on Tuesday, be 
having a classified briefing on the U.S. strategic force 
structure options today at 3 p.m.
    Ms. Gottemoeller, it is a pleasure to have you back before 
the committee. Several times over the course of the 
negotiations on the New START treaty, you provided the 
committee and other Senators with detailed progress reports on 
the negotiations. Those were very helpful. We thank you for 
doing those.
    Dr. Warner, it is good to see you again as well. I note 
that you often accompanied Ms. Gottemoeller when she gave us 
those progress reports, and we are grateful to both of you for 
your service in this very demanding work that you were engaged 
in and are engaged in.
    The committee has now heard from witnesses discussing the 
scope of the treaty and how it will be implemented, with 
representatives from the executive branch including Secretary 
of State Clinton; Secretary of Defense Gates; Secretary of 
Energy Chu; and Admiral Mullen, Chairman of the Joint Chiefs. 
We have also heard from a panel of independent analysts who 
shared their views and opinions on the New START treaty.
    As a result of these discussions, I think there are a 
number of areas of interest or concern that have been 
identified, and among them are the following: whether the 
treaty has any negative effect on missile defense programs, the 
adequacy of telemetry and verification, adequacy of onsite 
inspections, what would make it more likely that we could get 
Russia to begin negotiations on tactical nuclear weapons--
ratification or rejection of the treaty; what would be more 
helpful in terms of getting Russia, again, to do something that 
I guess many administrations have supported, which is an 
agreement on tactical nuclear weapons?
    Another issue which has been raised is the question of 
possible cheating. In that question, the subquestions, what is 
the ability to detect possible cheating, its effect if it 
occurs, and what remedies are there if it takes place? Those 
are issues which we have explored with other witnesses, but 
these witnesses may have some thoughts on that.
    Also, the adequacy of modernization of the nuclear complex 
and the force structure, which, again, are issues which have 
been raised, and perhaps these witnesses are not the right 
witnesses for those issues, but we have raised those with a 
number of our other panelists.
    Ms. Gottemoeller and Dr. Warner, we look forward to a good 
discussion. I turn this over to Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I thank our witnesses for their service and for joining us 
today.
    We have with us today, as the chairman said, the leaders of 
our negotiating team for the New START treaty. We thank them 
for the many hours they spent in negotiating this treaty with 
the Russian government.
    Thus far, this committee has received testimony from many 
administration officials and, most recently, from a panel of 
outside experts. Nonetheless, some serious questions still 
remain about this treaty, specifically on the New START 
treaty's methods of verification, its potential constraints on 
our ballistic missile defense, and the accompanying plan for 
modernization of both the nuclear stockpile and our nuclear 
delivery vehicles.
    I believe that before this committee will be in a position 
to provide its views, a number of significant issues require 
clarification from the administration. Aside from the hundreds 
of questions for the record that remain unanswered, we have yet 
to receive critical documents necessary for this committee and 
the full Senate to make an informed judgment of this treaty.
    Today is an important opportunity to discuss these concerns 
directly with the men and women who negotiated this treaty with 
Russian officials. It is an opportunity to try to learn why the 
administration chose to limit this treaty only to strategic 
nuclear arms reductions, despite the fact that Russia's 
tactical nuclear weapons outnumber the U.S. arsenal by a factor 
of 10 to 1 and despite the fact that there was no binding 
requirement to limit the negotiations to strategic weapons 
after the administration chose not to renew the original START 
treaty.
    Did we receive any benefits from the Russians in return for 
this U.S. concession, or any assurances that Russia will commit 
to reduce its tactical nuclear arms in future?
    This hearing is also an opportunity to try to learn why our 
negotiators agreed to a significantly weaker verification 
regime than that of the original START treaty it is to replace. 
So weak, in fact, that the potential for cheating is 
significant, though the Department of State (DOS) has tried to 
downplay this fact, stating in a recent report that Russian 
cheating would have little effect on the assured second-strike 
capabilities of U.S. strategic forces. If that is true, it 
seems to call into question the utility of the treaty itself 
and the ability to make serious nuclear arms reductions.
    Finally, this hearing is a chance to hear our negotiators' 
explanation for New START's puzzling and troubling references 
to missile defense. We originally were told that there would be 
no references to missile defense in the treaty and no linkage 
drawn between offensive and defensive weapons. Then we were 
told there would be such a reference, but only in the preamble, 
which, of course, is not legally binding.
    However, in the final treaty text--not just in the 
preamble, but Article V of the treaty itself--there is a clear, 
legally binding limitation on our missile defense options. 
While this limitation may not be a meaningful one, it is a 
limitation.
    We must ask why did the administration agree to this 
language after saying they would do no such thing? Why hand the 
Russian Government the opportunity they so desire to draw 
unfounded linkages between offensive and defensive weapons, as 
Russian Foreign Minister Sergey Lavrov has done, saying the 
``linkage to missile defense is clearly spelled out in the 
accord and is legally binding.''
    We look forward to gaining greater clarity on all of these 
questions, and others, directly from our negotiators. Still, 
many of us feel strongly that Congress should be able to 
complement discussions like this today with our own review of 
the facts. That is why we are insisting on an opportunity to 
review the negotiating record for ourselves, specifically, 
those parts dealing with the ambiguous references to missile 
defense and the contradictory unilateral statements issued by 
the United States and Russia on the meaning and legal force of 
that language.
    As I have noted before, this request is not unprecedented. 
The Senate has previously sought and received access to the 
negotiating history for arms control treaties between the 
United States and the Soviet Union, such as the 1972 Anti-
Ballistic Missile (ABM) Treaty and the 1987 Intermediate-Range 
Nuclear Forces (INF) Treaty. This information and the further 
insights we hope to gain today are critical as the Senate moves 
to consider and vote on the ratification of this treaty.
    I thank each of the witnesses again for your service and 
for appearing here today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Secretary Gottemoeller?

 STATEMENT OF HON. ROSE E. GOTTEMOELLER, ASSISTANT SECRETARY, 
    BUREAU OF VERIFICATION, COMPLIANCE, AND IMPLEMENTATION, 
                      DEPARTMENT OF STATE

    Ms. Gottemoeller. Thank you very much, Chairman Levin, 
Senator McCain, and members of this committee.
    I am honored to be here today to provide you my perspective 
as the chief negotiator of the New START treaty. I am also 
pleased to be joined by my colleague, Dr. Ted Warner, who 
served on the delegation as Secretary Gates's representative 
and as one of my deputies. We share a strong belief that the 
New START treaty will make our country more secure, and we urge 
the Senate to provide its advice and consent to ratification.
    At the conclusion of my remarks, I will be pleased to 
respond to your questions. Many questions already are on the 
table, thanks to the opening remarks, Mr. Chairman and Mr. 
McCain. But with your permission, I would like to present an 
abbreviated version of my remarks this morning and submit my 
full statement for the record.
    Chairman Levin. It will be made part of the record.
    Ms. Gottemoeller. Thank you, sir.
    Chairman Levin. Thank you.
    Ms. Gottemoeller. A little over a year ago, the 
administration set out to negotiate the New START treaty, with 
the goal of replacing the expiring START treaty with a new 
agreement for each party to reduce and limit its strategic 
offensive arms. I want to underscore that the focus of these 
negotiations from the beginning to the end was on strategic 
offensive arms.
    The New START treaty will enhance U.S. national security by 
stabilizing the strategic balance between the U.S. and the 
Russian Federation at lower levels of nuclear forces. The New 
START treaty preserves the United States' right to determine 
our own force structure, giving us the flexibility to deploy 
and maintain our strategic nuclear forces in a way that best 
serves U.S. national security interests.
    As long as nuclear weapons exist, the United States will 
maintain a safe, secure, and effective arsenal to deter any 
adversary and protect our allies. To those who may have 
concerns regarding alleged backroom deals during the treaty 
negotiations, let me state unequivocally today on the record 
before this committee, as I have stated before the Senate 
Foreign Relations Committee, that there were no--and I repeat--
no secret deals made in connection with the New START treaty, 
not on missile defense nor on any other issue.
    Regarding the recently released 2010 Compliance Report, I 
want to point out that Russia was in compliance with START's 
central limits during the treaty's life span. Moreover, the 
majority of compliance issues raised under START were 
satisfactorily resolved. Most reflected differing 
interpretations on how to implement START's complex inspection 
and verification regime.
    Let me speak briefly about verification of the treaty. 
Verification and the DOS's recent verifiability assessment 
addressed the large questions related to whether the United 
States could detect, in a timely manner, if Russia were 
preparing to move beyond the limits of the treaty or were 
cheating in a significant way on the treaty well before such an 
attempt became a threat to U.S. national security.
    In addition, the verification regime should and will enable 
the United States to detect other activities inconsistent with 
the treaty that, while they may not present an immediate risk 
to U.S. national security, could, if they went undetected, lead 
to a situation in which the U.S. national security would be at 
risk.
    Last week, the Commander of U.S. Strategic Command 
(STRATCOM), General Chilton, testified before this committee 
that he agreed with this assessment, stating that the ``New 
START treaty retains sufficient flexibility in managing our 
deterrent forces to hedge against technical or geopolitical 
surprise.'' Dr. Miller, the former Principal Deputy Under 
Secretary of Defense for Policy, who also testified last week, 
agreed, adding that, under New START, the United States is 
``postured well to first deter cheating, but then to minimize 
the significance should it occur.''
    These assessments are based on the ability under the New 
START treaty of the United States to retain a diverse triad of 
strategic forces and, in particular, the fact that the 
survivability and response capabilities of strategic submarines 
and heavy bombers would be unaffected even by large-scale 
cheating.
    I want to emphasize as a comment at this moment that in the 
Nuclear Posture Review (NPR) and in our nuclear policy overall, 
the maintenance of a diverse triad, a diverse and resilient 
triad, is important. We really emphasize the necessity of both 
prompt capabilities as well as second-strike or response 
capabilities.
    The obligations and prohibitions of the New START treaty 
are different from those in START, reflecting lessons learned 
from 15 years of implementing the START treaty. The differences 
also reflect the spirit of the Moscow Treaty by permitting each 
party the flexibility to determine for itself the configuration 
of its strategic forces at reduced levels of delivery vehicles 
and deployed warheads as established in this treaty.
    Like START, the New START treaty contains extensive 
verification provisions that promote strategic stability by 
ensuring transparency and predictability--I want to reemphasize 
the word ``predictability''--regarding U.S. and Russian 
strategic forces and confidence that the Russian Federation 
does not exceed the treaty's limits throughout its 10-year 
term.
    During the negotiation of the New START treaty, negotiators 
on both sides drew on the lessons learned from START 
implementation. Both sides benefited from having experienced 
START treaty inspectors and also the operators of our strategic 
weapons systems serving on their respective delegations.
    We learned much during the 15 years in which the START 
treaty verification regime was implemented, and the United 
States and Russia sought to take advantage of that knowledge in 
formulating the verification regime for the new treaty, seeking 
to maintain elements which proved useful, to include new 
measures where necessary, improve on measures that had been an 
unnecessary drag on our strategic force operations, and 
eliminating those that were not essential for verifying the 
obligations of the New START treaty.
    Mr. Chairman, as Secretary Clinton stated in her testimony 
to the Senate Foreign Relations Committee and in a similar 
statement made to this committee, ``The choice before us is 
between this treaty and no treaty governing our nuclear 
security relationship with Russia, between this treaty and no 
agreed verification mechanism on Russia's strategic nuclear 
forces.''
    Mr. Chairman, in sum, I believe that the New START treaty 
is in the national security interests of the United States, is 
the right treaty for today and the coming years, and will 
restore the transparency and predictability that START provided 
while it was in force. The combination of improved U.S. 
understanding of Russian strategic forces resulting from the 
implementation of the START treaty over the past 15 years, U.S. 
National Technical Means (NTM) of verification, the New START 
treaty's verification provisions, and a favorable posture 
deterring cheating or breakout, results in a New START treaty 
that is effectively verifiable.
    Thank you, and I will be happy to respond to your 
questions.
    [The prepared statement of Ms. Gottemoeller follows:]
              Prepared Statement by Hon. Rose Gottemoeller
    Chairman Levin, Senator McCain, and members of the committee, I 
want to thank you for this opportunity to appear before you. I am 
honored to be here to provide my perspective as chief negotiator of the 
treaty between the United States of America and the Russian Federation 
on Measures for the Further Reduction and Limitation of Strategic 
Offensive Arms, also known as the New START treaty. I'm also pleased to 
be joined by Dr. Ted Warner, who served on the delegation as Secretary 
Gates' representative and as one of my deputies. We share a strong 
belief that the New START treaty will make our country more secure, and 
we urge the Senate to provide its advice and consent to ratification. 
At the conclusion of my remarks, I will be pleased to respond to your 
questions.
    I believe there is every reason for the Senate to provide its 
advice and consent to ratification of the New START treaty. The treaty 
is a continuation of the international arms control and 
nonproliferation framework that the United States has worked hard to 
foster and strengthen for the last 50 years. It will provide ongoing 
transparency and predictability regarding the world's two largest 
nuclear arsenals, while preserving our ability to maintain the strong 
nuclear deterrent. Indeed, this treaty imposes no constraint on U.S. 
efforts to modernize its nuclear enterprise or develop and deploy the 
most effective missile defenses possible to protect U.S. national 
security and the security of our allies and friends.
    A little over a year ago, the administration set out to negotiate 
the New START treaty with the goal of replacing the expiring START 
treaty with a new agreement for each Party to reduce and limit its 
strategic offensive arms. I want to underscore that the focus of these 
negotiations from beginning to end was strategic offensive arms. We 
were also determined to move beyond Cold War mentalities and chart a 
fresh beginning in our relations with Russia. The 2010 Nuclear Posture 
Review concluded that the United States could sustain a stable 
deterrent with significantly fewer deployed warheads and strategic 
delivery vehicles than permitted under earlier arms control agreements. 
It further recognized that we need to cooperate with Russia as our 
partner to meet these threats and other global challenges.
    The New START treaty represents a significant step forward in 
building a stable, cooperative relationship with Russia. But this 
treaty is not just about Washington and Moscow. It advances the 
security of the entire world. By demonstrating that we are living up to 
our obligations under Article VI of the Nuclear Nonproliferation Treaty 
(NPT), we enhance our credibility to convince other governments to help 
strengthen the international nonproliferation regime and confront 
proliferators.
    The New START treaty will enhance U.S. national security by 
stabilizing the strategic balance between the United States and the 
Russian Federation at lower levels of nuclear forces. The New START 
treaty preserves the United States' right to determine our own force 
structure, giving us the flexibility to deploy and maintain our 
strategic nuclear forces in a way that best serves U.S. national 
security interests. As long as nuclear weapons exist, the United States 
will maintain a safe, secure, and effective arsenal to deter any 
adversary and protect our allies.
    To those who may have concerns regarding alleged backroom deals 
during the treaty negotiations, let me state unequivocally today on the 
record before this committee, as I have done previously before the 
Foreign Relations Committee, that there were no/no secret deals made in 
connection with the New START treaty; not on missile defense or any 
other issue. Everything we agreed to is in the treaty documents 
transmitted to the Senate on May 13. I also want to make clear that 
Article XV of the treaty authorizes the Bilateral Consultative 
Commission to make changes in the Protocol without resorting to the 
treaty amendment procedures only where such changes do not affect 
substantive rights or obligations under the treaty. A similar provision 
was contained in, and successfully implemented under, the START treaty.
    Regarding the recently released 2010 Compliance Report, I want to 
point out that Russia was in compliance with START's central limits 
during the treaty's life span. Moreover, the majority of compliance 
issues raised under START were satisfactorily resolved. Most reflected 
differing interpretations on how to implement START's complex 
inspection and verification provisions.
    Let me speak briefly about verification of the treaty. Verification 
and the State Department's recent verifiability assessment address the 
larger questions related to whether the United States could detect, in 
a timely manner, if Russia was preparing to move beyond the limits of 
the treaty, or were cheating in a significant way on the treaty well 
before such an attempt became a threat to U.S. national security. In 
addition, the verification regime will enable the United States to 
detect other activities inconsistent with the treaty that, while they 
may not present an immediate risk to U.S. national security, could, if 
undetected, lead to a situation in which U.S. national security would 
be at risk. Last week, General Chilton testified before this committee 
that he agreed with this assessment, stating that the ``New START 
retains sufficient flexibility in managing our deterrent forces to 
hedge against technical or geopolitical surprise.'' Dr. Miller also 
agreed, adding that, under New START, the United States is ``postured 
well to first deter cheating, but then to minimize the significance 
should it occur.'' These assessments are based on the ability under the 
New START treaty of the United States to retain a diverse triad of 
strategic forces, and in particular the fact that the survivability and 
response capabilities of strategic submarines and heavy bombers would 
be unaffected even by large-scale cheating.
    It is important that the Department of State's verifiability 
assessment not be confused with Intelligence Community monitoring 
confidences. The Intelligence Community's monitoring efforts provide 
evidence, along with other inputs such as legal interpretations, 
information gathered from other sources, and compliance analysis, which 
contribute to the verification process.
    New START's verification measures are designed to ensure that each 
Party is able to verify the other's compliance with the central limits 
in the treaty, including:

        <bullet> No more than 700 deployed intercontinental ballistic 
        missiles (ICBMs), deployed submarine launched ballistic 
        missiles (SLBMs), and deployed heavy bombers;
        <bullet> No more than 1,550 warheads emplaced on deployed ICBMs 
        and deployed SLBMs and counted for deployed heavy bombers; and
        <bullet> No more than 800 deployed and nondeployed ICBM 
        launchers, deployed and nondeployed SLBM launchers, and 
        deployed and nondeployed heavy bombers.

    The obligations and prohibitions of the New START treaty are 
different from those in START, reflecting lessons learned from 15 years 
of implementing the START treaty. The differences also reflect the 
spirit of the Moscow Treaty, by permitting each Party the flexibility 
to determine for itself the configuration of its strategic forces at 
the reduced levels of delivery vehicles and deployed warheads 
established in this treaty. Like START, the New START treaty contains 
extensive verification provisions that promotes strategic stability by 
ensuring transparency and predictability regarding U.S. and Russian 
strategic nuclear forces and confidence that the Russian Federation 
does not exceed the treaty's limits throughout its 10-year term.
    The START treaty's verification regime was tailored to the specific 
obligations of the START treaty, while the New START verification 
provisions are tailored to the specific obligations of the new treaty. 
The treaty's verification regime was designed to be effective while at 
the same time reducing the implementation costs and the disruption to 
operations at U.S. and Russian military facilities subject to the 
treaty as compared with the original START treaty. The regime is based 
on an extensive set of data exchanges and timely notifications 
regarding all strategic offensive arms and facilities covered by the 
treaty, two types of onsite inspections, exhibitions, locational 
restrictions, and additional transparency measures, including the use 
of unique identifiers on each ICBM, SLBM, and heavy bomber. Although 
telemetry from missile flight tests is not required to verify the 
provisions of the New START treaty, the treaty includes provisions 
regarding the exchange of some telemetric information as a means of 
enhancing transparency and predictability.
    Deterrence of cheating is a key part of the assessment of 
verifiability, and is strongest when the probability of detecting 
significant violations is high, the benefits to cheating are low, and 
the potential costs are high. We assess that this is the case for 
Russia cheating under the New START treaty.
    During the negotiation of the New START treaty, negotiators on both 
sides drew on the lessons learned from START implementation. Both sides 
benefited from having experienced START treaty inspectors serving on 
their respective delegations. Much was learned over the 15 years in 
which the START treaty verification regime was implemented, and the 
United States and Russia sought to take advantage of that knowledge in 
formulating the verification regime for the new treaty--seeking to 
maintain elements which proved useful, to include new measures where 
necessary, improve those measures that were an unnecessary drag on our 
strategic forces, and eliminate those that were not essential for 
verifying the obligations of the New START treaty.
    Mr. Chairman, as Secretary Clinton stated in her testimony to the 
Senate Foreign Relations Committee, and in a similar statement made to 
this committee: ``The choice before us is between this treaty and no 
treaty governing our nuclear-security relationship with Russia, between 
this treaty and no agreed verification mechanism on Russia's strategic 
nuclear forces, between this treaty and no legal obligation for Russia 
to maintain its strategic nuclear forces below an agreed level. We 
cannot turn a blind eye to Russian nuclear force developments, which 
would be a step in the wrong direction from our burgeoning relationship 
with Russia.'' Secretary Gates noted that the treaty ``has the 
unanimous support of America's military leadership;'' Admiral Mullen 
said that the ``conclusion and implementation of the New START treaty 
is the right thing for us to do;'' General Chilton reminded us that, 
``Without New START, we would rapidly lose some of our insight into 
Russian strategic nuclear force developments and activities, and our 
force modernization planning and hedging strategy would be more complex 
and more costly'' and Secretary Chu testified that ``the New START 
treaty will serve the interests of the United States without 
jeopardizing our ability to sustain the safety, security and 
effectiveness of the U.S. nuclear weapons stockpile.'' The entire 
administration is united behind this treaty.
    Mr. Chairman, in sum, I believe that the New START treaty is in the 
national security interests of the United States, is the right treaty 
for today and the coming years, and will restore the transparency and 
predictability that START provided while it was in force. The 
combination of improved U.S. understanding of Russian strategic forces 
resulting from the implementation of the START treaty, U.S. NTM 
capabilities, the New START treaty's verification provisions, and a 
favorable posture deterring cheating or breakout, results in a New 
START treaty that is effectively verifiable.
    Thank you and I will be happy to respond to any questions.

    Chairman Levin. Thank you, Secretary Gottemoeller.
    Dr. Warner?

  STATEMENT OF HON. EDWARD L. WARNER III, Ph.D., SECRETARY OF 
 DEFENSE REPRESENTATIVE TO POST-START NEGOTIATIONS, DEPARTMENT 
                           OF DEFENSE

    Dr. Warner. Thank you, Mr. Chairman, Senator McCain, other 
members of the committee.
    It, too, is an honor for me and a privilege to have an 
opportunity to speak with you today about the New START treaty.
    I served as a representative of the Secretary of Defense on 
the treaty negotiating team and was involved in the effort from 
the beginning, April 2009, through the signing of the treaty 
almost a year later. The leadership of the Department of 
Defense (DOD) stands firmly behind the treaty. It will 
strengthen strategic stability, enable the United States to 
modernize its triad of strategic delivery vehicles, and protect 
our flexibility to deploy effective missile defenses and 
conventional prompt global strike capabilities.
    I would like today to focus my remarks on the national 
defense-related aspects of the treaty and on the inspections 
framework for the treaty, which I was responsible for 
negotiating on the U.S. side. Regarding the national defense 
aspects of the treaty, I would like to make four points.
    First, the United States sought to conclude a treaty that 
would limit U.S. and Russian strategic offensive arms while 
preserving strategic stability in a manner that provides 
predictability and transparency and is supported by an 
effective verification system.
    While pursuing stabilizing reductions in strategic or 
offensive forces, we protected our ability to field a flexible, 
effective strategic triad and enabled modernization of our 
strategic delivery systems and the nuclear weapons and the 
nuclear weapons complex that supports them. We agreed to 
ceilings on strategic warheads that were lower than those in 
the Moscow Treaty, but sufficient to meet the needs of the 
Nation as established by the NPR.
    Second, the administration plans to maintain all three legs 
of the triad and to field strategic nuclear forces within the 
central limits of the treaty that will include up to 420 
deployed Minuteman III intercontinental ballistic missiles 
(ICBMs) with a single warhead; 240 deployed Trident II D-5 
submarine launched ballistic missiles (SLBMs) on the 12 
operational, a total of 14 Ohio-class submarines; and up to 60 
deployed B-2A and B-52H heavy bombers equipped for nuclear 
armaments.
    Over the next decade, DOD plans to invest over $100 billion 
in sustaining and modernizing our strategic nuclear delivery 
systems, and the Department of Energy (DOE) plans to invest $80 
billion in sustaining and modernizing the nuclear weapons 
stockpile and the nuclear weapons complex.
    Third, we protected our ability to develop and deploy the 
most effective missile defenses possible. Under the treaty, the 
United States is free to pursue its current and planned 
ballistic missile defense programs, as well as any other 
courses of action we might choose to pursue.
    The one limitation within the treaty on missile defense is 
the ban on conversion of ICBM or SLBM launchers for the use as 
missile defense interceptor launchers, or vice versa. As 
previously discussed by Dr. Miller when he appeared before you 
last week, such a conversion does not make sense on strategic 
or cost grounds.
    Fourth, we protected the U.S. ability to develop and deploy 
conventional prompt global strike systems, agreeing to a so-
called ``permit and count'' regime whereby conventionally armed 
ICBMs or SLBMs would be permitted but counted against the 
strategic delivery vehicle and strategic warhead ceilings.
    Turning to issues of verification, achieving an effective 
verification framework was another key U.S. and DOD objective 
in the negotiations. As the U.S. Chairman of the Inspections 
Working Group during the negotiation of the treaty, I met more 
than 90 times with my Russian counterpart to hammer out an 
effective tailored inspections framework for the treaty. In 
this effort, I was aided by a cadre of veteran START inspectors 
who brought many years of combined experience to the 
negotiating table.
    We crafted an inspections framework that continues the 
appropriate verification and transparency functions provided 
for under START, while streamlining the overall process and 
reducing unnecessary burdens. The treaty provides that each 
party may conduct up to 18 short-notice, onsite inspections 
each year.
    These inspections are divided into two groups. Type I 
inspections will be conducted at the operating bases for ICBMs, 
SLBMs, and nuclear-capable heavy bombers and will include 
inspections of both deployed and nondeployed systems. Type II 
inspections are focused on nondeployed strategic systems, as 
well as formerly declared facilities, and confirming the 
results of the elimination or conversion of strategic offensive 
systems. These inspections will be conducted at places such as 
storage sites, test ranges, formerly declared facilities, and 
conversion or elimination facilities.
    Each side is allowed to conduct up to 10 Type I inspections 
and up to 8 Type II inspections annually. Type I inspections 
combine many of the aspects associated with two different types 
of inspections--the reentry vehicle onsite inspection and the 
data update inspection--that were conducted separately under 
START, thus requiring fewer inspections annually at operating 
bases while achieving many of the results of the previous START 
inspection regime with a smaller number of annual inspections. 
That means less disruption to our operating forces on an annual 
basis.
    These inspection activities contribute to the verification 
of the treaty's provisions by confirming that the declared data 
is accurate, that weapon systems have been converted or 
eliminated, and that formerly declared facilities are not used 
for purposes inconsistent with the treaty.
    Inspections will also help deter cheating. Since the 18 
short-notice, onsite inspections each year will be conducted at 
sites selected by the inspecting party, each side knows that 
the other will have a significant capability to uncover any 
discrepancies between what is reported and what is actually 
happening.
    If the United States encounters ambiguities or evidence of 
what appears to be cheating, we will immediately raise these 
matters in the Bilateral Consultative Commission, the body set 
up to oversee implementation of the New START treaty. Or, if 
necessary, we will raise them at higher political levels, 
seeking prompt resolution.
    The use of unique identifiers on each ICBM, SLBM, and heavy 
bomber, timely notifications each time a treaty-accountable 
system changes status, the regularly updated comprehensive 
database that provides information on all treaty-accountable 
systems and facilities, and the use of NTM of verification will 
all complement inspections in providing for a robust treaty 
verification regime.
    In summary, the New START treaty will promote stability, 
transparency, and predictability in the U.S.-Russian strategic 
relationship and is effectively verifiable. It will allow us to 
field a strong triad of strategic delivery systems and, if 
desired, to deploy conventional prompt global strike 
capabilities.
    It will not affect our ability to improve our missile 
defenses qualitatively and quantitatively to defend the 
Homeland against limited missile attacks and to protect our 
deployed forces, allies, and partners from growing regional 
missile threats.
    Thank you for the opportunity to discuss this matter with 
you today. I very much look forward to your questions.
    [The prepared statement of Dr. Warner follows:]
             Prepared Statement by Dr. Edward L. Warner III
    Chairman Levin, Senator McCain, distinguished members of the 
committee:
    Thank you for the opportunity to speak today regarding the New 
Strategic Arms Reduction Treaty (START). I served as the Representative 
of the Secretary of Defense on the New START treaty negotiating team 
and was involved in the effort from the beginning of our discussions 
with the Russians in late April 2009 through to the signing of the 
treaty almost a year later.
    The leadership of the Department of Defense (DOD) stands firmly 
behind this treaty. The agreement will strengthen strategic stability, 
enable the United States to modernize its Triad of strategic delivery 
systems, and protect our flexibility to develop and deploy effective 
missile defenses and conventional prompt global strike capabilities. 
Because of this, the treaty has the support of the U.S. defense 
leadership--including the Secretary of Defense, the Chairman of the 
Joint Chiefs of Staff, the Service Chiefs, and the Commander of the 
U.S. Strategic Command, the command responsible for the U.S. strategic 
nuclear deterrent.
    In light of my role in the negotiation of New START treaty, I would 
like to focus my remarks today on the national defense-related aspects 
of the agreement and on the inspections framework for the treaty, which 
I was responsible for negotiating on the U.S. side.
    As the Representative of the Secretary of Defense for the talks, I 
had a particular responsibility to ensure that the national defense 
interests of the United States, as viewed by the leadership in DOD, 
were properly incorporated into our negotiating positions and in any 
provisions that were agreed for inclusion in the treaty and its 
supporting documents. I am confident that we did so. Throughout the 
negotiations, my colleague representing the Joint Staff and I were in 
close contact with DOD leadership, and we did not agree to the 
inclusion of any provisions without securing their approval. Indeed, 
the final treaty, Protocol, and supporting annexes very much reflect 
the input of senior DOD leaders to an effective government-wide 
process, including the personal involvement of the Secretary of Defense 
and Admiral Mullen, the Chairman of the Joint Chiefs of Staff, at key 
junctures in the negotiation of the treaty.
    Let me address some of the key national defense-related issues in 
the treaty and how the U.S. side handled them.
    First, the United States sought to conclude a treaty that would 
limit U.S. and Russian strategic offensive arms while preserving 
strategic stability in a manner that provides predictability and is 
supported by an effective verification system.
    While pursuing stabilizing reductions in strategic offensive 
forces, the U.S. negotiators sought to protect our ability to field a 
flexible, effective strategic Triad composed of intercontinental 
ballistic missiles (ICBMs), submarine launched ballistic missiles 
(SLBMs), and nuclear-capable heavy bombers, and to enable modernization 
of our strategic delivery systems and the nuclear weapons they carry. 
The U.S. negotiators also sought agreement on ceilings on strategic 
warheads that were lower than those in the Moscow Treaty, but 
sufficient to meet the needs of the Nation as established by the 
Nuclear Posture Review.
    We achieved these objectives. The New START treaty will entail 
stabilizing limits on deployed strategic nuclear forces and nondeployed 
ICBM launchers, SLBM launchers, and heavy bombers, as well as 
associated verification measures. We agreed to these limits based on 
analysis conducted in the Nuclear Posture Review prior to and during 
the course of the negotiations, which determined that the ceilings 
would be sufficient to allow us to meet U.S. strategic deterrence 
requirements and to maintain the Triad of delivery systems. The 
agreement of the DOD leadership to the limits was also conditional upon 
Russian agreement to allow removal of converted B-1Bs, cruise missile 
submarines (SSGNs), and any future conventional-only B-52Hs from 
accountability under the New START treaty. We achieved agreement on 
these points as well.
    Second, the treaty affords us the freedom to deploy, maintain, and 
modernize our forces as we determine appropriate in a manner consistent 
with the central limits of the treaty. As outlined in the report to 
Congress issued in compliance with Section 1251 of the National Defense 
Authorization Act, 2010, the administration plans to maintain and 
modernize all three legs of the Triad. By the time that the treaty 
reductions go into effect, 7 years after entry into force, the 
Department intends to field strategic nuclear forces within the central 
limits of the treaty that include: up to 420 deployed Minuteman III 
ICBMs; 240 deployed Trident II D5 SLBMs; and up to 60 deployed B-2A and 
B-52H heavy bombers equipped for nuclear armaments. Over the next 
decade, DOD plans to invest over $100 billion in sustaining and 
modernizing our strategic nuclear delivery systems, and the Department 
of Energy plans to invest $80 billion in sustaining and modernizing the 
nuclear weapons stockpile and the nuclear weapons complex.
    Third, protecting our ability to develop and deploy the most 
effective missile defenses possible was one of the most important U.S. 
objectives during the treaty negotiations, and we clearly did so. Under 
the treaty, the United States is free to pursue its current and planned 
ballistic missile defense programs, as well as any other courses of 
action we might choose to pursue. The one limitation is the ban on 
conversion of ICBM or SLBM launchers for use as missile defense 
interceptor launchers, or vice versa. As previously explained, such a 
conversion does not make sense on strategic or cost grounds, and is not 
part of our plans for future missile defense programs. Nothing in this 
treaty or in the Russian unilateral statement concerning U.S. missile 
defenses, which is not a part of the treaty and not legally binding, 
will constrain us from developing and deploying the most effective 
missile defenses possible, nor will the treaty impose additional costs 
or burdens on these efforts.
    Fourth, the administration was also intent on protecting the U.S. 
ability to develop and deploy conventional prompt global strike 
systems. We therefore agreed to a ``permit and count'' regime whereby 
conventionally-armed ICBMs or SLBMs would be permitted but counted 
against the strategic delivery vehicle and strategic warhead ceilings. 
In addition, the United States stated during the negotiations that it 
would not consider future, strategic range non-nuclear systems that do 
not meet the definitions of this treaty to be ``new kinds of strategic 
offensive arms'' for purposes of the treaty. We are confident that this 
arrangement accommodates our defense requirements regarding the 
possible development and deployment of conventional prompt global 
strike capabilities for the lifetime of the treaty.
    Achieving an effective verification framework was another key U.S. 
and DOD objective in the negotiations. Let me therefore turn now to my 
role as the U.S. Chairman of the Inspections Working Group during the 
negotiation of the treaty. In this capacity, I led the U.S. side in 
negotiating the inspections framework that will form a central pillar 
of the treaty's verification regime. During the course of the 
negotiations, we met more than 90 times with our Russian counterparts 
to hammer out an effective, tailored inspections framework for the 
treaty. In this effort, I was aided by a cadre of veteran inspectors 
who brought many years of combined experience in implementing 
inspections under the START and Intermediate-Range Nuclear Forces 
Treaties to the development of our negotiating positions and to the 
negotiating table.
    The inspections framework that we negotiated with Russia is an 
essential part of the treaty's overall verification regime. Our 
objectives were to craft an inspection framework that continues the 
appropriate verification and transparency functions provided for under 
START, while streamlining the overall process and reducing unnecessary 
burdens, in line with the July 2009 Joint Understanding signed by 
Presidents Obama and Medvedev. We achieved these objectives.
    The treaty provides that each Party may conduct up to 18 short-
notice, onsite inspections each year. These inspections are divided 
into two groups. Type One inspections will be conducted at the 
operating bases for ICBMs, SLBMs, and nuclear-capable heavy bombers and 
will include inspections of both deployed and nondeployed systems. Type 
Two inspections are focused on nondeployed strategic systems, as well 
as formerly declared facilities, and confirming the results of the 
elimination or conversion of strategic offensive systems. These 
inspections will be conducted at places such as storage sites, test 
ranges, formerly declared facilities, and conversion or elimination 
facilities. Each side is allowed to conduct up to 10 Type One 
inspections and up to eight Type Two inspections annually. Type One 
inspections combine many of the aspects associated with two different 
types of inspections that were conducted separately under START, thus 
requiring fewer inspections annually at the operating bases while 
achieving many of the results of the previous START inspection regime 
with a smaller number of annual inspections.
    These inspection activities contribute to the verification of the 
treaty's provisions by confirming: the accuracy of declared data on the 
numbers of deployed and nondeployed ICBMs, SLBMs, and nuclear-capable 
heavy bombers and of the warheads located on or counted for them; that 
weapon systems have been converted or eliminated; and that formerly 
declared facilities are not being used for purposes inconsistent with 
the treaty.
    Inspections will also help deter cheating. Since the 18 short 
notice, onsite inspections each year will be conducted at sites 
selected by the inspecting party, each side knows the other will have a 
significant capability to uncover discrepancies between what is 
reported and what is actually happening. If the United States 
encounters ambiguities or evidence of what appears to be cheating, we 
will immediately raise the matters in the Bilateral Consultative 
Commission or, if necessary, at higher political levels, seeking prompt 
resolution. The use of unique identifiers on each ICBM, SLBM, and heavy 
bomber, timely notifications each time a treaty accountable system 
changes status, the regularly updated comprehensive database, and the 
use of national technical means will complement inspections in 
providing for a robust treaty verification regime.
    In conclusion, the New START treaty will promote stability, 
transparency, and predictability in the U.S.-Russian strategic 
relationship and is effectively verifiable. It will allow us to field a 
strong Triad of strategic delivery systems, and, if desired, to deploy 
conventional prompt global strike systems. It will not affect our 
ability to improve our missile defenses qualitatively and 
quantitatively to defend the homeland against limited missile attacks 
and to protect our deployed forces, allies, and partners from growing 
regional missile threats.
    Thank you for the opportunity to testify on New START. I would be 
happy to answer any questions.

    Chairman Levin. Thank you, Dr. Warner.
    Let us have a 7-minute first round, if that is all right? 
Let me start with you, Secretary Gottemoeller. Some critics 
have asserted that the START I treaty should have been extended 
in lieu of a new treaty. Did the Bush administration desire to 
extend the START I treaty before it expired, or did they prefer 
to begin negotiations on a new treaty?
    Ms. Gottemoeller. Sir, it is my understanding that during 
the Bush administration, President Bush and then-President 
Putin agreed at the Sochi summit in April 2008 that they would 
proceed with negotiating a new legally binding treaty. It was 
my understanding that we had already mutually informed each 
other that we would not be extending the START treaty before 
the end of 2008.
    Chairman Levin. Thank you.
    DOS recently completed and provided to Congress a report on 
treaty compliance since 2005. Now, the unclassified version of 
the report says that with respect to Russia and the START I 
treaty, that ``notwithstanding the overall success of START 
implementation, a number of longstanding compliance issues 
remained unresolved when the treaty expired on December 5, 
2009.''
    Now, was it DOS's determination that Russia or the Soviet 
Union--I guess Russia at that point--was not in compliance, or 
is it the statement of DOS that the issues were just 
unresolved?
    Ms. Gottemoeller. Sir, that is a very important question. 
In fact, the view of DOS and its report in the compliance 
report is that all the signatories to the START treaty, 
including not only Russia, but also Ukraine, Kazakhstan, and 
Belarus, in addition to the United States, were in compliance 
with the central limits of the START treaty. The START treaty 
was well implemented, and its implementation was a success is 
our view.
    Compliance issues did arise in the implementation of the 
START treaty over its 15-year history. It was a very 
complicated treaty, 700 pages in length. For that reason, there 
were differences in interpretation at times, questions that 
needed to be resolved. That is why we used the Joint Compliance 
and Inspection Commission to resolve very many compliance 
issues.
    At the time START went out of force, not all of those 
questions had a chance to be resolved. It is my understanding 
that most of them were minor technical issues.
    Chairman Levin. Then is it more accurate to say that the 
issues were unresolved or that there was noncompliance? Had we 
determined noncompliance, or did this report find otherwise?
    Ms. Gottemoeller. No, sir. The issues were simply not 
resolved.
    Chairman Levin. All right. On the Biological Weapons 
Convention (BWC), is it the conclusion that Russia is not in 
compliance with obligations, or as the unclassified DOS 
compliance report indicates, is it a matter that ``remains 
unclear?''
    Ms. Gottemoeller. Sir, it is a matter that remains unclear. 
I will note that the compliance report, when it focuses on the 
period since the demise of the Soviet Union, takes note of the 
fact that with regard to both the BWC and the Chemical Weapons 
Convention (CWC), the Russian Federation has been working very 
closely with the international bodies that are responsible for 
those conventions, and its activities at this time appear to be 
in compliance with those obligations.
    The concerns that have arisen are related to the past. They 
are related to the Soviet period. President Yeltsin made some 
statements in 1992 about the Russian compliance or, rather, the 
existence of a Russian offensive BW program. There was a 
statement made at the time that some information would be 
provided about that program. That information has never been 
received. It is a question about past activities, dating from 
the Soviet era that is of concern with regard to the BWC.
    Chairman Levin. Were DOD, the Intelligence Community (IC), 
and DOE fully involved in treaty negotiations, and did they 
concur in the outcome?
    Ms. Gottemoeller. Absolutely, sir. From beginning to end, 
this was a thorough-going interagency process. We had an 
excellent interagency team in Geneva working on the 
negotiations, and the backstopping team, back here in 
Washington, was entirely interagency in its character. I will 
say also that we received enormous support from agency 
principals, as well as from the President himself.
    Chairman Levin. Do they concur in the outcome and support 
the treaty?
    Ms. Gottemoeller. Yes. Absolutely, sir.
    Chairman Levin. Does the IC assess that Russia is likely to 
comply with its obligations under the New START treaty?
    Ms. Gottemoeller. Yes, sir.
    Chairman Levin. On this issue of silo conversion, there has 
been a number of comments about the fact that there is in 
Article V, Paragraph 3 of the treaty a prohibition on the 
conversion of ICBM silos and SLBM launchers to be launchers of 
missile defense interceptors, and vice versa. You made 
reference to that in your opening statement as well.
    You also indicated in your opening statement that from our 
perspective it makes no sense on a strategic basis, but also on 
cost grounds, for that conversion to take place. Could I ask 
you, if conversion were allowed, would that also introduce an 
element of ambiguity as to whether or not a silo was a silo for 
offensive or defensive purposes and that that ambiguity, at 
least as I see it, would be something which would not 
contribute to security and stability?
    Ms. Gottemoeller. Mr. Chairman, I am sure Dr. Warner might 
like to comment on this.
    Chairman Levin. Let me ask Dr. Warner then about that.
    Dr. Warner. Yes, sir. Your final point, I think there would 
be a real strategic stability concern about intermixing 
ballistic missile defense interceptors and ICBM and active ICBM 
silos. The issue there isn't so much just a distinguishability. 
It is that, were there a crisis, were there a missile defense 
interceptor fired against a, for instance, North Korean or 
Iranian ICBM fired at the United States, it would come out of 
this ICBM field and could be misinterpreted by Russia as a 
launch of an ICBM.
    Therefore, it would introduce, and it is a consideration 
about the colocation of defense interceptors and offensive 
missiles, a potentially destabilizing event that I think is one 
of the factors that argues against moving in that direction.
    Chairman Levin. Just to conclude, the reference in the 
treaty itself to missile defense is limited to that one 
reference, and it is a reference that we agreed to?
    Dr. Warner. The two references under the treaty?
    Chairman Levin. No, I said in the treaty itself. Not the 
preamble. I will come to that in a minute.
    Dr. Warner. Okay. The preamble is also part of the treaty.
    Chairman Levin. Okay.
    Dr. Warner. But in the articles of the treaty, the only 
references to missile defense is Article V, Paragraph 3, which 
is the provision we just talked about.
    Chairman Levin. We thought that was in our interest?
    Dr. Warner. We clearly thought that was in our interest.
    Chairman Levin. There is reference in the preamble, which, 
as you point out, is part of the treaty?
    Dr. Warner. There is reference in the preamble to the 
interrelationship between offense and defense.
    Chairman Levin. A similar relationship reference was made, 
as I remember, in START I. Is that correct? In the preamble. In 
terms of ABM, there was a reference to the ABM Treaty.
    Ms. Gottemoeller. The reference was to the ABM Treaty in 
the preamble to START I, but the relationship is very much the 
same between START I and its unilateral statements and the New 
START treaty and its unilateral statements.
    Mr. Chairman, may I just comment for 1 second?
    Chairman Levin. Could you make it brief because my time is 
up?
    Ms. Gottemoeller. Paragraph 5, Article III also, in our 
view, is very much and the focus on it is a conversion issue 
because the Russians were very concerned during START about 
this conversion. They considered it actually a compliance 
problem on our side.
    We wanted to ensure that the missile defense interceptors 
at Vandenberg Air Force Base that had been converted from silo 
launchers of ICBMs, that they were absolutely grandfathered 
under this treaty and that no further compliance questions 
would arise in the New START treaty.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses. Madam Secretary, the media says that 
there are reports that the U.S. negotiators actually told the 
Russians that the United States had no intention of putting 
strategic missile defenses in Europe. In your opening 
statement, you said that was not correct. Is that true?
    Ms. Gottemoeller. Sir, we were very, very strict in our 
Geneva negotiations to keep separate the matter of strategic 
defensive forces and strategic offensive forces. We simply did 
not discuss this matter of missile defenses in Europe.
    Senator McCain. So the answer is no?
    Ms. Gottemoeller. No.
    Senator McCain. Then is it agreeable to you that this 
committee and the Senate have the ability to carefully review 
the negotiating record so that the record can be set straight?
    Ms. Gottemoeller. Sir, as far as the negotiating record is 
concerned that there have been some very rare instances in 
which the parts of the negotiating record have been reviewed 
from time to time. The point you raised about the ABM Treaty 
earlier was actually several years after the ABM Treaty was 
ratified and entered into force.
    Some questions were raised concerning the interpretation of 
the ABM Treaty, and at that time, the Senate, in some limited 
circumstances, was allowed to look at some of those documents, 
but it was not part of the ratification process for the ABM 
Treaty. As far as we can find out, there were no documents 
shared at the time that the START treaty was ratified.
    Now, in the case of the INF Treaty and following on the 
reinterpretation debate over the ABM Treaty, there were some 
very limited opportunities presented to review documents. At 
the time, the Senate Foreign Relations Committee commented in 
its report out on the INF Treaty about this extraordinarily 
rare circumstance and also was very firm in underscoring that 
this should not be a precedent for further treaties coming 
before the Senate on account of the chilling effect that it 
would have on U.S. diplomacy. As the chief negotiator of this 
treaty, I do agree with that point of view.
    Senator McCain. So you would object to this committee and 
members of the Senate from reviewing the full review of the 
negotiating record.
    Now there was an unclassified version of the DOS treaty 
compliance report that Senator Levin just asked you about, and 
the unclassified report says that compliance issues from the 
last START treaty remained unresolved. It also concludes the 
U.S. Government does not believe Russia is in compliance with 
the CWC because it has not declared all its stockpiles nor 
agree it destroyed those it acknowledged, despite a 1997 plan 
to do so, and that Russia may not be in compliance with the 
international convention banning biological weapons.
    You just told Senator Levin that that was all prior to the 
fall of the Soviet Union issues. It certainly can't be, as far 
as the 1997 plan to do so. There is nowhere in the unclassified 
version that says that all of this took place before the fall 
of the Soviet Union. In fact, it said they remain unresolved 
and they remain not in compliance with the 1997 plan to do so.
    It seems to me what you just told Senator Levin is at 
variance with DOS. One of you has an obviously different 
interpretation of the facts.
    Ms. Gottemoeller. Thank you very much, sir, for bringing up 
that point. It is a very good one to remind us all of. The 
Russian Federation has been working hard to destroy its CW 
stocks.
    Senator McCain. I would just ask, do you believe that they 
are still not in compliance, along with this report or not?
    Ms. Gottemoeller. I think, if I may, sir? I think that they 
have been working very hard to destroy their stock.
    Senator McCain. My time is very limited. I would like to 
have an answer. Do you believe that they are in compliance or 
not in compliance and unresolved, as the DOS report says?
    Ms. Gottemoeller. I am convinced that they are working to 
resolve compliance, any compliance concerns by trying to reduce 
their stocks, as required by the convention.
    Senator McCain. They are working, in 2010, on complying 
with treaties that were concluded many, many years ago.
    Did the Russians tell you, in the course of the 
negotiations, that they were going to have a signing statement 
that basically said that any qualitative or quantitative 
buildup in the missile defense system capabilities of the 
United States of America would affect the viability and the 
Russian commitment to the treaty?
    Ms. Gottemoeller. Yes, sir. They told us that.
    Senator McCain. They told you that?
    Ms. Gottemoeller. Yes,
    Senator McCain. What did you say?
    Ms. Gottemoeller. This was a unilateral statement of 
Russian policy, not legally binding on us in any way. We 
essentially told them that if they were to make a unilateral 
statement of that kind, we would make our own unilateral 
statement, stating our own policy views on this question.
    Senator McCain. Does cheating matter?
    Ms. Gottemoeller. Absolutely, sir.
    Senator McCain. Do you agree that any Russian cheating 
under the treaty would have little effect, if any, on the 
assured second-strike capabilities of the U.S. strategic 
forces?
    Ms. Gottemoeller. Sir, if the Russians intended to cheat so 
as to undermine this treaty, it would be an enormously serious 
matter for the United States of America. It would be taken up 
in diplomatic channels and, if serious enough, at the highest 
political level. So cheating is a very serious matter.
    Senator McCain. In his statement before the Senate Foreign 
Relations Committee, Henry Kissinger said:

          ``As strategic arsenals are reduced, the distinction 
        between tactical and strategic nuclear weapons is bound 
        to erode. The large Russian stockpile of tactical 
        nuclear weapons, unmatched by a comparable American 
        deployment, could threaten the ability to undertake 
        extended deterrence. This challenge is particularly 
        urgent, given the possible extension of guarantees in 
        response to Iran's nuclear weapons program and other 
        programs that may flow from it.''

    Do you agree with Dr. Kissinger's assessment?
    Ms. Gottemoeller. Yes, sir. I think that it is extremely 
important to bear in mind that we must also focus on 
nonstrategic or tactical nuclear weapons.
    Senator McCain. In summary, I think most observers agree 
that the verification requirements of this treaty are less 
stringent than START I. We now have a report from DOS that the 
compliance issues from the last START treaty remain unresolved 
and that the CWC has not been adhered to, and they may not be 
in compliance with international convention banning biological 
weapons.
    It obviously is a matter of concern to us that the 
verification procedures for this treaty are less stringent than 
the ones for the last, which they clearly are not, despite your 
statements about all of it happening before the fall of the 
Soviet Union--that is not my interpretation of this report--is 
a matter of significant concern to this committee.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Dr. Warner, then Secretary Gottemoeller, we have had 15 
years of experience with the START I Treaty. From that 
experience, what lessons did we apply in developing the 
verification regime?
    Dr. Warner. Senator, we used that experience in many ways 
in developing the regime. One, we screened what kinds of 
inspections we needed to carry out, and we identified what 
things we need, how those inspections needed to be carried out, 
and they informed the manner in which we wrote the protocol and 
the inspection activities annex.
    So, for instance, as I talked of these Type I inspections 
at operating bases, under START, we had two different types of 
inspections coming to operating bases that made them doubly 
vulnerable, and each installation was, for instance, vulnerable 
up to two times under both types of inspections.
    This time, we combined those inspections at operating 
bases. This is a good example. Therefore, they will be somewhat 
longer when they come, and they will look at both the deployed 
and nondeployed elements, including the warhead inspection, the 
reentry vehicle inspection at an ICBM or SLBM base. But they 
will at most come twice a year to any one installation.
    Senator Reed. When you say installation, these are U.S. 
installations?
    Dr. Warner. Yes. The same rule applies to both. It means 
when you come to an ICBM base, SLBM base, or heavy bomber base, 
you have the opportunity to do multiple elements, what were 
separated in START. This has been important on the numbers 
game, if you will, in comparing the two.
    Under START, you were allowed to do up to 28 annual 
inspections of 3 different types. Under the New START, we will 
be able to do 18. But within those 18, there is this double-
duty business at the operating bases. So, the effective number 
is more like 23 or 24. Then, on top of that, the number of 
installations to be inspected under START was 70. The number of 
installations subject to inspection under New START is 35.
    We have inspection numbers that are in the 20s in an 
effective comparison, but half the number of installations. 
That really means this argument that we have a much weaker 
inspection regime, I think, is very questionable.
    Senator Reed. Let me follow up with two questions. One is 
that not only the lessons learned, but also the individuals who 
were participating in this negotiation were veterans of 15 
years of experience of looking at Soviet and Russian systems 
and, frankly, being on the other end of having the Russians 
look at our systems. It is their experience that was 
significant in your input?
    Dr. Warner. It was absolutely indispensible.
    Senator Reed. The other aspect here, too, is that some of 
our concerns are actually protecting our installations and our 
systems from unwanted intrusion. I think the impression often 
is that this is simply the interests of the Russians of 
obscuring what they are doing. It is both sides of the street 
have the similar interest. Is that correct?
    Dr. Warner. We both have the interest in, on one hand, 
allowing people to inspect and verify the relevant data, the 
critical data on numbers of systems, numbers of reentry 
vehicles mounted, et cetera. On the other hand, we have every 
interest, as they do, in protecting our national security 
secrets, if you will.
    Senator Reed. That interest is held by everyone, but I 
would think particularly by the uniformed officers in the Air 
Force and the other strategic systems, who would like to have 
some of their operations not transparent?
    Dr. Warner. We were in very close consultation. Number one, 
we had representation on the team of people from the Services, 
from the Joint Staff, as well as other parts of the 
interagency. We were in close contact. Any of the key issues 
that we were negotiating and going toward agreement had to be, 
in fact, vetted through the so-called backstopping process.
    We were very cautious. We had to strike that balance, 
enough visibility to have good verification, but also 
protecting U.S. national security.
    Senator Reed. Secretary Gottemoeller, any comments?
    Ms. Gottemoeller. Yes, sir. I did want to underscore that a 
very important consideration was disruption to the operational 
tempo (OPTEMPO) of the strategic forces, and it was a 
consideration for the negotiators, I think, on both sides of 
the table because we had found in the 15-year implementation of 
START that quite oftentimes facilities would get closed down by 
repeated inspection activities. So, OPTEMPO for the strategic 
forces was an important consideration.
    Senator Reed. Let me pose a question again to both of you 
that arises consistently, and that is if the failure to ratify 
this New START would create a situation in which there are no 
essential limits that are enforceable. That is somewhat 
rhetorical. You can correct me.
    Also it would tend to, I think, set back any further 
effective negotiations with the Russians on any other major 
weapons systems. Is that a fair judgment, or alternatively, how 
would you describe the situation if the treaty is not ratified? 
Secretary Gottemoeller?
    Ms. Gottemoeller. Yes, Senator. The Moscow Treaty does 
remain in force at this time, with its limits on 1,700 to 2,200 
warheads. A very interesting artifact of the Moscow Treaty, 
however, is that it is in the course of being implemented, but 
there are no sublimits or scheduled limitations and reductions 
that have to take place.
    Those limitations and reductions must be achieved by the 
time the treaty goes out of force in 2012, midnight, the last 
day of December 2012. Those limitations will be in force 
essentially on a momentary basis.
    We are in the process of moving in that direction. I 
believe both countries will actually achieve those reductions 
without much trouble.
    Senator Reed. Can I ask one question about the Moscow 
Treaty? There is speculation that the limits could be reached, 
but moments after the bell tolls at midnight, they could, in 
fact, restore, and we could restore launchers or warheads to 
exceed the limits. Is that true?
    Ms. Gottemoeller. As a legal matter, that would be 
possible. In realistic terms, it is not possible because, of 
course, these are big, complicated systems. It takes time to 
deploy them.
    There are two other points I would like to make about the 
situation we are in at the moment, and the first one is, of 
course, that we no longer have the predictability of a 
verification and inspection regime related to the START treaty. 
The Moscow Treaty was basically built on the foundation of the 
START treaty.
    The important line in the Moscow Treaty was a provision 
that stated that the START treaty remains in force according to 
its terms, which meant that START would continue, its 
verification regime would continue, and it would underpin the 
Moscow Treaty.
    Now, with START out of force, there are simply no 
verification measures, and our predictability regarding the 
Russian strategic forces and, ultimately, our confidence level 
in what is going on there will go down.
    Senator Reed. Thank you very much.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just say, I am probably not going to take all my 
time, but I have been concerned about the process, and I am not 
blaming anyone. Certainly, it is not a partisan concern that I 
have. I look at how significant this is, and this is our 17th 
hearing and the 30th witness. Some have appeared more than one 
time.
    I appreciate this, Mr. Chairman. The hearing that we had 2 
days ago, we had two witnesses that were opposed to the treaty. 
That is 2 witnesses out of 30 witnesses in this period of time 
were opposed to it. I am reminiscent of what we went through at 
that time--it was the Bush administration's fault, in my eyes--
in the Law of the Sea Treaty.
    I didn't like it. I sat through these hearings. I am on 
both the Senate Armed Services Committee and the Senate Foreign 
Relations Committee. They had all the hearings, and everyone 
thought this was the greatest thing in the world. The Democrats 
and the Republicans agreed. I remember it passed out in 2007 of 
the Senate Foreign Relations Committee. The vote was, I think, 
17 to 4. It was pretty near unanimous.
    Yet, they had gone through the same thing. They hadn't had 
any of the witnesses opposed to it. At that time, I was also 
the ranking member or, actually, the chairman--we were a 
majority at that time--of the Senate Environment and Public 
Works Committee, which had jurisdiction over that issue, as 
well as this committee.
    We had hearings. We had hearings here, and we had hearings 
in that committee. We had a lot of people come in to shed new 
light on it. This went all the way back, this treaty, to the 
Reagan days, as this one does, too. So many people came forth 
that we ended up just completely reversing that thing.
    Just my only concern is to have both sides heard, and those 
who are opposed to it, we have a lot of very smart people that 
have been opposed to it. The concerns that I have haven't 
really been addressed that much. You folks are doing a great 
job, and I think this is probably the most informed of the 
administration that I have heard.
    But still there are a lot of things that need to be 
discussed on this thing. Senator McCain talked about the quote, 
his concern with the missile defense connection here with 
Sergey Lavrov. There is another quote by him that I want to 
quote, and that is from April 8. You all are very familiar with 
this quote:

        ``The treaty can operate and be viable only if the 
        United States of America refrains from its development 
        of its missile defense capabilities quantitatively and 
        qualitatively.''

    I was very much disturbed back when we shut down our 
intentions in both Poland and the Czech Republic. I think when 
our own intelligence shows us the capability that Iran is going 
to have by perhaps as early as 2015. I am concerned about what 
we are going to have in place at that time to take care of some 
of the problems to defend this Nation and my 20 kids and 
grandkids. I have been very much concerned about that, and so I 
do have a lot of questions.
    What I would like to do, instead of getting responses to 
questions now, is in addition to the questions that Senator 
McCain had in his opening statement and in his questions, I 
would like to add other questions in the areas of 
modernization, such as is $100 billion a sufficient investment 
in our nuclear delivery systems over the next decade? What 
assurances can you provide that the administration is committed 
to modernizing the above programs? Why aren't they addressing 
this in the 1251 report? What is our triad going to look like 
in the future?
    Under verification, is the verification of the treaty 
adequate to give us the same understanding of the new Russian 
systems as we have of current Russian systems, thanks to START 
I? How important is it that we get telemetry of the new Russian 
missile tests in order to understand the capabilities of the 
systems?
    The administration says on one hand that the treaty is 
verifiable, but on the other hand, it says that cheating is 
irrelevant. You have talked a little bit about that. Do you 
agree cheating is irrelevant? And you have already answered 
that question. If it doesn't matter if Russia cheats, then why 
do we need the treaty?
    Other issues, in missile defense, we have talked a little 
bit about that. But I would like to know when will the United 
States be able to deploy an SM-3 IIB, if that is under the new 
Phased Adaptive Approach (PAA) system, as well as when will we 
be able to support the Phase 1 in terms of the radar, the early 
warning radar system? Where will it be deployed? When will it 
be deployed? Which are the candidate countries?
    In areas of tactical weapons, that is one thing we really 
haven't heard anything why. I am not as smart as you guys and 
the other people who are involved in this thing. So I don't 
understand why in the world we weren't concerned and addressed 
the tactical weapon thing in the original treaty.
    What I am going to do, Mr. Chairman, is ask that all these 
questions in the list that we are providing be answered. But 
the only one I would like to have you address right now is the 
tactical weapons.
    Being outnumbered or outflanked by 10 to 1--it is very 
disturbing to me. This would be something that would more 
directly affect or enhance the capability of, in my opinion, a 
terrorist. Maybe you could just use the remainder of my time 
talking a little bit about tactical weapons, if you would, 
please?
    Ms. Gottemoeller. Yes, Senator Inhofe, with pleasure.
    Actually, with regard to tactical nuclear weapons, it was 
very clear from the outset, and as the Obama administration was 
coming into office, the Strategic Posture Commission, other 
eminent commissions were looking at this question. Indeed, the 
agreement was among a number of eminent experts and the 
incoming administration that we must tackle the problem of 
tactical nuclear weapons.
    The conclusion was, first, we needed to replace the START 
treaty. The START treaty was going out of force in December 
2009, and we needed to move with dispatch to negotiate a 
follow-on treaty to START that would provide the transition 
from START to the next stage of arms reductions. But there was 
always a very, very clear commitment to going after tactical 
nuclear weapons, nonstrategic nuclear weapons.
    President Obama in April, when he signed the New START 
treaty, said very clearly we are now ready to move on to 
nonstrategic, as well as nondeployed nuclear weapons in the 
next stage of reductions. I am pleased that in the context of 
these negotiations, President Medvedev as well has agreed that 
we must continue with further negotiations in the future and 
further reductions. We have the opportunity to work with our 
Russian colleagues on this.
    There is one important factor that affected the 
decisionmaking in this regard, and that is that the NATO 
countries, our NATO allies in this year are involved in a 
review of their strategic concept. As they review their 
strategic concept, they are tackling the very important issue 
of what to do about nonstrategic nuclear weapons, tactical 
nukes inside the NATO alliance. We really felt it was very 
important that we not in any way--in any way--undermine that 
important process of the NATO strategic review, which, of 
course, we take part in as a member of the NATO alliance.
    In many ways, we did not want to rush ahead of NATO and 
NATO decisions in our own plans for negotiating further 
reductions.
    Senator Inhofe. Madam Secretary, I appreciate that.
    My time has expired. But for the record, I would like to 
have you go into a little more depth as to why then the 
tactical weapons weren't a part of this. I understand what you 
are saying, but I think we need to elaborate on that.
    [The information referred to follows:]

    A more ambitious treaty that addressed nonstrategic/tactical 
nuclear weapons would have taken much longer to complete, adding 
significantly to the time before a successor agreement, including 
verification measures, could enter into force following the START 
treaty's expiration in December 2009. This fact, combined with the need 
to consult closely with our allies before addressing nonstrategic/
tactical nuclear weapons, did not support broadening the scope of the 
New START treaty. This approach was consistent with the bipartisan 
Perry-Schlesinger Congressional Strategic Posture Commission's 
recommendation to ``pursue a step-by-step approach,'' and to make the 
first step ``modest and straightforward.'' The Commission recommended 
deferring negotiations on tactical nuclear weapons until after a START 
successor agreement had been concluded.
    At their London Summit on April 1, 2009, President Obama and 
President Medvedev committed to ``achieving a nuclear-free world, while 
recognizing that this long-term goal will require a new emphasis on 
arms control. . . .'' President Medvedev expressed interest in future 
discussions on measures to further reduce both nations' nuclear 
arsenals when he and President Obama signed the New START treaty in 
Prague on April 8, 2010. As President Obama made clear on that 
occasion, we intend to raise strategic and nonstrategic/tactical 
nuclear weapons, including nondeployed nuclear weapons, in those 
discussions.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    The administration does have a significant number of 
questions, which we have asked. The answers are not yet due. It 
is a large number. But we will, of course, expect that the 
answers will be filed by the time they are due. If not, if you 
could make sure that you come to us, let us know that you can't 
meet a deadline and seek an understanding relative to that.
    Ms. Gottemoeller. Thank you, Mr. Chairman. It is our 
expectation we will answer them in the time accorded to us.
    Chairman Levin. All right. Then, Senator Inhofe may have 
additional questions, which he referred to, and any of those 
questions we would give you a reasonable time to answer, if 
they are in addition to the ones already submitted. That would 
be true for all the members of the committee that if there are 
additional questions for the record, we will get them to you.
    Ms. Gottemoeller. Certainly, sir.
    Chairman Levin. Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Let me thank both of the witnesses, both for not just being 
here today, but for the work you did on this. It is easy to 
look back from our standpoint and be critical. But having been 
in your shoes and negotiated over the years in law practice, I 
understand how difficult your job was.
    The way I understand this, though, I am puzzled by the 
numbers. We knew, obviously, during the course of the 
negotiation that the number of Russian weapons were in decline. 
They have been in decline over several years, and actually, the 
maximum number allowed under the treaty is not even present in 
the Russian inventory now. We obviously knew that. So the 
Russians have an opportunity to build up their inventory while 
we are required to go down with our inventory.
    That part of the negotiation bothers me, to some extent. 
But the numbers part of it, or the fuzzy numbers part of it, 
bothers me even more is the Russians could line up 15 long-
range bombers on a runway and load them up with 6 bombs each 
that would contain nuclear warheads, and that would be 90 bombs 
that would be in those 15 long-range bombers. Yet, under the 
rules of this treaty, that only counts as 15 bombs or 15 
warheads.
    Why would we agree to something like that? Why wouldn't it 
be a one-for-one deal on both sides with respect to those kinds 
of counting?
    Ms. Gottemoeller. Senator Chambliss, those are excellent 
questions. First of all, neither the Russian Federation nor the 
United States has for many years, on a day-in/day-out basis, 
loaded nuclear weapons on their bombers. They are, of course, 
retained as part of our nuclear arsenal, if needed. But on a 
day-in/day-out basis, they are not on so-called ``strip 
alert,'' ready to fly out.
    There are many reasons for that, but the primary one is 
that we are not in the kind of crisis era of the Cold War. 
There is a view that, in fact, the bombers can be in that role. 
In our case, we are really placing an emphasis more and more on 
conventional missions for our long-range bombers.
    I think in our own Armed Forces, in our Air Force, there is 
a very firm view that we did not want to have to over count our 
bombers if we have more bombers than the Russian Federation 
does. I am going to allow my colleague to speak to this in a 
moment. But if we had to count more bombs on the bombers, that 
would really up the numbers in the central limits for warheads 
inside the treaty as far as we are concerned. We would end up 
paying a price for it.
    That was one of the critical issues. We wanted to find a 
counting rule for the bombers that would continue to express 
that they have a nuclear mission, but that on a day-in/day-out 
basis, they really don't carry nuclear bombs.
    We do have some security in this regard because we have a 
right during onsite inspections to go and check and look inside 
the bombers. We even have a right to take radiation detection 
equipment and check out what is inside the bombers. If we find 
that the Russians are starting to put nuclear bombs back on 
their bombers, we are going to find out about it.
    Senator Chambliss. Dr. Warner, any comment? Let me just 
preface before your comments that I appreciate your comments, 
Secretary Gottemoeller. But the fact is that we know that we 
have loaded nuclear weapons on our bombers. It happened 2 years 
ago. It may have been by accident, but it does happen.
    Second, the Russians have a long-range plan for the 
production of additional bombers that I know, Dr. Warner, you 
are very well aware of, and we have no similar plan. That is 
one reason this particularly concerns me.
    Excuse me, Dr. Warner, go ahead.
    Dr. Warner. No problem, sir.
    To summarize or to spin off of the point that was made by 
Secretary Gottemoeller, if we counted by the rule of what is 
operationally deployed, what is on, then the number would have 
been zero. We elected to use a representational number of one, 
which, as you say, does not actually adequately express the 
real capability of the bombers on both sides. Having said that, 
because these bombers are not on alert, that was a better 
solution than zero.
    The other point that has been made is that bombers are slow 
fliers relative to ballistic missiles, and in the arcane 
analysis of strategic stability, of the threat that one can 
pose to one another, bombers are less destabilizing. They do 
not have the promise of delivering a first strike within 
minutes, within 10 minutes, which is the possibility of both 
the ballistic missile characteristics of the ICBMs and SLBMs.
    Under the START treaty, bombers were also under counted. 
They were under-counted in a somewhat different way. It 
depended whether they had air-launched cruise missiles or 
bombs, but there has been a tradition of counting them in this 
manner.
    I agree with you that the 1,550 doesn't really represent 
the total capability of either side by a few hundred weapons. 
But in our view, it represented an effective practice for doing 
this that is similar to the de facto arrangements that are 
present in the Moscow Treaty, and it is very similar to what 
was done under START.
    Senator Chambliss. There is reference in the treaty with 
regard to mobile launchers. But there is no reference to rail 
launchers. Yet, we have seen reports in the press and reports 
coming out of Russia that rail-launched mechanisms are under 
consideration by the Russians.
    Was there a reason that rail mobile launchers were not 
included?
    Ms. Gottemoeller. Yes, sir. The very direct reason is that, 
at the present time, neither the United States nor the Russian 
Federation deploys rail mobile ICBMs. I will underscore that 
should the Russians begin to develop and deploy rail mobile 
ICBMs, they would be captured by the central limits of this 
treaty. They would be captured by the definition of launchers.
    In that case, we would go to the Russians in the Bilateral 
Consultative Commission and say, ``all right, you are deploying 
a new system. We have to work out the special inspection and 
verification measures that will be required for this new 
system.'' There may be some other changes that would have to be 
made, but all of those measures that would relate to a newly 
deployed rail mobile missile we would be able to work out.
    Dr. Warner. The definition of an ICBM launcher really says 
anything that can hold or launch an ICBM will count as a 
launcher. The fact that we didn't specify rail or road, 
anything that meets that definition would be counted and 
captured as a launcher. The definition of an ICBM, in terms of 
the distance of the type of missile, we will also capture.
    While there were rail mobile launchers in the Soviet 
period, and they lasted until about 2005, there are none today. 
There may be talk of future ones. We will see. But we gave a 
definition of the ICBM launcher and ICBM that would absolutely 
capture them. They would count. Arrangements for the specific 
questions of new bases that might be involved would be 
undertaken in the normal way if either side adds systems to its 
strategic arsenal.
    Senator Chambliss. Very quickly, if this treaty is 
ratified, and 2 years from today, President Obama decides he 
wants to nullify the treaty, can he simply write a letter to 
President Medvedev, or whoever it may be, and say we are no 
longer going to comply with the treaty?
    Ms. Gottemoeller. If that were the case, sir, the President 
would make a determination that the treaty is no longer in our 
national security interests, and the procedures would be 
followed.
    To be quite honest with you, I don't know exactly what the 
procedures would be. But this is only to say that as in other 
arms control treaties back through time and a large number of 
national security treaties in general, there is a withdrawal 
clause that if the U.S. President and the United States decide 
that a treaty is no longer in our interest, in our national 
security interest, there is an opportunity to withdraw.
    Senator Chambliss. Thank you very much.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Gottemoeller and Dr. Warner, thank you for being 
with us today. I want to get at the rationale behind the New 
START limit of 700 delivery vehicles. I want to preface that by 
saying that a year ago, we had General Cartwright, who is the 
Vice Chair of the Joint Chiefs of Staff and a former head of 
STRATCOM, before our committee. He testified in front of this 
committee that he would be ``very concerned about endangering 
the triad if the number of strategic delivery vehicles dropped 
below the 800 number.''
    Yet, the New START treaty limits the number of delivery 
vehicles to 700. I guess I would be interested in knowing, if 
you could walk me through, what occurred during the 
negotiations on this particular issue of delivery vehicles. 
What will the negotiating transcript reflect with regard to the 
discussion of delivery vehicles?
    Because at the outset, we were talking about a range of 500 
to 1,100, and how do we end up at the 700 number?
    Ms. Gottemoeller. Senator, I am going to let my colleague 
speak to this question mostly, but I did want to make an 
introductory remark, which is that, quite rightly, you point to 
the joint understanding of July 8, 2009, that President Obama 
and President Medvedev signed in Moscow. The Russians proposed 
500. We had proposed 1,100.
    This was the Russian attempt to constrain our delivery 
vehicles and constrain our ability to upload. They were trying 
to drive our numbers down very low for delivery vehicles, and 
the negotiation that ensued, I think, really represented a very 
solid move away.
    I will tell you, quite honestly, as the negotiator, I was 
surprised that the Russians didn't try harder to go after 
upload capability on the U.S. side. As a matter of fact, that 
was one of the early goals that they stated very, very clearly, 
from their expert community. It was a surprise to me. But we 
ended up, I think, in a very good place.
    Ted?
    Dr. Warner. Let me directly address the issue of the 800 to 
700. As the negotiations unfolded in the summer and into the 
early fall, one of the key issues was the definition of a 
deployed versus a nondeployed system. The fact that we then 
adopted a definition that a deployed missile is only when the 
missile is located in its launcher--in the SSBN tube, in the 
SLBM tube, in the strategic submarine, in the silo launcher, or 
on a mobile ICBM launcher--why did that make a difference?
    Over the next decade, we are going to have two of our 
strategic submarines in this lengthy midlife overhaul, which is 
coming at the middle of their 40-plus years of service in order 
to restore their nuclear power plant and do other work. When 
they are in this overhaul for well over nearly 2 years, they do 
not have missiles associated with them. Therefore, those 
submarines do not count. Under START, they used to count even 
in this shape. Under this new treaty, they do not count when 
there are no missiles in the launchers.
    A second issue that we worked out with the Russians was the 
ability to reduce the number of launch tubes on a given 
submarine. Today, the Trident has 24 launch tubes. We have 
plans, as indicated in the 1251 report, to take out four of 
those tubes, to disable them for use in launching strategic 
missiles.
    Therefore, we can still have the same number of submarines 
at sea. We can spread the number of warheads we want to carry 
per boat among the other 20 missiles, but we have 4 less 
launchers on each.
    When you combine that ability to not count the 2 that are 
in extended overhaul and you are able to take 4 tubes out of 14 
submarines, that alone adds up to 96 less tubes. Those 96 less 
as deployed systems were not being taken into consideration by 
General Cartwright when he was citing the 800 number.
    In addition, we have the opportunity to take the Minuteman 
missiles out of their launchers, to maintain the launcher in a 
caretaker status, if we choose to, and to maintain the missile 
and, if circumstances make it necessary, to put them back in. 
There is flexibility in the ICBM force as well on this deployed 
and nondeployed.
    Finally, we also show in our 1251 report that we intend to 
convert to conventional-only capability some share of the B-
52Hs, which has not yet been determined. It is part of that 
mathematics of coming to the 700.
    Now there is a third limit we haven't mentioned. There is 
the limit of 1,550 warheads, 700 deployed strategic delivery 
vehicles--not really launchers, but delivery vehicles. Finally, 
there is the 800 limit, which means that it is the deployed and 
nondeployed ICBM and SLBM launchers and bombers.
    That provides a constraint on how many nondeployed systems 
you can have, but the things I just indicated--the individual 
elimination or conversion of tubes on submarines, the two 
submarines in deep overhaul, even with the test assets and so 
forth, we have the flexibility to live with the 700 deployed 
systems and nevertheless meet our needs and be able to have a 
strong, resilient triad.
    Senator Thune. Without making the distinction between 
deployed and nondeployed, did you have, going into the 
negotiations, though, a bottom-line, redline number of deployed 
delivery vehicles? Was 800 that number?
    Dr. Warner. Under the NPR, there had been a number of 
studies done, beginning in mid-spring, as the NPR got underway, 
which were looking at the requirements to meet the national 
guidance and many other requirements. They helped inform our 
negotiating position.
    There was never a set number that it would be, and to my 
knowledge, there was never an individual number, ``no lower 
than.'' But I think once we came to understand the flexibility 
provided in the deployed and nondeployed, then we could take 
the very concrete rules of the game, if you will, do the 
analysis and see, could we sustain a triad? Could we sustain a 
triad with enough warheads spread amongst it that it would meet 
our requirements not only against Russia, but against all other 
things that we wish to use our central strategic deterrent 
force for?
    There was a steady, in a sense, a rolling responsive 
analysis done as the different rules became available. 
Ultimately, it was agreed by the Joint Chiefs, by the 
Secretary, and within the interagency all the way to the 
President, that under these conditions, this would meet the 
requirements.
    Senator Thune. Were you and the administration prepared to 
go below 700?
    Dr. Warner. I can't speak to that. It is above my pay 
grade. We went to 700, and that is where we ended up.
    Senator Thune. My understanding is the Russians aren't 
going to have to cut their number of delivery vehicles because 
they are already well below 700. Since they don't have to make 
cuts in the number of delivery vehicles, what concessions did 
we obtain from the Russians in exchange for us reducing our 
delivery vehicles below that number?
    Ms. Gottemoeller. Sir, from the outset, it was clear that 
the Russians were suffering a mass obsolescence of their older 
ICBMs, the SS-18s and the SS-19s. We went into the negotiations 
knowing that this was what the circumstance was. We needed to 
have what we needed out of the negotiations, which, as Ted has 
gone through very well, was 700 deployed delivery vehicles and 
800 deployed and nondeployed launchers. That is great 
flexibility for maintaining our strategic nuclear triad.
    As far as the Russians are concerned, they are going to be 
required to stay under the central limits of this treaty, 
particularly with regard to the 1,550 warheads. That central 
limit will be very important, I think, in maintaining an equal 
balance and strategic stability between the two sides.
    If I may mention also the deployed and nondeployed launcher 
limit will affect them because they have a lot of decrepit 
launch systems, submarines and so forth, that they are going to 
have to put some money into destroying. It is, I think, 
important to underscore that the Russians will have to do some 
eliminations under this treaty as well.
    Senator Thune. The 1251 report explains that the U.S. 
nuclear force structure under the treaty could comprise 420 
ICBMs, 240 submarine-launched ballistic missiles, and 60 
bombers. Now the deployments at the maximum level of all 3 legs 
of the triad under that explanation add up to 720 delivery 
vehicles.
    So it is mathematically impossible for the United States to 
make such a deployment and be in compliance with the treaty's 
limit of 700 deployed strategic nuclear delivery vehicles. 
Clearly, there would have to be some additional reduction 
decisions made. There is also, since it covers prompt global 
strike, that platform, my assumption is there is going to have 
to be and there are going to be decisions made down the road.
    I guess my question would be which of the 3 legs of the 
triad do you envision we would have to reduce in order to 
accommodate getting from today, because if we are talking about 
720 and the number of the hard limit is 700, you have some 
ground we would have to give up there, as well as counting 
prompt global strike under the number. How would you see us 
accommodating this?
    Ms. Gottemoeller. Senator, this also is a question for my 
colleague from the Pentagon, but I did want to make one point. 
That is that this treaty has a 7-year reduction period, 10-year 
life of the treaty overall. In order to implement these 
reductions, we have a 7-year period. We don't have to hit 700 
any time soon.
    Dr. Warner. The deliberations were among the Chiefs with 
the Commander of STRATCOM, General Chilton, and ultimately in 
discussions with the Secretary and the Deputy Secretary. The 
baseline planning structure that was laid out in 1251 is the 
one that you cited.
    It does have an addition problem in the sense that it has a 
couple of ``up tos,'' the up to 420 in the ICBM launchers for 
the single RV Minuteman, the up to 60 heavy bombers, and the 
240 launchers on the submarines. It was just thought that at 
this time with the 7-year reduction--those are very close. The 
main center of gravity of how to get there is really 
established within those numbers. The swing area is between 20 
on the ICBMS and that of the bombers.
    The decision was made at this time not to need to make that 
commitment yet because of the 7 years. It will be examined over 
time. It provided us with flexibility. I want to emphasize that 
the lion's share of what is going to be in that strategic force 
is provided in that baseline.
    Senator Thune. But what I heard you just say, however, is 
that you would see that reduction being dealt with between 
ICBMs and bombers?
    Dr. Warner. At this point, with this set of decisionmakers, 
that is certainly where they were.
    Senator Thune. I see my time has expired. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I appreciate the opportunity to be with you, and I remain 
of the view that we have been too anxious to obtain this 
treaty, which is not the most important thing we need to be 
doing at this time to deal with the proliferation of nuclear 
weapons. We have serious problems in a lot of different areas 
that need rigorous attention.
    I just noticed in today's Washington Times a report that 
two intelligence officials and other U.S. officials with access 
to intelligence reports said information compiled over the past 
7 months showed agents from several foreign governments, 
including Brazil, Burma, Iran, Nigeria, North Korea, Sudan, and 
Syria, pursued members of the Abdul Khan network that 
distributed nuclear weapons.
    Now the essence of that story, as far as I am concerned, is 
that a lot of countries are still seeking nuclear weapons, and 
this is the kind of proliferation that is dangerous. I worry 
about it. I don't feel like we have this right. I don't feel 
like the Russian strategic weapons level is that important 
since they probably are going to reduce their strategic weapons 
anyway, and we achieve nothing with regard to the tactical 
weapons that they have and in which they have a 10-to-1 
advantage. I am just raising questions about this, and I am 
concerned about it.
    With regard to missile defense, I am uneasy about that. The 
protestations from the administration notwithstanding, in 
response to a question for the record from Senator Wicker to 
Secretary Clinton from the May 18th hearing in the Senate 
Foreign Relations Committee, Secretary Clinton seemed to 
deviate from a prior administration statement on the planned 
deployment of Phase 4 of the PAA to missile defense in Europe.
    In her response, Secretary Clinton referred to that 
deployment as being possible, not the program of record plan 
that had been presented to Congress and is specified in the 
Ballistic Missile Defense Review of 2010. The statement, in 
effect, says including the possible deployment of SM-3 Block 
IIB under Phase 4 to defend the ICBM threat from the Middle 
East.
    Do we have a firm commitment from this administration to 
move forward to actually deploy SM-3 Block IIB in Europe to 
defend against possible missile threats from the Middle East, 
or is it now a possible activity sometime in the distant 
future?
    Ms. Gottemoeller. Senator, I think the emphasis in that 
response was on the adaptive nature, the so-called PAA. It has 
been the policy of the administration to keep a close eye on 
the actual threats that are emerging and to adapt the 
deployments according to the threats as they are emerging 
against our friends and allies in Europe. I believe that that 
was the intent of that question and no other.
    Ted, do you wish to add anything on this?
    Dr. Warner. I would have to look for the exact wording. I 
have not been in the middle of PAA. It does have the four 
phases. The fourth phase is associated with the Standard 
Missile-3 Block IIB. On this question of whether it is an 
ironclad commitment that they go at this time or that is what 
the phase looks like is going to depend on how things evolve. I 
would have to check the NPR, sir.
    Senator Sessions. Let me tell you what concerns me. We have 
deployed a missile system in Alaska and several in California 
that could defend us potentially against most of the world and 
particularly the Pacific, North Korea-type launch, a limited 
launch against the United States.
    The plans were to take that three-stage missile, develop it 
into a two-stage missile and be able to deploy it in 2015, 2016 
in Central Europe that could provide an additional protection 
against missile launches from Iran and perhaps a rogue launch 
from Russia. Well, this has been abandoned.
    What the technology has proven, it is simpler to have a 
two-stage than a three-stage, and out of the blue, it has come 
forward that there is going to be a plan to develop a new SM-3 
Block IIB that could be deployed in Europe, that could be 
effective against an Iranian missile launch that would come 
over Europe to get to the United States. It is very good place 
throughout that region to deploy it. It is not even on the 
drawing board. It is 2020, after the time intelligence experts 
tell us it could be deployed.
    So not having fallen off the turnip truck last week, I am 
of the view that this signals a decision not to deploy what was 
virtually ready to begin to be deployed, to put it off in the 
future, and I am not at all surprised that Secretary Clinton 
would say it is possibly now to be deployed and no longer our 
plan to deploy it.
    Why shouldn't we conclude in Congress that as part of your 
negotiations with Russia, who have consistently objected to the 
deployment of these kind of missiles, why shouldn't we conclude 
that you have, indeed, conceded an important commitment of the 
United States to deploy a system in Europe? Why shouldn't we 
conclude that?
    Ms. Gottemoeller. Senator Sessions, you will have to 
forgive me. I am not an expert on the details of our missile 
defense plans and programs, as I was really focused on these 
START negotiations. We will certainly get answers for you for 
the questions that you raise.
    I did want to emphasize, though, the statement of policy 
that the United States made. It is our unilateral statement 
made on April 7, 2010.
    It says:

          ``The United States missile defense systems are not 
        intended to affect the strategic balance with Russia. 
        The United States missile defense systems would be 
        employed to defend the United States against limited 
        missile launches and to defend its deployed forces, 
        allies, and partners against regional threats. The 
        United States intends to continue improving and 
        deploying its missile defense systems in order to 
        defend itself against limited attack and as part of our 
        collaborative approach to strengthening stability in 
        key regions.''

    As far as our negotiations were concerned, we were very, 
very clear with the Russian Federation that that is our policy, 
and that is not only for the Russian Federation, but for other 
audiences, that is a statement of our policy.
    Senator Sessions. But the Russians have made clear that 
they don't accept any qualitative or quantitative improvements 
in our missile defense system, and they have the right to 
withdraw from the treaty for really any reason they choose. 
They have made clear they will not accept that. It appears to 
me we will be in a situation, if we actually go forward with a 
system in Europe, that the Russians will threaten to get out of 
the treaty because we do not have an agreement on this with the 
Russians.
    The Russians are saying no, and we are saying we don't give 
up the right to go forward. They have a right to get out of the 
treaty, and I think it is going to be very much a threatening 
situation that they will suggest that this treaty, they will 
move out of the treaty if we have even a limited system.
    Which really is bizarre since it has no threat to Russia 
and the massive number of weapon systems they have. A limited 
system that could protect us from a rogue state or an 
accidental launch is not a threat to Russian strategic nuclear 
weapons.
    Dr. Warner. Senator, if I could?
    Senator Sessions. Yes.
    Dr. Warner. I want to build exactly on the point you made. 
In the Russian unilateral statement, they do make the statement 
about they are unhappy with potential qualitative or 
quantitative increase in our missile defenses.
    Senator Sessions. They have been objecting for years over 
that.
    Dr. Warner. That is what Secretary Gates said. They have 
not been an enthusiast for our missile defense for many years. 
But they go on, in the last sentence, they say, ``Consequently, 
the extraordinary events referred to in Article XIV of the 
treaty,'' this is the potential withdrawal, ``also include a 
buildup in the missile defense capabilities of the United 
States of America such that it would give rise to a threat to 
the strategic nuclear force potential of the Russian 
Federation.'' That will not be the case of the PAA.
    Senator Sessions. It wouldn't be the case with the two-
stage system we were talking about putting in Europe either.
    Dr. Warner. I understand. I understand.
    Senator Sessions. They objected to that.
    Dr. Warner. I am saying they can object all they want, but 
the only point they made here about potential withdrawal is if 
we build missile defenses that threaten the strategic nuclear 
potential. That is not the case. You made the case yourself 
very clearly and very correctly, sir. That is the small, the 30 
or so interceptors we currently have for the defense of the 
Homeland and the system that we are building in Europe, if we 
go ahead with all four phases.
    I think the possibility here is largely, does the Iranian 
threat emerge? If the Iranian threat emerges, I believe we are 
committed to move forward all the way through Phase 4. So the 
only possibility issue is were we to succeed in getting the 
Iranians not to pose an intercontinental nuclear threat to us.
    But in any case, I think you have made the point very 
clearly, sir, that the Russians are concerned about something 
undercutting their strategic nuclear forces. Our missile 
defense activities will not do that. Neither our system in 
Alaska, nor our system in California, nor the PAA in Europe 
will pose it. General O'Reilly has talked with the Russians and 
briefed the Russians to make clear to them the nature of our 
future capability through all four phases will meet our needs 
vis-a-vis Iran, will not threaten Russian strategic nuclear 
forces.
    Senator Sessions. I hope that is true. I will just say that 
we went from a situation in which we were able to deploy a 
system in 2016, when the intelligence agencies tell us we need 
it, to a fourth phase of a plan that possibly could result in 
the deployment of a system in 2020.
    Forgive me if it makes me uneasy. It appears to me this is 
the way you kill a program. You put it off indefinitely into 
the future and take it off reality and put it in unreality in 
the vapors somewhere in the future, and that is my concern.
    I thank all of you for your hard work. I know this is not 
an easy thing. I don't criticize you for working on this and 
trying to bring us a treaty that we can support. But I am 
uneasy about it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I thank the witnesses for testifying, too, and also for 
your hard work on this very, very important issue.
    Ratifying the New START provides the United States with an 
opportunity to negotiate with Russia on tactical nuclear 
weapons, as well as enhance U.S.-Russian military and 
diplomatic ties. We will not obtain cooperation with Russia on 
tactical nuclear weapons without ratifying the New START.
    During yesterday's hearing, subject matter experts not tied 
to the administration indicated that tactical nuclear weapons 
are valuable to the Russian military doctrine. The witnesses 
also indicated that Russian tactical nuclear weapons are also 
strategic threats. Additionally, Russia uses its numerical 
advantage in tactical nuclear weapons to forcefully coerce its 
neighbors to adopting policies that favor Russian interests.
    My question is if the Senate ratifies New START, what type 
of Russian cooperation do you believe we can expect to receive 
regarding limitations on tactical nuclear weapons and 
preventing proliferation?
    Ms. Gottemoeller. Thank you, Senator.
    The preamble to the treaty makes note of our aspiration 
once we have completed the process of negotiating New START and 
ratifying it, bringing it into force, that we will move on to 
further stages of negotiations. President Medvedev has made 
statements about this in his speech in Helsinki, and he also 
agreed with President Obama last April a year ago--that is, in 
2009--when they were in London together, that there would be 
further stages of negotiations following completion of the New 
START treaty.
    We are currently thinking ahead and planning. As President 
Obama stated very clearly in Prague just this last April, when 
we signed the treaty, he stated very clearly that we will move 
on in the next stage of negotiations to tackle tactical nuclear 
weapons and also nondeployed nuclear weapons.
    These are very clearly our tasks laid out ahead, and I want 
to get on with it.
    Dr. Warner. The only thing I would add, it will be a tough 
negotiation. People have talked about the reality of the 
symmetry in numbers between these two and the relative 
dependence. That doesn't mean, and I don't think there will be 
any zero answer on tactical nuclear weapons. In other words, 
the Russians will want to sustain a tactical nuclear arsenal.
    I do believe there is an opportunity to negotiate 
reductions and limitations in this area, and the only road to 
getting on that path at this point is to ratify and enter into 
force with this treaty. That will give us, I think, an impetus 
to begin what will be a difficult negotiation.
    Senator Hagan. Thank you.
    It is important to discuss nuclear arms control with the 
Russians within the context of the evolving U.S.-Russian 
relations and geopolitical realities. New START ensures a 
degree of predictability in the bilateral relationship that can 
be used as an important mechanism to facilitate cooperation on 
our mutual interest, regional interest. New START does not 
prevent the United States or Russia from developing new 
strategic nuclear weapons capabilities.
    Yesterday, our committee received testimony from a variety 
of experts, once again not tied to the administration. 
Witnesses emphasized the Russians placed enormous significance 
in maintaining strategic nuclear parity with us. The witnesses 
anticipated that the Russians would likely build more strategic 
nuclear capabilities. If anyone fears that Russia is poised to 
launch a buildup of nuclear weapons, would it not be wiser to 
restrain them with this particular treaty?
    Ms. Gottemoeller. Ma'am, it is absolutely the case that 
both countries have the opportunity to modernize under this 
treaty. That is the very first paragraph of Article V. We both 
have the opportunity to modernize. I think that is important.
    The other key point about this treaty, and you mentioned 
the word yourself, ``predictability.'' You mentioned 
predictability in U.S.-Russian relations overall, but within 
our strategic nuclear relationship, the predictability that is 
provided by this treaty helps us to understand not only what 
decisions the Russians are making about modernization, where 
they are heading, what kinds of programs they are developing 
and beginning to deploy, but also helps us to understand what 
is going on with the day-to-day operations of their forces.
    That is what is so very important about the verification 
and inspection regime. I do agree that predictability, it is 
inherent in this treaty if it is ratified and enters into 
force.
    Dr. Warner. I might just add one point. I have been a 
student of first, Soviet, and then, Russian, military affairs 
for too many years to count. I think we still have a hangover 
of the impression we had about the Russian military and the 
Russian strategic nuclear forces of the late 1990s. At that 
time, given the great difficulties that Russia was 
encountering, it was really true that this obsolescence of the 
old systems, the block obsolescence was just marching at them. 
The forces were coming down.
    The Russia of 2010, while it was affected by the global 
financial problem, is still quite different. They have the 
options to invest and even to have larger forces were they to 
choose to do so.
    I think it is very important--it is a fact that because of 
the different composition of our forces--we are deMIRVing our 
ICBMs and taking off the multiple warheads. They continue to 
have multiple warheads in silos and also a new system that has 
just become operational for the first time, a multiple warhead 
mobile system.
    Because of the difference in structure, they have a smaller 
number of delivery vehicles than we do. But they are really in 
the position--and I think the IC has commented on this--that if 
they wished to go to higher levels, something they really 
couldn't contemplate, I think, a decade ago, they can 
contemplate now.
    Even though they are below the limits right now, it is 
useful to ensure they stay no higher than those limits that are 
mutually agreeable that both sides can ensure their security 
with.
    Senator Hagan. Thank you.
    Ratifying New START will underscore our commitment and 
emphasis toward nonproliferation, and ratifying the treaty will 
assist us in garnering international consensus regarding 
nuclear weapons proliferation challenges from rogue states, 
such as Iran and North Korea. It will also send a positive 
message in achieving consensus with other countries on nuclear 
issues.
    Will ratifying New START assist the United States in 
encouraging the non-nuclear states to sign and abide by the 
Nonproliferation Treaty?
    Ms. Gottemoeller. Ma'am, already with the negotiation and 
signature of New START, we have been seeing some beneficial 
effects in this regard. As you may recall, back in May, after 
the treaty was signed in April, we were working very hard to 
achieve a sixth resolution in the U.N. Security Council in 
order to send a strong message to Iran that their behavior with 
regard to their nuclear program is unacceptable to the 
international community.
    I understand that the diplomacy with regard to achieving 
that resolution was very much strongly conducted by the United 
States of America, and the cooperation we were able to achieve 
with the Russian Federation, with China, with other members of 
the U.N. Security Council, the influence of our having just 
signed the START treaty was very evident.
    I think there has already been a beneficial effect. I 
believe if we ratify this treaty and it is brought into force 
that the momentum of that process will ensure other successes 
in our fight against the proliferation of nuclear weapons and 
other weapons of mass destruction.
    Senator Hagan. Dr. Warner?
    Dr. Warner. The other incident that happened was the review 
conference on the Nonproliferation Treaty. We have a 
responsibility within that treaty. We, the super powers, the 
Russians and the United States--the old term, ``the super 
powers''--we had a commitment to make progress in reducing our 
nuclear capabilities, our nuclear forces, as we also ask others 
to forego having nuclear weapons.
    Now that doesn't guarantee anything, but I think we did get 
a result in that review conference held at the U.N. in May. I 
think we got a very favorable resonance there as well from 
having recently, just a month before, signed this treaty.
    Senator Hagan. Do you hear any discussions with these 
countries as we debate this treaty?
    Ms. Gottemoeller. Yes. I just wanted to mention that two 
other major conventions have been discussed this morning, and 
that is the review conference for the CWC and the BWC. Both of 
those major conventions will have review conferences over the 
next 2, 3 years.
    I think the kind of leadership we have been able to show by 
negotiating signing and, we hope, ratifying and bringing into 
force the New START treaty will, I think, really boost our 
opportunities for success, for making really positive progress 
on some of the problems that the compliance report of DOS has 
raised.
    The Russian Federation has, indeed, had difficulties 
achieving all of the necessary reductions in its chemical 
weapons stockpile. I must say, Senator, that the United States 
is having difficulties as well. We have to work together on 
ensuring that the proper reductions are taken according to the 
CWC.
    It is the kind of cooperative environment that was created 
by the START negotiations that will help us not only in our 
work with Russia, but with other countries under these major 
regimes. I really do think that it provides us the momentum we 
need for leadership across this arena in both arms control and 
in nonproliferation.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    On the CWC compliance issue, you said parenthetically that 
we weren't able to comply with its requirements either. As a 
matter of fact, we had to seek and obtain an extension of the 
deadline from 2007 to 2012. Is that correct?
    Ms. Gottemoeller. Yes, sir.
    Chairman Levin. That was a one-time extension?
    Ms. Gottemoeller. Yes.
    Chairman Levin. If we can't make the destruction 
requirements by 2012, then what? Then we won't be in 
compliance, but there is no provision for an extension. Then 
what?
    Ms. Gottemoeller. Sir, we hope to and plan to work very 
closely again with the Organization for the Prohibition of 
Chemical Weapons, the implementing body of the CWC, and with 
the other countries who are concerned with this matter, 
including the Russian Federation, to come to some 
accommodation.
    Chairman Levin. Now the reference, I believe, was made by 
Senator Thune to a statement of General Cartwright relative to 
the minimum number of delivery vehicles that he would be 
comfortable with. I understand, I believe here that Mr. 
Elliott, who is Admiral Mullen's representative to the talks, 
is with us here this morning. I don't want to ask him to 
comment on it here because my colleagues aren't here for that 
purpose, and it wouldn't be fair for me to do that, I don't 
think.
    But it is appropriate for me to say that there will be a 
question for the record for General Cartwright about that 
comment. We would appreciate, Mr. Elliott, your identifying 
that in the answer to a question for the record, what that 
comment was and whether there is a change in his position or 
exactly what his position is relative to it. It was a comment 
that was made, apparently.
    Now, on the statement as to whether or not DOS has 
concluded that the Russians are not in compliance or whether or 
not there remain questions or uncertainty or lack of clarity 
about Russian compliance with the CWC, I am going to ask you, 
Secretary Gottemoeller, also for the record to go into that 
issue into a little more detail.
    Senator McCain made reference to a language here that I 
can't find, but I assume it is in this report finding that the 
Russians are not in compliance. That is different from 
uncertainty about compliance or lack of clarity about 
compliance. Somewhere in there, those words ``not in 
compliance'' appear that were quoted by Senator McCain. Can you 
comment for the record on that finding and what the 
significance is of that relative to our consideration of the 
New START treaty?
    Ms. Gottemoeller. Yes, sir. I would be glad to do so. I 
welcome the opportunity to look closely at the language myself. 
I don't know it by heart.
    [The information referred to follows:]

    The July 2010 Compliance Report states that the United States is 
unable to ascertain whether Russia's CWC declaration is complete as it 
relates to CW production facilities, CW development facilities, and CW 
stockpiles, and whether Russia is complying with the CWC-established 
criteria for destruction and verification of its CW. For further 
information about the U.S. conclusions regarding Russia's compliance 
with the CWC, please see the classified version of the July 2010 
Compliance Report.
    We believe the New START treaty should be evaluated on its merits, 
and that it will make a vital contribution to maintaining stability and 
transparency in our strategic nuclear relationship with Russia.
    We note that under the START and INF treaties, the Russian 
Federation did not attempt to increase its forces beyond treaty limits; 
we have no reason to expect Russia will do so under New START.

    Chairman Levin. Okay. On the tactical nuclear weapons, they 
were not covered by START I. Is that correct?
    Ms. Gottemoeller. That is correct, sir.
    Chairman Levin. I think it is in everybody's interest that 
those negotiations begin and that we try to reach an agreement 
on tactical nuclear weapons with the Russians. I think many 
presidents have said the same thing, and I think this president 
has said the same thing. But they have not yet been included in 
a treaty, and my question is would rejection of the New START 
treaty make it more or less likely that we would begin 
discussions with the Russians on limitations of tactical 
nuclear weapons?
    Ms. Gottemoeller. Sir, I have testified before the Senate 
Foreign Relations Committee that I believe it would be unlikely 
that we could begin negotiations on tactical nuclear weapons if 
we are not to ratify and bring this treaty into force.
    Chairman Levin. Would it be less likely?
    Ms. Gottemoeller. Unlikely.
    Chairman Levin. Does that mean less likely than would be 
the case otherwise?
    Ms. Gottemoeller. It is also less likely.
    Chairman Levin. Now, on the Votkinsk missile facility, 
apparently there is not going to be a continuation of 
inspections at Votkinsk. Is that accurate, Dr. Warner?
    Dr. Warner. At Votkinsk, we had the permanent, what was 
called, perimeter and portal monitoring system. This was the 
final production plant for the mobile missiles that they were 
producing. For all 15 years of the START treaty, we had the 
right and we did have people there at Votkinsk 24/7/365, and 
they had an opportunity to man the key rail line going in and 
out of this final assembly plant and to verify the exit from 
that final assembly plant of mobile ICBMs.
    The Russians had a reciprocal right to do a plant in Utah 
that would produce the Peacekeeper because the Peacekeeper by 
the time of the signing of the treaty was identified as a 
potentially mobile missile. In the end, the Russians never 
implemented their right on the Peacekeeper at that plant in 
Utah, though they had implemented their right to do an 
Intermediate-Range Nuclear Forces (INF) missile production 
plant throughout the life of the INF Treaty.
    Chairman Levin. Therefore?
    Dr. Warner. That provision--no, no, I am sorry.
    Chairman Levin. Back to Votkinsk, if you would?
    Dr. Warner. On Votkinsk, the provision to have that portal 
monitoring is not part of this treaty.
    Chairman Levin. Why not?
    Dr. Warner. Instead, we have the opportunity to have a 
notification 48 hours in advance of the exit of any solid-
fueled ICBM or SLBM from a production facility, including 
Votkinsk, and that same provision applies to the United States 
for any solid-fueled ICBM or SLBM. That will provide us the 
information that a new system is entering the inventory. There 
will also be a notification when that missile goes to its first 
place, its first destination, to a test area, to a storage 
facility, to an operating base.
    Chairman Levin. From the point of view of DOD, that is an 
adequate or more than adequate protection for whatever 
potential breakout or potential manufacture that the Russians 
may pursue?
    Dr. Warner. We believe that that, in combination with the 
notifications, the unique identifiers now are applied to all 
missiles, ICBMs, SLBMs, as well as to heavy bombers. In the 
context of all the other components, notifications, and so 
forth, we believe that is adequate to have effective 
verification.
    Ms. Gottemoeller. Mr. Chairman, may I just add one word on 
this point?
    Chairman Levin. Yes, please.
    Ms. Gottemoeller. I think it is important to note that the 
decision to depart the Votkinsk permanent presence continuous 
monitoring site as START goes out or went out of force on 
December 4, 2009, that decision was made in 2008. The agreement 
for an orderly departure from Votkinsk was completed before the 
end of 2008.
    Chairman Levin. That was determined before the new 
administration took over?
    Ms. Gottemoeller. Correct.
    Chairman Levin. I just have one more question.
    Ms. Gottemoeller. That doesn't mean that we didn't try to 
push back against it, but the Russian Federation----
    Chairman Levin. That was not part of the negotiations. That 
was a previously decided?
    Ms. Gottemoeller. Sir, we did try to--how shall I put it? 
We did try to work the issue with the Russians, nevertheless. 
But they believed that they had an agreement already on this 
matter.
    Chairman Levin. I see. I will just ask one more question if 
you are ready to go.
    The question has been raised about the European missile 
defense. My question here is does this treaty limit the PAA or 
a European missile defense in any way?
    Ms. Gottemoeller. Absolutely not, sir.
    Chairman Levin. I know there are differences over whether 
or not that switch of systems to the PAA was the right one. 
NATO has approved it, and I think it is clearly a much stronger 
defensive system for us, but whether or not people agree to 
that or not, it seems that is a separate issue from this 
treaty. That shift is not prohibited by the treaty. It is not 
covered by the treaty. It is not limited by the treaty.
    I think that what is being pulled in here is not a matter 
which is really relevant to our consideration of the treaty. It 
is a relevant question, and people can argue it. But I don't 
see how it is relevant to the consideration of this treaty.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Welcome, Secretary Gottemoeller and Dr. Warner. I apologize 
that I wasn't able to get here at the outset of the hearing 
because I am very interested in the subject. I just had a 
meeting I couldn't skip out of.
    Let me first thank you for the extraordinary effort that 
you both made in achieving the treaty. I think this may be the 
seventh hearing the Senate Armed Services Committee has held on 
it, and what is clear, I think, I'm sure clear to you is in any 
treaty, a treaty is a compromise. You have goals, but you are 
negotiating with another party. You can't always achieve 
everything you want, presumably, unless there is a real 
imbalance in the parties negotiating.
    That is true here, too. I think we have to try to, as we go 
forward, though members of the committee--I, myself, have some 
questions--balance out what we gain from the treaty, what the 
world gains, but what we gain particularly and what, if any, 
risks are being taken. I just have a couple of questions in 
that regard. I don't want to hold you a lot longer.
    This first is based on my staff's report about an exchange 
you had with Senator Sessions before I was here. So if I am 
mistaken, it is totally my staff's fault. [Laughter.]
    Senators never make mistakes. Mistakes are only made by 
staff.
    Chairman Levin. Hear, hear. [Laughter.]
    Senator Lieberman. I understand that you had a discussion 
with Senator Sessions with regard to the PAA for missile 
defense that the Obama administration has adopted, and though I 
think there may have been some unease at the beginning when it 
was first adopted, I think, generally speaking, around here 
there is support for that approach now.
    I believe what I have heard is that you left the impression 
that the completion of the four stages of the PAA, including 
the deployment of the SM-3 Block IIB, was contingent on the 
development of Iranian ballistic missile capacity. I think that 
the administration has been clear, from the moment the 
President first announced the PAA, that deploying all four 
stages is not in any sense contingent or optional, but 
mandatory and a necessity, as it were.
    That is certainly how I viewed it. Of course, this 
committee has had testimony from the previous head of the 
Defense Intelligence Agency that as early as 2015, with outside 
help, presumably from somebody like North Korea or somebody 
else, that Iran could have ICBM capacity that could reach the 
United States.
    I don't know if you want to clarify this one for the record 
or you want to say anything more at this point. But if, in 
fact, your testimony is that the completion of the PAA, 
including SM-3 Block IIB, is conditional, that is different 
than I understood before.
    Dr. Warner. I was the party who wandered into that 
assertion, Senator. I probably would have been safer staying 
with the first assertion, saying I need to get back and check 
on the specific wording.
    Make no mistake, my responsibilities in my current position 
and over these last few months, this last year or so, have not 
included being in the middle of this issue.
    Senator Lieberman. Okay.
    Dr. Warner. The issue was the use of the word ``possible'' 
deployment of the force. We will check into the specific 
wording and get back to you. But the PAA, it was my personal 
understanding, is linked to and it was focused on regional 
threats because those are the threats that are coming first, 
and that is why Phases 1 and 2 were of that character. Phase 3 
was to cope with threats that were deeper into Europe, and 
Phase 4 would finally address those that would go very deep 
into Europe and all the way to the United States.
    I made, perhaps erroneously, the statement that I believe 
the only adaptive part of this if that threat fails to 
materialize, then I said that might be the possible reason why 
we would not move to Phase 4. You say you understand we are 
committed to all the way to Phase 4. Let me simply check on 
that.
    [The information referred to follows:]

    As outlined during the announcement of the Phased Adaptive Approach 
(PAA) in Europe last September and in the Report of the 2010 Ballistic 
Missile Defense Review, while further advances in technology or future 
changes in the threat could modify the details or timing of later 
phases, we plan to deploy all four phases of the PAA in Europe, 
including Phase 4. This last phase will include an upgrade to the 
Standard Missile-3, the Block IIB, which will provide capability 
against a potential intercontinental ballistic missile launched from 
the Middle East against the United States. As the President has stated, 
this approach will ``provide stronger, smarter, and swifter defenses of 
American forces and America's allies.''

    Senator Lieberman. Okay.
    Dr. Warner. That was the root of this set of judgments or 
assessments.
    Senator Lieberman. Good. I appreciate that. If you will let 
us know for the record, that would be helpful.
    I think there are two general categories of concern that 
people have. Most people I talk to, Members in the Senate, 
would like to get to a point to vote to advise and consent to 
the New START treaty. I certainly would.
    The two categories of concern are about the modernization 
program for our nuclear weapons stockpile since the number of 
deployed warheads will go down, and we have had a lot of 
testimony that was on that, and I think a lot of work is going 
on on that. The second set of concerns is about verification, 
and some of this is based on classified NIE on this question, 
some of it just on open testimony. Obviously, I will ask about 
that.
    This really goes to--actually, we were in a classified 
briefing, and we started to ask this question to some of the 
folks from the IC, and they said, ``no, that is not our 
responsibility. You should talk to the people who negotiated 
the treaty. There are certain reductions in our verification 
capacities under the proposed New START treaty from what they 
were under START.''
    Perhaps if you could, Secretary Gottemoeller, I would ask 
you to begin just to respond to those concerns and indicate 
what the process was by which they were agreed on and why you 
think that they don't represent unacceptable risk for the 
United States?
    Ms. Gottemoeller. Senator Lieberman, the verification 
regime in the New START treaty is different from that in the 
START treaty. It does respond very much to the central limits 
and obligations in this treaty. There are differences among the 
various verification measures.
    But I would argue that in some cases we actually improved 
and adjusted verification measures. For example, in one case, 
we found that our inspectors, when they were flying into the 
point of entry to begin an onsite inspection, they weren't 
having enough time to recover from their travel, and it was 
becoming a safety concern. We made some changes, extended some 
time periods, so that they could get a night's rest.
    Those kinds of changes we made were, and I want to make 
this point very clearly, on the basis of the 15 years of 
implementing the START treaty. We had experienced inspectors 
come along on our delegations, and we had experienced operators 
of the strategic nuclear forces who knew the nuclear weapons 
systems inside and out. In some cases, they said we are wasting 
time on inspections with this, that, or the other procedures. 
We need to focus in on what is really important.
    They really, really worked hard to make sure that we were 
making the New START treaty verification regime more efficient 
and effective, as well as helping to address what had become a 
problem under the START treaty. That is that some of the 
inspection measures became drags on the operational tempo of 
our strategic forces.
    This was clearly laid out as an instruction in our July 
joint understanding that President Obama and President Medvedev 
signed. There was a clear instruction in there: look for ways 
to make all these measures more efficient and effective and 
less expensive to implement.
    So the result, I think, is an excellent one and really does 
serve the needs of this treaty, that is, response to the need 
to monitor and verify its central obligations.
    Senator Lieberman. Mr. Chairman, my time is up. With your 
permission, I would ask one more question.
    Chairman Levin. Please.
    Senator Lieberman. Thanks. I have had particular concern 
about the reduction and what is required under the treaty for 
telemetry exchanges because of the extra information they give 
us to verify the capacity of the ballistic missiles. 
Incidentally, I gather that we were both obliged to exchange 
telemetry information on all of our tests for missiles under 
START, and as far as we know, the Russians complied with that 
quite completely.
    This is now limited in the New START treaty to five 
telemetry exchanges, to exchange telemetry information for five 
missile tests at the choice of the country testing. In 
testimony before our committee last week--I believe it was last 
week--General Chilton said that the treaty does provide for 
less transparency than we would prefer into Russian missile 
programs.
    There is a difference here, I understand, that the 
telemetry is not really necessary to verify compliance with the 
New START treaty, but we are losing in the reduction of the 
number of telemetry exchanges transparency into the Russian 
missile programs. I wanted you to talk, Madam Secretary, if you 
would, about why we accepted that reduction.
    Ms. Gottemoeller. Sir, it points to the comment I made a 
moment ago. That is for the verification of this treaty, 
telemetry is not required. In particular, we took a new 
approach to counting under this treaty, to more precisely count 
the number of reentry vehicles on ICBMs and SLBMs.
    I think this helps us quite a bit, by the way, because we 
don't end up over counting the D-5, which the use of 
attribution rules under START meant that we were continuing to 
count the D-5 up at eight reentry vehicles per missile where we 
had started to download  it  over  time,  five,  six,  whatever 
 number  of  reentry  vehicles  on  each  missile.  We  ended  
up  with  a  situation  where  the  D-5 under START was being 
over counted, so to say.
    In this treaty, we went to a different approach to 
counting. As a result, we did not need to determine attribution 
for each missile. To determine an attribution rule, we would 
check to see how many reentry vehicles were being released from 
each missile type during tests, and then we would determine the 
attribution rule. If it were tested with 10, we would count it 
with 10 under START.
    We have, I think, a better, more precise counting rule 
under this treaty. As a result of that, the need to have 
telemetry to actually verify the measures of the treaty went 
away.
    I have to say that I wanted to make two comments about 
this. First of all, it is not strictly true to say that under 
START we had to exchange telemetry on all missile tests because 
we had the opportunity to request an exception, to say we don't 
want to exchange telemetry for this particular test. Forgive 
me, I don't remember off the top of my head, but it was five or 
seven, some number like that. We could get that amount to give 
you a more precise view of that.
    We always had the right to request not to exchange 
telemetry under START. In this new treaty, we looked at what 
the concepts of this new treaty were in terms of our overall 
relationships with the Russians, and we said we need to develop 
further transparency.
    By the way, this is an approach that the previous 
administration took with regard to the Moscow Treaty, always 
that we would have transparency, additional transparency 
developing. In this treaty, the Russians came in and proposed 
an actual treaty article, Article VIII, that speaks to the need 
to develop additional voluntary transparency measures on top of 
the verification regime. The telemetry measures under this new 
treaty are very much in that spirit.
    My personal view is, given the experience we had in the 
negotiations that the Russians became more enthusiastic about 
this exchange over the course of the negotiations, I think that 
it will turn out to be quite beneficial in transparency terms, 
give us important insights into the Russian missile force 
developments over the life of the treaty. But, of course, that 
means we will have to bring the treaty into force.
    Senator Lieberman. Yes, so I take it the Russians asked for 
a reduction in the number of exchanges of telemetry information 
on missile tests?
    Ms. Gottemoeller. We actually went into this treaty 
negotiation pretty much with a proposal as to how to proceed, 
and then we worked out, over the course of time, what the 
overall numbers would be. So it is up to five, as you noted, 
launches of ICBMs or SLBMs.
    Senator Lieberman. Okay. I take it from the end of your 
last answer, you are saying that you think that there is an 
opportunity to negotiate with the Russians post New START 
treaty the kinds of exchanges of telemetry and other 
information regarding ICBMs that we are discussing now?
    Ms. Gottemoeller. The telemetry provisions in the treaty 
call for, actually, an annual review.
    Senator Lieberman. Yes.
    Ms. Gottemoeller. We would get together and have an 
opportunity every year to review where we are, how it is 
working. Is it going well, not going so well? What can we do to 
improve it? Again, that is another reason why I look very 
positively on the telemetry exchange under this treaty.
    I think we could make it responsive over the 10-year life 
of the treaty to our needs. Of course, the Russians will be 
trying to do the same thing, but I look upon it as very 
beneficial from that perspective and potentially very positive 
transparency regime.
    Senator Lieberman. Thanks. I have taken more than enough 
time. I thank you for your patience, Mr. Chairman.
    I thank the two witnesses.
    Chairman Levin. Not at all. I also have a few more 
questions. First, I want to comment on what Senator Lieberman 
said relative to the Phase 4 of the so-called PAA. I agree with 
him as to his comment that it is our understanding part of the 
plan to proceed to that. It is not stated to be conditional on 
anything. I think he is correct.
    I am glad that, Dr. Warner, you will check on that and 
correct the record if you need to or give a statement for the 
record because that is my understanding is the same as Senator 
Lieberman.
    Second, Madam Secretary, I asked you before to give us for 
the record where Russian compliance, questions about Russian 
compliance remain unresolved or unclear or where we have 
concluded that they are in a state of noncompliance. If you 
could give us a chart, it may not be able to be total because, 
I think, there are so many requirements for compliance, but you 
could give us types of compliance requirements where we believe 
that there is lack of clarity as to whether they are in 
compliance, lack of resolution, which I think is a different 
issue--apparently, a DOS report uses those terms in a different 
way--and also where we have reached a judgment that Russians 
have not complied.
    Okay, those are three categories. There may be more 
categories. If so, give us a fourth or a fifth category. But we 
have to clarify that issue because of the report.
    [The information referred to follows:]

    The following is a list of the bilateral or multilateral arms 
control treaties involving Russia and the United States where there are 
compliance issues concerning either Russia or the United States.

    1.  Treaties for which the United States has unresolved compliance 
issues regarding Russia (the United States has raised compliance issues 
with Russia in each case)
         <bullet> Biological and Toxin Weapons Convention (BWC)
         <bullet> Chemical Weapons Convention (CWC)
         <bullet> Strategic Arms Reduction Treaty (START)--prior to the 
        treaty's expiration
         <bullet> Treaty on Conventional Armed Forces in Europe (CFE)
         <bullet> Treaty on Open Skies

    2.  Treaties for which Russia has raised compliance issues 
concerning the United States
         <bullet> Biological and Toxin Weapons Convention (BWC)
         <bullet> Chemical Weapons Convention (CWC)
         <bullet> Strategic Arms Reduction Treaty (START)--prior to the 
        treaty's expiration
         <bullet> Treaty on Conventional Armed Forces in Europe (CFE)
         <bullet> Intermediate-Range Nuclear Forces (INF) Treaty

    3.  Treaties for which the United States is uncertain about 
Russia's compliance
         <bullet> Please see the classified response to QFR #1 provided 
        separately

    4.  Treaties for which the United States has concluded that Russia 
is not in compliance with certain of its obligations \1\
---------------------------------------------------------------------------
    \1\ For details, please see ``Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and 
Commitments,'' U.S. Department of State, July 2010 (known as the 
Compliance Report). With regard to the START treaty, the Compliance 
Report (p. 8) states ``Notwithstanding the overall success of START 
implementation, a number of longstanding compliance issues that were 
raised in the START treaty's Joint Compliance and Inspection 
Commissions (JCIC) remained unresolved when the treaty expired on 
December 5, 2009. Throughout the term of the treaty, the Parties worked 
through diplomatic channels and in the JCIC to ensure smooth 
implementation of the treaty and effective resolution of compliance 
issues and questions.''
---------------------------------------------------------------------------
         <bullet> Same as #1 above

    Chairman Levin. On the telemetry issue, and I am glad 
Senator Lieberman raised that issue, as I understand, the 
telemetry point is that we no longer use telemetry to verify 
this treaty to begin with. But that to the extent we get 
telemetry and exchange it, it could be useful in terms of 
providing additional transparency into the Russian program.
    Ms. Gottemoeller. Yes, sir.
    Chairman Levin. Is that a summation of it?
    Ms. Gottemoeller. Yes.
    Chairman Levin. Okay. There are other ways of providing 
transparency as well, but this is a plus, but not necessary for 
compliance determinations?
    Ms. Gottemoeller. Yes, sir. That is correct.
    Chairman Levin. Okay. Do you have anything more?
    Senator Lieberman. No.
    Chairman Levin. Okay. We thank you both, and it is very 
useful to have these hearings. There will be additional 
questions, I am sure, for the record. Please give us answers 
promptly.
    There is a letter I have been requested to put into the 
record in support of the treaty signed by former commanders of 
STRATCOM. It is signed by seven former commanders of STRATCOM 
and will be made part of the record.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. We will stand adjourned with our thanks.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                 arms control treaty compliance issues
    1. Senator Levin. Secretary Gottemoeller, please provide a table or 
list of the bilateral or multilateral arms control treaties involving 
Russia and the United States where there are compliance issues 
concerning either Russia or the United States, indicating whether the 
United States or Russia have raised compliance issues concerning the 
other, whether there is uncertainty about compliance, whether there are 
unresolved compliance issues, or whether the United States has 
concluded that Russia is not in compliance with its obligations.
    Secretary Gottemoeller. The following is a list of the bilateral or 
multilateral arms control treaties involving Russia and the United 
States where there are compliance issues concerning either Russia or 
the United States.

    1.  Treaties for which the United States has unresolved compliance 
issues regarding Russia (the United States has raised compliance issues 
with Russia in each case)
         <bullet> Biological and Toxin Weapons Convention
         <bullet> Chemical Weapons Convention
         <bullet> Strategic Arms Reduction Treaty--prior to the 
        treaty's expiration
         <bullet> Treaty on Conventional Armed Forces in Europe
         <bullet> Treaty on Open Skies

    2.  Treaties for which Russia has raised compliance issues 
concerning the United States
         <bullet> Biological and Toxin Weapons Convention
         <bullet> Chemical Weapons Convention
         <bullet> Strategic Arms Reduction Treaty--prior to the 
        treaty's expiration
         <bullet> Treaty on Conventional Armed Forces in Europe
         <bullet> Intermediate-Range Nuclear Forces Treaty

    3.  Treaties for which the United States is uncertain about 
Russia's compliance
         <bullet> Please see the classified response provided 
        separately

    4.  Treaties for which the United States has concluded that Russia 
is not in compliance with certain of its obligations \1\
---------------------------------------------------------------------------
    \1\ For details, please see ``Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and 
Commitments,'' U.S. Department of State, July 2010 (known as the 
Compliance Report). With regard to the START treaty, the Compliance 
Report (p. 8) states ``Notwithstanding the overall success of START 
implementation, a number of longstanding compliance issues that were 
raised in the START treaty's Joint Compliance and Inspection 
Commissions (JCIC) remained unresolved when the treaty expired on 
December 5, 2009. Throughout the term of the treaty, the Parties worked 
through diplomatic channels and in the JCIC to ensure smooth 
implementation of the treaty and effective resolution of compliance 
issues and questions.''
---------------------------------------------------------------------------
         <bullet> Same as #1 above.

    2. Senator Levin. Secretary Gottemoeller, during the hearing on 
July 29, 2010, Senator McCain asked a question about whether the U.S. 
Government has concluded that Russia is not in compliance with the 
Chemical Weapons Convention (CWC). The July 2010 unclassified 
Department of State (DOS) compliance report states that the United 
States is ``unable to ascertain whether Russia's CWC declaration is 
complete as it relates to CW production facilities, CW development 
facilities, and CW stockpiles, and whether Russia is complying with the 
CWC-established criteria for destruction and verification of its CW.'' 
Has the U.S. Government concluded that Russia is not in compliance with 
the CWC or, as the report states, that it is unable to ascertain 
Russia's compliance?
    Secretary Gottemoeller. The July 2010 Compliance Report states that 
the United States is unable to ascertain whether Russia's CWC 
declaration is complete as it relates to CW production facilities, CW 
development facilities, and CW stockpiles, and whether Russia is 
complying with the CWC-established criteria for destruction and 
verification of its CW. For further information about the U.S. 
conclusions regarding Russia's compliance with the CWC, please see the 
classified version of the July 2010 Compliance Report.

              phased adaptive approach to missile defense
    3. Senator Levin. Dr. Warner, during the hearing, there was a 
question about whether Phase 4 of the Phased Adaptive Approach (PAA) to 
missile defense in Europe was conditional or not. Is it correct that 
the plan for the PAA to missile defense in Europe includes all four 
phases, including the development and deployment of the Standard 
Missile-3 Block II interceptor in Phase 4, and that Phase 4 is not 
conditional? Please consult with Secretary Gates in preparing your 
answer, so that the Senate Armed Services Committee knows his view as 
well.
    Dr. Warner. As outlined during the announcement of the PAA in 
Europe last September and in the Report of the 2010 Ballistic Missile 
Defense Review, while further advances in technology or future changes 
in the threat could modify the details or timing of later phases, we 
plan to deploy all four phases of the PAA in Europe, including Phase 4. 
This last phase will include an upgrade to the SM-3, the Block IIB, 
which will provide additional capability against a potential 
intercontinental ballistic missile (ICBM) launched from the Middle East 
against the United States. As the President has stated, this approach 
will ``provide stronger, smarter, and swifter defenses of American 
forces and America's allies.''
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                            site inspections
    4. Senator Burris. Secretary Gottemoeller, in the New Strategic 
Arms Reduction Treaty (START) there will be an annual quota of 18 
inspections, instead of 28 as under the START I, and only 35 sites are 
eligible for inspection instead of the 70 sites under the START I. Can 
you describe why these reductions are in our best interest?
    Secretary Gottemoeller. The New START treaty verification 
provisions are tailored to verify the requirements of the New START 
treaty, which are different from the START treaty requirements.
    The New START treaty provides for an annual quota of up to 18 short 
notice, onsite inspections to aid in verifying Russian compliance with 
its treaty obligations. These inspections will provide U.S. inspectors 
with 18 opportunities per year to select from among declared Russian 
strategic forces facilities to verify the accuracy of Russian data 
declarations and to deter cheating. Although the new treaty provides 
for fewer inspections than the annual quota of 28 permitted under the 
original START treaty, the number of facilities for which Russia 
provided site diagrams and which will therefore be inspectable under 
the New START treaty (35) is also significantly lower than the number 
of inspectable facilities in the former Soviet Union when the START 
treaty entered into force (70). As explained in the response to QFR #5 
below, this is due to the fact that Belarus, Kazakhstan, and Ukraine 
are not Parties to New START, as well as that Russia now has fewer 
facilities where strategic offensive arms are located than it had when 
START entered into force.
    The New START treaty annual inspection quota includes 10 Type 1 
inspections of deployed and nondeployed strategic offensive arms, which 
will be conducted at operating bases for ICBMs, ballistic missile 
submarines (SSBNs), and nuclear-capable heavy bombers. Type 1 
inspections combine many of the aspects associated with two different 
types of inspections that were conducted separately under the START 
treaty; specifically, reentry vehicle onsite inspections and data 
update inspections. Thus, fewer inspections annually at the operating 
bases will achieve many of the results of the previous START treaty 
inspection regime. The quota also includes eight Type Two inspections 
focused on nondeployed, converted, or eliminated strategic systems, 
which will be conducted at facilities such as storage sites, test 
ranges, and conversion or elimination facilities, as well as formerly 
declared facilities.
    The administration assessed the number of Type One and Type Two 
inspections needed annually to meet U.S. inspection objectives as the 
nature of these inspection types emerged during the New START 
negotiations. These assessments ultimately concluded that an annual 
quota of 18 such inspections would be adequate to meet U.S. inspection 
needs.

    5. Senator Burris. Secretary Gottemoeller, why are the other 35 
sites, previously inspected under START I, now off limits?
    Secretary Gottemoeller. At the time of entry into force of the 
START treaty, there were 70 inspectable facilities in Belarus, 
Kazakhstan, Russia, and Ukraine. Of those 70 facilities, 55 facilities 
were located on the territory of what is now the Russian Federation, 
and 15 facilities were located in Belarus, Kazakhstan, and Ukraine.
    All of the strategic offensive arms associated with the 15 
facilities located in Belarus, Kazakhstan, and Ukraine were removed, 
thereby ``eliminating'' those facilities for purposes of the START 
treaty. Belarus, Kazakhstan, and Ukraine no longer deploy any strategic 
offensive arms, and so they are not signatories of the New START 
treaty.
    During the implementation of the START treaty, Russia eliminated 12 
facilities by removing the strategic offensive arms from those 
facilities in accordance with START treaty provisions.
    The remaining eight facilities in Russia that were inspectable 
under the START treaty and for which Russia has not provided site 
diagrams under the New START treaty are either facilities that remain 
inspectable because they have been consolidated with another 
inspectable facility, or facilities that no longer have existing types 
of strategic offensive arms located at them.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                       treaty negotiating record
    6. Senator McCain. Secretary Gottemoeller and Dr. Warner, 
consistent with past practice on arms control treaties, including the 
Intermediate-Range Nuclear Forces (INF) Treaty and START I treaties, 
when does the administration intend to provide the Senate with the 
negotiating record of the treaty, including all elements of the record 
dealing with missile defenses, tactical nuclear weapons, and limiting 
prompt global strike?
    Secretary Gottemoeller and Dr. Warner. So far as we are aware, 
Senators were not provided full access to the negotiating record during 
Senate consideration of the START treaty. Nor was the negotiating 
record provided to the Senate during its consideration of the ABM 
Treaty. Rather, information from the negotiating record was provided to 
the Senate in relation to a controversial interpretation of the ABM 
Treaty more than a decade after the Senate had provided its approval 
and the treaty had entered into force.
    As the Senate Foreign Relations Committee noted in its report on 
the treaty between the United States and the U.S.S.R. on the 
Elimination of Their Intermediate-Range and Shorter-Range Missiles (INF 
Treaty), ``a systematic expectation of Senate perusal of every key 
treaty's `negotiating record' could be expected to inhibit candor 
during future negotiations and induce posturing on the part of U.S. 
negotiators and their counterparts during sensitive discussions.'' The 
Committee Report further noted that regularly providing the negotiating 
record would ultimately ``weaken the treaty-making process'' and 
``damage American diplomacy.''
    Of course, Senators being asked to provide advice and consent to 
ratification of a treaty should have a full understanding of what 
obligations would be undertaken by the United States upon ratification 
of that treaty. Thus, when a President transmits a treaty to the Senate 
it is accompanied by a detailed article-by-article analysis of the 
treaty. The analysis of the New START treaty transmitted to the Senate 
by the President on May 13, 2010, is nearly 200 pages long and provides 
information on every provision of the treaty, protocol, and annexes. 
This analysis includes relevant information drawn from the negotiating 
record. The treaty text and these materials provide a comprehensive 
picture of U.S. obligations under the treaty.
    In addition, as you were informed in a letter dated August 10, 
2010, the administration has made available to the Senate a classified 
summary of discussions in the New START treaty negotiations on the 
issue of missile defense.
    Should you have any outstanding questions, we are committed to 
providing answers in detailed briefings, including in a classified 
session, if needed.

                    russian tactical nuclear weapons
    7. Senator McCain. Secretary Gottemoeller and Dr. Warner, some 
people argue that we must ratify this treaty if we ever want to engage 
with the Russians on reducing tactical nuclear weapons. What assurances 
do we have from the Russians that they are willing to negotiate 
reductions in tactical nuclear weapons?
    Secretary Gottemoeller and Dr. Warner. At their London Summit on 
April 1, 2009, President Obama and President Medvedev committed to 
``achieving a nuclear-free world, while recognizing that this long-term 
goal will require a new emphasis on arms control . . . '' President 
Medvedev expressed interest in future discussions on measures to 
further reduce both nations' nuclear arsenals when he and President 
Obama signed the New START treaty in Prague on April 8, 2010. As 
President Obama made clear on that occasion, we intend to raise 
strategic and nonstrategic/tactical nuclear weapons, including 
nondeployed nuclear weapons, in those discussions.

                            missile defense
    8. Senator McCain. Secretary Gottemoeller and Dr. Warner, in her 
prepared remarks before the Atlantic Council in April 2010, Under 
Secretary of State Ellen Tauscher stated that ``our Russian friends 
needed some assurances as it negotiated deeper reductions in the 
absence of an Anti-Ballistic Missile (ABM) Treaty. The United States 
made a unilateral statement to clarify that our missile defense systems 
are not intended to affect the strategic balance with Russia.'' Why was 
it necessary to provide such assurances to Russia?
    Secretary Gottemoeller and Dr. Warner. A number of public 
statements made by Russian leaders about the treaty have shown that 
they considered such assurances necessary in the context of reaching 
agreement on the treaty. Under Secretary Tauscher's statement to the 
Atlantic Council referred to the U.S. unilateral statement, which was 
based on standing U.S. policy as articulated in the 2010 Ballistic 
Missile Defense Review that ``while the GMD system would be employed to 
defend the United States against limited missile launches from any 
source, it does not have the capacity to cope with large scale Russian 
or Chinese missile attacks, and is not intended to affect the strategic 
balance with those countries.''
    The United States has made clear that U.S. missile defense efforts 
are not directed against Russia. As Secretary Gates stated in his May 
18 testimony before the Senate Foreign Relations Committee:

          ``Under the last administration, as well as under this one, 
        it has been U.S. policy not to build a missile defense that 
        would render useless Russia's nuclear capabilities. It has been 
        a missile defense intended to protect against rogue nations 
        such as North Korea and Iran, or countries that have very 
        limited capabilities. The systems that we have, the systems 
        that originated and have been funded in the Bush 
        administration, as well as in this administration, are not 
        focused on trying to render useless Russia's nuclear 
        capability. That, in our view, as in theirs, would be 
        enormously destabilizing, not to mention unbelievably 
        expensive.''

    Russia has expressed concerns that U.S. ballistic missile defense 
(BMD) capabilities could eventually be a threat to Russia's nuclear 
deterrent; the United States, therefore, sought to convey to Russia the 
underlying approach outlined by Secretary Gates. To this end, we have 
provided, and will continue to provide, policy and technical 
explanations regarding why U.S. BMD capabilities such as the European-
based PAA do not and cannot pose a threat to Russian strategic 
deterrent forces.

    9. Senator McCain. Secretary Gottemoeller and Dr. Warner, did you 
receive assurances from Russia that they will not object to the full 
deployment of all four phases of the PAA in Europe?
    Secretary Gottemoeller and Dr. Warner. No. The PAA was not a topic 
of the New START negotiations. U.S. negotiators did not seek such 
assurances, but the United States has provided, and will continue to 
provide, technical explanations regarding why U.S. BMD capabilities 
such as those to be deployed throughout all four phases of the 
European-based PAA will not pose a threat to Russian strategic 
deterrent forces. In addition, the United States made clear in its 
unilateral statement that it intends to continue improving and 
deploying missile defense systems.

    10. Senator McCain. Secretary Gottemoeller and Dr. Warner, did you 
receive assurances that the Russians will not object to the potential 
need to increase the number of ground-based interceptors (GBI) in 
California and Alaska if the threat from North Korea or Iran 
materializes sooner than expected?
    Secretary Gottemoeller and Dr. Warner. No. This issue was not a 
topic of the New START treaty negotiations. U.S. negotiators did not 
seek such assurances, but the United States made clear in its 
unilateral statement that it intends to continue improving and 
deploying missile defense systems in order to defend the U.S. Homeland 
against limited attack.

    11. Senator McCain. Secretary Gottemoeller and Dr. Warner, if we 
offered assurances on missile defense, why didn't we demand similar 
assurances on tactical nuclear weapons?
    Secretary Gottemoeller and Dr. Warner. The U.S. assurances on 
missile defense have been a reiteration of standing U.S. policy as 
articulated in the 2010 Ballistic Missile Defense Review, and 
explanations of the capabilities of current and planned U.S. missile 
defense systems. Tactical nuclear weapons were beyond the scope of the 
New START treaty negotiations. A more ambitious treaty that addressed 
tactical nuclear weapons would have taken much longer to complete, 
adding significantly to the time before a successor agreement, 
including verification measures, could enter into force following the 
START treaty's expiration in December 2009.
    Deferring negotiations on tactical nuclear weapons until after a 
START successor agreement had been concluded was also the 
recommendation of the Perry-Schlesinger Congressional Strategic Posture 
Commission, which advised pursuing ``a step-by-step approach,'' and 
making the first step ``modest and straightforward.'' President 
Medvedev has expressed interest in future discussions on measures to 
further reduce both nations' nuclear arsenals. We intend to raise 
strategic and tactical weapons, including nondeployed nuclear weapons, 
in those discussions.

    12. Senator McCain. Secretary Gottemoeller and Dr. Warner, 
irrespective of threats from the Russians to withdraw from the treaty, 
is this administration committed to funding, developing, and deploying 
all elements of the PAA for missile defense in Europe, as well as 
implementing the strategy as portrayed in the Ballistic Missile Defense 
Review?
    Secretary Gottemoeller and Dr. Warner. Yes. As outlined during the 
announcement of the PAA in Europe last September and in the Report of 
the 2010 Ballistic Missile Defense Review, while further advances in 
technology or future changes in the threat could modify the details or 
timing of later phases, we plan to deploy all four phases of the PAA in 
Europe, including Phase 4.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                          negotiation strategy
    13. Senator Inhofe. Secretary Gottemoeller, you stated the 
following in your opening statement: ``I want to underscore that the 
focus of these negotiations from beginning to end was strategic 
offensive arms. We were also determined to move beyond Cold War 
mentalities and chart a fresh beginning in our relations with Russia.'' 
If the focus was on strategic arms, why did you agree to include 
language associated with conventional prompt global strike and missile 
defense in the preamble and the treaty itself?
    Secretary Gottemoeller. The preamble language referred to in the 
New START treaty is simply a statement of fact acknowledging the 
interrelationship of strategic offensive and defensive arms and the 
potential impact of conventionally-armed ICBMs and submarine launched 
ballistic missiles (SLBMs) on strategic stability. The preamble also 
affirms that currently deployed strategic defensive arms do not 
undermine the viability and effectiveness of either Party's strategic 
offensive arms. This preambular statement was negotiated and agreed 
between the Parties in accordance with the Joint Understanding signed 
by President Obama and President Medvedev on July 6, 2009. As stated in 
the article-by-article analysis of the treaty, this statement is part 
of the shared view of the Parties of the importance of predictability 
and strategic stability.
    Regarding the treaty's ban in Article V, paragraph 3, on the 
conversion of ICBM or SLBM launchers to missile defense interceptor 
launchers and vice versa, this ban does not constrain the United States 
from deploying the most effective missile defenses possible, nor does 
it add any additional cost or inconvenience to the implementation of 
U.S. missile defense plans. The Article also ``grandfathers'' the five 
former ICBM test silos at Vandenberg Air Force Base, which were 
converted for GBIs several years ago.
    The United States protected the right to develop and deploy a 
conventional prompt global strike capability, should we decide to 
pursue such a capability under New START. Just as in the START treaty, 
conventional warheads deployed on ICBMs or SLBMs would count toward the 
aggregate warhead limit of 1,550 under the New START treaty. As 
envisaged by our military planners, the number of such conventionally-
armed delivery vehicles and the warheads they carry would be very small 
when measured against the overall levels of strategic delivery systems 
and strategic warheads. Should we decide to deploy them, counting this 
small number of conventional strategic systems and their warheads 
toward the treaty limits will not prevent the United States from 
maintaining a robust, fully adequate nuclear deterrent.

    14. Senator Inhofe. Secretary Gottemoeller, perhaps it was a 
strategic error to focus too narrowly on strategic arms and ignore 
Russia's superiority in tactical nuclear weapons. Why didn't you press 
harder to include tactical nuclear weapons in the New START?
    Secretary Gottemoeller. A more ambitious treaty that addressed 
nonstrategic/tactical nuclear weapons would have taken much longer to 
complete, adding significantly to the time before a successor 
agreement, including verification measures, could enter into force 
following the START treaty's expiration in December 2009. Because of 
their limited range and very different roles from those played by 
strategic nuclear forces, the vast majority of nonstrategic/tactical 
nuclear weapons do not directly influence the strategic nuclear balance 
between the United States and Russia. This fact, combined with the need 
to consult closely with our allies before addressing nonstrategic/
tactical nuclear weapons, did not support broadening the scope of the 
New START treaty. This approach was consistent with the bipartisan 
Perry-Schlesinger Congressional Strategic Posture Commission's 
recommendation to ``pursue a step-by-step approach,'' and to make the 
first step ``modest and straightforward.'' The Commission recommended 
deferring negotiations on tactical nuclear weapons until after a START 
successor agreement had been concluded.
    At their London Summit on April 1, 2009, President Obama and 
President Medvedev committed to ``achieving a nuclear-free world, while 
recognizing that this long-term goal will require a new emphasis on 
arms control ...'' President Medvedev expressed interest in future 
discussions on measures to further reduce both nations' nuclear 
arsenals when he and President Obama signed the New START treaty in 
Prague on April 8, 2010. As President Obama made clear on that 
occasion, we intend to raise strategic and nonstrategic/tactical 
nuclear weapons, including nondeployed nuclear weapons, in those 
discussions.

    15. Senator Inhofe. Secretary Gottemoeller, you suggest you wanted 
to move beyond ``Cold War mentalities,'' yet what could be more 
suggestive of this mentality than a Cold War-style arms control 
agreement? Both Russia and the United States were moving to lower 
levels of strategic nuclear arms; we should have focused, instead, on 
dealing with the problems of nuclear proliferation, which would have 
been a better strategy for moving beyond Cold War mentalities. How does 
this treaty further nuclear nonproliferation?
    Secretary Gottemoeller. U.S. leadership in reducing its nuclear 
arsenal is essential to our efforts to bolster the nonproliferation 
regime and reduce global nuclear dangers. The New START treaty 
positions the United States to continue its international leadership 
role in advancing the goals of the Nuclear Nonproliferation Treaty 
(NPT) regime. The conclusion of the New START treaty with Russia 
strengthened the U.S. position during the NPT Review Conference in May 
2010, and helped aid our efforts to conclude a consensus final 
document, which did not occur at the previous Review Conference in 
2005. The new treaty set the stage for engaging other nuclear powers in 
fulfilling the goals of the NPT, and expanding opportunities for 
enhancing strategic stability.
    Enhanced cooperation between the United States and Russia in the 
nuclear arena will contribute to the positive international environment 
needed to reinforce programs to secure and safeguard nuclear material 
stockpiles worldwide, and to strengthen the NPT. More generally, 
improved U.S.-Russian relations will help in achieving critical U.S. 
foreign policy objectives related to U.S. security, including efforts 
to address the nuclear programs of Iran and North Korea.

                           strategic balance
    16. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why have 
you said the treaty will enhance U.S. security by stabilizing the 
strategic balance? Please address what is wrong with the current 
strategic balance.
    Secretary Gottemoeller and Dr. Warner. The New START treaty is 
needed in order to provide a critical framework for the strategic 
relationship between the United States and Russia. Without a successor 
agreement to the START treaty, transparency and strategic stability in 
the U.S.-Russian relationship would erode over time due to the absence 
of agreed treaty limits on strategic delivery vehicles, launchers, and 
strategic warheads, as well as the lack of a comprehensive verification 
regime. While the Moscow Treaty could, in principle, be extended to 
retain its aggregate limits on each side's strategic nuclear warheads, 
there would be no associated verification or transparency measures. In 
the absence of the New START treaty, the probability would increase 
that suspicion and misunderstanding would reemerge in the U.S.-Russian 
relationship.
    The New START treaty's verification provisions will enhance 
predictability and stability by providing a window into Russia's 
strategic nuclear forces, thereby helping to mitigate the risks of 
surprises, mistrust, and miscalculations that can result from excessive 
secrecy or decisions based on worst-case projections of Russian 
strategic nuclear forces in the absence of the insights provided by the 
combination of the comprehensive, steadily updated database, a series 
of mandatory notifications, and up to 18 short-notice, onsite 
inspections that will be conducted each year.

    17. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, by 
reducing strategic nuclear weapons, you exacerbate the disparity 
between Russia and the United States in tactical nuclear weapons. How 
do you know you are increasing strategic stability when the Russians 
now can deploy more tactical nuclear warheads than the United States is 
permitted to deploy strategic nuclear warheads under the new treaty?
    Secretary Gottemoeller and Dr. Warner. The treaty's limitations on 
Russia's nuclear forces are obviously an important factor in assessing 
the desirability of the treaty's limits. The New START treaty will 
enhance U.S. national security by stabilizing the strategic balance 
between the United States and the Russian Federation at lower levels of 
nuclear forces. Even so, the force structure the United States will 
retain under the New START treaty limits will preserve our capability 
to upload our strategic nuclear delivery systems in response to any 
attempt by Russia to leverage its tactical nuclear weapons to gain 
advantage. U.S. strategic forces will continue to underwrite deterrence 
for the United States, our allies, and our partners.
    Because of their limited range and very different roles from those 
played by strategic nuclear forces, the vast majority of nonstrategic/
tactical nuclear weapons do not directly influence the strategic 
balance between the United States and Russia. Furthermore, in order to 
support extended deterrence and power projection, the United States 
possesses many diverse capabilities, including strategic and tactical 
nuclear weapons, superior conventional forces, ballistic missile 
defenses and other advanced capabilities. We also benefit from 
significant allied nuclear and conventional capabilities.

                   bilateral consultative commission
    18. Senator Inhofe. Secretary Gottemoeller, how do we know what 
will be considered a ``substantive right or obligation'' and therefore 
require a treaty amendment to change the treaty protocol, as described 
in Article XV of the treaty?
    Secretary Gottemoeller. The use of treaty-based commissions to 
agree on limited technical changes to improve or clarify implementation 
of treaty provisions is a well-established practice in arms control 
treaties. The New START treaty authorizes the Parties to use the 
Bilateral Consultative Commission (BCC) to reach agreement on changes 
in the Protocol to the treaty, including its annexes, that do not 
affect substantive rights or obligations. The START treaty's JCIC and 
the Intermediate and Shorter Range Nuclear Forces Treaty's Special 
Verification Commission were assigned similar responsibilities by those 
treaties, and our practice under the BCC would be informed by those 
important precedents in determining what will be considered a 
``substantive right or obligation'' that would require a treaty 
amendment. Examples of agreements reached within the framework of the 
START treaty's JCIC included:

        <bullet> Setting the maximum weight of equipment and supplies 
        that may be brought into Russia or the U.S. by monitors (3,000 
        kg);
        <bullet> Providing that the inspecting Party shall repack cargo 
        if unpacked and inspected at a point of entry;
        <bullet> Establishing new procedures for additional 
        confirmation of the dimensions of first stages of SLBMs; and
        <bullet> Establishing procedures for notification of changes to 
        flight routes for inspection flights.

    The executive branch intends to consult with the Senate in those 
cases in which there could be a question as to whether a proposed 
change in the Protocol would affect substantive rights or obligations 
under the treaty.

    19. Senator Inhofe. Secretary Gottemoeller, the authority to act in 
secrecy and outside the treaty amendment process with the BCC is 
troubling. Who gets to decide what issues are discussed in the BCC?
    Secretary Gottemoeller. Any agreements reached in the BCC, or any 
other recorded results of its work, are presumed not to be 
confidential, unless otherwise agreed by the BCC. Further, just as was 
true under the INF Treaty's Special Verification Commission (SVC) and 
the START treaty's JCIC, where U.S. administrations sought to keep the 
Senate informed following each SVC and JCIC session, we will keep the 
Senate informed on BCC sessions.
    The rules governing the BCC provide that each Party must notify the 
other Party, prior to the beginning of a session, of any questions to 
be raised at a meeting. This is the same as the practice in the SVC and 
the JCIC.

                                cheating
    20. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, if 
``even large-scale cheating'' by Russia doesn't impact U.S. deterrence, 
then why do we need this treaty?
    Secretary Gottemoeller and Dr. Warner. Large-scale Russian 
cheating--indeed any Russian cheating--would be of extremely serious 
concern to the United States and could have very significant negative 
repercussions for the U.S.-Russia relationship. However, an expansion 
of the Russian strategic nuclear arsenal--beyond the New START limits 
of 1,550 warheads--achieved by cheating or breakout would not undermine 
the basic second strike capability of the United States, which is the 
foundation of our strategic deterrent. This is the case because the 
survivability and response capabilities of U.S. strategic submarines at 
sea and alert heavy bombers would be unaffected by even large-scale 
Russian cheating or breakout. Russia could not achieve a sustained 
numerical advantage in deployed strategic warheads through such 
cheating or breakout because the United States retains the ability to 
``upload'' large numbers of additional nuclear warheads on both 
strategic missiles and bombers deployed under the New START treaty. 
However, should there be indications of Russian cheating or 
preparations to break out from the treaty, the executive branch would 
view the situation as very serious and would immediately raise this 
matter through diplomatic channels, and if not resolved, raise it 
immediately to higher levels. We would also keep the Senate informed.
    The New START treaty will provide stability and predictability 
between the world's two leading nuclear powers. The United States and 
Russia will be able to maintain strategic stability at lower, 
verifiable strategic force levels, while also gaining insight regarding 
the size and character of each other's strategic nuclear forces through 
the treaty's extensive verification regime. This would not be possible 
without the New START treaty. The treaty builds confidence, maintains 
predictability about the strategic forces of the two parties, dampens 
the incentives for worst case assessments that encourage arms racing, 
helps strengthen political and military relations between the two 
countries, and reinforces America's leadership in international 
nonproliferation efforts, distinct from our ability to maintain a 
survivable, effective second strike force as the basis of our strategic 
deterrent even when faced with large-scale cheating.

    21. Senator Inhofe. Secretary Gottemoeller, why not escape the 
``Cold War mentality'' as you say, by simply issuing unilateral 
commitments to reduce our respective forces rather than through a 
treaty?
    Secretary Gottemoeller. Both during the Cold War and since its end, 
the United States and Russia have agreed to mutual, legally binding, 
verifiable limits on their strategic nuclear arsenals in order to 
prevent an arms race, increase transparency, and mitigate mistrust and 
surprises. These agreements build trust and promote stability in the 
relationship between the world's two largest nuclear powers. Unilateral 
reductions would not provide the same level of predictability and 
stability because there would be no obligation to make or maintain 
them. Furthermore, there would be no verification regime associated 
with them.
    Likewise, the Moscow Treaty does not contain a verification regime 
or any measures to provide confidence, transparency, and 
predictability. Although the Moscow Treaty could, in principle, be 
extended to retain its aggregate limits on each side's strategic 
nuclear warheads, there still would be no associated verification or 
transparency measures. The New START treaty is needed in order to 
provide a critical framework for the strategic nuclear relationship 
between the United States and Russia.
    The New START treaty's verification provisions provide visibility 
into Russia's strategic nuclear forces, helping to mitigate the risks 
of surprises, mistrust, and miscalculations that can result from 
excessive secrecy or decisions based on worst-case projections of 
Russian strategic nuclear forces and their capabilities. The treaty 
will give us a window into Russia's strategic forces, facilities, and 
operations. The degree of transparency provided by the New START treaty 
verification regime, which includes providing for the presence of each 
other's inspectors at military facilities and the exchange of 
confidential strategic forces data, would be difficult, if not 
impossible, to achieve under nonbinding unilateral commitments to 
reduce our respective forces.

    22. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, in a 
crisis, surely large-scale cheating would matter. If the Russians were 
to double or triple their strategic forces, they could threaten to 
destroy all but a few of our nuclear submarines out at sea, and then, 
with the remainder of their now extensive arsenal, threaten further 
retaliation if the United States dared to respond. In other words, they 
would be able to deter our deterrent. How does the treaty prevent this?
    Secretary Gottemoeller and Dr. Warner. In signing the New START 
treaty, Russia has made a binding commitment to keep its forces within 
the treaty limits. Without a treaty, we would have significantly less 
predictability regarding Russia's strategic force plans for the next 10 
years. No treaty by itself could prevent the Russians from cheating or 
establishing a breakout capability to increase their strategic forces 
beyond treaty limits. We note that under the START and INF treaties, 
the Russians did not attempt to increase their forces beyond treaty 
limits; we have no reason to expect they will do so under New START.
    That said, if Russia were to choose to violate the treaty's limits, 
it would not be able to achieve militarily significant advantage by 
cheating or breakout under New START, due to the inherent survivability 
of the planned U.S. strategic force structure; particularly our SSBNs 
(for which alert rates could be raised), and also alert bombers. Russia 
would also have to consider that the United States may choose to launch 
ICBMs under attack rather than ``ride out'' an attack. Additional 
Russian warheads above the New START limits would have little or no 
effect on the U.S. assured second-strike capabilities that underwrite 
stable deterrence.
    The administration has concluded that the United States would be 
able to detect and respond to any attempt by the Russian Federation to 
move beyond the limits of the treaty in a militarily significant way, 
well before such an attempt would become a threat to our national 
security. In order to restore numerical parity in the balance of 
deployed strategic nuclear warheads and visibly strengthen its assured 
second strike capability, the United States could respond to Russian 
cheating in a variety of ways depending upon the international security 
situation, to include:

        <bullet> The United States could substantially upload the 
        ballistic missile submarine leg of the triad with hundreds of 
        additional warheads and/or send additional strategic submarines 
        to sea on day-to-day alert status.
        <bullet> The United States could also choose to return a 
        portion of its heavy bomber force to a day-to-day alert 
        posture. In this posture, such heavy bombers--loaded with 
        nuclear armaments--would be capable of takeoff and safe escape 
        from their airbases within minutes after receiving tactical 
        warning of an imminent Russian strike, thus improving their 
        survivability. These bombers could then contribute 
        substantially to any U.S. nuclear response.
        <bullet> The United States could also upload additional ICBM 
        warheads on a portion of its deployed Minuteman III force and 
        could choose to redeploy a limited number of additional ICBMs 
        and warheads in nondeployed silo launchers.

    23. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, a 
significantly superior Russian nuclear arsenal could cast doubt on U.S. 
nuclear security guarantees. Wouldn't you agree there are political 
implications of cheating?
    Secretary Gottemoeller and Dr. Warner. We agree absolutely that 
cheating would have political implications. Any cheating could affect 
the sustainability of the New START treaty, the viability of future 
arms control agreements, and the ability of the United States and 
Russia to work together on other issues. Should there be indications of 
Russian cheating or breakout from the treaty, the executive branch 
would promptly raise this matter through diplomatic channels and/or the 
BCC, and if not resolved, raise it to higher levels. We would also keep 
the Senate informed.

    24. Senator Inhofe. Secretary Gottemoeller, you pose a false choice 
by claiming ``the choice before us is between this treaty and no treaty 
governing our nuclear-security relationship with Russia, between this 
treaty and no agreed verification mechanism on Russia's strategic 
nuclear forces, between this treaty and no legal obligation for Russia 
to maintain its strategic nuclear forces below an agreed level.'' We 
did not have to accept this treaty. We could have held out for a better 
treaty that included tactical nuclear weapons, stronger verification 
provisions, and no constraints on missile defense and conventional 
prompt global strike. Why should we ratify this treaty rather than 
waiting for a better treaty?
    Secretary Gottemoeller. The New START treaty is the treaty that the 
U.S. and Russian presidents reached agreement on and signed in 2010. It 
does not constrain the United States from deploying the most effective 
missile defense possible, nor will it constrain our ability to develop 
and deploy long-range conventional strike capabilities, including 
prompt global strike systems.
    The administration's judgment is that the New START treaty is 
effectively verifiable. We have concluded that the United States would 
be able to detect, and respond to, any attempt by the Russian 
Federation to move beyond the limits of the treaty in a militarily 
significant way, well before such an attempt could become a threat to 
our national security.
    We did not make limiting nonstrategic/tactical nuclear weapons an 
objective for this treaty because from the outset the New START treaty 
was intended to replace the START treaty, which was about strategic 
offensive forces. The desire to minimize the time before a successor 
agreement, including verification measures, could enter into force 
following the START treaty's expiration in December 2009, combined with 
the need to consult closely with our allies before addressing 
reductions or limitations on nonstrategic/tactical nuclear weapons, did 
not support broadening the scope of the New START treaty to address 
those weapons. Deferring negotiations on nonstrategic/tactical nuclear 
weapons until after a successor agreement to the START treaty had been 
concluded was also the recommendation of the Perry-Schlesinger 
Congressional Strategic Posture Commission.
    Delays in ratifying the New START treaty would hurt U.S. national 
security by denying U.S. policymakers valuable information and insights 
into the strategic forces of the world's other major nuclear power. It 
is important to maintain a stable strategic relationship with Russia 
through the New START treaty as we pursue further reductions, including 
reductions in nonstrategic/tactical nuclear weapons.

    25. Senator Inhofe. Secretary Gottemoeller, you say you want to 
change the Cold War mentality, yet Secretary Clinton suggests we need a 
``treaty governing our nuclear-security relationship with Russia.'' Why 
do we need a codified nuclear-security relationship with Russia if you 
intend to change the Cold War mentality?
    Secretary Gottemoeller. Please see the response to your question 
for the record #21.

                             modernization
    26. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, the 
Perry-Schlesinger Commission was unanimously alarmed by the serious 
disrepair and neglect of our nuclear weapons stockpile and complex. 
Secretary Gates warned in October 2009, ``there is absolutely no way we 
can maintain a credible deterrent and reduce the number of weapons in 
our stockpile without either resorting to testing our stockpile or 
pursuing a modernization program.'' We are the only major nuclear power 
not modernizing its weapons and our weapons are an average of 26 years 
old and most are 15 or more years beyond design life. Meanwhile, other 
nuclear countries, including Russia, continue to modernize and replace 
their nuclear weapons.
    When you do the math and break out the $100 billion promised over 
the next decade for modernization, we have some substantial shortfalls. 
Approximately $30 billion of this total will go toward development and 
acquisition of a new strategic submarine while $56 billion is required 
to just maintain our current dedicated nuclear forces, leaving roughly 
$14 billion--less if you factor in inflation--to develop and acquire: a 
next generation bomber, a follow-on ICBM, a follow-on nuclear air-
launched cruise missile (ALCM), and develop a conventional prompt 
global strike capability. We cannot get there from here.
    This situation has been substantiated by our experts. Our national 
lab directors, when they were in front of the Senate Armed Services 
Committee on July 15, 2010, stressed the need for substantial increases 
above the fiscal year 2011 budget proposal and sustained out-year 
commitment. While they acknowledged that the $624 million increase in 
funding for the weapons complex in the fiscal year 2011 request is a 
good first step, the directors were clear that the 10-year funding 
program promised by the administration may not be adequate. Are you 
aware if the administration is adequately funding our nuclear 
infrastructure as part of this treaty to continue with robust enough 
modernization programs to ensure we maintain a qualitative technology 
and capabilities gap over our peers?
    Secretary Gottemoeller and Dr. Warner. The President has pledged 
that as long as nuclear weapons exist, the United States will maintain 
a safe, secure, and effective arsenal. The 2010 Nuclear Posture Review 
(NPR) reflects the high priority placed by the administration on the 
modernization of the nuclear weapons infrastructure and the sustainment 
of the science, technology, and engineering base required to support 
this goal. The President's budget proposes a substantial increase in 
funding for extending the life of our nuclear weapons, rebuilding of 
science, technology, and engineering capabilities, assuring that 
surveillance informs the stockpile assessment and certification 
responsibilities, and modernization of the nuclear weapons 
infrastructure. For fiscal year 2011, we requested, and the President 
supported, the funding we considered necessary and executable. The 
Section 1251 report was prepared jointly by the Department of Defense 
(DOD) and the Department of Energy (DOE) in response to direction in 
the National Defense Authorization Act (NDAA) for Fiscal Year 2010. 
This report sets out a 10-year budget plan that, in addition to the 
over $100 billion that the DOD will be spending over the next 10 years 
for strategic delivery systems, calls for the DOE to spend $80 billion 
for the National Nuclear Security Administration's (NNSA) nuclear 
weapons stockpile and critical infrastructure enhancements.
    The President's fiscal years 2011-2015 budget plan calls for a 
``ramp-up'' in funding in order to transform the nuclear weapons 
complex into a modern, efficient, capabilities-based nuclear security 
enterprise. This will involve an increase over the previous budget plan 
of $624 million in fiscal year 2011 ramping up to an increase of $1.64 
billion in fiscal year 2015, an overall increase totaling $5.68 billion 
over the fiscal years 2011-2015 period.
    We plan to use fiscal years 2011 and 2012 to establish validated 
baselines for four major NNSA projects called for in the NPR and by the 
President. These are the B61 and W78 life extension programs and the 
construction of two new material processing facilities: the Chemistry 
and Metallurgy Research Replacement Nuclear Facility and the Uranium 
Processing Facility. While the funding requirements identified to date 
represent the most complete view of our needs, these four baselines may 
drive a different out-year view of requirements. Finally, as each month 
passes, our understanding matures as to what is required to execute the 
NPR requirements. Since the NPR was completed after the release of the 
fiscal year 2011 budget request, these evolving insights into execution 
requirements will inform and have an impact on the fiscal year 2012 
request and NNSA's associated Future Year Nuclear Security Plan.
    In summary, our out-year budgets are projections, based on the NPR 
results and our best current estimates for the longer-term funding 
requirement. While funding in future budget years, or target completion 
schedules, may require adjustment, the administration has proposed full 
and adequate funding and is committed to maintaining a safe, secure, 
and effective nuclear arsenal.

    27. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, how did 
out-year funding plans factor into the treaty negotiations, 
limitations, and goals?
    Secretary Gottemoeller and Dr. Warner. The out-year funding numbers 
take into account the decisions that were made as part of the NPR. The 
New START treaty limits are consistent with decisions made during the 
NPR, including the requirement to modernize strategic delivery 
capabilities, which is not constrained by the treaty.
    The fiscal year 2011 budget request and future year program plans 
reflect a decision to proceed with the SSBN(X) to replace the current 
Ohio-class strategic submarines starting in the late 2020s, to sustain 
Minuteman III ICBMs until 2030 as directed by Congress, and to sustain 
dual-capable B-52H and B-2 bombers until at least 2035 and 2040, 
respectively. The DOD is currently conducting an Analysis of 
Alternatives (AoA) for the next ACLM, and will initiate study of 
options for a follow-on ICBM in 2011-2012.
    Finally, DOD is currently studying the appropriate long-term mix of 
long-range strike capabilities, including heavy bombers as well as non-
nuclear prompt global strike systems, in follow-on analysis to the 2010 
Quadrennial Defense Review (QDR) and the NPR; the results of this 
ongoing work will be reflected in the Department's fiscal year 2012 
budget submission.

    28. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, what 
decisions have been made or will be made to replace or modernize our 
aging systems based on ratification of this treaty?
    Secretary Gottemoeller and Dr. Warner. DOD plans to sustain and 
modernize U.S. strategic delivery capabilities, as discussed in detail 
in the classified report submitted to Congress in response to section 
1251 of the NDAA of 2010. To this end, over the next decade, the United 
States will invest well over $100 billion to sustain existing strategic 
delivery systems capabilities and modernize strategic systems.
    The fiscal year 2011 budget request and future year program plans 
reflect a decision to proceed with the SSBN(X) to replace the current 
Ohio-class strategic submarines starting in the late 2020s, to sustain 
Minuteman III ICBMs until 2030 as directed by Congress, and to sustain 
dual-capable B-52H and B-2 bombers until at least 2035 and 2040, 
respectively. The DOD is currently conducting an AoA for the next ACLM, 
and will initiate a study of options for a follow-on ICBM in 2011-2012.
    Finally, DOD is currently studying the appropriate long-term mix of 
long-range strike capabilities, including heavy bombers as well as non-
nuclear prompt global strike systems, in follow-on analysis to the 2010 
QDR and the NPR; the results of this ongoing work will be reflected in 
the Department's fiscal year 2012 budget submission.

                            force structure
    29. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, during 
closed briefings on New START, the Senate Armed Services Committee has 
been provided background, in some detail, on Russian force structure 
and capabilities and U.S. force structure and capabilities. I 
understand that this treaty is all being assessed in the context of 
assumptions on future strategic threats and capabilities, which are not 
necessarily 100 percent accurate and can create pitfalls. Therefore, it 
is imperative that we take into full consideration the 2010 NPR which 
concluded that ``large disparities in nuclear capabilities could raise 
concerns on both sides and among U.S. allies and partners, and may not 
be conducive to maintaining a stable, long-term relationship, 
especially as nuclear forces are significantly reduced.'' I remain 
concerned that we will ratify this treaty without having the full 
appreciation of its impacts 7 years down the road. What will the U.S. 
nuclear force structure look like under New START?
    Secretary Gottemoeller and Dr. Warner. DOD has developed a baseline 
nuclear force structure for the New START treaty that fully supports 
U.S. security requirements without requiring changes to current or 
planned basing arrangements. Specifically, under baseline plans, the 
administration plans to field a diversified force that meets New START 
treaty limits by:

        <bullet> Retaining 14 Ohio-class SSBNs and deploying no more 
        than 240 Trident II D5 SLBMs in 12 SSBNs at any time;
        <bullet> Retaining up to 420 deployed Minuteman III ICBMs, each 
        with a single warhead; and
        <bullet> Retaining up to 60 nuclear-capable B-2A and B-52H 
        heavy bombers, while converting the remaining nuclear-capable 
        B-1B and some B-52H heavy bombers to conventional-only 
        capability.

    This baseline force structure provides a basis for future planning. 
The treaty affords the flexibility to make appropriate adjustments as 
necessary.

    30. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, how does 
our force rank against likely Russian force structure, including 
cheating scenarios, under New START?
    Secretary Gottemoeller and Dr. Warner. Under New START, there is 
likely to be rough equivalence in U.S. and Russian strategic nuclear 
forces, with both sides retaining a strategic triad of ICBMs, SLBMs 
carried on nuclear-powered strategic submarines, and heavy bombers, 
although there will be differences in the details of the two force 
structures. Should the Russians substantially expand the number of 
deployed strategic delivery vehicles and/or deployed warheads by 
cheating or breakout, the United States could respond in a variety of 
ways depending upon the international security situation, to include:

        <bullet> The United States could substantially upload the 
        ballistic missile submarine leg of the triad with hundreds of 
        additional warheads and/or send additional strategic submarines 
        to sea on day-to-day alert status.
        <bullet> The United States could also choose to return a 
        portion of its heavy bomber force to a day-to-day alert 
        posture. In this posture, such heavy bombers--loaded with 
        nuclear armaments--would be capable of take-off and safe escape 
        from their airbases within minutes after receiving tactical 
        warning of an imminent Russian strike, thus improving their 
        survivability. These bombers could then contribute 
        substantially to any U.S. nuclear response.
        <bullet> The United States could also upload additional ICBM 
        warheads on a portion of its deployed Minuteman III force and 
        could choose to redeploy a limited number of additional ICBMs 
        and warheads in nondeployed silo launchers.

    Please see the classified National Intelligence Estimate on 
monitoring the New START treaty for additional information relevant to 
this question.

    31. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, is 
cheating harder to detect under New START than START I?
    Secretary Gottemoeller and Dr. Warner. [Deleted.]

    32. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, what 
decisions have been made to develop new systems to replace the current 
bombers, ICBMs, SLBMs, and ALCMs that will reach the end of their 
service lives in the 2030 to 2040 period?
    Secretary Gottemoeller and Dr. Warner. DOD plans to sustain and 
modernize U.S. strategic delivery capabilities, as outlined in detail 
in the classified report submitted to Congress in response to section 
1251 of the NDAA of 2010. To this end, over the next decade, the United 
States will invest well over $100 billion to sustain existing strategic 
delivery systems capabilities and modernize strategic systems.
    The fiscal year 2011 budget request and future year program plans 
reflect a decision to proceed with the SSBN(X) to replace the current 
Ohio-class strategic submarines starting in the late 2020s, to sustain 
Minuteman III ICBMs until 2030 as directed by Congress, and to sustain 
dual-capable B-52H and B-2 bombers until at least 2035 and 2040, 
respectively. The DOD is currently conducting an AoA for the next ACLM, 
and will initiate study of options for a follow-on ICBM in 2011-2012.
    Finally, DOD is currently studying the appropriate long-term mix of 
long-range strike capabilities, including heavy bombers as well as non-
nuclear prompt global strike systems, in follow-on analysis to the 2010 
QDR and the NPR; the results of this ongoing work will be reflected in 
the Department's fiscal year 2012 budget submission.

    33. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, what are 
the impacts of unilaterally reducing the nuclear payload on each 
Minuteman III ICBM from three warheads down to a single warhead, while 
Russia has not made any corresponding statement and will actually be 
increasing their reliance on multiple independent reentry vehicles?
    Secretary Gottemoeller and Dr. Warner. De-MIRVing the silo-based 
Minuteman III ICBM force enhances the strategic stability of the 
nuclear balance by reducing the incentives of a would-be attacking side 
to strike first against these high-value, fixed targets. The U.S. de-
MIRVing of ICBMs is being done unilaterally because it enhances 
stability, irrespective of Russia's strategic force structure.
    Limiting MIRVed ICBMs was not an objective in the New START treaty 
negotiations, which focused on extending the overarching arms control 
and verification architecture and permitted each Party to define its 
own strategic nuclear force structure and composition. While Russia 
continues to possess MIRVed, silo-based ICBMs, the Russian force's age 
and smaller size led the United States to determine that it was less 
important to prioritize discouraging the deployment of such systems. 
This is consistent with the approach taken under the Moscow Treaty. 
When the ratification process for the Moscow Treaty was underway in 
2002, Secretary of State Colin Powell testified that, since neither the 
United States nor Russia has any incentive to launch nuclear weapons at 
each other, we no longer view the Russian deployment of MIRVed ICBMs as 
destabilizing to our strategic relationship.
    Instead, the New START treaty grants both parties the right to 
determine for themselves the composition of their own strategic forces, 
reflecting the assessment that both sides will continue to emphasize 
survivable systems--including, but not limited to, MIRVed strategic 
missiles located on SSBNs on the U.S. side and on both SSBNs and road-
mobile ICBMs on the Russian side--which, when deployed at sea or in the 
field, do not raise the destabilizing ``use or lose'' concerns posed by 
heavy MIRVed, silo-based ICBMs.

                           gaps in the treaty
    34. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why does 
this treaty not specifically address rail-based launchers?
    Secretary Gottemoeller and Dr. Warner. The New START treaty defines 
an ICBM launcher as a ``device intended or used to contain, prepare for 
launch, and launch an ICBM.'' This is a broad definition intended to 
cover all ICBM launchers, including rail-mobile launchers if they were 
to be deployed again in the future. Rail-mobile ICBMs and their 
launchers are not specifically addressed in the New START treaty 
because neither the United States nor Russia currently deploys ICBMs in 
that mode. Russia eliminated its rail-mobile SS-24 ICBM system under 
the START treaty. The New START treaty's terms and definitions cover 
all ICBMs and ICBM launchers, including a rail-mobile system should 
either Party decide to develop and deploy such a system.
    A rail-mobile launcher of ICBMs would meet the treaty's definition 
of an ICBM launcher. Such a rail-mobile launcher would therefore be 
accountable under the treaty's limits.
    Because neither Party has rail-mobile ICBM launchers, the previous 
definition of a rail-mobile launcher of ICBMs in the START treaty (``an 
erector-launcher mechanism for launching ICBMs and the railcar or 
flatcar on which it is mounted'') was not carried forward into the New 
START treaty.
    If a Party chose to develop and deploy rail-mobile ICBMs, such 
missiles and their launchers would be subject to the treaty and its 
limitations. Specific details about the application of verification 
provisions would be worked out in the BCC.

    35. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, what 
would it take to ensure the New START addresses all current and future 
launchers and delivery systems?
    Secretary Gottemoeller and Dr. Warner. The New START treaty already 
provides that all current and future strategic systems that meet the 
New START definitions for ICBMs and SLBMs, ICBM launchers and SLBM 
launchers, and heavy bombers equipped for nuclear armaments will be 
subject to the treaty during its lifetime. For other types of delivery 
systems, Article V of the New START treaty states that when a Party 
believes that a new kind of strategic offensive arm is emerging, that 
Party has the right to raise the question for consideration in the BCC. 
The BCC has the authority to resolve issues related to the 
applicability of the provisions of the treaty to a new kind of 
strategic offensive arm--if both Parties agree that the system is, in 
fact, a new kind. However, U.S. negotiators made clear during the New 
START treaty negotiations that we would not consider future, strategic-
range non-nuclear systems that do not otherwise meet the definitions of 
systems limited under the New START treaty to be ``new kinds of 
strategic offensive arms'' for the purposes of the treaty.

    36. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, the 
Perry-Schlesinger Strategic Posture Commission report notes: ``The 
combination of new warhead designs, the estimated production capability 
for new nuclear warheads, and precision delivery systems such as the 
Iskander short-range tactical ballistic missile, open up new 
possibilities for Russian efforts to threaten to use nuclear weapons to 
influence regional conflicts.'' Moreover, in March 2003, then-Senator 
Biden stated, ``After entry into force of the Moscow Treaty, getting a 
handle on Russian tactical nuclear weapons must be a top arms control 
and nonproliferation objective of the United States Government.'' Why 
does this treaty not address tactical nuclear weapons, even though 
tactical nuclear weapons remain one of the most significant threats to 
our national security?
    Secretary Gottemoeller and Dr. Warner. We did not make limiting 
tactical nuclear weapons an objective for this agreement because from 
the outset the New START treaty was intended to replace the START 
treaty, which was about strategic offensive forces. The Joint 
Understanding signed by President Obama and President Medvedev on July 
6, 2009, directed that the United States and Russia conclude a new 
legally binding agreement to replace the START treaty ``at an early 
date.'' A more ambitious treaty that addressed nonstrategic/tactical 
nuclear weapons would have taken much longer to complete, adding 
significantly to the time before a successor agreement, including 
verification measures, could enter into force following the START 
treaty's expiration in December 2009. The desire to minimize the time 
before a successor agreement, including verification measures, could 
enter into force following the START treaty's expiration, combined with 
the need to consult closely with our allies before addressing possible 
limitations on and reductions in nonstrategic/tactical nuclear weapons, 
did not support broadening the scope of the New START treaty to address 
tactical nuclear weapons. Deferring negotiations on nonstrategic/
tactical nuclear weapons until after a successor agreement to the START 
treaty had been concluded was also the recommendation of the Perry-
Schlesinger Congressional Strategic Posture Commission. Moreover, 
because of their limited range and very different roles from those 
played by strategic nuclear forces, the vast majority of nonstrategic/
tactical nuclear weapons do not directly influence the strategic 
nuclear balance between the United States and Russia.

                            missile defense
    37. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, the 
implications of this treaty on missile defense have yet to be clarified 
completely. Please explain how and why this treaty involves missile 
defense.
    Secretary Gottemoeller and Dr. Warner. The New START treaty does 
not constrain the United States from deploying the most effective 
missile defenses possible, nor does it add any additional cost or 
inconvenience to the implementation of U.S. missile defense plans. The 
New START treaty does not contain any constraints on the testing, 
development, or deployment of current or planned U.S. missile defense 
programs.
    The preamble of the treaty contains a statement of fact 
acknowledging the interrelationship of strategic offensive and 
strategic defensive arms, which was also contained in the U.S.-Russian 
Joint Understanding of July 6, 2009, and recognizes that this 
relationship will become more important as strategic offensive arms are 
reduced. The preamble also affirms that currently deployed strategic 
defensive arms do not undermine the viability and effectiveness of 
either Party's strategic offensive arms. These statements create no 
constraints regarding future U.S. BMD programs.
    Paragraph 3 of Article V of the treaty prohibits the conversion of 
ICBM or SLBM launchers to missile defense launchers, as well as the 
conversion of missile defense launchers to launch ICBMs or SLBMs. 
Article V also ``grandfathers'' the five former ICBM silos at 
Vandenberg Air Force Base that were converted for GBIs several years 
ago.
    The United States agreed to this provision in the treaty because it 
resolves a longstanding ambiguity that arose during implementation of 
the START treaty. Specifically, it ensures that our five former ICBM 
test silo launchers at Vandenberg that now are used for missile defense 
interceptors will not be a continuing subject of dispute with Russia 
and will not count against the New START treaty's limits on nondeployed 
ICBM launchers.
    This provision will have no operational impact on U.S. missile 
defense efforts. As Lieutenant General O'Reilly, Director of the 
Missile Defense Agency, has testified, the United States has no plans 
to convert additional ICBM silos to missile defense interceptor 
launchers. Doing so would be more expensive than building smaller, 
tailor-made GBI silos from scratch. Moreover, as Lieutenant General 
O'Reilly has also stated, newly built GBI silos are easier both to 
protect and maintain.
    With regard to the conversion of SLBM launchers into missile 
defense interceptor launchers, as Lieutenant General O'Reilly stated in 
his testimony, the Missile Defense Agency had examined earlier the 
concept of launching missile defense interceptors from submarines and 
found it operationally unattractive and an extremely expensive option. 
He added that the United States already has a very good and 
significantly growing capability for sea-based missile defense on 
Aegis-capable surface ships, which are not constrained by the New START 
treaty.
    On April 7, 2010, just prior to the signing of the New START 
treaty, both the United States and the Russian Federation made 
unilateral statements concerning ballistic missile defense. These 
statements are not an integral part of the treaty. Russia asserted in 
its unilateral statement that any build-up in U.S. missile defenses 
that would ``give rise to a threat to the strategic nuclear force 
potential of the Russian Federation'' would justify Russia's withdrawal 
from the treaty. This statement is not legally binding and does not 
constrain U.S. missile defense programs. In fact, either side has the 
right to withdraw, under the terms of the treaty itself, if it decides 
that extraordinary events related to the subject matter of the treaty 
have jeopardized its supreme interests. Such withdrawal clauses are 
common in arms control treaties.
    The Russian unilateral statement in no way changes the legal rights 
or obligations of the Parties under the treaty. Further, the U.S. 
unilateral statement in response makes clear that the United States 
intends to continue to improve and deploy the most effective missile 
defense capabilities possible, in order to defend the U.S. Homeland 
from limited ballistic missile attacks and to defend U.S. deployed 
forces, our allies, and partners from growing regional ballistic 
missile threats.
    As the U.S. unilateral statement, the 2010 Ballistic Missile 
Defense Review Report, and our budgetary plans all make clear, the 
United States will continue to improve our missile defenses, as needed 
to defend the U.S. Homeland, our deployed forces, and our allies and 
partners. Nothing in the New START treaty limits our ability to do 
this.

    38. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, when 
taken together, the treaty preamble, Russian unilateral statement, and 
pronouncements by senior Russian officials suggest the Russians believe 
there is a linkage between certain U.S. missile defense activities and 
their adherence to the treaty. No one in the administration has been 
able to explain why. The unilateral statement issued by the Russians on 
missile defense, released the same day as the full agreed-upon treaty 
text in Prague on April 8, 2010, states that the treaty ``can operate 
and be viable only if the United States of America refrains from 
developing its missile defense capabilities quantitatively or 
qualitatively.'' Russia's Foreign Minister, Sergei Lavrov, stated: ``We 
have not yet agreed on this [missile defense] issue and we are trying 
to clarify how the agreements reached by the two presidents . . . 
correlate with the actions taken unilaterally by Washington,'' and 
added that the ``Obama administration had not coordinated its missile 
defense plans with Russia.'' Please explain in detail what the 
collection of Russian statements and actions mean for the future of 
missile defense under this treaty.
    Secretary Gottemoeller and Dr. Warner. The United States will 
continue its missile defense programs and policies, as outlined in the 
2010 Ballistic Missile Defense Review Report. The treaty preamble and 
Russia's unilateral statement have not changed our course, as laid out 
in the review, nor will they.
    Russia's unilateral statement merely reflects Russia's current 
position that the ``extraordinary events'' that could justify Russia's 
withdrawal from the treaty include a build-up in U.S. missile defense 
system capabilities that would threaten the Russian strategic nuclear 
force potential. We have continuously assured Russia, however, that the 
U.S. BMD system is neither designed nor intended to threaten the 
strategic balance with Russia.
    President Medvedev explained the Russian view regarding ``a 
qualitative or quantitative build-up in the missile defense system 
capabilities of the United States'' during a television interview in 
April 2010 in which he said: ``That does not mean that if the United 
States starts developing missile defense the treaty would automatically 
be invalidated, but it does create an additional argument that binds us 
and that makes it possible for us to raise the question of whether 
quantitative change to missile defense systems would affect the 
fundamental circumstances underlying the treaty. If we see that 
developments do indeed represent a fundamental change in circumstances, 
we would have to raise the issue with our American partners. But I 
would not want to create the impression that any changes would be 
construed as grounds for suspending a treaty that we have only just 
signed.''

    39. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, do you 
believe that the Russians view the deployment of 10 GBIs in Poland as a 
threat?
    Secretary Gottemoeller and Dr. Warner. The plan to deploy 10 GBIs 
in Poland was part of the previous administration's 2007 program for 
U.S. missile defense deployments in Europe. The plan was replaced by 
the European PAA to U.S. missile defense deployments in Europe, 
announced by President Obama on September 17, 2009, which does not 
include this deployment option.

    40. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why did 
the Russians voice concern about the deployment of advanced versions of 
the SM-3 missiles in Europe?
    Secretary Gottemoeller and Dr. Warner. Russia has expressed concern 
that the SM-3 version slated to be deployed under Phase 4 of the 
European PAA, which is designed to be capable of defending against 
ICBMs launched from the Middle East, could pose a threat to Russia's 
strategic nuclear deterrent.
    The administration has explained that U.S. missile defenses, 
including those to be deployed during all phases of the European PAA, 
will not pose a threat to Russia's strategic deterrent. In an effort to 
address Russian concerns, we have provided, and will continue to 
provide, policy and technical explanations regarding why U.S. BMD 
capabilities such as those associated with the European PAA will not 
undermine Russia's strategic nuclear deterrent.

    41. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, do we 
know what the Russians think constitutes a ``qualitative'' or 
``quantitative'' improvement in U.S. missile defense capabilities that 
could impact their strategic capabilities and allow them to withdrawal 
from the treaty?
    Secretary Gottemoeller and Dr. Warner. We do not know what Russia 
would consider to be a level of U.S. missile defense capability that 
would give rise to a threat to Russia's strategic nuclear force 
potential and thus could justify its withdrawal from the treaty. 
However, the U.S. unilateral statement made in response to the Russian 
unilateral statement makes clear that U.S. missile defense systems are 
not intended to affect the strategic balance with Russia and that the 
United States intends to continue improving and deploying its missile 
defense capabilities in order to defend the U.S. Homeland from limited 
ballistic missile attacks and to defend U.S. deployed forces, our 
allies, and partners from growing regional ballistic missile threats.
    At a press conference on April 6, 2010, just prior to the signing 
of the treaty, Russian Foreign Minister Lavrov stated that the Russian 
Federation would have the right to withdraw from the treaty if a 
quantitative and qualitative buildup of U.S. strategic missile defense 
began to have a significant impact on the effectiveness of Russian 
strategic nuclear forces, and that Russia would make such a 
determination on its own.
    President Medvedev explained the Russian view regarding ``a 
qualitative or quantitative build-up in the missile defense system 
capabilities of the United States'' during a television interview on 
April 12, 2010 in which he said: ``That does not mean that if the USA 
starts developing missile defense the treaty would automatically be 
invalidated, but it does create an additional argument that binds us 
and that makes it possible for us to raise the question of whether 
quantitative change to missile defense systems would affect the 
fundamental circumstances underlying the treaty. If we see that 
developments do indeed represent a fundamental change in circumstances, 
we would have to raise the issue with our American partners. But I 
would not want to create the impression that any changes would be 
construed as grounds for suspending a treaty that we have only just 
signed.''

                              verification
    42. Senator Inhofe. Secretary Gottemoeller, I am perplexed by your 
statement describing the New START verification procedures as simple 
and less costly. I remain concerned that the verification process 
contained in this treaty does not ensure treaty obligations can be 
monitored, and that cheating is not only discouraged but also caught, 
especially in later years. My concerns were reinforced during every 
hearing to this point when it was fully disclosed that the Russians 
have violated every agreement we have ever had with them. Your response 
to Senator McCain's questions on this topic during our hearing did 
little to assuage my concerns. Why have you not provided Congress with 
any information on Russian compliance or noncompliance with any of our 
previous treaties?
    Secretary Gottemoeller. On July 1, 2010, the administration 
provided to the Senate a comprehensive report on the Adherence to and 
Compliance with Arms Control Nonproliferation, and Disarmament 
Agreements and Commitments. The report covered the period from January 
2004 through December 2008 with an update for 2009. The Report 
addressed Russian compliance with the START treaty. In April 2010, the 
administration submitted its annual report on Russia's implementation 
of the Moscow Treaty.

    43. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, what are 
the Russian violations of arms control agreements?
    Secretary Gottemoeller and Dr. Warner. [Deleted.]

    44. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, what is 
being done to ensure that we can catch Russian violations of 
agreements?
    Secretary Gottemoeller and Dr. Warner. The New START treaty 
verification regime ensures that the United States would be aware of 
militarily significant violations of the treaty by Russia in time to 
respond appropriately, and will also provide insights that would help 
us detect troubling patterns of marginal violations.

    45. Senator Inhofe. Secretary Gottemoeller, what is our recourse if 
we determine there are violations of an arms control treaty, beyond a 
statement of concern or executive-level discussion?
    Secretary Gottemoeller and Dr. Warner. Although the New START 
treaty is less complex than the START treaty, different interpretations 
by the Parties might arise regarding how to implement the inspection 
activities and other verification provisions of the New START treaty. 
Should such a situation arise, the Parties will seek to resolve their 
differences in the treaty's BCC. If necessary, we would take an issue 
to a higher political level to resolve.
    The New START treaty verification regime ensures that the United 
States would be aware of militarily significant violations of the 
treaty by Russia in time to respond appropriately, and will also 
provide insights that would help us detect troubling patterns of 
marginal violations.
    Any cheating in relation to this treaty would be deemed politically 
significant, due to what such cheating would indicate regarding 
Russia's intent, and its perception of U.S.-Russia bilateral relations.
    The United States could respond in a variety of ways to Russian 
cheating or breakout. Depending on the nature and extent of Russian 
cheating or breakout, the U.S. responses could range from raising the 
issue in diplomatic channels, to changing the posture of U.S. strategic 
forces (e.g. by increasing alert levels), to exercising our right to 
withdraw from the treaty, to increasing the size of deployed U.S. 
strategic forces by uploading additional warheads on SLBMs, ICBMs, and/
or heavy bombers.

    46. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why does 
the New START only have 18 inspections per year, or 180 inspections in 
10 years when, during START I, we conducted on the order of 600 
inspections during the 15 years of START I?
    Secretary Gottemoeller and Dr. Warner. Although it is true that the 
New START treaty provides for fewer inspections in a given year--18, 
rather than the annual quota of 28 permitted under the START treaty--
the number of facilities for which Russia provided site diagrams and 
will therefore be subject to inspection is 35, substantially lower than 
the 70 facilities belonging to the four successor states to the former 
Soviet Union that were subject to inspection at entry into force of the 
START treaty. There are fewer facilities primarily because Belarus, 
Kazakhstan, and Ukraine no longer have strategic offensive arms and 
therefore are not parties to the New START treaty, and because Russia 
has eliminated or consolidated a number of facilities where strategic 
offensive arms had been located and had been subject to inspection 
under START. Thus, there are fewer facilities that we need to inspect, 
and we need fewer inspections to achieve a comparable level of 
oversight. In addition, Type One inspections combine many of the 
aspects associated with two different types of inspections that were 
conducted separately under the START treaty; specifically, reentry 
vehicle onsite inspections and data update inspections. Thus, we can 
achieve many of the results of the previous START treaty inspection 
regime with a smaller number of annual inspections.
    The U.S. Government assessed the number of Type One and Type Two 
inspections needed annually to meet U.S. inspection objectives as the 
nature of these inspection types emerged during the New START 
negotiations. These assessments ultimately concluded that an annual 
quota of 18 such inspections would be adequate to meet U.S. inspection 
needs.

    47. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why does 
New START eliminate continuous monitoring of mobile ICBM production, 
reduce data exchanges and notifications, weaken telemetry exchanges to 
only five flights per year, and allow the Russians to pick which ones 
they share, and eliminate cooperative measures?
    Secretary Gottemoeller and Dr. Warner. The New START verification 
provisions are tailored to verify the requirements of the New START 
treaty, which are different from the START treaty requirements.
    Continuous perimeter and portal monitoring at the Votkinsk 
Production Facility began as part of the INF Treaty and was one of the 
verification measures used to monitor mobile ICBM production under the 
START treaty. During the last administration, the United States and 
Russia agreed that neither side wanted to extend the START treaty. 
Preparations for ending the monitoring at Votkinsk began in 2008 so 
that the United States would be able to depart in an orderly way when 
the START treaty expired on December 5, 2009.
    The New START treaty contains a new, simplified provision to track 
and account for new solid-fueled ICBMs and SLBMs exiting the production 
facility at Votkinsk. The New START treaty specifically requires Russia 
to notify the United States 48 hours in advance every time a solid-
fueled ICBM or SLBM is scheduled to leave its production facility. The 
United States agreed to provide this same notification regarding the 
exit of any solid-fueled ICBM or SLBM from its production facility. 
Like the START treaty, the New START treaty also requires that each 
side notify the other of completion of a missile's transit and of its 
new location. These provisions will facilitate monitoring through 
national technical means of verification. In addition, the New START 
treaty requires the application of unique alpha-numeric identifiers on 
all ICBMs and SLBMs as well as heavy bombers to help track and account 
for them from the time they are produced until they are eventually 
eliminated or converted, or otherwise removed from accountability.
    Regarding on telemetry, the START treaty had limits, prohibitions, 
and obligations that required the analysis of telemetric information to 
ensure that a Party was complying with the treaty. Under the New START 
treaty, there are no obligations, prohibitions, or limitations that 
require the analysis of telemetric information in order to verify a 
Party's compliance with the treaty. For instance, the treaty does not 
limit the development of new types of missiles, so there is no 
requirement to determine the technical characteristics of new missiles 
such as their launch weight or throw-weight in order to distinguish 
them from existing types.
    Nevertheless, to promote transparency and predictability, the 
Parties agreed to allow for the exchange of telemetric information on 
an agreed equal number (up to five annually) of launches of ICBMs and 
SLBMs, with the testing Party deciding the launches on which it will 
exchange information. The specifics of the annual telemetry exchanges 
will be worked out in the treaty's implementation body, the BCC.
    Cooperative measures, under which heavy bombers or mobile launchers 
of ICBMs were, upon request, placed in the open for viewing by national 
technical means of verification, are not required by the New START 
treaty. During the development of the New START treaty's verification 
regime, the U.S. and Russia decided not to retain cooperative measures 
under New START. The New START treaty's verification regime, which 
includes onsite inspections, a comprehensive database, a wide range of 
notifications, and unique identifiers, is designed to permit 
verification of each Party's compliance with the treaty's provisions, 
including the three central numerical limits contained in Article II of 
the treaty.
    In light of the end of the Cold War and building upon the extensive 
START treaty implementation experience, the obligations and 
prohibitions of the New START treaty are fewer and less complicated 
than those of the START treaty. Accordingly, the verification 
provisions are simpler and less costly to implement than those in 
START, but will ensure effective verification of the New START treaty.

    48. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why have 
short-notice verification inspections been eliminated?
    Secretary Gottemoeller and Dr. Warner. Short-notice verification 
inspections have not been eliminated. The New START treaty provides for 
the conduct of up to 18 short-notice, onsite inspections each year to 
aid in verifying each Party's compliance with its treaty obligations. 
These inspections have specific provisions to provide each Party with 
18 opportunities per year to select from among declared strategic 
forces facilities of the other Party to verify the accuracy of data 
declarations and deter cheating.

    49. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why have 
mobile launchers of ICBMs located at a maintenance facility been 
designated as non-inspectable items under the New START? This seems to 
me to have the potential to exempt a portion of, and even the entire, 
mobile ICBM force from inspections.
    Secretary Gottemoeller and Dr. Warner. Mobile launchers of ICBMs 
located at a maintenance facility are inspectable items under the New 
START treaty. If an ICBM base for mobile launchers of ICBMs is 
designated by a U.S. inspection team for a Type One inspection, during 
the pre-inspection briefing Russia will provide U.S. inspectors with a 
site diagram of the ICBM base that will depict the locations of all 
deployed and nondeployed road-mobile ICBM systems located at the base 
at the time. The site diagram will also specify the boundaries of the 
maintenance facility, which is an inspectable part of the ICBM base. 
All deployed and nondeployed mobile ICBMs or ICBM mobile launchers 
located at the maintenance facility when the inspection team arrives at 
the base are subject to inspection in order to confirm the accuracy of 
the data on numbers and types of declared launchers and ICBMs that were 
provided to inspectors during the pre-inspection briefing.
    A mobile launcher of ICBMs located at a maintenance facility may 
not, however, be designated for inspection to confirm the number of 
reentry vehicles emplaced on a deployed ICBM contained on such a mobile 
launcher of ICBMs. This is analogous to the practice for reentry 
vehicle onsite inspections under the START treaty.

    50. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, why do 
New START procedures regarding the elimination of delivery vehicles not 
require inspectors present during final stages of elimination and only 
require inspectors to observe debris of only half the missiles subject 
to New START protocols?
    Secretary Gottemoeller and Dr. Warner. The standard for elimination 
of strategic offensive arms under the New START treaty requires that 
they be rendered inoperable, precluding their use for their original 
purpose. It should be noted this is a uniform standard, applied equally 
to all accountable strategic offensive arms. With regard to solid-
fueled ICBM, solid-fueled SLBM, and mobile ICBM launcher eliminations, 
the ``accumulation rules'' set forth in Part Five of the Protocol 
provide convenient opportunities to observe the results of significant 
numbers of eliminated items during a single inspection. Unique 
identifiers also will assist in accounting for eliminated ICBMs and 
SLBMs.
    The verifiability assessment of the New START treaty is conveyed in 
the State Department's classified Section 306 report, which addresses 
the determinations of the U.S. Government as to the degree to which the 
limits of the New START treaty, including the elimination provisions, 
can be verified. The Section 306 report was published on July 12, 2010, 
and has been provided to the Senate.

                               deterrence
    51. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, the 
cornerstone of our national defense has been our ability to maintain 
our nuclear arsenal in order to deter attacks on our Nation and over 30 
international allies that are protected by our nuclear umbrella. I 
firmly believe that deterrence reduces proliferation by their continued 
reliance on our nuclear deterrent rather than to develop their own, and 
deters our enemies from using weapons of mass destruction against our 
country or our allies. Secretary Gates stated back in October 2008, 
``As long as others have nuclear weapons, we must maintain some level 
of these weapons ourselves to deter potential adversaries and to 
reassure over two dozen allies and partners who rely on our nuclear 
umbrella for their security, making it unnecessary for them to develop 
their own.'' New START focuses on reducing the strategic nuclear 
arsenals of Russia and the United States and fails to address 
proliferation of nuclear weapons in other countries, the large number 
of tactical nuclear weapons and the increased threat of a nuclear 
terrorist attack. How does New START ensure that our nuclear 
capabilities continue to offer enough deterrence against our potential 
threats?
    Secretary Gottemoeller and Dr. Warner. The NPR analysis and 
deliberations concluded that the limits contained in the New START 
treaty would be sufficient to support our deterrence requirements, 
including extended deterrence for our allies and partners, in the 
current and projected international security environment. Specifically, 
the NPR determined that the United States should retain a nuclear triad 
and determined the appropriate number of strategic delivery vehicles 
based on four requirements:

    (1)  supporting strategic stability through maintenance of an 
assured second-strike capability that is able to meet the national 
nuclear deterrence guidance;
    (2)  retaining sufficient force structure in each leg to allow the 
ability to hedge effectively by shifting weapons capabilities from one 
triad leg to another, if necessary, due to unexpected technological 
problems or operational vulnerabilities;
    (3)  retaining a delivery capability margin above the minimum-
required nuclear force structure for the possible addition of non-
nuclear, prompt-global strike capabilities that would be accountable 
within the treaty limits; and
    (4)  providing the basis for maintaining the needed strategic 
offensive capabilities over the next several decades or more, including 
retaining a sufficient cadre of trained military and civilian personnel 
and adequate infrastructure to support the strategic nuclear deterrence 
mission.

    The NPR clearly attests to the commitment of the executive branch 
to sustain an effective nuclear deterrent for the long term--and New 
START preserves our ability to do so. The inclusion in the New START 
treaty of the definitions of ``deployed'' and ``nondeployed'' ICBMs and 
SLBMs as well as provisions for excluding conventional--only B-1B 
bombers and U.S. SSGN submarines from accountability against treaty 
limits, the converting of individual SLBM launch tubes on U.S. SSBNs, 
and the converting of a subset of the B-52H fleet to a conventional-
only capability, all contribute to the U.S. ability to sustain a robust 
nuclear triad under the New START treaty's central limits.

    52. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, how does 
New START protect us against the threat of nuclear terrorism and 
proliferation?
    Secretary Gottemoeller and Dr. Warner. The New START treaty is just 
one element of a comprehensive strategy to implement the President's 
nuclear security agenda. The New START treaty mandates lower limits on 
deployed strategic warheads and delivery vehicles in the U.S. and 
Russian arsenals.
    Our renewed focus on improving our relations with Russia, including 
the negotiations on the New START treaty, has led to a greater 
understanding and increased cooperation between the United States and 
Russia in a number of areas, including in working toward the 
President's goal of securing all vulnerable nuclear materials 
worldwide. Enhanced cooperation between the United States and Russia in 
the nuclear arena contributes to the positive international environment 
needed to reinforce programs to secure and safeguard nuclear material 
stockpiles worldwide, and to strengthen the NPT. More generally, 
improved U.S.-Russian relations help in achieving critical U.S. foreign 
policy objectives related to U.S. security, including efforts to 
address the nuclear programs of Iran and North Korea.
    The New START treaty positions the United States to continue its 
international leadership role in advancing the goals of the NPT regime. 
The conclusion of the New START treaty with Russia strengthened the 
U.S. position during the NPT Review Conference in May 2010, and helped 
aid our efforts to conclude a consensus final document, which did not 
occur at the previous Review Conference in 2005. The New START treaty 
set the stage for engaging other nuclear powers in fulfilling the goals 
of the NPT, and expanding opportunities for enhancing strategic 
stability.
    Together with DOE nonproliferation programs, the Nunn-Lugar 
Cooperative Threat Reduction (CTR) Program has contributed to the 
upgrading of physical security systems at Russia's nuclear weapons 
storage sites, as well as provided training facilities for guard 
forces, equipped an emergency response force, and helped the Russian 
Ministry of Defense to establish a personnel reliability program. In 
tandem with the eliminations under the New START treaty, these past and 
continuing efforts will support the objective of keeping nuclear 
weapons and delivery systems out of the hands of terrorists.

    53. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, is the 
U.S. force capable of carrying out our deterrence and extended 
deterrence missions now and in the future, based on Russian strategies 
and development plans?
    Secretary Gottemoeller and Dr. Warner. Yes. Strategic force 
analysis and deliberations that occurred during the NPR concluded that 
U.S. strategic forces fielded at the limits contained in the New START 
treaty would be sufficient to support U.S. deterrence requirements, 
including extended deterrence for our allies and partners, in the 
current and projected international security environments.

    54. Senator Inhofe. Secretary Gottemoeller and Dr. Warner, how does 
New START ensure that all existing nuclear weapons remain secure?
    Secretary Gottemoeller and Dr. Warner. Our renewed focus on 
improving our relations with Russia, including the negotiations on the 
New START treaty, has led to a greater understanding and increased 
cooperation between the United States and Russia in a number of areas, 
including toward the President's goal of securing all vulnerable 
nuclear materials worldwide. This renewed relationship is a key factor 
as we work toward curbing nuclear threats around the globe. The New 
START treaty demonstrates the continuing commitment of the United 
States and Russia to reduce our respective nuclear arsenals consistent 
with obligations under the NPT. Enhanced cooperation between the United 
States and Russia in the nuclear arena will contribute to the positive 
international environment needed to reinforce programs to secure and 
safeguard nuclear material stockpiles worldwide, and to strengthen the 
NPT.
    Clearly, the responsibility for Russia's implementation of the New 
START treaty and for maintaining the security of its nuclear weapons 
will belong to the Government of the Russian Federation. Nevertheless, 
the U.S. CTR program, in concert with the nonproliferation programs of 
the DOE, has historically played a very significant role in assisting 
the Russian government in securing Russian nuclear weapons and stocks 
of fissile materials. The role of these programs will be, as it was 
throughout the implementation of the START treaty, to incentivize the 
Russian Government to continue the excellent cooperation it has had 
with the United States in eliminating Russian strategic delivery 
systems and in enhancing the security of its nuclear weapons storage 
and transportation.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                       vehicle and warhead limits
    55. Senator Vitter. Dr. Warner, do you believe that the levels set 
forth by the New START are enough of a deterrent to maintain the levels 
of security that the U.S. currently has with its arsenal, given the 
rising number of nuclear states?
    Dr. Warner. Yes. The United States, and our allies and partners, 
will not assume any additional security risk due to the fact that the 
United States would reduce its strategic nuclear forces to comply with 
the limits of the New START treaty. The 2010 NPR concluded that the 
United States could sustain stable deterrence with Russia and meet its 
deterrence requirements vis-a-vis other potential adversaries with 
significantly fewer deployed strategic nuclear warheads and lower 
limits on deployed as well as nondeployed U.S. strategic delivery 
vehicles (SDVs). Mindful of the NPR analysis, the United States agreed 
with the Russian Federation to limits of 1,550 strategic warheads, 700 
deployed SDVs, and 800 deployed and nondeployed ICBM and SLBM launchers 
and nuclear-capable heavy bombers. The United States agreed to these 
limits only after DOD validated, through rigorous analysis conducted 
during the NPR, that a U.S. strategic force fielded within these 
limits, as defined in the treaty, could meet the full range of 
objectives desired for the U.S. nuclear deterrent.

    56. Senator Vitter. Dr. Warner, under the New START, the U.S. and 
Russian deployment delivery vehicles are limited to 700 and nuclear 
warheads to 1,550. What concessions were given, since Russia is already 
below the 700 level, and they are only required to stay below these 
levels?
    Dr. Warner. The decision to agree to a limit of 700 deployed 
strategic delivery vehicles did not result from a change in the 
security environment or any concessions to the Russia side, but from an 
assessment of U.S. requirements conducted in the 2010 NPR, and force 
deployment options in the light of key elements of the New START treaty 
that emerged in the course of the negotiations. The relevant elements 
that helped make a limit of 700 deployed strategic delivery vehicles 
acceptable included:

        <bullet> The definitional difference between deployed and 
        nondeployed ICBM and SLBM launchers: This will allow the United 
        States to count the SLBM launchers on two SSBNs, which will be 
        in extended overhaul during most of the treaty, as nondeployed 
        rather than deployed strategic delivery vehicles (SDVs).
        <bullet> The agreement to the right to convert individual SLBM 
        launchers on SSBNs: We plan to convert four tubes on each of 
        our 14 SSBNs in this manner so that those launchers will not be 
        counted against the treaty limits.
        <bullet> Provisions for the conversion of heavy bombers to 
        conventional-only capability: This provision will remove all of 
        the converted B-1Bs and some B-52Hs from accountability under 
        the treaty limits.

    Once these provisions were agreed, it became clear that we could 
sustain a strong nuclear triad and meet deterrence and hedging 
requirements within a limit of 700 deployed ICBMs, deployed SLBMs, and 
deployed heavy bombers.

    57. Senator Vitter. Dr. Warner, did we concede important deployment 
capabilities in order to come to the number of delivery vehicles and 
warheads required by the New START?
    Dr. Warner. No. The treaty allows the United States to retain and 
deploy a strong nuclear triad and does not constrain important 
conventional capabilities (including conventional prompt global strike) 
or missile defenses. As stipulated in the report submitted with the New 
START treaty pursuant to section 1251 of the NDAA for Fiscal Year 2010, 
the United States will pursue a future force structure under the New 
START treaty that will preserve adequate flexibility, including 
possible accountable conventional prompt global strike systems 
currently under study by DOD. In addition, NPR analysis concluded that 
New START treaty strategic delivery vehicle and warhead limits will 
allow retention of a margin above the minimum required nuclear force 
structure for the possible addition of non-nuclear prompt global strike 
capabilities--conventionally-armed ICBMs or SLBMs--that would be 
accountable under the treaty.

    58. Senator Vitter. Secretary Gottemoeller, do you believe that the 
reductions in New START will incite other nuclear nations to increase 
their arsenals to attempt to achieve parity with the United States or 
Russia?
    Secretary Gottemoeller. No. The only nation that could potentially 
compete with the United States or Russia in the size of its nuclear 
weapons arsenal is China. The New START treaty limits will permit the 
United States to maintain forces well above China's. Chinese spokesmen 
have stated that China does not seek to attain numerical parity with 
Russia or the United States, and China's nuclear arsenal remains much 
smaller than the U.S. and Russian arsenals. As a declared nuclear 
weapon state under the NPT, China's restraint in its nuclear 
modernization is important to nuclear disarmament and global 
nonproliferation efforts. We look to China to be more transparent about 
its strategic programs and to show restraint in them.

                        tactical nuclear weapons
    59. Senator Vitter. Secretary Gottemoeller, have any of our allies 
expressed any concerns to DOS about the New START and its failure to 
address tactical nuclear weapons?
    Secretary Gottemoeller. No. Allies have not expressed concerns with 
the New START treaty. To the contrary, the response from our allies to 
the conclusion of the New START treaty has been overwhelmingly 
positive, with many seeing it as an important step forward in global 
nonproliferation efforts. For example, on behalf of NATO allies, NATO 
Secretary General Anders Fogh Rasmussen welcomed the agreement as an 
important contribution to arms control and an inspiration for further 
progress.
    With regard to nonstrategic/tactical nuclear weapons, during 
consultations throughout the development of the 2010 NPR and since the 
release of the NPR report and the signing of the New START treaty, 
allies have told us they are comfortable with our planned nuclear force 
posture, which is consistent with NPR recommendations and the New START 
treaty. More recently, at Tallinn in their initial discussions on the 
role of nuclear weapons in NATO, allied foreign ministers welcomed the 
principle of including nonstrategic/tactical nuclear weapons in any 
future U.S.-Russian arms control talks.

    60. Senator Vitter. Secretary Gottemoeller, why were tactical 
nuclear weapons not addressed in New START?
    Secretary Gottemoeller. From the outset, the New START treaty was 
intended to replace the START treaty, which was about strategic 
offensive forces. The desire to conclude the New START treaty quickly 
in light of the pending expiration of the START treaty, combined with 
the need to consult closely with our allies before addressing 
nonstrategic/tactical nuclear weapons, did not support broadening the 
scope of the New START treaty to address tactical nuclear weapons. 
Furthermore, because of their limited range and very different roles, 
the vast majority of nonstrategic/tactical nuclear weapons do not 
directly influence the strategic balance between the United States and 
Russia. Deferring negotiations on tactical nuclear weapons until after 
a START treaty successor agreement had been concluded was also the 
recommendation of the Perry-Schlesinger Congressional Strategic Posture 
Commission. We intend to raise strategic and nonstrategic/tactical 
nuclear weapons, including nondeployed nuclear weapons, in future 
nuclear arms reduction discussions with Russia.

    61. Senator Vitter. Secretary Gottemoeller, according to DOS, 
Russia is able to cheat on the New START. The treaty also failed to 
address tactical nuclear weapons, and a new follow on treaty is needed 
to address the issue of tactical nuclear weapons. If Russia is allowed 
to cheat on the New START, what will deter them from doing so in a 
follow-on treaty that deals with tactical nuclear weapons?
    Secretary Gottemoeller. The United States would view any deliberate 
effort by Russia to exceed the New START treaty's limits or circumvent 
its verification regime with great concern. The United States takes 
very seriously the prospect of cheating. Should the United States find 
that Russia was cheating with respect to the New START treaty, the 
executive branch would immediately raise this matter through diplomatic 
channels, and if not resolved, raise it promptly to higher levels. We 
would also keep the Senate informed. No treaty or agreement can prevent 
cheating; but as was the case under the START treaty, onsite 
inspections and other elements of the treaty's verification regime will 
allow the Parties to confirm the declared numbers of missiles, mobile 
launchers, and deployed warheads on a spot-check basis, thereby helping 
to detect and deter cheating.

    [Whereupon, at 11:49 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
